                                 fy
                                          02
      United States Army Annual Financial Statement




Tr a n s f o r m i n g t h e A r m y : I m a g i n a t i o n • I n n o v a t i o n • I n i t i a t i v e
Table of Contents




Secretary of the Army Message                                                                      iii

Assistant Secretary of the Army Message                                                             v
(Financial Management and Comptroller)

Assistant Secretary of the Army Message                                                            vii
(Civil Works)

Army Year in Review                                                                                ix

General Fund                                                                                        1

Army Working Capital Fund                                                                          43

Civil Works                                                                                        85

Principal Statements and Related Notes                                                         125


* Unless otherwise indicated, all photographs in the FY 2002 Army Annual Financial Statement are
  courtesy of the U.S. Army.

 Photos provided by the Association of the U.S. Army and Copyrighted 2002 were reproduced by
 permission and noted.                                                                                    02
                                                                                                         fy    i
                           Transforming the Army:

     Imagination • Innovation • Initiative




ii
Secretary of the Army
                                                                                                            fy
                                                                                                               02        Message




There are moments in history when events suddenly allow us to see the challenges
ahead with a degree of clarity previously unimaginable. September 11, 2001,
created one of those rare opportunities. Now we see clearly the challenges facing
us — and we are confronting them.

To succeed, the Army must accomplish three critical tasks. First, we must help win
the global war on terrorism; second, we must transform to meet the challenges of
future conflicts; and third, we must secure the resources needed to pursue both the
war on terror and Army Transformation. We must accomplish these three tasks
while sustaining the readiness of the force and caring for soldiers and their families.

The means for achieving these goals begins with the Army's biggest asset — our
people. The Army is about people. At 227 years of age, the Army is an enterprise
of 1.2 million individuals, including active and reserve components, civilians and
contractors, serving in 180 different countries — the largest single enterprise on the face of the earth.

The war on terrorism underscored the importance of having well-trained soldiers ready to defend America's interests
anywhere in the world. Our soldiers fought valiantly, in concert with American marines, sailors, airmen and
indigenous Afghan forces, to defeat the Taliban, disrupt al Qaeda, liberate the Afghan people and install an interim
government in Kabul. All of this was accomplished within a few short months, in the world's toughest terrain and in
the dead of winter. In addition, our soldiers were in Bosnia, Kosovo and the Sinai, keeping the peace, and within our
own borders, guarding airports, seaports and other potential targets.

Concurrent with the war on terrorism, we continued to transform the Army into a more agile fighting force. We tested
many of the concepts of the Objective Force in concert with the Interim Force. Stryker Brigade Combat Teams
participated in the joint exercise, Millennium Challenge 2002, demonstrating their capability to fight along side our
joint partners, using new technologies and concepts.

Finally, obtaining the required resources and applying them prudently are pivotal to winning the war on terrorism and
transforming the Army. We are working hard with the Department of Defense, within the context of the Financial
Management Modernization Program and the Business Initiatives Council, to put systems and processes in place that
will enable more relevant and reliable financial information and, thereby, facilitate better management. Receiving an
unqualified audit opinion on our financial statements remains a priority and we continue to work toward that important
goal.

I welcome your interest in the Army and its programs. In these challenging and uncertain times, the American people
can be assured that the United States Army is ready to protect and defend the Constitution and our national freedoms.
Our continuing stewardship of the resources that you provide will ensure that as we transform the Army into a more
agile and responsive force, we are ready to meet the challenges of the 21st century.




                                                  Thomas E. White
                                                  Secretary of the Army
                                                                                                                            iii
                           Transforming the Army:

     Imagination • Innovation • Initiative




iv
Assistant Secretary of the Army
                                                                                                           fy
                                                                                                                 02         Message




(Financial Management and Comptroller)
One of the most important jobs we have in the financial management community is
securing the resources needed for both the war on terror and Army Transformation.
In addition to supporting the Army’s obligation of fighting and winning the nation’s
wars, the mission of the Office of the Assistant Secretary of the Army for Financial
Management and Comptroller is twofold: we owe our soldiers the best training and
the best equipment and we owe the American people accountability.

Our job of securing adequate Army resources involves three essentials: (1) planning,
programming and budgeting, (2) execution, and (3) financial reporting. Each of
these three elements is critical in achieving our mission of accountability. Each
requires the work of many, at all levels.

Given that our Army funds come from the hard-earned dollars of the American
people, it is essential that we make the right decisions about how best to use those dollars. That is where our planning,
programming and budgeting work comes in and culminates as a portion of the President’s budget submission and,
ultimately, the annual defense appropriation. Finding the right funding balance is a daunting challenge and it requires
the dedicated efforts of the Army, the Department of Defense, the Office of Management and Budget, the President and,
finally, the Congressional authorizers and appropriators. Our collaborative role in resourcing our country’s Army has
never been more mission critical.

In addition to optimizing and safeguarding the Army’s resources, we owe our leaders reliable and timely financial
information so that they can make informed business decisions. Providing this information is central to our mission.
Receiving an unqualified audit opinion on our financial statements certifies the reliability of our financial information
and, hence, remains an Army priority. Over the past year, we have made major strides in achieving this goal. For
example, this year’s accomplishments include: completion of milestone 3 of our Single Stock Fund implementation;
Army-wide deployment of the Defense Property Accountability System; exceeding our goals for improving our
accounting processes, including reducing problem disbursements, negative unliquidated obligations and outstanding
travel advances and liquidating obligations in appropriations in advance of their cancellation; partnering on and
advancing the development of a CFO compliant enterprise resource plan for our Logistics Modernization Program; and,
positioning the Army National Guard to move simultaneously with the rest of the Army to the Department of Defense
Financial Management Modernization Program’s approved architecture.

Looking ahead to Fiscal Year 2003, we expect to improve the quality of the information we provide our leaders and
stakeholders. Our intent is to integrate functional and financial systems more effectively in support of Army
Transformation. As the rest of the Army transforms to be more lethal and more agile, we in the financial management
community also must transform to become more agile and more responsive.

We are pleased to present this Fiscal Year 2002 report, the deliverable of the third critical element outlined above. It
includes all three funds managed by the Army: the General Fund, the Army Working Capital Fund and the Civil Works
Fund. The compact disc accompanying this report provides additional information and links to key Army web sites. We
believe you will find this report useful in understanding our country’s Army, its mission, and its people.




                                                  Sandra L. Pack
                                           Assistant Secretary of the Army
                                                                                                                               v
                                      (Financial Management and Comptroller)
                           Transforming the Army:

     Imagination • Innovation • Initiative




vi
Assistant Secretary of the Army
                                                                                                            fy
                                                                                                                   02       Message




(Civil Works)
The Army has been involved in civil works and water resources since 1824, when
the General Survey Act authorized the President to employ the Corps of Engineers to
conduct a survey of nationally important roads and canals from a commercial,
military, or mail transportation point of view. Since then, the Corps has been a
dedicated servant of the American people.

In addition to its water resources mission, the Corps has supported our military
forces in time of war, dating back to construction of fortifications at Bunker Hill in
1775. The Corps provided technical expertise for the Manhattan Project, and
oversaw the building of the Panama Canal and the Kennedy Space Center. When a
disaster strikes, Corps personnel in red jackets are there to help. Research work by
the Corps resulted in building designs that saved lives in the Pentagon on September
11th. Today, 35,000 Corps employees work around the world to help improve the
quality of life for people at home and abroad.

The people of America increasingly understand that our nation's water resources are finite. The debate over its use
classically centers on development of water resources for social and economic benefit vs. restoration of these resources
to their natural state. As science and engineering evolve, we can enhance our opportunity to find more balance between
these options and make the right choices for the nation.

In terms of our nation's priorities, the war on terrorism is our main focus. We must prioritize our resources to win this
war. We must also ensure that we are looking out for our nation's long-term future and ensure that our country's
economy remains strong and its natural resources are protected. The Corps is continually transforming itself to better
serve the ever-changing needs of the nation in a way that strikes the right balance on its critical priorities.

The Corps professionals' body of knowledge on water resources is unparalleled, and we must exploit that knowledge and
associated skills to ensure that the Federal Government can continue to meet the needs of its citizens. I believe we have
an opportunity to shape the nation's future and will continue to work on these important issues to achieve a national
water policy that serves the best interest of all our citizens.




                                                    R. L. Brownlee
                                        Acting Assistant Secretary of the Army
                                                    (Civil Works)


                                                                                                                               vii
             FY02 United States Army Annual Financial Statement
“Imagination • Innovation • Initiative”
                                                                  General Fund                                   x
                                                                  Summary of Performance Results                 x


                                                                  Working Capital Fund                         xiii
                                                                  Summary of Performance Results               xiii


                                                                  Civil Works Fund                             xvi
                                                                  Summary of Performance Results               xvi


                                                                  Army Systems Controls and Legal Compliance   xix
Year in Review




The Army's primary mission is warfighting, and in this it has no peer. Its
capabilities enable it also to accomplish many other missions in support of the
national objectives. Prepared at all times to fight and win the nation's wars, its
soldiers are ready also for deployment anywhere in the world to save lives,
protect property, or keep the peace. In 227 years, the Army never has failed
the nation.


In addition to these responsibilities, the Army has a responsibility to use
wisely the public funds entrusted to it. Despite comprising 33 percent of all
active military forces in FY 2002, the Army accomplished its missions and
prepared for future missions while consuming only 23 percent of the funds
allocated for the Department of Defense.


The Army comprises three separate funding entities: the General Fund,




                                                                                      02
                                                                                     fy
Working Capital Fund, and Civil Works Fund. This annual financial statement
describes how these three funding entities operate to support the Army’s
people, readiness, and the transformation of its forces. The following is a                ix
synopsis of the key performance areas for each of the three funds.
                                                                                                                                        General Fund
                                                                                                                                        The General Fund provides funding for the Army to accomplish the many
                                                                                                                                        different tasks required of it by the American people, most importantly, to
                                                                                                                                        maintain at all times the readiness to fight and win the nation's wars.

                                                                                                                                        Summary of Performance Results
                                                                                                                                        The Army measures its performance against a four-dimensional risk
                                                                                                                                        assessment framework that allows it to evaluate tradeoffs between
                                                                                                                                        fundamental objectives that have been made unavoidable by resource
                                                                                                                                        constraints. Using this framework, the Army identified a series of performance
                                                                                                                                        metrics that address each of the risk management dimensions established by
                                                                                                                                        the 2001 Quadrennial Defense Review (QDR). Each measure is supported by
                                                                                                                                        a quantifiable output. The following are highlights of our FY 2002
                                                                                                                                        performance.


                                                                                                                                        Force Management. The primary mission of Army personnel management is
                                                                                                                                        to put the right person with the right skills in the right place at the right time.
                                                                                                                                                       As it strives to fulfill this mission, the Army finds itself asking
                                                                                                                                                       more of a
                                                                                                                                                       smaller force, making it imperative that it has the best people
                                                                                                                                                       available. Recruiting and training the best soldiers, officers, and
                                                                                                                                                       civilians in the proper mix of specialties and grade levels
                                                                                                                                                       requires an adequate compensation package; sufficient medical
                                                     “Imagination • Innovation • Initiative”




                                                                                                                                                       care and retirement programs; and opportunities for career
                                                                                                                                                       advancement. During FY 2002, the Army exceeded its enlisted
                                                                                                                                                       recruiting goals for all components. The Army exceeded its
FY02 United States Army Annual Financial Statement




                                                                                                                                                       quality benchmarks for active and reserve high school diploma
                                                                                                                                                       graduates (HSDG). It also exceeded the DoD target that 67
                                                                                               Today’s soldiers are ready for any challenge.
                                                                                                                                                       percent of enlistees score in the top half of the Armed Forces
                                                                                                                                        Qualification Test (AFQT), and it exceeded its self-imposed goal of 68 percent
                                                                                                                                        by another 0.5 percent in the reserve component. The Army also surpassed its
                                                                                                                                        FY 2002 retention goals for first-term soldiers by 2 percent, experiencing an
                                                                                                                                        increase of 0.07 percent from FY 2001. It also saw a slight increase in the
                                                                                                                                        retention of second-term soldiers, exceeding the performance goal by almost 2
                                                                                                                                        percent


                                                     x                                                                                  Operational. The Army needs to manage its forces such that they are
                                                                                                                                        appropriately sized to accomplish both near-term war fighting tasks and small-
scale contingencies. In FY 2002, Army force levels were in line with the goals
                                                                                                           fy
                                                                                                                  02  Year in Review




established in the QDR for the Active Army Corps, Active and National Guard
Divisions (including heavy and light divisions), Armored
Cavalry Regiments, and Enhanced Brigades. The Army has
maintained its forces at the levels established by force
reductions conducted from FY 1989 through FY 1996. The
Army also met its FY 2002 performance target for overseas
presence by maintaining one mechanized division in the Pacific
Region and two divisions with selected command, combat, and
support elements in Europe. In addition, during FY 2002 the
Army conducted 78 of the 80-scheduled overseas joint and
combined exercises. The number of exercises scheduled and
conducted each year is affected by various political and
operational factors. No major exercises were cancelled in FY        Soldiers from the 101st Airborne Division (Air Assault)
                                                                    load onto a plane destined for Afghanistan. Photo
2002.                                                               courtesy of AUSA.



Overall, Army ground training continued to exhibit a positive trend during FY
2002. The active Army exceeded its home-station training target of 931 tank
miles, and the Army National Guard forces recorded an increase in tank miles
from FY 2001 performance levels. In response to Congressional concerns, FY
2002 is the first year in which virtual miles are reported along
with actual miles.


While the Army exceeded its goal for tank miles, the Army fell
short of the established flying hours goals for all components.
This shortfall was the result of numerous deployments,
transfers of aircraft due to Aviation Transformation, and Safety
of Flight (SOF) compliance messages. There were 32 SOF
messages in FY 2002, a 14 percent decrease from FY 2001.


Future Challenges. The attacks of September 2001 showed
that we cannot predict always with confidence which
adversaries will pose threats. The types of military capabilities
that will be used to challenge U.S. interests can, however, be
identified and understood. The Army must shift from a threat-
based to a capabilities-based paradigm. When assessing the
risks of future challenges, it no longer can focus purely on the    Land warrior integrates small arms with high-tech
                                                                    equipment, enabling ground forces to deploy, fight,
extant threats of military engagement, but must also address its    and win in the 21st century.                               xi
                                                                                                                                        capability to meet potential new challenges. The absence of a current,
                                                                                                                                        immediate threat is not justification to disregard technology that could
                                                                                                                                        overcome that threat. On the contrary, introducing technology early furnishes
                                                                                                                                        a military advantage and may dissuade a potential adversary from pursuing a
                                                                                                                                        similar capability. As a result of the increased complexity of modern warfare
                                                                                                                                        the Army established and met its goal by successfully completing 49 of a
                                                                                                                                        scheduled 49 Operational Test and Evaluation Events. The purpose of these
                                                                                                                                        assessments is to ascertain as quickly as possible how a new system or
                                                                                                                                        technology will perform from an operational perspective. Likewise,
                                                                                                                                        Congressional funding for procurement spending for FY 2002 increased by 13
                                                                                                                                        percent from the previous year. Since FY 2000 there has been a 26 percent
                                                                                                                                        increase in procurement funding.


                                                                                                                                        Institutional. Effecting changes in the way the Army conducts its support
                                                                                                                                        operations will require that business processes also be transformed, in order to
                                                                                                                                        achieve the most efficient support operations possible. It is the Army's goal to
                                                                                                                                        produce an increasingly responsive support structure much like the combat
                                                                                                                                        forces, which are becoming more agile and capable. During FY 2002, the
                                                                                                                                        Army conducted 17 public-private sector competitions, resulting in 11
                                                                                                                                        decisions to keep the function in-house and six contract decisions to outsource
                                                                                                                                        for an annual savings of $87.1 million. The Army also disposed of 81.3
                                                                                                                                        percent of the excess Base Realignment and Closure (BRAC) acres scheduled

                                                                                                                                       $77.6
                                                                                                                                                       for disposal in FY 2002. As a result of the disposal of excess
                                                                                               80                                              $76.1
                                                     “Imagination • Innovation • Initiative”




                                                                                                    $69.1   $68.6
                                                                                                                       $71.0   $72.1                   real property through the BRAC process, the Army will avoid
                                                                                               70
                                                                                                                                                       real caretaking and related sustainment costs of $7 million in
                                                                                               60
                                                                                                                                                       FY 2003 and beyond.
                                                                                               50
FY02 United States Army Annual Financial Statement




                                                                                               40
                                                                                                                                                       Financial Resources. The Army's budget authority for FY
                                                                                               30
                                                                                                                                                       2002 was $76.1 billion, a 5 percent increase from the previous
                                                                                               20
                                                                                                                                                       year. The level of funding affects every aspect of Army
                                                                                               10
                                                                                                                                                       operations, including its ability to attract high-quality people, to
                                                                                                0
                                                                                                    FY 2000             FY 2001        FY 2002         provide training, and to maintain equipment and infrastructure.
                                                                                                $ Billion           Total Obligation Authority         It also governs the pace at which the Army is able to modernize
                                                                                                                            Budget Authority
                                                                                                                                                       its forces.




                                       xii
Working Capital Fund
                                                                                                       fy
                                                                                                             02  Year in Review




The Army Working Capital Fund (AWCF) is part of the Defense Working
Capital Fund and is divided into four activity groups: Supply Management,
Army (SMA); Depot Maintenance; Ordnance; and Information Services.
These businesses help the Army to maintain constant readiness by providing
the supplies, equipment, ordnance, and information services necessary to
support the deployment and projection of lethal force when required by the
nation.

Summary of Performance Results
The following are highlights relating to the operation of the Army Working
Capital Fund's four business units in FY 2002:


Supply Management, Army. The Supply Management, Army activity group
buys and maintains assigned stocks of materiel for sale to its
customers, primarily Army operating units. The constant
availability of this materiel is essential to equipment and
operational readiness and to the warfighting readiness and
abilities of Army units. In FY 2001, SMA underwent a major
change with the implementation of the Single Stock Fund
(SSF) initiative, which integrated the wholesale and command
retail divisions. With the implementation of the SSF, the
mission of the retail division changed. The Pre-SSF retail
divisions sold to authorized customers within their local
geographical area. The retail divisions bought and sold both
                                                                    Supply Management, Army, operations aim at
Army and non-Army managed items (AMI/NAMI) at the                   delivering supplies when and where needed.
catalog price of the source of supply. Under the SSF the retail
division consists only of NAMI. In FY 2002, gross materiel costs were lower
than planned, resulting in a unit cost of $0.699 that was below the goal of
$0.847. Gross materiel costs were lower than planned due to the delay in
implementation of SSF Milestone 3 (MS3), which slipped by 5 months.


Depot Maintenance. The Depot Maintenance activity group provides the
Army with an organic industrial capability to repair, overhaul, and upgrade
weapons systems end items and depot-level reparables. It also provides tenant
support to Army and other DoD activities. Depot maintenance activities both
compete and partner with private industry as AWCF seeks to deliver goods                                                  xiii
                                                                                                                                                    and services as efficiently and effectively as possible. There are
                                                                                                                                                    five major depots in this activity group: Anniston, Corpus
                                                                                                                                                    Christi, Letterkenny, Red River, and Tobyhanna.


                                                                                                                                                    Customer requirements govern the size and type of Depot
                                                                                                                                                    Maintenance workload. Following several years of decline, FY
                                                                                                                                                    2002 workload increased significantly above planned levels.
                                                                                                                                                    Depots received $183.5 million more in orders than was
                                                                                                                                                    forecasted, or roughly 12 percent more work than planned. In
                                                                                                                                                    response, the depots aggressively recruited to increase the
                                                                                               Depot Maintenance employees at Anniston and Red      workforce, employed contract support, and used high levels of
                                                                                               River Army Depots keep the Army's tracked vehicles
                                                                                               ready for combat.                                    overtime to respond to the increased customer demands.


                                                                                                                                     Ordnance. The Ordnance activity group provides the Army with an organic
                                                                                                                                     industrial capability to produce high-quality munitions and large caliber
                                                                                                                                                    weapons. It also provides the full range of ammunition
                                                                                                                                                    maintenance for all services within the DoD and for foreign
                                                                                                                                                    military customers. It manufactures, renovates, stores, and
                                                                                                                                                    demilitarizes ordnance materiel and manufactures 155-
                                                                                                                                                    millimeter howitzers, 120-millimeter gun tubes, 120-millimeter
                                                                                                                                                    mortars, gun mounts for the M1A1 Abrams tank, grenades and
                                                                                                                                                    smoke rounds, rebuilt protective masks, and tool sets and kits.
                                                     “Imagination • Innovation • Initiative”




                                                                                                                                                    The Army manages Army Working Capital Fund cash at the
                                                                                                                                                    corporate level. The performance of individual activity groups
                                                                                                                                                    is measured against planned collections, disbursements, and
                                                                                               The Ordnance activity group manufactures and links   outlays, not against cash balances. The Ordnance FY 2002 plan
FY02 United States Army Annual Financial Statement




                                                                                               7.62mm ammunition for Army machine guns.
                                                                                                                                                    projected a drain on cash of $26.5 million, but the actual result
                                                                                                                                     was an increase in cash of $275.9 million. Collections were above plan as a
                                                                                                                                     result of advance billing of customer orders in the amount of $146 million and
                                                                                                                                     increased collection of valid previous year bills.


                                                                                                                                     Information Services. The Information Services activity group is responsible
                                                                                                                                     for the development and sustainment of automated information and
                                                                                                                                     communications systems. It provides a multitude of services in support of the
                                                                                                                                     Department of Defense and foreign military sales customers including
                                                                                                                                     requirements analysis and definition, system design, development testing,
                               xiv                                                                                                   integration, implementation support, and documentation of services.
The activity experienced a net operating results gain of $3.7 million. This was
                                                                                   02
                                                                                  fy   Year in Review




due to the increased revenue at Army's Small Computer Program (ASCP).
Ordering on two contracts (Dell Army Desktop & Mobile Computing-1
contract and Oracle Enterprise Initiative Software Agreement) was heavier
than anticipated. The Army continues to provide the largest source of revenue,
accounting for 89 percent of total revenue in FY 2002. The Defense Finance
and Accounting Service (DFAS) is also an important customer because of its
needs for design, maintenance, and testing services for its financial systems.




                                                                                                xv
                                                                                                                                        Civil Works Fund
                                                                                                                                        Since 1824, the Corps of Engineers Civil Works Program has been involved in
                                                                                                                                        the development, management, protection, and enhancement of America's
                                                                                                                                        water and related land resources. Today it is responsible for commercial
                                                                                                                                        navigation, flood damage reduction, environmental restoration, and related
                                                                                                                                        purposes. The program provides stewardship of America's water resources
                                                                                                                                        infrastructure and associated natural resources, and also provides emergency
                                                                                                                                        services for disaster relief. The Civil Works Program supports the Army in
                                                                                                                                        peacetime pursuits, during national emergencies, and in times of war.

                                                                                                                                        Summary of Performance Results
                                                                                                                                        The Civil Works Program is divided into eight distinct business programs. All
                                                                                                                                        programs contribute to the military power of the United States, but more
                                                                                                                                        important, they contribute to the economic well-being and quality of life of the
                                                                                                                                        nation's citizens. The following are selected highlights of FY 2002
                                                                                                                                        performance.


                                                                                                                                        Navigation. The Civil Works navigation program is responsible for providing
                                                                                                                                        safe, reliable, and efficient waterborne transportation systems for the
                                                                                                                                                        movement of commercial goods, for national security needs,
                                                                                                                                                        and for recreation. Civil Works operates and maintains 12,000
                                                                                                                                                        miles of inland waterways, 235 locks, and 300 commercial
                                                                                                                                                        harbors. Inland waterways provide a highly fuel-efficient mode
                                                     “Imagination • Innovation • Initiative”




                                                                                                                                                        of transportation, able to move freight at more than 500 ton-
                                                                                                                                                        miles per gallon of fuel compared to the less than 400 ton-miles
                                                                                                                                                        per gallon that rail transportation achieves. This translates to an
FY02 United States Army Annual Financial Statement




                                                                                                                                                        annual savings of $7 billion in transportation costs. Every dollar
                                                                                                                                                        invested in improving our navigation infrastructure results in a
                                                                                                                                                        better than $3 increase in GDP.

                                                                                               Construction is underway on the channel leading to
                                                                                               Victoria, TX, from the Gulf Intercoastal Waterway. The   In FY 2002, work continued to improve the future viability of
                                                                                               size of the channel will become the same as that of
                                                                                               the waterway, 12 feet deep by 150 feet wide.
                                                                                                                                                        many of America's ports and harbors. In New York City, work
                                                                                                                                                        to dredge the access channel to 41 feet is vital to ensuring that
                                                                                                                                        future container ships will be able to load fully in New York. This $113
                                                                                                                                        million project, of which Civil Works will pay $84 million, is expected to
                                                                                                                                        provide $32 million in average annual benefits to the nation.
                               xvi
Flood and Coastal Storm Damage Reduction. There are two general
                                                                                                         fy
                                                                                                               02     Year in Review




approaches to reducing flood damage. The first calls for the use of large-scale
engineering projects to prevent floodwaters from inundating property; the
second calls for the modification of property susceptible to flooding, to
minimize the risk of damage. Civil Works projects usually use a combination
of approaches.


Most Corps flood and coastal storm damage reduction projects are constructed
as joint ventures between the Federal Government and non-Federal sponsors,
and are subsequently owned, operated, and maintained by the
non-Federal sponsor. A few projects, mostly reservoirs, are
operated and maintained by the Corps. The Flood and Coastal
Storm Damage Reduction business program has compiled an
impressive record of performance. In the period 1991-2000,
floods in unprotected areas caused the United States an annual
average of $4.5 billion in property damage. In the same period,
Corps projects in protected areas prevented $20.8 billion in
average annual damages. Through FY 2000, the nation had
invested $43.6 billion ($122 billion, adjusted for inflation) in
flood damage reduction projects, preventing an estimated $419
billion ($709 billion, adjusted for inflation) of flood damage.        J. Strom Thurmond Dam and Lake, Flood Gates,
Adjusted for inflation, these figures show a return on                 Clarks Hill, SC.

investment of more than $6 in damage prevented for each
dollar spent. The program also has helped reduce the number of lives lost
annually due to floods from an average of 179 in the decade 1972-1981 to 89
in the period 1991-2000.


Environmental. There are three program objectives in support of the strategic
goals of the Civil Works Environmental Program. These are 1) to invest in
mitigation and restoration projects or features to make a positive contribution
to the nation's environmental resources; 2) to invest in mitigation and
restoration projects and in the operation of program facilities to assist in the
recovery of federally listed threatened and endangered species; and 3) to
ensure that the operation of all Civil Works facilities and management of
associated lands, including out-granted areas, complies with the environmental
requirements of the relevant federal, state, and local laws and regulations.

                                                                                                                               xvii
                                                                                                                                                      During FY 2002, Civil Works administered 713,909 mitigation
                                                                                                                                                      acres, representing a slight increase of less than 0.5 percent over
                                                                                                                                                      the acreage administered in FY 2001. The Civil Works
                                                                                                                                                      Environmental Program also participated in recovery programs
                                                                                                                                                      for 80 federally listed species, engaging in 496 separate
                                                                                                                                                      opportunities to benefit these species. Finally, during FY 2002,
                                                                                                                                                      preliminary results indicate that 100 percent of the significant
                                                                                                                                                      findings and 62 percent of major findings were corrected. The
                                                                                                                                                      Corps corrected four significant findings identified during FY
                                                                                                                                                      2002, and corrected the one remaining significant finding
                                                                                               Ducks, geese, and herons are protected on more         carried over from FY 2001.
                                                                                               than 85,200 acres of Army Corps of Engineers land
                                                                                               devoted to wildlife management.

                                                                                                                                       Regulatory. Civil Works operates a comprehensive regulatory program to
                                                                                                                                       protect from overdevelopment the aquatic environment, primarily, but also the
                                                                                                                                       navigability of waterways. Management of this program has a related
                                                                                                                                       objective of minimizing the time taken to process decisions on requests for
                                                                                                                                       permits to work in the waters of the United States. There are three
                                                                                                                                       performance measures to support the pursuit of the strategic goals of the Civil
                                                                                                                                       Works mission: 1) realize no net loss of wetlands; 2) complete 85 to 95
                                                                                                                                                      percent of all permit actions within 60 days; and 3) complete 70
                                                                                                                                                      to 80 percent of decisions on standard permits within 120 days.


                                                                                                                                                      During FY 2002, 57,821 acres of wetlands were restored,
                                                     “Imagination • Innovation • Initiative”




                                                                                                                                                      created, enhanced, or preserved, offsetting the 24,651 acres that
                                                                                                                                                      were lost to permitted development. The Civil Works program
                                                                                                                                                      also completed 88 percent of all permit actions in 60 days or
                                                                                                                                                      less. However, the performance target for standard permits was
FY02 United States Army Annual Financial Statement




                                                                                                                                                      not met. During FY 2002, 61 percent of all standard permit
                                                                                                                                                      actions were completed in less than 120 days. Performance has
                                                                                                                                                      remained relatively steady over the last three years at between
                                                                                               Inspector from Wilmington District Regulatory Office
                                                                                               on permit site with applicants.                        60 percent and 62 percent.




                 xviii
Army Systems Controls and Legal
                                                                                   02
                                                                                  fy   Year in Review




Compliance
The Army continues to place a high priority on improving its financial
management processes and associated systems. To that end, we worked
aggressively through FY 2002 toward our goal of ensuring that our critical
feeder systems are compliant with the Chief Financial Officers (CFO) Act and
that they, therefore, will produce the requisite reliable and relevant
information. The ongoing replacement or incorporation of Army feeder
systems into new or evolving systems means that the number of noncompliant
systems continues to diminish. Those critical feeder systems not scheduled for
replacement are being evaluated for modification to achieve compliance, with
each system being monitored through periodic review of the Army CFO
Strategic Plan. This plan fixes responsibility and establishes a timeline for
addressing and resolving problems of noncompliance, with periodic status
reports going to Army leadership.


The CFO Strategic Plan is one of many initiatives designed to improve business
processes throughout the Army. As these business processes improve, so too will
the quality of the information that is vital to the Army's decision-makers.




                                                                                                xix
             FY02 Consolidated Army Annual Financial Statements
“Imagination • Innovation • Initiative”
                                                                  General Fund—Overview                                              1
                                                                  Profile of the Army                                                 1
                                                                  Mission                                                             1
                                                                  How the Army Accomplished Its Missions                              2
                                                                  Vision for the Future                                               9
                                                                  Organizational Structure                                           13


                                                                  General Fund Performance Results: Mitigating DoD Risk Dimensions   17
                                                                  DoD Risk Management Dimensions                                     17
                                                                  Risk Area: Force Management                                        19
                                                                  Risk Area: Operational                                             21
                                                                  Risk Area: Future Challenges                                       26
                                                                  Risk Area: Institutional                                           28


                                                                  Management Integrity                                               30
                                                                  Corrected Weakness                                                 30
                                                                  Uncorrected Weaknesses                                             30


                                                                  Future Effects of Existing Conditions                              33
                                                                  Operational Risk                                                   33
                                                                  Institutional Risk                                                 33
                                                                  Human Capital                                                      34


                                                                  Advancing the President's Management Agenda                        36
                                                                  Strategic Management of Human Capital                              36
                                                                  Competitive Sourcing                                               37
                                                                  Improved Financial Performance                                     38
                                                                  Expanded Electronic Government                                     40
General Fund




General Fund—Overview

Profile of the Army
Mission
America has the finest Army in the world. As specified in Title 10, U.S. Code,
Section 3062, the Army's mission is to defend the landmass of the United
States and its territories, commonwealths, and possessions. The Army is also
required to act as directed by Congress to support national policies, implement
national objectives, and overcome any nations responsible for aggressive acts
that imperil the peace and security of the United States.


The Army works with the other branches of the military, providing forces
capable of sustained combat on land. Ensuring during peacetime that Army
forces are organized, trained, equipped, and ready to act when called upon
requires enormous work. As such, the Army never stands still: always drawing
on the lessons of the past, its leaders constantly seek new and imaginative       1
ways to prepare for the future.
                                                                                                                                        The Army's primary mission is warfighting, and in this it has no equal, but its
                                                                                                                                        capabilities enable it also to accomplish many other missions in support of the
                                                                                                                                                         national objectives. Prepared at all times to fight and win the
                                                                                                                                                         nation's wars, its soldiers also are ready to be dispatched
                                                                                                  What We Do                                             anywhere in the world to save lives, protect property, or keep
                                                                                                  z    Warfighting                                       the peace. In 227 years, the Army never has failed the nation.
                                                                                                  z    Peacekeeping
                                                                                                  z    Humanitarian Aid                                  In addition to these responsibilities, the Army has a
                                                                                                  z    Homeland Security                                 responsibility to use wisely the public funds entrusted to it.
                                                                                                                                                         Despite comprising 33 percent of all active military forces in
                                                                                                                                                         FY 2002, the Army accomplished its missions and prepared for
                                                                                                                                        future missions while consuming only 23 percent of the funds allocated to the
                                                                                                                                        Department of Defense.

                                                                                                                                        How the Army Accomplished Its Missions
                                                                                                                                        The events of September 11, 2001, thrust America into a war on terrorism that
                                                                                                                                        has engaged the Army in operations around the globe. America's position as
                                                                                                                                        the world's sole superpower means that it has at the same time other unique
                                                                                                                                        responsibilities in what is an increasingly complex post-Cold War world. The
                                                                                                                                        Army helped America fulfill those responsibilities in FY 2002.


                                                                                                                                        War Fighting
                                                                                                                                        The Army was involved deeply in the war on terrorism throughout FY 2002.
                                                     “Imagination • Innovation • Initiative”




                                                                                                                                        In Afghanistan, Army Special Operations Forces, followed rapidly by
                                                                                                                                                         conventional forces, contributed greatly to the overthrow of the
                                                                                                                                                         Taliban. Working with Afghan militia and in partnership with
                                                                                                                                                         the forces of the other U.S. services and of America's allies, the
FY02 United States Army Annual Financial Statement




                                                                                                                                                         Army significantly disrupted the Al Qaeda terrorist network,
                                                                                                                                                         liberated the people of Afghanistan from Taliban rule, and
                                                                                                                                                         helped install an interim government in Kabul. This was
                                                                                                                                                         accomplished in a few short months, over inhospitable terrain
                                                                                                                                                         during the dead of winter, 7,000 miles from American shores.
                                                                                                                                                         The 14,000 soldiers deployed in and around the theater of
                                                                                                                                                         operations in support of Operation Enduring Freedom,
                                                                                                                                                         positioned from Egypt to Pakistan and from Kenya to
                                                                                               A Special Operations soldier, prepared to call in close
                                                                                               air support, watches an assault on anti-Taliban
                                                                                                                                                         Kazakhstan, clearly demonstrated the necessity of maintaining a
                                                                                               forces. Photo courtesy of AUSA.                           trained and ready force.
                                                     2
In all aspects of this new war, the Army has demonstrated imagination and
                                                                                                          fy
                                                                                                                 02    General Fund




initiative in accomplishing a wide range of missions. In Afghanistan, America
employed indigenous forces in a way that may serve as a model for future
conflicts, relying on them to do much of the early fighting on the ground. The
5th Special Forces Group overcame differences in language, culture, tactics,
and weapons to organize the disparate Afghan militia into an effective fighting
force. Operating in a joint environment, the Afghan militia
ultimately took maximum advantage of American air power to
sweep rapidly the Taliban from power.


The Special Forces mission did not end with the liberation of
the Afghan people. Afghanistan needs a stable government,
supported by a trained and disciplined army, to ensure it does
not revert to being a haven for terrorists. Engagement in foreign
internal defense is fundamental to America's efforts to promote
regional stability, and the 3rd Special Forces Group contributed
significantly to this task in Afghanistan by training local
recruits, as many as 2,400 at a time, in soldier skills. Drawn      New recruits of the Afghan National Army practice
from all elements of Afghan culture, these enlistees are the        saluting in their new uniforms at the Afghan National
                                                                    Army training site in Kabul, Afghanistan.
nucleus of a national Afghan army that ultimately will be
capable of providing security for the Afghan people within the
country's borders and of sustaining an environment able to
foster economic development and the establishment of civilian
institutions and infrastructure.


The Army's conventional forces also have played an important
role in the war on terrorism. As the Taliban regime collapsed,
hundreds of Taliban and Al Qaeda fighters took refuge in the
mountains of Afghanistan. Operation Anaconda, led by
elements of the 101st Airborne Division (Air Assault) and the
10th Mountain Division, operating in concert with Special
Forces and indigenous groups, was mounted to root out and           Soldiers from the 10th Mountain Division negotiate a
                                                                    narrow trail in the Afghan mountains. Photo courtesy
neutralize these forces.                                            of AUSA.




                                                                                                                               3
                                                                                                                                                         Subsequent to the fall of the Taliban, America transferred
                                                                                                                                                         hundreds of high-risk detainees from the theater of operations
                                                                                                                                                         to Guantanamo, Cuba. The Army has provided five military
                                                                                                                                                         police companies from the active Army, the National Guard,
                                                                                                                                                         and the Army Reserves to secure these detainees and to ensure
                                                                                                                                                         they are provided properly with food, water, shelter, clean
                                                                                                                                                         clothes, blankets, and medical treatment. In Afghanistan, the
                                                                                                                                                         Army continues to perform an important role in maintaining an
                                                                                                                                                         American presence there, guarding key airfields, and
                                                                                                                                                         coordinating with government and humanitarian agencies.
                                                                                               Military police from Fort Hood, TX, conduct training at
                                                                                               Guantanamo, Cuba, prior to arrival of first detainees.
                                                                                                                                                         The Army's role in the war on terrorism is not confined to
                                                                                                                                         Afghanistan. When America recognized the threat of terrorist activity
                                                                                                                                         emanating from the Republic of Georgia, it again turned to Army Special
                                                                                                                                         Forces soldiers to help that nation's government deal with the threat. Under the
                                                                                                                                         Georgia Train and Equip Program, the Army is training the Georgian Army
                                                                                                                                         staff in the principles of devising standardized procedures, training plans, and
                                                                                                                                         operational plans. This will be followed by tactical training up to platoon
                                                                                                                                         level. The program also calls for the provision to Georgia of uniforms,
                                                                                                                                         communications equipment, medical equipment, small arms, ammunition,
                                                                                                                                         fuel, and other military gear.


                                                                                                                                         These examples illustrate just a few of the diverse tasks and challenges that
                                                     “Imagination • Innovation • Initiative”




                                                                                                                                         the first war of the 21st century has placed before the Army. America's past
                                                                                                                                         investment in its Army has ensured that it has a force flexible enough to meet
                                                                                                                                         these challenges. Today the efforts in support of Operation Enduring Freedom
                                                                                                                                                         cost approximately $365 million a month. This is an investment
FY02 United States Army Annual Financial Statement




                                                                                                                                                         America must make to preserve its freedom.


                                                                                                                                                         Peacekeeping
                                                                                                                                                         The requirement to fight terrorism has not reduced the Army's
                                                                                                                                                         responsibilities elsewhere as peacekeeper. Throughout FY 2002
                                                                                                                                                         the Army continued in this role in Bosnia, Kosovo, and the
                                                                                                                                                         Sinai.


                                                                                                                                                         In Bosnia the Army is engaged in a battle of ideas as it supports
                                                                                                                                                         efforts to move the culturally diverse and strife-torn Bosnian
                                                     4                                         Under Secretary of the Army Les Brownlee prepares
                                                                                               to ride on night patrol.                                  people toward democracy. Working within the international
Stabilization Force (SFOR), Army units act as enablers in this effort by
                                                                                                          fy
                                                                                                                 02    General Fund




helping maintain an environment in which democratic ideals can flourish.
SFOR, which works in cooperation with nongovernmental agencies, the
media, and others, provides a vivid demonstration of how
American soldiers in a diverse international force can act in
harmony in the pursuit of peace.


Policy calls for Army units to rotate through SFOR on a six-
month basis. At the start of FY 2002, SFOR was led by the
29th Infantry Division of the Virginia and Maryland Army
National Guard; early in the fiscal year, the mission passed to
the active component's 25th Infantry Division from Hawaii,
which in turn passed it on to the 28th Infantry Division of the
Pennsylvania Army National Guard. Regardless of who leads
SFOR, it is always made up of a mixture of active and reserve         SGT Patrick Lum of Company B 54th Engineer
                                                                      Battalion checks authorization documents of farmers
component forces.                                                     transporting a load of wood. Photo courtesy of AUSA.



SFOR was assigned a variety of missions in FY 2002. For example, soldiers
provided medical assistance to the 175 villagers of Srednja Trnova, who had
not seen a doctor in several years. The villagers were in dire financial straights
and had no transportation to the nearest medical facility 12 miles away. SFOR
doctors treated patients from the village for pneumonia, cataracts, and
glaucoma; they also extracted 57 teeth. In another mission,
Joint Military Affairs soldiers trained by the Humanitarian
Demining Training Center at Fort Leonard Wood, Missouri,
                                                                          SFOR Accomplishments
trained and monitored Bosnian forces in the clearing of mines
                                                                          in FY 2002
that threatened the civilian population and others.                       z Returned more than 2,400
                                                                            displaced families to pre-war
                                                                            homes
The Army has accomplished a great deal in this troubled part of
                                                                          z Cleared mines from more
the world. Its achievements can be measured readily in the                  than 300 square kilometers
number of families returned to their homes, the area of land                of land
cleared of mines, and the reduction of ammunition storage                 z Eliminated 17 weapons
sites. In another vital area the Army's achievement is measured             storage sites
less easily: that of the contribution made to American security.
The events of September 11, 2001, raised concerns that Bosnia,
because of its disorder and turbulence, might emerge as a haven for those who
wish to do harm to the United States. The success of SFOR as a stabilizing
force has prevented this from happening.                                                                                       5
                                                                                                "The Army is truly                    Working within the framework of the Kosovo Force (KFOR), the Army also is
                                                                                                                                      helping to keep the peace in Kosovo, an area formerly of Yugoslavia that is
                                                                                                integrated. I cannot
                                                                                                                                      troubled with ethnic rivalries. In FY 2002, soldiers from the 10th Mountain
                                                                                                tell the difference                   Division relieved a combined force from the 101st Airborne Division (Air
                                                                                                                                      Assault) and the 3rd Infantry Division. Their leaders charged the soldiers of
                                                                                                between active duty,
                                                                                                                                      KFOR to leave Kosovo a better place than they found it. In addition to
                                                                                                Guard, and Reserve                    undertaking operations similar to those performed in Bosnia, KFOR soldiers
                                                                                                soldiers when I meet                  are sharing management techniques with indigenous Kosovar and United
                                                                                                                                      Nations forces. One American senior noncommissioned officer recognized
                                                                                                with them all over                    that the Kosovo Protection Corps (KPC) had no operational management
                                                                                                the world."                           systems in place, and as a consequence was continuing to pay individuals who
                                                                                                                                      were no longer part of the KPC. Because of the initiative of this American
                                                                                                          Thomas E. White             soldier, 1.3 million deutsche marks (about $650,000) was recovered and put to
                                                                                                            Secretary of the Army
                                                                                                                                                     better use.


                                                                                                                                                      Peacekeeping also continues in the Sinai. As part of the 1979
                                                                                                                                                      Camp David Accords, the Army, since 1981, has provided
                                                                                                                                                      forces to act as a buffer between Israel and Egypt. In FY 2002
                                                                                                                                                      the Oregon National Guard replaced the 172nd Separate
                                                                                                                                                      Infantry Brigade, an active component unit that had been
                                                                                                                                                      scheduled to assume this mission. This is only the second time
                                                                                                                                                      a reserve component force has been called upon in this capacity,
                                                                                                                                                      the late substitution releasing the 172nd for possible duty in the
                                                                                                                                                      war on terrorism. The move exemplifies the flexibility of
                                                                                                                                                      today's Army.
                                                     “Imagination • Innovation • Initiative”




                                                                                               U.S. Army Lieutenant. Laurie Green, a platoon leader
                                                                                               with Company B, 92nd Engineer Battalion, helps an
                                                                                               Afghan child try on her new coat. The coats were       Humanitarian Efforts
                                                                                               donated by school children in Green's hometown of
                                                                                               Morehead City, NC (Photo by Pfc. J. Wilson Guthrie, America is a caring nation and its Army reflects that in its
                                                                                               314th Press Camp Headquarters.)
FY02 United States Army Annual Financial Statement




                                                                                                                                                   operations. In FY 2002, even as it was involved heavily in a
                                                                                                                                      war in Afghanistan, the Army exercised its capacity to care for people in need.
                                                                                                "We have fed 7,000
                                                                                                                                      Across Afghanistan, the Army has deployed civil affairs teams to provide food
                                                                                                families in four                      and technical assistance to local people and to assist in rebuilding the
                                                                                                weeks. The civil                      infrastructure of the country. Many humanitarian agencies had been forced by
                                                                                                                                      the Taliban to maintain a low profile. In the early days of Operation Enduring
                                                                                                affairs teams have
                                                                                                                                      Freedom, Army civil affairs teams sought out humanitarian workers and
                                                                                                really helped us…"                    encouraged them to resume their work. When aid workers expressed their
                                                                                                                                      concerns that many refugees were armed, the civil affairs teams worked with
                                                                                                              Simon Brooks            Special Forces who, in turn, coordinated with Afghan forces to remove
                                                                                                 Chief, Red Cross Sub-Delegation
                                                     6                                                            Mazar E Sharif      weapons from the camps. This allowed the aid workers to resume safely their
                                                                                                                                      operations.
The Army also worked with coalition forces in Afghanistan to bring health
                                                                                                fy
                                                                                                     02  General Fund




care to those most in need. For example, American Special Forces soldiers
trained Jordanian Special Forces soldiers to secure properly a hospital
location; soldiers from the 10th Mountain Division then combined with
Jordanian soldiers to build a tent hospital. Sited in Mazer E Sharif, the hospital
was completed in just 10 days. The U.S. Army Medical Care Center (Europe)
provided more than 7,500 medical supply items to the 200 Jordanians running
the hospital, which with two operating rooms, 15 surgeons, and experts in 20
specialties is one of the most modern hospitals in the country.


The Army also maintained and demonstrated its capability to respond
elsewhere. When an ammunition depot located near housing areas and two
schools in Nigeria exploded, the Army responded at the request of the U.S.
embassy. Medical teams, explosives experts, and others deployed from Europe
to dispose of unexploded ammunition and to instruct the local population in
how to recognize and deal with unexploded ordnance. This team enabled
hundreds of Nigerians to return to their homes and resume their lives in safety.


As the year drew to a close, the Army demonstrated also its capacity to react
at home. About 1,000 National Guard soldiers responded to the floods caused
by Tropical Storm Isidore, staffing emergency relief shelters, transporting
people and equipment through the flood waters, and serving on security                  "To make sure we
details.
                                                                                          improve security
Homeland Security                                                                    right now, the federal
In addition to its operations abroad, post-September 11, 2001, the Army has           government will pay
devoted significant resources to defense of the homeland. In ways clearly
                                                                                              …to…place
visible to the public at large and in other ways not so visible, the Army has
responded to the new threat at home.                                                      Guardsmen…in
                                                                                          airports…so the
In the immediate wake of the terrorist attacks, more than 5,000 National
                                                                                      traveling public will
Guard soldiers were deployed to 442 airports nationwide to help secure air
travel. Trained by the Federal Aviation Administration to work with the U.S.             know that we are
Marshals and the Border Patrol, these soldiers monitored the alertness of            serious about airline
airport security personnel and helped operate security checkpoints.
                                                                                       safety in America."
Another 1,500 National Guard soldiers were deployed along America's                               President
borders with Canada and Mexico. Working with the Immigration and                            George W. Bush       7
                                                                                                                                        Naturalization Service and the Customs Service, these soldiers eased the
                                                                                                                                        pressure on a work force that had been working 12 to 15-hour shifts in the
                                                                                                                                        aftermath of the terrorist attacks. Inspecting vehicles and luggage, they helped
                                                                                                                                                       realize a 50 percent increase over the previous year in arrests
                                                                                                                                                       and seizures of illegal drugs.


                                                                                                                                                       In FY 2002, assuring the security of the Olympics in Utah also
                                                                                                                                                       became a significant concern. With 70,000 spectators a day,
                                                                                                                                                       15,000 accredited media personnel, and a worldwide television
                                                                                                                                                       audience, the games potentially were a prime terrorist target.
                                                                                                                                                       About 3,100 National Guard soldiers assisted in searching
                                                                                                                                                       vehicles and buildings and performing X-ray searches. Other
                                                                                                                                                       soldiers were present to provide reaction teams in the event of
                                                                                                                                                       an attack involving weapons of mass destruction. The games
                                                                                               An Army National Guard soldier checks a vehicle in
                                                                                               Salt Lake City. Photo courtesy of AUSA.                 were a great success, passing without incident.


                                                                                                                                                       The Army also worked behind the scenes in ways not so
                                                                                                                                                       visible. In the aftermath of the anthrax attacks, Army doctors at
                                                                                                                                                       Walter Reed Army Medical Center began studying how the
                                                                                                                                                       infection develops and began testing antibiotics to determine
                                                                                                                                                       which is most effective against it. They also are using nuclear
                                                                                                                                                       medicine to track the infection, with the goal of drastically
                                                                                                                                                       reducing diagnostic times. Early diagnosis is essential in
                                                     “Imagination • Innovation • Initiative”




                                                                                                                                                       protecting the public from these types of terrorist attacks.


                                                                                                                                                       The Army additionally is taking an active role in studying how
                                                                                                                                                       to improve America's response to terrorism. For example, the
FY02 United States Army Annual Financial Statement




                                                                                               Dr. David Norwood of the Army Medical Research          Army War College included homeland security as part of its
                                                                                               Institute of Infectious Diseases wears a protective
                                                                                               suit to process samples that could pose a hazard.
                                                                                                                                                       annual Strategic Crisis Exercise, with the goal of developing
                                                                                               Photo courtesy of AUSA.                                 and sharing with government leaders new ideas for responding
                                                                                                                                                       to potential threats and attacks. Representatives of the FBI,
                                                                                                                                        Justice Department, and the Federal Emergency Management Agency joined
                                                                                                                                        in the exercise to gain a better understanding of the challenges of maintaining
                                                                                                                                        homeland security and to clarify the different areas of responsibility.




                                                     8
Vision for the Future
                                                                                                              fy
                                                                                                                     02    General Fund




The Army must balance at all times the twin imperatives of
                                                                                    The Army Vision
maintaining readiness today and assuring preparedness for                                     People
tomorrow. Even while engaged in its many diverse missions of                               Readiness
FY 2002, the Army continued to plan for the future. In doing                            Transformation
so, it is guided by a clear vision: People, Readiness, and
Transformation.


People
People—soldiers, civilians, retirees, and families—are the
Army. They make the sacrifices and take the risks necessary to
defend this nation; they must therefore be of the highest quality.
A new recruiting campaign —"An Army of One" — was
launched to raise public awareness of and interest in the
potential of an Army career, and in FY 2002 the Army met its
recruiting goals early. It also succeeded in improving the
quality of its recruits over FY 2001.
                                                                        SMA Tilley takes the reenlistment oath with three 1st
                                                                        Infantry Division (Mechanized) soldiers. Photo
                                                                        courtesy of AUSA.
It is not sufficient merely to recruit soldiers of the right caliber.
Having done so, the Army must retain them. Ensuring their                                          "So long as their
well-being is vital to this effort. America can never compensate adequately its
soldiers for the sacrifices they make, but the Army at least must ensure that its
                                                                                                    families are safe
soldiers can provide for themselves and their families. In FY 2002, soldiers                [soldiers] will defend
received a 4.6 percent pay raise, with additional pay raises granted according                           their country,
to grade and years of service. This is a key component of the President's
initiative to improve quality of life for military personnel. The Army also
                                                                                           believing that by their
adjusted housing allowances to reduce average out-of-pocket expenses from                          sacrifice they are
15 percent in FY 2001 to 11.3 percent in FY 2002.                                                safeguarding their
Another factor critical to well-being is education. To most Americans, soldiers
                                                                                            families. But even the
included, education is the springboard to a better life. The Army offers its                   bonds of patriotism
soldiers abundant opportunities to further their education. More than 23,000                … are loosened when
soldiers are enrolled in the innovative eArmyU program, an unprecedented
collaboration with 23 colleges and universities and with hardware and
                                                                                                      the family … is
software providers. The Army provides soldiers with full tuition assistance,                               threatened."
books and fees, and the technology—a laptop computer, printer, and Internet
account—to access the more than 4,000 courses that are available online.                             William Tecumseh
More than 90 different on-line degrees and certificates are available; already,
                                                                                                              Sherman
                                                                                                  General, United States Army
                                                                                                                                   9
more than 50 soldiers have completed degrees.                                                                            1864
                                                                                                                               As warfare evolves and technology advances, the Army of the future will need
                                                                                                                               a new kind of leader. These leaders will be drawn from today's recruits.
                                                                                                                               Through Training and Leader Development Panels, the Army is exploring
                                                                                                                               innovative ways to develop the officers, warrant officers, noncommissioned
                                                                                                                               officers, and civilians who will lead it successfully into the future.


                                                                                                                               Readiness
                                                                                                                               Readiness is the cornerstone upon which victory is built. It requires that forces
                                                                                                                               be manned, equipped, and trained properly. In FY 2000, the Army
                                                                                                                               implemented a strategy aimed at achieving 100 percent manning of all units.
                                                                                                                               Starting with divisional units, the program expanded in FY 2001 and FY 2002
                                                                                                                               to include early-deploying units. This was accomplished with some risk, with
                                                                                                                               some other organizations unavoidably staffed at strengths between 83 and 96
                                                                                                                               percent. This cross-leveling of personnel nonetheless achieved the Army's
                                                                                                                               staffing priority: to man fully its combat forces without disabling the
                                                                                                                               institutional forces.

                                                                                               "Our training is
                                                                                                                               Once manned, units must train the way they will fight. Unit training is
                                                                                               demanding, realistic,           undertaken at three Combat Training Centers. As warfare evolves, the training
                                                                                               and it saves lives in           facilities must modernize and adapt: combat forces, for example, will be
                                                                                                                               dispersed greatly on future battlefields. With this in mind, the Army has
                                                                                               combat."                        proposed an expansion plan for Fort Irwin, California, that would open up
                                                                                                                               110,000 acres of new maneuver area and release for training an additional
                                                                                                      Thomas E. White
                                                                                                       Secretary of the Army   22,000 acres that it already owns. The expansion plan takes full account of
                                                     “Imagination • Innovation • Initiative”




                                                                                                                               operational needs, land management, explosive safety, and the responsibility
                                                                                                                               for environmental stewardship. While some of this land is home to
                                                                                                                               endangered species, for example, the proposed expansion is in compliance
                                                                                                                               with existing environmental law.
FY02 United States Army Annual Financial Statement




                                                                                               "It is no exaggeration          Readiness additionally is influenced directly by the condition of Army
                                                                                               to say that our                 installations. These are the readiness and well-being platforms of the force.
                                                                                                                               Commanders, however, rate two-thirds of the Army's installations as so poor
                                                                                               installations are the
                                                                                                                               that they adversely impact readiness and morale. In large part this situation is
                                                                                               foundation of the               the result of the need in the past to move funds from installation management
                                                                                               force—the heart of a            to mission accomplishment. To address this problem, in FY 2002 the Army
                                                                                                                               prepared to activate the Installation Management Activity, which will
                                                                                               great army."                    standardize the level and quality of services provided at each installation. This

                                                                                                      Thomas E. White          corporate structure will create a more consistent flow of resources to Army
                                  10                                                                   Secretary of the Army   installations.
Finally, the Army must be able to gauge the net effect of all
                                                                                                             fy
                                                                                                                    02    General Fund




factors that impact readiness. Reliable assessment of the
condition of the force and its ability to accomplish its mission
requires reporting that is accurate, objective, and uniform. The
Army therefore is adopting the Strategic Readiness System
(SRS) to measure and manage readiness. SRS is a predictive
tool capable of linking costs to readiness, and will enable the
Army to apply effectively its resources to near and far-term
requirements. A prototype SRS is being tested at several
installations to ensure that it meets all congressionally
mandated reporting requirements and the management needs of            Readiness is bolstered by new facilities that improve
Army leaders—i.e., the capability to produce a real-time               quality of life, like these new barracks at Schofield
                                                                       Barracks, HI. Photo courtesy of AUSA.
representation of the entire Army, operating forces, institutional
forces, and installations.


Transformation
The Army began Transformation in 1999. The ultimate goal of Transformation
is an Objective Force that can dominate across the full spectrum of conflict.
While today's heavy forces have unmatched lethality on the battlefield, they
lack the strategic mobility to get there quickly; conversely, today's light forces
are strategically mobile, but lack lethality. Transformation to the full
capabilities envisioned for the Objective Force will be by way of an Interim
Force that will combine the best aspects of today's forces and that will act as a
testing vehicle for new ways to fight.


The terrorist attacks on America underlined the validity of this strategy and the
urgency of creating a more strategically responsive, deployable, lethal, agile,
survivable, and sustainable force. Technology will play an important part for
this force, delivering information that will enable leaders and soldiers to assess             "Tentativeness and
rapidly a situation and take appropriate action, to seize the initiative, and to             faintheartedness are
attack the enemy at the time of their choosing. Technology is only an enabler,
however. Transformation is first and foremost about instituting a culture of
                                                                                                   not acceptable."
innovation within the Army, about developing leaders with imagination and
                                                                                            General Eric K. Shinseki
initiative, and about developing highly adaptable, multi-skilled soldiers                                      Chief of Staff
capable of rapid decisions in a fast-paced, complex environment.


During FY 2002, the Army took several important steps on its road to the
Objective Force. It continued with the fielding at Fort Lewis of the first two
Stryker brigades and identified the next four brigades that will be transformed,                                                 11
                                                                                                                                        including one National Guard brigade, at the cost of about $1 billion per
                                                                                                                                        brigade. The Army also contracted with a Boeing/Scientific Applications
                                                                                                                                        International Corporation team to act as the integrator for the Future Combat
                                                                                                                                        System. This team will help integrate a variety of technologies, combining the
                                                                                                                                                         best elements of manned systems and robotics, to produce a
                                                                                                                                                         ground combat system of unparalleled power and mobility. The
                                                                                                                                                         Army is scheduled to field the Future Combat System to the
                                                                                                                                                         first Objective Force unit in 2008.


                                                                                                                                                         Exercise Millennium Challenge 2002, undertaken by the U.S.
                                                                                                                                                         Joint Forces Command, provided a vehicle for testing the
                                                                                                                                                         capabilities of the Interim Force. Elements of a Stryker brigade
                                                                                                                                                         combat team conducted an assault landing at the National
                                                                                                                                                         Training Center in California, linking up with elements of the
                                                                                                                                                         82nd Airborne Division that had parachuted in earlier. The
                                                                                               Air Force load masters direct Stryker aboard a C-130      Stryker force then moved to 29 Palms and conducted an urban
                                                                                               at the National Training Center, Fort Irwin, CA, during
                                                                                               Millennium Challenge 2002. Photo courtesy of AUSA.        warfare exercise with the U.S. Marines before deploying
                                                                                                                                                         successfully back to Fort Lewis by U.S. Navy experimental
                                                                                                                                        sealift.


                                                                                                                                        The exercise also provided the Army with an opportunity to test emerging
                                                                                                                                        concepts, providing a preview of the new ways of fighting. The Army's III
                                                                                                                                                         Corps was designated as the Joint Task Force headquarters just
                                                                                                                                                         two weeks prior to the exercise. The corps quickly integrated a
                                                     “Imagination • Innovation • Initiative”




                                                                                                                                                         55-person cell from Joint Forces Command along with an
                                                                                                                                                         operational command and control architecture to enable
                                                                                                                                                         operations across a 3,000-mile battle space. The command and
                                                                                                                                                         control architecture allowed the commander to communicate
FY02 United States Army Annual Financial Statement




                                                                                                                                                         his intent simultaneously to multiple echelons, thereby allowing
                                                                                                                                                         concurrent rather than sequential planning, increasing the tempo
                                                                                                                                                         of operations, and complicating the enemy's efforts to respond.


                                                                                                                                                         Through the Interim Force, the Army is developing leaders and
                                                                                                                                                         soldiers adept at operating in this environment. Stryker brigade
                                                                                               Using the Force XXI Battle Command Brigade and
                                                                                               Below Frequency Modulation System for tactical            combat teams are being equipped with the latest available
                                                                                               updates gives the Stryker brigade enhanced
                                                                                               situational awareness. Photo courtesy of AUSA.            command, control, communications, computers, intelligence,
                                                                                                                                                         surveillance, and reconnaissance technologies, and leaders and
                                                                                                                                        soldiers in both the current force and the Interim Force are building the
                                  12                                                                                                    experiential base needed for the initial Objective Force units. Their experience
is essential in helping to refine the technology that will underlie the Objective
                                                                                              fy
                                                                                                   02  General Fund




Force, and demonstrates the critical role of people in Army Transformation.


Organizational Structure
The Army is an organization of headquarters, staffs, commands, and units
integrated into a single system with a common mission. Because of its size
and complexity, the Army requires an approach that permits independent                   The Army is an
action by its separate parts while ensuring that its leadership retains overall          organization of
command and control. The Army has three distinct subsystems—production,
combat, and integrating—each of which operates within its own environment.          headquarters, staffs,
                                                                                    commands, and units
The Production Subsystem
                                                                                        integrated into a
The Army is charged with organizing people and machines into the
configuration best able to perform its mission. The production subsystem,           single system with a
often referred to as the institutional Army, primarily supports the combat             common mission.
subsystem. Through a number of diverse organizations, the production
subsystem obtains the raw materials that the Army needs, recruiting people,
searching for new technologies, and dealing with the producers of required
materiel.


Other elements of this subsystem then convert these raw materials into
"intermediate goods;" for example, training centers and schools turn untrained
people into tank crewmen, infantrymen, and mechanics. Schools additionally
convert ideas and knowledge into doctrine, tactics, and training methods to
enhance the capability of the combat subsystem. Also, laboratories, arsenals,
and procurement and test organizations convert technology and contractor
effort into weapons and equipment for combat.


The two major components of the production subsystem are the Training and
Doctrine Command and the Army Materiel Command. The former produces
the training, doctrine, and tactics needed to fight and win America's wars. The
latter provides the materiel solutions needed by the warfighting units of the
combat subsystem.


The Combat Subsystem
The combat subsystem converts the intermediate goods of the production
subsystem into mission-ready units. It melds together individual soldiers,
pieces of equipment, and doctrine to produce combat readiness. It stays
abreast of potential threats and the needs of the unified combatant                                           13

commanders to whom it provides ready forces.
                                                                                                                      The combat force structure is organized into corps and divisions placed under
                                                                                                                      the peacetime command of major Army commanders. The commanders are
                                                                                                                      charged with keeping their assigned forces ready to fight whenever and
                                                                                                                      wherever needed. These corps and divisions may be forward-deployed or
                                                                                                                      stationed within the United States. Regardless, they are prepared for rapid
                                                                                                                      response or other contingencies, or are held for strategic reserve. Figure 1
                                                                                                                      shows the stationing of major Army combat forces.

                                                                                               The active, reserve,   Figure 1. Combat Force Stationing in FY 2002

                                                                                               and civilian              Strategic Reserve
                                                                                                                         8 ARNG Divisions                               Europe
                                                                                                                         3 ARNG Separate Brigades                       1 Corps
                                                                                               components of the                                                        2 AC Divisions

                                                                                                                                             Contingency
                                                                                                                                             Co
                                                                                               Army each play an                             2 Corps
                                                                                                                                             4 AC Divisions
                                                                                               integral part.

                                                                                                                        Rapid Regional
                                                                                                                        Response
                                                                                                                        1 Corps
                                                                                                                        1 AC Division
                                                                                                                                                                        Pacific/Korea
                                                                                                                        Reinforcing                                     2 AC Divisons
                                                                                                                        1 AC Division
                                                                                                                        15 ARNG Separate
                                                                                                                                       e
                                                                                                                          Brigades


                                                                                                                      The active, reserve, and civilian components of the Army each play an integral
                                                                                                                      part in enabling the combat subsystem to accomplish its goal of providing
                                                                                                                      combat-ready forces. The active component forms the nucleus of the initial
                                                     “Imagination • Innovation • Initiative”




                                                                                                                      combat forces in a crisis; the reserve components reinforce and augment the
                                                                                                                      active forces, either by unit or by individual replacements; and the civilian
                                                                                                                      component complements this subsystem by providing critical support and
                                                                                                                      sustainment.
FY02 United States Army Annual Financial Statement




                                                                                                                      The Integrating Subsystem
                                                                                                                      The integrating subsystem ties the other two subsystems together and decides
                                                                                                                      what must be done to ensure that the Army can accomplish its mission.
                                                                                                                      Integration is the primary function of the Secretary of the Army and of the
                                                                                                                      Army Chief of Staff. The Honorable Thomas E. White assumed duties as the
                                                                                                                      18th Secretary of the Army in May 2001; General Eric K. Shinseki has served
                                                                                                                      as the 34th Chief of Staff since June 1999. Together they lead the
                                                                                                                      Headquarters Department of the Army (HQDA) in ensuring that the major
                                                                                                                      tasks required of the Army are accomplished.
                                  14
HQDA is comprised of two elements: the Army Secretariat (the civilian
                                                                                              fy
                                                                                                     02    General Fund




leadership) focuses on managing the business of the Army, and the Army Staff
(military leadership) is responsible for planning, developing, executing,
reviewing, and analyzing Army programs.


In performing its integrating function, HQDA determines the nature of the
Army's mission requirements in conjunction with Congress, the Department of
Defense, and the other military services, and by assessing the nature of the
threats faced by the nation. HQDA then charts a course for the Army, securing
the necessary resources and allocating them to best accomplish the mission.
HQDA continually monitors the performance of the other subsystems and
effects change when performance does not meet requirements.


In FY 2002 HQDA underwent significant change. Recognizing that it has not          "Boundaries must be
kept pace with the changing business environment, the Army is transforming
                                                                                   broken to accelerate
its business practices both to enhance the capabilities and creativity of its
people and to free up resources to support warfighting and transformation.
                                                                                     change across the
Starting at the top, the Army began by merging the Secretariat and the Army               entire Army."
Staff into a single headquarters structure to improve decision-making, to
reduce redundancy, to focus better on core competencies, and to redirect                Thomas E. White
                                                                                         Secretary of the Army
people and resources thus released from other duties to its war fighting forces.
The reorganization of HQDA has had significant impact. Decision-making
authority is now unified in the Executive Office of HQDA. The Army
eliminated redundancy by defining the responsibility of the Secretariat as
policy, direction, and oversight and by realigning operational missions to the
Army Staff. Additionally, it returned requirements generation approval to the
Chief of Staff, putting more discipline in the process. The new HQDA
organization is shown in Figure 2.




                                                                                                                  15
                                                                                               Figure 2. New HQDA Organization
                                                                                                                                                                                                                                Chief of          The Army
                                                                                                                                                                                                                               Legislative         Auditor
                                                                                                                                                                                                                                Liaison            General
                                                                                                                                                                                                 Admin.                                                        Chief of Public
                                                                                                                                                                                                Assistant             The Inspector                                Affairs
                                                                                                                                                                                                                        General
                                                                                                                                                                                                                                                                  Small &
                                                                                                                                                                                                                                                               Disadvantaged
                                                                                                                                                                                                            General
                                                                                                                                                                                                                                                             Business Utilization
                                                                                                                                                                                                            Counsel



                                                                                               ASA Manpower
                                                                                                 & Reserve
                                                                                                   Affairs
                                                                                                                  ASA Install's
                                                                                                                  and Environ
                                                                                                                                     ASA Civil
                                                                                                                                      Works
                                                                                                                                                    ASA Acquis,
                                                                                                                                                   Log. & Tech [Mil
                                                                                                                                                    Dep, Acquis]
                                                                                                                                                                      ASA Financial Mgmt. &
                                                                                                                                                                       Comptroller [Mil Dep
                                                                                                                                                                            Budget]
                                                                                                                                                                                               Chief Info
                                                                                                                                                                                               Officer/G6         Directory
                                                                                                                                                                                                                  Army Staff
                                                                                                                                                                                                                                         SECARMY
                                                                                                                                                                                                                                           USA
                                                                                                                                                                                                                                             CSA
                                                                                                                                                                                                                                             VCSA            }        Executive
                                                                                                                                                                                                                                                                      Office the
                                                                                                                                                                                                                                                                       HQDA
                                                                                                                                                                                                                                                                       (EOH)


                                                                                                                                                                                                                                                                   Chief of
                                                                                                    G-1         ACS Install.'n    Chief of Engrs         G-4              G-8            G-3           G-2                                                        Chaplains
                                                                                                                  Mgmt.                                                                                                      The Judge
                                                                                                                                                                                                                             Advocate
                                                                                                                                                                                                                              General
                                                                                                                                                                                                                                                               The Surgeon
                                                                                                                                                                                                                                                                 General

                                                                                                          Clearly defined responsibilities to ASA                                                       MACOMs
                                                                                                                                                                                                                                         Chief, NGB
                                                                                                          Oversight                                                                                                                                      Chief Army
                                                                                                                                                                                                                                                          Reserve
                                                                                                          Responsible to ASA for advice and assistance in functional area
                                                                                                          MACOM Commanders




                                                                                               The reduction of headquarters layers will enable much more effective use of
                                                                                               the Army's financial resources. For example, the Army has unified its
                                                                                               acquisition effort under a single acquisition executive, with the result that
                                                                                               funding now flows directly from the acquisition executive to program
                                                                                               managers. The reorganization of HQDA has eliminated thus far more than 700
                                                                                               headquarters management account spaces, which now are available to the
                                                                                               combat and production subsystems. HQDA reduction will continue as further
                                                                                               non-core functions are identified and eliminated.
                                                     “Imagination • Innovation • Initiative”
FY02 United States Army Annual Financial Statement




                                  16
General Fund Performance Results:
                                                                                             fy
                                                                                                  02 General Fund




Mitigating DoD Risk Dimensions
The Government Performance and Results Act (GPRA) of 1993 seeks to
improve government-wide program effectiveness, government accountability,
and, ultimately, public confidence by requiring federal agencies to identify
measurable annual performance goals against which actual achievements can
be compared. Each agency additionally is required to submit a comprehensive
strategic plan that identifies its major goals and objectives. The DoD Strategic          Performance
Plan is defined in the Quadrennial Defense Review (QDR) of September
                                                                                    measures will guide
2001, which established a four-dimensional risk framework designed to ensure
that DoD is sized, shaped, postured, and committed appropriately. In support           Army leaders in
of the risk management framework, the Army has identified a series of              making the decisions
performance measures to enable the assessment of progress in key
                                                                                    that will assure the
performance areas toward the accomplishment of DoD policy goals. These
performance measures, which are described in the following section, will                  Army’s future
guide Army leaders in making the decisions that will assure its future                       readiness.
readiness.

DoD Risk Management Dimensions
Following the September 2001 QDR, DoD developed a four-dimensional risk
assessment framework to enable it to evaluate tradeoffs between fundamental
objectives that have been made unavoidable by resource constraints. Using
this framework, DoD addresses the issues associated with developing and
evaluating the operational force, its infrastructure, and key enabling
capabilities. In turn, the Army has identified a series of performance metrics
that address each of the risk management dimensions established by the QDR.
Each measure is supported by a quantifiable output. The four risk dimensions
and the corresponding Army performance measures are defined as follows:

1) Force Management — "the ability to recruit, retain, train, and equip
    sufficient numbers of quality personnel and sustain the readiness of the
    force while accomplishing its many operational tasks."


The Army measures force management risk by reporting and evaluating the
following metrics:

z Enlisted Recruiting
z Recruit Quality Benchmarks                                                                                17
                                                                                               z Enlisted Component Retention Rates
                                                                                               z Select Reserve Attrition Rates


                                                                                               2) Operational — "the ability to achieve military objectives in a near-term
                                                                                                   conflict or other contingency."


                                                                                               The Army measures operational risks by reporting and evaluating the
                                                                                               following metrics:

                                                                                               z Army Overseas Presence
                                                                                               z Number of Overseas Exercises
                                                                                               z Force Levels
                                                                                               z Number of Flying Hours per Month
                                                                                               z Number of Tank Miles per Year
                                                                                               z Forces Supported by Land- and Sea-Based Prepositioning


                                                                                               3) Future Challenges — "the ability to invest in new capabilities and develop
                                                                                                   new operational concepts needed to dissuade or defeat mid- to long-term
                                                                                                   military challenges."


                                                                                               The Army measures risks posed by future challenges by reporting and
                                                                                               evaluating the following metrics:
                                                     “Imagination • Innovation • Initiative”




                                                                                               z Annual Procurement Spending
                                                                                               z Successful Completion of Operational Test and Evaluation Events


                                                                                               4) Institutional —"the ability to develop management practices and controls
FY02 United States Army Annual Financial Statement




                                                                                                   that use resources efficiently and promote the effective operation of the
                                                                                                   Defense establishment."


                                                                                               The Army measures institutional risks by reporting and evaluating the
                                                                                               following metrics:

                                                                                               z Public/Private Sector Competitions
                                                                                               z Disposal of Excess Property
                                                                                               z Percentage of Paperless Transactions

                                  18
The Army's ability to respond quickly anywhere in the world is a direct result
                                                                                                  fy
                                                                                                       02  General Fund




of its commitment to maintaining readiness. The readiness we enjoy today is,
in turn, a direct result of many years of investment in high-quality people,
training, doctrine, force mix, modernization, and leader development. The
following performance measures ensure that the Army maintains ready forces,
properly supplied, with the ability to respond to any crisis, to shape the
international environment, and to protect America's citizens, interests, and
friends whenever and wherever needed.

Risk Area: Force Management                                                             The Army strives to
The primary mission of Army personnel management is to put the right person                     put the right
with the right skills in the right place at the right time. As it strives to fulfill
                                                                                       person with the right
this mission it finds itself asking more of a smaller force, making it imperative
that it have the best people available to perform its duties. No amount of                 skills in the right
technical superiority will enable the Army to respond to its future challenges if         place at the right
it fails to maintain the quality of its personnel by not making the investments
                                                                                                        time.
necessary to develop them to their full potential. Recruiting and training the
best soldiers, officers, and civilians in the proper mix of specialties and grade
levels requires an adequate compensation package, sufficient medical care and
retirement programs, and opportunities for career advancement. The Army
accordingly is committed to providing adequate funding to recruit, train, and
retain our personnel to Congressionally mandated strength and quality
standards. The following performance measures assist us in tracking our
progress toward ensuring that it meets the needs of soldiers.


Performance Measure: Enlisted Recruiting
Metric: Enlisted recruiting represents the projected number of new personnel
needed each year to maintain statutorily defined military end-strengths and the
proper distribution by rank.


Output: During FY 2002, the Army exceeded its enlisted recruiting goals for
all components.

Table 1. Enlisted Recruiting

                               FY 2000       FY 2001               FY 2002
                                Actual        Actual        Goal         Actual

    Active Army                 80,113       75,855        79,500        79,585
    National Guard              62,015       61,956        60,545        63,251                                   19
    Army Reserve                48,596       42,097        38,857        41,697
                                                                                               Performance Measure: Recruit Quality Benchmarks
                                                                                               Metric: The quality benchmarks for recruiting were established in 1992,
                                                                                               based upon a study conducted by DoD and the National Academy of Sciences.
                                                                                               The results produced a model linking recruit quality and recruiting resources
                                                                                               to the job performance of enlistees. The Army has adopted the DoD recruiting
                                                                                               targets that were derived from the model—90 percent high school diploma
                                                                                               graduates and 60 percent top-half aptitude personnel (AFQT categories I-
                                                                                               III)—as its minimum acceptable quality thresholds. Adhering to these
                                                                                               benchmarks will reduce personnel and training costs while ensuring that the
                                                                                               Army meets its high performance standards.


                                                                                               Output: During FY 2002, the Army exceeded its quality benchmarks for
                                                                                               active and reserve high school diploma graduates (HSDGs). Enlistment in
                                                                                               both the active and reserve components exceeded the DoD target that a
                                                                                               minimum of 67 percent of enlistees score in the top half of the Armed Forces
                                                                                               Qualification Test (AFQT), and enlistment in the reserve component
                                                                                               furthermore exceeded the Army's self-imposed goal of 68 percent top-half
                                                                                               applicants.

                                                                                               Table 2. Quality Benchmarks for Enlisted Recruits (percentage)

                                                                                                                                     FY 2000             FY 2001                   FY 2002
                                                                                                                                      Actual              Actual            Goal        Actual
                                                                                                                                  (Active/Reserve) (Active/Reserve)                   (Active/Reserve)


                                                                                                    Recruits Holding
                                                                                                    High School Diplomas 90.3/90.1                      90.2/92.7            90            91/93.8
                                                     “Imagination • Innovation • Initiative”




                                                                                                    Recruits in AFQT
                                                                                                    Categories I-IIIA                63.5/61.9          63.2/64.6            67            68/68.5
                                                                                                    Recruits in AFQT
                                                                                                    Category IV                       2.0/2.0             1.9/1.6             2            1.4/0.5
FY02 United States Army Annual Financial Statement




                                                                                               NOTE: AFQT = Armed Forces Qualification Test. The AFQT is a subset of the standard aptitude test
                                                                                               administered to all applicants for enlistment. It measures math and verbal aptitude and has proven to
                                                                                               correlate closely with trainability and job performance.



                                                                                               Performance Measure: Enlisted Component Retention Rates
                                                                                               Metric: Army retention goals have been in flux for almost a decade, as the
                                                                                               Army has moved toward the force reduction targets made at the end of the
                                                                                               Cold War. The draw-down is now effectively over, and personnel levels are
                                                                                               stabilizing. Retention rates are based on required staffing in each pay grade;
                                                                                               unlike the other services, the Army has historically managed retention by
                                                                                               setting firm numeric targets for the number of personnel expected to reenlist.
                                  20
Output: The Army exceeded its FY 2002 retention goal for first-term soldiers
                                                                                                            fy
                                                                                                                   02   General Fund




by 2 percent. It also saw a slight increase in the retention of second-term
soldiers, exceeding the performance goal for second-term soldiers by almost 2
percent.

Table 3. Active Component Enlisted Retention Rates

                              FY 2000      FY 2001                FY 2002
                               Actual       Actual        Goal          Actual

   First-Term Soldiers         21,409       20,000       19,000         19,433
   Second-Term Soldiers        24,118       23,727       22,700         23,074



Performance Measure: Selected Reserve Attrition
Rates
Metric: The Army employs attrition rates rather than
reenlistment rates to assess retention trends in the Army
National Guard and Army Reserves. Attrition is computed by
dividing total losses for a fiscal year by the average personnel
strength for that year. This metric is preferable because only a
small portion of the entire reserve population is eligible for
reenlistment during a given year.


Output: During FY 2002, the Army National Guard Selected
                                                                         CPT Rebecca Leggieri reenlists MSG Troy Falardeau.
Reserve had an attrition rate of 20.3 percent, which exceeded            Both are assigned to the Office of the Chief, Army
                                                                         Reserve. Photo courtesy of AUSA.
the ceiling of 19.5 percent and which marked also a 0.5 percent
degradation from the FY 2001 rate for the National Guard. The
Army Reserve, in contrast, had a Selected Reserve attrition rate of 23.4
percent, which was below the ceiling rate of 25.2 percent.

Table 4. Selected Reserve Enlisted Attrition Rates (percentage)

                             FY 2000         FY 2001               FY 2002
                                                           Goal         Actual
                                                          (Ceiling)


    Army National Guard         20.9           19.8        19.5          20.3
    Army Reserve                27.8           26.2        25.2          23.4



Risk Area: Operational
The Army needs to manage its forces such that they are appropriately sized to
accomplish both near-term war fighting tasks and small-scale contingencies.                                                    21
The metrics used in the past to assess readiness were designed and evaluated
                                                                                                                                        against a narrow set of military missions and associated tasks. With the nation
                                                                                                                                        now facing a broader range of threats, the measurement of operational risk
                                                                                                                                        must be expanded to reflect the full range of capabilities that U.S. forces must
                                                                                                                                        possess and the additional missions that they must perform.


                                                                                                                                        Today's security environment more than ever demands that forces be properly
                                                                                                                                        trained. It is essential that the Army maintain an appropriate level of readiness,
                                                                                                                                        as measured by the amount of time spent on out-of-station deployments
                                                                                                                                        (DEPTEMPO). To maintain pilot and crew proficiency, the Army measures
                                                                                                                                        the amount of flying hours, including training and maintenance activities,
                                                                                                                                        conducted by the active and reserve components of the Army. It also measures
                                                                                                                                        the number of tank miles per year covered during individual tank crew and
                                                                                                                                        squad training, and the amount of platoon-level training conducted at the
                                                                                                                                        Combat Training Center and the National Training Center.


                                                                                                                                        Currently, OPTEMPO is the framework for estimating the funds necessary for
                                                                                                                                        fuel, spare parts, and other recurring costs of home-station operations, training,
                                                                                                                                        and maintenance. OPTEMPO requirements are based on unit-specific events
                                                                                                                                        in the battalion-level training model. OPTEMPO does not equate to readiness.


                                                                                                                                        The following performance measures accordingly are designed to assess the
                                                                                                                                        Army's capability to meet the expanded role our nation's military forces must
                                                                                                                                        now play.
                                                     “Imagination • Innovation • Initiative”




                                                                                                                                                       Performance Measure: Army Overseas Presence
                                                                                                                                                       Metric: Maintain a mechanized division in the Asia-Pacific
                                                                                                                                                       region and two divisions with selected command, combat, and
                                                                                                                                                       support elements in Europe. In Europe, these forces affirm the
FY02 United States Army Annual Financial Statement




                                                                                                                                                       United States' commitment to its leadership role in NATO and
                                                                                                                                                       reinforce bilateral relations with our key partners. Forward-
                                                                                                                                                       deployed Army units in the Asia-Pacific region underscore the
                                                                                                                                                       U.S. commitment to be a stabilizing influence in the region and
                                                                                                                                                       to deter aggression on the Korean peninsula and elsewhere
                                                                                                                                                       within the region.
                                                                                               25th Infantry Division (Light) soldiers show soldiers
                                                                                               from the Japan Defense Force how to prime a
                                                                                               bangalore torpedo during an Orient Shield exercise.     Output: The Army met its FY 2002 performance target for
                                                                                               Photo courtesy of AUSA.
                                                                                                                                                       overseas presence by maintaining one mechanized division in
                                                                                                                                        the Pacific Region and two divisions with selected command, combat, and
                                  22
                                                                                                                                        support elements in Europe.
Table 5. Army Overseas Presence
                                                                                            fy
                                                                                                 02  General Fund




                              FY 2000     FY 2001               FY 2002
                               Actual      Actual        Goal         Actual

    Mechanized Divisions
    in Pacific Region             1           1            1              1
    Divisions with Elements
    in Europe                     2           2            2              2



Performance Measure: Number of Overseas Exercises
Metric: The overseas exercise program demonstrates U.S. resolve and our
ability to project forces to locations abroad in support of our national interests
and our commitments to our allies. The program provides joint force training           Today's security
that emphasizes interoperability, joint warfighting doctrine, and rapid
                                                                                     environment more
deployment. Such training provides opportunities to test and evaluate U.S. and
host nation systems, lines of communication, and support agreements. Each
                                                                                     than ever demands
year the Army establishes a goal (schedule of exercises) for the number of               that forces be
Joint and Combined Exercises.
                                                                                      properly trained.
Output: During FY 2002, the Army conducted 78 of the 80 scheduled
overseas joint and combined exercises. The number of exercises scheduled
each year is affected by various political and operational reasons. No major
exercises were cancelled in FY 2002.

Table 6. Number of Overseas Exercises

                              FY 2000     FY 2001               FY 2002
                               Actual      Actual        Goal         Actual

   Number of Joint and
   Combined Exercises           71           77           80            78



Performance Measure: Army Force Levels
Metric: The force structure requirements for the Active Army Corps, Active
and National Guard Divisions (including heavy and light divisions), Armored
Cavalry Regiments, and Enhanced Brigades were established to meet the
intent of the QDR by reflecting the needs for existing forces and adequate
preparation for the future.


Output: During FY 2002, Army force levels were in line with the goals
established in the QDR for the Active Army Corps, Active and National Guard
                                                                                                            23
Divisions (including heavy and light divisions), Armored Cavalry Regiments,
                                                                                                                                        and Enhanced Brigades. The Army has maintained its forces at the levels
                                                                                                                                        established by force reductions conducted from FY 1989 through FY 1996.

                                                                                                                                        Table 7. Army Force Levels

                                                                                                                                                                                 FY 2000          FY 2001                     FY 2002
                                                                                                                                                                                  Actual           Actual             Goal          Actual

                                                                                                                                             Active Corps                             4                4                4                  4
                                                                                                                                             Divisions (Active/National
                                                                                                                                             Guard)                     10/8                         10/8             10/8               10/8
                                                                                                                                             Active/National Guard
                                                                                                                                             Armored Cavalry
                                                                                                                                             Regiments*                             2/0              2/0               2/0                2/0
                                                                                                                                             Enhanced Brigades                       15               15               15                 15
                                                                                                                                        * The 278th Armored Cavalry Regiment was previously classified as both an Enhanced Brigade and an
                                                                                                                                        Armored Cavalry Regiment. This resulted in double counting. It is now classified as an Enhanced Brigade only.



                                                                                                                                                             Performance Measure: Number of Flying Hours per
                                                                                                                                                             Month
                                                                                                                                                             Metric: Number of aircraft flying hours per month, including
                                                                                                                                                             training and maintenance activities, required for active, Army
                                                                                                                                                             Reserve, and Army National Guard components to maintain
                                                                                                                                                             pilot and crew proficiency.

                                                                                                                                                             Output: During FY 2002, the Army fell short of the established
                                                                                                                                                             flying hours goals for the active, Army Reserve, and Army
                                                                                                                                                             National Guard forces. This shortfall was the result of numerous
                                                                                                                                                             deployments, transfers of aircraft due to Aviation
                                                     “Imagination • Innovation • Initiative”




                                                                                               A flight of Apaches takes off from a Polish airfield          Transformation, and Safety of Flight (SOF) compliance
                                                                                               during V Corps' Victory Strike II exercise, which
                                                                                               honed deep-attack skills. Photo courtesy of AUSA.             messages. There were 32 SOF messages in FY 2002, a 14
                                                                                                                                                             percent decrease from FY 2001.
FY02 United States Army Annual Financial Statement




                                                                                                                                        Table 8. Number of Flying Hours per Month
                                                                                                                                                                                  FY 2000          FY 2001                    FY 2002
                                                                                                                                                                                   Actual           Actual             Goal         Actual

                                                                                                                                              Active                                12.8              13.1             14.5               13.1
                                                                                                                                              Army Reserve                           8.5              8.9               9.0                8.9
                                                                                                                                              National Guard                         6.3              5.9               9.0                6.6

                                                                                                                                        Note: The active Army converted to Crew OPTEMPO in FY 2000 to meet the requirements of the Aviation
                                                                                                                                        Restructure Initiative (ARI), which increased the number of aviators in combat units from a 1-to-1 aircraft-to-
                                                                                                                                        crew ratio to 1-to-1.23.



                                                                                                                                        Performance Measure: Number of Tank Miles per Year
                                                                                                                                        Metric: Tank miles represents the average level of peacetime activity—
                                  24
                                                                                                                                        including in-field training, combat simulations, and equipment maintenance—
needed to achieve wartime proficiency standards, as defined by Army doctrine.
                                                                                                                                  fy
                                                                                                                                          02    General Fund




Output: Overall, Army ground training continued to exhibit a positive trend
during FY 2002. The active Army exceeded its home-station training target of
931 tank miles, and the Army National Guard (ARNG) forces recorded an
increase in tank miles from FY 2001 performance levels. In response to
Congressional concerns, virtual miles were reported this year along with
actual miles.

Table 9. Number of Tank Miles per Year

                                        FY 2000        FY 2001                FY 2002a
                                         Actual         Actual            Goal       Actual

       Active                              702             787             931              944
                           b
       National Guard                      150             113             184              123
a
    FY 2002 is first year of new reporting methodology reflecting both live and virtual miles.
b
    Composite average of all National Guard units, including annual mileage for ARNG Divisions and Enhanced
    Brigades.



Prepositioning of military equipment and supplies near regions
where conflicts potentially may arise shortens the Army's
response time in contingencies and assures its capability to
project power from the continental United States, Alaska, and
Hawaii to trouble spots anywhere in the world. Prepositioned
stocks are maintained both afloat and on land, and are
maintained at levels necessary to equip and sustain the
operating forces for the lengths of time and levels of conflict
outlined in the National Military Strategy and The Army Plan.
At the center of this program are seven armor-heavy brigade
equipment sets, the prepositioning of which enables U.S.-based
                                                                                           1st Infantry Division tank from the 1st Battalion, 63rd
soldiers to fly accompanied by minimal amounts of personal                                 Armor Regiment screams across the Bahna training
                                                                                           site in the Czech Republic.
and small equipment, draw a brigade set, and deploy to battle
positions in just days. Prepositioning objectives are based on
the size and structure of the forces calculated as necessary to halt an enemy's
progress in the very early stages of conflict.


Performance Measure: Forces Supported by Land- and Sea-
Based Prepositioning
Metric: Land-based prepositioning programs are maintained in Europe,
Southwest Asia, and the Pacific region. Sea-based prepositioning
complements these programs, providing the flexibility to move equipment                                                                                25
                                                                                                                     within and between theaters of operation. Additional prepositioning programs
                                                                                                                     provide base, fuel, and medical support.


                                                                                                                     Output: During FY 2002, the Army achieved its goal of maintaining five
                                                                                                                     land-based and one sea-based prepositioned programs.

                                                                                                                     Table 10. Forces Supported by Land- and Sea-Based Prepositioning
                                                                                                                                                  FY 2000       FY 2001             FY 2002
                                                                                                                                                   Actual        Actual      Goal         Actual

                                                                                                                        Land-based                    6            5           5             5
                                                                                                                        Afloat                        1            1           1             1



                                                                                               America cannot take   Risk Area: Future Challenges
                                                                                               future success for    The U.S. military, despite the upheavals of the past decade, has conducted all
                                                                                                                     of its operations successfully. Nonetheless, America cannot take future success
                                                                                               granted.
                                                                                                                     for granted or assume that no other nation or group will attempt to challenge it
                                                                                                                     in the future. The attacks of September 2001 made that clear. Nor can America
                                                                                                                     predict with confidence which adversaries will pose threats. The types of
                                                                                                                     military capabilities that will be used to challenge U.S. interests and military
                                                                                                                     forces can, however, be identified and understood. As in the September terror
                                                                                                                     attacks in New York and Washington, any future adversaries will seek to
                                                                                                                     attack America where it is vulnerable, using asymmetric approaches such as
                                                                                                                     electronic terrorism and attacks against domestic infrastructure.
                                                     “Imagination • Innovation • Initiative”




                                                                                                                     It is clear that the Army must shift from a threat-based to a capabilities-based
                                                                                                                     paradigm. When assessing the risk of future challenges, it can no longer focus
                                                                                                                     on extant threats of military engagement, but must address its capability to
FY02 United States Army Annual Financial Statement




                                                                                                                     meet potential new challenges. The absence of a current, immediate threat is
                                                                                                                     not justification to disregard a technology that could overcome that; on the
                                                                                                                     contrary, introducing technology early both furnishes a military advantage,
                                                                                                                     and may dissuade a potential adversary from pursuing a similar capability.


                                                                                                                     Performance Measure: Annual Procurement Spending
                                                                                                                     Metric: To achieve the appropriate balance between modernization
                                                                                                                     investments and Operations and Maintenance (O&M) expenditures, the QDR
                                                                                                                     calls for a substantial increase in funding for modernization. The Army
                                                                                                                     accordingly tracks and reports on its Annual Procurement funding.
                                  26
Output: Congressional funding for procurement spending for FY 2002
                                                                                                                                     fy
                                                                                                                                             02        General Fund




increased by nearly 14 percent from the previous year. Since FY 2000 there
has been more than a 26.2 percent increase in procurement funding.

Table 11. Annual Procurement Spending ($ in millions)
                                       FY 2000          FY 2001                      FY 2002
                                        Actual           Actual               Goal         Actual

     President's
     Budget - Army                       $8,569          $9,738              $10,424      $12,371
     Total Appropriated*                 $9,241          $10,265             $11,985      $11,666

*Appropriated dollars are available for spending over a three-year period.



Performance Measure: Successful Completion of Operational
Test and Evaluation Events
Metric: The Army's test and evaluation programs aim to ensure
that all forces are provided with weapons systems and
equipment that are effective and suitable for the missions they
are designed to accomplish. In the future, combat systems will
be increasingly interoperable and interdependent. New systems
entering service will have to function effectively not only with
other systems in the U.S. inventory but also with weaponry and
equipment operated by allied and coalition forces. The
increased complexity of modern warfare will demand rigorous
operational assessments and testing throughout the acquisition
cycle. The purpose of these assessments is to ascertain, as                                 The Ronald Reagan Ballistic Missile Defense Test
                                                                                            Site on Kwajalein Atoll offers extensive flexibility for
quickly as possible, how a new system or technology will                                    missile testing. Photo courtesy of AUSA.
perform from an operational perspective.


Output: The Army established a goal to complete successfully 49 Operational
Test and Evaluation Events for FY 2002. During FY 2002, the Army met its
goal by completing 49 of the 49 scheduled tests.

Table 12. Successful Completion of Operational Test and Evaluation Events
                                       FY 2000          FY 2001                      FY 2002
                                        Actual           Actual               Goal         Actual

     Percentage of OT&E                  100%             100%                100%         100%
     events successfully
     completed


                                                                                                                                                              27
                                                                                               Risk Area: Institutional
                                                                                               The Army, along with all U.S. military forces and operations, is changing
                                                                                               dramatically in response to resource constraints and advances in technology.
                                                                                               Effecting changes in the way the Army conducts its support operations will
                                                                                               require that business processes also be transformed in order to achieve the
                                                                                               most efficient support operations possible. Much like the combat forces,
                                                                                               which are becoming more agile and capable, the Army's goal is to produce an
                                                                                               increasingly responsive support structure. Some of the specific types and areas
                                                                                               of infrastructure change are financial management, public-private sector
                                                                                               competitions, and the disposal of excess property.


                                                                                               Performance Measure: Public/Private Sector Competitions
                                                                                               Metric: As part of its efforts to reduce infrastructure, the Army conducts
                                                                                               regular reviews of various functions and their associated billets. As a result of
                                                                                               these reviews, some functions are retained in-house, others are outsourced,
                                                                                               and others are reengineered.


                                                                                               Output: During FY 2002, the Army conducted 17 public-private sector
                                                                                               competitions, resulting in 11 decisions to keep the function in-house and six
                                                                                               contract decisions to outsource for an annual savings of $87 million.

                                                                                               Table 13. Public Private Sector Competitions
                                                                                                                               FY 2000    FY 2001             FY 2002
                                                                                                                                Actual     Actual      Goal         Actual
                                                     “Imagination • Innovation • Initiative”




                                                                                                   Number of positions          2,624         5,115    3,576         2,646
                                                                                                   subject to A-76
                                                                                                   competitions or strategic
                                                                                                   sourcing reviews
FY02 United States Army Annual Financial Statement




                                                                                               Performance Measure: Disposal of Excess Property.
                                                                                               Metric: The maintenance of excess property is wasteful of scarce military
                                                                                               resources. Disposal of such property frees up funds that can be applied to
                                                                                               force modernization and readiness.


                                                                                               Output: During FY 2002 the Army disposed of 81.3 percent of the excess
                                                                                               Base Realignment and Closure (BRAC) acres scheduled for disposal in FY
                                                                                               2002. As a result of the disposal of excess real property for FY 2002, the
                                                                                               Army's real property maintenance sustainment costs were $ 331.5 million,
                                                                                               based on $4.89 per square foot. In FY 2002, $1.51 million was saved based on
                                  28
                                                                                               $.40 per square foot for 3.8 million square feet.
Table 14 - Disposal of Excess Real Property
                                                                                   02
                                                                                  fy   General Fund




                               FY 2000    FY 2001              FY 2002
                                Actual     Actual       Goal         Actual

   BRAC Excess Acreage
   Remaining for Disposal       201,268    135,310      125,854      127,180
   BRAC Acres Disposed
   of During the Fiscal Year     10,454       65,959     10,000        8,130
   BRAC dollars spent
   during FY ($000)            $133,711   $265,100     $167,900     $158,176



Performance Measure: Percentage of Paperless Transactions
Metric: The Army is committed to employing contemporary information
technology and commercial best practices to reinvent its contracting processes.
Contracting, and particularly contracting related to high-cost weapon systems,
consumes a large portion of the defense budget and employs a significant
portion of the Army workforce. Over time, paperless contracting will
contribute to a reduction in acquisition cycle times and to the streamlining of
the acquisition workforce.


The Defense Reform Initiative (DRI) set the goal that 90 percent of selected
transactions be performed electronically by FY 2000, and The National
Partnership for Reinventing Government (NPR) additionally set the goal of
reducing by 50 percent the number of paper-based transactions performed in
FY 2000 from the FY 1997 baseline.


Output: During FY 2002 the Army exceeded all goals for the percentage of
paperless transactions and exceeded the NPR goal for total electronic
contracting and payment transactions.

Table 15. Percentage of Paperless Transactions
                               FY 2000    FY 2001              FY 2002
                                Actual     Actual       Goal         Actual

   DRI Goals
   Purchase requests             81%          93%       90%           94%
   Funding documents             81%          93%       90%           94%
   Solicitations                 97%          98%       90%           98%
   Awards/Modifications          94%          95%       90%           94%
   NPR Goal
   Total electronic contracting
   and payment transactions 50%               95%       90%           95%
                                                                                              29
                                                                                                                    Management Integrity
                                                                                                                    The Army's approach to assuring management control and integrity is
                                                                                                                    anchored in the fundamental philosophy that all commanders and managers
                                                                                                                    have an inherent management control responsibility. The Headquarters
                                                                                                                    Department of the Army (HQDA) (the Integrating Subsystem) functional
                                                                                                                    proponents are responsible for establishing sound management controls in
                                                                                                                    their policy directives and for exercising oversight to ensure compliance with
                                                                                                                    these policies. Commanders and managers throughout the Army are
                                                                                                                    responsible for establishing and maintaining the control and integrity of their
                                                                                                                    operations.

                                                                                               ... all commanders   Corrected Weakness
                                                                                               and managers have    Pollution Prevention
                                                                                                                    In 1998 the Army identified that it did not integrate adequately pollution
                                                                                               an inherent          prevention into all of its programs. It since has identified the critical
                                                                                               management control   requirements for achieving this integration and has linked all "must fund"
                                                                                                                    environmental management policies to the Army Planning, Programming,
                                                                                               responsibility.      Budgeting, and Execution System to ensure that they receive adequate
                                                                                                                    resources. The Army furthermore now integrates environmental quality
                                                                                                                    considerations into its weapons acquisition system and system engineering
                                                                                                                    processes and has developed a pollution prevention training program for use
                                                                                                                    in Army Acquisition Corps training. In FY 2002, the U.S. Army Audit Agency
                                                                                                                    completed its review of this weakness and concluded that the Army has
                                                                                                                    effectively dealt with the issue.
                                                     “Imagination • Innovation • Initiative”




                                                                                                                    Uncorrected Weaknesses
                                                                                                                    Paperless Contract Writing System
FY02 United States Army Annual Financial Statement




                                                                                                                    The Standard Procurement System (SPS) was intended to be fielded as a
                                                                                                                    paperless contract writing system using electronic data feeds to create
                                                                                                                    electronic images of contracts viewable by paying offices and to populate the
                                                                                                                    Contract Accounts Payable System (CAPS) data fields to effect payments.
                                                                                                                    Army contracting offices currently use SPS to write contracts for vendors at
                                                                                                                    Army posts, camps and stations with the Defense Finance and Accounting
                                                                                                                    Service (DFAS) using CAPS to process payment information for most of
                                                                                                                    these contracts. The Army is experiencing numerous problems getting these
                                                                                                                    systems to work together effectively. Reliable electronic data feeds from
                                                                                                                    contracting offices to CAPS paying offices have not been established to
                                                                                                                    support timely and accurate payments of contractors in accordance with Title
                                  30
                                                                                                                    5, Code of Federal Regulations, Part 1315 (Prompt Payment).
The use of contract images posted in the Electronic Document Access for use
                                                                                     02
                                                                                    fy   General Fund




by DFAS paying offices has not proven reliable yet, requiring the contracting
offices to forward printed copies of the contracts to the paying office.
Furthermore, the electronic data file of contract information created by the
SPS interface program has been successful only sporadically, requiring
manual entry of vendor payment data upon receipt of the paper contract when
the electronic data feed fails. This problem has contributed directly to the late
payment interest penalties of about $470,000 in FY 2001 by the Army. In
many of these cases where the SPS interface failed, the paper contract is
received well after goods and services are provided to and accepted by the
government. If not corrected, Army contracting offices will be required to
forward paper contracts to paying offices increasing the likelihood of
erroneous contractor payments and unnecessary interest payments. In addition,
contracting and paying personnel will not meet the goal of paperless
contracting, resulting in other inefficiencies in processing these payments.


To correct this problem, the Office of the Assistant Secretary of the Army
(Acquisition, Logistics and Technology) (OASA (AL&T)) and DFAS entered
into a Memorandum of Agreement to address data migration and interface
requirements for information traveling from SPS to CAPS.


Financial Reporting of General Equipment
The Army does not meet yet the financial reporting requirements for general
equipment because it cannot present yet the historical cost and depreciation
of those assets in its financial statements. While the Army has physical
control over these assets, the absence of any requirement that its original
property accountability systems provide for proprietary accounting means
that historical costs and depreciation expenses were not maintained by those
systems.


In FY 2002, the Army completed fielding of the Defense Property
Accountability System (DPAS), resolving the issue of recording historical
costs and calculating depreciation expenses. The Army Audit Agency will
validate the effectiveness of this action, and the Army expects to close this
weakness in FY 2003.


Army Purchase Card Program
The General Accounting Office (GAO) identified a lack of adherence by field
                                                                                                31
activities to established purchase card internal controls. Although no
                                                                                               substantial instances of fraud, waste and abuse were identified, an
                                                                                               environment existed that easily could have fostered fraud. As a result, GAO
                                                                                               has expanded the audit to include a review of the Army and other Defense
                                                                                               Components.


                                                                                               The Army has addressed positively every GAO finding regarding the Army
                                                                                               Purchase Card Program. To correct this problem, the OASA (AL&T) has
                                                                                               sought aggressively to establish positive controls in the areas where
                                                                                               weaknesses were found.


                                                                                               Previously Reported Weaknesses
                                                                                               The Army reported two weaknesses last year that it had expected to close.
                                                                                               Various circumstances prevented this from happening.


                                                                                               Manpower Requirements Determination. The Army is seeking to establish
                                                                                               effective manpower programs for managing and controlling Tables of
                                                                                               Distribution and Allowances (TDA) workload, organizations, and manpower
                                                                                               staffing. The current system for manpower requirements determination lacks
                                                                                               the ability to link workload, manpower requirements, and dollars. This makes
                                                                                               it difficult for managers to support staffing needs, manpower budgets, and
                                                                                               personnel reductions.


                                                                                               The Army has been pursuing corrective actions since 1997 and expected to
                                                     “Imagination • Innovation • Initiative”




                                                                                               eliminate this weakness in FY 2002. However, Army leaders were uncertain
                                                                                               that the adopted path would yield an adequate requirements determination
                                                                                               method to allow for rational decision-making. As a result, the Army adjusted
                                                                                               its approach to provide the analytic support, validation, and prioritization of
FY02 United States Army Annual Financial Statement




                                                                                               missions and requirements necessary to provide leaders and managers at all
                                                                                               levels with the information needed to make near-term and out-year manpower
                                                                                               decisions. The Army expects to complete its efforts in FY 2005.


                                                                                               Financial Reporting of Equipment-in-Transit: The Army does not have
                                                                                               reliable data on the value of equipment in-transit. The Army believed it had
                                                                                               addressed all required issues, but AAA review found that additional work still
                                                                                               is required. The target date for closure of this weakness is FY 2005.



                                  32
Future Effects of Existing Conditions
                                                                                               fy
                                                                                                    02  General Fund




Operational Risk
The Army's current force is very similar to that of the Army that 11 years ago
fought so decisively in Desert Storm. In the intervening years the nature of the
threat facing America has evolved. The force that deployed in the Gulf War
was developed under a strategy that envisioned a scenario of two simultaneous
major regional conflicts. The 2001 terrorist attacks on America introduced an        The Army has moved
enemy instead that would employ asymmetrical warfare to avoid our strengths           away from a threat-
and attack our vulnerabilities. It is difficult to assess exactly what form future
threats will take. As a consequence, the Army has moved away from a threat-
                                                                                       based force and is
based force and is intent on building a capabilities-based force equipped to          intent on building a
function across the full spectrum of military operations.                              capabilities-based

Identified as the Objective Force, this new force will fight in a noncontiguous
                                                                                                    force.
manner, and will be capable of rapid deployment in a crisis to either fight or,
ideally, to deter conflict. It will have the capability of being projected
anywhere in the world—not just to easily accessible areas with multiple air
and seaports, but also to remote, landlocked, and infrastructure-poor areas.
The importance of this capability was demonstrated in Afghanistan, where the
rapid engagement of U.S. forces contrasted dramatically with the long build-
up that preceded Desert Storm. Failure at this point to develop this capability
to project sustainable combat power anywhere in the world (i.e., failure to
realize the Objective Force) could leave the nation's worldwide interests
vulnerable to attack.

Institutional Risk
The Army must make the best use of its resources in its day-to-day operations.
This requires that it transform its business practices to improve its financial
management and that it streamline its infrastructure.


Business practices have, in the last decade, changed fundamentally, leading to
significantly increased productivity, lower costs, and higher-quality outputs.
The Army has not kept pace and must transform how it does business so that
it might free up resources that can be applied to the fielding of the Objective
Force. Many functional activities need to be examined and improved,
streamlined, or eliminated. This requires imagination and innovation.
                                                                                                               33
                                                                                               It is essential to the effort to reduce costs and increase productivity that Army
                                                                                               leaders and managers be supplied with reliable information. The Army's
                                                                                               inability thus far to achieve an unqualified audit opinion on its financial
                                                                                               statements indicates that the information it is given is not reliable, with the
                                                                                               result that resources are not being used to their best effect. The Army
                                                                                               estimates that 80 percent of the data found in its financial systems comes from
                                                                                               functional area systems such as logistics, personnel, acquisition, and other
                                                                                               systems. The Army realizes that the capability to deliver reliable information
                                                                                               will require the integration of these functional management systems with
                                                                                               financial management systems. Until this is done the Army will continue to be
                                                                                               at risk of sub-optimizing its use of resources.


                                                                                               Another way to lower costs is to eliminate unnecessary infrastructure: as much
                                                                                               as 25 percent of the Army's infrastructure is surplus to its needs. However, the
                                                                                               decision to delay for two years the base closure program has obligated the
                                                                                               Army to apply resources to maintenance of this excess infrastructure, and
                                                                                               increased force protection requirements have exacerbated this problem. The
                                                                                               Army, furthermore, has been forced to delay its investments in infrastructure
                                                                                               revitalization until it becomes clear which installations will be closed and
                                                                                               which will be kept open. Commanders already rate two-thirds of Army
                                                                                               infrastructure as so poor that it is damaging to readiness and morale; these
                                                                                               matters can serve only to make the situation worse.

                                                                                               Human Capital
                                                     “Imagination • Innovation • Initiative”




                                                                                               A critical element of Transformation is determining the proper mix of civilian,
                                                                                               military, and contractor personnel to assure the Army's success. This includes
                                                                                               an assessment of core competencies across the full spectrum of military
FY02 United States Army Annual Financial Statement




                                                                                               operations. As the Army seeks to increase its "tooth-to-tail" ratio, it must
                                                                                               carefully weigh the important roles played by combat support and combat
                                                                                               service support personnel. There is a temptation to reduce the number of
                                                                                               personnel that perform these roles in order to convert their positions to combat
                                                                                               roles, but there are some essential support positions that must be retained and
                                                                                               filled by military personnel. Logistical support to the troops in combat in
                                                                                               particular must not be compromised.


                                                                                               While many support tasks can be outsourced, the Army must ensure that it can
                                                                                               meet the demands of "the last logistical mile." In many instances, it would not
                                  34
                                                                                               be appropriate to rely on contractors or civilian employees to perform these
tasks. The Army must, therefore, balance the economic gains of outsourcing
                                                                                        02
                                                                                       fy   General Fund




against the need to ensure that the military force structure can deliver the
necessary logistics on the battlefield. Selecting the right structure for a force of
480,000 is a complex task involving many tradeoffs. The challenge facing the
Army is to determine precisely the core competencies it requires to sustain
combat operations and to ensure that it retains the right mix of combat and
support troops.




                                                                                                   35
                                                                                                                              Advancing the President's Management
                                                                                                                              Agenda
                                                                                               "Being at war is no            The President's Management Agenda provides a route to greater efficiency and
                                                                                                                              the means whereby the Army can identify the actions it must take to improve
                                                                                               excuse for not
                                                                                                                              management performance at all levels. Just as the Army is reinventing itself as
                                                                                               implementing                   a fighting force, it is changing the way that it conducts the business of
                                                                                               business reform."              supporting that force.

                                                                                                     Thomas E. White          Strategic Management of Human Capital
                                                                                                      Secretary of the Army
                                                                                                                              A key element of successful personnel management is providing people with
                                                                                                                              information and trusting them to use it to the benefit of the organization as a
                                                                                                                              whole. The Army is taking steps to empower its soldiers and civilian
                                                                                                                              employees with greater knowledge.


                                                                                                                              Army Knowledge Management
                                                                                                                              The Army, at its core, is people who, by doing their jobs well every day,
                                                                                                                              contribute to the accomplishment of the Army mission. Putting knowledge in
                                                                                                                              the hands of its people makes the Army stronger. Army Knowledge
                                                                                                                              Management is an innovative strategy to transform the Army into a
                                                                                                                              knowledge-based force that will improve performance at every level.


                                                                                                                              Under the umbrella of Army Knowledge Management, the Army has
                                                     “Imagination • Innovation • Initiative”




                                                                                                                              introduced the new tactical Warrior Knowledge Network, which relies heavily
                                                                                                                              on communities of practice. Akin to guilds, these are voluntary associations of
                                                                                                                              people bound together by common professional interests. The network uses
                                                                                                                              the Internet to enable soldiers to share knowledge and learn from their peers,
FY02 United States Army Annual Financial Statement




                                                                                                                              mentors, experts, and other resources. By leveraging emerging methods of
                                                                                                                              knowledge creation and transfer, it supports the Army's drive toward
                                                                                                                              becoming a "learning organization" that shares knowledge and information
                                                                                                                              that is relevant to its mission.


                                                                                                                              eArmyU
                                                                                                                              Trained soldiers are difficult to replace, and investment in retaining them can
                                                                                                                              represent money well spent. One major retention incentive is education, and
                                                                                                                              the Army has taken an innovative approach to leveraging this incentive
                                                                                                                              through the creation of eArmyU. Initially offered at three installations, the
                                  36                                                                                          Army expanded the program in FY 2002 to a total of five installations. Once
enrolled, soldiers can continue their studies wherever they are assigned, which
                                                                                   02
                                                                                  fy   General Fund




includes today Australia, Honduras, Kosovo, Bosnia, Belgium, Japan, Egypt,
Kuwait, Singapore, Germany, Korea, Macedonia, Italy, and Jordan. In FY
2002, 16 percent of the soldiers in the program extended in order to meet
eArmyU's eligibility requirements.


In addition to contributing to a soldier's education, eArmyU functions in
support of Army Transformation. Through its intensive use of information
technology, the program is aiding in the development of technology-savvy
soldiers who can succeed on the digitized battlefield.

Competitive Sourcing
Many of the tasks performed by government employees can be contracted out
to the commercial marketplace, often at savings in a range of 20 to 50 percent.
The Army continues to seek savings by outsourcing non-core functions.
Successful outsourcing will also contribute to the efforts to man fully combat
units while preserving the institutional Army.


Residential Communities Initiative
The Army is partnering with private sector firms to manage its residential
communities. Family housing facilities are conveyed to a developer with a
long-term land lease in return for an agreement to renovate or replace existing
quarters and build new units as needed. The developer also is responsible for
operating and maintaining the housing units. In return the developer collects
service member tenants' Basic Allowance for Housing.


The Residential Communities Initiative (RCI) was authorized in 1996 and has
seen four successful pilot installations. Eight more were initiated in FY 2002,
with an additional 15 planned by FY 2005. This will result in the privatization
of more than 71,000 family housing units. RCI is an innovative and
financially prudent way for the Army to cope with a requirement of $6 billion
for the 70 percent of its inventory that is in need of renovation.


Recruiting
The Army's vision for readiness requires that all combat units be staffed fully
and that this be achieved without breaking the institutional Army. Army
recruiters are a key part of the institutional Army and skilled
noncommissioned officers traditionally have filled the recruiter position.                    37
                                                                                                                               Seeking a way to release skilled soldiers from the institutional Army, the
                                                                                                                               Army has awarded contracts to two civilian firms to perform the recruiting
                                                                                                                               mission. This is a test program that will run through FY 2006 at 10 locations.
                                                                                                                               The contractors will replace more than 350 non-commissioned officers who
                                                                                                                               can be released for other duties.

                                                                                                                               The contractors will put a premium on hiring veterans who are smart,
                                                                                                                               energetic, and who have a recruiting background. They will be trained in
                                                                                                                               enlistment eligibility, enlistment incentives, and U.S. Army Recruiting
                                                                                                                               Command policies and procedures. The Army National Guard has been using
                                                                                                                               civilian contractors to successfully augment its recruiting efforts since 1999. If
                                                                                                                               this test is successful, it could be expanded to return an even greater number
                                                                                                                               of non-commissioned officers to the force.

                                                                                                                               Improved Financial Performance
                                                                                               "This is not just               In FY 2002, Secretary White approved a number of initiatives that will enable
                                                                                                                               the Army to make better use of its funds. The Army also is pursuing other
                                                                                               about money. It’s
                                                                                                                               long-term initiatives aimed at putting more useful and more reliable financial
                                                                                               about responsibility            information in the hands of managers, with the aim of enabling them to make
                                                                                                                               more efficient use of resources.
                                                                                               to the men and
                                                                                               women in uniform                Better Use of Training Funds
                                                                                               who put their lives at          When soldiers leave their home station for training, the costs incurred are
                                                                                                                               funded by the sending installation—despite the fact that those costs are
                                                                                               risk. We owe them               controlled by the training installation. The Army will initiate a test to examine
                                                     “Imagination • Innovation • Initiative”




                                                                                               the best training and           whether costs for lodging, food, and local transportation can be reduced if the
                                                                                                                               funding is controlled by the training installation. The Army believes this will
                                                                                               best equipment, and
                                                                                                                               result in lower funding requirements, reduced accounting transactions and
                                                                                               we need the
FY02 United States Army Annual Financial Statement




                                                                                                                               delinquent accounts, and reduced out-of-pocket expenses for soldiers.
                                                                                               resources to provide
                                                                                                                               In an initiative that will require Congressional support, the Army will seek to
                                                                                               that."                          fund reserve component new equipment training with procurement funds,
                                                                                                                               rather than with reserve component operations and maintenance (O&M) and
                                                                                                   Donald H. Rumsfeld
                                                                                                        Secretary of Defense   personnel funds. Because these latter funds are only available for one year, if a
                                                                                                                               program is accelerated or delayed the funds may not be available for the new
                                                                                                                               equipment training when it actually occurs. The Army will seek approval to
                                                                                                                               allow program managers to reimburse the reserve component accounts out of
                                                                                                                               multi-year procurement funds under their control. Authorized to use multi-
                                                                                                                               year funds, program managers would have more flexibility to absorb schedule
                                  38                                                                                           changes without affecting adversely reserve component training.
CFO Strategic Plan
                                                                                      02
                                                                                     fy   General Fund




To successfully achieve its vision, the Army must have sufficient resources
with which to take care of its soldiers, ensure near-term readiness, and
transform itself into the force of the 21st century. The delivery of high-quality
financial information upon which resource decisions can be based is
imperative for improved financial performance.

Delivery of this information requires
integrating with the financial management
processes and systems the many
stovepipe processes and systems that
affect the consumption of financial
resources. The Army has developed and
is executing a strategic plan that
synchronizes efforts across the Army to
integrate processes and systems, while
improving upon the quality of
management information.

The Army is implementing modern technology in the development of flexible,
streamlined procedures and processes that will provide the type of information
upon which sound decisions can be based. Within the context of this plan, the
financial management and functional communities are working together to
eliminate unnecessary systems. Financial managers and functional leaders are
working to ensure that the systems brought forward comply with all statutory,
regulatory, and audit requirements. The Army's plan is designed to
complement the DoD Financial Management Modernization Program, which
is working to identify systems, to map processes, and to determine the optimal
architecture for the future.

By integrating effectively the financial processes and systems with the many
other functional processes and systems that impact on commanders' resources,
the Army can provide commanders with relevant and reliable information on
the availability of funds. This information will enable commanders to better
assess their ability to train and maintain and will help them to articulate better
the financial costs and benefits of different options.




                                                                                                 39
                                                                                               Expanded Electronic Government
                                                                                               The President's Management Agenda asserts that, through electronic means,
                                                                                               government can both reduce costs and provide better service. The Army,
                                                                                               accordingly, is pursuing a number of electronic initiatives aimed at providing
                                                                                               better service to its soldiers and civilian employees.


                                                                                               Eagle Cash
                                                                                               Eagle Cash is a Financial Stored Value Card (SVC) developed by a
                                                                                               partnership of the Department of Treasury, the Defense Finance and
                                                                                                                                     Accounting Service, the Army and Air
                                                                                                                                     Force Exchange Service (AAFES), and
                                                                                                                                     the Army. The card is the size of a
                                                                                                                                     standard credit card and has an embedded
                                                                                                                                     microprocessor chip that holds
                                                                                                                                     information in electronic form.


                                                                                               Local finance officials in Bosnia, Honduras, Hungary, Kosovo, and
                                                                                               Macedonia issue the cards to deployed soldiers and civilians in lieu of cash.
                                                                                               This has the dual effect of reducing the amount of cash required in a theater of
                                                                                               operations, thereby reducing cash handling costs, and reducing the
                                                                                               vulnerability of soldiers to loss or theft. It also reduces AFFES's vulnerability
                                                                                               to bad checks. The result has been a 58 percent reduction in cash disbursed to
                                                                                               soldiers and a 49 percent reduction in cash and administrative paper work
                                                     “Imagination • Innovation • Initiative”




                                                                                               turned in to overseas finance offices by AAFES and military postal offices.


                                                                                               The card has the added benefit of improving cash flow in AAFES businesses
FY02 United States Army Annual Financial Statement




                                                                                               in a theater of operations. Prior to Eagle Cash, it took up to 15 days to process
                                                                                               a cash deposit through a finance office for deposit at an AAFES bank account.
                                                                                               This has been reduced to as little as two days with Eagle Cash, which enables
                                                                                               finance offices to settle deposits by postal offices and AAFES through secure
                                                                                               Internet. This technology provides a viable alternative to military pay
                                                                                               certificates and U.S. currency in deployed environments.


                                                                                               Military Paper Check Conversion
                                                                                               Most overseas finance offices process check deposits through a manual, labor-
                                                                                               intensive process, with returned checks taking up to three months to debit the
                                                                                               finance officer's account. Through Military Paper Check Conversion, affected
                                  40
                                                                                               via secure Internet, the Army converts paper checks into an electronic debit of
the check writer's account. This reduces to 24 hours the time
                                                                                      02
                                                                                     fy   General Fund




for the check to clear; it also reduces the time for AAFES to
receive funds from as many as 15 days to just two.


In a one-year pilot conducted in FY 2002, finance offices
processed 82,560 personal checks, valued at $35 million. Of
these, 99.6 percent were successfully processed the first time.
For those that were returned for re-presentment, 96 percent
were successfully collected because notifications for
insufficient funds were reduced from 28 days to two days
making it easier to take corrective actions. This technology has
enhanced the finance officer's mission during contingency operations.


U.S. Debit Card
The Department of Treasury, the Defense Finance and Accounting Service
(DFAS), the U.S. Southern Command (SOUTHCOM) and the Army
developed the U.S. Debit Card (USDC) in partnership. The USDC is a
flexible, magnetic stripe card that uses the secure Internet as its infrastructure
to allow the local comptroller to load funds to the card and to monitor the
expenses of the employees. The USDC is used at the SOUTHCOM to fund
escort agents in the performance of their duties of escorting foreign nationals
to their headquarters. The past business practices were manual, time
consuming, and lacking in internal controls on the funds being used. This
technology allows the comptroller to support their escort officers' mission 24
hours a day, 7 days a week effectively, efficiently and easily. To date,
SOUTHCOM has improved their business processes to include obligations
and accountability of funds. Over $2 million has been processed using this
technology.




                                                                                                 41
             FY02 United States Army Annual Financial Statement
“Imagination • Innovation • Initiative”
                                                                  Profile of Working Capital Fund               43
                                                                  Overview                                      43
                                                                  The Activity Groups                           46


                                                                  Working Capital Fund - Performance Measures   51

                                                                  Corporate Performance                         51
                                                                  Performance Measures                          51


                                                                  Supply Management, Army                       54
                                                                  Program Scope                                 54
                                                                  Performance Measures                          55


                                                                  Depot Maintenance                             60
                                                                  Program Scope                                 60
                                                                  Performance Measures                          61


                                                                  Ordnance                                      67
                                                                  Program Scope                                 67
                                                                  Performance Measures                          68


                                                                  Information Services                          74
                                                                  Program Scope                                 74
                                                                  Performance Measures                          75


                                                                  Management Integrity                          78
                                                                  Continuing Challenges                         78


                                                                  Future Effects of Existing Conditions         78
                                                                  Logistics Transformation                      78
                                                                  Facilities Recapitalization                   79


                                                                  Advancing the President's Management Agenda   80
                                                                  Strategic Management of Human Capital         80
                                                                  Improved Financial Performance                81
Working Capital Fund




Profile of Working Capital Fund—Overview
The Army Working Capital Fund (AWCF) is part of the Defense Working
Capital Fund, established by the Secretary of Defense under the authority of
Title 10, U.S Code, Section 2208. Section 2208 allows for the establishment
of working capital funds to finance inventories and provide working capital
for industrial-type activities that provide common services within or among
the departments and agencies of the Department of Defense (DoD).


The AWCF is divided into four activity groups: Supply Management, Army;
Depot Maintenance; Ordnance; and Information Services (see Figure 3). The
Army Materiel Command (AMC) exercises command and control over the
activity groups through one or more of its six major subordinate commands.
AMC in turn reports activities to the Deputy Chief of Staff, G-4 and to the




                                                                                02
Assistant Secretary of the Army (Financial Management and Comptroller)
(ASA(FM&C)). A DoD corporate board additionally maintains oversight of
AWCF functions.
                                                                               fy    43
                                                                                                                      Figure 3. AWCF Organizational Chart
                                                                                                                                                                              Mission
                                                                                                                                  DoD Corporate Board
                                                                                                                                                                              The overarching goal of the
                                                                                                                                                                              AWCF is to promote Army
                                                                                                                                       ASA (FM&C)
                                                                                                                                             G-4                              readiness by assuring the
                                                                                                                                                                              agility and sustainability of
                                                                                                                                Army Materiel Command                         Army support systems. In
                                                                                                                                                                              essence, the relationship
                                                                                                                                                                              between the operating forces
                                                                                                                                      Supply                    Information
                                                                                                                                    Management                    Services    and the support
                                                                                                                                       Army
                                                                                                                                                                              organizations is that of
                                                                                                                                         TACOM-W
                                                                                                                                                        CECOM                 customer and provider. As a
                                                                                                                                    SBCCOM
                                                                                                                                                    AMCOM
                                                                                                                                                   TACOM-RII
                                                                                                                                                                              provider, the AWCF activity
                                                                                                                         Ordnance
                                                                                                                                                             Depot            above all must serve the
                                                                                                                                                          Maintenance
                                                                                                                                                                              needs of its most important
                                                                                                                                                                              customers, the operating
                                                                                                                                                                              forces; it must do so,
                                                                                                                      however, while observing also an obligation to control or reduce costs. AWCF
                                                                                                                      managers, accordingly, are charged with satisfying their customer
                                                                                                                      requirements within cost goals established in their budgets. In part, and where
                                                                                                                      appropriate, managers are seeking to do this through the application and
                                                                                                                      adaptation to Army support functions of private sector best practices.


                                                                                                                                     The public and private sector are not perfectly analogous,
                                                     “Imagination • Innovation • Initiative”




                                                                                                                                     however. It is not acceptable that critical Army operations be
                                                                                               AWCF Readiness                        susceptible to short-term price fluctuations, for example. The
                                                                                               Enhancers                             AWCF activities therefore provide mission-critical support at
                                                                                               z Stable Rates
FY02 United States Army Annual Financial Statement




                                                                                                                                     rates that remain stable during the year of execution, regardless
                                                                                               z Surge Capability                    of price changes. This protects the operating forces from having
                                                                                               z Quality Maintained                  to reduce their readiness programs should prices rise above
                                                                                                                                     anticipated levels. The AWCF activities also maintain a surge
                                                                                                                                     capability to provide extraordinary supply or other support
                                                                                                                      should mobilization conditions require. Finally, and regardless of whether it is
                                                                                                                      performed internally or contracted out, all AWCF work is undertaken to
                                                                                                                      standard specifications, without compromise.


                                                                                                                      How the AWCF Works
                                  44                                                                                  The AWCF uses a revolving fund structure, named for the cyclical nature of
                                                                                                                      the cash flow in and out of the fund. Activities price their goods and services
such that the sale of those goods and services recovers the total cost incurred
                                                                                                        fy
                                                                                                            02
                                                                                                         Working Capital Fund




in providing them; the income from sales, in turn, is used to buy or replace
inventory and to finance the delivery of future goods and services.


The AWCF operates through a four-step process (see Figure 4). First,
Congress reviews the budget submissions of the AWCF customers, approves a
budget for those customers, and appropriates to them the approved funds. The
customer next sends to an AWCF activity a funded order—essentially a fixed-
price contract based on the work required and the AWCF rate for the goods
and services. Third, the AWCF activity performs the work necessary to
produce the goods and services required, incurring costs as it does so. Finally,
the activity invoices the customer per the funded order, thus recovering its
costs and completing the funding cycle.

Figure 4. How the AWCF Operates

                                          AWCF Activity supplies goods
                                          and services. The provider bills
                                  Bill    the customer and is paid.

        Congress
        approves the
        annual budget for
        the customers
                                                                AWCF Activity:
                                                                • Incurs Costs
                 $                                              • Produces Goods or Services
                                                                • Buys Parts or Services

                                                                                               The revolving fund
        Customer sends funded
        order to AWCF activity.
                                                                                                  concept enables
                                         Project
                                         Order
                                                                                               AWCF managers to
                                                                                                  be flexible when
                                                                                                     acquiring the

The revolving fund concept enables AWCF managers to be flexible when
                                                                                               resources that they
acquiring the resources that they need, but it also gives AWCF customers the                      need, but it also
freedom to evaluate prices and performance when deciding on the level of                              gives AWCF
service that they will acquire. Taken together, these two factors serve as an
incentive to AWCF managers to provide the highest quality services at the
                                                                                                    customers the
lowest possible price.                                                                         freedom to evaluate
                                                                                                       prices and
                                                                                                     performance.

                                                                                                                        45
                                                                                               The Activity Groups
                                                                                               Supply Management, Army
                                                                                               The Supply Management, Army (SMA) activity group buys and maintains
                                                                                               assigned stocks of materiel for sale to its customers, primarily Army operating
                                                                                               units. The constant availability of this materiel is essential to equipment and
                                                                                               operational readiness and to the warfighting readiness and abilities of Army
                                                                                               units. In FY 2001, SMA underwent a major change with the implementation
                                                                                               of the Single Stock Fund (SSF) initiative, which integrated the wholesale and
                                                                                               command retail divisions. Under SSF the wholesale division remains
                                                                                               subdivided by commodity, and is managed by major subordinate commands
                                                                                               under AMC. The command retail divisions no longer exist. Table 16 provides
                                                                                               the breakdown of the wholesale subdivisions.

                                                                                               Table 16. Supply Management, Army Activities
                                                                                                  Major Subordinate
                                                                                                  Command              Wholesale Subdivisions           Materiel Managed

                                                                                                  AMCOM                U.S. Army Aviation and Missile   Aircraft and aviation
                                                                                                                       Command, Huntsville, AL          ground support items;
                                                                                                                                                        missile system items

                                                                                                  CECOM                U.S. Army Communications-        Communication and
                                                                                                                       Electronics Command, Fort        electronics items
                                                                                                                       Monmouth, NJ

                                                                                                  TACOM-W              U.S. Army Tank-automotive and    Combat, automotive, and
                                                                                                                       Armaments Command, Warren,       construction items
                                                                                                                       MI

                                                                                                  TACOM-RI             U.S. Army Tank-automotive and    Weapons, special
                                                     “Imagination • Innovation • Initiative”




                                                                                                                       Armaments Command                weapons, and fire control
                                                                                                                       Acquisition and Logistics        systems
                                                                                                                       Activity, Rock Island, IL

                                                                                                  SBCCOM               U.S. Army Soldier and Biological Ground support items and
                                                                                                                       Chemical Command, Natick, MA chemical weapons
FY02 United States Army Annual Financial Statement




                                                                                               SMA recoups all costs related to the supply of goods and services through a
                                                                                               stabilized price system within which the price includes a surcharge to cover
                                                                                               such costs as inventory loss, transportation, obsolescence, and the cost of
                                                                                               inventory management supply operations. The latter includes the cost of
                                                                                               civilian labor and military personnel at supply activities, a portion of
                                                                                               headquarters costs related to inventory management, costs incurred through
                                                                                               the receipt and issue of Army-managed material at distribution points, and the
                                                                                               depreciation of capital assets.

                                  46
Depot Maintenance
                                                                                        fy
                                                                                           02
                                                                                        Working Capital Fund




The Depot Maintenance activity group provides the Army with an organic
industrial capability to repair, overhaul, and upgrade weapons systems end
items and depot-level reparables. It also provides tenant support to Army and
other DoD activities. Depot maintenance activities both compete and partner
with private industry as the AWCF seeks to deliver goods and services as
efficiently and effectively as possible. There are five major depots in this
activity group: Anniston, Corpus Christi, Letterkenny, Red River, and
Tobyhanna. The depots are managed by major subordinate commands under
AMC (see Table 17).

Table 17. Army Depots
   Major Subordinate
   Command              Location                    Activity Performed

   TACOM                Anniston Army Depot,        Maintenance, overhaul, and
                        Anniston, AL                repair of heavy tracked combat
                                                    vehicles and artillery; provision
                                                    of base support to tenants

   AMCOM                Corpus Christi Army Depot, Maintenance, repair, overhaul,
                        Corpus Christi, TX         and upgrade of rotary wing
                                                   aircraft, engines, and
                                                   components

   AMCOM                Letterkenny Army Depot,     Maintenance, repair, and
                        Chambersburg, PA            overhaul of tactical missile
                                                    systems; provision of base
                                                    support to tenants

   TACOM                Red River Army Depot,       Maintenance and repair of light
                        Texarkana, TX               armored vehicles and select
                                                    missile systems; provision of
                                                    base support to tenants

   CECOM                Tobyhanna Army Depot,       Manufacture, maintenance,
                        Tobyhanna, PA               testing, and fielding of
                                                    communications-electronics
                                                    systems and equipment and
                                                    missile guidance and control
                                                    systems and equipment;
                                                    provision of base support to
                                                    tenants



Ordnance
The Ordnance activity group provides the Army with an organic industrial
capability to produce high-quality munitions and large-caliber weapons. It also
provides the full range of ammunition maintenance for all services within the
DoD and for foreign military customers. It manufactures, renovates, stores,
and demilitarizes ordnance materiel and manufactures 155-millimeter
howitzers, 120-millimeter gun tubes, 120-millimeter mortars, gun mounts for
the M1A1 Abrams tank, grenades and smoke rounds, rebuilt protective masks,                             47
and tool sets and kits.
                                                                                               Ordnance activities provide logistics support including management, follow-
                                                                                               on procurement, production, maintenance, and engineering. They also provide
                                                                                               storage, maintenance, and demilitarization of conventional ammunition.

                                                                                               The activity group consists of three arsenals, two ammunition plants, three
                                                                                               ammunition storage depots, and three munitions centers. The Soldier
                                                                                               Biological and Chemical Command, located at Aberdeen Proving Ground,
                                                                                               MD, manages Pine Bluff Arsenal. The Operations Support Command (OSC)
                                                                                               located at Rock Island, IL, manages the remaining arsenals, ammunition
                                                                                               plants, and ammunition logistics activities. The arsenals and plants provide
                                                                                               depot operations, set assembly, tenant support and national procurement
                                                                                               services for thin- and thick-walled cannon. They additionally are responsible
                                                                                               for ammunition logistics management including follow-on procurement,
                                                                                               production, maintenance, engineering, and integrated logistics support
                                                                                               management.

                                                                                               Table 18. Army Ordnance Activities

                                                                                                  Activity        Location          Mission

                                                                                                  Pine Bluff      Pine Bluff, AR    – Primary manufacturing capabilities include the
                                                                                                  Arsenal                             production of conventional ammunition and
                                                                                                                                      chemical and biological defense items including
                                                                                                                                      white phosphorous and red phosphorous
                                                                                                                                      munitions, signaling and obscuring smokes,
                                                                                                                                      incendiaries, irritants, and the production and
                                                                                                                                      rebuild of decontaminating kits, large filters, masks
                                                                                                                                      and defensive chemical test equipment

                                                                                                                                    – Provides base support to tenants
                                                     “Imagination • Innovation • Initiative”




                                                                                                  Rock Island     Rock Island, IL   – Primary materiel and industrial capabilities include
                                                                                                  Arsenal                             the production of aircraft weapons, infantry
                                                                                                                                      weapons, air defense weapons and artillery;
                                                                                                                                      armament for tanks, artillery, personnel and cargo-
                                                                                                                                      carriers; and special tools and tool sets
FY02 United States Army Annual Financial Statement




                                                                                                                                    – Major in-house programs include: maintenance
                                                                                                                                      truck, heavy; spare parts for M119 and M198
                                                                                                                                      towed howitzers; explosive ordnance disposal
                                                                                                                                      vehicles; and 120mm gun mount for Abrams main
                                                                                                                                      battle tank

                                                                                                                                    – Provides base support to approximately 40 tenants

                                                                                                  Watervliet      Watervliet, NY    – Primary materiel and industrial responsibilities
                                                                                                  Arsenal                             include production of mortars, recoilless rifles,
                                                                                                                                      cannon for tanks and towed and self-propelled
                                                                                                                                      artillery, special tool sets, and training devices and
                                                                                                                                      simulators

                                                                                                                                    – Major in-house programs include: the M256 gun
                                                                                                                                      tube, M284/M109A6 howitzer, and XM297
                                                                                                                                      howitzer
                                  48
                                                                                                                                    – Provides base support to tenants
  Activity          Location            Mission
                                                                                              fy
                                                                                                 02
                                                                                              Working Capital Fund




  Crane Army        Crane, IN           – Primary materiel and industrial responsibilities
  Ammunition                              include manufacturing, load and assembly, supply
  Activity                                depot operations, and renovation, maintenance,
                                          and demilitarization of conventional ammunition
                                          and ammunition-related components

  McAlester Army    McAlester, OK       – Primary materiel and industrial responsibilities
  Ammunition                              include ammunition manufacturing and the rapid
  Activity                                outload, maintenance, and demilitarization of
                                          conventional ammunition and missiles. The
                                          premier bomb loading facility for DoD

                                        – Provides base support to tenants

  Sierra Army       Herlong, CA         – Primary materiel and industrial responsibilities
  Depot                                   include the receipt, storage, care of supplies in
                                          storage (COSIS), repair, assembly, disassembly,
                                          and shipment of major and secondary items for
                                          operational project stocks

                                        – Provides base support to tenants

  Tooele Army       Tooele, UT          – Responsible for design and development of
  Depot                                   ammunition peculiar equipment; stores, maintains,
                                          distributes, and demilitarizes conventional
                                          ammunition

                                        – Provides base support to tenants

  Blue Grass Army Richmond, KY          – Primary materiel and industrial responsibilities
  Depot                                   include the receipt, issue, storage, testing, and
                                          minor repair of chemical defense equipment.
                                          Stores, maintains, distributes, and demilitarizes
                                          conventional ammunition

                                        – Provides base support to tenants

  Red River        Texarkana, TX        – Stores, maintains, distributes, and demilitarizes
  Munitions Center                        conventional ammunition

  Letterkenny      Chambersburg, PA – Stores, maintains, distributes, and demilitarizes
  Munitions Center                    conventional ammunition

  Anniston         Anniston, AL         – Stores, maintains, distributes, and demilitarizes
  Munitions Center                        conventional ammunition




Information Services
The Information Services activity group is responsible for the development and
sustainment of automated information and communications systems. It
provides a multitude of services in support of the Department of Defense and
foreign military sales customers including requirements analysis and definition,
system design, development testing, integration, implementation support, and
documentation of services. The group, which comprises two Central Design
Activities (CDAs), the Integrated Logistics Systems Office, and the Army
Small Computer Program is managed by the U.S. Army Communications and
Electronics Command (CECOM) at Fort Monmouth, NJ.                                                            49
                                                                                               The two CDAs, Software Development Centers (SDCs) Lee and Washington,
                                                                                               provide support for eight personnel and retail logistics systems. Significant
                                                                                               among these are the Inspector General Network, the Housing Operations
                                                                                               Management System, and the Financial Management Information System.


                                                                                               The Integrated Logistics Systems Offices (ILSO), located in Chambersburg,
                                                                                               PA, and St. Louis, MO, provide subject matter expertise and government
                                                                                               oversight of the Logistics Modernization Program (LMP). Implementation of
                                                                                               the LMP has seen the outsourcing of the activity group's software maintenance
                                                                                               and sustainment mission to the Computer Science Corporation, which now
                                                                                               performs all the mission-related work of ILSO.


                                                                                               The Army Small Computer Program (ASCP) provides customers with fully
                                                                                               competed commercial sources of small and medium-sized computers,
                                                                                               software, networking infrastructure, and support services.


                                                                                               Effective FY 2002 the Information Services activity group eliminated the use
                                                                                               of stabilized rates. All customers now pay for services on a reimbursable basis
                                                                                               as the Army prepares to decapitalize this activity group at the end of FY 2003.
                                                                                               Charging its customers at the actual costs for FY 2002 and 2003 will ensure
                                                                                               that it will not incur losses before it is decapitalized.
                                                     “Imagination • Innovation • Initiative”
FY02 United States Army Annual Financial Statement




                                  50
Working Capital Fund — Performance
                                                                                             fy
                                                                                                  02
                                                                                               Working Capital Fund




Measures

Corporate Performance
The mission of the AWCF is to provide support services to the operating              The mission of the
forces in the most efficient and cost-effective manner possible. Assessing the
                                                                                    AWCF is to provide
performance of the AWCF through the use of financial and program
performance measures indicates how well the AWCF is accomplishing its                support services to
mission.                                                                            the operating forces
                                                                                    in the most efficient
Performance Measures
Cash Management
                                                                                      and cost-effective
The ability to generate cash is dependent on setting rates to recover full costs,     manner possible.
including any prior year losses; on accurately projecting workload; and on
meeting established operational goals. The Army must maintain sufficient cash
on hand in the AWCF account at the U.S. Treasury to pay liabilities when due.
Unlike the private sector, the Army does not have the ability to take advantage
of lines of credit. To minimize the cash balance required for operating and
capital disbursements, the Army manages cash at the corporate level. Rather
than having to maintain a positive cash balance, the AWCF activity groups
and installations project collections and disbursements on a monthly basis,
working within a 10 percent margin of error.

Projecting cash flows has proven challenging in prior years. While the Army
has the capability to estimate collections and disbursements, current revenue
recognition and expensing policies sometimes prevent us from establishing a
direct correlation between monthly revenue and collections or between
monthly expenses and disbursements, making the development of forecasting
models difficult.

The Army's ability to predict the effects of transactions made by others on the
cash balance also has been difficult, with undistributed collections and
disbursements fluctuating dramatically throughout the year. The Defense
Finance and Accounting Service (DFAS), the Army's accounting services
provider, currently is implementing systems improvements that we expect will
enable the Army to make more accurate projections in the future.

To ensure solvency during periods of diminished cash flow, the Army can
exercise the options of conducting advance billing, curtailing new obligations,                               51
imposing cash surcharges on new orders, or increasing its collection efforts for
                                                                                               Figure 5. Cash Management ($ millions)                                     prior-year accounts receivable. In FY 2002, to remain solvent,
                                                                                                                     Collections ($ millions)                             the Army was required to advance bill $200 million in the
                                                                                                                                                          Plan            Depot Maintenance and Ordnance activity groups. At the end
                                                                                                10000                                                    Actual
                                                                                                         $8,719.3    8,627.0
                                                                                                                                                                          of the year it still had $200 million in advanced billings. It also
                                                                                                                               $6,680.8                         6,274.5
                                                                                                                                          5,950.7   $6,212.4
                                                                                                                                                                          increased the collection of valid prior-year bills.
                                                                                                 5000

                                                                                                                                                                          In the last two years the Army has struggled to maintain the
                                                                                                    0
                                                                                                              FY 2000           FY 2001               FY 2002             minimum cash balance required to meet operational
                                                                                                   Variance ($92.30)              ($730.1)               $62.1            requirements. At the end of FY 2002, the Army had a $30
                                                                                               Variance (%)    (1.6)                (10.9)                1.0
                                                                                                                                                                          million shortfall in its cash corpus, due in part to the reduced
                                                                                                                Disbursements ($ millions)                                rates set by the Supply Management, Army activity in order to
                                                                                                10000
                                                                                                                                                          Plan
                                                                                                                                                         Actual
                                                                                                                                                                          return excess cash held in the AWCF at the end of FY 2000. A
                                                                                                                                                                          $92 million settlement for Asbestos Environment Differential
                                                                                                         $8,503.0    8,511.5

                                                                                                                               $6,748.5                         6,516.5
                                                                                                                                          6,370.6   $6,203.5

                                                                                                 5000
                                                                                                                                                                          Pay at Corpus Christi Army Depot also contributed to the cash
                                                                                                                                                                          shortfall.
                                                                                                    0
                                                                                                              FY 2000           FY 2001               FY 2002             Figure 5 shows the planned and actual collections,
                                                                                                   Variance $8.50                 ($377.9)              $313.0            disbursements, and outlays at Army corporate level for the last
                                                                                               Variance (%)    0.10                  (5.6)                5.0
                                                                                                                                                                          three fiscal years, and the consequent cash balance. The AWCF
                                                                                                                        Outlays ($ millions)                              ended FY 2002 with a cash balance of $251 million, $83.5
                                                                                                                                                          Plan
                                                                                                  350                                      346.6
                                                                                                                                                         Actual           million below plan, but within a 25 percent variance of
                                                                                                                                                                          projected balance. This represents a substantive improvement
                                                                                                  150
                                                                                                          ($216.3)   (200.0)
                                                                                                                                $67.7
                                                                                                                                                     ($8.8)
                                                                                                                                                                74.6
                                                                                                                                                                          over the previous year, in which the Army missed year-end
                                                                                                  -50                                                                     projections by more than $339 million.
                                                                                                 -250
                                                                                                                                                                          Total Revenue
                                                     “Imagination • Innovation • Initiative”




                                                                                                              FY 2000           FY 2001               FY 2002
                                                                                                   Variance $16.30                 $278.9                $83.4            Total Revenue is an indicator of the volume of work completed
                                                                                               Variance (%)    7.54                 411.9                947.7
                                                                                                                                                                          by the AWCF activity groups. The total projected revenue for
                                                                                                                                                                          FY 2002 was $7.6 billion. Actual revenue was $8.3 billion, 9.5
                                                                                                                    Cash Balance ($ millions)
                                                                                                                                                                          percent greater than projected. This was due primarily to
FY02 United States Army Annual Financial Statement




                                                                                                                                                          Plan
                                                                                                  800     $749.1                                         Actual
                                                                                                                       732.9
                                                                                                                               $665.1                                     operations in support of the war on terrorism.

                                                                                                  400                                     325.7      $334.5
                                                                                                                                                                251.0     Table 19 displays total revenue by customer. The largest
                                                                                                                                                                          customer for the AWCF is Operations and Maintenance, Army
                                                                                                    0
                                                                                                              FY 2000           FY 2001               FY 2002
                                                                                                                                                                          (OMA), which accounted for revenues of $5.4 billion.
                                                                                                   Variance ($16.20)              ($339.4)              ($83.5)
                                                                                               Variance (%) (2.16)                  (51.0)               (24.9)     Table 20 displays total revenue by activity group. Supply
                                                                                                                                                                    Management, Army (SMA) is the largest, accounting for more
                                                                                                                                                    than $5.8 billion in revenue, or 70 percent of all AWCF revenue. In addition to
                                                                                                                                                    the revenue shown in Table 19 and Table 20, the AWCF received $18.1
                                                                                                                                                    million in FY 2001 and $167.4 million in FY 2002 in direct appropriations.
                                  52
Table 19. Total Revenues by Customer ($ millions)
                                                                                                                                fy
                                                                                                                                         02
                                                                                                                                Working Capital Fund




   Customer                         FY 2000              FY 2001       FY 2002

   Operations and
   Maintenance, Army                 $5,488.7            $5,384.5      $5,417.4
   Army Procurement                     400.1              469.5          609.3
   AWCF                               3,030.6             1,444.0       1,044.0
   Other Army                          1491.1              117.7          178.7
   Other Services                       398.4              376.9          460.2
   Other DoD                            919.1              150.8          135.7
   Foreign Military Sales               316.5              172.6          201.9
   Non-DoD                               44.1              152.1          233.2
   Total Revenue                   $12,088.6             $8,268.1      $8,280.1


Table 20. Total Revenue by Activity Group ($ millions)

   Appropriation                    FY 2000              FY 2001       FY 2002

   Supply Management,
   Army                             $10,003.8            $6,068.4      $5,837.4
   Depot Maintenance                  1,291.8             1,434.1       1,668.4
   Ordnance                             658.1               667.8         669.8
   Information Services                 134.9                97.8         104.8
   Total Revenue                    $12,088.6            $8,268.1      $8,280.4




Personnel Resources                                                    Figure 6. Personnel Indicators
To achieve maximum efficiency of performance, the AWCF                                  Civilian Full-Time Equivalents
                                                                                                                                       Plan
activity groups need to achieve the optimum configuration of            25000                                                         Actual
                                                                                   20,172
skilled workforce appropriate to the workload. Skill mismatches                                 19,654      19,614     19,111   19,355       19,736



sometimes occur as a result of deviations between planned and           12500
actual workload; they also can be caused by workforce reductions
realized through voluntary separation and hiring freezes. Such               0
                                                                                   FY 2000                  FY 2001              FY 2002
mismatches can lead to unplanned operating losses.                          Variance    (518)                     (503)               381
                                                                        Variance (%)        (2.6)                 (2.6)                2.0

As Figure 6 shows, there was a 0.4 percent increase over the last                                   Military End Strength
three fiscal years in the number of civilian full-time equivalents         100
                                                                                                                                       Plan
                                                                                                                                      Actual
employed by the AWCF activity groups. In FY 2002, the AWCF                             77
                                                                                                    66
                                                                                                             76            74    72           71


did not meet its planned reduction in civilian full-time equivalents        50
by 2.0 percent.
                                                                             0
                                                                                   FY 2000                  FY 2001              FY 2002
                                                                            Variance        (11)                     (2)               (1)
                                                                        Variance (%) (14.3)                       (2.6)               (1.4)
                                                                                                                                                      53
                                                                                                                                                         Supply Management, Army
                                                                                                                                                         Program Scope
                                                                                                                                                         Customer Revenue (Program Size)
                                                                                                                                                         SMA revenue from customer sales in FY 2002 was $5.8 billion. This
                                                                                                                                                         exceeded plan, with the excess revenue a direct result of unforeseen operations
                                                                                                                                                         conducted in support of the war on terrorism. As shown in Table 21, total
                                                                                                                                                         SMA revenues decreased significantly between FY 2000 and FY 2002; this is
                                                                                                                                                         due to elimination of the retail stock fund, a second point of sale. In addition
                                                                                                                                                         to the revenue shown in the table, SMA received $7.8 million in FY 2001 and
                                                                                                                                                         $163.6 million in FY 2002 in direct appropriations.

                                                                                                                                                         Table 21. Total Revenue by Customer ($ millions)

                                                                                                                                                             Appropriation                        FY 2000           FY 2001          FY 2002

                                                                                                                                                             Operations and
                                                                                                                                                             Maintenance, Army                     $4,742.4         $4,513.2         $4,473.6
                                                                                                                                                             Army Procurement                         103.1            170.5             208.4
                                                                                                                                                             AWCF                                   2,468.8            705.5             405.2
                                                                                                                                                             Other Army                             1,422.1             76.9             121.7
                                                                                                                                                             Other Services                           308.5            281.8             366.5
                                                                                                                                                             Other DoD                                667.2             90.1              58.6
                                                                                                                                                             Foreign Military Sales                   271.9            115.8             114.0
                                                                                                                                                             Non-DoD                                   19.8            114.6              89.4
                                                                                                                                                             Total Revenue                       $10,003.8          $6,068.4         $5,837.4

                                                                                               Figure 7. Personnel Indicators                                                  Personnel
                                                     “Imagination • Innovation • Initiative”




                                                                                                              Civilian Full-Time Equivalents                                   A key objective of the SMA activity group is ensuring that the
                                                                                                                                                             Plan              appropriate number of skilled workers are employed in the right
                                                                                                 4000                                                       Actual
                                                                                                          3,082          2,960     2,991         3,015   3,095         2,999
                                                                                                                                                                               places to fulfill the group's workload obligations. Over the last
                                                                                                                                                                               three fiscal years, actual civilian full-time equivalents have
                                                                                                 2000
FY02 United States Army Annual Financial Statement




                                                                                                                                                                               increased by 1 percent.

                                                                                                    0
                                                                                                              FY 2000              FY 2001                FY 2002              The Army achieved reductions in military personnel through a
                                                                                                   Variance    (122)                       24                  (96)            combination of Voluntary Separation Incentive Programs and
                                                                                               Variance (%)        (4.0)                   0.8                 (3.1)           attrition. Over the last three fiscal years personnel levels trended
                                                                                                                           Military End Strength                               downward consistent with the requirements of the Quadrennial
                                                                                                   20
                                                                                                                                                             Plan
                                                                                                                                                            Actual
                                                                                                                                                                               Defense Review. The AMC Integrated Materiel Management
                                                                                                              14           14       14            14
                                                                                                                                                                               Centers continue to develop more efficient and more effective
                                                                                                                                                          13            13
                                                                                                                                                                               ways of doing business.
                                                                                                   10


                                                                                                    0
                                  54                                                                          FY 2000              FY 2001                FY 2002
                                                                                                   Variance         0                      0                     0
                                                                                               Variance (%)        0.0                     0.0                   0.0
Performance Measures
                                                                                  fy
                                                                                     02
                                                                                  Working Capital Fund




Financial Performance
The financial performance of the SMA activity group is evaluated on a variety
of fiscal measures. The primary measure, unit cost, is defined as cost per
dollar of sales. Other measures include total gross sales; revenue; cost; net
operating results; capital investment; cash collections, disbursements, and
outlays; stock availability and stock turn.


Wholesale Unit Costs. The wholesale division sells principally to federal
government customers and, through the Foreign Military Sales Program, to
foreign governments. Wholesale costs include the costs of logistics operations
and of materiel obligations for repair or procurement, and credit issued to
customers for materiel returns. Unit cost is measured by dividing these costs
by gross wholesale sales.


In FY 2002, the wholesale division achieved a unit cost of $1.07. The unit cost
goal (UCG) was $1.076. The division's under-execution in pursuit of the UCG
was due to the unpredictability of credit, which offsets available obligation
authority.

Table 22. Actual Cost per Dollar of Sales

                                    FY 2000           FY 2001          FY 2002

   Wholesale ($)                      $1.020           $1.195             $1.07
   NAMI/Retail ($)                    $0.982           $0.496            $0.699



NAMI/Retail Unit Costs. Implementation of the Single Stock Fund (SSF)
has altered the mission of the retail division. Prior to the SSF, the retail
divisions sold to authorized customers within their local geographical area.
The retail divisions bought and sold both Army managed items (AMI) and
non-Army managed items (NAMI) at the catalog price of the source of supply.
Under the SSF, the retail division consists only of NAMI.


In FY 2002, gross materiel costs were lower than planned, producing a unit
cost of $0.699 that was below the UCG of $0.847. Gross materiel costs were
lower than planned due to a five-month delay in implementation of SSF
Milestone 3 (MS3).
                                                                                                 55
                                                                                                                                                Gross Sales. Attaining projected sales levels is key to achieving goals in
                                                                                                                                                inventory management and operations management, as well as to recouping
                                                                                                                                                operations costs.


                                                                                               Figure 8. Gross Sales                                                  Sales for the wholesale division were below plan for FY 2001
                                                                                                               Wholesale Sales ($ millions)                           and above plan for FY 2002.
                                                                                                                                                     Plan
                                                                                                                                                    Actual
                                                                                                 6000
                                                                                                                                                $5,105        5,113
                                                                                                          $4,142       4,194
                                                                                                                               $4,607   4,532
                                                                                                                                                                      NAMI/Retail sales were lower than expected in FY 2001 as a
                                                                                                 3000                                                                 result of the uncertainty related to transition to the SSF. NAMI
                                                                                                                                                                      sales in FY 2002 were above plan because of sales associated
                                                                                                    0                                                                 with operations in Afghanistan and the war on terrorism.
                                                                                                              FY 2000          FY 2001          FY 2002
                                                                                                   Variance     $52                ($75)                 $8
                                                                                               Variance (%)     1.2                 (1.6)               0.1           Financial Operating Measures. Budgetary guidelines require
                                                                                                               NAMI/Retail Sales ($ millions)                         the activity group to recover its operating costs and fees while
                                                                                                                                                     Plan
                                                                                                 6000     $5,868      5,810                         Actual
                                                                                                                                                                      achieving zero accumulated operating results at the end of the
                                                                                                                                                                      budget period. To achieve this goal, AWCF activities set
                                                                                                 3000                                                                 stabilized rates eight or more months prior to the beginning of
                                                                                                                               $1,848   1,534
                                                                                                                                                                      each fiscal year. These rates use forecasting methods to
                                                                                                                                                 $134         124
                                                                                                    0                                                                 determine the potential workload and the cost of meeting
                                                                                                              FY 2000          FY 2001          FY 2002
                                                                                                                                                                      workload requirements. This projection then is used to set a
                                                                                                   Variance    ($58)              ($314)            ($10)
                                                                                               Variance (%)    (1.0)               (17.0)             (7.5)           standard price for AWCF goods and services. Since revenue is
                                                                                                                                                                      defined as gross sales at standard price, revenue, cost, and net
                                                                                                                                                operating results are the logical financial measures of AWCF operations. In
                                                     “Imagination • Innovation • Initiative”




                                                                                                                                                FY 2002, the rates were set to achieve a net operating result (NOR) of
                                                                                                                                                ($242.4) million. The actual NOR was a loss of $354.6 million. Results of
                                                                                                                                                operations, computed according to budget guidance, are presented in the Table
                                                                                                                                                23.
FY02 United States Army Annual Financial Statement




                                                                                                                                                Results of operations, when computed according to financial accounting
                                                                                                                                                standards, can vary with inventory valuations, the timing of cost recognition,
                                                                                                                                                transfer fees, and the inclusion of non-recoverables such as planned inventory
                                                                                                                                                reductions.




                                  56
Table 23. Results of Operations ($ millions)
                                                                                   fy
                                                                                      02
                                                                                   Working Capital Fund




    FY 2000                            Plan          Actual        Variance (%)

   Revenue                            $9,595.4      $10,003.8               4.3
   Cost of Goods Sold                  9,598.7       10,005.2               4.2
   Net Operating Results                  (3.3)          (1.4)             57.6
   Accumulated Operating
   Results                                 27.7          (0.9)          (103.2)

    FY 2001                            Plan          Actual        Variance (%)

   Revenue                            $7,173.2       $6,068.4            (15.4)
   Cost of Goods Sold                  7,252.1        6,188.2            (14.6)
   Net Operating Results                 (78.9)       (119.8)            (55.1)
   Accumulated Operating
   Results                              $131.9          $90.1            (31.6)

    FY 2002                            Plan          Actual        Variance (%)

   Revenue                            $5,239.2       $5,837.4             (9.0)
   Cost of Goods Sold                  5,645.2        6,192.0             (9.7)
   Net Operating Results                (242.4)       (354.6)              73.6
   Accumulated Operating
   Results                              ($38.3)        $197.8            616.4




Capital Investment. The SMA activity group's capital investment program is
focused primarily on the development of computer software to assist
managerial decision-making, to enable the sharing of databases, and to support
the development of more efficient business practices.

Table 24. Capital Budget Obligations ($ millions)
   Category                         FY 2000          FY 2001           FY 2002

   Equipment                             $0.0             $0.0             $0.0
   ADPE and Telecom                        0.0             0.0               0.0
   Software                              65.7             62.3             61.2
   Total                                $65.7           $62.3             $61.2



FY 2002 Capital Investment Program (CIP) projects include the purchase of
the following:


Logistics Modernization Program (LMP) ($21.7 million). The goal of LMP
is to reengineer current wholesale logistics business processes to provide
integrated, seamless, real-time asset visibility of the entire logistics supply
chain. The service being contracted will employ Enterprise Resource
                                                                                                  57
Planning (ERP) to integrate business processes across the supply chain, and
                                                                                               Figure 9. Cash Management                                                  modernize the Army’s wholesale logistics processes through the
                                                                                                                              Cash Collections                            adoption of best commercial practices. This effort supports the
                                                                                                                                                            Plan
                                                                                                 7000      $6,570          6,454                           Actual         ongoing revolution in military logistics.
                                                                                                                                      $4,704
                                                                                                                                               3,611   $3,910
                                                                                                 3500
                                                                                                                                                                  3,465
                                                                                                                                                                          Commercial Asset Visibility II (CAV II) ($1.9 million). CAV
                                                                                                                                                                          II improves asset visibility at contractor maintenance sites and
                                                                                                      0                                                                   improves shipping procedures, measures repair turnaround
                                                                                                               FY 2000                 FY 2001          FY 2002
                                                                                                    Variance ($116)                     ($1,093)          ($445)
                                                                                                                                                                          time, and monitors contractor performance. It also corrects
                                                                                               Variance (%)      (1.8)                    (23.2)          (11.3)          financial and inventory imbalances. CAV II will interface with
                                                                                                                           Cash Disbursements                             the LMP.
                                                                                                                                                            Plan
                                                                                                 7000      $6,593          6,506                           Actual

                                                                                                                                      $4,832                              Common Operating Environment (COE) ($4.9 million). The
                                                                                                                                               4,178              3,954
                                                                                                                                                       $3,730
                                                                                                 3500                                                                     COE provides a Windows-based common technology
                                                                                                                                                                          architecture for the various wholesale logistics processes,
                                                                                                      0                                                                   enabling users of logistics systems to perform all business
                                                                                                               FY 2000                 FY 2001          FY 2002
                                                                                                                                                                          functions from a single workstation. It will also interface with
                                                                                                    Variance     ($87)                   ($654)            $224
                                                                                               Variance (%)      (1.4)                    (13.5)            6.0           the LMP.
                                                                                                                                   Cash Outlays
                                                                                                                                                 493
                                                                                                                                                            Plan          Single Stock Fund (SSF) ($32.6 million). The SSF concept
                                                                                                   500                                                     Actual

                                                                                                                                                                  326
                                                                                                                                                                          integrates retail and wholesale inventory, management, and
                                                                                                   250                                                                    financial accounting functions to deliver business process
                                                                                                                                       $128
                                                                                                                                                                          improvements and improve the efficiency of inventory
                                                                                                                            52
                                                                                                               $23
                                                                                                      0
                                                                                                                                                       ($180)
                                                                                                                                                                          management. This vertical stock fund for Army-managed items
                                                     “Imagination • Innovation • Initiative”




                                                                                                                                                                          furthermore will eliminate one point of sale, thus ending
                                                                                                               FY 2000                 FY 2001          FY 2002           duplication in logistical and financial processing and providing
                                                                                                    Variance         $29                  $365             $506
                                                                                                                                                                          greater visibility of assets.
                                                                                               Variance (%) 126.1                         285.3            281.1
FY02 United States Army Annual Financial Statement




                                                                                               Note: Positive outlays drain cash
                                                                                                                                                                          Cash Management
                                                                                                                                                       The Army manages AWCF cash at the corporate level. The performance of
                                                                                                                                                       individual activity groups is measured against planned collections,
                                                                                                                                                       disbursements, and outlays rather than against independent cash balances.


                                                                                                                                                       FY 2002 collections were below plan and disbursements were above plan. The
                                                                                                                                                       SMA activity group collected $445 million less and disbursed $224 million
                                                                                                                                                       more than planned. Collections were under plan because sales were
                                                                                                                                                       overestimated by $300 million. Cash outlays exceeded plan by $506 million.

                                  58
Program Performance
                                                                                 fy
                                                                                    02
                                                                                 Working Capital Fund




The SMA activity group measures program performance using stock
availability.


Stock Availability (Fill Rate). Stock availability measures the percentage of
SMA requisitions for stocked items completely filled within Uniform Materiel
Movement and Issue Priority System (UMMIPS) timeframes. DoD and the
Army have set a target of 85 percent stock availability. Increased demands and
understated procurement lead times in FY 2000 contributed to a decrease in
stock availability that SMA has been working to correct. A Spares Parts
Shortage Integrated Process Team has been established to conduct a thorough
analysis of the health of the Army Materiel Command's spare parts program,
to identify deficiencies within the requirements determination and execution
process, and to recommend corrective measures. The SMA met or exceeded
its stock availability goal for each quarter during FY 2002.

Table 25. Stock Availability (percentage)

                    1st Quarter     2nd Quarter    3rd Quarter   4th Quarter

   FY 2000              84.4                82.9      83.2          83.9
   FY 2001              83.0                85.9      87.1          86.5
   FY 2002              85.0                86.3      87.0          86.0




                                                                                                59
                                                                                                                                                         Depot Maintenance
                                                                                                                                                         Program Scope
                                                                                                                                                         Customer Revenue (Program Size)
                                                                                                                                                         Customer requirements govern the size and type of the Depot Maintenance
                                                                                                                                                         workload. The revenue from customer sales in FY 2002 was $1.7 billion.
                                                                                                                                                         Table 26 displays customer revenue for the past three fiscal years.

                                                                                                                                                         Table 26. Total Revenue by Customer ($ millions)

                                                                                                                                                               Appropriation                      FY 2000           FY 2001          FY 2002

                                                                                                                                                               Operations and
                                                                                                                                                               Maintenance, Army                    $427.5           $538.2           $627.0
                                                                                                                                                               Army Procurement                       115.5            145.6            253.3
                                                                                                                                                               AWCF                                   447.2            618.1            506.9
                                                                                                                                                               Other Army                              37.1             11.0             30.1
                                                                                                                                                               Other Services                          65.1             63.1             79.6
                                                                                                                                                               Other DoD                              163.0             10.3              7.2
                                                                                                                                                               Foreign Military Sales                  27.7             41.6             67.0
                                                                                                                                                               Non-DoD                                  8.7              6.2            113.0
                                                                                                                                                               Total Revenue                       $1,291.8        $1,434.1          $1,666.1



                                                                                               Figure 10. Personnel Indicators                                                 Total revenue increased by $232.0 million, or 13.9 percent,
                                                                                                               Civilian Full-Time Equivalents                                  between FY 2001 and FY 2002. This was despite a rate
                                                                                                                                                             Plan
                                                                                                                                                            Actual             increase of only 7.4 percent. In addition to the revenue shown
                                                                                                12000                              10,450                10,413
                                                                                                                                                                      10,887
                                                                                                          10,267                                10,215
                                                                                                                         10,070
                                                                                                                                                                               in Table 26, Depot Maintenance received $6.2 million in FY
                                                     “Imagination • Innovation • Initiative”




                                                                                                 6000
                                                                                                                                                                               2001 and $2.3 million in FY 2002 in direct appropriations.


                                                                                                    0                                                                          Personnel
FY02 United States Army Annual Financial Statement




                                                                                                              FY 2000               FY 2001               FY 2002
                                                                                                                                                                               A key objective of the Army is to have the correct number of
                                                                                                   Variance    (197)                      (235)                474
                                                                                               Variance (%)        (1.9)                  (2.2)                4.5
                                                                                                                                                                               appropriately skilled people in the right places to meet the
                                                                                                                                                                               demands of the workload.
                                                                                                                           Military End Strength
                                                                                                                                                             Plan
                                                                                                   50                                                       Actual
                                                                                                                                                                               Following several years of decline, workload increased in FY
                                                                                                                                                          32           32
                                                                                                                                                                               2002 significantly above planned levels. Depots received
                                                                                                   25         22           23        21           21
                                                                                                                                                                               $183.5 million more in orders than was forecasted; roughly 12
                                                                                                                                                                               percent more work than planned. The depots expanded their
                                                                                                    0
                                                                                                              FY 2000               FY 2001               FY 2002              workforce, employed contract support, and used high levels of
                                                                                                   Variance         1                       0                     0            overtime in an effort to meet the increased customer demand.
                                                                                               Variance (%)        4.5                      0                     0
                                                                                                                                                                               As a consequence, the depots over-executed civilian full-time
                                  60
                                                                                                                                                                               equivalent staffing by 474, or 4.5 percent.
Performance Measures
                                                                                    fy
                                                                                       02
                                                                                    Working Capital Fund




Financial Performance
There are five fiscal performance measures for Depot Maintenance: cost per
direct labor hour, financial operating measures, customer revenue rate, capital
investment, and cash management.


Cost per Direct Labor Hour. The cost per direct labor hour (DLH) is
computed by taking the sum of all labor and non-labor expenses (direct,
indirect, and general and administrative (G&A)), plus the change in work in
process, and dividing that sum by the total number of DLHs worked during the
fiscal year.

Table 27. Cost per Direct Labor Hour
                                   FY 2000           FY 2001         FY 2002
   Category                         Actual            Actual          Actual

   Cost per Direct Labor Hour          $116.64       $135.99          $155.17
   Change from Prior Year (%)             (3.0)         16.6              14.1
   Direct Labor Hours (000s)            10,598        10,277           11,381



Table 28 breaks down DLH costs into their component parts. Direct costs
include civilian labor, materiel, supplies, equipment, and other costs that are
directly related to a funded order (travel, training, and purchased services).
The indirect/G&A elements comprise all costs not directly related to an order
and that are recovered as overhead expenses. These include administrative
personnel costs, base support costs, support personnel costs, and facility repair
and maintenance costs.

Table 28. FY 2000 Costs ($ millions)

   Category                              FY 2000       FY 2001        FY 2002

   Direct Labor                            $296.9       $311.4         $418.4
    Indirect Labor                          233.3         250.8          293.5
    General and Administrative Labor          10.7         20.1           14.5
    Direct Materiel                         382.1         455.2          635.9
    Indirect Materiel                         48.4         52.2           71.3
    Indirect Other                          263.6         304.0          299.8
    Total                                 $1235.0      $1,393.7       $1,733.4
    Direct Labor Hours                     10,598       10,277         11,381
    Cost per Hour ($)                     $116.53      $135.61        $152.29
    Change in Work in Process               ($1.2)        ($3.9)       ($32.7)
    Cost of Goods Sold ($ millions)      $1,236.2      $1,397.6       $1,766.2                     61
    Cost per Hour (unit cost, $)          $116.64      $135.99        $155.17
                                                                                               Financial Operating Measures. Under the full-cost recovery concept,
                                                                                               stabilized rates are set such that they should cover all costs and produce a zero
                                                                                               accumulated operating result (AOR) at the end of the budget year. During
                                                                                               execution, the activity group may experience either a positive or negative net
                                                                                               operating result (NOR). The gain or loss shown in the NOR is added to the
                                                                                               AOR from prior years. Stabilized rates are included in the President's Budget,
                                                                                               published approximately eight months in advance of the year of execution.
                                                                                               The rates are stabilized so that customers' programs will not be affected during
                                                                                               execution, even though the actual costs of the AWCF activity may be higher
                                                                                               or lower than planned.


                                                                                               Deviations from the plan impact the activity group to the extent that an
                                                                                               unplanned gain or loss must be included in the following year's rates to bring
                                                                                               the AOR to zero. Any change in rates may in turn result in an increase or
                                                                                               decrease in the customer's buying power.


                                                                                               Table 29 shows the operating measures for the past three fiscal years. FY 2002
                                                                                               revenue and costs were both above plan. Acceptable deviation from the plan is
                                                                                               plus or minus 10 percent. FY 2002 expenses, NOR, and AOR were adversely
                                                                                               affected by the asbestos settlement at Corpus Christi Army Depot. This
                                                                                               resulted in an unplanned/unbudgeted expense of $92.3 million (comprising a
                                                                                               $90.7 million award to employees and $1.6 million processing costs).
                                                                                               Independent of this action, the Depot Maintenance Activity performed better
                                                     “Imagination • Innovation • Initiative”




                                                                                               than planned.
FY02 United States Army Annual Financial Statement




                                  62
Table 29. Results of Operations ($ millions)
                                                                                         fy
                                                                                            02
                                                                                         Working Capital Fund




                                             FY 2000                   FY 2001
                                      Plan        Actual            Plan     Actual

   Revenue                         $1,216.3      $1,291.8     $1,389.3     $1,434.1
   Cost of Goods Sold                1,190.5      1,236.2      1,357.9      1,390.1
   Operating Results                    25.8           55.6         31.4         44.0
     (less Capital Surcharge)           52.5           45.4         15.7         12.5
     (less Extraordinary Items)          0.0            0.0          0.0          0.0
   Net Operating Results              (26.7)           10.2         15.7         31.5
   Beginning AOR                    85.1               26.7         55.2         55.2
     (less Prior-Year Adjustment) (58.4)               18.4          0.1         (3.5)
   Beginning AOR Adjusted               26.7           45.1         55.3         51.7
   AOR (NOR plus Adjusted AOR)          $0.0          $55.2     $71.0         $83.2

                                                          FY 2002
                                               Plan                     Actual

   Revenue                                       $1,580.0                  $1,668.4
   Cost of Goods Sold                             1,599.0                   1,766.2
   Operating Results                               (19.0)                    (97.8)
     (less Capital Surcharge)                         0.2                       0.6
     (less Extraordinary Items)                       0.0                       0.0
   Net Operating Results                           (19.2)                    (98.4)
   Beginning AOR                                       64.6                    83.2
     (less Prior-Year Adjustment)                         0                  (23.8)
   Beginning AOR Adjusted                              64.6                      59.4
   AOR (NOR plus Adjusted AOR)                        $45.4                 ($39.0)



Customer Revenue Rate. In Depot Maintenance, customer revenue rates are
set per direct labor hour. These rates are stabilized so that the customer's
buying power is protected in the year of execution. Table 30 shows the
stabilized revenue rates per DLH.

Table 30. Stabilized Rates

   Direct Labor Rate                FY 2000              FY 2001           FY 2002

   Customer Revenue Rate ($)         $111.87             $119.81           $124.57
   Customer Rate Change (%)                5.9                7.1                 4.0



The FY 2002 rate of $124.57 per DLH cash was 4 percent higher than that of
FY 2001.


Capital Investment. The Depot Maintenance activity group seeks to maintain
and develop its capabilities through the acquisition of new equipment and the
execution of minor construction projects. The capital budget provides for                               63
equipment acquisitions to replace obsolete and unserviceable equipment, to
                                                                                               eliminate environmental hazards, and to decrease costs through improvements
                                                                                               in productivity. Table 31 represents the obligation authority of the capital
                                                                                               budget.

                                                                                               Table 31. Capital Budget ($ millions)
                                                                                                  Category                          FY 2000              FY 2001     FY 2002

                                                                                                  Equipment                                    $4.4         $3.6          $7.1
                                                                                                  Minor Construction                               1.9       1.9              1.1
                                                                                                  ADPE and Telecom                                 0.8       0.0              0.0
                                                                                                  Software                                     10.2         13.8          16.7
                                                                                                  Total                                      $17.3         $19.3         $24.9

                                                                                               Note: ADPE is automated data processing equipment



                                                                                               FY 2002 Capital Investment Program (CIP) projects include the purchase of
                                                                                               the following:


                                                                                               Various Capital Equipment - Replacement (>$500K) ($2.4 million). This
                                                                                               program seeks to replace depot equipment items costing more than $500
                                                                                               thousand that have outlived their useful lives, become uneconomical to repair
                                                                                               or become unsafe to operate.


                                                                                               Various Capital Equipment - Productivity (>$500K) ($0.6 million). This
                                                                                               program seeks to modernize equipment costing more than $500 thousand to
                                                                                               improve depot productivity and efficiency and reduce operating costs.
                                                     “Imagination • Innovation • Initiative”




                                                                                               Electron Beam Welder ($0.9 million). The electron beam welder is used to
                                                                                               reclaim critical parts for the Advanced Gas Turbine 1500 Engine that supports
                                                                                               the M1 Tank Family of Vehicles.
FY02 United States Army Annual Financial Statement




                                                                                               Engine Test Cell Capacity Upgrade ($3.1 million). Enables one of the CH47
                                                                                               engine test cells to test any engine or engine component configuration. The
                                                                                               test cell upgrade enables fast data sampling, fast configuration conversion, and
                                                                                               faster, more robust data display to assure the operator that the test is not
                                                                                               damaged and that the final product is of high quality.


                                                                                               Various Minor Construction ($1 million). This program corrects various
                                                                                               workload and production shortcomings and health, safety, environmental, and
                                                                                               security conditions.
                                  64
Army Workload and Performance System (AWPS) ($2.9 million). The
                                                                                                                            fy
                                                                                                                                     02
                                                                                                                            Working Capital Fund




AWPS is a personal computer-based, network software solution designed to
integrate existing production and financial data into a single
graphic program. This will assist the Tank, Automotive and        Figure 11. Cash Management ($ millions)
Armament Command (TACOM), Communications and                                                  Cash Collections
                                                                                                                                  Plan
Electronics Command (CECOM), and Aviation and Missile               2000
                                                                                                                                 Actual
                                                                                                                                       1,734.6
Command (AMCOM), in managing complex workload and                                       1,373.6
                                                                                                                  1,478.3   $1,550.6
                                                                             $1,280.6                  $1,214.6
employment strategies. This is a Congressional mandate.             1000


Logistics Modernization Program (LMP) ($7.4 million). The              0
                                                                                 FY 2000                FY 2001               FY 2002
LMP seeks to reengineer existing logistics processes to provide
                                                                      Variance     $93                     $263.7               $184.0
flexibility in support of CONUS-based power projection            Variance (%)      7.3                      21.7                 11.9
scenarios to leverage modern information technology enablers
                                                                                           Cash Disbursements
                                                                                                                                  Plan
to provide real-time visibility of the entire logistics supply                                                                   Actual
                                                                    2000
chain, and thereby to support the Revolution in Military                                                                    $1,690.9   1,761.3

                                                                                                                  1,422.1
Logistics.                                                                   $1,239.3     1,262.8
                                                                                                       $1,166.8
                                                                    1000

SDS Data Collection/Shop Floor/AIT ($6.3 million). This
                                                                       0
program provides a Windows-based common technology                               FY 2000                FY 2001               FY 2002

architecture for the various wholesale logistics processes that       Variance $25.5                       $255.3                $70.4
                                                                  Variance (%)      2.0                      21.9                    4.2
will enable users of logistics systems to perform all business
functions from a single workstation. It will interface with the                                     Cash Outlays
                                                                                                                                  Plan
LMP.                                                                 200                                                         Actual
                                                                                                                             140.3


Cash Management                                                      100

The Army manages AWCF cash at the corporate level. The                                                                                     24.5
                                                                              ($41.3)     (110.8)      ($47.8)    (55.3)
performance of individual activity groups is measured against          0

planned collections, disbursements, and outlays rather than in
terms of cash balances. Depot Maintenance collections and
                                                                                 FY 2000                FY 2001               FY 2002
disbursements in FY 2002 were $1.73 billion and $1.76 billion,
                                                                      Variance ($69.5)                      ($7.5)             ($115.8)
respectively. Both collections and disbursements were over plan   Variance (%) (168.3)                       15.7                (82.5)

and reflect the revenue and expense positions of the Depot
Maintenance activity group.


Program Performance
The Depot Maintenance activity group uses two program performance
measures: production output and schedule conformance.


Production Output. Table 32 lists the quantity and customer price for five                                                                        65
                                                                                               representative end items for the last three fiscal years. The table highlights one
                                                                                               specific item at each of the major repair depots that is receiving A1 (cyclic,
                                                                                               normal overhaul, rebuild) work. The prices indicated are the unit prices by
                                                                                               year for this type of work; price fluctuations are due to changes in materiel
                                                                                               and labor costs, distribution of overhead costs, AOR recovery, and the cash
                                                                                               surcharge.

                                                                                               Table 32. Production Output
                                                                                                                                                     FY 2000                         FY 2001
                                                                                                                                              Actual           Unit           Actual        Unit
                                                                                                                                             Quantity        Price ($)       Quantity     Price ($)

                                                                                                   Rear Module, M1A1 (ANAD)                        419          51,308             378     63,107
                                                                                                   Engine, Turbine, T700-GE (CCAD)                   40       150,278              120    250,100
                                                                                                   Paladin Chassis (LEAD)                            56       180,000               51    382,024
                                                                                                   Wheel, Solid Rubber (RRAD)**                   5721          246.00             2851    250.46
                                                                                                   Visual Display Unit, AH64 (TYAD)                  60         10,188              70      8,576
                                                                                                                                                                     FY 2002
                                                                                                                                            Proposed          Actual        Deviation       Unit
                                                                                                                                            Quantity         Quantity         (%)         Price ($)

                                                                                                   Rear Module, M1A1 (ANAD)                        334              334              0     68,613
                                                                                                   Engine, Turbine, T700-GE (CCAD) 120                              120              0    256,083
                                                                                                   Paladin Chassis (LEAD)                            28               28             0    440,615
                                                                                                   Wheel, Solid Rubber (RRAD)**                   2800            2800               0     248.75
                                                                                                   Visual Display Unit, AH64 (TYAD)                  60               60             0      8,263
                                                                                               **The quantities and unit prices reflected for RRAD are for 26x6 roadwheels only.
                                                     “Imagination • Innovation • Initiative”




                                                                                               Schedule Conformance. This performance measure records the number of
                                                                                               units completed on schedule as a percentage of the number of units scheduled.
                                                                                               Units completed are defined as major end items plus reparables.
FY02 United States Army Annual Financial Statement




                                                                                               Table 33. Schedule Conformance (percentage)
                                                                                                                                FY 2000                             FY 2001               FY 2002

                                                                                                   Plan                                               90                     89                 90
                                                                                                   Actual                                             86                   90.9                93.9
                                                                                                   Variance (percentage)                              (4)                   1.9                 3.9



                                                                                               The difference between planned and actual performance in FY 2002 was
                                                                                               because both Anniston and Red River executed greater unplanned workload in
                                                                                               response to increased customer demands.

                                  66
Ordnance
                                                                                                                               fy
                                                                                                                                       02
                                                                                                                               Working Capital Fund




Program Scope
Customer Revenue (Program Size)
Customer requirements dictate the size of the Ordnance workload. Table 34
displays customer revenue for the past three fiscal years.

Revenue from customer orders in FY 2002 was slightly above that of FY
2001. The increase in revenue is due to increased shipments in support of
overseas military operations, troop support/force protection, and receipt of
unplanned orders and miscellaneous spares.

Table 34. Total Revenue by Customer ($ millions)
   Appropriation                  FY 2000           FY 2001         FY 2002

   Operations and
   Maintenance, Army                 $265.4           $299.4          $282.4
   Procurement, Army                   177.2           151.1           165.5
   AWCF                                 52.4               75.4          75.8
   Other Army                           29.9               25.6          22.8
   Other Services                       24.8               32.0          14.1
   Other DoD                            80.1               42.3          62.0
   Foreign Military Sales               16.9               15.2          20.9
   Non-DoD                              11.4               26.8          26.3
   Total Revenue                     $658.0           $667.8          $669.8


Personnel                                                            Figure 12. Personnel Indicators
A key objective of the Army is to have the correct number of                        Civilian Full-Time Equivalents
                                                                                                                                   Plan
appropriately skilled people in the right places to meet              7000                                                        Actual
                                                                                6,222          6,049     5,878
workload requirements. As workload has declined, staffing                                                              5,576   5,572         5,574



levels also have been reduced, through a combination of               3500
involuntary separations, voluntary separation incentive
programs, and hiring freezes. Figures for the last three fiscal           0
                                                                                    FY 2000              FY 2001                FY 2002
years show an overall decline in personnel levels consistent             Variance    (173)                     (302)                   2
with the activity's falling workload. There were no changes in       Variance (%)        (2.8)                 (5.1)                 0.04

military end strength between FY 2001 and FY 2002.                                               Military End Strength
                                                                                                                                   Plan
                                                                                                                                  Actual
                                                                       25.0         23
                                                                                                 21                             21
                                                                                                          20
                                                                                                                        18                    18


                                                                       12.5


                                                                        0.0
                                                                                    FY 2000              FY 2001                FY 2002              67
                                                                         Variance        (2)                     (2)                   (3)
                                                                     Variance (%)        (8.7)                 (10.0)             (14.3)
                                                                                                                                       Performance Measures
                                                                                                                                       Financial Performance
                                                                                                                                       There are four financial performance measures for Ordnance. These are cost
                                                                                                                                       per direct labor hour, customer revenue rate, capital investment, and cash
                                                                                                                                       management.


                                                                                                                                                     Financial Operating Measures. Under the full-cost recovery
                                                                                                                                                     concept, stabilized rates are set to cover all costs and produce a
                                                                                                                                                     zero accumulated operating result (AOR) at the end of the
                                                                                                                                                     budget year. During execution, the activity group may
                                                                                                                                                     experience either a positive or negative net operating result
                                                                                                                                                     (NOR). The gain or loss shown in the NOR is added to the
                                                                                                                                                     AOR from prior years. Stabilized rates are included in the
                                                                                                                                                     President's Budget, published approximately eight months in
                                                                                                                                                     advance of the year of execution. The rates are stabilized so that
                                                                                                                                                     customers' programs will not be affected during execution, even
                                                                                               Civilian technicians move ordnance out of a storage   though the actual costs of the AWCF activity may be higher or
                                                                                               facility. Photo courtesy of AUSA.
                                                                                                                                                     lower than planned.


                                                                                                                                       Deviations from the plan impact the activity group to the extent that an
                                                                                                                                       unplanned gain or loss must be included in the following year's rates to bring
                                                                                                                                       the AOR to zero. Any change in rates may, in turn, result in an increase or
                                                                                                                                       decrease in the customer's buying power.
                                                     “Imagination • Innovation • Initiative”




                                                                                                                                       Table 35 shows the results of operations for Ordnance for the past three fiscal
                                                                                                                                       years. FY 2002 revenue and costs were both above plan but were within the
FY02 United States Army Annual Financial Statement




                                                                                                                                       acceptable deviation from plan of plus or minus 10 percent.




                                  68
Table 35 Results of Operations ($ millions)
                                                                                           fy
                                                                                              02
                                                                                           Working Capital Fund




                                          FY 2000                        FY 2001
                                       Plan    Actual                  Plan    Actual

   Revenue                           $660.3       $658.1          $678.0       $667.8
   Cost of Goods Sold                $708.2       $694.3           696.0        663.8
   Operating Results                  (47.9)          (36.2)       (18.0)           4.0
     (less Capital Surcharge)           24.1            18.3          5.5           5.6
     (less Extraordinary Items)          0.0          (16.8)        (1.8)           0.0
   Net Operating Results              (72.0)          (37.7)       (21.7)          (1.6)
   Beginning AOR                       (0.3)           55.1            58.6        58.6
     (less Prior-Year Adjustment)      58.4            41.2             0.0        (5.4)
   Beginning AOR (Adjusted)            58.1            96.3            58.6        53.2
   AOR (NOR plus Adjusted AOR) ($13.9)                $58.6        $36.9        $51.6

                                                           FY 2002
                                               Plan                       Actual

   Revenue                                        $633.7                      $669.2
   Cost of Goods Sold                                 680.5                    696.1
   Operating Results                              (46.8)                       (26.3)
     (less Capital Surcharge)                        1.8                          1.9
     (less Extraordinary Items)                      0.0                          0.0
   Net Operating Results                          (48.6)                       (28.2)
   Beginning AOR                                       66.7                     51.6
     (less Prior-Year Adjustment)                       0.0                    158.2
   Beginning AOR (Adjusted)                            66.7                    209.8
   AOR (NOR plus Adjusted AOR)                        $18.1                   $181.6



Cost per Direct Labor Hour. The cost per DLH rate is computed by dividing
the sum of all labor and non-labor expenses (direct, indirect, and general and
administrative (G&A)) plus the change in work in process by the total number
of productive DLHs worked in the fiscal year.

Table 36. Cost per Direct Labor Hour
                                   FY 2000                FY 2001             FY 2002

   Cost per Direct Labor Hour ($) $112.99                 $150.59             $155.69
   Change from Prior Year (%)             5.4                   33.3                 3.4
   Direct Labor Hours (000s)            6,145                  4,408               4,471



The number of DLHs executed in FY 2002 was 3 thousand more than
planned, but was 63 thousand more than were executed during FY 2001. Non-
receipt of planned manufacturing and maintenance workload and loss of
demilitarization workload were the primary causes of the FY 2002 decrease.

                                                                                                          69
                                                                                               Table 37 beaks down the overall costs for FY 2002. Direct costs are the costs
                                                                                               of civilian labor, materiel, supplies, equipment, and others that are directly
                                                                                               related to a funded order. Indirect costs are those not directly related to an
                                                                                               order, such as administrative personnel costs, base support costs, support
                                                                                               personnel costs, and facility repair and maintenance costs.

                                                                                               Table 37. FY 2000 Cost Estimates ($ millions)
                                                                                                  Category                            FY 2000         FY 2001        FY 2002

                                                                                                  Direct Labor                             $173.1       $167.6         $168.8
                                                                                                  Indirect Labor                            121.5        104.8          139.5
                                                                                                  General and Administrative Labor           53.0         59.6           46.2
                                                                                                  Direct Materiel                           100.1         93.9           82.4
                                                                                                  Indirect Materiel                          20.2         16.6           25.5
                                                                                                  Indirect Other                             89.3        214.3          231.9
                                                                                                  Total                                    $557.2       $656.8         $694.3
                                                                                                  Direct Labor Hours                        6,145        4,408          4,471
                                                                                                  Cost per Hour (unit cost, $)             $90.68      $149.00        $155.29
                                                                                                  Change in Work in Process                  (2.6)        (7.0)          (1.8)
                                                                                                  Cost of Goods Sold                       $694.3        663.8          696.1
                                                                                                  Cost per Hour (unit cost, $)            $112.99      $150.59        $155.69



                                                                                               Customer Revenue Rate. The Ordnance activity group sets customer revenue
                                                                                               rates per direct labor hour. These rates are stabilized so that the customer's
                                                                                               buying power is protected in the year of execution. Table 38 shows the
                                                                                               revenue rate per DLH, and indicates a 7.9 percent rate reduction between FY
                                                     “Imagination • Innovation • Initiative”




                                                                                               2001 and FY 2002.

                                                                                               Table 38. Stabilized Direct Labor Hours
FY02 United States Army Annual Financial Statement




                                                                                                  Direct Labor Hourly Rate        FY 2000            FY 2001         FY 2002

                                                                                                  Customer Revenue Rate              $99.10          $102.70           $94.59
                                                                                                  Customer Rate Change (%)               (5.73)          3.6             (7.9)



                                                                                               Capital Investment Program. The Ordnance group seeks to maintain and
                                                                                               develop its capabilities through the acquisition of equipment and the execution
                                                                                               of minor construction projects. The capital budget provides for equipment
                                                                                               acquisition to replace obsolete and unserviceable equipment, to eliminate
                                                                                               environmental hazards, and to decrease repair costs by improving productivity.
                                                                                               Table 39 represents the obligation authority of the capital budget.
                                  70
Table 39. Capital Budget ($ millions)
                                                                                   fy
                                                                                      02
                                                                                   Working Capital Fund




   Category                             FY 2000        FY 2001        FY 2002

   Equipment                               $6.7           $11.8           $2.8
   Minor Construction                       3.4             7.8            1.3
   ADPE and Telecom                         2.7             4.9            1.9
   Software                                 8.7             4.8            4.7
   Total                                  $21.5            29.3           10.7


FY 2002 capital investment program (CIP) projects include purchase of the
following:


Various Capital Equipment - Replacement ($2.1 million). This program
funds the replacement of items of equipment costing more than $500 thousand
that have outlived their useful lives, are uneconomical to repair, or are unsafe
to operate.


Laser Punch ($0.7 million). The laser punch provides state-of-the-art laser
technology to support the manufacture of critical parts for the Contact
Maintenance Truck, Heavy (CMTH), the Forward Repair System, and the
BMP-3 (Soviet Bronevaya Maschina Piekhota) Surrogate Target Tank. This
program improves the state of readiness for combat-essential weapon systems.


Minor Construction (<$500K) ($1.3 million). This program addresses and
corrects various problems at Ordnance installation facilities that give rise to
poor working conditions, reduce productivity, lack energy conservation
features, compromise security, fail to comply with fire and safety codes, or
present health hazards.


Miscellaneous Automated Data Processing Equipment (ADPE) (more
than $500K) ($1.9 million). The ADPE program replaces old, obsolete, and
irreparable equipment with state-of-the-art equipment to bring Ordnance sites
up to Army standards and to improve communications with other Army sites.
New technology also will improve security and reduce the threat of intrusion
by unauthorized sources.


Army Workload and Performance System (AWPS) ($4.7 million). The
AWPS is a personal computer-based, network software solution designed to
integrate existing production and financial data into a single graphic program.                   71
                                                                                               Figure 13. Cash Management ($ millions)                                         It will enable production and resource managers to isolate
                                                                                                                   Collections ($ millions)                 Plan               scheduling and cost problems at the product level and to
                                                                                                                                                           Actual
                                                                                                 1000                                                                974.4     estimate the workforce needed to accomplish various levels of
                                                                                                          $671.0    661.8      $658.4
                                                                                                                                              740.6
                                                                                                                                                       $659.1                  workload. This is a congressional mandate.
                                                                                                  500

                                                                                                                                                                               Cash Management
                                                                                                    0                                                                          The Army manages AWCF cash at the corporate level. The
                                                                                                              FY 2000           FY 2001                 FY 2002
                                                                                                   Variance ($9.2)                  $82.2                 $315.3
                                                                                                                                                                               performance of individual activity groups is measured against
                                                                                               Variance (%)    (1.4)                    12.5               47.8                planned collections, disbursements, and outlays, not against
                                                                                                                  Disbursements ($ millions)                Plan
                                                                                                                                                                               cash balances. The FY 2002 plan for Ordnance projected a
                                                                                                                                                           Actual
                                                                                                  800                                                                          $26.5 million drain on cash, but the actual result was a cash
                                                                                                          $702.9                                       $685.6        699.9
                                                                                                                       657.4   $653.1         666.0
                                                                                                                                                                               increase of $275.9 million. Collections were above plan by
                                                                                                  400                                                                          $315 million, partly as a result of the advance billing of
                                                                                                                                                                               customers in the amount of $146 million. The Ordnance
                                                                                                    0                                                                          business activity also increased collection of valid prior-year
                                                                                                              FY 2000           FY 2001                 FY 2002
                                                                                                                                                                               bills. Outlays exceeded the plan by $302 million.
                                                                                                   Variance ($45.5)                 $12.9                  $14.3
                                                                                               Variance (%)    (6.5)                    1.9                    2.1

                                                                                                                        Outlays ($ millions)                Plan
                                                                                                                                                                               Program Performance
                                                                                                                                                           Actual              The Ordnance activity group uses three program performance
                                                                                                   50     $31.8                                        $26.5

                                                                                                                                                                               measures: production output, schedule conformance, and
                                                                                                                    (4.5)      ($5.3)         (74.6)                 (275.9)


                                                                                                  -50
                                                                                                                                                                               ammunition short tons.
                                                                                                 -150

                                                                                                 -250                                                                          Production Output. Shows the quantities and unit prices for
                                                     “Imagination • Innovation • Initiative”




                                                                                                              FY 2000           FY 2001                 FY 2002                three ordnance items produced by the group during the last two
                                                                                                   Variance ($36.3)                ($69.3)               ($302.4)              fiscal years. For FY 2002, plan amounts are also listed.
                                                                                               Variance (%) (114.0)              (1,307.5)              (1,141.1)
FY02 United States Army Annual Financial Statement




                                                                                                                                                       Table 40. Production Output
                                                                                                                                                                                                         FY 2000                FY 2001
                                                                                                                                                                                                    Actual       Unit       Actual      Unit
                                                                                                                                                                                                   Quantity    Price ($)   Quantity   Price ($)

                                                                                                                                                               155MM M804A1 Practice
                                                                                                                                                               (Crane)                              35,512       244.48          0           0
                                                                                                                                                               Bomb, 500lb, BDU 45
                                                                                                                                                               (McAlester)                          10,914         77.48   11,517     1,017.4
                                                                                                                                                               G982 M83 Training Grenade
                                                                                                                                                               (Pine Bluff)                        330,234         19.98 158,912          19.98



                                  72
                                                                         FY 2002
                                                                                                                fy
                                                                                                                   02
                                                                                                                Working Capital Fund




                                              Proposed          Actual         Deviation         Unit
                                              Quantity         Quantity          (%)           Price ($)

    155MM M804A1 Practice
    (Crane)                                              0                0             0                0
    Bomb, 500lb, BDU 45
    (McAlester)                                  13,998           15,882           13.5      1,000.78
    G982 M83 Training Grenade
    (Pine Bluff)                                111,856          111,856                0        20.31



Schedule Conformance. This performance measure shows the number of
units completed on schedule against the number of units scheduled. Units
completed are defined as major end items plus reparable items.

Table 41. Schedule Conformance

                                              FY 2000                 FY 2001                FY 2002

    Plan                                           150.0                  295.3                  286.3
    Actual                                         121.0                  287.5                  297.6
    Variance (percentage)                          (19.3)                  (2.6)                     3.9


For FY 2002, the positive deviation from plan was primarily due to increased
efforts to produce units on time.

Ammunition Short Tons. This measures the amount of short tons of
ordnance received, issued, or demilitarized. (A short ton is 2,000 pounds of
ammunition.) Based on standards at the installations, this figure has a direct
correlation to personnel, funding, and rates.

Table 42. Ammunition Short Tons

                            FY 2000            FY 2001                        FY 2002
                             Actual             Actual            Plan        Actual Variance (%)

    Receipts                142,544            125,100         128,500        131,700              2.5
    Issues                  140,445            162,400         157,800        165,800              5.1
    Demilitarized             42,446            36,799          25,707         27,759              8.0

Receipts, issues, and demilitarization workload were higher than planned due to the response to the terrorist
attacks of September 11, 2001.




                                                                                                                               73
                                                                                               Information Services
                                                                                               Program Scope
                                                                                               Customer Revenue (Program Size)
                                                                                               Customer requirements dictate the workload of the Information Services
                                                                                               activity group. Customers of the group's four Central Design Activities
                                                                                               (CDAs) sign letters of intent, followed by support agreements that estimate the
                                                                                               number of work-years required by each project and the project's anticipated
                                                                                               costs. Revenue from customer orders in FY 2002 totaled $104.8 million. Table
                                                                                               43 provides a breakdown of orders by customer for FY 2000 through FY
                                                                                               2002.

                                                                                               Table 43. Total Revenue by Customer ($ millions)

                                                                                                  Appropriation                   FY 2000          FY 2001          FY 2002

                                                                                                  Operations and
                                                                                                  Maintenance, Army                   $52.3           $33.7            $34.4
                                                                                                  Procurement, Army                     3.4              2.3               0.1
                                                                                                  AWCF                                 57.3            45.0               53.8
                                                                                                  Other Army                            5.4              4.2               4.1
                                                                                                  Other DoD                            10.4              8.1               7.9
                                                                                                  Foreign Military Sales                0.0              0.0               0.0
                                                                                                  Non-DoD                               5.9              4.5               4.5
                                                                                                  Total Revenue                      $134.7           $97.8           $104.8



                                                                                               The Army continues to be the largest source of revenue, accounting for 89
                                                     “Imagination • Innovation • Initiative”




                                                                                               percent of total revenue in FY 2002. The Defense Finance and Accounting
                                                                                               Service (DFAS) also is an important customer because of its needs for design,
                                                                                               maintenance, and testing services for its financial systems.
FY02 United States Army Annual Financial Statement




                                                                                               The Information Services activity group also includes the Army Small
                                                                                               Computer Program (ASCP), the primary objective of which is to provide
                                                                                               customers with the latest technology at the best price. The program negotiates
                                                                                               directly with commercial information technology vendors for hardware,
                                                                                               software, and support services, and in so doing is able to eliminate the
                                                                                               duplicated costs associated with individual procurements. In addition, the
                                                                                               ASCP is in a position to ensure that all products purchased adhere to Army
                                                                                               and DoD interoperability and compliance standards. The program collects a
                                                                                               fee of 1 percent of the total order cost for providing this service. In FY 2002,
                                  74                                                           revenue was $6.6 million.
Personnel
                                                                                                                          fy
                                                                                                                                 02
                                                                                                                          Working Capital Fund




Civilian end strength and work-years were on plan in FY 2002,       Figure 14. Cash Management ($ millions)
as was military end strength.                                                       Civilian Full-Time Equivalents
                                                                                                                                 Plan
                                                                       800                                                      Actual
Performance Measures                                                               601
                                                                                                575


Financial Performance                                                  400                              295         305    282          294

The Information Services activity group uses three financial
performance measures: cost per direct labor hour (DLH),                  0
                                                                                   FY 2000              FY 2001            FY 2002
financial operating measures (revenue, costs, and net operating         Variance        (26)                  10                 12
results), and cash management.                                      Variance (%)        (4.3)                 3.3                4.3

                                                                                                Military End Strength
                                                                                                                                 Plan
Cost per Direct Labor Hour. The DLH rate is computed by                 26                                                      Actual
                                                                                                         21         21
dividing the sum of all activity labor and non-labor expenses                      18


(direct, indirect, and general and administrative (G&A))                13
                                                                                                 8                          8
incurred during the fiscal year by the total number of direct                                                                            6



labor hours executed. Excluded from this computation are                 0
                                                                                   FY 2000              FY 2001            FY 2002
contractor support costs, ASCP expenses, and direct labor
                                                                        Variance        (10)                  0                  (2)
hours, which are treated as direct reimbursable costs. For FY       Variance (%) (55.6)                       0                  (25)

2001 and FY 2002 this activity group is working on a cost-
reimbursable basis in anticipation of decapitalization at the end of FY 2003;
cost per direct labor hour therefore is not applicable.

Table 44. Cost per Direct Labor Hour

                                           FY 2000      FY 2001    FY 2002

    Cost per Direct Labor Hour              $115.12     $449.77     $268.85
    Change from Prior Year (%)                   52.4     290.6         40.3
    Direct Labor Hours* (000s)                    596      219           260
*Note: These amounts exclude ASCP direct labor hours.



Net Operating Results. The activity experienced NOR of $3.7 million in
excess of plan. This was due primarily to increased revenue at the Army's
Small Computer Program (ASCP). Ordering on two contracts (Dell Army
Desktop and Mobile Computing-1 contract and Oracle Enterprise Initiative
Software Agreement) in particular was heavier than anticipated.




                                                                                                                                              75
                                                                                                                                                           Table 45 Results of Operations ($ millions)

                                                                                                                                                                                                           FY 2000                 FY 2001
                                                                                                                                                                                                        Plan    Actual           Plan    Actual

                                                                                                                                                               Revenue                               $159.6       $134.9       $129.3     $97.8
                                                                                                                                                               Expense                                 159.7          136.2     135.0     101.5
                                                                                                                                                               Operating Results                      ($0.1)          ($1.3)    ($5.7)    ($3.7)
                                                                                                                                                                 (less Non-Recoverable)                  0.0             0.3       0.0       0.0
                                                                                                                                                               Net Operating Results                  ($0.1)          ($1.6)    ($5.7)    ($3.7)

                                                                                                                                                                                                                           FY 2002
                                                                                                                                                                                                               Plan                  Actual

                                                                                                                                                               Revenue                                            $105.3                 $103.8
                                                                                                                                                               Expense                                                105.3               100.2
                                                                                                                                                               Operating Results                                        0.0                   3.7
                                                                                                                                                                 (less Non-Recoverable)                                 0.0                   0.0
                                                                                                                                                               Net Operating Results                                    0.0                   3.7


                                                                                               Figure 15. Personnel Indicators
                                                                                                                                                                                 Cash Management. The Army manages AWCF cash at the
                                                                                                                       Collections ($ millions)
                                                                                                                                                               Plan              corporate level. The performance of individual activity groups
                                                                                                  150     $137.8           140.1                              Actual
                                                                                                                                                   112.8
                                                                                                                                                                                 is measured against planned collections, disbursements, and
                                                                                                                                    $103.4                               100.9
                                                                                                                                                           $92.5
                                                                                                                                                                                 outlays, not against cash balances. A positive outlay means the
                                                                                                   75
                                                                                                                                                                                 activity group is losing cash; a negative outlay means the

                                                                                                    0
                                                                                                                                                                                 activity group is generating cash. The actuals in Figure 15
                                                                                                              FY 2000                FY 2001                FY 2002              reflect the cash transactions reported to Treasury for the activity
                                                                                                   Variance      $2.3                    $9.4                  $8.4
                                                                                                                                                                                 group. These include residual transactions from Fort Huachuca,
                                                                                               Variance (%)          1.7                     9.1                   9.1
                                                                                                                                                                                 which moved out of the AWCF several years ago. The
                                                     “Imagination • Innovation • Initiative”




                                                                                                                     Disbursements ($ millions)
                                                                                                                                                               Plan              Information Services activity group ended the year with $1.6
                                                                                                  150     $142.2                                              Actual
                                                                                                                           123.4                                                 million of outlays versus planned outlays of $4.4 million. The
                                                                                                                                                   105.9                 102.6
                                                                                                                                    $96.3                  $96.9
                                                                                                                                                                                 primary cause of the low outlay was the group's increased
                                                                                                   75
FY02 United States Army Annual Financial Statement




                                                                                                                                                                                 emphasis on collecting accounts receivable.

                                                                                                    0
                                                                                                              FY 2000                FY 2001                FY 2002              Program Performance
                                                                                                   Variance ($18.8)                      $9.6                  $5.7
                                                                                                                                                                                 The Information Services activity group is still relatively new to
                                                                                               Variance (%) (13.2)                           9.9                   5.9
                                                                                                                                                                                 the AWCF, and only one program performance measure (direct
                                                                                                                            Outlays ($ millions)
                                                                                                                                                               Plan
                                                                                                                                                                                 labor hours executed versus planned) has been developed. We
                                                                                                   20                                                         Actual
                                                                                                                                                                                 are seeking better measures that would be applicable across all
                                                                                                              $4.4
                                                                                                                           (16.7)   ($7.2)         (6.9)
                                                                                                                                                            $4.4
                                                                                                                                                                         1.6
                                                                                                                                                                                 of the four Central Design Activities.
                                                                                                    0

                                                                                                                                                                                 Direct Labor Hours. The number of DLHs achieved in FY
                                                                                                  -20
                                                                                                              FY 2000                FY 2001                FY 2002              2002 was 27,000 over plan.
                                  76
                                                                                                   Variance ($21.1)                      $0.3                 ($2.8)
                                                                                               Variance (%) (479.5)                          4.2              (63.6)
Table 46. Direct Labor Hours (000s)
                                                                     fy
                                                                        02
                                                                     Working Capital Fund




    Category                          FY 2000    FY 2001   FY 2002

   Plan                                   659       254        250
   Actual                                 609       236        277
   Variance                               (50)      (18)        27
   Variance (percentage)                 (7.5)       7.1      10.8




                                                                                    77
                                                                                                                     Management Integrity
                                                                                                                     Continuing Challenge
                                                                                                                     Lack of Spare Parts
                                                                                                                     The AWCF is struggling with a critical shortage of spare parts. Sustaining the
                                                                                                                     Army requires a level of inventory that is sufficient to meet OPTEMPO and
                                                                                                                     surge requirements; however, the Army has identified a $1.3 billion spare
                                                                                                                     parts inventory shortfall. The AWCF's difficulty in meeting these requirements
                                                                                                                     is due to fragmented pricing and credit policies, and to inconsistent
                                                                                               Sustaining the Army   management information.

                                                                                               requires a level of
                                                                                                                     The Army was able to ensure that this shortfall did not impact readiness in FY
                                                                                               inventory that is     2002, but good management demands that requirements for spare parts be
                                                                                               sufficient to meet    identified and funded during the normal budget process rather than during the

                                                                                               OPTEMPO and           year of execution. The Army therefore has established a work group to review
                                                                                                                     the underlying causes of this problem. The group will examine logistics and
                                                                                               surge requirements.   financial systems to identify those business rules and processes that must be
                                                                                                                     changed such that the total requirement for parts can be established accurately
                                                                                                                     and funding aligned accordingly within the normal budget process. The
                                                                                                                     AWCF goal is to ensure that the spare parts inventory maintains 85 percent
                                                                                                                     stock availability.


                                                                                                                     The Army is working now to identify the FY 2003 shortfall. It plans by FY
                                                                                                                     2004 to have in place the policies and procedures that will enable it to identify
                                                     “Imagination • Innovation • Initiative”




                                                                                                                     the requirements for spare parts during the normal budget process.


                                                                                                                     Future Effects of Existing Conditions
FY02 United States Army Annual Financial Statement




                                                                                                                     Logistics Transformation
                                                                                                                     As part of Army Transformation, several financial reform initiatives have been
                                                                                                                     recommended by the Logistics Transformation Task Force (LTTF) that may
                                                                                                                     result in a change to the pricing and recording of products and/or services sold
                                                                                                                     by the AWCF. The proposed changes will be reviewed by the task force and, if
                                                                                                                     approved, will be implemented during FY 2004-FY 2007. The goal of these
                                                                                                                     reform initiatives is to promote cost visibility while streamlining price
                                                                                                                     development. If this is achieved as required, the buyer/seller relationships will
                                                                                                                     benefit.

                                  78
Facilities Recapitalization
                                                                                          fy
                                                                                                02
                                                                                            Working Capital Fund




The Army has identified a need for a facilities framework capable of properly
supporting its future worldwide missions. This will require programs and
budgets that ensure a day-to-day readiness of modern facilities relevant to
future operations and services. The Army will use standard tools and metrics
to determine the appropriate investment levels for this facilities
recapitalization.

The recapitalization rate metric is one element of a larger paradigm that has
been under development in DoD since 1999. This paradigm is composed of
restructured programs and new performance metrics for facilities sustainment,   The new sustainment,
restoration, and modernization (S/RM). The new S/RM paradigm is expected
                                                                                     restoration, and
to solve long-standing problems that the Army has faced in determining
funding requirements for facilities. It supports the Government Performance           modernization
and Results Act and the Chief Financial Officer's Act.                          paradigm is expected
The Defense Planning Guidance for FY 2004-FY 2009 provides a revised                   to solve long-
investment strategy based on S/RM principles. However, the challenge of how       standing problems
to implement the strategy remains. Successful implementation will require a
major transformation of existing practices and a long-term commitment to
                                                                                   that the Army has
resolve the problem.                                                            faced in determining
                                                                                funding requirements
Using the S/RM-based strategy, the Army plans to first forecast its required
inventory and then:                                                                     for facilities.
z fully sustain its assets and stop the loss of service life;

z restore by 2010, where appropriate and affordable, C2 readiness to
  facilities rated C-3 or C-4 in the bear term buying back lost service life;
  and

z modernize for the future, establishing by 2007 a recapitalization
  investment stream tied to average expected service life (67 years).

For mainstream recapitalization programs — and for recapitalization typically
funded by traditional military construction, O&M, and working capital fund
resources — the recapitalization rate metric is ready and usable for the FY
2004-FY 2009 program and budget cycle. Additional research and analysis is
required before the metric can be applied successfully to selected specialty
areas, such as family housing programs, foreign or internationally funded
programs, and non-appropriated fund programs.                                                              79
                                                                                                                     Advancing the President's Management
                                                                                                                     Agenda
                                                                                                                     The President's Management Agenda has great relevance in the logistics arena.
                                                                                                                     By improving their management efficiency, all AWCF activities should be
                                                                                                                     able to lower the rates they charge to customers.

                                                                                               The President's       Strategic Management of Human Capital
                                                                                               Management Agenda     Workforce Revitalization
                                                                                                                     The AWCF has a critical role in helping to ensure the success of Army
                                                                                               has great relevance
                                                                                                                     Transformation, but the ability of the AWCF workforce to perform its mission
                                                                                               in the logistics      is in peril. The AWCF is afflicted by a growing number of retirement-driven
                                                                                               arena.                shortages in critical areas, and after more than a decade of cutbacks is facing
                                                                                                                     serious skill imbalances. The limited intake of new personnel furthermore
                                                                                                                     means that employees now average more than 20 years of service; unless
                                                                                                                     someone is in place to inherit their legacy, as staff members leave, that
                                                                                                                     knowledge and experience will be lost with them.


                                                                                                                     The Army Materiel Command (AMC) is seeking to put in place a Workforce
                                                                                                                     Revitalization Program that will institute hiring programs for apprentices,
                                                                                                                     interns, and multidisciplinary fellows. Using innovative recruiting techniques,
                                                                                                                     AMC will assess the abilities of new employees and determine and address
                                                                                                                     their development needs. The desired result is a viable and skilled workforce
                                                     “Imagination • Innovation • Initiative”




                                                                                                                     able to share the knowledge of experienced employees.


                                                                                                                     Graduate Studies for Logistics Officers
                                                                                                                     AWCF managers routinely are expected to apply and modify the best practices
FY02 United States Army Annual Financial Statement




                                                                                                                     of the private sector to AWCF businesses. But while AWCF businesses are as
                                                                                                                     complex and challenging as any in the private sector, the Army's logistics
                                                                                                                     officers typically are not trained in the professional business skills necessary to
                                                                                                                     run AWCF businesses in accordance with best business practices.


                                                                                                                     AWCF logisticians receive a variety of military service school training, but
                                                                                                                     this does not approach the level of education found in civilian graduate
                                                                                                                     business schools, nor are they offered the opportunity to undertake fully
                                                                                                                     funded studies at civilian graduate business schools. The lack of such
                                                                                                                     opportunities has contributed, in the past, to the decision of some logisticians
                                  80                                                                                 to leave the Army rather than pursue assignments for which they are not
prepared adequately. Seeking to address this weakness, the Army is evaluating
                                                                                  fy
                                                                                     02
                                                                                  Working Capital Fund




the feasibility of making business graduate programs available for up to 5
percent of eligible captains. In FY 2002, 885 captains would have been
eligible; had such a program been in place, up to 40 officers, therefore, would
have been given the opportunity to genuinely prepare themselves to run
AWCF businesses.

Improved Financial Performance
Single Stock Fund
The Single Stock Fund (SSF) initiative was begun in FY 1998. The SSF is
designed to reengineer business processes to improve logistics and financial
processes in the AWCF.


As force structure and technology changed, the need arose for a speed of
system processing and a supply chain agility that the previous environment
could not support. The SSF combined the wholesale stocks previously
managed by the Army Materiel Command with the retail stock previously
managed by Army major commands. By integrating the asset requirements at
both levels, the Army thus gained a corporate visibility of its assets that it
previously lacked. This lack of corporate visibility had contributed greatly to
an accumulation of excess stock and a duplication of workload.


The SSF is streamlining operations by eliminating multiple points of sales,
multiple ledger and billing accounts, duplicative automated systems, and other
inefficiencies. With the implementation of SSF Milestones 1 and 2, the Army
capitalized $489 million of retail stocks to the SSF.


Milestone 3 implementation began on July 1, 2002, with the commencement
of the Verification of Initial Operating Capability (VIOC) at III Corps, the
Texas Army National Guard, and selected U.S. Army Reserve units. Army-
wide implementation began in November 2002, with completion scheduled
for May 2003. This will round out the program by capitalizing to the SSF an
additional 395 customer accounts with an approximate value of $900 million.
The benefits of the SSF are exceeding expectations. The redistribution of
Army-owned materiel that previously was inaccessible has improved greatly
AWCF customer responsiveness and has lowered costs significantly. A cost-
benefit analysis conducted in 1999 projected a benefit-to-investment ratio of
6.3 to 1; actual implementation evidence indicates that the SSF is well on
                                                                                                 81
track to exceed that estimate.
                                                                                               Logistics Modernization Program
                                                                                               LMP has been an ongoing modernization process to allow the Army the
                                                                                               flexibility to support today's CONUS-based power projection scenarios and
                                                                                               utilize modern information technology enablers that provide real time
                                                                                               visibility of the entire logistics supply chain. In addition, LMP ensures
                                                                                               integrated logistical and financial system processes that will maximize
                                                                                               resources to ensure all efforts toward total asset visibility are maintained and
                                                                                               accurate requirements determination is derived to support near and long-term
                                                                                               readiness objectives.


                                                                                               When fully implemented, LMP will provide a single point of entry for the
                                                                                               recording, reporting, and analysis of inventory and related financial data,
                                                                                               directly addressing an identified internal control weakness cited in the Army's
                                                                                               FY 2000 financial statements. The modernization program will provide a
                                                                                               financial information management system while simultaneously providing the
                                                                                               logistics community with easy access to online, real-time information at a
                                                                                               detail level low enough to enable data to be summarized and sorted.
                                                                                               Managers will be able to use these data to perform such functions as Activity-
                                                                                               Based Costing and will bring financial data for the AWCF under general
                                                                                               ledger control.


                                                                                               Dollar Cost Banding
                                                                                               Under the current system, an item is added to Authorized Stock Lists (ASLs)
                                                     “Imagination • Innovation • Initiative”




                                                                                               when nine requests are made for that item. Three demands are needed to retain
                                                                                               the item on the ASL. This system operates regardless of cost, with the result
                                                                                               that inexpensive, but often critical, components are not held in stock. Dollar
                                                                                               Cost Banding (DCB) seeks to ease this situation by reducing the add/retain
FY02 United States Army Annual Financial Statement




                                                                                               criteria for items costing less than $1,000; as the unit price of an item
                                                                                               decreases, the criteria by which it is on the ASL are incrementally lowered.
                                                                                               There would be no change to the current system for items priced more than
                                                                                               $1,000 per unit. DCB allows units to add to the ASL many critical small
                                                                                               items, at very little cost. Most units that have tried DCB have experienced
                                                                                               order fill rates between 10 and 20 percent better than under the previous
                                                                                               system with no increase in the total cost of the ASL. The benefits to readiness
                                                                                               are obvious. While DCB has been optional, its success has led to it being
                                                                                               adopted broadly across the Army.

                                  82
fy
   02
Working Capital Fund




               83
             FY02 United States Army Annual Financial Statement
“Imagination • Innovation • Initiative”
                                                                  Civil Works Fund-Overview                                                 85

                                                                  Profile of Civil Works Program                                            85
                                                                  Mission                                                                    85
                                                                  The Business Programs                                                      87
                                                                  Organizational Structure                                                   94


                                                                  Civil Works — Performance Results                                         97
                                                                  Strategic Goals                                                            98


                                                                  Analysis of Financial Statements                                          112
                                                                  Balance Sheet                                                             112
                                                                  Statement of Net Cost                                                     113
                                                                  Statement of Changes in Net Position                                      113
                                                                  Statement of Budgetary Resources                                          113
                                                                  Statement of Financing                                                    114


                                                                  Management Integrity                                                      115
                                                                  Computer System Controls                                                  115
                                                                  Information Technology Capital Planning and Investment Decision Process   115


                                                                  Future Effects of Existing Conditions                                     116
                                                                  The Marine Transportation System                                          116
                                                                  Aging Infrastructure                                                      116
                                                                  Responding to Terrorist Threats                                           117


                                                                  Advancing the President's Management Agenda                               118
                                                                  Strategic Management of Human Capital                                     118
                                                                  Competitive Sourcing                                                      119
                                                                  Improved Financial Performance                                            120
                                                                  Expand Electronic Government                                              120
                                                                  Budget and Performance Integration                                        123
Civil Works Fund




Civil Works Fund—Overview

Profile of Civil Works Program
Mission
The Civil Works mission is evolving constantly to keep pace with the
changing needs of the nation.


Developing and Managing Water Resources
The original Civil Works mission, as it related to developing and managing
water resources, was to support navigation by maintaining and improving
water channels. In 1824, a series of laws authorized the Corps of Engineers
also to improve safety on the Ohio and Mississippi Rivers, and in 1909 the
Rivers and Harbors Act authorized the consideration of various water uses,
including hydroelectric power generation, in the planning, design, and




                                                                                02
                                                                               fy
construction of water resource development projects. The Flood Control Act
of 1917 established for Civil Works a role in flood damage reduction, and in
1936 the Flood Control Act gave Civil Works the responsibility for providing         85
flood protection for the entire country.
                                                                                                                                                    Recreation was added to the Civil Works portfolio by the Flood
                                                                                                 The Civil Works Mission                            Control Act of 1944, which authorized the provision of
                                                                                                 The Civil Works mission is to contribute           recreational facilities at reservoirs. The River and Harbor Flood
                                                                                                 to the national welfare and serve the
                                                                                                 public by providing the nation with                Control Act expanded this authority in 1962, providing
                                                                                                 quality and responsive                             authority to build, where feasible, recreational facilities as part
                                                                                                 z    Development and management of                 of all water resource development projects.
                                                                                                      the nation's water resources
                                                                                                 z    Protection, restoration, and
                                                                                                      management of the environment                 Another aspect of water resources management is that of water
                                                                                                 z    Disaster response and recovery                supply. The changing role of the Civil Works Program in water
                                                                                                 z    Engineering and technical services            supply has been directed by a series of Water Resources
                                                                                                      in an environmentally sustainable,
                                                                                                      economically and technically sound            Development Acts. The Water Supply Act of 1958 gave Civil
                                                                                                      manner through partnerships and
                                                                                                      the project management business               Works the authority to include water storage in both new and
                                                                                                      process                                       existing reservoir projects for municipal and industrial uses at
                                                                                                                                                    100 percent non-Federal cost.

                                                                                                                                                    Protecting, Restoring, and Managing the
                                                                                                                                                    Environment
                                                                                                                                                    The Rivers and Harbors Act of 1899 required the Corps of
                                                                                                                                                    Engineers to prevent the obstruction of navigable waterways,
                                                                                                                                                    making the Corps an early tool used to protect the environment.
                                                                                                                                                    As concerns over the environment grew in the late 20th century,
                                                                                                                                                    the Clean Water Act of 1972 greatly broadened the Corps's
                                                                                                                                                    responsibility by providing authority over dredging and filling
                                                                                                                                                    in "the waters of the United States," including the filling in or
                                                     “Imagination • Innovation • Initiative”




                                                                                                                                                    destruction of wetlands. The program's environmental
                                                                                               A park ranger emphasizes safety at the John Day      responsibilities were broadened further by new legislation,
                                                                                               Dam, OR.
                                                                                                                                                    introduced in 1986, that expanded our traditional environmental
                                                                                                                                                    mitigation activities at new and existing projects to include the
FY02 United States Army Annual Financial Statement




                                                                                                                                     enhancement and restoration of natural resources at our projects and in areas
                                                                                                                                     not directly tied to our projects. This new legislation made providing
                                                                                                                                     environmental protection one of the primary missions of our water resource
                                                                                                                                     development activities.

                                                                                                                                     Responding and Assisting in Disaster Relief
                                                                                                                                     Throughout its history, America has relied upon Civil Works for help in times
                                                                                                                                     of national disaster. This help is provided now under two basic authorities: the
                                                                                                                                     Flood Control and Coastal Emergency Act (P.L. 84-99. as amended), and the
                                                                                                                                     Stafford Disaster and Emergency Assistance Act. Under P.L. 84-99, Civil
                                  86                                                                                                 Works has direct authority to provide emergency assistance during or
                                                                                                                                     following flooding events to protect lives, public facilities, and infrastructure.
Under the Stafford Act, the program supports the Federal
                                                                                                                   02
                                                                                                                  fy   Civil Works Fund




Emergency Management Agency (FEMA) in carrying out the
Federal Response Plan, which calls upon 26 Federal
departments and agencies to provide coordinated disaster relief
and recovery operations. The primary role for Civil Works in
emergency relief and recovery operations is to provide public
works and engineering support.

Providing Engineering Support and Technical
Services
In Titles 10 and 33 of the U.S. Code, Congress expresses its
                                                                          Fighting the flood in Fort Wayne, IN.
intent that the U.S. Army Corps of Engineers provide services
on a reimbursable basis to other Federal entities, state, local and tribal
governments, private firms and international organizations. Additional
authorities to provide services that are applicable to all Federal agencies are
provided in Titles 15, 22 and 31. These authorities include providing services
to friendly foreign governments.

The Business Programs
The Civil Works Program has established nine business programs through
which to accomplish the four components of its mission. Figure 16 defines
eight of the nine business programs that receive direct appropriations. The
ninth program, Support for Others, is conducted on a reimbursable basis. Each
business program specifically addresses a single mission component, but all
programs also contribute to one or more of the other mission components.

Figure 16. FY 2002 Civil Works Appropriation by Business Program

                                     $287 million
                       $6 million                   $15 million

                      $705 million
 $132 million
                                                                  $1.9 billion

  $193 milion                        $1.4 billion




       Navigation                                          Environment
       Flood and Coastal Damage Prevention                 Emergency Management
       Hydropower                                          Recreation
       Regulatory                                          Water Supply


                                                                                                                                  87
                                                                                                                                        Navigation
                                                                                                                                        The Navigation business program is responsible for providing safe, reliable,
                                                                                                                                                        efficient, and environmentally sustainable waterborne
                                                                                                                                                        transportation systems for the movement of commercial goods,
                                                                                                  Major Commodities                                     for national security needs, and for recreation. The program
                                                                                                  Handled by Civil Works                                seeks to meet this responsibility through a combination of
                                                                                                  Ports and Waterways in                                capital improvements and the operation and maintenance of
                                                                                                  CY 2001                                               existing infrastructure projects. The Navigation program is vital
                                                                                                  Crude Oil                   574 million tons
                                                                                                                                                        to the nation's economic prosperity: 99 percent of America's
                                                                                                  Petroleum Products          475 million tons
                                                                                                  Coal                        295 million tons          international trade moves through our ports, and 20 percent of
                                                                                                  Food/Farm Products          282 million tons          American jobs depend to some extent on this trade.

                                                                                                  NOTE: Statistics are compiled on a                    In FY 2002, work continued to improve the future viability of
                                                                                                  calendar year basis. CY 2002 statistics
                                                                                                  not available at time of printing.                    many of America's ports and harbors. In New York City, work
                                                                                                                                                        to dredge the access channel to 41 feet is vital to ensuring that
                                                                                                                                                        future containerships will be able to load fully in New York.
                                                                                                                                        This $113 million project, of which Civil Works will pay $84 million, is
                                                                                                                                        expected to provide $32 million in average annual benefits to the nation.


                                                                                                                                        Civil Works operates and maintains 12,000 miles of inland waterways, nearly
                                                                                                                                                        13,000 miles of deep draft and coastal inlet channels, 238 lock
                                                                                                                                                        chambers, 300 major commercial harbors, and over 600 smaller
                                                                                                                                                        recreational and commercial harbors. Inland waterways provide
                                                     “Imagination • Innovation • Initiative”




                                                                                                                                                        a highly fuel-efficient mode of transportation, able to move
                                                                                                                                                        freight at more than 500 ton-miles per gallon of fuel compared
                                                                                                                                                        to the less than 400 ton-miles per gallon that rail transportation
                                                                                                                                                        achieves. This translates to an annual savings of $7 billion in
FY02 United States Army Annual Financial Statement




                                                                                                                                                        transportation costs. Every dollar invested in improving our
                                                                                                                                                        navigation infrastructure results in a better than $3 increase in
                                                                                                                                                        GDP.


                                                                                                                                                        In FY 2002, this $1.9 billion program accounted for 41 percent
                                                                                                                                                        of the Civil Works budget.


                                                                                                                                                        Flood and Coastal Storm Damage Reduction
                                                                                               A container vessel navigates the Kill Van Kull channel   This business program is aimed at saving lives in the event of
                                                                                               as it passes under the Bayonne Bridge, NJ. The
                                                                                               Corps has deepened this channel to accommodate
                                                                                                                                                        floods and storms and of reducing the property damage that
                                  88                                                           modern shipping vessels.                                 they cause. Civil Works provides 8,500 miles of emplaced
levees and dikes, 383 reservoirs, and more than 90 shore protection projects
                                                                                                          fy
                                                                                                                 02
                                                                                                                  Civil Works Fund




along 240 miles of the nation's 2,700 miles of shoreline. With the exception of
the reservoirs, most of the infrastructure constructed under this
business program is owned and operated by the sponsoring
cities, towns, and agricultural districts.
                                                                        FY 2002 Damage Results*
                                                                        Damage Suffered                $2.0 billion
The Flood and Coastal Storm Damage Reduction business
program has compiled an impressive record of performance. In            Damage Prevented $23.1 billion*
                                                                        *Preliminary estimate.
the period 1991-2000, floods in unprotected areas caused the
United States an average of $4.5 billion in property damage. In
the same period, Corps projects in protected areas prevented
$20.8 billion in average annual damages. Through FY 2000, the
nation had invested $43.6 billion ($122 billion, adjusted for
inflation) in flood damage reduction projects, preventing an
estimated $419 billion ($709 billion, adjusted for inflation) of
flood damage. Adjusted for inflation, these figures show a
return on investment of more than $6 in damage prevented for
each dollar spent. The program also has helped reduce the
number of lives lost annually due to floods from an average of
179 in the decade 1972-1981 to 89 in the period 1991-2000.

                                                                      A Corps-led sandbag operation in Portland, OR.
Through its Flood Plain Management Services, the Flood and
Coastal Storm Reduction Program additionally advises property
owners and communities on protective measures that they can take on their
own behalf. Each year this service responds to more than 40,000 requests for
information on how to protect more than $6 billion worth of property.


As an ever more affluent society moves toward America's coastal regions,
protecting the coastline is a matter of increasing Federal interest. The Flood
and Coastal Storm Reduction Program seeks the most economical and
environmentally sound solutions to achieve this. Most shore protection
projects are carried out at the request of local sponsors, as authorized and
funded by Congress, and are cost-shared with the state and local government
within whose jurisdiction the project falls. Projects are performed only on
publicly accessible beaches, and only after thorough studies have determined
that there exists a positive benefit-to-cost ratio. While most projects provide
also for shoreline protection, habitat protection and renewal, and recreation,
the primary purpose is the protection of life and property.                                                                  89
                                                                                                                                      In FY 2002 the Civil Works Flood and Coastal Storm Reduction Program
                                                                                                                                      completed a project that will protect millions of Americans. In the early 1990s,
                                                                                                                                      the Los Angeles County Drainage Area, covering an area of 2,000 square
                                                                                                                                      miles, was protected only partially from floods. Enormous population growth
                                                                                                                                      in the area rendered the existing flood control system inadequate, to the extent
                                                                                                                                      that the Federal Emergency Management Agency (FEMA) required residents
                                                                                                                                      to hold mandatory flood insurance. Initiated in 1996 at an estimated cost of
                                                                                                                                      more than $450 million, the Los Angeles County Drainage Area project was
                                                                                                                                      completed for roughly $200 million, of which Civil Works paid $150 million.
                                                                                                                                      The project saw the building of 21 miles of parapet walls, armored the back
                                                                                                                                      slopes of levees, and modified or raised 26 bridges. As a result of these
                                                                                                                                      improvements, FEMA eliminated the obligation for flood insurance.


                                                                                                                                      In FY 2002, this $1.4 billion program accounted for 30 percent of the Civil
                                                                                                                                      Works budget.


                                                                                                                                                      Environmental Protection, Restoration, and
                                                                                                                                                      Management
                                                                                                                                                      This evolving and growing business program emphasizes
                                                                                                                                                      environmental stewardship, ecosystem restoration, mitigation,
                                                                                                                                                      environmental compliance, and research and development.
                                                                                                                                                      Responding to the growing national demand for restoration and
                                                                                                                                                      protection, the program's work takes many forms, ranging from
                                                     “Imagination • Innovation • Initiative”




                                                                                                                                                      monitoring water quality at dam sites to operating fish
                                                                                                                                                      hatcheries with the states to restoring the environment at the
                                                                                                                                                      sites of earlier projects. Since 1998, we have added more than
                                                                                                                                                      120,000 acres of aquatic, wetland, and floodplain ecosystems to
FY02 United States Army Annual Financial Statement




                                                                                               Kissimmee River C-38 Restoration Project, FL.          America's natural habitats.

                                                                                                "The optimal                          One example where work proceeded in FY 2002 was on the Kissimmee River
                                                                                                solution will not                     in Florida. In the 1960s this 103-mile river was reduced to a 52-mile canal in
                                                                                                                                      order to control flooding and resulted in a degradation of the natural
                                                                                                always be obvious or
                                                                                                                                      ecosystem. The current project is aimed at restoring 52 miles of the river and
                                                                                                easy, but [it] is what                27,000 acres of wetlands; improving water quality; and restoring the
                                                                                                we will work                          conditions for over 300 fish and wildlife species.

                                                                                                together to find."
                                                                                                                                      The Corps of Engineers and the Nature Conservancy have agreed to a
                                                                                                        Steven McCormick              collaborative effort to improve the management of dams on various rivers.
                                  90
                                                                                                   President, Nature Conservancy      The Sustainable Rivers Project will seek to improve dam operations, helping
to restore and protect the health of rivers and surrounding natural areas while
                                                                                                          fy
                                                                                                                 02Civil Works Fund




continuing to meet human needs for services such as flood control and power
generation. The collaborative effort will initially examine the potential to
improve operations at 13 dams on nine rivers in nine states.


In 1997, the Civil Works Program took over from the
Department of Energy the Formerly Utilized Sites Remedial
Action Program, which mandates the clean-up of former
Manhattan Project and Atomic Energy Commission sites. The
transfer of this program to Civil Works capitalizes on our
experience gained in cleaning up former military sites and
hazardous waste sites under the Environmental Protection
Agency's "Superfund" program. Work under the program is
ongoing at 46 locations in Missouri, Illinois, Ohio, Maryland,
New Jersey, New York, Connecticut, Pennsylvania, and
Massachusetts.                                                        Formerly Utilized Sites Remedial Action Program.
                                                                      Groundwater sampling for radioactive materials,
                                                                      Wayne, NJ.

In FY 2002, this $705 million program accounted for 15
percent of the Civil Works budget.


Regulation of Waterways and Wetlands
The Civil Works Regulatory Program is responsible for the issue of permits
for construction and dredging in the nation's navigable waters, including
wetlands. In doing so it must take into account the requirements to protect
America's aquatic resources while allowing reasonable use of private property
and infrastructure development. The staff that performs this mission evaluates
permit applications for most construction activities that occur in the nation's
waters and for all work that would take place in the nation's navigable waters.


The Corps considers the views of other Federal, state and local agencies,
interest groups, and the general public in rendering its final permit decisions.
The program seeks to balance the reasonably foreseeable benefits and
detriments of proposed projects with the goal of making permit decisions that
recognize the essential values of aquatic ecosystems to the general public. Any
unavoidable adverse impacts to the aquatic environment of a proposed project
are offset by mitigation requirements, which may include the requirement to
restore, enhance, establish, or protect and maintain aquatic functions and
values.
                                                                                                                              91
                                                                                               Great effort is made to make permit decisions in a timely manner to minimize
                                                                                               the inconvenience caused to the regulated public. In FY 2002, 88 percent of
                                                                                               all permit actions were completed in 60 days.


                                                                                               In FY 2002, this $132 million program accounted for 3 percent of the Civil
                                                                                               Works budget.


                                                                                               Emergency Management
                                                                                               In a typical year, there are 30 presidential disaster declarations demanding a
                                                                                               response from the Civil Works Program. It is often difficult to know more than
                                                                                               a few days in advance when a hurricane or other natural disaster will strike,
                                                                                               and in the case of a man-made disaster, as the events of September 11, 2001,
                                                                                               showed, there may be no notice at all. To prepare for such events, the Corps
                                                                                               has implemented Readiness 2000, a unified and integrated corporate planning
                                                                                               project, to raise responsiveness to the highest possible level. Predicting
                                                                                               impending disasters can be difficult, but the returns on investment in
                                                                                               emergency preparedness can be dramatic.


                                                                                               In FY 2002 the Emergency Management Program continued the work it
                                                                                               started in late FY 2001 at the World Trade Center site in New York City.
                                                                                               Structural engineers monitored unstable buildings, and other Civil Works
                                                                                               employees supported search and rescue work. The program also provided a
                                                                                               mobile command center to support the New York Fire Department. Perhaps
                                                     “Imagination • Innovation • Initiative”




                                                                                               the biggest mission, however, was debris removal. Civil Works experts helped
                                                                                               to set up management processes and develop a plan for debris removal; they
                                                                                               also set up and conducted dredging operations to allow barges to access the
                                                                                               site. Dredging 75,000 cubic yards in just nine days, this solution eliminated
FY02 United States Army Annual Financial Statement




                                                                                               the need for trucks to traverse the 20-mile land route from the site to the
                                                                                               landfill. With each barge carrying 30 truckloads of debris, it also greatly
                                                                                               reduced traffic and road wear.


                                                                                               Besides the ongoing World Trade Center response activities, there were
                                                                                               numerous flood events throughout the United States involving nearly every
                                                                                               Corps District throughout the year. Emergency Management Personnel
                                                                                               responded to 10 Presidential Disaster Declarations at the request of the Federal
                                                                                               Emergency Management Agency and to other flood events under Public Law
                                                                                               84-99, Flood Control and Coastal Emergencies. The response to Typhoon
                                  92
                                                                                               Chaatan in the Federated States of Micronesia, Guam, and the Island of Chuk
in the Commonwealth of Northern Mariana Islands and the risk of imminent
                                                                                   02
                                                                                  fy   Civil Works Fund




failure of the Rapidan Dam on the Blue Earth River upstream of the City of
Mankato, MN, are examples of the diverse emergency events responded to by
Emergency Management personnel. The response to Typhoon Chaatan, at the
request of FEMA, included providing emergency power, debris removal and
emergency water supply. The Rapidan Dam response was initiated under
Public Law 84-99 and involved providing emergency repairs to stabilize the
dam.


In FY 2002, this program received new budget authority of $6 million that
accounted for less than 1 percent of the Civil Works new budget authority. The
program is actually larger than indicated by the new budgetary view. The $6
million is augmented by reimbursable work performed for FEMA and by
prior-year disaster recovery appropriations carried over into FY 2002.


Hydropower
Some of the Civil Works projects built for navigation and flood control have
the additional benefit of providing hydroelectric power. This is in keeping
with Civil Works policy and with the Congressional direction to maximize
public benefits in all projects for all desirable purposes, including power
generation. The Civil Works Program operates and maintains 75 power plants,
mostly in the Pacific Northwest, generating about 24 percent of America's
hydroelectric power. The program is the country's largest producer of
hydroelectricity. Hydropower is a low-cost, renewable power source that
produces none of the airborne emissions that contribute to acid rain or the
greenhouse effect, leading many to view it as the least environmentally
disruptive source of electric power.


In FY 2002, this $193 million program accounted for 4 percent of the Civil
Works budget. In FY 2002 the Federal Power Marketing Agencies returned
$700 million to the U.S. Treasury from power sales.


Water Supply
Civil Works has 167 projects with municipal and industrial water supply as an
authorized purpose. It supplies water to 10 million people in 115 cities,
including some of America's largest metropolitan areas, such as Washington,
D.C., Atlanta, and Dallas-Fort Worth. In arid parts of the country there are 62
projects that have irrigation as an authorized purpose. Many of these projects                    93
                                                                                               serve flood control, navigation, and hydroelectric purposes as well as irrigation.


                                                                                               In FY 2002, this $15 million business program accounted for less than 1
                                                                                               percent of the Civil Works budget.


                                                                                               Recreation
                                                                                               The Civil Works Recreation Program is an important provider of outdoor
                                                                                               recreation opportunities. The program operates more than 44,000 recreation
                                                                                               sites at 456 projects, mostly lakes, hosting more than 396 million visits a year
                                                                                               at its facilities. One in 10 Americans visit a Civil Works recreation site at least
                                                                                               once a year. These projects have significant economic impact supporting
                                                                                               500,000 jobs and generating $15 billion in visitor spending annually. In
                                                                                               addition, there are approximately 500 concessionaires on Civil Works
                                                                                               recreation sites, representing more than a billion dollars in fixed assets. Corps
                                                                                               lands are also leased to nearly 600 state parks, 600 local government parks,
                                                                                               and 420 boy or girl scout camps, church camps, boating clubs, and other such
                                                                                               organizations that are open to public membership and that have defined goals
                                                                                               that are consistent with the Corps' public recreation stewardship
                                                                                               responsibilities.


                                                                                               In FY 2002, this $287 million business program accounted for 6 percent of the
                                                                                               Civil Works budget.

                                                                                               Organizational Structure
                                                     “Imagination • Innovation • Initiative”




                                                                                               The Workforce
                                                                                               Civil Works employs more than 25,000 people. Funded through the Energy
                                                                                               and Water Development Appropriation, it executes programs through eight
FY02 United States Army Annual Financial Statement




                                                                                               regional divisions and 38 of the 41 districts of the Corps of Engineers.
                                                                                               Figure 17 shows the division boundaries. Rather than being demarcated by
                                                                                               state boundaries, these are defined by watersheds and drainage basins,
                                                                                               reflecting the water-oriented nature of the Civil Works Program.




                                  94
Figure 17. Civil Works Boundaries
                                                                                                                 02
                                                                                                                fy   Civil Works Fund




                                                                                              North
  Alaska
                                                                                             Atlantic

                   Seattle                                             Great Lakes
                                                                       & Ohio River
                                                                                                       New
                                                       St.                                            England
            Portland Walla    Northwestern             Paul                        Buffalo
                     Walla
                                                                         Detroit
                                                              Rock                  Pittsburgh     New York
                                                              Island
                                           Omaha                           Chicago               Philadelphia
              Sacramento                                                    Cincinnati Baltimore
San                                        Kansas City                               Hungtington
                                                                                                Norfolk
Francisco          South Pacific                                          Louisville
                                                                           Nashville
                                                      Little
                                                Tulsa Rock               Memphis               Wilmington
       Los
       Angeles                         Southwestern                                            Charleston
                             Albuquerque                                      Atlanta
                                           Ft. Worth                                         Savannah
                                                                           Mobile
                                                                                             Jacksonville
   Honolulu                                        Dallas
                                              Galveston                   New
                                                                          Orleans                 South
                                                          Mississippi                            Atlantic
 Pacific Ocean
                                                            Valley
                     Legend:
                        Div./Regional HQ location
                        District HQ location
                                                                     Key
                        Division boundary
                        District boundary                Follows Watershed Boundaries
                        State boundary




The distribution of Civil Works employees similarly highlights the customer
focus of the program: 95 percent of the employees work at the district level,
reflecting the fact that project management is performed at the district level.


The Civil Works mission contracts out to civilian companies all of its
construction and most of its design work. While Civil Works employs only
25,000 people, as many as 150,000 people thus are employed indirectly in
support of its projects. The close working relationships established with these
private firms have served the nation well in times of emergency.


The Leadership
Oversight of Civil Works is provided through four levels of authority. The
Assistant Secretary of the Army for Civil Works (ASA (CW)) is appointed by
the President and establishes Civil Works policy. The Chief of Engineers
reports to the ASA (CW) for Civil Works mission accomplishment and in turn
delegates most of his responsibilities for managing the various programs to the
Director of Civil Works. The Chief of Engineers, through the Director of Civil
Works, is responsible for the leadership and management of the program and
for ensuring that policies established by the ASA (CW) are applied to all                                                       95
phases of project development.
                                                                                               Figure 18. Civil Works Levels of Authority                The divisions, commanded by Division Engineers, are regional
                                                                                                                                                         offices responsible for the supervision and management of their
                                                                                                                                                         subordinate districts, including the monitoring and quality
                                                                                                                        ASA CW
                                                                                                                  Provides policy guidance               assurance of district work.


                                                                                                                                                         The districts are the foundation of the Civil Works mission,
                                                                                                                  Chief of Engineers                     managing water resource development over a project's life
                                                                                                                  Applies policy guidance
                                                                                                                                                         cycle. They conduct planning studies, perform project design,
                                                                                                                                                         oversee construction by contractors, and manage completed
                                                                                                                    Director of CW                       facilities. They develop decision documents and write reports,
                                                                                                        Acts on behalf of the Chief of Engineers
                                                                                                                                                         prepare cost estimates, negotiate agreements, and perform all
                                                                                                                                                         the day-to-day activities that get the job done. They are the
                                                                                                                      8 Divisions                        program's face to the nation.
                                                                                                           Supervise and manage districts
                                                                                                         Perform quality assurance on district



                                                                                                   Plan                                      Evaluate
                                                                                                   Design                                    Report
                                                                                                   Build              38 Districts
                                                                                                   Operate                                   Negotiate
                                                                                                     & Maintain                              Contract
                                                     “Imagination • Innovation • Initiative”
FY02 United States Army Annual Financial Statement




                                  96
Civil Works — Performance Results
                                                                                           fy
                                                                                                02
                                                                                                 Civil Works Fund




Civil Works directly impacts America's prosperity, competitiveness, quality of
life, and environmental stability. Civil Works leaders accordingly have
developed a draft strategic plan to identify and answer the nation's water
resources needs. Research findings and input from the public, gained through      Civil Works directly
public listening sessions, have led us to identify the following five issues as
                                                                                   impacts America's
the main national water resource challenges facing the nation:
                                                                                           prosperity,
z Balancing demands for water resource development in terms of access to
                                                                                     competitiveness,
    and use of those resources and of the preservation of environmental quality
                                                                                       quality of life,
z Repairing damage to our environment from past development
                                                                                   and environmental
z Addressing the performance and safety implications of an aging water
                                                                                             stability.
    resources infrastructure

z Ensuring the capability to respond to natural disasters

z Minimizing the impact of institutional inhibitors on water resources
    decision-making and management


To address these challenges, we have developed the following five strategic
goals. Specific objectives associated with each goal enable the measurement
of our annual performance toward achievement of the strategic goal:

z Provide sustainable water resources development and integrated
    management of the nation's water resources

z Repair past environmental degradation and prevent future environmental
    losses

z Ensure that projects perform in a manner that meets authorized purposes
    and evolving conditions

z Reduce vulnerabilities and losses to the nation and the Army from natural
    and man-made disasters, including terrorism

z Be a world-class public engineering organization




                                                                                                            97
                                                                                                                      Strategic Goals
                                                                                                                      Strategic Goal 1: Provide Sustainable Development and
                                                                                                                      Integrated Management of the Nation's Water Resources
                                                                                                                      Through anticipating, identifying, and addressing water resources
                                                                                               Civil Works’ mission   infrastructure problems and needs the Army Corps of Engineers Civil Works
                                                                                                                      mission is able to enhance the nation's economic well-being. By maintaining
                                                                                               is able to enhance
                                                                                                                      coastal harbors and intercoastal waterways, Civil Works strengthens America's
                                                                                               the nation's           ability to export its products to the world and to move those products around
                                                                                               economic well-being.   the nation.
                                                                                                                      To continue to manage our water resources effectively and to maintain
                                                                                                                      waterway infrastructure, the Civil Works mission applies a consistent program
                                                                                                                      investment objective to the development and management of water resources
                                                                                                                      infrastructure. At the core of this objective are two guiding principles:

                                                                                                                      z Invest in the navigation program infrastructure when project benefits
                                                                                                                          exceed their costs.

                                                                                                                      z Invest in the flood and coastal storm damage reduction program
                                                                                                                          infrastructure when project benefits exceed their costs.


                                                                                                                      Performance Measure 1: For investments in navigation projects, the benefit-
                                                                                                                      to-cost ratio at the completion of project construction should at least equal the
                                                                                                                      benefit-to-cost ratio at the time of initial project funding. The performance
                                                                                                                      target for FY 2002 was to achieve a benefit-to-cost ratio at completion within
                                                     “Imagination • Innovation • Initiative”




                                                                                                                      10 percent of the initial benefit-to-cost ratio.


                                                                                                                      Performance Result 1: In FY 2002, two navigation construction projects
FY02 United States Army Annual Financial Statement




                                                                                                                      were completed. Both of the projects were completed with a benefit-to-cost
                                                                                                                      ratio exceeding the benefit-to-cost estimate used to justify initial project
                                                                                                                      construction funding.


                                                                                                                      Performance Measure 2: For investments in flood and coastal storm damage
                                                                                                                      reduction projects, the benefit-to-cost ratio at the completion of project
                                                                                                                      construction should at least equal the estimated benefit-to-cost ratio at the time
                                                                                                                      of initial project funding.


                                                                                                                      Performance Result 2: In FY 2002, seven flood damage reduction projects
                                                                                                                      were completed. Five of the seven projects were completed with a benefit-to-
                                  98
                                                                                                                      cost ratio that exceeded the estimate used to justify the initial project
construction funding. A sixth project was completed within 10 percent of the
                                                                                              fy
                                                                                                   02
                                                                                                    Civil Works Fund




estimate used to justify initial project construction funding. The seventh
project was completed with a benefit-to-cost ratio that fell short of the
performance target; the ratio achieved nonetheless was positive, thereby
validating the initial investment.


Strategic Goal 2: Repair Past Environmental Degradation and                            Civil Works must
Prevent Future Environmental Losses
                                                                                     anticipate, identify,
To accomplish the second strategic goal Civil Works must anticipate, identify,
and address the nation's needs for the environmental restoration and                    and address the
enhancement of its water resources. Civil Works will work with its partners,       nation's needs for the
including other Federal and state agencies, nongovernmental organizations,
                                                                                          environmental
and Native American tribes, to develop creative solutions that are both
effective and efficient, employing, where appropriate, leading-edge                      restoration and
technologies and methodologies.                                                      enhancement of its

Civil Works is pursuing the restoration of environmental damages and losses
                                                                                        water resources.
that resulted from past actions where it did not anticipate adequately or take
into account the environmental consequences of those actions. It plans to
exercise its authority to the fullest extent in support of the ecosystem
restoration portion of the Civil Works Program. In addition, it will support the
national commitment to wetlands embodied in the Clean Water Action Plan,
by adding to the nation's environmental resource base through restoration and
enhancement projects. It is working to ensure that there is no further net loss
of wetlands due to unwise development activity.


In addition, the Corps of Engineers has been given responsibility to execute an
environmental clean-up program of contaminated sites under the Formerly
Utilized Sites Remedial Action Program (FUSRAP). Accomplishment of the
clean-up program will result in the elimination of potential risks to health and
the environment at these high-priority sites.


Success in pursuit of this strategic goal is demonstrated through the
performance measures that have been developed for the Environmental and
Regulatory business programs.


Environmental
The Environmental business program emphasizes environmental stewardship,
                                                                                                               99
ecosystem restoration, mitigation, environmental compliance, and research
                                                                                               and development. The work undertaken by this program takes many forms,
                                                                                               reflecting the growing national demand for restoration and protection.


                                                                                               There are three program objectives in support of the strategic goals of the
                                                                                               Civil Works Environmental Program. These are as follows:

                                                                                               z Invest in mitigation and restoration projects or features to make a positive
                                                                                                   contribution to the nation's environmental resources.

                                                                                               z Invest in mitigation and restoration projects and in the operation of
                                                                                                   program facilities to assist in the recovery of federally listed threatened and
                                                                                                   endangered species.

                                                                                               z Ensure that the operation of all Civil Works facilities and management of
                                                                                                   associated lands, including out-granted areas, complies with the
                                                                                                   environmental requirements of the relevant Federal, state, and local laws
                                                                                                   and regulations.


                                                                                               Performance Measure 1: The percentage of Civil Works Environmental
                                                                                               Program-administered mitigation land meeting the requirements of the
                                                                                               authorizing legislation or of the relevant Corps of Engineers decision
                                                                                               document. The target for FY 2002 was to meet requirements for 80 percent of
                                                                                               mitigation lands. This measure is calculated as a percentage of all designated
                                                                                               program-administered mitigation land that meets mitigation requirements.
                                                     “Imagination • Innovation • Initiative”




                                                                                               Performance Result 1: During FY 2002, Civil Works administered 713,909
                                                                                               mitigation acres, representing a slight increase of less than 0.5 percent over the
                                                                                               acreage administered in FY 2001 that is statistically insignificant. This
FY02 United States Army Annual Financial Statement




                                                                                               measure applies only to project lands that remain in Corps of Engineers
                                                                                               ownership; it therefore reflects retained stewardship responsibility. Civil
                                                                                               Works is achieving mitigation requirements on 79 percent of lands designated
                                                                                               for mitigation, falling just short of the performance target of 80 percent. The
                                                                                               80 percent target was based on the experience gained with baseline
                                                                                               measurement and in linking performance levels to resourcing levels. For FY
                                                                                               2003, the performance target is being raised to 85 percent as a stretch goal. It
                                                                                               is a stretch goal because of the level of funding proposed for FY 2003 relative
                                                                                               to FY 2001 and 2002 appropriated funds.


                 100
Table 47. Civil Works-Administered Mitigation Land
                                                                                     02
                                                                                    fy   Civil Works Fund




                                     FY 2000         FY 2001        FY 2002

   Total acreage designated
   as Civil Works-administered
   mitigation land                   712,933         713,374         713,909

   Mitigation land for which
   requirements were met
   (acres)                           552,441         554,880         564,025

   Percentage of Civil Works-
   administered mitigation lands
   for which mitigation
   requirements were met                77%             78%                 79%



Performance Measure 2: The percentage in which Civil Works Stewardship
should be engaged in opportunities to participate in Recovery Plan efforts for
federally listed species. The performance target was raised in FY 2002 to not
less than 95 percent, based upon experience gained with baseline performance
measurement and the level of funding appropriated between FY 2001 and FY
2002.


Performance Result 2: The performance target was exceeded. During FY
2002, the Corps participated in recovery programs for 80 federally listed
species, engaging in 496 separate opportunities to benefit these species or their
habitat. A total of 288 Corps projects were involved.

Table 48. Recovery Plan Projects

                                     FY 2000         FY 2001         FY 2002

   Number of opportunities to
   participate in recovery of
   federally listed species              503             505                509

   Number of opportunities
   taken                                 470             491                496

   Percentage of opportunities
   taken to assist in the recovery
   of federally listed species           93%            97%                 97%



Performance Measure 3: To correct 100 percent of all significant findings
and 70 percent of all major findings annually. A significant finding is a
determination that we are not meeting an environmental requirement and that
the concern poses, or has a high likelihood of posing, a direct and immediate
threat to human health, safety, the environment, or the Civil Works mission.
The success rate of correcting significant and major findings is calculated                        101
annually.
                                                                                                                      Performance Result 3: During FY 2002, we corrected 7 of 10, or 70 percent,
                                                                                                                      of the significant findings, and 57 percent of major findings. The three
                                                                                                                      remaining significant findings have been corrected partially to eliminate the
                                                                                                                      immediate threat to the environment. The Corps anticipates total correction of
                                                                                                                      the three open significant finding in FY 2003 subject to funding availability.
                                                                                                                      The correction rate for major findings was lower than in the prior fiscal year.
                                                                                                                      The actual number of major findings increased because several large-scale
                                                                                                                      Corps facilities were inspected during FY 2002. The Corps continues to place
                                                                                                                      a high priority on achieving both performance goals in FY 2003.

                                                                                               Civil Works operates   Table 49. Correction of Significant and Major Environmental Findings

                                                                                               a comprehensive                                            FY 2000          FY 2001           FY 2002

                                                                                                                         Number of significant findings           5                3                 10
                                                                                               regulatory program        Percentage corrected                 80%               67%             70%
                                                                                               to protect the            Number of major findings              555              400              502
                                                                                                                         Percentage corrected                 70%               62%             57%
                                                                                               navigability of
                                                                                               waterways and the
                                                                                                                      Regulatory
                                                                                               aquatic environment.   Civil Works operates a comprehensive regulatory program to protect the
                                                                                                                      aquatic environment, primarily, but also the navigability of waterways from
                                                                                                                      overdevelopment. Management of this program has a related objective of
                                                                                                                      minimizing the time taken to process decisions on requests for permits to work
                                                                                                                      in the waters of the United States. The following program objectives have been
                                                                                                                      established to support the pursuit of the strategic goals of the Civil Works
                                                     “Imagination • Innovation • Initiative”




                                                                                                                      mission:

                                                                                                                      z Administer the regulatory program in a manner that protects the aquatic
                                                                                                                        environment.
FY02 United States Army Annual Financial Statement




                                                                                                                      z Administer the regulatory program in a manner that renders fair and
                                                                                                                        reasonable decisions for applicants.

                                                                                                                      z Administer the regulatory program in a manner that enables efficient
                                                                                                                        decision-making.


                                                                                                                      Performance Measure 1: Administer the regulatory program in a manner that
                                                                                                                      protects the aquatic environment. The performance target of Civil Works is to
                                                                                                                      realize no net loss of wetlands.


                                                                                                                      Performance Result 1: The performance target was met. During FY 2002,
                 102                                                                                                  57,821 acres of wetlands were restored, created, enhanced, or preserved,
                                                                                                                      offsetting the 24,651 acres that were lost to permitted development.
Table 50. Development and Mitigation of Wetlands
                                                                                    02
                                                                                   fy   Civil Works Fund




                                  FY 2000           FY 2001          FY 2002

   Wetland acres permitted
   for development                   18,900           24,073           24,651
   Wetland acres mitigated           44,757           43,832           57,821



Performance Measure 2: The number of all permit decisions completed
within 60 days, expressed as a percentage of all permit decisions. The target is
to complete 85 to 95 percent of all actions within 60 days.


Performance Result 2: During FY 2002, 71,652 permit actions, or 88 percent
of all permit actions, were completed in 60 days or less. While this figure
exceeds the performance target of 85 percent, it remains unchanged from last
year's performance and is below that of FY 2000, when 90 percent of all
permit actions were completed in 60 days. The districts are concentrating on
getting the Nationwide and General Permits authorized; this has helped to
stabilize overall processing times but is the cause of the downward trend in
enforcement and compliance efforts seen since FY 2000.

Table 51. Permit Actions Completed within 60 Days

                                  FY 2000           FY 2001          FY 2002

   Number of permit actions
   completed within 60 days          80,035           73,415           71,652

   Percentage of actions
   completed within 60 days            90%              88%              88%



Performance Measure 3: The number of standard permit decisions
completed within 120 days, expressed as a percentage of all standard permit
decisions. Standard permits are those for larger projects that require extensive
review. The performance target is to complete 70 to 80 percent of decisions on
standard permits within 120 days.


Performance Result 3: The performance target was not met. During FY
2002, 61 percent of all standard permit actions were completed in less than
120 days. Performance has remained relatively steady over the last three years
at between 60 percent and 62 percent. The districts are contending with permit
applications that are significantly more complex than in past years and that
involve lengthy analysis of their potential environmental impacts. Issues                         103
related to endangered species, historic properties, water quality, and coastal
                                                                                                                    resources also are adding to permit delays. Furthermore, the general public
                                                                                                                    and the environmental community are becoming much more aware of and
                                                                                                                    involved with the permit process, leading to increased numbers of comments
                                                                                                                    raised in response to every Public Notice and to a rising trend in legal
                                                                                                                    challenges.

                                                                                                                    Table 52. Standard Permit Actions Completed within 120 Days

                                                                                                                                                       FY 2000           FY 2001          FY 2002

                                                                                                                       Number of standard permit
                                                                                                                       actions completed within
                                                                                                                       120 days                           2,521             2,600              2,536

                                                                                                                       Percentage of actions
                                                                                                                       completed within 120 days            62%              60%                61%



                                                                                               The Civil Works      Strategic Goal 3: Ensure that Projects Perform in a Manner to
                                                                                                                    Meet Authorized Purposes and Evolving Conditions
                                                                                               Program goal is to
                                                                                                                    Civil Works customers, partners, and stakeholders expect delivery of the level
                                                                                               meet or exceed       of service that is designed into a project, and expect that high quality of
                                                                                               customer             service to continue even with changing demands on the project. This third
                                                                                                                    strategic goal was developed to ensure that the Civil Works Program continues
                                                                                               expectations.
                                                                                                                    to meet or exceed customer expectations. This requires particular attention to
                                                                                                                    the quality and performance of our projects, early recognition and analysis of
                                                                                                                    problems, and identification of cost-effective ways to prevent, lessen, or
                                                                                                                    correct any deficiencies.
                                                     “Imagination • Innovation • Initiative”




                                                                                                                    In addition, Civil Works recognizes that it must continue to provide facilities
                                                                                                                    that meet the needs of diverse and changing user groups. For projects to
                                                                                                                    deliver the requisite performance and service levels, they must serve the needs
FY02 United States Army Annual Financial Statement




                                                                                                                    of their users. Projects typically are designed to accomplish a particular
                                                                                                                    purpose for a specified life span. In order that they continue to meet the
                                                                                                                    changing needs of users, they may have to undergo design changes or may
                                                                                                                    need even to be rehabilitated or reconstructed in order to modernize their
                                                                                                                    functions.


                                                                                                                    The performances of the Navigation, Flood and Coastal Storm Damage
                                                                                                                    Prevention, Hydropower, Recreation, and Water Supply business programs
                                                                                                                    reflect the overall success of the Civil Works Program in achieving this
                                                                                                                    strategic goal. The performance of each business program is outlined in the
                 104
                                                                                                                    following sections.
Navigation
                                                                                    02
                                                                                   fy   Civil Works Fund




The responsibilities of the Navigation program include the improvement and
maintenance of port and harbor channels and of the inland waterways that
handle the nation's maritime commerce. The objective of the program is to
operate and manage the navigation infrastructure as to maintain consistent,
acceptable levels of service. One performance measure and two performance
indicators are used to gauge the successful pursuit of this objective. These are
as follows:

z The availability to commercial traffic of high use of navigation
     infrastructure (waterways, harbors, and channels).

z The volume of commerce and the operational cost of the fuel-taxed
     waterways component of the navigation system.

z The maintenance, through dredging, of safe and reliable harbors and
     channels.


Performance Measure: Percentage of time program facilities are open to
commercial traffic. The performance target is 90 percent availability.


Performance Result: During FY 2001, the availability of inland navigational
infrastructure decreased slightly by 2.5 percent to 93.5 percent. The
availability of the nations navigational infrastructure continues to exceed the
required availability of 90 percent.

Table 53. Availability of Navigational Infrastructure

    Performance Achieved                  FY 2000       FY 2001     FY 20021

    Actual availability                     96.0%        93.5%            N/A
Data not available at time of printing.
1




Performance Indicator 1: Monitor the volume of commerce and the
operational cost of the fuel-taxed waterways component of the navigation
system.


Performance Result 1: Data for calendar years 2000 and 2001 were not
available at the time of printing.



                                                                                                  105
                                                                                                                                      Table 54. Volume of Commerce and Operational Cost

                                                                                                                                                                                       FY 2000                 FY 20012       FY 20022

                                                                                                                                             Ton-miles of commerce
                                                                                                                                             carried (billions)1                               276                    N/A         N/A

                                                                                                                                             Cost per ton-mile                           $0.0018                      N/A         N/A
                                                                                                                                      1
                                                                                                                                          Ton-mile data are reported on a calendar basis. Costs are on a fiscal year basis.
                                                                                                                                      2
                                                                                                                                          Data was not available at time of printing.



                                                                                                                                      Performance Indicator 2: The need for dredging of harbors and channels is
                                                                                                                                      dependent largely upon acts of nature and factors beyond the control of man.
                                                                                                                                      Therefore, no performance target for the volume of material to be dredged has
                                                                                                                                      been established. The depth of material to be dredged and the disposal of
                                                                                                                                      dredged material are the two main factors influencing the cost of dredging.


                                                                                                                                      Performance Result 2: Based upon preliminary information, 218 million
                                                                                                                                      cubic yards of dredged material were removed for maintenance dredging
                                                                                                                                      during FY 2001 at a cost of $ 2.56 per cubic yard.

                                                                                                                                      Table 55. Volume and Cost of Material Dredged

                                                                                                                                                                                       FY 2000                 FY 2001        FY 20021

                                                                                                                                             Cubic yards removed
                                                                                                                                             (millions)                                        243                    218         N/A

                                                                                                                                             Cost per cubic yard                            $2.42                  $2.56          N/A

                                                                                                                                      Data not available at time of printing.
                                                                                                                                      1
                                                     “Imagination • Innovation • Initiative”




                                                                                                                                      Flood and Coastal Storm Damage Reduction
                                                                                                                                      There are two ways to reduce flood damage. The first calls for the use of
                                                                                                                                                             large-scale engineering projects to prevent floodwaters from
FY02 United States Army Annual Financial Statement




                                                                                                                                                             inundating property, and the second for the modification of
                                                                                                                                                             property susceptible to flooding, to minimize the risk of
                                                                                                                                                             damage. Civil Works projects usually use a combination of
                                                                                                                                                             approaches. The program objective is to operate and maintain
                                                                                                                                                             existing Federal infrastructure to ensure that designed levels of
                                                                                                                                                             protection are realized. A single measure is used to gauge
                                                                                                                                                             performance in this respect.


                                                                                                                                                             Performance Indicator: The performance of Civil Works
                                                                                                                                                             facilities in reducing damage where flooding otherwise would
                                                                                               Arial view of the Dworshak Dam on the North Fork of
                                                                                               the Clearwater River in northern Idaho.                       have been experienced.
                 106
Performance Result: During FY 2002, the Corps prevented $23.1 billion in
                                                                                     02
                                                                                    fy   Civil Works Fund




flood damage (preliminary estimate). This can be compared to the 10-year
rolling average of $22.8 billion that is used to smooth out the significant
fluctuations in year-to-year flood damage prevented that are associated with
variations in meteorological events.

Table 56. Flood Damages Prevented

        (Dollars in billions)           FY 2000     FY 2001          FY 20021

       Flood damage prevented                $2.8        $21             $23.1

       10-year rolling average            $20.8        $21.3             $22.8
1
    Preliminary estimate.



Hydropower
The Civil Works Program operates 345 hydroelectric power-generating units
at 75 multipurpose reservoirs, providing nearly a quarter of the nation's total
hydropower needs, enough energy to serve about ten million households.
Hydropower units can start quickly and adjust rapidly allowing them to serve
a primary role in meeting peak energy demands and energy reserve needs to
protect the national power system's reliability and stability. The electricity is
distributed by Federal power marketing agencies. To ensure that the Corps of
Engineers continues to serve this role, it has established an overall program
objective.


z Maintain reliable hydroelectric generation availability at Corps
  multipurpose reservoir projects.

Performance Measure: Maintain a high availability of hydroelectric power
generated at multipurpose reservoir projects. Our goal is to keep the forced
(unplanned) outage rate at less than 4.5 percent. The lower the forced outage
rate, the more reliable and the less expensive is the electricity service we
provide to our customers.


Performance Result: Data by calendar year is provided in Table 57.

Table 57. Hydroelectric Power Availability

                                        FY 2000      FY 2001          FY 2002

       Performance Target
       (% outage)                             4.5         4.5               4.5

       Actual availability (% outage)         3.7         2.3               3.7                    107
                                                                                               Value to the Nation Performance Indicators: In addition to measuring
                                                                                               system reliability, we also track operation system indicators that provide
                                                                                               valuable information and trends on system performance. The following
                                                                                               indicators are monitored: (1) kilowatt-hours generated to measure total power
                                                                                               generation and (2) cost per kilowatt-hour to measure generating efficiency.
                                                                                               Annual goals are not set for these indicators because power production is
                                                                                               dependent largely upon hydrologic conditions that cannot be managed.


                                                                                               Performance Result: During FY 2002, the Civil Works Program generated
                                                                                               68.1 billion kilowatt-hours, representing an increase of 17 percent from FY
                                                                                               2001 (within normal annual variations).

                                                                                               Table 58. Kilowatt Hours Generated

                                                                                                                                    FY 2000         FY 2001           FY 2002

                                                                                                  Kilowatt-hours generated
                                                                                                  (billions)                            74.1             57.9             68.1

                                                                                                  Cost per kilowatt-hour            $0.0030          $0.0038          $0.0034



                                                                                               Recreation
                                                                                               Most Federal lakes were built with a single primary purpose, and benefited
                                                                                               mainly the local population. Public needs and values have changed, however,
                                                                                               Civil Works has sought to serve the evolving public interest by adapting
                                                                                               reservoirs for multiple uses, provided there is sufficient legislative authority to
                                                     “Imagination • Innovation • Initiative”




                                                                                               do so. To support the broader strategic goals of the Civil Works Program and
                                                                                               to achieve maximum cost effectiveness in the provision of outdoor recreation
                                                                                               services, we have established the following program objectives:
FY02 United States Army Annual Financial Statement




                                                                                               z Provide outdoor recreation opportunities in an effective and efficient
                                                                                                   manner at Civil Works-operated water resource projects

                                                                                               z Provide outdoor recreation opportunities to meet the needs of present and
                                                                                                   future generations


                                                                                               Performance Indicator: Cost per visitor-day of providing outdoor recreation
                                                                                               facilities. The cost per visitor-day is determined by a number of variables.
                                                                                               While Civil Works is able to manage the cost of providing recreation facilities,
                                                                                               the number of visitors who use these facilities is governed in large part by
                                                                                               external factors, such as the weather and prevailing economic conditions.
                 108
                                                                                               Therefore, historically, no management performance target has been specified.
Performance Result: Preliminary estimates indicate the number of visitor-
                                                                                               fy
                                                                                                    02
                                                                                                     Civil Works Fund




days at outdoor recreation areas decreased from 217 million in FY 2001 to
210 million in FY 2002. This reduction was likely the result of prolonged
drought in the Southeastern region, where many lake projects had low water
levels the entire year. There was also flooding in the early spring in the
Southwestern region, resulting in facility damage and closure. Many of these
closed facilities remained unavailable for public use most of the summer
because funds were not available to repair or replace them. Preliminary
estimates indicate that cost per visitor-day increased to $1.37 due to reduced
visitation.

Table 59. Recreation Usage

                                   FY 2000          FY 2001             FY 2002

   Visitor-days (millions)               212             217                 210

   Cost per visitor-day                 $1.24          $1.24              $1.37



Water Supply                                                                             Every year Civil
Performance measures for this business program have not been fielded.
                                                                                         Works strives to
Strategic Goal 4: Reduce Vulnerabilities and Losses to the                             further reduce the
Nation and the Army from Natural and Man-Made Disasters,                             risks associated with
Including Terrorism                                                                       flooding and to
By developing and implementing new ways to reduce the risk of flood and
storm damage losses, the Civil Works Program is able to reduce potential
                                                                                              increase its
flood damage, saving our nation billions of dollars. Every year it strives to           responsiveness to
reduce further the risks associated with flooding and to increase its
                                                                                        natural disasters.
responsiveness to natural disasters. The Emergency Management business
program supports this strategic goal.


The Civil Works Program includes a disaster response and recovery program,
maintained by the Corps of Engineers under Public Law 84-99 and under the
Federal Response Plan in coordination with FEMA and others. Civil Works
response activities are intended to supplement state and local efforts. Disaster
preparedness and response capabilities are not limited to water-related disasters,
but draw on the engineering skills and management capabilities of the Corps to
encompass a broad range of natural disasters and national emergencies.

                                                                                                               109
Through its emergency preparedness planning and disaster response capability
                                                                                               Civil Works can make a significant and direct contribution to national security
                                                                                               objectives. Four program strategies support this fourth strategic goal. They are
                                                                                               as follows:

                                                                                               z Attain and maintain a high and consistent state of preparedness

                                                                                               z Provide a rapid, effective, and efficient all-hazards response capability,
                                                                                                   prepared for deployment anywhere worldwide

                                                                                               z Provide the leadership to ensure effective and efficient long-term crisis
                                                                                                   recovery, emphasizing recovery of the nation's water resources
                                                                                                   infrastructure

                                                                                               z Provide professional emergency management program services to
                                                                                                   international customers


                                                                                               Strategic Goal 5: Be a World-Class Public Engineering
                                                                                               Organization
                                                                                               A priority of the Corps of Engineers is to maintain a leading-edge technical
                                                                                               capability today and into the future. Ensuring the delivery of high-quality and
                                                                                               responsive engineering services to America and others requires a solid
                                                                                               foundation in a core set of technical skills. To that end, and in anticipation of
                                                                                               future requirements, Civil Works has begun to identify the range of expertise
                                                                                               within the Corps; it has begun also to identify those critical functions where
                                                                                               reserves of talent may be depleted through retirement and attrition. Civil
                                                     “Imagination • Innovation • Initiative”




                                                                                               Works maintains the world-class capabilities inherent in its laboratories
                                                                                               through capital investment, and it is engaging in research and development to
                                                                                               improve operational processes in order to better address the nation's water
                                                                                               resource problems and opportunities.
FY02 United States Army Annual Financial Statement




                                                                                               Civil Works will leverage core technical capabilities as appropriate by
                                                                                               providing engineering-related services to the Department of Defense agencies,
                                                                                               other federal agencies, and to other authorized entities through the Support for
                                                                                               Others business program. Overseas, it helps countries enhance their public
                                                                                               sector capacities, especially in the management of water to assist economic
                                                                                               development and protect their environments and ecosystems. By assisting
                                                                                               legitimate authorities to improve their infrastructure and environments and to
                                                                                               ease conditions that potentially can lead to conflict, Civil Works serves to
                                                                                               promote democracy, peace, and stability.
                 110
To be a world-class technical leader, it is imperative to seek continuous
                                                                                     02
                                                                                    fy   Civil Works Fund




improvement in the processes used to meet the customer, partner, and
stakeholder needs. The feedback provided by customers and project sponsors
is the best indication of how effective Civil Works is in meeting the
expectations for the quality, timeliness, and cost-effectiveness of its services.
Civil Works will continue to seek that feedback in order to strengthen overall
performance and to raise customers' satisfaction.




                                                                                                   111
                                                                                               Analysis of Financial Statements
                                                                                               Fiscal year (FY) 2002 witnessed another year of progress for the United States
                                                                                               Army Corps of Engineers (USACE) Civil Works Fund, as the Corps
                                                                                               continued to improve upon the myriad processes linked to producing auditable
                                                                                               financial statements in compliance with the Chief Financial Officers Act of
                                                                                               1990. Within the Department of Defense, the USACE Civil Works Fund has
                                                                                               been at the forefront in implementing Federal financial management reform.


                                                                                               The financial statements were compiled in accordance with guidance issued
                                                                                               by the Office of Management and Budget and supplementary guidance
                                                                                               provided by DoD. The DoD Office of the Inspector General audited the FY
                                                                                               2002 Consolidated Balance Sheet. The Civil Works Fund received a
                                                                                               disclaimer of opinion on the Balance Sheet, Statement of Net Cost, Statement
                                                                                               of Changes in Net Position, Statement of Budgetary Resources, and Statement
                                                                                               of Financing. In his letter to the Chief Financial Officer, the DoD Inspector
                                                                                               General made recommendations for improving internal controls and
                                                                                               promoting operating efficiencies. USACE management has initiated actions to
                                                                                               implement these recommendations.


                                                                                               The financial statements for the Civil Works Fund are presented in a
                                                                                               comparative format, providing financial information for FY 2001 and FY
                                                                                               2002. While comparative statements are not required until the agency
                                                                                               receives an unqualified audit opinion on its financial statements, we opted for
                                                     “Imagination • Innovation • Initiative”




                                                                                               early implementation of the requirement as is encouraged by the Office of
                                                                                               Management and Budget.
FY02 United States Army Annual Financial Statement




                                                                                               Below are the financial highlights of each statement. These highlights focus
                                                                                               on significant balances or conditions to help clarify the Civil Works Fund's
                                                                                               operations. Additional explanatory information may be found also in the
                                                                                               notes that accompany these statements.

                                                                                               Balance Sheet
                                                                                               This statement presents the assets, liabilities, and net position of the Civil
                                                                                               Works Fund as of September 30, 2001 and 2002. Civil Works assets
                                                                                               amounted to $43.2 billion at FY 2002 year-end, nearly a 5 percent increase
                                                                                               over the previous year. Of the total assets, 85 percent of the dollar value
                 112                                                                           resides in the property, plant, and equipment accounts. Relative to its total
assets, the Civil Works liabilities are quite low and amounted to        90000000
                                                                                                           fy
                                                                                                                   02
                                                                                                                    Civil Works Fund




$2.4 billion. The liabilities are related primarily to $882 million in                 $38,819,130
                                                                                                            $40,759,956

non-current liabilities, $680 million in accounts payable, and $388
million in accrued payroll. The $882 million in non-current              60000000

liabilities is part of $895.6 that was reclassified from deferred                      $2,372,408
                                                                                                             $2,442,153

credits to other liabilities for long-term water storage contracts in                                       $43,202,109
                                                                                       $41,191,538
accordance with DoD regulations.                                         30000000



The third major component of the balance sheet is net position. In
aggregate, the various elements of the net position section on the                0

balance sheet also are referred to as "equity." Equity is the                              FY 2001           FY 2002

residual interest in the assets of the entity that remains after          $ in thousands             Total Net Position
deducting its liabilities. For FY 2002, the Civil Works Fund net                                        Total Liabilities
                                                                                                           Total Assets
position amounted to $40.8 billion, representing almost a $2
billion, or 5 percent, increase over FY 2001.

Statement of Net Cost
This statement presents the annual cost of operating the various Civil Works
programs. To the extent a program generates revenues, these amounts offset
gross costs to arrive at the net cost of operations. For FY 2002, program costs
amounted to $4.4 billion, representing a 9 percent reduction from the previous
year. Conversely, program revenues increased 26 percent from FY 2001,
climbing to $738 million. Overall for FY 2002, the Civil Works Fund
achieved a 14 percent decrease in the net cost of operations, reducing net costs
to $3.7 billion — a $595 million reduction from the previous year.

Statement of Changes in Net Position
This statement presents those accounting items that caused the net position
section of the balance sheet to change from the beginning to the end of the
reporting period. The Civil Works Fund enjoyed a positive $2.1 billion net
result of operations. Contributing to this positive result was the $595 million
reduction in costs noted above. The Net Position at year-end was $39.7
billion, nearly a 6 percent increase from the previous year.

Statement of Budgetary Resources
This statement provides information on the Civil Works Fund's budgetary
financing accounts and the status or remaining balances of those accounts at
year-end. This includes information on obligation and outlays or actual cash
                                                                                                                              113
disbursements for the year.
                                                                                               Total budgetary resources increased by nearly 3 percent for FY 2002 to $11.9
                                                                                               billion. This increase was due primarily to a $351 million, or 9 percent,
                                                                                               increase in appropriations received. The Civil Works Fund incurred $10.2
                                                                                               billion in obligations during the year. Net outlays, actual cash disbursements
                                                                                               less any collections or offsetting receipts, amounted to $4.5 billion for the
                                                                                               year.

                                                                                               Statement of Financing
                                                                                               This is a reconciling statement that tracks the relationship between the
                                                                                               proprietary accounts and the budgetary accounts of the Civil Works Fund.
                                                                                               The Statement of Financing provides data on the total resources provided to
                                                                                               the Civil Works Fund during the fiscal year and how those resources were
                                                                                               used.


                                                                                               The first section of the statement, Resources Used to Finance Activities,
                                                                                               shows a total of $4.7 billion. This is the amount for which the Civil Works
                                                                                               Fund may have a future liability that eventually would require cash payments.
                                                                                               The second section, Resources Used to Finance Items Not Part of the Net
                                                                                               Costs of Operations, identifies and adjusts budgetary transactions recorded by
                                                                                               the Civil Works Fund for changes in the amount of goods, services and
                                                                                               benefits ordered but not received, the costs capitalized on the balance sheet,
                                                                                               and financing sources that fund costs of prior periods. For FY 2002, the fund
                                                                                               had a negative $1.5 billion in adjustments.
                                                     “Imagination • Innovation • Initiative”




                                                                                               The first two sections are netted together to yield the total resources used to
                                                                                               finance the net cost of operations. For FY 2002, total resources used
                                                                                               increased 3 percent over the previous year and amounted to approximately
FY02 United States Army Annual Financial Statement




                                                                                               $3.2 billion.


                                                                                               Finally, the third section, Components of the Net Cost of Operations that will
                                                                                               not Require or Generate Resources in the Current Period, is used to adjust the
                                                                                               total resources used to finance the net cost of operations (the net amount of the
                                                                                               first and second sections) in order to determine the net cost of operations.
                                                                                               Thus, sections one and two are reconciled with section three to yield a net cost
                                                                                               of operations of $3.7 billion. This amount ties back to the Statement of Net
                                                                                               Cost.

                 114
Management Integrity
                                                                                   02
                                                                                  fy   Civil Works Fund




The Civil Works Program has instituted the use of controls to assure the
integrity of its management systems. Two areas in which Civil Works leaders
continue to seek greater assurance of management integrity are:

Computer System Controls
In October 2000, the General Accounting Office identified a number of
systems control weaknesses at the data processing centers. These weaknesses
could allow either hackers or authorized users to modify, disclose, or destroy
financial data improperly. Corrective actions to support the assurance of data
security, including the reorganization of the Corps of Engineers and funding
increases, have been taken to correct these deficiencies. The corrections are
pending validation by the DoD Inspector General before this weakness can be
cleared.

Information Technology Capital Planning and
Investment Decision Process
The Clinger-Cohen Act of 1996 requires the institutionalization of an
information technology (IT) capital planning and investment process. This
process should integrate the methods for selecting, controlling, and evaluating
IT investments. The current process is fragmented, but the cornerstone policy
was put into effect on August 1, 2002, to establish a more integrated IT
investment management business process. During FY 2002, the Corps also
increased from 3 to 11 the number of its major IT business cases that are
visible to the Office of Management and Budget.




                                                                                                 115
                                                                                               Future Effects of Existing Conditions
                                                                                               The Marine Transportation System
                                                                                               The Marine Transportation System (MTS) consists of 1,000 harbor channels,
                                                                                               25,000 miles of inland, intra-coastal, and coastal waterways, and 235 lock
                                                                                               chambers. Work done to improve the inland waterways is estimated to yield
                                                                                               $5.5 billion in cost savings per year, and improvements to the deep-draft
                                                                                               navigation system are estimated to save a further $1.5 billion in transportation
                                                                                               costs annually.


                                                                                               The MTS is nearing capacity, however, and demands on it will grow
                                                                                               substantially with the projected growth of international and domestic trade
                                                                                               (trade is expected to double by 2020 to more than 4 billion tons of cargo
                                                                                               annually). This will put great pressure on the system. It also should be noted
                                                                                               that few American ports provide the 50-55 feet of depth needed by the latest
                                                                                               containerships. Many international ports, including Halifax and Vancouver in
                                                                                               Canada and Freeport in the Bahamas, already can accommodate such ships,
                                                                                               and it is essential that America match them. In preparing the necessary deep-
                                                                                               draft channels, Civil Works over the past decade has dredged an average of
                                                                                               275 million cubic yards of material per year. This work creates the additional
                                                                                               challenge of how to dispose of the dredged material in an economically and
                                                                                               environmentally acceptable manner.

                                                                                               Aging Infrastructure
                                                     “Imagination • Innovation • Initiative”




                                                                                               More than 44 percent of America's locks and dams are at least 50 years old
                                                                                               and many locks are now too small to accommodate comfortably modern
                                                                                               commercial barges. They already are carrying more tonnage than they were
FY02 United States Army Annual Financial Statement




                                                                                               designed to handle, and traffic is forecast to increase 30 percent by 2020.
                                                                                               Delays attributable to aged locks already amount to 550,000 hours per annum,
                                                                                               representing $385 million in increased operating costs. This is eroding
                                                                                               America's share of international markets— American farmers already have
                                                                                               lost 30 percent of their share of the European market for soybeans to Brazil
                                                                                               and Argentina, both of which have invested heavily in inland waterways to
                                                                                               reduce costs.


                                                                                               A lock modernization program has been underway since 1986, with $1.7
                                                                                               billion invested to date and an additional $3.4 billion programmed for
                 116                                                                           construction. This, however, is insufficient to support optimum construction
schedules, and completion dates for these projects have been set back by
                                                                                     02
                                                                                    fy   Civil Works Fund




between one and five years, considerably increasing costs.


These increasing costs come at a time when investment in water resources is
in sharp decline. In 1960, investments in all public infrastructure was 3.9
percent of the Federal budget. Today, that figure is 2.6 percent. Furthermore,
in 1960 water resources received 1.1 percent of all public infrastructure
investment; today, they receive 0.2 percent. This failure to adequately invest in
water infrastructure could pose a serious constraint to America's economic
development and competitive advantage in international trade.

Responding to Terrorist Threats
The events of September 11, 2001, changed the thinking about threat
management. Everything from drinking water sources to reservoirs and dams
now is viewed as a potential target for terrorists. Since the attacks on New
York and Washington, D.C., Civil Works has maintained a heightened state of
alertness as we seek to protect the nation's critical infrastructure of water
supply, waterborne commerce, and electric power generation.


Ensuring the security of this infrastructure will require investment in warning
and alert systems, in systems to detect and respond to chemical and biological
agents, in intelligence gathering and counter-terrorism measures, and in
emergency management systems. This requires investment in both technology
and people. It is essential to institute a program that will protect
comprehensively our water supply systems. Current estimates are that this will
cost $267 million for immediate improvements in the first year and $65
million annually thereafter.




                                                                                                   117
                                                                                               Advancing the President's Management
                                                                                               Agenda
                                                                                               Strategic Management of Human Capital
                                                                                               It is essential that Civil Works develop world-class technical expertise and
                                                                                               make the best possible use of its human resources. The Corps of Engineers
                                                                                               long has recognized the importance to its mission of its people, and as a result
                                                                                               the Civil Works Program always, through training and sustaining its
                                                                                               workforce, has sought to ensure that all mission-essential occupations are
                                                                                               staffed appropriately with skilled people.


                                                                                               Aligning the Workforce and Mission
                                                                                               All Civil Works employees must understand the mission of the program and
                                                                                               must understand how their work contributes to that mission. Each employee,
                                                                                               as part of the larger Corps of Engineers, receives a CD-ROM called the
                                                                                               CorpsPath. This provides an overview of the history, mission, and strategic
                                                                                               goals of the Corps and provides detailed information on Civil Works business
                                                                                               processes and on its strategy of knowledge management.


                                                                                               A Mission Essential Task List (METL) links the Civil Works mission to
                                                                                               performance measurement and enables identification of skill gaps in the
                                                                                               workforce. The Corps of Engineers is automating this process and is
                                                                                               producing a list of individual and organizational training requirements that,
                                                                                               through training, will align the workforce and mission. One Engineer Division
                                                     “Imagination • Innovation • Initiative”




                                                                                               has developed an Automated Training Management Program that is being
                                                                                               tested by two divisions to determine its feasibility for use as a corporate
                                                                                               system.
FY02 United States Army Annual Financial Statement




                                                                                               The Civil Works Program has a customer focus and has allocated its personnel
                                                                                               accordingly. As the program is in contact with its customers primarily at the
                                                                                               Engineer District level, 95 percent of the workforce is concentrated at district,
                                                                                               field office and resident offices. As part of an effort to improve service to the
                                                                                               public, 50 percent of supervisory positions have been eliminated since 1994 in
                                                                                               an effort to flatten the organization and increase the percentage of employees
                                                                                               directly engaging the customer.


                                                                                               Recruiting
                                                                                               The Corps of Engineers has more than 600 college students enrolled in
                 118                                                                           various intern programs, representing an increase from 1989 to 2001 of 400
percent. The Corps recognizes the need to develop a source of skilled young
                                                                                    02
                                                                                   fy   Civil Works Fund




people to replace an aging workforce. By exposing college students to the
work done by the Corps, it is believed that such a source can be developed
and thus address anticipated shortages in the workforce as baby boomers reach
retirement.


Training and Learning
To fill and also to limit the occurrence of future skill gaps, the Civil Works
Program must be a learning organization. Technology and business practices
are evolving continuously; the Corps of Engineers therefore has decided to
establish a learning network addressing the three areas of technical excellence,
business and communications, and leadership. This program will create a
vibrant knowledge management platform that will bring together discussion of
lessons learned, best practices, and knowledge management with training; that
will enable students to meet with subject matter experts; and that will enable
the development of communities of practice.

Competitive Sourcing
In concordance with the President's Management Agenda, Civil Works
recognizes that some of its employees likely are performing tasks that can be
outsourced readily to the commercial marketplace. Civil Works accordingly
has a plan to study 5,700 positions for possible outsourcing between FY 2003
and FY 2008. While this represents 37 percent of authorized Civil Works
commercial positions, it falls short of the President's goal of 50 percent. This
shortfall is explained partially by the fact that 58 percent of the Civil Works
workload already is accomplished by its industry partners.


A number of factors need to be considered when identifying the positions that
will be opened up for competition. Realization of the full value of outsourcing
requires that there be a large number of positions for conversion, that they be
of a notably commercial nature, and that they be geographically concentrated.
In addition, there is a need to keep a minimum number of Federal positions
for each staff function in order that oversight be retained in areas such as
financial management, public affairs, and others.


The cost of these studies is not insignificant. As such, some studies have been
postponed to the out-years to ensure that they can be funded properly and to
gain experience before conducting the more problematic studies. The plan and
                                                                                                  119
estimated costs are shown in Table 60.
                                                                                               Table 60. Competitive Sourcing Plan

                                                                                                                            FY03     FY04 FY05 FY06       FY07 FY08 Total

                                                                                                  Authorizations to be
                                                                                                  studied                   1,022    356 1,137 1,790 1,035       371     5,711

                                                                                                  Cost (in millions)         $2.6    $0.9   $2.8   $4.5   $2.6 $0.9      $14.3



                                                                                               Improved Financial Performance
                                                                                               The U.S. Army Corps of Engineers is recognized as a leader in the
                                                                                               Department of Defense in the area of financial management, and continues to
                                                                                               upgrade its financial management systems and tools. For example, the Corps
                                                                                               has developed a proprietary financial tool known as the Corps of Engineers
                                                                                               Financial Management System (CEFMS). Designed and built by the Corps
                                                                                               with the aid of external contractors, the system delivers a broad range of
                                                                                               functionality. It integrates financial management processes with internal
                                                                                               program and project management processes and provides automated linkage
                                                                                               to the Department of the Army, DoD, and the Office of Management and
                                                                                               Budget.


                                                                                               The Corps invested approximately $76 million in the development of CEFMS.
                                                                                               The process of implementing the system and gaining its acceptance among the
                                                                                               Corps family required a major cultural adjustment, but efforts in this regard
                                                                                               have proven extremely successful and CEFMS is a key component of
                                                                                               successful program execution and customer care. The system now serves as a
                                                     “Imagination • Innovation • Initiative”




                                                                                               measuring stick for new DoD financial management systems, and provided
                                                                                               the basis for development of the Defense Joint Accounting System.
FY02 United States Army Annual Financial Statement




                                                                                               In addition to implementing CEFMS, the Corps has undertaken the challenge
                                                                                               of complying with the full requirements of the Chief Financial Officers Act of
                                                                                               1990. With a fully integrated CEFMS and sound business practices, the Corps
                                                                                               is positioning itself to be one the first Army components to receive an
                                                                                               unqualified audit opinion.

                                                                                               Expanded Electronic Government
                                                                                               Rapidly advancing information technology has brought major changes to the
                                                                                               Civil Works Program's business processes, and in particular, has improved
                                                                                               vastly the program's internal and external communications.

                 120
Government to Citizen
                                                                                     02
                                                                                    fy   Civil Works Fund




Civil Works is an active proponent of the government's drive to reach out to
the public through the Internet. Using initiatives such as Recreation One-Stop
and Geospatial Information One-Stop, it is making access to information
about Civil Works services and programs easier for more Americans. In
partnership with the U.S. Forest Service, Civil Works also supports the
National Recreation Reservation System for the use of public lands and
facilities.
To simplify access to the rules governing use of Civil Works lands and
waterways, it has eliminated all hard-copy directives and publications
(approximately 1,000), placing them instead online in formats suitable for
viewing, downloading, and printing. Civil Works is responsible also for nine
public reports: an Internet capability for all public reporting transactions will
be in place by October 2003.


Under the Operations and Maintenance Business Information Link (OMBIL),
the regulatory permit process is being streamlined and integrated into a
transaction-based Web environment. Civil Works also is evaluating other
means for integrating various types of authorizations and licenses, with the
view to improving public access to them and reducing waiting times.


Government to Business
Civil Works is working to make it easier to do business with the federal
government. In partnership with the National Institute of Standards and
Technology and the General Accounting Office, it is working to define the
requirements for a public key-based electronic signature capability to replace
the proprietary electronic signature capability that currently is used.


As a long-time promoter of electronic bid set capability, Civil Works is a full
participant in the Web-based Tri-Service Solicitation Network, which links the
public to a full array of bid solicitations. Civil Works is DoD's Executive
Agent for the Architect-Engineer (A-E) Contractor Administrative Support
System and the Construction Contractor Appraisal Support System. These
systems manage A-E and construction contractor performance evaluations.


Government to Government (G2G)
The sharing of information among Federal, state, local, and tribal governments
and the full integration of that information will contribute to better
government for all Americans. The Comprehensive Everglades Restoration                             121
                                                                                               Program, a partnership of the Civil Works Program with the South Florida
                                                                                               Water Management District, is a prime example of interagency and special
                                                                                               interest group electronic data sharing through a significant Internet presence
                                                                                               (www.evergladesplan.org). Another example, the ENGLink automated system,
                                                                                               is the primary integrator of multi-jurisdictional (local, state, and Federal) data
                                                                                               for the support of emergency operations. ENGLink provides real-time,
                                                                                               accurate information in the event of a disaster, helping to support collaborative
                                                                                               response planning among what may be widely dispersed assets.


                                                                                               OMBIL and the Corps Water Management System aggregate, integrate, and
                                                                                               disseminate multiple sources of data in support of hydropower, navigation,
                                                                                               environmental stewardship, and flood reduction missions that impact local,
                                                                                               regional, state, and national interests. The Project Management Business
                                                                                               Process (PMBP) Program, which will see the development of a one-stop
                                                                                               portal enabling customers and stakeholders to access project status
                                                                                               information, additionally is significant in terms of advancing the Corps' G2G
                                                                                               services.


                                                                                               Internal Efficiency and Effectiveness
                                                                                               The PMBP program is a significant initiative to streamline the business
                                                                                               processes associated with program and project management. It also will
                                                                                               support the adoption of best business practices in the delivery of projects to
                                                                                               local, state, regional, Federal, and international customers and will facilitate
                                                                                               agency budget and performance integration. At the heart of this business
                                                     “Imagination • Innovation • Initiative”




                                                                                               reengineering effort are the adoption of commercial-off-the-shelf software, the
                                                                                               integration and streamlining of legacy automated systems, and the termination
                                                                                               of several stand-alone applications.
FY02 United States Army Annual Financial Statement




                                                                                               The PMBP program also will impact the restructuring of CorpsWeb, the
                                                                                               Corps' Internet and intranet presence. The objective of this restructuring is to
                                                                                               improve usability and access to information; to develop further functionally
                                                                                               driven, electronic data marts and information repositories; to enhance
                                                                                               electronic document and records management capabilities; to establish
                                                                                               common scientific and research technology development and delivery
                                                                                               strategies, based on product lines and supported by a Web-based delivery
                                                                                               framework; and to enhance a common electronic workplace environment that
                                                                                               promotes Regional Business Centers, virtual teaming, personalization, and the
                 122                                                                           strategic management of human capital.
Budget and Performance Integration
                                                                                      02
                                                                                     fy   Civil Works Fund




The President's objective to link performance and budget builds on the
Government Performance and Results Act of 1993 and earlier efforts to
identify program goals and performance measures and to link them to the
budget. The FY 2003 President's Budget was the first to include explicit
assessments of program performance and a performance-linked budget
assessment of three Civil Works business programs: Navigation, Flood and
Coastal Storm Damage Reduction, and Environmental Restoration. For the FY
2004 budget, Civil Works is working to link more of its budget development
to performance measures and is developing new performance measures to
further this linkage. Progress in implementing this initiative will be reported in
the FY 2003 and FY 2004 financial statements.




                                                                                                    123
             FY02 United States Army Annual Financial Statement
“Imagination • Innovation • Initiative”
                                                                  Limitations of the Financial Statements                    125

                                                                  Limitations Concerning National Defense PP&E Stewardship   126

                                                                  General Fund                                               127
                                                                  Principal Statements                                       127
                                                                  Notes to the Principal Financial Statements                135
                                                                  Supporting Consolidating/Combining Statements              201
                                                                  Required Supplementary Stewardship Information             208
                                                                  Required Supplementary Information                         220
                                                                  Audit Opinion                                              229


                                                                  Army Working Capital Fund                                  237
                                                                  Principal Statements                                       237
                                                                  Notes to the Principal Financial Statements                243
                                                                  Supporting Consolidating/Combining Statements              278
                                                                  Required Supplementary Information                         298
                                                                  Audit Opinion                                              303


                                                                  Civil Works Fund                                           311
                                                                  Principal Statements                                       311
                                                                  Notes to the Principal Financial Statements                317
                                                                  Supporting Consolidating/Combining Statements              349
                                                                  Required Supplementary Stewardship Information             373
                                                                  Required Supplementary Information                         375
                                                                  Audit Opinion                                              381
Principal Statements and Notes




Limitations
Limitations of the Financial Statements
The financial statements have been prepared to report the financial position
and results of operations for the entity, pursuant to the requirements of Title
31, United States Code, section 3515(b).


While the statements have been prepared from the books and records of the
entity, in accordance with the formats prescribed by the Office of Management
and Budget, the statements are in addition to the financial reports used to
monitor and control budgetary resources which are prepared from the same
books and records.


To the extent possible, the financial statements have been prepared in




                                                                                   02
                                                                                  fy
accordance with federal accounting standards. At times, the Department is
unable to implement all elements of the standards due to financial
management systems’ limitations. The Department continues to implement
                                                                                        125
system improvements to address these limitations. There are other instances
                                                                    when the Department's application of the accounting standards is different from the auditor's application of the
                                                                    standards. In those situations, the Department has reviewed the intent of the standard and applied it in a manner
                                                                    that management believes fulfills that intent.


                                                                    The statements should be read with the realization that they are for a component of the United States
                                                                    Government, a sovereign entity. One implication of this is that the liabilities cannot be liquidated without
                                                                    legislation that provides resources to do so.

                                                                    Limitations Concerning National Defense PP&E Stewardship
                                                                    As of the date these statements were prepared, the Federal Accounting Standards Advisory Board (FASAB) had
                                                                    not determined the final reporting requirements for ND PP&E. The Department cannot comply fully with existing
                                                                    reporting requirements, because many of the Department's accountability and logistics systems do not contain the
                                                                    cost of the ND PP&E assets. These systems were designed for the purpose of maintaining accountability and
                                                                    meeting other logistics requirements and not for capturing the cost of ND PP&E.


                                                                    Given the complexity of the existing temporary reporting requirements, the enormous cost of implementing the
                                                                    temporary requirements and their temporary nature, the Department is suspending the reporting of ND PP&E
                                                                    information until such time as the FASAB adopts permanent reporting requirements.
FY02 United States Army Annual Financial Statement
                                                     General Fund




                 126
                                                                                      Consolidated Balance Sheet
                                                                               Department of Defense • Department of the Army
                                                                           As of September 30, 2002 and 2001 ($ in thousands)


1. ASSETS (Note 2)                                                    FY 2002                 FY 2001                 Restated
                                                                                                                       FY 2001
     A. Intragovernmental:
        1. Fund Balance with Treasury (Note 3)                 $39,510,523             $37,351,036             $37,351,036
        2. Investments (Note 4)                                       5,240                  3,193                   3,193
        3. Accounts Receivable (Note 5)                             452,597                727,509                 727,509
        4. Other Assets (Note 6)                                    209,114                 61,560                  61,560
        5. Total Intragovernmental Assets                       $40,177,474            $38,143,298             $38,143,298
     B. Cash and Other Monetary Assets (Note 7)                    $301,747               $168,401                 168,401
     C. Accounts Receivable (Note 5)                                568,088                362,702                 362,702
     D. Loans Receivable (Note 8)                                         0                      0                       0
     E. Inventory and Related Property (Note 9)                  27,259,422             34,543,535              27,429,322
     F. General Property, Plant and Equipment (Note 10)         18,700,626              17,621,538              17,621,538
     G. Other Assets (Note 6)                                     3,582,796              3,726,647               3,726,647

2. TOTAL ASSETS                                                $90,590,153             $94,566,121              $87,451,908

3. LIABILITIES (Note 11)
     A.   Intragovernmental:
          1. Accounts Payable (Note 12)                           $774,545                $874,432                 $874,432
          2. Debt (Note 13)                                            157                     108                      108
          3. Environmental Liabilities (Note 14)                         0                       0                        0
          4. Other Liabilities (Notes 15 and 16)                   876,404                 658,664                  658,664
          5. Total Intragovernmental Liabilities                $1,651,106              $1,533,204               $1,533,204
     B.   Accounts Payable (Note 12)                            $5,967,178              $6,698,778               $6,698,778
     C.   Military Retirement Benefits and Other Employment-
          Related Actuarial Liabilities (Note 17)                1,624,557               1,646,526                1,646,526
     D.   Environmental Liabilities (Note 14)                   35,078,280              40,071,084               40,071,084
     E.   Loan Guarantee Liability (Note 8)                            730                       0                        0
     F.   Other Liabilities (Notes 15 and 16)                    9,008,744               6,944,358                6,944,358

4. TOTAL LIABILITIES                                           $53,330,595             $56,893,950             $56,893,950

5. NET POSITION
     A.   Unexpended Appropriations (Note 18)                  $31,468,721             $28,895,571             $28,895,571
     B.   Cumulative Results of Operations                       5,790,837               8,776,600               1,662,387

6. TOTAL NET POSITION                                          $37,259,558              $37,672,171             $30,557,958

7.   TOTAL LIABILITIES AND NET POSITION                        $90,590,153             $94,566,121              $87,451,908




     See Note 1 and Note 2.


                                                                                                                                   02
                                                                                                                                  fy

                                                                                                                                   127

                                                               The accompanying notes are an integral part of these statements.
                                                                        Consolidated Statement of Net Cost
                                                                                     Department of Defense • Department of the Army
                                                                                     For the years ended September 30, 2002 and 2001 ($ in thousands)


                                                                                     1. Program Costs                                                        FY 2002         FY 2001

                                                                                          A.    Intragovernmental Gross Costs                           $19,042,297    $13,453,124
                                                                                          B.    (Less: Intragovernmental Earned Revenue)                 (5,531,194)     (5,310,110)
                                                                                          C.    Intragovernmental Net Costs                             $13,511,103      $8,143,014
                                                                                          D.    Gross Costs With the Public                             $67,293,314    $70,311,934
                                                                                          E.    (Less: Earned Revenue From the Public)                     (784,708)    (1,028,865)
                                                                                          F.    Net Costs With the Public                               $66,508,606    $69,283,069
                                                                                          G.    Total Net Cost                                          $80,019,709    $77,426,083

                                                                                     2. Cost Not Assigned to Programs                                             0               0

                                                                                     3. (Less:Earned Revenue Not Attributable to Programs)                        0               0

                                                                                     4. Net Cost of Operations                                          $80,019,709    $77,426,083
   The accompanying notes are an integral part of these statements.




                                                                                          See Note 1 and Note 19.
FY02 United States Army Annual Financial Statement
                                                                      General Fund




                    128
                                                        Consolidated Statement of Changes in Net Position
                                                                                 Department of Defense • Department of the Army
                                                               For the years ended September 30, 2002 and 2001 ($ in thousands)

                                                             Cumulative Results             Unexpended          Cumulative Results
                                                                 of Operations            Appropriations            of Operations
                                                                          2002                     2002                      2001
1. Beginning Balances                                            $8,776,600              $28,895,571                  $628,191

2. Prior period adjustments (+/-)                                 (7,114,213)                         0             (6,556,243)

3. Beginning Balances, as adjusted                               $1,662,387              $28,895,571              ($5,928,052)

4. Budgetary Financing Sources:
    4.A. Appropriations received                                          0               80,338,428                         0
    4.B. Appropriations transferred-in/out (+/-)                          0                4,903,508                         0
    4.C. Other adjustments (rescissions, etc) (+/-)                       0                 (114,845)                        0
    4.D. Appropriations used                                     82,553,941             (82,553,941)                73,855,867
    4.E. Nonexchange revenue                                        205,583                         0                  209,595
    4.F. Donations and forfeitures of cash and cash
         equivalents                                                       0                          0                       0
    4.G. Transfers-in/out without reimbursement (+/-)                      0                          0                       0
    4.H. Other budgetary financing sources (+/-)                     743,531                          0              17,161,699

5. Other Financing Sources:
    5.A. Donations and forfeitures of property                             0                          0                       0
    5.B. Transfers-in/out without reimbursement (+/-)               (43,155)                          0                 161,985
    5.C. Imputed financing from costs absorbed by others            688,259                           0                 741,589
    5.D. Other (+/-)                                                       0                          0                       0

6. Total Financing Sources                                     $84,148,159                $2,573,150               $92,130,735

7   Net Cost of Operations (+/-)                                 80,019,709                           0             77,426,083

8. Ending Balances                                               $5,790,837              $31,468,721                $8,776,600




    See Note 1 and Note 20.




                                                                                                                                      02
                                                                                                                                     fy

                                                                                                                                      129

                                                                  The accompanying notes are an integral part of these statements.
                                                                        Consolidated Statement of Changes in Net Position
                                                                                     Department of Defense • Department of the Army
                                                                                     For the years ended September 30, 2002 and 2001 ($ in thousands)

                                                                                                                                                           Unexpended               Restated
                                                                                                                                                         Appropriations   Cumulative Results   Restated Unexpended
                                                                                                                                                                  2001    of Operations 2001    Appropriations 2001
                                                                                     1. Beginning Balances                                              $25,887,329             $628,191            $25,887,329

                                                                                     2. Prior period adjustments (+/-)                                               0      (13,670,456)                         0

                                                                                     3. Beginning Balances, as adjusted                                 $25,887,329       ($13,042,262)             $25,887,329

                                                                                     4. Budgetary Financing Sources:
                                                                                          4.A. Appropriations received                                    3,008,242                    0              3,008,242
                                                                                          4.B. Appropriations transferred-in/out (+/-)                            0                    0                      0
                                                                                          4.C. Other adjustments (rescissions, etc) (+/-)                         0                    0                      0
                                                                                          4.D. Appropriations used                                                0           73,855,867                      0
                                                                                          4.E. Nonexchange revenue                                                0              209,595                      0
                                                                                          4.F. Donations and forfeitures of cash and cash
                                                                                               equivalents                                                           0                  0                        0
   The accompanying notes are an integral part of these statements.




                                                                                          4.G. Transfers-in/out without reimbursement (+/-)                          0         17,161,699                        0
                                                                                          4.H. Other budgetary financing sources (+/-)                               0         17,161,699                        0

                                                                                     5. Other Financing Sources:
                                                                                          5.A. Donations and forfeitures of property                                 0                  0                        0
                                                                                          5.B. Transfers-in/out without reimbursement (+/-)                          0            161,985                        0
                                                                                          5.C. Imputed financing from costs absorbed by others                       0            741,589                        0
                                                                                          5.D. Other (+/-)                                                           0                  0                        0

                                                                                     6. Total Financing Sources                                          $3,008,242         $92,130,735              $3,008,242

                                                                                     7    Net Cost of Operations (+/-)                                               0        77,426,083                         0

                                                                                     8. Ending Balances                                                 $28,895,571           $1,662,387           $28,895,571
FY02 United States Army Annual Financial Statement




                                                                                          See Note 1 and Note 20.
                                                                      General Fund




                    130
                                                                 Combined Statement of Budgetary Resources
                                                                                       Department of Defense • Department of the Army
                                                                     For the years ended September 30, 2002 and 2001 ($ in thousands)


     BUDGETARY RESOURCES                                      2002                2002                     2001                  2001
                                                         Budgetary       Non-Budgetary                Budgetary         Non-Budgetary
                                                         Financing           Financing                Financing             Financing
                                                          Accounts            Accounts                 Accounts              Accounts
1. Budget Authority:
     1a.   Appropriations received                    $81,067,276                    $0           $74,232,106                      $0
     1b.   Borrowing authority                                  0                     0                      0                      0
     1c.   Contract authority                                   0                     0                      0                      0
     1d.   Net transfers (+/-)                          5,290,599                     0              2,112,116                      0
     1e.   Other                                                0                     0                      0                      0

2. Unobligated balance:
     2a. Beginning of period                            5,701,789                   691             5,970,023                        0
     2b. Net transfers, actual (+/-)                      408,970                     0               869,646                        0
     2c. Anticipated Transfers Balance                          0                     0                     0                        0

3. Spending authority from offsetting
   collections:
     3a. Earned
         1. Collected                                  12,012,602                    39            11,631,079                        0
         2. Receivable from Federal sources             (146,322)                     0             (125,384)                        0
     3b. Change in unfilled customer orders
         1. Advance received                                87,119                     0             (106,160)                       0
         2. Without advance from Federal                1,164,785                      0             (183,369)                       0
                   sources
     3c. Anticipated for the rest of year, without              0                      0                       0                     0
         advances
     3d. Transfers from trust funds                             0                     0                     0                       0
     3e. Subtotal                                     $13,118,184                   $39           $11,216,166                      $0

4. Recoveries of prior year obligations                 8,287,368                      0           10,706,763                        0

5. Temporarily not available pursuant to                        0                      0                       0                     0
   Public Law

6. Permanently not available                          (1,569,179)                      0          (1,039,579)                        0

7.   Total Budgetary Resources                       $112,305,007                 $730          $104,067,241                       $0




     See Note 1 and Note 21.




                                                                                                                                           02
                                                                                                                                          fy

                                                                                                                                           131

                                                                       The accompanying notes are an integral part of these statements.
                                                                        Combined Statement of Budgetary Resources
                                                                                     Department of Defense • Department of the Army
                                                                                     For the years ended September 30, 2002 and 2001 ($ in thousands)


                                                                                     STATUS OF BUDGETARY RESOURCES                                       2002            2002            2001            2001
                                                                                                                                                    Budgetary   Non-Budgetary       Budgetary   Non-Budgetary
                                                                                                                                                    Financing       Financing       Financing       Financing
                                                                                                                                                     Accounts        Accounts        Accounts        Accounts
                                                                                     8. Obligations incurred:
                                                                                          8a. Direct                                            $91,731,863               $0    $84,262,609               $0
                                                                                          8b. Reimbursable                                       14,715,031                0     14,102,151                0
                                                                                          8c. Subtotal                                         $106,446,894               $0    $98,364,760               $0

                                                                                     9. Unobligated balance:
                                                                                          9a. Apportioned                                          4,788,478             730       4,494,010               0
                                                                                          9b. Exempt from apportionment                                    0               0               0               0
                                                                                          9c. Other available                                              2               0               1               0

                                                                                     10. Unobligated Balances Not                                  1,069,633               0      1,208,470                0
                                                                                         Available

                                                                                     11. Total, Status of Budgetary                            $112,305,007            $730     $104,067,241              $0
   The accompanying notes are an integral part of these statements.




                                                                                         Resources

                                                                                     RELATIONSHIP OF OBLIGATIONS TO
                                                                                     OUTLAYS:

                                                                                     12. Obligated Balance, Net – beginning                     $31,626,562               $0    $28,485,816               $0
                                                                                         of period

                                                                                     13. Obligated Balance transferred, net (+/-)                          0               0               0               0

                                                                                     14. Obligated Balance, Net – end of
                                                                                         period:
                                                                                          14a. Accounts receivable                                (1,467,731)              0     (1,614,053)               0
                                                                                          14b. Unfilled customer order from Federal               (7,161,002)              0     (5,996,218)               0
                                                                                               sources
                                                                                          14c. Undelivered orders                                 30,611,343               0     28,696,740                0
                                                                                          14d. Accounts payable                                   11,679,657               0     10,540,092                0
FY02 United States Army Annual Financial Statement




                                                                                     15. Outlays:
                                                                                          15a. Disbursements                                      95,105,359               0     84,826,003                0
                                                                                          15b. Collections                                      (12,099,721)            (39)    (11,524,919)               0
                                                                                          15c. Subtotal                                         $83,005,638            ($39)    $73,301,084               $0

                                                                                     16. Less: Offsetting receipts                                 (184,839)               0               0               0
                                                                      General Fund




                                                                                     17. Net Outlays                                            $82,820,799            ($39)    $73,301,084               $0




                                                                                          See Note 1 and Note 21.
                    132
                                                                                     Combined Statement of Financing
                                                                                       Department of Defense • Department of the Army
                                                                     For the years ended September 30, 2002 and 2001 ($ in thousands)


Resources Used to Finance Activities:                                                        2002                                 2001


Budgetary Resources Obligated
    1.    Obligations incurred                                                   $106,446,894                            98,364,761
    2.    Less: Spending authority from offsetting collections and
          recoveries (-)                                                          (21,405,591)                         (21,922,930)
    3.    Obligations net of offsetting collections and recoveries                $85,041,303                          $76,441,831
    4.    Less: Offsetting receipts (-)                                              (184,839)                                    0
    5.    Net obligations                                                         $84,856,464                          $76,441,831

Other Resources
    6.    Donations and forfeitures of property                                              0                                    0
    7.    Transfers in/out without reimbursement (+/-)                                       0                                    0
    8.    Imputed financing from costs absorbed by others                              688,259                              741,589
    9.    Other (+/-)                                                                        0                                    0
    10.   Net other resources used to finance activities                              $688,259                             $741,589

11. Total resources used to finance activities                                    $85,544,723                           $77,183,420

Resources Used to Finance Items not Part of the Net
Cost of Operations
    12. Change in budgetary resources obligated for goods,
        services and benefits ordered but not yet provided
        Undelivered Orders (-)                                                      (2,138,888)                          (1,693,599)
        Unfilled Customer Orders                                                     1,251,904                             (289,528)
    13. Resources that fund expenses recognized in prior periods                    (5,656,745)                            (103,514)
    14. Budgetary offsetting collections and receipts that do not
        affect net cost of operations                                                         0                                    0
    15. Resources that finance the acquisition of assets                              (152,239)                          (3,730,946)
    16. Other resources or adjustments to net obligated
        resources that do not affect net cost of operations
        Less: Trust or Special Fund Receipts Related to
             Exchange in the Entity's Budget (-)                                                0                                    0
        Other (+/-)                                                                             0                                    0

17. Total resources used to finance items not part of
    the net cost of operations                                                    ($6,695,968)                          ($5,817,587)

18. Total resources used to finance the net cost of
    operations                                                                    $78,848,755                          $71,365,833




    See Note 1 and Note 22.

                                                                                                                                           02
                                                                                                                                          fy

                                                                                                                                           133

                                                                       The accompanying notes are an integral part of these statements.
                                                                        Combined Statement of Financing
                                                                                     Department of Defense • Department of the Army
                                                                                     For the years ended September 30, 2002 and 2001 ($ in thousands)


                                                                                     Components of the Net Cost of Operations that will not                    2002          2001
                                                                                     Require or Generate Resources in the Current Period:

                                                                                     Components Requiring or Generating Resources in
                                                                                     Future Periods:
                                                                                          19. Increase in annual leave liability                          $276,719            $0
                                                                                          20. Increase in environmental and disposal liability                   0             0
                                                                                          21. Upward/Downward reestimates of credit subsidy expense
                                                                                              (+/-)                                                              0             0
                                                                                          22. Increase in exchange revenue receivable from the
                                                                                              public (-)                                                         0              0
                                                                                          23. Other (+/-)                                                1,486,858      2,961,119
                                                                                          24. Total components of Net Cost of Operations that will
                                                                                              require or generate resources in future periods           $1,763,577     $2,961,119

                                                                                     Components not Requiring or Generating Resources:
   The accompanying notes are an integral part of these statements.




                                                                                          25.   Depreciation and amortization                               596,779      782,618
                                                                                          26.   Revaluation of assets or liabilities (+/-)              (1,793,293)             0
                                                                                          27.   Other (+/-)                                                 603,891       (1,901)
                                                                                          28.   Total components of Net Cost of Operations that
                                                                                                will not require or generate resources                   ($592,623)     $780,717

                                                                                     29. Total components of net cost of operations
                                                                                         that will not require or generate resources in
                                                                                         the current period                                             $1,170,954    $3,741,836

                                                                                     30. Net Cost of Operations                                         $80,019,709   $75,107,669




                                                                                          See Note 1 and Note 22.
FY02 United States Army Annual Financial Statement
                                                                      General Fund




                    134
                                                                               Notes to Principal Statements



Notes to the Principal Financial Statements
Note 1.         Significant Accounting Policies
A. Basis of Presentation
   These financial statements have been prepared to report the financial position and results of operations of the
   Department of Army, as required by the "Chief Financial Officers Act of 1990," expanded by the
   "Government Management Reform Act of 1994," and other appropriate legislation. The financial statements
   have been prepared from the books and records of the Army in accordance with the "DoD Financial
   Management Regulation," OMB Bulletin No. 01-09, "Form and Content of Agency Financial Statements,"
   and to the extent possible Federal GAAP. The accompanying financial statements account for all resources
   for which the Army is responsible except that information relative to classified assets, programs, and
   operations has been excluded from the statement or otherwise aggregated and reported in such a manner that
   it is no longer classified. The Army's financial statements are in addition to the financial reports also
   prepared by the DoD pursuant to OMB directives that are used to monitor and control the Army's use of
   budgetary resources.

   The Army is unable to fully implement all elements of Federal GAAP and OMB Bulletin No. 01-09 due to
   limitations of its financial and nonfinancial management processes and systems. The Army derives its
   reported values and information for major asset and liability categories largely from non-financial feeder
   systems, such as inventory systems and logistic systems. These were designed to support reporting
   requirements focusing on maintaining accountability over assets and reporting the status of federal
   appropriations rather than preparing financial statements in accordance with Federal GAAP. As a result, the
   Army currently cannot implement every aspect of Federal GAAP and OMB Bulletin No. 01-09. The Army
   continues to implement process and system improvements addressing the limitations of its financial and
   nonfinancial feeder systems. Further explanation of these financial statement elements is included in the
   applicable footnote.

B. Mission of the Army
   The overall mission of the Army is to organize, train, and equip armed forces to deter aggression and, if
   necessary, defeat aggressors of the United States and its allies. It is no longer a world in which two hostile
   superpowers face each other. It is our nation's force of decision-a full spectrum force-trained and ready to
   respond to a wide range of crises, from fighting and winning major theater wars, to peacekeeping, to
   humanitarian relief missions and to disaster relief in communities as home.

   The primary mission of the Army remains constant: to fight and win the nation's wars. In an uncertain world,
   the Army performs a wide variety of other missions around the world and at home including deterring
   potential adversaries, reassuring and lending stability to allies and supporting our communities in times of
   emergency; preserving the peace and security, supporting national policies, and implementing national
   objects. In addition to its military operations, the Army is deployed frequently, both at home and abroad, in
   response to natural disasters. Nationally, the Army provides substantial support to relief operations
   associated with storms, tornados, and hurricanes. The Army also provides support and relief assistance
   abroad. Whatever the mission, committing the Army commits the Nation.
                                                                                                                      02
                                                                                                                     fy

                                                                                                                          135
                                                                       Fiscal Year (FY) 2003 is the seventh year that the Army has prepared audited Financial Statements required
                                                                       by the Chief Financial Officers (CFO) Act of 1990, Government Management Reform Act (GMRA) of 1994,
                                                                       and Federal Financial Management Improvement Act of 1996. The purpose of the CFO Act was to bring
                                                                       more effective general and financial management practices to the Federal Government through statutory
                                                                       provisions; provide for improvement of systems of accounting, financial management, and internal controls;
                                                                       and provide for the production of complete, reliable, timely, and consistent financial information. The
                                                                       GMRA Act extended the CFO Act to all activities of all Executive Branch agencies. The FFMIA Act
                                                                       expanded report requirements under the CFO Act. The reporting entities within the Army changed to
                                                                       facilitate these reporting requirements.

                                                                    C. Appropriations and Funds
                                                                       The Army receives its appropriations as general, working capital (revolving funds), trust, special, and deposit
                                                                       funds. The Army uses these appropriations and funds to execute their missions and report resource usage.

                                                                       z General funds are used for financial transactions that arise under congressional appropriations, including
                                                                         personnel, operation and maintenance, research and development, procurement, and construction
                                                                         accounts.

                                                                       z Special funds account for government receipts earmarked for a specific purpose.

                                                                       z Deposit funds generally are used to: (1) hold assets for which the Army is acting as an agent or a
                                                                         custodian or whose distribution awaits legal determination, or (2) account for unidentified remittances.

                                                                    D. Basis of Accounting
                                                                       The Army generally records transactions on a budgetary basis and not an accrual accounting basis as is
                                                                       required by Federal GAAP. For FY 2002, the Army's financial management systems were unable to meet all
                                                                       of the requirements for full accrual accounting. Many of the Army's financial and nonfinancial feeder
                                                                       systems and processes were designed and implemented prior to the issuance of Federal GAAP for federal
                                                                       agencies and, therefore, were not designed to collect and record financial information on the full accrual
                                                                       accounting basis as required by Federal GAAP. The Army has undertaken efforts to determine the actions
                                                                       required for bringing its financial and nonfinancial feeder systems and processes into compliance with all
                                                                       elements of Federal GAAP. One such action is the current revision of its accounting systems to record
FY02 United States Army Annual Financial Statement




                                                                       transactions based on the United States Government Standard General Ledger (USSGL). Until such time as
                                                                       all of the Army's financial and nonfinancial feeder systems and processes are updated to collect and report
                                                                       financial information as required by Federal GAAP, the Army's financial data will be based on budgetary
                                                                       transactions (obligations, disbursements, and collections), transactions from nonfinancial feeder systems, and
                                                                       adjusted for known accruals of major items such as payroll expenses, accounts payable, and environmental
                                                                       liabilities. The financial statements are presented on the accrual basis of accounting. One example of
                                                     General Fund




                                                                       information presented on the budgetary basis is the data on the Statement of Net Cost, which is based on
                                                                       obligations and disbursements and may not always represent accrued costs.

                                                                       In addition, the Army identifies programs based upon the major appropriation groups provided by Congress.
                                                                       The Army is in the process of reviewing available data and attempting to develop a cost reporting
                                                                       methodology that balances the need for cost information required by the Statement of Federal Financial
                 136                                                   Accounting Standard (SFFAS) No. 4, "Managerial Cost Accounting Concepts and Standards for the Federal
                                                                       Government," with the need to keep the financial statements from being overly voluminous.
                                                                               Notes to Principal Statements



E. Revenues and other Financing Sources
   The Army receives congressional appropriations as financing sources for general funds (annual and a
   multiyear basis). When authorized, they supplement these appropriations with revenues generated by sales of
   goods or services through the reimbursable order process. The Army recognizes revenue as a result of costs
   incurred or services performed on behalf of other federal agencies and the public. The reimbursable order
   process allows the Army to recognize revenue when earned.

   Other financing sources reported by the Army do not include non-monetary support provided by U.S. Allies
   for common defense and mutual security. The U.S. has agreements with foreign countries that include both
   direct and indirect sharing of costs that each country incurs in support of the same general purpose.
   Examples include countries where there is a mutual or reciprocal defense agreement, where U.S. troops are
   stationed, or where the U.S. fleet is serviced in a port. The Army is reviewing these types of financing and
   cost reductions in order to establish accounting policies and procedures to identify what, if any, of these costs
   are appropriate for disclosure in the Army's financial statements in accordance with generally accepted
   accounting principles. Recognition of support provided by host nations, would affect both financing sources
   and recognition of expenses.

F. Recognition of Expenses
   For financial reporting purposes, the Army policy requires the recognition of operating expenses in the period
   incurred. However, because the Army's financial and nonfinancial feeder systems were not designed to
   collect and record financial information on the full accrual accounting basis, accrual adjustments are made
   for major items such as payroll expenses, accounts payable, and environmental liabilities. The Army's
   expenditures for capital and other long-term assets are not recognized as operating expenses until depreciated
   in the case of Property, Plant and Equipment (PP&E) or consumed in the case of Operating Materials and
   Supplies (OM&S). Net increases or decreases in unexpended appropriations are recognized as a change in
   the net position. Certain expenses, such as annual and military leave earned but not taken, are financed in the
   period in which payment is made.

   The Army adjusted operating expenses as a result of the elimination of balances between DoD Components.
   See Note 19.I, Intragovernmental Expenses and Revenue for disclosure of adjustment amounts.

G. Accounting for Intragovernmental Activities
   The Army, as an agency of the federal government, interacts with and is dependent upon the financial
   activities of the federal government as a whole. Therefore, these financial statements do not reflect the
   results of all financial decisions applicable to the Army as though the agency was a stand-alone entity.

   The Army's proportionate share of public debt and related expenses of the federal government are not
   included. The federal government does not apportion Debt and its related costs to federal agencies. The
   Army's financial statements, therefore, do not report any portion of the public debt or interest thereon, nor do
   the statements report the source of public financing whether from issuance of debt or tax revenues.

   The Army obtains financing for construction of DoD facilities through budget appropriations. The
                                                                                                                        02
                                                                                                                       fy

   Department of Treasury does not allocate such interest costs to the benefiting agencies. The Army does not               137

   capitalize interest costs obtained through the issuance of public debt.
                                                                       The Army's civilian employees participate in the Civil Service Retirement System (CSRS) and the Federal
                                                                       Employees Retirement Systems (FERS), while military personnel are covered by the Military Retirement
                                                                       System (MRS). Additionally, employees and personnel covered by FERS and MRS also have varying
                                                                       coverage under Social Security. The Army funds a portion of the civilian and military pensions. Reporting
                                                                       civilian pensions under CSRS and FERS retirement systems is the responsibility of the Office of Personnel
                                                                       Management (OPM). The Army recognizes an imputed expense for the portion of civilian employee
                                                                       pensions and other retirement benefits funded by the OPM in the Statement of Net Cost; and recognizes
                                                                       corresponding imputed revenue from the civilian employee pensions and other retirement benefits in the
                                                                       Statement of Changes in Net Position.

                                                                       The Army reports the assets, funded actuarial liability, and unfunded actuarial liability for the military
                                                                       personnel retirement system in the Military Retirement Fund (MRF) financial statements. The Army
                                                                       recognizes the actuarial liability for the military retirement health benefits in the Other Defense Organization
                                                                       General Fund column of the Army Agency-wide consolidating/combining statements.

                                                                       To prepare reliable financial statements, transactions occurring between components or activities within the
                                                                       Army must be eliminated. However, the Army, as well as the rest of the federal government, cannot identify
                                                                       accurately all intragovernmental transactions by customer. The Defense Finance and Accounting Service
                                                                       (DFAS) is responsible for eliminating transactions between components or activities of the Army. For FY
                                                                       1999 and beyond seller entities within the Department provided summary seller-side balances for revenue,
                                                                       accounts receivable and unearned revenue to the buyer-side internal Army accounting offices. In most cases,
                                                                       the buyer-side records have been adjusted to recognize unrecorded costs and accounts payable. Army
                                                                       intragovernmental balances were then eliminated.

                                                                       The Department of the Treasury, Financial Management Service (FMS) is responsible for eliminating
                                                                       transactions between the Department and other federal agencies. In September 2000, the FMS issued the
                                                                       "Federal Intragovernmental Transactions Accounting Policies and Procedures Guide." The Department was
                                                                       not able to fully implement the policies and procedures in this guide related to reconciling intragovernmental
                                                                       assets, liabilities, revenues, and expenses for non-fiduciary transactions. The Army, however, was able to
                                                                       implement the policies and procedures contained in the "Intragovernmental Fiduciary Transactions
                                                                       Accounting Guide," as updated by the "Federal Intragovernmental Transactions Accounting Policies and
FY02 United States Army Annual Financial Statement




                                                                       Procedures Guide," for reconciling intragovernmental transactions pertaining to investments in federal
                                                                       securities, borrowings from the United States (U.S.) Treasury and the Federal Financing Bank, Federal
                                                                       Employees' Compensation Act transactions with the Department of Labor (DoL), and benefit program
                                                                       transactions with the OPM.
                                                     General Fund




                                                                    H. Transactions with Foreign Governments and International Organizations
                                                                       Each year, the Army Components sell defense articles and services to foreign governments and international
                                                                       organizations, primarily under the provisions of the "Arms Export Control Act of 1976." Under the
                                                                       provisions of the Act, the Army has authority to sell defense articles and services to foreign countries and
                                                                       international organizations, generally at no profit or loss to the U.S. Government. Customers may be
                                                                       required to make payments in advance.
                 138
                                                                             Notes to Principal Statements



I. Funds with the U.S. Treasury
   The Defense Finance and Accounting Service (DFAS), Military Services, U.S. Army Corp of Engineers,
   disbursing stations, and the Department of State financial service centers process the majority of cash
   collections, disbursements, and adjustments worldwide. Each disbursing station prepares monthly reports,
   which provide information to the U.S. Treasury on check issues, electronic fund transfers, interagency
   transfers and deposits.

   In addition, the DFAS sites and the USACE Finance Center submit reports to the Department of the
   Treasury, by appropriation, on interagency transfers, collections received, and disbursements issued. The
   Department of the Treasury then records this information to the applicable Fund Balance with Treasury
   (FBWT) account maintained in the Treasury's system. Differences between the Army's recorded balance in
   the FBWT accounts and Treasury's FBWT accounts sometimes result and are reconciled subsequently. See
   Note 3, Fund Balance With Treasury for material disclosure. Differences between accounting offices' detail-
   level records and Treasury's FBWT accounts are disclosed in Note 21.B, specifically, differences caused by
   in-transit disbursements and unmatched disbursements (which are not recorded in the accounting offices'
   detail-level records).

J. Foreign Currency
   The Army conducts a significant portion of its operations overseas. The Congress established a special
   account to handle the gains and losses from foreign currency transactions for five general fund appropriations
   (operation and maintenance, military personnel, military construction, family housing operation and
   maintenance, and family housing construction). The gains and losses are computed as the variance between
   the exchange rate current at the date of payment and a budget rate established at the beginning of each fiscal
   year. Foreign currency fluctuations related to other appropriations require adjustments to the original
   obligation amount at the time of payment. The Army does not identify currency fluctuations separately.

K. Accounts Receivable
   As presented in the Balance Sheet statement, accounts receivable includes accounts, claims, and refunds
   receivable from other federal entities or from the public. The Army bases the allowances for uncollectible
   accounts that are due from the public upon analysis of collection experience by fund type. The Army does
   not recognize an allowance for estimated uncollectible amounts from other federal agencies. Claims against
   other federal agencies are to be resolved between the agencies. See Note 5, Accounts Receivable, for
   material disclosures.

L. Loans Receivable
   Not Applicable

M. Inventories and Related Property
   Inventories are reported at approximate historical cost using Latest Acquisition Cost (LAC) adjusted for
   holding gains and losses.
                                                                                                                     02
                                                                                                                    fy
   The Army uses the LAC method because its inventory systems were designed for material management                      139
   rather than accounting. The systems provide accountability and visibility over inventory items. They do not
                                                                       maintain the historical cost data necessary to comply with the SFFAS No. 3, "Accounting for Inventory and
                                                                       Related Property." Neither can they produce directly financial transactions using the United States
                                                                       Government Standard General Ledger (USSGL), as required by the Federal Financial Management
                                                                       Improvement Act of 1996 (P.L. 104-208).

                                                                       The SFFAS No. 3 distinguishes between "Inventory Held for Sale" and "Inventory Held in Reserve for
                                                                       Future Sale." There is no management or valuation difference between the two USSGL accounts. Further,
                                                                       the Army manages only military or government-specific material under normal conditions. Items commonly
                                                                       used in and available from the commercial sector are not managed in the Army material management
                                                                       activities. Operational cycles are irregular, and the military risks associated with stock-out positions have no
                                                                       commercial parallel. The Army holds material based on military need and support for contingencies.
                                                                       Therefore, the Army does not attempt to account separately for items held for "current" or "future" sale.

                                                                       Related property includes Operating Materials and Supplies (OM&S) and stockpile materials. The OM&S,
                                                                       including munitions not held for sale, are valued at standard purchase price. For the most part the Army uses
                                                                       the consumption method of accounting for OM&S by expensing material when issued to the end user.
                                                                       Where current systems cannot fully support the consumption method, the Army uses the purchase method -
                                                                       that is, expensed when purchased. For FY 2002, the Army reported significant amounts using the purchase
                                                                       method either because the systems could not support the consumption method or because management
                                                                       deems that the item is in the hands of the end user.

                                                                       The Army implemented new policy in FY 2002 to account for condemned material (only) as "Excess,
                                                                       Obsolete, and Unserviceable." The net value of condemned material is zero, because the costs of disposal
                                                                       are greater than the potential scrap value. Potentially redistributable material, presented in previous years as
                                                                       "Excess, Obsolete, and Unserviceable," is included in "Held for Use" or "Held for Repair" categories
                                                                       according to its condition.

                                                                       In addition, past audit results identified uncertainties about the completeness and existence of quantities used
                                                                       to produce the reported values. Material disclosures related to inventory and related property are provided in
                                                                       Note 9.
FY02 United States Army Annual Financial Statement




                                                                    N. Investments in U.S. Treasury Securities
                                                                       The Army reports investments in U.S. Treasury securities at cost, net of un-amortized premiums or discounts.
                                                                       Premiums or discounts amortize into interest income over the term of the investment using the effective
                                                                       interest rate method or another method obtaining similar results. The Army's intent is to hold investments
                                                                       until maturity, unless the Army needs the investments to finance claims or otherwise sustain operations.
                                                     General Fund




                                                                       Consequently, the Army does not make a provision for unrealized gains or losses on these securities.
                                                                       Material disclosures related to Investments in U.S. Treasury Securities are provided in Note 4.

                                                                    O. General Property, Plant and Equipment
                                                                       General property, plant, and equipment (PP&E) assets are capitalized at historical acquisition cost plus
                                                                       capitalized improvements when an asset has a useful life of 2 or more years, and when the acquisition cost
                 140
                                                                       equals or exceeds the Army capitalization threshold of $100,000. Also, the Army requires capitalization of
                                                                               Notes to Principal Statements



   improvement costs over the Army capitalization threshold of $100,000 for General PP&E. The Army
   depreciates all General PP&E, other than land, on a straight-line basis. The Army does not depreciate its
   lands.

   Contractor Provided
   When it is in the best interest of the government, the Army provides to contractors government property
   necessary to complete contract work. The Army either owns or leases such property, or it is purchased
   directly by the contractor for the government based on contract terms. When the value of contractor
   procured General PP&E exceeds the DoD capitalization threshold, such PP&E is required to be included in
   the value of General PP&E reported on the Army's Balance Sheet. The Army completed a study that
   indicates that the value of General PP&E above the Army capitalization threshold and not older than the
   DoD Standard Recovery Periods for depreciation and that are presently in the possession of contractors, is
   immaterial to the Army's financial statements. Regardless, the Army is developing new policies and a
   contractor reporting process that will provide appropriate General PP&E information for future financial
   statement reporting purposes. Accordingly, the Army currently reports only government property, maintained
   in the Army's property systems, in the possession of contractors.

   The Army issues new property accountability and reporting regulations that require the components in
   property systems to maintain information on all property furnished to contractors to bring the Army into
   fuller compliance with federal accounting standards. This action and other Army proposed actions capture
   and report the information necessary for compliance with federal accounting standards.

   Material disclosures related to General PP&E are provided in Note 10.

P. Advances and Prepayments
   The Army records payments in advance of the receipt of goods and services as advances or prepayments and
   reports them as assets on the Balance Sheet. In addition, when the department receives the related goods and
   services, it recognizes advances and prepayments as expenditures and expenses.

Q. Leases
   Generally, lease payments are for the rental of equipment and operating facilities. Their classification is either
   capital or operating leases. For a lease that is essentially equivalent to an installment purchase of property (a
   capital lease) and equals or exceeds the current Army capitalization threshold, the Army records the
   applicable asset and liability. The Army records the lesser amount of the present value of the rental and other
   lease payments during the lease term, excluding that portion of the payments representing executory costs
   paid to the lessor, or the asset's fair value. The Army deems the use of estimates for these costs as adequate
   and appropriate due to the relatively low dollar value of capital leases. Leases that do not transfer
   substantially all of the benefits or risks of ownership are classified as operating leases and are recorded as
   expenses as payments are made over the lease term.

R. Other Assets
   The Army conducts business with commercial contractors under two primary types of contracts--fixed price
                                                                                                                         02
                                                                                                                        fy

                                                                                                                             141
   and cost reimbursable. To alleviate the potential financial burden on the contractor that long-term contracts
                                                                       can cause, the Army provides financing payments. For Real Property, the Army makes one type of financing
                                                                       payment based upon a percentage of completion. In accordance with SFFAS No. 1, "Accounting for
                                                                       Selected Assets and Liabilities," such payments require treatment as construction in process. The Army
                                                                       reports these treatments on the General PP&E line and in Note 10, General PP&E, Net. In addition,
                                                                       provision of the Federal Acquisition Regulation allows the Army to make financing payments under fixed
                                                                       price contracts that are not based on a percentage of completion. The Army reports these financing payments
                                                                       as advances or prepayments in the "Other Assets" line item. The Army treats these payments as advances or
                                                                       prepayments because the Army becomes liable only after the contractor delivers the goods in conformance
                                                                       with the contract terms. If the contractor does not deliver a satisfactory product, the Army is not obligated to
                                                                       reimburse the contractor for its costs and the contractor is liable to repay the Army for the full amount of the
                                                                       advance. The Army has completed a review of all applicable federal accounting standards; applicable public
                                                                       laws on contract financing; Federal Acquisition Regulation Parts 32, 49, and 52; and the OMB guidance in 5
                                                                       Code of Federal Regulations Part 1315, "Prompt Payment." The Army has concluded that SFFAS No. 1
                                                                       does not address fully or adequately the subject of progress payment accounting and is considering what
                                                                       further action is appropriate.

                                                                    S. Contingencies and Other Liabilities
                                                                       The SFFAS No. 5, "Accounting for Liabilities of the Federal Government," defines contingencies to be an
                                                                       existing condition, situation, or set of circumstances that involves an uncertainty as to possible gain or loss to
                                                                       the Army. The uncertainty will be resolved when one or more future events occur or fail to occur.
                                                                       Contingencies are recognized as liabilities when past events or exchange transactions have occurred, a future
                                                                       loss is probable, and the amount of loss can be estimated reasonably.

                                                                       Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist but
                                                                       there is at least a reasonable possibility of incurring a loss or additional losses. Examples of loss
                                                                       contingencies include the collectibility of receivables, pending or threatened litigation, possible claims and
                                                                       assessments. The Army's loss contingencies arising as a result of pending or threatened litigation or claims
                                                                       and assessments occur due to events such as aircraft, ship and vehicle accidents, medical malpractice,
                                                                       property or environmental damages, and contract disputes.

                                                                       Other liabilities arise as a result of anticipated disposal costs for the Army's assets. This type of liability has
FY02 United States Army Annual Financial Statement




                                                                       two components: non-environmental and environmental. Consistent with SFFAS No. 6, "Accounting for
                                                                       Property, Plant, and Equipment" recognition of an anticipated environmental disposal liability commences
                                                                       when the asset is placed into service. Nonenvironmental disposal liabilities are recognized for assets when
                                                                       management decides to dispose of an asset based upon the Army's policy, consistent with SFFAS No.5
                                                                       "Accounting for Liabilities of Federal Government." The Army agrees to the recognition of non-
                                                                       environmental disposal liability for National Defense PP&E nuclear powered assets when placed into service.
                                                     General Fund




                                                                       Such amounts are developed in conjunction with, and not easily separately identifiable from, environmental
                                                                       disposal costs. See Notes 14 and 15 for material disclosures.

                                                                    T. Accrued Leave
                                                                       The Army reports civilian annual leave and military leave that has been accrued and not used as of the
                                                                       balance sheet date as liabilities. The liability reported at the end of the fiscal year reflects the current pay
                 142                                                   rates.
                                                                               Notes to Principal Statements



U. Net Position
   Net Position consists of unexpended appropriations and cumulative results of operations. Unexpended
   appropriations represent amounts of authority, which are unobligated and have not been rescinded or
   withdrawn, and amounts obligated but for which legal liabilities for payments have not been incurred.

   Cumulative results of operations represent the balances that result from subtracting expenses and losses from
   financing sources including appropriations, revenue, and gains since the inception of the activity. Beginning
   with FY 1998, this included the cumulative amount of donations and transfers of assets in and out without
   reimbursement.

V. Treaties for Use of Foreign Bases
   The DoD Components have the use of land, buildings, and other facilities, which are located overseas and
   have been obtained through various international treaties and agreements negotiated by the Department of
   State. DoD capital assets overseas are purchased with appropriated funds; however, the title to land and
   improvements is retained by the host country. Generally, treaty terms allow the DoD Components continued
   use of these properties until the treaties expire. The fixed assets are subject to loss in the event treaties are
   not renewed or the Department does not reach other agreements. Therefore, in the event treaties or other
   agreements are terminated whereby use of the foreign bases is allowed no longer, losses will be recorded for
   the value of any non-retrievable capital assets after negotiations between the U.S. and the host country have
   been concluded to determine the amount paid to the U.S. for such capital investments.

W. Comparative Data
   In FY 2002, the Army modified the financial statement presentation for the Statements of Net Cost, Changes
   in Net Position, and Financing. As a result, the Army's statements during this reporting period may not
   always lend themselves to comparative analysis. In some instances, amounts on the statements were reported
   on one financial line in FY 2001 and split into multiple financial lines for FY 2002, in accordance with
   OMB's guidance.

X. Unexpended Obligations
   The Army records obligations for goods and services ordered but not yet received. A payment liability is not
   established in the financial statements because goods and services have not been delivered.




                                                                                                                        02
                                                                                                                       fy

                                                                                                                            143
                                                                    Note 2.                  Nonentity and Entity Assets
                                                                    As of September 30,
                                                                    (Amounts in thousands)                                                2002                                2001

                                                                    1. Intragovernmental Assets:                        Nonentity           Entity            Total
                                                                         A.    Fund Balance with Treasury               ($5,382)     $39,515,905       $39,510,523      $37,351,036
                                                                         B.    Investments                                     0           5,240             5,240            3,193
                                                                         C.    Accounts Receivable                             0         452,597           452,597          727,509
                                                                         D.    Other Assets                                    0         209,114           209,114           61,560
                                                                         E.    Total Intragovernmental Assets           ($5,382)     $40,182,856        $40,177,474     $38,143,298

                                                                    2. Non-Federal Assets:
                                                                         A.    Cash and Other Monetary Assets          $301,747               $0          $301,747         $168,401
                                                                         B.    Accounts Receivable                       24,415          543,673           568,088          362,702
                                                                         C.    Loans Receivable                                0               0                 0                0
                                                                         D.    Inventory & Related Property                    0      27,259,422        27,259,422       34,543,535
                                                                         E.    General Property, Plant and Equipment           0      18,700,626        18,700,626       17,621,538
                                                                         F     Other Assets                                 (89)       3,582,885         3,582,796        3,726,647
                                                                         G.    Total Non-Federal Assets                $326,073      $50,086,606       $50,412,679      $56,422,823

                                                                    3. Total Assets:                                   $320,691     $90,269,462      $90,590,153       $94,566,121

                                                                    4. Other Information:


                                                                         Relevant Information For Comprehension
                                                                         Entity assets of $90,269,462 thousand consist of resources that the Army has the authority to use, or where
                                                                         management is obligated legally to use funds to meet their obligations. The $320,691 thousand in nonentity
                                                                         asset are assets held by the Army, but are not available for use in the operations. The abnormal balance of
                                                                         $5,382 thousand shown for Nonentity Intragovernmental Fund Balance with Treasury is attributable to a
                                                                         collection recorded in the Military Pay account instead of Servicemen's Group Life Insurance account where
                                                                         funds were disbursed. Corrective action has been taken to eliminate the abnormal balance. The abnormal
                                                                         condition for Non-Federal Other Assets occurred due to deferred voucher conditions for amounts paid by
                                                                         tactical contingency disbursing offices in Bosnia that will be reported to the 266th Finance Command in
FY02 United States Army Annual Financial Statement




                                                                         Germany.

                                                                         Note Reference
                                                                         For Additional Line Item discussion, see:
                                                                         Note 4, Investments
                                                     General Fund




                                                                         Note 5, Accounts Receivable
                                                                         Note 6, Other Assets
                                                                         Note 7, Cash and Other Monetary Assets




                 144
                                                                               Notes to Principal Statements



Note 3.                  Fund Balance with Treasury
As of September 30,
(Amounts in thousands)                                                             2002                     2001

1. Fund Balances:
     A.    Appropriated Funds                                                $39,407,718             $37,099,685
     B.    Revolving Funds                                                        79,199                 136,412
     C.    Trust Funds                                                             1,537                     931
     D.    Other Fund Types                                                       22,069                 114,008
     E.    Total Fund Balances                                               $39,510,523             $37,351,036

2. Fund Balances Per Treasury Versus Agency:
     A.    Fund Balance per Treasury                                         $39,510,523             $37,351,035
     B.    Fund Balance per DoD                                               39,510,523              37,351,036
     C.    Reconciling Amount                                                         $0                     ($1)

3. Explanation of Reconciliation Amount:

4. Other Information:


     Intragovernmental Paying and Collecting (IPAC)
     The Intragovernmental Payment and Collection (IPAC) differences are reconcilable differences that represent
     amounts recorded by Treasury but not reported by the organization. As of September 30, 2002 there were $6
     thousand of IPAC differences greater than 180 days old. However, for September 30, 2001, there were no
     dollars reported in the greater than 180 days old category. Automated reconciliation tools implemented
     during fiscal year 2001 and used throughout fiscal year 2002 virtually eliminated all existing differences for
     the Department of the Army. The only reason for an IPAC difference to exist today would relate to field sites
     requiring additional backup to record the transaction in their accounting system, or timing differences
     between disbursing and Treasury cut-off dates.

     Check Issue Discrepancy
     The Department of the Army is in the process of collecting information for all check issue discrepancy data
     that are unsupportable because: (1) records have been lost during deactivation of disbursing offices, (2) the
     Department of the Treasury may not assist in research efforts for transactions over 1-year old, or (3)
     corrections were processed for transactions that the Department of the Treasury had removed from the check
     comparison report. Transactions that have no supporting documentation due to one of the preceding
     situations shall be provided to the Department of the Treasury with a request to remove them from the
     Treasury Check Comparison Report. The vast majority of the remaining check issue discrepancies are a
     result of timing differences between the Department of the Army and the Department of the Treasury for
     processing checks. The Department currently is not requesting the Department of the Treasury to remove
     any dollars from the check issue comparison report.


                                                                                                                       02
                                                                                                                      fy

                                                                                                                           145
                                                                    Aged                     September 30, 2002       September 30, 2001
                                                                                             (Amounts in Thousands)   (Amounts in Thousands)
                                                                    0-60 days                    $302,541                 $246,088
                                                                    61-180 days                        (14)                   2,596
                                                                    >180 days                           (6)                 (2,021)
                                                                    Total                        $302, 521                $246,663


                                                                    Check issue differences in the 0-60 days category are considered timing differences due to intransit time
                                                                    between reporting check issues by the field and processing into the Treasury Check Payments and
                                                                    Reconciliation System. These differences include Army's disbursing stations on the Army 2100 Comparison
                                                                    of Checks Issued Report received from Treasury; however, $42,114 thousand of the difference represents
                                                                    reported amounts under DFAS Columbus Performance Measurement Indicator (PMI) Reports.

                                                                    The total difference in the 61-180 days category is $2,000 thousand less than September 30, 2001 and
                                                                    expected to clear in the next reporting cycle.

                                                                    The Department of the Army's over 180 days category decreased $2,104 thousand from fiscal year 2001. The
                                                                    remaining difference represents small dollar amounts spread among various disbursing stations, dating from
                                                                    Fiscal Year 1991 through Fiscal Year 1998. Since the stations lack the supporting documentation, these
                                                                    amounts have been provided to DFAS Arlington for inclusion in a package submitted to the Office of the
                                                                    Secretary of Defense (OSD) for resolution.

                                                                    Deposit Differences
                                                                    The Deposit differences are reconcilable differences that represent deposit amounts reported by the
                                                                    Department of the Treasury or the organization. As of September 30, 2002 and 2001, there was $5,871
                                                                    thousand and $932 thousand, respectively, of deposit differences greater than 180 days old.

                                                                    The Fiscal Year 2002 difference is due to the Federal Reserve Bank of Atlanta reporting an EFT Debit
                                                                    Voucher as September 9, 2000 instead of September 9, 2002 for Disbursing Station 6944, MACOM 16.
                                                                    Corrective action took place in October's (Fiscal Year 2003) business.
FY02 United States Army Annual Financial Statement




                                                                    Other Disclosures
                                                                    Other Fund Types
                                                                    The Other Fund Types includes a balance of ($10,333) thousand in Deposit Funds, $27,450 thousand in
                                                                    Special Fund and Receipt accounts, and a balance remaining in two suspense accounts: (1) 21 F 3882 -
                                                                    ($739) thousand and (2) 21 F 3886 $5,690 thousand. Please refer to Footnote 2 for further analysis.
                                                     General Fund




                                                                    Undisbursed Appropriation Account
                                                                    The Department of the Army's Undisbursed Appropriation Account Trial Balance (TFS 6654) reflected a
                                                                    Condition One negative closing balance during reporting period ending September 30, 2002 for the Account:
                                                                    Chemical Agents and Munitions Destruction, Defense (21 99 0390). The cause of this condition resulted
                                                                    from the Defense Civilian Pay System (DCPS) transactions being processed with incorrect fiscal years.
                                                                    Corrective action took place during October's business at Treasury.
                 146
                                                                                         Notes to Principal Statements



     Canceling Appropriated Funds
     As of September 30, 2002, $554,483 thousand of the Army's canceling Appropriated Funds were withdrawn
     in accordance with Treasury's policy.

     Suspense/Budget Clearing Accounts
     Department of Treasury's year-end guidance directs the Department of the Army, on September 30 of each
     fiscal year, to reduce uncleared suspense/budget clearing account balances to zero by transferring their
     balances to the Army's Operation and Maintenance account (21 2020). Please refer to Footnote 21 B for
     further analysis on these accounts for fiscal year 2002.

     In conjunction with the Army's fiscal year 2002 year-end process, we also transferred out the Foreign
     Currency Fluctuation Accounts to the Army's Operation and Maintenance account (21 2020). The following
     amounts ($ in thousands) were transferred:

                                      Accounts             Amounts
                                      21 2 6763            ($ 231)
                                      21 1 6763            ($ 1,653)
                                      21 9 6763            ($ 1)

     Note Reference
     See Note Disclosure 1. I. - Significant Accounting Policies for additional discussion on financial reporting
     requirements and DoD policies governing Funds with the U.S. Treasury.



Note 4.                  Investments
As of September 30,
(Amounts in thousands)                                                            2002                               2001

                                                            Amor-    Amortized                        Market
                                                            zation   (Premium/     Investments,        Value   Investments,
1. Intragovernmental Securities:                    Cost   Method     Discount)            Net    Disclosure           Net
     A.    Marketable                                 $0                    $0               $0          $0            $0
     B.    Non-Marketable, Par Value                   0                     0                0           0             0
     C.    Non-Marketable, Market-Based            5,241                   (7)            5,234           0         3,174
     D.    Subtotal                               $5,241                  ($7)           $5,234          $0        $3,174
     E.    Accrued Interest                            6                     0                6           6            19
     F.    Total Intragovernmental Securities     $5,247                  ($7)           $5,240          $6        $3,193

2. Other Investments:                                $0                    $0               $0           $0            $0

3. Other Information:


     Fluctuations and/or Abnormalities
     Non-Marketable Market-Based Investments for the Army increased $2,047 thousand (64%) due to the receipt                   02
                                                                                                                              fy

     of several large bequests to support various programs at the U.S. Military Academy at West Point, N.Y.                        147
                                                                         Other Information Related to Investments
                                                                         Army Disclosures
                                                                         The Army Gift Fund was established to control and account for the disbursement and use of monies donated
                                                                         to the Army along with the interest received from the investment of such donations. The related earnings are
                                                                         allocated to appropriate Army activities to be used in accordance with the directions of the donor. These
                                                                         funds are recorded as Non-Marketable Market-Based U.S. Treasury Securities that are not traded on any
                                                                         securities exchange, but they mirror the prices of marketable securities with similar terms.

                                                                         Note Reference
                                                                         See Note Disclosure 1.N. - Investments in U.S. Treasury for additional DoD policies governing Investments
                                                                         in U.S. Treasury Securities.



                                                                    Note 5.                  Accounts Receivable
                                                                    As of September 30,
                                                                    (Amounts in thousands)                                              2002                                        2001

                                                                                                                       Gross            Allowance For         Accounts          Accounts
                                                                                                                   Amount Due   Estimated Collectibles   Receivable, Net   Receivable, Net

                                                                    1. Intragovernmental Receivables:               $452,597                     N/A         $452,597          $727,509

                                                                    2. Non-Federal Receivables
                                                                       the Public):                                   616,419             ($48,331)           568,088            362,702

                                                                    3. Total Accounts Receivable:                  $1,069,016             ($48,331)       $1,020,685          $1,090,211

                                                                    4. Allowance method:
                                                                         The allowance for estimated uncollectible accounts was calculated by using the three-year average of FY 00
                                                                         to FY 02 actual out of service debt write-offs. This allowance method was implemented in FY 00.

                                                                    5. Other information:


                                                                         Fluctuations and/or Abnormalities
                                                                         Accounts Receivable
FY02 United States Army Annual Financial Statement




                                                                         Total accounts receivable dropped $69,526 thousand or 6.4% between FY 01 and FY 02. Intragovernmental
                                                                         accounts receivables decreased $274,912 thousand or 37.8% with several factors contributing to the
                                                                         reduction. Improvements in collection methods under the Intragovernmental Payment and Collections
                                                                         (IPAC) system, more aggressive management of intragovernmental receivables by accounting offices, more
                                                                         comprehensive employee training, and an increase in customer involvement are all factors that improved the
                                                     General Fund




                                                                         efficiency in managing the balance. Non-federal Receivables (From the Public) increased $205,386
                                                                         thousand, or 56.6%. The increase primarily resulted from recording Foreign Military Sales public
                                                                         receivables for $138,773 thousand, and realignment with DFAS Denver in the reporting of contractor debt
                                                                         and out of service debt.

                                                                         On a related issue, the allowance for estimated uncollectibles for FY 01 was understated by $30,462
                 148                                                     thousand. The understating of the allowance for estimated uncollectibles had the effect of overstating FY 01
                                                                         Non-federal Receivables (From the Public), Net by that amount.
                                                                                Notes to Principal Statements



     Other Information Related to Accounts Receivables

     Relevant Information For Comprehension
     Elimination Adjustments
     The Army General Fund's accounting systems do not capture trading partner data at the transaction level in a
     manner that facilitates trading partner aggregations. Therefore, the Army General Fund was unable to
     reconcile intragovernmental accounts receivable balances with its trading partners. The Department intends
     to develop long-term systems improvements that will include sufficient up-front edits and controls to
     eliminate the need for after-the-fact reconciliations. The volume of intragovernmental transactions is so large
     that after-the-fact reconciliation cannot be accomplished with the existing or foreseeable resources.

     Intragovernmental Receivables Over 180 Days
     The Army General Fund had $35,306 thousand of aged intragovernmental receivables over 180 days. Of this
     amount, $22,384 thousand was due from other DoD activities and $12,922 thousand was due from other
     Federal Activities.

     Non-federal Refunds Receivable
     (Amounts in thousands)
          FY 2002 Non-Federal       FY 2002 Non-Federal
          Refunds Receivable        Accounts Receivable (Net) % of Net Amount
          $203,302                  $568,088                   35.8%


     Note Reference
     See Note Disclosure 1.K. - Significant Accounting Policies for additional discussion on financial reporting
     requirements and DoD policies governing Accounts Receivable.



Note 6.              Other Assets
As of September 30,2002
(Amounts in thousands)                                                               2002                    2001

1. Intragovernmental Other Assets:
     A.   Advances and Prepayments                                                $209,114                $61,560
     B.   Other Assets                                                                   0                      0
     C.   Total Intragovernmental Other Assets                                    $209,114                $61,560

2. Non-Federal Other Assets:
     A.   Outstanding Contract Financing Payments                               $3,109,569             $3,272,775
     B.   Other Assets (With the Public)                                           473,227                453,872
     C.   Total Non-Federal Other Assets                                        $3,582,796             $3,726,647

3. Total Other Assets:                                                          $3,791,910             $3,788,207

4. Other Information:                                                                                                   02
                                                                                                                       fy

                                                                                                                            149
                                                                    Fluctuation and/or Abnormalities
                                                                    Intragovernmental Advances and Prepayments
                                                                    There is a $147,553 thousand, or 240%, increase in the Intragovernmental Advances and Prepayments. It
                                                                    increased from $61,560 thousand in FY 2001 to $209,114 thousand in FY 2002. These changes consists of a
                                                                    decrease of $16,378 thousand for the Operation and Maintenance appropriation, a decrease of $27,421
                                                                    thousand for the Conventional Ammunition Working Capital Fund (CAWCF), and a $189,445 thousand
                                                                    increase for the Procurement appropriations. These three changes accounted for 99% of the $147,553
                                                                    thousand net increase.

                                                                    Active Army's Procurement
                                                                    The majority of the Active Army's Procurement increase of $189,445 thousand can be attributed to the cash
                                                                    advances made to the Army Working Capital Fund (AWCF). By June of 2002, fund balances available for
                                                                    the operation of the AWCF fell to a level that posed the possibility of an anti-deficiency act violation. To
                                                                    alleviate this problem, the Under Secretary of Defense issued a directive for the AWCF to begin advance
                                                                    billing of unfilled project orders. Compliance with this directive resulted in a major portion of the 240%
                                                                    increase in intragovernmental advances to Other Federal Agencies.

                                                                    Other Information Related to Other Assets
                                                                    Other Assets
                                                                    Other Assets (with the Public), which represents a material amount (more than 10 percent of the value of the
                                                                    line) is:

                                                                    Type of Assets                                Amounts (in thousands)
                                                                    Non-Federal
                                                                         Other Assets (With the Public):
                                                                         Advances to Others                                  $418,726
                                                                         Other Assets                                          54,501
                                                                    Totals                                                   $473,227


                                                                    There was an $8,529 thousand, or 19%, increase in the amount of Other Assets, $45,972 thousand in FY
                                                                    2001 to $54,501 thousand in FY 2002.
FY02 United States Army Annual Financial Statement




                                                                    z The FY 2002 Other Assets amount of $54,501 thousand is a combination of $10,747 thousand increase
                                                                      for two Military Construction (MILCON) projects currently under development at White Sands Missile
                                                                      Range, NM, and Firm Fixed Price adjustments, as directed by the Army's General Business Rules. These
                                                                      Firm Fixed Price adjustments consist of $4,920 thousand in the Missile Procurement Appropriation,
                                                                      $37,409 thousand in the Ammunition Procurement Appropriation, $1,350 thousand in the Research
                                                     General Fund




                                                                      Development, Testing and Evaluation Appropriation, and $75 thousand in the Army's Military
                                                                      Construction/Family Housing Appropriation.

                                                                    z The overall $8,529 thousand increase from FY 2001 to FY 2002 comes from an increase of $10,747
                                                                      thousand for the White Sands Missile Range MILCON projects; a decrease in the Firm Fixed Price
                                                                      Adjustments of $3,564 thousand for the Missile Procurement and the Army's Ammunition Procurement
                 150                                                  Appropriations; and an increase of $1,346 thousand in the Research, Development, Testing and
                                                                      Evaluation Appropriation.
                                                                                Notes to Principal Statements



     Outstanding Contract Financing Payments
     The Army has reported outstanding financing payments for fixed price contracts as an advance and
     prepayment because under the terms of the fixed price contracts, the Army becomes liable only after the
     contractor delivers the goods in conformance with the contract terms. If the contractor does not deliver a
     satisfactory product, the Army is not obligated to reimburse the contractor for its costs and the contractor is
     liable to repay the Army for the full amount of the outstanding contract financing payments. The Department
     has completed its review of all applicable federal accounting standards; applicable public laws on contract
     financing; Federal Acquisition Regulation Parts 32, 48, and 52; and the OMB guidance in 5 CFR Part 1315,
     "Prompt Payment." The Department has concluded that the SFFAS No. 1, Accounting for Selected Assets
     and Liabilities does not address fully or adequately the subject of progress payment accounting and is
     considering what further action is appropriate.

     Advances and Prepayments
     The buyer-side advances to others balances were adjusted upward $84,311 thousand to agree with seller-side
     advances from others on the books or other DoD reporting entities. Additionally, the buyer-side prepayment
     balances were adjusted to agree with seller-side deferred credits on the books of other DoD reporting entities.

     Note Reference
     See Note Disclosure 1. R. - Other Assets, Significant Accounting Policies for additional discussion on
     financial reporting requirements and DoD policies governing Other Assets.



Note 7.                  Cash and Other Monetary Assets
As of September 30,
(Amounts in thousands)                                                               2002                     2001

1.   Cash                                                                        $178,149                $125,789
2.   Foreign Currency (non-purchased)                                             123,598                  42,612
3.   Other Monetary Assets                                                              0                       0
4.   Total Cash, Foreign Currency, & Other
     Monetary Assets                                                             $301,747                $168,401

5. Other Information:


     Definitions
     Cash - The total of cash resources under the control of the Army, which includes coin, paper currency,
     purchased foreign currency, negotiable instruments, and amounts on deposit in banks and other financial
     institutions. Cash available for agency use should include petty cash funds and cash held in revolving funds
     that will not be transferred into the U.S. Government General Fund.

     Foreign Currency - consists of the total U.S. dollar equivalent of non-purchased foreign currencies held in
     foreign currency fund accounts. Non-purchased foreign currency is limited to the Treasury Index 97X7000
     fund account (formerly called FT accounts).                                                                        02
                                                                                                                       fy

                                                                                                                            151
                                                                       Other Monetary Assets - includes gold, special drawing rights, and U.S. Reserves in the International
                                                                       Monetary Fund. This category is principally for use by the Department of the Treasury.

                                                                       Fluctuation and/or Abnormalities
                                                                       Army cash and foreign currency increased 79% primarily in support of contingency mission Operation
                                                                       Enduring Freedom. Overall foreign currency increased approximately $80,986 thousand which includes
                                                                       currency to pay foreign vendors and cash in the custody of foreign agents increase of $38,000 thousand
                                                                       primarily in support of the Army's forward deployed tactical units.

                                                                       Other Information Related to Cash and Other Monetary Assets
                                                                       Cash and foreign currency reported consists primarily of cash held by Disbursing Officers to carry out their
                                                                       paying, collecting and foreign currency accommodation exchange mission. Foreign currency is valued using
                                                                       the Department of Treasury Prevailing Rate of Exchange. This rate is the most favorable rate that would
                                                                       legally be available to the U.S. Government's acquisition of foreign currency for its official disbursements
                                                                       and accommodation of exchange transactions.

                                                                       Note Reference
                                                                       See Note Disclosure 1. J. - Significant Accounting Policies for additional discussion on financial reporting
                                                                       requirements and DoD policies governing Foreign Currency.



                                                                    Note 8. A. Direct Loan and/or Loan Guarantee Programs

                                                                    1. Direct Loan and/or Loan Guarantee Programs:
                                                                       The entity operates the following direct loan and/or Loan guarantee program(s):
                                                                       Military Housing Privatization Initiative
                                                                       Armament Retooling and Manufacturing Support Initiative

                                                                    2. Other Information:


                                                                       Other Information Related to Direct Loan and/or Loan Guarantee Programs
FY02 United States Army Annual Financial Statement




                                                                       Relevant Information For Comprehension
                                                                       Armament Retooling and Manufacturing Support Initiative
                                                                       The Armament Retooling and Manufacturing Support Initiative (ARMS), Title 10 USC 4551-4555, is
                                                                       designed to encourage commercial use of the Army's Inactive Ammunition Plants through many incentives
                                                     General Fund




                                                                       for businesses willing to locate to a government ammunition production facility. These facilities’ production
                                                                       capacity is greater than the current military requirements, however this capacity could be needed in the event
                                                                       of another major war. The revenues from the property rental are used to pay for the operation, maintenance
                                                                       and environmental clean up at the facilities. This savings in overhead cost lowers the production cost of the
                                                                       goods manufactured, and funds the environmental clean up at no cost to the government.

                 152
                                                                                Notes to Principal Statements



   The U.S. Department of Agriculture Rural Business-Cooperative Service (RBS) and the United States Army
   established a Memorandum of Understanding (MOU) to furnish services to the Army in connection with the
   ARMS Initiative Loan Guarantee Program (AILG) pursuant to section 195 of the Armament Retooling and
   Manufacturing Support Act of 1992, as amended (10 U.S.C. 2501 note). The MOU is entered into pursuant
   to section 195 and 31 U.S.C. 1535.

   The Army, by means of the ARMS Initiative legislation, has been authorized to establish a loan guarantee
   program to facilitate commercial firms' use of specified ammunition manufacturing facilities. The Army is
   authorized by Public Law 103-337, the National Defense Authorization Act for Fiscal Year 1995, to enter
   into this agreement with the RBS. The RBS has the needed programmatic and administrative services
   necessary and convenient to provide other services required to administer the AILG Program. Therefore, in
   order to ensure service to the public and for protection of the federal interests and rights, it is necessary for
   the Army to obtain services from the RBS.



Note 8.B.       Direct Loans Obligated After FY 1991
   Not Applicable



Note 8.C.       Total Amount of Direct Loans Disbursed
   Not Applicable



Note 8.D.       Subsidy Expense for Post-1991 Direct Loans
   Not Applicable



Note 8.E.       Subsidy Rate for Direct Loans
   Not Applicable



Note 8.F.       Schedule for Reconciling Subsidy Cost Allowance Balances for
                Post-1991 Direct Loans
   Not Applicable



Note 8.G.       Defaulted Guaranteed Loans from Post-1991 Guarantees
   Not Applicable


                                                                                                                        02
                                                                                                                       fy

                                                                                                                            153
                                                                    Note 8.H.                Guaranteed Loans Outstanding
                                                                    As of September 30,
                                                                    (Amounts in thousands)
                                                                                                                                           Outstanding Principal,
                                                                                                                                             Guaranteed Loans,      Amount of Outstanding
                                                                    Loan Guarantee Program Title                                                     Face Value       Principal Guaranteed
                                                                    2002
                                                                    1. Military Housing Privatization Initiative                                            $0                        $0
                                                                    2. Armament Retooling and Mfg. Support Initiative                                    8,553                     7,698
                                                                    3. Total                                                                            $8,553                    $7,698

                                                                    2001
                                                                    1. Military Housing Privatization Initiative                                             $0                        $0
                                                                    2. Armament Retooling and Mfg. Support Initiative                                         0                         0
                                                                    3. Total                                                                                 $0                        $0

                                                                    4. Other Information:


                                                                         Relevant Information For Comprehension
                                                                         This is a joint program with the USDA. Prior to FY 2002 the USDA was required to include this program in
                                                                         the USDA's financial statements. In FY 2002, the USDA is not required to include this program in its
                                                                         financial statements. Therefore, the Army is required to include it in the Department's financial statements.
                                                                         This is in compliance with Note 36 in the Office of Management and Budget (OMB) Form and Content,
                                                                         OMB Bulletin No. 01-09.



                                                                    Note 8.I.                Liability for Post-1991 Loan Guarantees, Present Value
                                                                    As of September 30,
                                                                    (Amounts in thousands)                                                                2002                      2001

                                                                    Loan Guarantee Program Title
                                                                    1. Military Housing Privatization Initiative                                             $0                        $0
                                                                    2. Armament Retooling and Mfg. Support Initiative                                       730                         0
                                                                    3. Total                                                                               $730                        $0
FY02 United States Army Annual Financial Statement




                                                                    4. Other Information:
                                                                         None.
                                                     General Fund




                 154
                                                                                Notes to Principal Statements



Note 8.J.            Subsidy Expense for Post-1991 Loan Guarantees
As of September 30,
(Amounts in Thousands)


2002                              Interest Differential            Defaults          Fees          Other    Total
1. Subsidy Expense for New Direct Loans Disbursed:
     Military Housing Privatization Initiative         $0              $0              $0             $0     $0
     Armament Retooling and Mfg. Initiative             0             (11)              8              5      2
     Total                                             $0            ($11)             $8             $5     $2

2001                              Interest Differential            Defaults          Fees          Other    Total
2. Subsidy Expense for New Direct Loans Disbursed:
     Military Housing Privatization Initiative         $0               $0             $0             $0     $0
     Armament Retooling and Mfg. Initiative             0                0              0              0      0
     Total                                             $0               $0             $0             $0     $0

                                                               Interest Rate     Technical          Total
2002                                   Modifications            Reestimates    Reestimates   Reestimates    Total
3. Direct Loan Modifications and Reestimates:
     Military Housing Privatization Initiative         $0               $0             $0             $0      $0
     Armament Retooling and Mfg. Initiative             0                0              0              0       0
     Total                                             $0               $0             $0             $0      $0

                                                               Interest Rate     Technical          Total
2001                                   Modifications            Reestimates    Reestimates   Reestimates    Total
4. Direct Loan Modifications and Reestimates:
     Military Housing Privatization Initiative         $0               $0             $0             $0      $0
     Armament Retooling and Mfg. Initiative             0                0              0              0       0
     Total                                             $0               $0             $0             $0      $0

                                                    2002             2001
5. Total Direct Loan Subsidy Expense:
     Military Housing Privatization Initiative         $0               $0
     Armament Retooling and Mfg. Initiative             2                0
     Total                                             $2               $0

6. Other Information:
     Other information consists of prepayments, losses other than default, and outflow other than disbursements.



Note 8.K.            Subsidy Rate for Loan Guarantees
     Not Applicable




                                                                                                                     02
                                                                                                                    fy

                                                                                                                         155
                                                                    Note 8.L.            Schedule for Reconciling Loan Guarantee Liability Balances for
                                                                                         Post-1991 Loan Guarantees
                                                                    Beginning Balance, Changes and Ending Balance                                                               2002
                                                                    (Amounts in Thousands)


                                                                    1. Beginning balance of the loan guarantee liability                                                          $0

                                                                    2. Add: subsidy expense for guaranteed loans disbursed
                                                                       during the reporting years by component:
                                                                         A.   Interest supplement costs                                                                            $0
                                                                         B.   Default costs (net of recoveries)                                                                  (10)
                                                                         C.   Fees and other collections                                                                            7
                                                                         D.   Other subsidy costs                                                                                   5
                                                                         E.   Total of the above subsidy expense components                                                        $2

                                                                    3. Adjustments:
                                                                         A.   Loan guarantee modifications                                                                        $0
                                                                         B.   Fees received                                                                                        0
                                                                         C.   Interest supplements paid                                                                            0
                                                                         D.   Foreclosed property and loans acquired                                                               0
                                                                         E.   Interest accumulation on the liability balance                                                      37
                                                                         F.   Other                                                                                              691
                                                                         G.   Total of the above adjustment                                                                     $728

                                                                    4. Ending balance of the loan guarantee liability before reestimates                                        $730

                                                                    5. Add or subtract subsidy reestimates by component:
                                                                         A.   Interest rate reestimate                                                                            $0
                                                                         B.   Technical/default reestimate                                                                         0
                                                                         C.   Total of the above reestimate components                                                            $0

                                                                    6. Ending balance of the loan guarantee liability                                                           $730

                                                                    7.   Other Information:
FY02 United States Army Annual Financial Statement




                                                                         Relevant Information for Comprehension
                                                                         This is a joint program with the USDA. Prior to FY 2002 the USDA was required to include this program in
                                                                         USDA's financial statements. In FY 2002, the USDA is not required to include this program in its financial
                                                                         statements. Therefore, the Army is required to include it in the Department's financial statements. This is in
                                                                         compliance with Note 36 in the Office of Management and Budget (OMB) Form and Content, OMB Bulletin
                                                     General Fund




                                                                         No. 01-09.

                                                                         "Note 36 Description of Transfers that Appear as a Reconciling Item on the Statement of Financing:

                                                                         When budget authority and other resources are allocated to another agency or bureau (allocation transfer of
                                                                         appropriation- see OMB Circular A-11, sections 20.4 (1) and 71.5), the following guidance applies.
                 156
                                                                                    Notes to Principal Statements



     The parent (transferor of the appropriation) should report the activity in its financial statements, unless the
     allocation transfer is material to the child's (recipient of the transfer) financial statements. If the allocation
     transfer is material to the child's financial statements, the child should report the activity relating to the
     allocation in all of its financial statements, except the Statement of Budgetary Resources. In this case, the
     parent should continue to report the appropriation and the related budgetary activity in its Statements of
     Budgetary Resources. It is the responsibility of the parent to ensure that the reporting to treasury, through
     FACTS I, is consistent with the presentation in the financial statements.

     When the child reports material allocation transfers in its Statement of Net Cost, both the parent and the child
     should report a reconciling item on their respective Statements of Financing. In their footnotes, the parent
     and child should provide a general description of the funds transferred to or the funds received from another
     entity, including the nature and purpose of the transfer. Agencies are encouraged to add more detail (e.g.,
     their trading partner/agency, bureau, and account title for each parent appropriation) as they deem necessary.



Note 8.M. Administrative Expense
As of September 30,
(Amount in thousands)                                                                    2002                      2001

1. Direct Loans:
     Military Housing Privatization Initiative                                              $0                        $0
     Armament Retooling and Mfg. Support Initiative                                          0                         0
     Total                                                                                  $0                        $0

2. Loan Guarantees:
     Military Housing Privatization Initiative                                              $0                        $0
     Armament Retooling and Mfg. Support Initiative                                         36                         0
     Total                                                                                 $36                        $0



Note 9.                  Inventory and Related Property
As of September 30,                                                                      2002                      2001
(Amounts in thousands)
1.   Inventory, Net (Note 9.A.)                                                     $294,480                   $337,525
2.   Operating Materials & Supplies, Net (Note 9.B.)                               26,964,942                27,091,796
3.   Stockpile Materials, Net (Note 9.C.)                                                   0                         0
4.   Total                                                                        $27,259,422               $27,429,322




                                                                                                                            02
                                                                                                                           fy

                                                                                                                                157
                                                                    Note 9.A.                Inventory, Net
                                                                    As of September 30
                                                                    (Amounts in thousands)                                                 2002                            2001
                                                                                                                          Inventory,   Revaluation   Inventory,   Inventory,      Valuation
                                                                    1. Inventory Categories:                            Gross Value     Allowance          Net          Net        Method
                                                                         A.    Available and Purchased for Resale         $57,377      ($12,958)      44,419       $80,734           LAC
                                                                         B.    Held for Repair                                  0              0           0             0
                                                                         C.    Excess, Obsolete, and Unserviceable              0              0           0             0
                                                                         D.    Raw Materials                                    0              0           0             0
                                                                         E.    Work in Process                            250,061              0     250,061       256,791              SP
                                                                         F.    Total                                     $307,438      ($12,958)     294,480      $337,525

                                                                         Legend for Valuation Methods:
                                                                         Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses
                                                                         NRV = Net Realizable Value
                                                                         O = Other
                                                                         SP = Standard Price
                                                                         AC = Actual Cost

                                                                    2. Restrictions of Inventory Use, Sale, or Disposition:

                                                                    3. Other Information:


                                                                         General Composition of Inventory
                                                                         Inventory includes spare and repair parts, clothing and textiles, fuels, and ammunition. Inventory is tangible
                                                                         personal property that is

                                                                         1) Held for sale, or held for repair for eventual sale;

                                                                         2) In the process of production for sale; or

                                                                         3) To be consumed in the production of goods for sale or in the provision of services for a fee.

                                                                         "Inventory held for repair" is damaged material that requires repair to make it usable. "Excess inventory" is
FY02 United States Army Annual Financial Statement




                                                                         condemned material that must be retained for management purposes. "Work in process" includes munitions
                                                                         in production and depot maintenance work with its associated labor, applied overhead, and supplies used in
                                                                         the delivery of maintenance services. The USSGL does not include a separate work in process account
                                                                         unrelated to sales.
                                                     General Fund




                                                                         Restrictions of Inventory Use, Sale or Disposition
                                                                         There are no restrictions on the use, sale, or disposition of inventory except in the following situations:
                                                                         1) distributions without reimbursement are made when authorized by DoD directives;
                                                                         2) War Reserve Material includes fuels and subsistence items that are considered restricted; and
                                                                         3) Inventory, with the exception of safety stocks, may be sold to foreign, state and local governments,
                                                                         private parties, and contractors in accordance with current policies and guidance or at the direction of the
                 158                                                     President.
                                                                          Notes to Principal Statements



Decision Criteria for Identifying the Category to Which Operating Materials and Supplies are Assigned
Managers determine which items are more costly to repair than to replace. Items retained for management
purposes are coded "condemned." The net value of these items is zero, and is shown as "Excess, Obsolete,
and Unserviceable."

Changes in the Criteria for Identifying the Category to Which Inventory is Assigned
The category "Held for Sale" includes all issuable material. The category "Held for Repair" includes all
economically reparable material. Before FY 2002, the Department showed "Potentially re-distributable"
material, regardless of condition, as "Excess, Obsolete, and Unserviceable."

Other information Related to Inventory, Net

Fluctuations and/or Abnormalities
Army Conventional Ammunition Working Capital Fund (CAWF)
The CAWF appropriation contains the Inventory "Available and Purchased for Resale and Work in Progress."
There is a 45% decrease in the Inventory, Gross Value/Available and Purchased for Resale, Inventory, Net of
$36,315 thousand, from $80,734 thousand in FY 2001 to $44,419 thousand in FY 2002. The CAWF
inventory will continue to drop because the CAWF is in the process of closing out. The projected date for the
CAWF to complete production and delivery of all CAWF orders is set for June 2004. The CAWF orders are
projected to be final billed by October 2004 and the financial close-out of CAWF contracts is set for June
2005. The final CAWF financial position then will be determined and the CAWF will close on 31 October
2005. Of course these dates are not firm and most likely will change. Any slip in production, the ability to
award a contract in a timely manner, or a host of other variables could cause these dates to slip.

The majority of the CAWF work in process is being performed at the Government Owned Contractor
Operated (GOCO) plants. Also, the CAWF stopped accepting new customer orders in July 1998 at which
time Procurement Appropriation took over the acceptance of any new orders for ammunition.

Note Reference
See Note Disclosure 1. M. - Significant Accounting Policies for additional discussion on financial reporting
requirements and DoD policies governing Inventory and related Property.




                                                                                                                 02
                                                                                                                fy

                                                                                                                     159
                                                                    Note 9.B.                Operating Materials and Supplies, Net
                                                                    As of September 30,
                                                                    (Amounts in thousands)                                              2002                           2001

                                                                                                                                    Revaluation                                Valuation
                                                                    1. OM&S Categories:                          OM&S Gross Value    Allowance       OM&S, Net     OM&S, Net    Method
                                                                         A.    Held for Use                          $26,964,942            $0    $26,964,942    $27,078,918         LAC
                                                                         B.    Held for Repair                                 0             0              0              0
                                                                         C.    Excess, Obsolete, and Unserviceable       568,040     (568,040)              0         12,879         SP
                                                                         D.    Total                                 $27,532,982    ($568,040)    $26,964,942    $27,091,797

                                                                         Legend for Valuation Methods:
                                                                         Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses
                                                                         NRV = Net Realizable Value
                                                                         O = Other
                                                                         SP = Standard Price
                                                                         AC = Actual Cost

                                                                    2. Restrictions on OM&S:
                                                                         The total tonnage of munitions stock, to include chemical stocks, awaiting destruction for FY 2002 and out
                                                                         years is 439,384.

                                                                         Army owns $5,000,000 thousand in ammunition that is under treaty agreements and is not intended for use
                                                                         by U.S. Forces. This ammunition is intended for use in defense of the host nation by the host nation.

                                                                    3. Other Information:
                                                                         Adjustment for National Defense Property, Plant, and Equipment
                                                                         In accordance with the Department of Defense Inspector General (DoDIG) directive to remove FY 2001
                                                                         OM&S balances on the Balance Sheet for retail and wholesale guided missiles, a Prior Period Adjustment
                                                                         was prepared to remove $7,114,213 thousand in FY 2001 OM&S, and $6,747,585 thousand in FY 2002.
                                                                         The DoDIG's opinion is that these items should not have been reclassified as O&MS from ND PP&E on the
                                                                         FY 2001 financial statements, but should continue to be reported as National Defense Property, Plant, and
                                                                         Equipment. This restatement of FY 2001 numbers brings the Army's report in line with what was reported
FY02 United States Army Annual Financial Statement




                                                                         on the FY 2001 Government-wide financial statements

                                                                         General Composition of Operating Materials and Supplies
                                                                         Operating Materials and Supplies includes spare and repair parts, ammunition, tactical missiles, aircraft
                                                                         configuration pods, and centrally managed aircraft engines.
                                                     General Fund




                                                                         Changes In The Criteria For Identifying The Category To Which Operating Materials And Supplies Are
                                                                         Assigned
                                                                         The category "Held for Use" includes all issuable material. The category "Held for Repair" includes all
                                                                         economically reparable material. Before FY 2002, the Department showed "Potentially re-distributable"
                                                                         material, regardless of condition, as "Excess, Obsolete, and Unserviceable."
                 160
                                                                            Notes to Principal Statements



  Decision Criteria For Identifying The Category To Which Operating Materials And Supplies Are Assigned
  Managers determine which items are more costly to repair than to replace. Items retained for management
  purposes are coded "condemned." The net value of these items is zero, and is shown as "Excess, Obsolete,
  and Unserviceable."

  Other Information Related to Operating Material and Supplies, Net

  Fluctuations and/or Abnormalities
  Total Excess, Obsolete and Unserviceable
  In FY 2001, the Office of the Under Secretary of Defense provided us with a 1.9% figure we were to report
  in the OM&S, Net column. The financial statements of the Department of Defense reflected values of
  excess, obsolete, and unserviceable inventory and operating materials and supplies that were derived from the
  Supply System Inventory Report (SSIR). In FY 2002, the Office of the Under Secretary of Defense advised
  the Services that they will no longer use the SSIR as the basis for its financial presentation of excess,
  obsolete, and unserviceable inventory. The account "Excess, Obsolete and Unserviceable" will be populated
  as defined by the Military Standard Transaction Reporting and Accounting Procedures Manual (DoD
  4000.25-2-M). The disposal facilities will also record 100% revaluation allowance, which produces an
  inventory value of zero.

  Relevant Information for Comprehension
  Government Furnished Material (GFM) and Contractor Acquired Material (CAM)
  Generally, the value of the Army's GFM and CAM in the hands of contractors is not included in the OM&S
  values reported above. The DoD presently is reviewing its process for reporting these amounts in an effort to
  determine the appropriate accounting treatment and the best method to collect and report annually required
  information without duplicating information already in other existing logistics systems.

  Note Reference
  See Note Disclosure 1. M. - Significant Accounting Policies for additional discussion on financial reporting
  requirements and DoD policies governing Inventory and Related Property.



Note 9.C.      Stockpile Materials, Net
  Not Applicable




                                                                                                                   02
                                                                                                                  fy

                                                                                                                       161
                                                                    Note 10.                 General PP&E, Net
                                                                    As of September 30,
                                                                    (Amounts in thousands)                                                         2002                                      2001
                                                                                                    Depreciation/                                     (Accumulated
                                                                                                    Amortization                     Acquisition       Depreciation/            Net    Prior FY Net
                                                                    1. Major Asset Classes:              Method     Service Life          Value        Amortization)     Book Value     Book Value
                                                                         A. Land                            N/A            N/A       $423,884                  N/A       $423,884       $389,471
                                                                         B. Buildings, Structures and
                                                                            Facilities                      S/L   20 Or 40          35,376,259 ($22,393,721)            12,982,538     12,220,845
                                                                         C. Leasehold Improvements          S/L lease term               8,731         (7,398)                1,333            554
                                                                         D. Software                        S/L 2-5 Or 10                  942           (574)                  368            671
                                                                         E. Equipment                       S/L    5 Or 10           2,260,798    (1,512,977)               747,821       690,381
                                                                         F. Assets Under Capital Lease1     S/L lease term             166,069      (110,513)                55,556        63,859
                                                                         G. Construction-in-Progress        N/A        N/A           4,471,634             N/A           4,471,634       4,237,160
                                                                         H. Other                                                       17,492               0               17,492         18,597
                                                                         I. Total General PP&E                                     $42,725,809 ($24,025,183)           $18,700,626    $17,621,538

                                                                         1
                                                                          Note 15.B for additional information on Capital Leases

                                                                         Legend for Valuation Methods:
                                                                         S/L = Straight Line       N/A = Not Applicable

                                                                    2. Other Information:


                                                                         Relevant Information for Comprehension
                                                                         z The increase in Buildings, Structures, and Facilities is due to a review of the National Guard's property
                                                                           system. During the review, the National Guard discovered that property items were coded as state owned
                                                                           rather than federal owned. These corrections are reflected in the current year increase. The National
                                                                           Guard also included cost for structures not included previously in their property system.

                                                                         z In fiscal year 2002, the Army is reporting $8,251 thousand of land previously reported by
                                                                           Nonappropriated Funds and Defense Logistics Agency.
FY02 United States Army Annual Financial Statement




                                                                         z The Army implemented the Defense Property Accountability System (DPAS) for Table of Distribution
                                                                           and Allowances (TDA) property books to account for personal property. DPAS is an automated CFO-
                                                                           compliant system. Notably, it captures accounting and depreciation data, and provides greater visibility of
                                                                           the Army's capital assets.

                                                                         z The $17,492 thousand for Other represents Natural Resources (Value of Timber Reserves).
                                                     General Fund




                                                                         Military Equipment (Unaudited Supplementary Information)
                                                                         In June 2002, the Federal Accounting Standards Advisory Board issued in draft a standard entitled
                                                                         Eliminating the Category National Defense Property, Plant, and Equipment (ND PP&E). In addition to
                                                                         eliminating the category ND PP&E, this standard would rescind Statement of Federal Financial Accounting
                                                                         Standards (SFFAS) No. 11, Amendment to Property, Plant, and Equipment - Definitional Changes; amends
                 162                                                     SFFAS No. 8, Supplementary Stewardship Reporting; and amends SFFAS No. 6, Accounting for Property,
                                                                           Notes to Principal Statements



Plant, and Equipment. This standard is effective for years ending after September 30, 2002. The standard
currently is sitting before Congress for a 45-day period in accordance with provisions of the Chief Financial
Officers Act of 1990.

Prior standards provide for the expensing of ND PP&E when costs are incurred and the reporting of such
costs as supplementary stewardship information. The Department of Defense has not reported the cost of
ND PP&E in accordance with existing standards due to an absence of detailed cost information for property
acquired over many decades.

The standard on eliminating the category of ND PP&E provides for the capitalization of property previously
defined as ND PP&E and the reporting of such property as General Property, Plant, and Equipment. In
recognition of the absence of detailed historical cost information, this standard provides that, "If obtaining
initial historical cost is not practical, estimated historical cost may be used. Other information such as but
not limited to budget, appropriation, or engineering documents and other reports reflecting amounts
expended may be used as the basis for estimating historical cost." The standard acknowledges that
imprecision may result from the use of estimates or other information.

Capitalization of property previously defined as ND PP&E will require extensive research to develop cost
estimates for the property inventory. The Department initiated the valuation process this fiscal year by
conducting detailed reviews of three selected "pilot" programs including the Paladin Mobile Howitzer. The
objective of this effort was the development of a valuation methodology and associated business rules, which
the Department could use to value the balance of its military equipment. The accompanying information
summarizes the results of the review of the Paladin program.

Valuation basis
The valuation is based on information derived from reports reflecting amounts expended on this program.

Included costs - The estimated total program costs include funds expended for procurement, research,
development, test and evaluation, trainers and simulators, government furnished equipment, and other items
included in the cost of the acquisition programs. The estimated portion of total program cost attributable to
equipment under construction is reported as "work-in-process."

Useful life and depreciation - The estimated useful life used for the Paladin Howitzer is 20 years.
Depreciation is calculated on a group basis whereby the depreciation rate is applied to the estimated
cumulative cost of the equipment "placed in service."

Estimated program cost, accumulated depreciation, and net book value for the Paladin Howitzer are
presented in the following table for disclosure purposes only. The balances have not been recorded in Army's
Balance Sheet.


Paladin Mobile Howitzer
                                                (Dollars in Thousands)
                                Program Cost Accumulated Depreciation        Net Book Value                       02
                                                                                                                 fy
Placed in service               $ 1,802,420               ($541,660)          $ 1,260,760
                                                                                                                      163
Work in process                      17,429                        0               17,429
                                                                         Note Reference
                                                                         See Note Disclosure 1. N. - Significant Accounting Policies for additional discussion on financial reporting
                                                                         requirements and DoD policies governing General Property, Plant and Equipment (PP&E).



                                                                    Note 10.A. Assets Under Capital Lease
                                                                    As of September 30,
                                                                    (Amounts in thousands)                                                                      2002                 2001

                                                                    1. Entity as Lessee, Assets Under Capital Lease:
                                                                         A.    Land and Buildings                                                           $166,069             $166,069
                                                                         B.    Equipment                                                                            0                    0
                                                                         C.    Other                                                                                0                    0
                                                                         D.    Accumulated Amortization                                                     (110,513)            (102,210)
                                                                         E.    Total Capital Leases                                                          $55,556              $63,859

                                                                    2. Description of Lease Arrangements:
                                                                         The current portion of the liability, as shown on Note 15.A., is $10,800 thousand and the noncurrent portion
                                                                         is $71,139 thousand. Future executory costs of $21,826 thousand are estimates based on historical data. The
                                                                         use of estimates for these costs has been deemed adequate and appropriate due to the relatively low dollar
                                                                         value of capital leases. Imputed interest was necessary to reduce net minimum lease payments to the present
                                                                         value calculated at the incremental borrowing rate at the inception of the leases.

                                                                    3. Other Information:


                                                                         Relevant Information for Comprehension
                                                                         Assets Under Capital Lease decreased by $8,303 thousand due to straight-line depreciation of Leased Assets.

                                                                         Note Reference
                                                                         See Note Disclosure 1. Q. - Significant Accounting Policies for additional discussion on financial reporting
                                                                         requirements and DoD policies governing Leases.
FY02 United States Army Annual Financial Statement




                                                                    Note 11.                 Liabilities Not Covered and Covered by Budgetary Resources
                                                                    As of September 30,
                                                                    (Amounts in thousands)                                                       2002                                2001
                                                                                                                              Covered by   Not Covered By
                                                                    1. Intragovernmental Liabilities:                Budgetary Resources     by Budgetary               Total
                                                     General Fund




                                                                         A.    Accounts Payable                               $774,545              $0             $774,545       $874,432
                                                                         B.    Debt                                                  0             157                  157            108
                                                                         C.    Environmental Liabilities                             0               0                    0              0
                                                                         D.    Other                                           531,533         344,871              876,404        658,664
                                                                         E.    Total Intragovernmental Liabilities          $1,306,078        $345,028           $1,651,106     $1,533,204



                 164
                                                                                     Notes to Principal Statements



As of September 30,
(Amounts in thousands)                                                    2002                                   2001
                                                       Covered by   Not Covered By
2. Non-federal Liabilities:                   Budgetary Resources     by Budgetary              Total
     A.    Accounts Payable                          $5,967,178                $0         $5,967,178       $6,698,778
     B.    Military Retirement Benefits and
           Other Employment-Related
           Actuarial Liabilities                              0        1,624,557           1,624,557        1,646,526
     C.    Environmental Liabilities                          0       35,078,280          35,078,280       40,071,084
     D.    Loan Guarantee Liability                         730                0                 730                0
     E.    Other Liabilities                          3,843,568        5,165,176           9,008,744        6,944,358
     F.    Total Non-Federal Liabilities             $9,811,476      $41,868,013         $51,679,489      $55,360,746

3. Total Liabilities:                                $11,117,554    $42,213,041          $53,330,595     $56,893,950

4. Other Information:


     Liabilities Not Covered and Covered by Budgetary Resources
     z Liabilities Not Covered by Budgetary Resources are those liabilities which are not considered covered by
       realized budgetary resources as of the balance sheet date.

     z Liabilities Covered by Budgetary Resources are those that are incurred by the reporting entity that are
       covered by realized budget resources as of the balance sheet date. Budgetary resources encompass not
       only new budget authority, but also other resources available to cover liabilities for specified purposes in a
       given year. Available budgetary resources include: (1) new budget authority, (2) spending authority from
       offsetting collections (credited to an appropriation or fund account), 3) recoveries of unexpired budget
       authority through downward adjustments of prior year obligations, 4) unobligated balances of budgetary
       resources at the beginning of the year or net transfers of prior year balances during the year, and 5)
       permanent indefinite appropriations or borrowing authority, which have been enacted and signed into law
       as of the balance sheet date, provided that the resources may be apportioned by the OMB without further
       action by the Congress or without a contingency first having to be met.

     z A schedule is presented below to identify Army's Other Intragovernmental and Non-Federal liabilities.

Intragovernmental Liabilities-Other                                                              Amounts (in thousands)
     Funded                  Disbursing Officer Cash                                                        $ 300,378
                             Unemployment Comp                                                                 89,210
                             Advances from Others                                                              65,329
                             Employer Contributions                                                            52,758
                             FECA (delinquencies)                                                              23,985
                             VSIP                                                                               1,034
                             Deposit Fund Liability                                                            (1,161)
     Total Funded                                                                                            $531,533
     Unfunded                FECA                                                                            $269,625

     Total Unfunded
                             Judgment Fund                                                                     75,246
                                                                                                             $344,871      02
                                                                                                                          fy

                                                                                                                               165
Total Intragovernmental Liabilities - Other                                                                $876,404
                                                                    Non-Federal Liabilities-Other Liabilities                                                          Amounts (in thousands)
                                                                         Funded                   Accrued Payroll                                                                $2,111,116
                                                                                                  Contract Holdbacks                                                               617,351
                                                                                                  Advances                                                                         476,385
                                                                                                  Contingent Liabilities                                                           303,781
                                                                                                  Employer Contributions                                                           242,389
                                                                                                  Capital Leases                                                                    81,939
                                                                                                  TERA                                                                                9,952
                                                                                                  Nonenvironmental - Other                                                              627
                                                                                                  Deposit Fund Liability                                                                 28
                                                                         Total Funded                                                                                           $3,843,568
                                                                         Unfunded                 Annual Leave                                                                  $2,712,350
                                                                                                  Nonenvironmental -Disposal                                                     1,424,298
                                                                                                  Contingent Liabilities                                                           960,000
                                                                                                  Cancelled Appropriations                                                          68,528
                                                                         Total Unfunded                                                                                         $5,165,176

                                                                    Total Non-Federal Liabilities - Other                                                                      $9,008,744


                                                                         Note Reference
                                                                         For Additional Line Item discussion, see:
                                                                         Note 8, Direct Loan and/or Loan Guarantee Programs
                                                                         Note 12, Accounts Payable
                                                                         Note 13, Debt
                                                                         Note 14, Environmental Liabilities and Disposal Liabilities
                                                                         Note 15, Other Liabilities
                                                                         Note 16, Commitments and Contingencies
                                                                         Note 17, Military Retirement Benefits and Other Employment Related Actuarial Liabilities



                                                                    Note 12.                 Accounts Payable
                                                                    As of September 30,
                                                                                                                                                  2002                                 2001
FY02 United States Army Annual Financial Statement




                                                                    (Amounts in thousands)
                                                                                                                                     Interest, Penalties, and
                                                                                                                  Accounts Payable      Administrative Fees           Total              Total
                                                                    1. Intragovernmental Payables:                      $774,545                        N/A      $774,545          $874,432
                                                                    2. Non-Federal Payables
                                                                       (to the Public):                               $5,967,178                         $0      5,967,178         6,698,778
                                                                    3. Total                                           6,741,723                         $0     $6,741,723        $7,573,210
                                                     General Fund




                                                                    4. Other Information:
                                                                         Intragovernmental Accounts Payable consists of amounts owed to other federal agencies for goods or
                                                                         services ordered and received but not yet paid. Interest, penalties and administrative fees are not applicable
                                                                         to intragovernmental payables. Non-Federal Payables (to the Public) are payments to non-federal
                                                                         government entities.
                 166
                                                                             Notes to Principal Statements



Fluctuation and/or Abnormality
Total Account Payable decreased $831,487 thousand (11%) between current year and prior year. The
majority of this decrease is attributable to a re-classification of liabilities in FY 2002 from Accounts Payable
to Accrued Funded Payroll and Benefits for the Active Army; Military Personnel appropriation.

Other Information Related to Accounts Payable

Relevant Information for Comprehension
Undistributed Disbursements
Undistributed disbursements are the difference between disbursements/collections recorded at the detailed
level to a specific obligation, payable, or receivable in the activity field records versus those reported by the
U.S. Treasury via the reconciled DD 1329 and DD 1400. This should agree with the undistributed
disbursements reported on accounting reports (SF 133/ (M) 1002/ (M) 1307). Intransit payments are
payments that have been made for other agencies or entities that have not been recorded in their accounting
records. These payments are applied to the entities outstanding accounts payable balance at year-end.
Accounts payable were adjusted downward in the amount of $449,173 thousand for these payments.

Intragovernmental Eliminations
The majority of intra-agency sales Army accounting systems do not capture trading partner data at the
transaction level in a manner that facilitates trading partner aggregations. Therefore, the Army was unable to
reconcile intragovernmental accounts payable to the related intragovernmental accounts receivable that
generated the payable.

The DoD summary level seller accounts receivables were compared to the Army accounts payable. An
adjustment was posted to the Army accounts payable based on the comparison with the accounts receivable
of the DoD Components providing goods and services to the Army. Positive differences were treated as
unrecognized accounts payable and in the case of the Army, accounts payable were adjusted upwards in the
amount of $839,063 thousand.

The Department intends to develop long-term systems improvements that will include sufficient up-front
edits and controls to eliminate the need for after-the-fact reconciliations. The volume of intragovernmental
transactions is so large that after-the-fact reconciliation cannot be accomplished with the existing or
foreseeable resources.

Note Reference
See Note Disclosure 1. G. - Significant Accounting Policies for additional discussion on financial reporting
requirements and DoD policies governing accounting for Intragovernmental Activities.




                                                                                                                     02
                                                                                                                    fy

                                                                                                                         167
                                                                    Note 13.                 Debt
                                                                    As of September 30,
                                                                    (Amounts in thousands)                                                    2002                                       2001

                                                                    1. Public Debt:                                 Beginning Balance   Net Borrowings       Ending Balance      Ending Balance
                                                                         A.    Held by Government Accounts                      N/A               N/A                  N/A                 N/A
                                                                         B.    Held by the Public                               N/A               N/A                  N/A                 N/A
                                                                         C.    Total Public Debt                                N/A               N/A                  N/A                 N/A

                                                                    2. Agency Debt:
                                                                         A.    Debt to the Treasury                              $0                $0                    $0                 $0
                                                                         B.    Debt to the Federal Financing Bank                 0                 0                     0                  0
                                                                         C.    Debt to Other Federal Agencies                   108                49                   157                108
                                                                         D.    Total Agency Debt                               $108               $49                  $157               $108

                                                                    3. Total Debt:                                             $108               $49                  $157              $108

                                                                    4. Classification of Debt:
                                                                         A.    Intragovernmental Debt                                                                  $157               $108
                                                                         B.    Non-Federal Debt                                                                         N/A                N/A
                                                                         C.    Total Debt                                                                              $157               $108

                                                                    5. Other Information:


                                                                         Relevant Information For Comprehension
                                                                         Debt to Other Federal Agencies represents the unfunded interest payable on reimbursements to the DoD
                                                                         Education Benefits Trust Fund for education benefits paid on behalf of separated Army personnel. The DoD
                                                                         Board of Actuaries determined the amount of accumulated interest to be $157 thousand for FY 2002.



                                                                    Note 14.                 Environmental Liabilities and Disposal Liabilities
                                                                    As of September 30,
                                                                    (Amounts in thousands)                                                                   2002                        2001
FY02 United States Army Annual Financial Statement




                                                                                                                                            Current      Noncurrent
                                                                    1. Environmental Liabilities:                                           Liability      Liability          Total       Total
                                                                         A.    Intragovernmental:
                                                                               1. Accrued Environmental Restoration
                                                                                    (Defense Environmental Restoration Program
                                                                                    (DERP) funded) Costs:
                                                     General Fund




                                                                                    a. Active Installations-Environmental Restoration (ER)    $0                $0             $0           $0
                                                                                    b. Active Installations—ER for Closed Ranges               0                 0              0            0
                                                                                    c. Formerly Used Defense Sites (FUDS) —ER                  0                 0              0            0
                                                                                    d. FUDS—ER for Transferred Ranges                          0                 0              0            0
                                                                               2. Other Accrued Environmental Costs (Non-DERP funds)
                                                                                    a. Active Installations—Environmental Corrective Action    0                  0              0           0
                                                                                    b. Active Installations—Environmental Closure Requirements 0                  0              0           0
                 168                                                                c. Active Installations—Environ. Response at Active Ranges 0                  0              0           0
                                                                                    d. Other                                                   0                  0              0           0
                                                                                  Notes to Principal Statements



As of September 30,
(Amounts in thousands)                                                                2002                     2001

                                                                      Current     Noncurrent
1. Environmental Liabilities:                                         Liability     Liability      Total        Total
     A.    Intragovernmental:
           3. Base Realignment and Closure (BRAC)
                a. BRAC Installations--Environmental Restoration (ER)           0          0            0          0
                b. BRAC Installations--ER for Transferring Ranges               0          0            0          0
                c. BRAC Installations--Environmental Corrective Action          0          0            0          0
                d. Other                                                        0          0            0          0
           4. Environmental Disposal for Weapon Systems Programs
                a. Nuclear Powered Aircraft Carriers                            0          0            0          0
                b. Nuclear Powered Submarines                                   0          0            0          0
                c. Other Nuclear Powered Ships                                  0          0            0          0
                d. Other National Defense Weapon Systems                        0          0            0          0
                e. Chemical Weapons Disposal Program                            0          0            0          0
                f.   Other                                                      0          0            0          0
           5. Total Intragovernmental Environmental
                Liabilities:                                                   $0         $0           $0         $0
     B.    Non-Federal:
           1. Accrued Environmental Restoration (DERP funded) Costs:
                a. Active Installations--Environmental
                     Restoration (ER)                                   $791,062 $3,377,471 $4,168,533 $4,207,241
                b. Active Installations--ER for Closed Ranges              24,514    624,922     649,436   1,812,297
                c. Formerly Used Defense Sites (FUDS) -- ER              281,411   4,023,445   4,304,856   3,170,282
                d. FUDS--ER for Transferred Ranges                        114,139 11,106,176 11,220,315 14,473,400
           2. Other Accrued Environmental Costs (Non-DERP funds)
                a. Active Installations--Environmental Corrective Action 68,127      213,114     281,241     366,528
                b. Active Installations--Environmental
                     Closure Requirements                                  10,609     33,956       44,565     53,098
                c. Active Installations--Environ.Response at Active
                     Ranges                                                38,900    253,300     292,200     277,700
                d. Other                                                   15,160          0       15,160          0
           3. Base Realignment and Closure (BRAC)
                a. BRAC Installations--Environmental Restoration (ER) 116,978        458,173     575,151     607,508
                b. BRAC Installations--ER for Transferring Ranges          11,178    356,339      367,517    398,557
                c. BRAC Installations--Environmental Corrective Action 22,500         49,806      72,306      71,127
                d. Other                                                 269,696           0     269,696     380,839
           4. Environmental Disposal for Weapons Systems Programs
                a. Nuclear Powered Aircraft Carriers                            0          0            0          0
                b. Nuclear Powered Submarines                                   0          0            0          0
                c. Other Nuclear Powered Ships                                  0          0            0          0
                d. Other National Defense Weapons Systems                       0          0            0          0
                e. Chemical Weapons Disposal Program                   2,168,524 10,648,780 12,817,304 14,252,507
                f.   Other                                                      0          0            0          0
           5. Total Non-Federal Environmental Liabilities:            $3,932,798 $31,145,482 $35,078,280 $40,071,084
                                                                                                                         02
                                                                                                                        fy

2. Total Environmental Liabilities:                               $3,932,798 $31,145,482 $35,078,280 $40,071,084             169
                                                                    3. Other Information:


                                                                    Relevant Information For Comprehension
                                                                    Environmental Cost Liabilities
                                                                    The Defense Environmental Restoration Program (DERP) was established by Section 211 of the Superfund
                                                                    Amendments and Reauthorization Act of 1986 codified in Title 10 of the United States Code, Section 2701.
                                                                    Related sections in Title 10 of the United States Code, 2701-2706 and 2810-2811, further define the program.
                                                                    The DERP is implemented in accordance with the Department of Defense (DoD) Directive 4715.1,
                                                                    Environmental Security, February 24, 1996; DoD Instruction 4715.7, Environmental Restoration Program,
                                                                    April 22, 1996; and the Management Guidance for the Defense Environmental Restoration Program,
                                                                    September 28, 2001. Environmental liabilities for the Army DERP and the Base Realignment and Closure
                                                                    (BRAC) are prepared in accordance with the Management Guidance for the Defense Environmental
                                                                    Restoration Program and the DoD Financial Management Regulation (FMR) 7000.14.

                                                                    The assigned estimated total cleanup cost for the current operating period is the amount of the current year
                                                                    appropriation. The assigned total cleanup liability cost includes the current year budget and the total prior
                                                                    year un-liquidated obligations.

                                                                    There is no unrecognized portion of the estimated total cleanup cost associated with general PP&E and there
                                                                    are no material changes in the total estimated liability due to changes in laws, technology, or plans. The
                                                                    major change in technology affecting the liability estimate was standardizing use of the estimating tools
                                                                    consistently across the Army programs.

                                                                    The estimates used for environmental liability calculations are estimates of the cost to complete all activities
                                                                    at a site of environmental concern. The cost estimates are calculated at the site-level using a validated cost-
                                                                    estimating model or an engineered cost and entered into a database. There were no changes to the total
                                                                    liability cost due to inflation, deflation, technology, or applicable laws and regulations.

                                                                    Environmental Disposal Cost Liabilities:
                                                                    No Liabilities for Environmental Disposal for Weapon Systems Programs were reported by ACSIM.
FY02 United States Army Annual Financial Statement




                                                                    Range Characteristics
                                                                    For FY2001 and FY2002, the Army estimated that its environmental liability at closed, transferred and
                                                                    transferring ranges was $16,684,254 thousand and $12,237,268 thousand respectively. Currently, the Army
                                                                    is inventorying closed ranges at 430 sites, transferred ranges at 1,650 properties, and transferring ranges at 63
                                                                    sites.
                                                     General Fund




                                                                    z Closed Ranges. $649,436 thousand must be expended to characterize and investigate closed ranges.
                                                                      Until such characterization is completed, total environmental liabilities cannot be estimated. Closed
                                                                      ranges have been taken out of service as a range and put to new use (incompatible with range activities) or
                                                                      are not considered by the military to be a potential range area. A closed range is still under the control of
                                                                      a DoD Component.

                 170
                                                                    z Transferring Ranges. Site level investigations reveal that the total environmental liability for these types
                                                                      of ranges is $367,517 thousand. Transferring ranges are proposed for transfer or will be returned from
                                                                            Notes to Principal Statements



    DoD to another entity, including other federal entities.

z Transferred Ranges. 1,549 out of 1,650 properties have completed range inventories and the estimated
  liability for those ranges is $11,220,315 thousand. These are properties formerly used as a military range
  that are no longer under military control and have been leased by DoD, transferred, or returned from the
  DoD to another entity, including federal entities.

z Active Ranges. At this time, the Army is conducting only one active range investigation and
  characterization, that being for the Massachusetts Military Reservation. The cost of the characterization
  and investigation is $292,200 thousand. This pays for sampling and analysis, groundwater monitoring,
  feasibility studies, soil and groundwater cleanup, and the Unexploded Ordnance (UXO) investigation and
  response. Active ranges include military ranges that are currently in service and are being used regularly,
  but that are considered still by the cognizant Military Service to be a potential range area, and that have
  not been put to a new use that is incompatible with range activities.

Methodology Used to Estimate Environmental Liabilities
The Army uses the annual cost-to-complete estimate as the basis for the environmental liability calculation.
The cost-to-complete estimate is prepared for each site in the DERP in accordance with the Management
Guidance for the DERP and the DoD FMR 7000.14.

Accrued Environmental Restoration (DERP Funded) Costs:
For Active installations the cost-to-complete estimate is collected in the Defense Site Environmental
Restoration Tracking System (DSERTS). The current liability number is based on FY 2003 allocation and
unliquidated obligations (ULOs). The ULO data are pulled from preliminary FY 2002 year-end reports
provided by DFAS. Noncurrent liabilities include the cost-to-complete estimates from FY 2004 through
program completion in accordance with the Management Guidance for the DERP and the DoD FMR
7000.14.

At Formerly Used Defense Site (FUDS) properties, the cost-to-complete estimate is collected in the FUDS
Management Information System (FUDMIS). The current liability number also is based on FY 2003
allocation and the ULOs. The ULO data are obtained from the Corps of Engineers Financial Management
System (CEFMS) for existing FUDS ULOs as of September 30. Noncurrent liabilities include the cost-to-
complete estimates from FY 2004 through program completion in accordance with the Management
Guidance for the DERP and the DoD FMR 7000.14.

Active Installations - Environmental Restoration for Closed Ranges. Noncurrent liability for Environmental
Restoration (ER) for closed ranges, is a developing requirement based on the results of an Army-wide
inventory of all ranges. The inventory for closed ranges is 30% complete. The $624,922 thousand
noncurrent liability estimate for ER at closed ranges is the most probable cost and is based on site-level data.
Estimates for closed ranges that have not been inventoried are disclosed as a possible contingent liability in
Note 16.

FUDS - Environmental Restoration for Transferred Ranges. The noncurrent liability for ER for transferred            02
                                                                                                                   fy

ranges is also based on results of an inventory of transferred ranges at 1,650 properties. The inventory of             171
transferred ranges is 94% complete with site-level cost data collected from 1,549 properties.
                                                                    Other Accrued Environmental Costs (Non-DERP Funds):
                                                                    Active Installations - Environmental Corrective Action. Reflects the total of active projects in the Fall 01
                                                                    Environmental Program Requirements (EPR) data base which are reported under 1) the Law/Reg RCRA-C
                                                                    with Environmental Category (ECAT) CORA (Corrective Action), 2) the Law/Reg RCRA-D with ECAT
                                                                    CORA, 3) the Law/Reg RCRA-I with ECAT USTR (Underground Storage Tanks) and the Law/Reg
                                                                    SFND/CLNP (Superfund/Cleanup) with all ECATs (including those for Preliminary Assessments/Site
                                                                    Investigations, Remedial Action (CONUS Cleanup), and Removal Actions (Overseas Cleanup). The Current
                                                                    Liability total reflects costs recorded in the EPR for FY 2003, while the Noncurrent Liability total reflects
                                                                    total estimated costs for FY 2004 through FY 2015.

                                                                    Active Installations - Environmental Closure Requirements. Reflects the total of active projects in the Fall
                                                                    01 EPR database which are reported under 1) the Law/Reg RCRA-C with ECAT CPLN (Closure Plan) and
                                                                    2) RCRA-D with ECAT CPLN. The Current Liability total reflects costs recorded in the EPR for FY 2003,
                                                                    while the Noncurrent Liability total reflects total estimated costs for FY 2004 through FY 2015.

                                                                    Active installations - Environmental Response at Active Ranges. The estimated total Non-DERP liability for
                                                                    Environmental Response at Active Ranges reflects costs for the Massachusetts Military Reservation, broken
                                                                    out into current and noncurrent liabilities. This includes soils and groundwater cleanup and UXO detection
                                                                    and removal.

                                                                    Base Realignment and Closure (BRAC):
                                                                    For BRAC installations the cost-to-complete estimate is collected in the Defense Sites Environmental
                                                                    Restoration Tracking System (DSERTS). Because BRAC installations are funded separately using the Base
                                                                    Closure Account, restoration liabilities are reported as Environmental Restoration; unexploded ordnance
                                                                    liabilities are reported as Environmental Restoration for Transferring Ranges; and compliance liabilities are
                                                                    reported as Environmental Corrective Action. For current liabilities, the number is based on FY 2003
                                                                    allocation and the ULOs. Because prior year BRAC ULOs are not identified by individual program, BRAC
                                                                    ULOs for non-Federal liabilities are provided as "BRAC-Other." Noncurrent liabilities include the cost-to-
                                                                    complete estimates from FY 2004 through program completion (collected in DSERTS) in accordance with
                                                                    the Management Guidance for the DERP and the DoD FMR 7000.14.

                                                                    BRAC - Environmental Restoration for Transferring Ranges. The noncurrent liability for ER for transferring
FY02 United States Army Annual Financial Statement




                                                                    ranges is based on results of an inventory of transferring ranges at 63 properties. The inventory of
                                                                    transferring ranges is 99% complete with site-level cost data available for 62 of 63 properties.

                                                                    Environmental Disposal for Weapons Systems Programs:
                                                                    Chemical Weapons Disposal Program: The total $12,817,304 thousand for FY 2002 is based on the probable
                                                     General Fund




                                                                    costs for the Program Manager for Chemical Demilitarization, the Chemical Stockpile Emergency
                                                                    Preparedness Project, and the Project Manager for the Assembled Chemical Weapons, compared to the
                                                                    $14,252,507 thousand for FY 2001.

                                                                    Year-to-Year Changes in the Liability Estimate
                                                                    The estimated total Active Installations - Environmental Restoration (ER and ER for Closed Ranges) liability
                 172                                                is $6,019,538 thousand and $4,817,969 thousand for FY 2001 and FY 2002 respectively. The current
                                                                    estimate is a decrease from the liability reported in the most recent prior fiscal year. The major factor
                                                                                         Notes to Principal Statements



     contributing to change includes increased QA/QC of program requirements. Noncurrent liability for ER for
     closed ranges is a developing requirement based on the results of an Army-wide inventory of all ranges.

     The estimated total FUDS - Environmental Restoration (ER and ER for Transferred Ranges) liability is
     $17,643,682 thousand and $15,525,171 thousand for FY 2001 and FY 2002 respectively. The current
     estimate is a significant decrease from the liability reported in the most recent prior fiscal year. Major factors
     contributing to the change include modifications to Remedial Action Cost Engineering Requirements
     (RACER) to account for varying ordnance densities at range areas (which decreased FUDS-ER Transferred
     Range estimate), increase in the number of Hazardous, Toxic, and Radioactive Waste (HTRW) projects, and
     review of all future cost-to-complete estimates (which increased FUDS-ER estimate).

     The estimated BRAC Installation - Environmental Corrective Action (current plus noncurrent) liability is
     $72,306 thousand for FY2002 and $71,127 thousand for FY2001. The current estimate is an increase from
     the liability reported in the most recent prior fiscal year. Major factors contributing to the change include
     refinement of cost estimates and identification of new requirements due to new characterization data and
     regulatory negotiations.

     Other Information
     Others Category Disclosure Comparative Table

     Types                                                                                 FY2002                      FY2001
                                                                              Amounts in Thousands       Amounts in Thousands
     Non-Derp - Other
           Low Level Radioactive Waste Clean up                                           $ 15,160                       $0
     BRAC - Other
           Prior Year BRAC ULOs That Cannot Be Identified To A Specific Program          $269,417                 $380,839
           Low Level Radioactive Waste Clean up                                             $ 279                      $0



Note 15.A. Other Liabilities
As of September 30,
(Amounts in thousands)                                                    2002                                         2001

1. Intragovernmental:                         Current Liability   Noncurrent Liability               Total              Total
     A.    Advances from Others                    $65,329                        $0             $65,329           $41,444
     B.    Deferred Credits                               0                        0                   0                 0
     C.    Deposit Funds and Suspense Account
           Liabilities                              (1,161)                         0             (1,161)            65,779
     D.    Resources Payable to Treasury                  0                         0                   0             6,002
     E.    Disbursing Officer Cash                 300,377                          0            300,377            171,320
     F.    Non-environmental Disposal Liabilities:
           (1) National Defense PP&E (Non-nuclear)        0                         0                   0                  0
           (2) Excess/Obsolete Structures                 0                         0                   0                  0
           (3) Conventional Munitions Disposal
           (4) Other
                                                          0
                                                          0
                                                                                    0
                                                                                    0
                                                                                                        0
                                                                                                        0
                                                                                                                           0
                                                                                                                           0
                                                                                                                                 02
                                                                                                                                fy

                                                                                                                                     173
                                                                    As of September 30,
                                                                    (Amounts in thousands)                                                       2002                              2001

                                                                    1. Intragovernmental:                            Current Liability   Noncurrent Liability         Total         Total
                                                                         G. Accounts Payable-- Cancelled Appropriations      0                           0              0           924
                                                                         H. Judgment Fund Liabilities                        0                      75,246         75,246        70,878
                                                                         I. FECA Reimbursement to the
                                                                            Department of Labor                        116,127                    153,499         269,626       260,841
                                                                         J. Capital Lease Liability                          0                          0               0             0
                                                                         K. Other Liabilities                          166,987                          0         166,987        41,476
                                                                         L. Total Intragovernmental Other Liabilities $647,659                   $228,745        $876,404      $658,664

                                                                    2. Non-Federal:
                                                                         A.    Accrued Funded Payroll and Benefits       $2,111,116                      $0     $2,111,116    $1,500,967
                                                                         B.    Advances from Others                        476,385                        0       476,385        432,835
                                                                         C.    Deferred Credits                                   0                       0              0             0
                                                                         D.    Loan Guarantee Liability                           0                       0              0             0
                                                                         E.    Liability for Subsidy Related to
                                                                               Undisbursed Loans                                  0                       0             0              0
                                                                         F.    Deposit Funds and Suspense Accounts                0                      28            28              0
                                                                         G.    Temporary Early Retirement Authority           9,952                       0         9,952         19,525
                                                                         H.    Non-environmental Disposal Liabilities:
                                                                               (1) National Defense PP&E (Non-nuclear)            0                     0               0              0
                                                                         (2)   Excess/Obsolete Structures                         0                     0               0              0
                                                                         (3)   Conventional Munitions Disposal                    0             1,424,298       1,424,298              0
                                                                         (4)   Other                                            627                     0             627              0
                                                                         I.    Accounts Payable--Cancelled Appropriations         0                68,528          68,528         43,357
                                                                         J.    Accrued Unfunded Annual Leave             2,712,350                      0       2,712,350      2,435,630
                                                                         K.    Accrued Entitlement Benefits for
                                                                               Military Retirees and Survivors                    0                     0                0             0
                                                                         L.    Capital Lease Liability                      10,800                 71,139           81,939        91,874
                                                                         M.    Other Liabilities                         1,665,611                457,910        2,123,521     2,420,170
                                                                         N.    Total Non-Federal Other Liabilities     $ 6,986,841             $2,021,903       $9,008,744    $6,944,358
FY02 United States Army Annual Financial Statement




                                                                    3. Total Other Liabilities:                         $7,634,500             $2,250,648       $9,885,148    $7,603,022

                                                                    4. Other Information:


                                                                         Fluctuations and/or Abnormalities
                                                                         The (Intragovernmental) Deposit Funds abnormal balance of $1,161 thousand shown for FY 2002 is
                                                     General Fund




                                                                         attributable to a collection recorded in the Military Pay Account instead of Servicemen's Group Life
                                                                         Insurance account where funds were disbursed. Corrective action has been taken to eliminate the abnormal
                                                                         balance.

                                                                         Other Information Related to Other Liabilities

                 174
                                                                         Relevant Information for Comprehension
                                                                        Notes to Principal Statements



Intragovernmental Liabilities

z Total Intragovernmental Other Liabilities has an increase of $217,741 thousand (33%). The majority is
  attributable to Advances from Others, Disbursing Officer Cash, Federal Employees Compensation Act
  Reimbursement to the Department of Labor and Other Liabilities.

z Advances from Others has an increase of $23,885 thousand (58%). This increase is reported by the
  Army's Research, Development, Test and Evaluation (RDTE) appropriation.

z Disbursing Officer Cash has an increase of $129,058 thousand (75%) due primarily to the Army's support
  of Operation Enduring Freedom during FY 2002.

z Other Liabilities has an increase of $125,511 thousand (303%). This is attributable to Employer
  contributions (CSRS, FERS, FEGLI and FEHB) and VISP in FY 2002. In addition, $89,210 thousand in
  Unemployment Compensation was never reported in the statement until FY 2002.

Non-Federal Liabilities

z Total Non-Federal Other Liabilities has an increase of $2,064,386 thousand (30%). The majority is
  attributable to Accrued Funded Payroll and Benefits, Non-environmental Disposal Liabilities for
  Conventional Munitions Disposal, Accounts Payable--Cancelled appropriation and Accrued Unfunded
  Annual Leave.

z Accrued Funded Payroll and Benefits has an increase of $610,149 thousand (41%). The majority is
  attributable to a reclassification between Non-Federal Accounts Payable in 2001 and Accrued Funded
  Payroll and Benefits in 2002.

z Non-environmental Disposal Liabilities for Conventional Munitions Disposal has an increase of $1,424
  thousand (100%) resulting from OSDC concurring with the USD (AT&L) response to a "April 2001
  General Accounting Office report to Senate Armed Services Committee" review directing the Army to
  report this liability in FY 2002.

z Accounts Payable--Cancelled Appropriation has an increase of $25,170 thousand (58%) due to a
  reclassification from Intragovernmental to Non-Federal.

z Temporary Early Retirement Authority (TERA) has a decrease of $9,573 thousand (-49%). It continues
  to decrease due to the Army's downsizing prior to FY 2001.

z Capital Lease Liability has a decrease of $9,935 thousand (-11%) resulting from annual straight-line
  amortization.

Other (Non-Federal) Liabilities:

z Other Current Liabilities consist of $502,090 thousand for Chemical Demilitarization Non-stockpile,
  $617,351 thousand for Contract Holdbacks, $242,389 thousand for Employer Contributions and
  $303,781 thousand for Contingent Liabilities.

z Noncurrent Liability in the amount of $457,910 thousand is represented by Chemical Demilitarization
                                                                                                            02
                                                                                                           fy

                                                                                                                175
  Non-stockpile.
                                                                         Conventional Munitions Disposal
                                                                         FY 2002 is the first year conventional munitions are reported in the financial statements. The Army
                                                                         classified the total amount of Conventional Munitions Disposal as noncurrent. The current portion of
                                                                         Conventional Munitions Disposal was not available readily. Army is in the process of identifying the current
                                                                         portion of conventional munitions disposal. The current amount will be reported in the first quarterly
                                                                         financial statements.



                                                                    Note 15.B. Capital Lease Liability
                                                                    As of September 30,
                                                                    (Amounts in Thousands)                                                   2002                                 2001

                                                                                                                                            Asset Category
                                                                    1. Future Payments Due:                Land and Buildings   Equipment           Other            Total         Total
                                                                         A.   2003                                 $20,785            $0              $0         $20,785       $20,785
                                                                         B.   2004                                  20,785             0               0          20,785        20,785
                                                                         C.   2005                                  20,785             0               0          20,785        20,785
                                                                         D.   2006                                  20,785             0               0          20,785        20,785
                                                                         E.   2007                                  18,009             0               0          18,009        20,785
                                                                         F.   After 5 Years                          27,743            0               0           27,743       46,678
                                                                         G.   Total Future Lease Payments Due     $128,892            $0              $0        $128,892      $150,603
                                                                         H.   Less: Imputed Interest
                                                                              Executory Costs                        46,953            0               0          46,953        58,728
                                                                         I.   Net Capital Lease Liability           $81,939           $0              $0         $81,939       $91,875

                                                                    2. Capital Lease Liabilities Covered
                                                                       by Budgetary Resources:                                                                   $10,800         $9,935

                                                                    3. Capital Lease Liabilities Not Covered by Budgetary Resources:                             $71,139       $81,939

                                                                    4. Other Information:
                                                                         Capital Lease Liabilities Not Covered by Budgetary Resources
                                                                         The Army is the lessee in eight capital leases for military family housing. All leases prior to FY 1992 are
                                                                         funded on a fiscal year basis causing the noncurrent amounts to be shown as Not Covered by Budgetary
FY02 United States Army Annual Financial Statement




                                                                         Resources.


                                                                    Note 16.             Commitments and Contingencies
                                                                         Disclosures Related to Commitments and Contingencies:
                                                     General Fund




                                                                         Relevant Information for Comprehension
                                                                         Nature of Contingency
                                                                         The Army General Fund is subject to various claims that represent contingent liabilities for the United States
                                                                         Government. While no opinion has been expressed regarding the likely outcome or possible loss associated
                                                                         with specific claims, experience indicates that many claims are settled for less than sought, dismissed
                 176                                                     altogether, or the possibility of loss is remote. These liabilities are not accrued in the Army's financial
                                                                         statements.
                                                                                            Notes to Principal Statements



     In addition, the Army General Fund has other contingent liabilities in which the possibility of loss is
     considered reasonable. These liabilities are not accrued in the Army's financial statements. As of September
     30, 2002, the Army General Fund has approximately $10,154,727 thousand in claims considered reasonably
     possible. These contingent liabilities and estimates are presented next.

     Estimate of the Possible Liability

     Title of Contingent Liabilities                                                                  Estimate (Amounts in thousands)
     Environmental Restoration -FUDS & Active Installations                                                              $1,070,078
     Non-Stockpile Chemical Materiel Demilitarization                                                                     8,900,000
     Stockpile Chemical Demilitarization Disposal                                                                            85,600
     Judgment Fund Liabilities                                                                                               48,000
     European Environmental Claims (NATO SOFA)                                                                               40,000
     Other Claims                                                                                                             11,049
     Total                                                                                                               $10,154,727


     Note Reference
     See Note Disclosure 1. S. - Significant Accounting Policies for additional discussion on financial reporting
     requirements and DoD policies governing Contingencies and Other Liabilities.



Note 17.              Military Retirement Benefits and Other Employment Related
                      Actuarial Liabilities
As of September 30,
(Amounts in Thousands)                                                          2002                                            2001

                                                        Actuarial Present Assumed     Less:Assets          Unfunded         Unfunded
                                                       Value of Projected  Interest    Available to         Actuarial        Actuarial
1. Pension and Health Benefits:                            Plan Benefits Rate (%)     Pay Benefits           Liability        Liability
     A.      Military Retirement Pensions                            $0                        $0                 $0               $0
     B.      Military Retirement Health Benefits                      0                         0                  0                0
     C.      Medicare-Eligible Retiree Benefits                       0                         0                  0                0
     D.      Total Pension and Health Benefits                       $0                        $0                 $0               $0

2. Other:
     A.      FECA                                          $1,624,557                          $0       $1,624,557       $1,646,526
     B.      Voluntary Separation Incentive Programs                0                           0                0                0
     C.      DoD Education Benefits Fund                            0                           0                0                0
     D.      [Enter Program Name}                                   0                           0                0                0
     E.      Total Other                                   $1,624,557                          $0       $1,624,557       $1,646,526

3.   Total Military Retirement Benefits and
     Other Employment Related
     Actuarial Liabilities:                                $1,624,557                          $0       $1,624,557       $1,646,526

4. Other Information:                                                                                                                      02
                                                                                                                                          fy

                                                                                                                                               177
                                                                         Actuarial Cost Method Used:
                                                                         Assumptions:
                                                                         Market Value of Investments in Market-based and Marketable Securities:

                                                                         Military Retirement Pensions:
                                                                         The portion of the military retirement benefits actuarial liability applicable to the Army is reported on the
                                                                         financial statements of the Military Retirement Fund.

                                                                         Military Retirement Health Benefits:
                                                                         Health benefits are funded centrally at the DoD level. As such the portion of the health benefits actuarial
                                                                         liability that is applicable to the Army is reported only on the DoD Agency-wide financial statements.

                                                                         Medicare-Eligible Retiree Benefits:
                                                                         Not reported by Military Retirement Systems.

                                                                         FECA:

                                                                         z Actuarial Cost Method Used: The Army's actuarial liability for workers' compensation benefits is
                                                                           developed by the Department of Labor and provided to the Army at the end of each fiscal year. The
                                                                           liability includes the expected liability for death, disability, medical, and miscellaneous costs for approved
                                                                           compensation cases. The liability is determined using a method that utilizes historical benefit payment
                                                                           patterns to predict the ultimate payments.

                                                                         z Assumptions: The projected annual benefit payments then are discounted to the present value using the
                                                                           OMB's economic assumptions for 10-year U.S. Treasury notes and bonds. Cost of living adjustments and
                                                                           medical inflation factors also are applied to the calculation of projected future benefits.



                                                                    Note 18.             Unexpended Appropriations
                                                                    As of September 30,
                                                                    (Amounts in Thousands)                                                                2002                      2001
FY02 United States Army Annual Financial Statement




                                                                    1. Unexpended Appropriations:
                                                                         A.   Unobligated, Available                                                $4,551,201               $4,333,679
                                                                         B.   Unobligated, Unavailable                                               1,069,634                1,208,470
                                                                         C.   Unexpended Obligations                                                25,847,886               23,353,422
                                                                         D.   Total Unexpended Appropriations                                      $31,468,721              $28,895,571
                                                     General Fund




                                                                    2. Other Information:


                                                                         Relevant Information For Comprehension
                                                                         Unexpended Appropriations
                                                                         Beginning Fiscal Year 2002, the Unexpended Appropriations displayed on the Balance Sheet is broken out
                                                                         into further subcategories such as Cumulative, Appropriations Received, Transfers-In, Transfers-Out, Used,
                 178                                                     Prior-Period Adjustments - Restated, Prior-Period Adjustments - Not Restated, and Adjustments. Due to
                                                                              Notes to Principal Statements



  system constraints, the 3100 account is still used to post undelivered orders and any residual value not
  included in the subcategories, as the appropriated attribute is not available for the other subcategories.

  Unexpended Obligations
  Unexpended Obligations reported as a component of Unexpended Appropriations include both Undelivered
  Orders-Unpaid and Undelivered Orders-Paid only for Direct Appropriated funds. This amount is distinct
  from Change in Amount of Goods, Services, and Benefits Ordered but Not Yet Provided of the Statement of
  Financing, which includes the change during the fiscal year in Unexpended Obligations against budget
  authority from all services.



Note 19.A. General Disclosures Related to the Statement of Net Cost
  Disclosures Related to the Statement of Net Cost
  The Consolidated Statement of Net Cost in the federal government is unique because its principles are driven
  on understanding the net cost of programs and/or organizations that the federal government supports through
  appropriations or other means. This statement provides gross and net cost information that can be related to
  the amount of output or outcome for a given program and/or organization administered by a responsible
  reporting entity. The amounts presented in the Statement of Net Cost (SoNC) are based on funding,
  obligation, accrual and disbursing transactions, which are not recorded always using accrual accounting.
  Army systems do not record always the transactions on an accrual basis as is required by the generally
  accepted accounting principles. The information presented also includes data from non-financial feeder
  systems to capture all cost and financing sources for the Army.

  The Statement of Net Cost is unable to report earned revenues and costs consistent with performance goals
  and measures in accordance with Federal accounting standards. The Army is unable to capture cost
  accounting information because of inadequate cost accounting systems; as a result, the Army reports earned
  revenues and costs by nine major appropriation categories.



Note 19.B. Gross Cost and Earned Revenue by Budget Functional
           Classification
  Not Applicable



Note 19.C. Gross Cost to Generate Intragovernmental Revenue and Earned
           Revenue (Transactions with Other Federal-Non-DoD-Entities) by
           Budget Functional Classification
  Not Applicable


                                                                                                                  02
                                                                                                                 fy

                                                                                                                      179
                                                                    Note 19.D. Imputed Expenses
                                                                    As of September 30,
                                                                    (Amount in thousands)                                                               2002                      2001
                                                                         1.    Civilian (e.g., CSRS/FERS) Retirement                                 $261,042                 $263,410
                                                                         2.    Civilian Health                                                        330,812                  408,191
                                                                         3.    Civilian Life Insurance                                                  1,425                    1,340
                                                                         4.    Military Retirement Pension                                                  0                        0
                                                                         5.    Military Retirement Health                                                   0                        0
                                                                         6.    Judgment Fund                                                           94,980                   68,649
                                                                         7.    Total Imputed Expenses                                                $688,259                 $741,590



                                                                    Note 19.E. Benefit Program Expenses
                                                                         Not Applicable



                                                                    Note 19. F. Exchange Revenue
                                                                         Disclosures Related to the Exchange Revenue:
                                                                         Not Applicable



                                                                    Note 19.G. Amounts for Foreign Military Sales (FMS) Program Procurements
                                                                               from Contractors
                                                                         Disclosures Related to Amounts for FMS Program Procurements from Contractors:
                                                                         Not Applicable



                                                                    Note 19.H. Stewardship Assets
                                                                         Disclosures Related to Stewardship Assets:
                                                                         Stewardship assets include Heritage Assets, Stewardship Land, Non-Federal Physical Property, Investments
FY02 United States Army Annual Financial Statement




                                                                         in Research and Development, and Military Equipment Deferred Maintenance. The current year cost of
                                                                         acquiring, constructing, improving, reconstructing, or renovating stewardship assets are included in the
                                                                         Statement of Net Cost. Material yearly investment amounts related to stewardship assets are provided in the
                                                                         Required Supplemental Stewardship Information section of this financial statement.
                                                     General Fund




                                                                    Note 19.I.              Intragovernmental Revenue and Expense
                                                                         Disclosures Related to Intragovernmental Revenue and Expense:
                                                                         Intragovernmental Revenue. The Army's accounting systems do not capture trading partner data at the
                                                                         transaction level in a manner that facilitates trading partner aggregations. Therefore, the Army was unable to
                                                                         reconcile intragovernmental revenue balances with its trading partners. The Department intends to develop
                 180
                                                                         long-term systems improvements that will include sufficient up-front edits and controls to eliminate the need
                                                                         for after-the-fact reconciliations. The volume of intragovernmental transactions is so large that after-the-fact
                                                                                         Notes to Principal Statements



     reconciliation cannot be accomplished with the existing or foreseeable resources.

     The Army's operating expenses were adjusted based on a comparison between the Army accounts payable
     and the DoD summary level seller accounts receivables. An adjustment was posted to accounts payable and
     operating expenses to reflect unrecognized accounts payable and operating expenses. The operating
     expenses of the Army were adjusted upwards in the amount of $532,858 thousand.


Note 19.J. Suborganization Program Costs
     Not Applicable


Note 20.                 Disclosures Related to the Statement of Changes in Net Position
As of September 30,
(Amounts in thousands)
                                           Cumulative Results of         Unexpended       Cumulative Results       Unexpended
                                               Operations 2002     Appropriations 2002    of Operations 2001 Appropriations 2001
1. Prior Period Adjustments Increases
   Decreases) to Net Position Beginning Balance:
     A.    Changes in Accounting Standards                   $0                    $0         ($6,740,191)                   $0
     B.    Errors and Omissions in Prior Year
           Accounting Reports                      (7,114,213)                      0             180,413                     0
     C.    Other Prior Period Adjustments                    0                      0               3,535                     0
     D.    Total Prior Period Adjustments         ($7,114,213)                     $0        ($6,556,243)                    $0

2. Imputed Financing:
     A.    Civilian CSRS/FERS Retirement             $261,042                      $0            $263,410                    $0
     B.    Civilian Health                            330,812                       0             408,191                     0
     C.    Civilian Life Insurance                      1,425                       0               1,340                     0
     D.    Military Retirement Pension                      0                       0                   0                     0
     E.    Military Retirement Health                       0                       0                   0                     0
     F.    Judgment Fund                               94,980                       0              68,649                     0
     G.    Total Imputed Financing                   $688,259                      $0            $741,590                    $0

3. Other Information:


     Fluctuations and/or Abnormalities
     Statement of Changes in Net Position
     Budgetary financing sources for unexpended appropriations decreased between FY 2001 and FY 2002 by
     $435,091 thousand or 14.5%. However, due to formatting modifications, the cause of the decrease could not
     be determined. During FY 2002 the Department of the Treasury added several new accounts, replacing the
     former USSGL 3100 Unexpended Appropriations with the five new accounts, USSGL 3101 Unexpended
     Appropriations - Appropriations Received, USSGL 3102 Unexpended Appropriations - Transfers-In, USSGL
     3103 Unexpended Appropriations - Transfers-Out, USSGL 3106 Unexpended Appropriations - Adjustments,
     and USSGL 3107 Unexpended Appropriations - Used. The replacement of USSGL 3100 with the new                                    02
                                                                                                                                   fy
     accounts made year-to-year tracing unattainable.                                                                                   181
                                                                       Other Information Related to Statement of Changes in Net Position

                                                                       Relevant Information for Comprehension
                                                                       Other Prior Period Adjustments

                                                                       z In the FY 2002 "Errors and Omissions in Prior Years Accounting Reports" line, the DoDIG is directing
                                                                         that a Prior Period Adjustment be made to remove the $7,114,213 thousand from OM&S from the FY
                                                                         2001 Balance Sheet as well as remove $6,747,585 thousand from the FY 2002 OM&S value. This
                                                                         adjustment removes all retail and wholesale guided missiles previously included as OM&S on the FY
                                                                         2001 Financial Statements. These missiles are now classified as ND PP&E. The FY 2001 inclusion of
                                                                         these balances as OM&S was directed by OSD. This restatement of FY 2001 numbers brings the Army's
                                                                         report in line with what was reported on the FY 2001 Government-wide financial statements.

                                                                       z During preparation of the FY 2001 Army financial statements, the Prior Period Adjustment to post
                                                                         previously reported National Defense Property Plant and Equipment guided missiles as Operating
                                                                         Materials and Supplies was input in error. The journal voucher prepared posted the Prior Period
                                                                         Adjustment as a decrease to cumulative results, with the offset to other gains. The proper entry should
                                                                         have been a Prior Period Adjustment increase to cumulative results, with an offsetting other loss. DFAS-
                                                                         IN prepared a correcting journal voucher for FACTS I reporting to Treasury that was not entered into the
                                                                         Defense Departmental Reporting System (DDRS). As such, the FY 2001 consolidated numbers reflected
                                                                         in the DDRS do not agree with the balances reported to Treasury or with numbers on the Government-
                                                                         Wide financial statements. The effect of the error on the financial statements in FY 2001 is $13,400,000
                                                                         thousand. The table below displays amounts reported in Army financial statements, balances reported in
                                                                         the FACTS I submission, and restated Statement of Changes in Net Position with the FY 2002 Prior
                                                                         Period Adjustment included.

                                                                                                                                                                            Restated to
                                                                                                                                                                        include FY 202
                                                                                                                                Reported DDRS    Reported FACTS I   Prior Period OM&S
                                                                                                                                       FY 2001            FY 2001              FY 2001
                                                                    CUMULATIVE RESULTS OF OPERATIONS
                                                                       Beginning Balances                                          $628,191           $628,191             $628,191
                                                                       Prior period adjustments (+/-)                            (6,556,243)          6,924,139            (190,074)
FY02 United States Army Annual Financial Statement




                                                                       Beginning Balances, as adjusted                          ($5,928,052)         $7,552,330            $438,117
                                                                       Budgetary Financing Sources:
                                                                       Appropriations received
                                                                       Appropriations transferred-in/out (+/-)
                                                                       Other adjustments (rescissions, etc) (+/-)
                                                                       Appropriations used                                        73,855,867        73,855,867           73,855,867
                                                     General Fund




                                                                       Nonexchange revenue                                           209,595           209,595              209,595
                                                                       Donations and forfeitures of cash and cash equivalents
                                                                       Transfers-in/out without reimbursement (+/-)
                                                                       Other budgetary financing sources (+/-)                    17,161,699          3,681,317            3,681,317
                                                                       Other Financing Sources:
                                                                       Donations and forfeitures of property
                                                                       Transfers-in/out without reimbursement (+/-)                  161,985            161,985              161,985
                 182                                                   Imputed financing from costs absorbed by others               741,589            741,589              741,589
                                                                       Other (+/-)
                                                                                   Notes to Principal Statements



                                                                                                              Restated to
                                                                                                          include FY 202
                                                               Reported DDRS       Reported FACTS I   Prior Period OM&S
                                                                      FY 2001               FY 2001              FY 2001
CUMULATIVE RESULTS OF OPERATIONS
     Total Financing Sources                                    $92,130,735          $78,650,353         $78,650,353
     Net Cost of Operations (+/-)                                77,426,083           77,426,083          77,426,083
     Ending Balances                                             $8,776,600           $8,776,600          $1,662,387


Other Army General Fund Disclosures
     Imputed Financing:

     z Civilian Health decreased by $77,379 thousand or 19% between FY 2001 and FY 2002. The decrease
       was attributable to a decrease in Federal Employee Health Benefit enrollment of 40,957 enrollees.

     z Judgment Fund increased by $26,331 thousand or 38% between FY 2001 and FY 2002. The increase was
       attributable largely to a $31,169 thousand or 33% increase in payments to settle tort claims.



Note 21.A. Disclosures Related to the Statement of Budgetary Resources
As of September 30,
(Amounts in thousands)                                                                  2002                      2001

1. Net Amount of Budgetary Resources Obligated for
   Undelivered Orders at the End of the Period                                  $31,241,578              $29,084,306
2. Available Borrowing and Contract Authority at the
   End of the Period                                                                       $0                        $0

3. Other Information:


     Statement Presentation
     In fiscal year 2002, the following two enhancements were made to the Statement of Budgetary Resources to
     facilitate the reconciliation of information between the Statement of Budgetary Resources, the budget
     execution reports (SF 133) and the Budget of the United States Government:

           Separate Column for Non-budgetary Credit Program Financing Accounts. This change allows for a clear
           distinction between budgetary and non-budgetary credit program financing account information. Non-
           budgetary credit financing accounts are reported separately from the budgetary totals in the Budget of the
           United States Government. Separate reporting on the Statement of Budgetary Resources enhances the
           reconciliation of the two sets of information.

           Offsetting Receipts Line. Offsetting Receipts are introduced as a new line item in the Statement of
           Budgetary Resources. These receipts are collections that are credited to the general, special or trust funds
           receipt accounts. In addition, they represents offsetting receipts distributed to the Department of the
           Army. Offsetting receipts offset budget authority and outlays at the agency level in the Budget of United
           States Government. Offsetting receipts must be included in the Statement of Budgetary Resources to                02
                                                                                                                            fy
           reconcile it to information in the Budget of the United States Government.                                            183
                                                                    Intra-entity Transactions
                                                                    The Statement of Budgetary Resources does not include intra-entity transactions because the statements are
                                                                    presented as combined and combining. A Disaggregated Statement of Budgetary Resources is presented in
                                                                    the Required Supplementary Information section of the financial statements. Additionally, Undelivered
                                                                    Orders presented in the Statement of Budgetary Resources includes Undelivered Orders-Unpaid for both
                                                                    direct and reimbursable funds.

                                                                    Fluctuations and/or Abnormalities
                                                                    Statement of Budgetary Resources
                                                                    In fiscal year 2002, the Statement of Budgetary Resources presentation changed to closely follow the Report
                                                                    on Budget Execution (SF 133). Balances increased primarily as a result of additional funding for fighting
                                                                    terrorism throughout the World. During fiscal year 2002, the Army received supplemental funding from the
                                                                    Emergency Response Fund for $3,842,000 thousand and the Counter-Terrorism & Operational Response
                                                                    Transfer Fund for $47,665 thousand to aid in their efforts. In addition, the Department of the Army received
                                                                    a new treasury appropriation warrant in Fiscal Year 2002 of $194,400 thousand for further recovery from and
                                                                    response to the terrorist attacks on the United States. This recovery and effort increased Army's funding
                                                                    considerably from fiscal year 2001.

                                                                    Accounting Standard U.S. Standard General Ledger
                                                                    The Department has not implemented fully the U.S. Standard General Ledger (USSGL) in all operational
                                                                    accounting systems. The Department of the Army uses the Federal Agencies' Centralized Trial Balance
                                                                    System II (FACTS II) to populate their Statement of Budgetary Resources. FACTS II collects pre-closing,
                                                                    adjusted trial balance (ATB) data by U.S. Standard General Ledger (SGL) accounts and SGL attributes for
                                                                    each fund symbol. The SGL accounts reported by FACTS II are budgetary, 4000 series SGL accounts.

                                                                    Beginning Balance Adjustments
                                                                    The Department of the Army's beginning balances for Fiscal Year 2002 FACTS II submission were adjusted
                                                                    between reimbursable and direct for Undelivered Orders - Unpaid and Accounts Payable because accounting
                                                                    transactions such as MOCAS accruals and Undistributed, do not include direct or reimbursable codes. The
                                                                    adjustments were prorated in FACTS II with a zero affect to the bottom-line general ledger account to keep
FY02 United States Army Annual Financial Statement




                                                                    the Statement of Budgetary Resources and the Report of Execution (SF 133) in agreement between direct
                                                                    and reimbursable.

                                                                    Ending Balance Adjustments
                                                                    The ending balances for Undelivered Orders - Unpaid and Accounts Payable reported in the Statement of
                                                                    Budgetary Resources varied from the FACTS II submission because of the "Elimination process" and the
                                                     General Fund




                                                                    "Data Call" information reported for the Voluntary Early Retirement Authority and the Voluntary Separation
                                                                    Incentive Pay (VERA/VSIP), Unemployment Compensation, Civil Service Retirement System (CSRS)
                                                                    /Federal Employee Retirement System (FERS)/Federal Employee Group Life Insurance (FEGLI) /Federal
                                                                    Employee Health Benefits (FEHB) and Worker's Compensation. The effect of these adjustments on the
                                                                    Army's books amounted to $545,625 thousand for eliminations, $1,033 thousand for VERA/VSIP, $89,210
                                                                    thousand for Unemployment Compensation, $52,758 thousand for CSRS/FERS/FEGLI/FEHB and $23,984
                 184                                                thousand for Worker's Compensation. In addition, the ending balances for Undelivered Orders - Paid and
                                                                                      Notes to Principal Statements



     Expended Authority reported in the Statement of Budgetary Resources were changed by $36,132 thousand
     for the elimination process. The accounting adjustments are deemed necessary since the elimination process
     directs "seller-side rule" which forces the Army to modify their accounting records to agree with the seller's
     books and the booking of data call information not found in the FACTS II submission. Overall, the
     adjustments do not affect bottom-line totals.

     Other Information Related to the Statement of Budgetary Resources
     Spending Authority from Offsetting Collections
     Adjustments in funds that are temporarily not available pursuant to Public Law, and those that are
     permanently not available are not included in the "Spending Authority From Offsetting Collections" line on
     the Statement of Budgetary Resources or the "Spending Authority for Offsetting Collections and Recoveries"
     line on the Statement of Financing.



Note 21.B. Disclosures Related to Problem Disbursements, In-transit
           Disbursements and Suspense/Budget Clearing Accounts
As of September 30,
(Amounts in thousands)


                                                                                                        (Decrease)/Increase
1. Total Problem Disbursement                        Sep 2000              Sep 2001          Sep 2002     from 2001 to 2002
     A.    Absolute Unmatched Disbursements        $261,092               $228,878          $160,726            ($68,152)
     B.    Negative Unliquidated Obligations        133,477                 34,245            20,985             (13,260)

2. Total In-transit Disbursements, Net             $968,596               $910,960          $710,194          ($200,766)

3. Other Information Related to Problem Disbursements and In-transit Disbursements


     Fluctuations and /or Abnormalities
     Beginning in fiscal year 2002, the presentation for Total Problem Disbursements changed to breakout
     Unmatched Disbursement (UMDs) and Negative Unliquidated Obligations (NULOs) and report them as
     absolute value. In previous years, Problem Disbursements displayed as a single "net" total. Due to this
     change in presentation, the Department of the Army reinstated amounts displayed in fiscal year 2000 and
     2001 to represent "absolute value." In addition, the following schedule is included to show further analysis
     by "net" value.
                                  Sep 2000             Sep 2001           Sep 2002
                                             Amounts in Thousands (Net)
           UMDs                    $149,897             $111,738          $133,251
           NULOs                   $133,477              $34,244           $20,985
           In-transit              $968,596             $910,960          $710,194


     The elimination of both problem and aged in-transit disbursements is a high financial management priority
     for the Army. The balances represent a financial management concern since: (1) accuracy of accounting
     reports is affected; (2) availability of funds is more difficult to determine; and (3) the required research and
     resolution process becomes much more labor intensive as the ages of the problem disbursements increase.                   02
                                                                                                                              fy

     Performance metrics have been established and the Army has exceeded consistently the goals as each entity                     185
     continues to strive towards minimizing these problems.
                                                                       Other Information Related to Problem Disbursements and In-transit Disbursement

                                                                       Relevant Information for Comprehension
                                                                       Problem Disbursements
                                                                       Problem disbursements are classified in three major categories - unmatched disbursements (UMDs), negative
                                                                       unliquidated obligations (NULOs) and intransit disbursements. A UMD occurs when a payment is not
                                                                       matched to a corresponding obligation in the accounting system. A NULO occurs when a payment is made
                                                                       against a valid obligation, but the payment is greater than the amount of the obligation recorded in the official
                                                                       accounting system. In-transit disbursements generally represent payments made by a disbursing activity on
                                                                       behalf of an accountable activity that has not attempted to post the disbursement to the accounting system.

                                                                       For Fiscal Year 2002, the Department of the Army has $160 thousand in aged UMDs, $20 thousand in aged
                                                                       NULOs, and $710 thousand in aged in-transit disbursements that represent disbursements of Department of
                                                                       the Army's funds that have been reported by a disbursing station to the Department of the Treasury, but have
                                                                       yet to be matched precisely against the specific source obligation giving rise to the disbursements.

                                                                    4. Suspense/Budget Clearing                                                                         (Decrease)/Increase
                                                                       Accounts, Net                                 Sep 2000             Sep 2001           Sep 2002     from 2001 to 2002
                                                                           F3875                                          $0                   $0                 $0                   $0
                                                                           F3880                                       2,600                1,994                  0              (1,994)
                                                                           F3882                                           0                    0              (739)               ( 739)
                                                                           F3885                                           0                    0                  0                    0
                                                                           F3886                                           0                5,162              5,690                  528
                                                                           Total                                      $2,600               $7,156             $4,951             $(2,205)

                                                                    5. Other Information Related to Suspense/Budget Clearing Accounts:


                                                                       Fluctuations and/or Abnormalities
                                                                       The Department of the Army has made a concerted effort to reduce balances in the suspense and
                                                                       budget/clearing accounts related to disbursements. Additionally, the Department of the Army established
                                                                       policies and procedures to ensure accurate and consistent use of these accounts. The information presented
                                                                       indicates a significant reduction from fiscal year 2001 of $1,994 thousand in the Army's suspense account
FY02 United States Army Annual Financial Statement




                                                                       F3880, Unavailable Check Cancellation.

                                                                       On 30 September of each fiscal year, most of the uncleared suspense/budget clearing account balances are
                                                                       reduced to zero (as required by the Department of the Treasury) by transferring the balances to proper
                                                                       appropriation accounts. On 1 October of the following year, the uncleared suspense/clearing account
                                                     General Fund




                                                                       balances are reestablished. The Department of the Army transferred the following accounts to their
                                                                       Operation and Maintenance account (21 2020) for fiscal year 2002:

                                                                           Account        Amount
                                                                           Amounts in Thousands
                                                                           21 F3875       $56, 091
                                                                           21 F3880       $4,376
                 186                                                       21 F3885       $16,494
                                                                            Notes to Principal Statements



  In addition, Budget Clearing Accounts such as the Uniformed Service TSP (F3882) and Federal Employees
  Retirement System (F3886) remain open at fiscal year end.

  The Army shows an abnormal Budget Clearing balance in their Uniformed Service account, which means
  that more money was disbursed (invested) than collected from military service members. The Federal Thrift
  Retirement Board contracts with the Department of Agriculture National Finance Center (NFC) to manage
  the disbursements for investment. The Department of the Army is making every effort to reconcile this
  account and establish a proper audit trail to ensure that variances do not exist between collections and
  disbursements.

  Other Information Related to Suspense Budget Clearing Accounts
  Deposit Fund
  Deposit fund accounts hold non-government monies for individual statutory authorizations or programs. On
  30 September, the Department of the Army's net amount in the deposit fund accounts was ($10,333)
  thousand. Please refer to Footnote 2, Intragovernmental Assets - Fund Balance with Treasury for further
  explanation on deposits and suspense/budgetary clearing accounts.



Note 22.       Disclosures Related to the Statement of Financing
  Disclosures Related to the Statement of Financing:
  The statement of financing was expanded to further articulate and detail the relationship between net
  obligations from budgetary accounting and net cost of operations from proprietary accounting. Some items
  that were reported last year as a single line were subdivided to reflect its components. Several new line items
  were added to identify separately and further explain the use of resources to finance net obligations or net
  cost of operations. This change notes key differences between the net obligations and net cost of operations.

  "Net Cost of Operations" in the 2001 column of the Statement of Financing shows $75,107,669 thousand,
  compared to $77,426,083 thousand in the Statement of Net Cost, and the amount reflected on the FY 2001
  financial statements. Improper posting of the change in unfunded liability during preparation of the FY 2001
  financial statements created a $2,250,468 thousand difference. Incorrectly posting the change in FY 2001 of
  the actuarial liability contributed $72,124 thousand to the difference. The remaining $-4,178 thousand
  difference was caused by other account mapping differences.

  Budgetary data is not in agreement with Proprietary Expenses and Assets Capitalized. A $1,876,534
  thousand correcting entry was made to "Revaluation of assets or liabilities" to bring the Statement of
  Financing into balance with the Statement of Net Cost. Differences between budgetary and proprietary data
  for the Army are a previously identified deficiency.

  Intra-entity transactions have not been eliminated because the statements are presented as combined and
  combining.
                                                                                                                     02
                                                                                                                    fy

                                                                                                                         187
                                                                    Note 23.                 Disclosures Related to the Statement of Custodial Activity
                                                                         Disclosures Related to the Statement of Custodial Activity:
                                                                         Not Applicable



                                                                    Note 24.A. Other Disclosures

                                                                    1. ENTITY AS LESSEE-Operating Leases
                                                                         A.    Description of lease arrangements:
                                                                               Other Information Related to Entity as Lessee - Operating Leases

                                                                               Relevant Information for Comprehension
                                                                               z Description - Operating lease amounts are for Section 801 Family Housing.
                                                                               z Lease Period - The lease periods vary.
                                                                               z Lease Terms - Leases are not expected to be renewed at the end of the lease term. There are
                                                                                   no material escalation clauses or contingent rental restrictions.

                                                                               Other Information
                                                                               Definitions
                                                                               Lessee - A person or entity that receives the use and possession of leased property (e.g. real estate
                                                                               or equipment) from a lessor in exchange for a payment of funds.

                                                                               Operating Lease - A lease that does not transfer substantially all the benefits and risk of ownership.
                                                                               Payments should be charged to expense over the lease term as it becomes payable.

                                                                    As of September 30,
                                                                    (Amounts in thousands)                                                    2002                              2001

                                                                         B. Future Payments Due:                                      Asset          Asset        Asset
                                                                            Fiscal Year                             Category 1   Category 2     Category 3        Total          Total
                                                                                    2003                                   $0      $8,917              $0      $8,917        $13,695
                                                                                    2004                                    0       7,610               0       7,610         11,186
                                                                                    2005                                    0       6,613               0       6,613          8,917
FY02 United States Army Annual Financial Statement




                                                                                    2006                                    0       6,303               0       6,303          7,610
                                                                                    2007                                    0       6,298               0       6,298          6,613
                                                                                    After 5 Years                           0      24,910               0      24,910         37,509
                                                                               Total Future Lease Payments Due             $0     $60,651              $0     $60,651        $85,530
                                                     General Fund




                 188
                                                                                Notes to Principal Statements



2. ENTITY AS LESSOR:
     A.    Capital Leases:
           1. Description of lease arrangements:

As of September 30,
(Amounts in thousands)                                                  2002                           2001

           2. Future Projected Receipts,                        Asset          Asset        Asset
              Capital Leases                  Category 1   Category 2     Category 3        Total        Total
                Fiscal Year
                2003                                 $0           $0             $0           $0          $0
                2004                                  0            0              0            0           0
                2005                                  0            0              0            0           0
                2006                                  0            0              0            0           0
                2007                                  0            0              0            0           0
                After 5 Years                         0            0              0            0           0
           Total Future Capital Lease
           Receivables                               $0           $0             $0           $0          $0

     B.    Operating Leases:
           1. Description of lease arrangements:

As of September 30,
(Amounts in thousands)                                                  2002                           2001

           2. Future Projected Receipts:                        Asset          Asset        Asset
                                              Category 1   Category 2     Category 3        Total        Total
                Fiscal Year
                2003                                 $0           $0             $0           $0          $0
                2004                                  0            0              0            0           0
                2005                                  0            0              0            0           0
                2006                                  0            0              0            0           0
                2007                                  0            0              0            0           0
                After 5 Years                         0            0              0            0           0
           Total Future Operating Lease
           Receivables                               $0           $0             $0           $0          $0



Note 24.B. Other Disclosures
           Not Applicable




                                                                                                                  02
                                                                                                                 fy

                                                                                                                      189
      FY02 United States Army Annual Financial Statement




190
      General Fund
                                                                                         Consolidating Balance Sheet
                                                                                   Department of Defense • Department of the Army
                                                                               As of September 30, 2002 and 2001 ($ in thousands)


1. ASSETS (Note 2)                                                                            Army National
                                                     Active Army        Army Reserve                Guard          Combined Total
     A. Intragovernmental:
        1. Fund Balance with Treasury              $35,589,866           $1,346,258            $2,574,399           $39,510,523
             (Note 3)
        2. Investments (Note 4)                          5,240                     0                    0                 5,240
        3. Accounts Receivable (Note 5)                423,834                17,103               60,749               501,686
        4. Other Assets (Note 6)                       207,289                   848                  982               209,119
        5. Total Intragovernmental Assets          $36,226,229           $1,364,209            $2,636,130           $40,226,568
     B. Cash and Other Monetary Assets                $301,747                    $0                   $0              $301,747
        (Note 7)
     C. Accounts Receivable (Note 5)                   512,502                19,273                36,313              568,088
     D. Loans Receivable (Note 8)                            0                     0                     0                    0
     E. Inventory and Related Property (Note 9)     27,259,422                     0                     0           27,259,422
     F. General Property, Plant and Equipment       16,872,144             1,206,710               621,772           18,700,626
        (Note 10)                                    3,458,037                 4,178               120,581            3,582,796
     G. Other Assets (Note 6)
                                                   $84,630,081           $2,594,370            $3,414,796           $90,639,247
2. TOTAL ASSETS

3. LIABILITIES (Note 11)
     A.   Intragovernmental:
          1. Accounts Payable (Note 12)               $715,168              $27,003               $81,463             $823,634
          2. Debt (Note 13)                                157                    0                     0                   157
          3. Environmental Liabilities (Note 14)             0                    0                     0                     0
          4. Other Liabilities (Notes 15 and 16)       824,437                8,562                43,410               876,409
          5. Total Intragovernmental Liabilities    $1,539,762              $35,565              $124,873            $1,700,200
     B.   Accounts Payable (Note 12)                $5,275,478             $362,541              $329,159            $5,967,178
     C.   Military Retirement Benefits and
          Other Employment-Related Actuarial
          Liabilities (Note 17)                      1,312,467                52,147               259,943            1,624,557
     D.   Environmental Liabilities (Note 14)       35,078,280                     0                     0           35,078,280
     E.   Loan Guarantee Liability (Note 8)                730                     0                     0                  730
     F.   Other Liabilities (Notes 15 and 16)        8,347,691               205,691               455,362            9,008,744

4. TOTAL LIABILITIES                               $51,554,408             $655,944            $1,169,337           $53,379,689

5. NET POSITION
     A.   Unexpended Appropriations (Note 18)      $28,543,070              $683,764           $2,241,887           $31,468,721
     B.   Cumulative Results of Operations           4,532,603             1,254,662                3,572             5,790,837

6. TOTAL NET POSITION                              $33,075,673           $1,938,426            $2,245,459           $37,259,558

7.   TOTAL LIABILITIES AND NET                     $84,630,081           $2,594,370            $3,414,796           $90,639,247
     POSITION


                                                                                                                                       02
                                                                                                                                      fy

                                                                                                                                       191

                                                                   The accompanying notes are an integral part of these statements.
                                                                        Consolidating Balance Sheet
                                                                                     Department of Defense • Department of the Army
                                                                                     As of September 30, 2002 and 2001 ($ in thousands)


                                                                                     1. ASSETS (Note 2)                                                        FY 2002         FY 2001         Restated FY
                                                                                                                                           Eliminations    Consolidated    Consolidated   2001Consolidated
                                                                                          A. Intragovernmental:
                                                                                             1. Fund Balance with Treasury
                                                                                                  (Note 3)                                        $0      $39,510,523     $37,351,036       $37,351,036
                                                                                             2. Investments (Note 4)                               0            5,240           3,193       $37,351,036
                                                                                             3. Accounts Receivable (Note 5)                  49,089          452,597         727,509             3,193
                                                                                             4. Other Assets (Note 6)                              5          209,114          61,560           727,509
                                                                                             5. Total Intragovernmental Assets               $49,094       $40,177,474    $38,143,298            61,560
                                                                                          B. Cash and Other Monetary Assets                       $0         $301,747        $168,401       $38,143,298
                                                                                             (Note 7)
                                                                                          C. Accounts Receivable (Note 5)                            0        568,088         362,702           $168,401
                                                                                          D. Loans Receivable (Note 8)                               0              0               0            362,702
                                                                                          E. Inventory and Related Property (Note 9)                 0     27,259,422      34,543,535                  0
                                                                                          F. General Property, Plant and Equipment                   0     18,700,626      17,621,538         27,429,322
                                                                                             (Note 10)                                                                                        17,621,538
                                                                                          G. Other Assets (Note 6)                                   0      3,582,796       3,726,647          3,726,647
   The accompanying notes are an integral part of these statements.




                                                                                     2. TOTAL ASSETS                                         $49,094      $90,590,153     $94,566,121        $87,451,908

                                                                                     3. LIABILITIES (Note 11)
                                                                                          A.    Intragovernmental:
                                                                                                1. Accounts Payable (Note 12)                $49,089         $774,545        $874,432          $874,432
                                                                                                2. Debt (Note 13)                                  0              157             108               108
                                                                                                3. Environmental Liabilities (Note 14)             0                0               0                 0
                                                                                                4. Other Liabilities (Notes 15 and 16)             5          876,404         658,664           658,664
                                                                                                5. Total Intragovernmental Liabilities       $49,094       $1,651,106      $1,533,204        $1,533,204
                                                                                          B.    Accounts Payable (Note 12)                        $0       $5,967,178      $6,698,778        $6,698,778
                                                                                          C.    Military Retirement Benefits and Other
                                                                                                Employment-Related Actuarial Liabilities
                                                                                                (Note 17)                                            0      1,624,557       1,646,526         1,646,526
                                                                                          D.    Environmental Liabilities (Note 14)                  0     35,078,280      40,071,084        40,071,084
                                                                                          E.    Loan Guarantee Liability (Note 8)                    0            730               0                 0
                                                                                          F.    Other Liabilities (Notes 15 and 16)                  0      9,008,744       6,944,358         6,944,358
FY02 United States Army Annual Financial Statement




                                                                                     4. TOTAL LIABILITIES                                    $49,094      $53,330,595     $56,893,950       $56,893,950

                                                                                     5. NET POSITION
                                                                                          A.    Unexpended Appropriations (Note 18)                 $0    $31,468,721     $28,895,571       $28,895,571
                                                                                          B.    Cumulative Results of Operations                     -      5,790,837       8,776,600         1,662,387
                                                                      General Fund




                                                                                     6. TOTAL NET POSITION                                          $0    $37,259,558     $37,672,171        $30,557,958

                                                                                     7.   TOTAL LIABILITIES AND NET                          $49,094      $90,590,153     $94,566,121        $87,451,908
                                                                                          POSITION



                    192
                                                                 Consolidating Statement of Net Cost
                                                                        Department of Defense • Department of the Army
                                                      For the years ended September 30, 2002 and 2001 ($ in thousands)


1. Program Costs                                           Active Army           Army Reserve
                                                                                                         Army National
                                                                                                               Guard
   A.   Military Personnel
        1. Intragovernmental Gross Costs                 $4,967,982               $379,041                 $565,466
        2. (Less: Intragovernmental Earned Revenue)         (91,890)                (19,387)                 (29,667)
        3. Intragovernmental Net Costs                   $4,876,092               $359,654                 $535,799
        4. Gross Costs With the Public                  $20,688,735              $2,135,154               $3,756,856
        5. (Less: Earned Revenue From the Public)           (19,381)                     823                    (723)
        6. Net Costs With the Public                    $20,669,354              $2,135,977               $3,756,133
        7. Total Net Cost                               $25,545,446              $2,495,631               $4,291,932
   B.   Operation and Maintenance
        1. Intragovernmental Gross Costs                $11,098,932               $494,660                  $574,548
        2. (Less: Intragovernmental Earned Revenue)      (3,135,132)                (44,434)                 (96,423)
        3. Intragovernmental Net Costs                   $7,963,800               $450,226                 $478,125
        4. Gross Costs With the Public                  $14,395,436              $1,246,563               $3,171,805
        5. (Less: Earned Revenue From the Public)          (638,103)                 (2,909)                   (9,516)
        6. Net Costs With the Public                    $13,757,333              $1,243,654               $3,162,289
        7. Total Net Cost                               $21,721,133              $1,693,880               $3,640,414
   C.   Procurement
        1. Intragovernmental Gross Costs                   $764,156                         $0                      $0
        2. (Less: Intragovernmental Earned Revenue)        (427,714)                         0                       0
        3. Intragovernmental Net Costs                    $336,442                          $0                      $0
        4. Gross Costs With the Public                  $10,981,576                         $0                      $0
        5. (Less: Earned Revenue From the Public)           (25,271)                         0                       0
        6. Net Costs With the Public                    $10,956,305                         $0                      $0
        7. Total Net Cost                               $11,292,747                         $0                      $0
   D.   Research, Development, Test & Evaluation
        1. Intragovernmental Gross Costs                   $221,620                         $0                      $0
        2. (Less: Intragovernmental Earned Revenue)        (905,828)                         0                       0
        3. Intragovernmental Net Costs                   ($684,208)                         $0                      $0
        4. Gross Costs With the Public                   $7,292,395                         $0                      $0
        5. (Less: Earned Revenue From the Public)          (126,198)                         0                       0
        6. Net Costs With the Public                      $7,166,197                        $0                      $0
        7. Total Net Cost                                $6,481,989                         $0                      $0
   E.   Military Construction/Family Housing
        1. Intragovernmental Gross Costs                     $18,807                  $4,278                  $2,245
        2. (Less: Intragovernmental Earned Revenue)      (1,067,330)                       0                       0
        3. Intragovernmental Net Costs                 ($1,048,523)                   $4,278                  $2,245
        4. Gross Costs With the Public                   $2,787,731                  $41,319                $164,565
        5. (Less: Earned Revenue From the Public)          (175,714)                       0                       0
        6. Net Costs With the Public                     $2,612,017                  $41,319                $164,565
        7. Total Net Cost                                $1,563,494                  $45,597                $166,810




                                                                                                                            02
                                                                                                                           fy

                                                                                                                            193

                                                        The accompanying notes are an integral part of these statements.
                                                                        Consolidating Statement of Net Cost
                                                                                     Department of Defense • Department of the Army
                                                                                     For the years ended September 30, 2002 and 2001 ($ in thousands)


                                                                                                                                                                                       Army National
                                                                                                                                                          Active Army   Army Reserve         Guard
                                                                                          F. Other
                                                                                             1. Intragovernmental Gross Costs                             $259,584               $0              $0
                                                                                             2. (Less: Intragovernmental Earned Revenue)                    (22,411)              0               0
                                                                                             3. Intragovernmental Net Costs                                $237,173              $0              $0
                                                                                             4. Gross Costs With the Public                                $631,179              $0              $0
                                                                                             5. (Less: Earned Revenue From the Public)                      212,284               0               0
                                                                                             6. Net Costs With the Public                                 $843,463               $0              $0
                                                                                             7. Total Net Cost                                           $1,080,636              $0              $0
                                                                                          G. Total Program Costs
                                                                                             1. Intragovernmental Gross Costs                           $17,331,081       $877,979     $1,142,259
                                                                                             2. (Less: Intragovernmental Earned Revenue)                 (5,650,305)       (63,821)     (126,090)
                                                                                             3. Intragovernmental Net Costs                             $11,680,776       $814,158     $1,016,169
                                                                                             4. Gross Costs With the Public                             $56,777,052     $3,423,036     $7,093,226
                                                                                             5. (Less: Earned Revenue From the Public)                     (772,383)        (2,086)     ($10,239)
                                                                                             6. Net Costs With the Public                               $56,004,669     $3,420,950     $7,082,987
   The accompanying notes are an integral part of these statements.




                                                                                             7. Total Net Cost                                          $67,685,445     $4,235,108     $8,099,156

                                                                                     2. Cost Not Assigned to Programs                                             $0             $0              $0

                                                                                     3. (Less:Earned Revenue Not Attributable to
                                                                                        Programs)                                                                  0              0               0

                                                                                     4. Net Cost of Operations                                          $67,685,445     $4,235,108     $8,099,156
FY02 United States Army Annual Financial Statement
                                                                      General Fund




                    194
                                                                       Consolidating Statement of Net Cost
                                                                           Department of Defense • Department of the Army
                                                         For the years ended September 30, 2002 and 2001 ($ in thousands)

                                             Combined Total         Eliminations               FY 2002                FY 2001
1. Program Costs
   A.   Military Personnel
        1. Intrag-overnmental Gross Costs      $5,912,489            ($31,544)           $5,944,033             $5,110,569
        2. (Less: Intragovernmental Earned
                  Revenue)                     (140,944)                29,591            (170,535)               (70,982)
        3. Intragovernmental Net Costs        $5,771,545              ($1,953)           $5,773,498            $5,039,587
        4. Gross Costs With the Public       $26,580,745                    $0          $26,580,745           $23,783,686
        5. (Less: Earned Revenue From the
                  Public)                        (19,281)                    0              (19,281)               (38,166)
        6. Net Costs With the Public         $26,561,464                    $0          $26,561,464            $23,745,520
        7. Total Net Cost                    $32,333,009              ($1,953)          $32,334,962            $28,785,107
   B.   Operation and Maintenance
        1. Intragovernmental Gross Costs      $12,168,140            $328,295           $11,839,845             $5,490,066
        2. (Less: Intragovernmental Earned
                  Revenue)                    (3,275,989)            (273,239)           (3,002,750)            (2,428,730)
        3. Intragovernmental Net Costs         $8,892,151              $55,056            $8,837,095            $3,061,336
        4. Gross Costs With the Public       $18,813,804                    $0          $18,813,804             $27,115,225
        5. (Less: Earned Revenue From the
                  Public)                      (650,528)                    0             (650,528)              (636,042)
        6. Net Costs With the Public         $18,163,276                   $0           $18,163,276            $26,479,183
        7. Total Net Cost                    $27,055,427              $55,056           $27,000,371            $29,540,519
   C.   Procurement
        1. Intragovernmental Gross Costs         $764,156               $4,676             $759,480               $221,260
        2. (Less: Intragovernmental Earned
                  Revenue)                      (427,714)                (162)             (427,552)             (342,183)
        3. Intragovernmental Net Costs         $336,442                 $4,514            $331,928              ($120,923)
        4. Gross Costs With the Public       $10,981,576                    $0          $10,981,576            $11,428,009
        5. (Less: Earned Revenue From the
                  Public)                        (25,271)                    0              (25,271)               (79,034)
        6. Net Costs With the Public         $10,956,305                     0          $10,956,305            $11,348,975
        7. Total Net Cost                    $11,292,747                $4,514          $11,288,233            $11,228,052
   D.   Research, Development, Test &
        Evaluation
        1. Intragovernmental Gross Costs        $221,620                $3,071              $218,549                $91,224
        2. (Less: Intragovernmental Earned
                  Revenue)                      (905,828)               (7,913)             (897,915)          (1,636,206)
        3. Intragovernmental Net Costs         ($684,208)             ($4,842)            ($679,366)          ($1,544,982)
        4. Gross Costs With the Public         $7,292,395                    $0           $7,292,395             $7,367,211
        5. (Less: Earned Revenue From the
                  Public)                       (126,198)                    0             (126,198)              (107,598)
        6. Net Costs With the Public           $7,166,197                   $0            $7,166,197            $7,259,613
        7. Total Net Cost                     $6,481,989              ($4,842)           $6,486,831             $5,714,631




                                                                                                                                  02
                                                                                                                                 fy

                                                                                                                                  195

                                                              The accompanying notes are an integral part of these statements.
                                                                        Consolidating Statement of Net Cost
                                                                                     Department of Defense • Department of the Army
                                                                                     For the years ended September 30, 2002 and 2001 ($ in thousands)

                                                                                                                                                    Combined Total      Eliminations        FY 2002        FY 2001


                                                                                          E. Military Construction/Family Housing
                                                                                             1. Intragovernmental Gross Costs                               $25,330         $4,524        $20,806      $1,957,834
                                                                                             2. (Less: Intragovernmental Earned
                                                                                                       Revenue)                                           (1,067,330)     (57,299)      (1,010,031)     (798,350)
                                                                                             3. Intragovernmental Net Costs                             ($1,042,000)    ($52,775)       ($989,225)     $1,159,484
                                                                                             4. Gross Costs With the Public                               $2,993,615            $0      $2,993,615      $295,951
                                                                                             5. (Less: Earned Revenue From the
                                                                                                       Public)                                            (175,714)             0         (175,714)     (132,504)
                                                                                             6. Net Costs With the Public                                $2,817,901            $0        $2,817,901      $163,447
                                                                                             7. Total Net Cost                                           $1,775,901     ($52,775)       $1,828,676     $1,322,931
                                                                                          F. Other
                                                                                             1. Intragovernmental Gross Costs                              $259,584              $0      $259,584        $582,171
                                                                                             2. (Less: Intragovernmental Earned
                                                                                                       Revenue)                                             (22,411)              0       (22,411)       (33,659)
   The accompanying notes are an integral part of these statements.




                                                                                             3. Intragovernmental Net Costs                                $237,173              $0      $237,173       $548,512
                                                                                             4. Gross Costs With the Public                                $631,179              $0      $631,179       $321,852
                                                                                             5. (Less: Earned Revenue From the
                                                                                                       Public)                                              212,284               0        212,284       (35,521)
                                                                                             6. Net Costs With the Public                                 $843,463               $0      $843,463       $286,331
                                                                                             7. Total Net Cost                                           $1,080,636              $0     $1,080,636      $834,843
                                                                                          G. Total Program Costs
                                                                                             1. Intragovernmental Gross Costs                           $19,351,319      $309,022      $19,042,297    $13,453,124
                                                                                             2. (Less: Intragovernmental Earned
                                                                                                       Revenue)                                          (5,840,216)    (309,022)       (5,531,194)    (5,310,110)
                                                                                             3. Intragovernmental Net Costs                             $13,511,103            $0      $13,511,103     $8,143,014
                                                                                             4. Gross Costs With the Public                             $67,293,314            $0      $67,293,314    $70,311,934
                                                                                             5. (Less: Earned Revenue From the
                                                                                                       Public)                                            (784,708)               0      (784,708)     (1,028,865)
                                                                                             6. Net Costs With the Public                               $66,508,606              $0    $66,508,606    $69,283,069
                                                                                             7. Total Net Cost                                          $80,019,709              $0    $80,019,709    $77,426,083

                                                                                     2. Cost Not Assigned to Programs                                             $0             $0             $0             $0
FY02 United States Army Annual Financial Statement




                                                                                     3. (Less:Earned Revenue Not
                                                                                        Attributable to Programs)                                                  0              0              0              0

                                                                                     4. Net Cost of Operations                                          $80,019,709              $0    $80,019,709    $77,426,083
                                                                      General Fund




                    196
                                                  Consolidating Statement of Changes in Net Position
                                                                                 Department of Defense • Department of the Army
                                                               For the years ended September 30, 2002 and 2001 ($ in thousands)

                                                                                                      Army
                                                    Active Army                                    Reserve
                                                     Cumulative           Active Army            Cumulative          Army Reserve
                                                      Results of          Unexpended              Results of          Unexpended
                                                     Operations         Appropriations           Operations         Appropriations
Beginning Balances                                 $7,839,828           $26,353,479              $960,606              $609,947

Prior period adjustments (+/-)                     (7,114,213)                        0                    0                     0

Beginning Balances, as adjusted                      $725,615           $26,353,479              $960,606              $609,947

Budgetary Financing Sources:
   Appropriations received                                  0             67,592,802                    0              4,581,360
   Appropriations transferred-in/out (+/-)                  0              4,606,408                    0                 25,513
   Other adjustments (rescissions, etc) (+/-)               0               (114,845)                   0                      0
   Appropriations used                             69,894,774           (69,894,774)            4,533,056            (4,533,056)
   Nonexchange revenue                                205,583                       0                   0                      0
   Donations and forfeitures of cash and cash               0                       0                   0                      0
       equivalents
   Transfers-in/out without reimbursement (+/-)              0                        0                   0                      0
   Other budgetary financing sources (+/-)             742,113                        0             (3,828)                      0

Other Financing Sources:
   Donations and forfeitures of property                     0                        0                   0                      0
   Transfers-in/out without reimbursement (+/-)       (38,295)                        0                (64)                      0
   Imputed financing from costs absorbed by           688,259                         0                   0                      0
       others                                                0                        0                   0                      0
   Other (+/-)

Total Financing Sources                           $71,492,434             $2,189,591           $4,529,164                $73,817

Net Cost of Operations (+/-)                       67,685,445                         0         4,235,108                        0

Ending Balances                                    $4,532,604           $28,543,070            $1,254,662              $683,764




                                                                                                                                       02
                                                                                                                                      fy

                                                                                                                                       197

                                                                   The accompanying notes are an integral part of these statements.
                                                                        Consolidating Statement of Changes in Net Position
                                                                                     Department of Defense • Department of the Army
                                                                                     For the years ended September 30, 2002 and 2001 ($ in thousands)

                                                                                                                                                        Army National                       Combined
                                                                                                                                                              Guard      Army National           Total       Combined
                                                                                                                                                          Cumulative            Guard      Cumulative             Total
                                                                                                                                                           Results of     Unexpended        Results of     Unexpended
                                                                                                                                                          Operations    Appropriations     Operations    Appropriations
                                                                                     Beginning Balances                                                   ($23,834)      $1,932,145      $8,776,600      $28,895,571

                                                                                     Prior period adjustments (+/-)                                                0                0     (7,114,213)                0

                                                                                     Beginning Balances, as adjusted                                      ($23,834)      $1,932,145      $1,662,387      $28,895,571

                                                                                     Budgetary Financing Sources:
                                                                                          Appropriations received                                                 0       8,164,266               0        80,338,428
                                                                                          Appropriations transferred-in/out (+/-)                                 0         271,587               0         4,903,508
                                                                                          Other adjustments (rescissions, etc) (+/-)                              0                0              0          (114,845)
                                                                                          Appropriations used                                             8,126,111      (8,126,111)     82,553,941      (82,553,941)
                                                                                          Nonexchange revenue                                                     0                0        205,583                  0
                                                                                          Donations and forfeitures of cash and cash                              0                0              0                  0
   The accompanying notes are an integral part of these statements.




                                                                                              equivalents
                                                                                          Transfers-in/out without reimbursement (+/-)                            0                 0             0                  0
                                                                                          Other budgetary financing sources (+/-)                             5,246                 0       743,531                  0

                                                                                     Other Financing Sources:
                                                                                          Donations and forfeitures of property                                    0                0              0                 0
                                                                                          Transfers-in/out without reimbursement (+/-)                       (4,796)                0       (43,155)                 0
                                                                                          Imputed financing from costs absorbed by                                 0                0       688,259                  0
                                                                                              others
                                                                                          Other (+/-)                                                              0                0               0                0

                                                                                     Total Financing Sources                                            $8,126,561         $309,742      $84,148,159      $2,573,150

                                                                                     Net Cost of Operations (+/-)                                         8,099,156                 0     80,019,709                 0

                                                                                     Ending Balances                                                         $3,571      $2,241,887      $5,790,837      $31,468,721
FY02 United States Army Annual Financial Statement
                                                                      General Fund




                    198
                                                     Consolidating Statement of Changes in Net Position
                                                                              Department of Defense • Department of the Army
                                                            For the years ended September 30, 2002 and 2001 ($ in thousands)

                                                                                            FY 2002
                                                                                        Consolidated                 FY 2002
                                                                                         Cumulative             Consolidated
                                                                                           Results of            Unexpended
                                                                Eliminations              Operations           Appropriations
Beginning Balances                                                        $0            $8,776,600             $28,895,571

Prior period adjustments (+/-)                                             0             (7,114,213)                        0

Beginning Balances, as adjusted                                           $0            $1,662,387             $28,895,571

Budgetary Financing Sources:
   Appropriations received                                                 0                     0              80,338,428
   Appropriations transferred-in/out (+/-)                                 0                     0               4,903,508
   Other adjustments (rescissions, etc) (+/-)                              0                     0                (114,845)
   Appropriations used                                                     0            82,553,941            (82,553,941)
   Nonexchange revenue                                                     0               205,583                        0
   Donations and forfeitures of cash and cash equivalents                  0                     0                        0
   Transfers-in/out without reimbursement (+/-)                            0                     0                        0
   Other budgetary financing sources (+/-)                                 0               743,531                        0

Other Financing Sources:
   Donations and forfeitures of property                                   0                      0                         0
   Transfers-in/out without reimbursement (+/-)                            0               (43,155)                         0
   Imputed financing from costs absorbed by others                         0               688,259                          0
   Other (+/-)                                                             0                      0                         0

Total Financing Sources                                                   $0           $84,148,159              $2,573,150

Net Cost of Operations (+/-)                                               0            80,019,709                          0

Ending Balances                                                           $0            $5,790,837             $31,468,721




                                                                                                                                  02
                                                                                                                                 fy

                                                                                                                                  199

                                                              The accompanying notes are an integral part of these statements.
                                                                        Consolidating Statement of Changes in Net Position
                                                                                     Department of Defense • Department of the Army
                                                                                     For the years ended September 30, 2002 and 2001 ($ in thousands)

                                                                                                                                                                                           FY 2001
                                                                                                                                                        FY 2001                           Restated          FY 2001
                                                                                                                                                   Consolidated          FY 2001      Consolidated         Restated
                                                                                                                                                    Cumulative      Consolidated       Cumulative      Consolidated
                                                                                                                                                      Results of     Unexpended          Results of     Unexpended
                                                                                                                                                     Operations    Appropriations       Operations    Appropriations
                                                                                     Beginning Balances                                                 $628,191   $25,887,329          $628,191      $25,887,329

                                                                                     Prior period adjustments (+/-)                                (6,556,243)                 0     (13,670,456)                 0

                                                                                     Beginning Balances, as adjusted                              ($5,928,052)     $25,887,329      ($13,042,265)     $25,887,329

                                                                                     Budgetary Financing Sources:
                                                                                          Appropriations received                                           0        3,008,242                 0        3,008,242
                                                                                          Appropriations transferred-in/out (+/-)                           0                0                 0                0
                                                                                          Other adjustments (rescissions, etc) (+/-)                        0                0                 0                0
                                                                                          Appropriations used                                      73,855,867                0        73,855,867                0
                                                                                          Nonexchange revenue                                         209,595                0           209,595                0
   The accompanying notes are an integral part of these statements.




                                                                                          Donations and forfeitures of cash and cash                        0                0
                                                                                              equivalents                                                                                       0                 0
                                                                                          Transfers-in/out without reimbursement (+/-)                       0                 0                0                 0
                                                                                          Other budgetary financing sources (+/-)                   17,161,699                 0       17,161,699                 0

                                                                                     Other Financing Sources:
                                                                                          Donations and forfeitures of property                                0               0               0                  0
                                                                                          Transfers-in/out without reimbursement (+/-)                   161,985               0         161,985                  0
                                                                                          Imputed financing from costs absorbed by                       741,589               0         741,589                  0
                                                                                              others
                                                                                          Other (+/-)                                                         0                0                 0                0

                                                                                     Total Financing Sources                                      $92,130,735       $3,008,242       $92,130,735       $3,008,242

                                                                                     Net Cost of Operations (+/-)                                   77,426,083                 0      77,426,083                  0

                                                                                     Ending Balances                                               $8,776,600      $28,895,571        $1,662,387      $28,895,571
FY02 United States Army Annual Financial Statement
                                                                      General Fund




                    200
                                                                    Combining Statement of Budgetary Resources
                                                                                           Department of Defense • Department of the Army
                                                                         For the years ended September 30, 2002 and 2001 ($ in thousands)

                                                                                       Active Army                              Army Reserve
                                                                                    Non-Budgetary                              Non-Budgetary
                                                                                    Credit Program                             Credit Program
                                                               Active Army               Financing       Army Reserve               Financing
Budgetary Resources:                                            Budgetary                 Accounts          Budgetary                Accounts
   A.   Budget Authority:
        Appropriations received                              $68,250,796                       $0          $4,607,062                     $0
        Borrowing authority                                            0                        0                   0                      0
        Contract authority                                             0                        0                   0                      0
        Net transfers (+/-)                                    4,993,499                        0              25,513                      0
        Other                                                          0                        0                   0                      0
   B.   Unobligated balance:
        Beginning of period                                    4,951,901                     691              170,289                      0
        Net transfers, actual (+/-)                              394,593                       0                    0                      0
        Anticipated Transfers Balances                                 0                       0                    0                      0
   C.   Spending authority from offsetting collections:
        Earned
              Collected                                       11,786,245                       39              68,436                      0
              Receivable from Federal sources                  (163,751)                        0               (293)                      0
        Change in unfilled customer orders
              Advance received                                     87,072                      0                   50                      0
              Without advance from Federal sources              1,117,961                      0               4,567                       0
        Anticipated for the rest of year, without advances              0                      0                    0                      0
        Transfers from trust funds                                      0                      0                    0                      0
        Subtotal                                             $12,827,527                     $39             $72,760                      $0
   D.   Recoveries of prior year obligations                   7,123,438                       0             423,674                       0
   E.   Temporarily not available pursuant to Public Law                0                      0                    0                      0
   F    Permanently not available                            (1,361,042)                       0             (69,749)                      0
   G    Total Budgetary Resources                            $97,180,712                    $730          $5,229,549                      $0

Status of Budgetary Resources:
   H.   Obligations incurred:
        Direct                                               $77,734,700                       $0         $4,974,362                      $0
        Reimbursable                                          14,387,306                        0             79,968                       0
        Subtotal                                              92,122,006                        0          5,054,330                       0
   I.   Unobligated balance:
        Apportioned                                           4,448,253                      730              41,739                       0
        Exempt from apportionment                                      0                       0                   0                       0
        Other available                                                1                       0                   0                       0
   J.   Unobligated Balances Not Available                       610,452                       0             133,480                       0
   K.   Total, Status of Budgetary Resources                 $97,180,712                    $730          $5,229,549                      $0

Relationship of Obligations to Outlays:
   L.   Obligated Balance, Net - beginning of period         $28,889,558                       $0          $1,014,143                     $0
   M.   Obligated Balance transferred, net (+/-)                       0                        0                   0                      0
   N.   Obligated Balance, Net - end of period:
        Accounts receivable                                   (1,359,126)                       0            (19,451)                      0
        Unfilled customer order from Federal sources           (7,097,227)                      0            (10,987)                      0
        Undelivered orders                                    28,625,607                        0            509,651                       0
        Accounts payable                                      10,371,762                        0            691,826                       0
   O.   Outlays:
        Disbursements                                         82,392,899                        0          4,469,487                       0
        Collections                                          (11,873,317)                    (39)            (68,486)                      0
        Subtotal                                             $70,519,582                    ($39)         $4,401,001                      $0
                                                                (184,839)                       0                   0                      0
   P.
   Q.
        Less: Offsetting receipts
        Net Outlays                                          $70,334,743                    ($39)         $4,401,001                      $0     02
                                                                                                                                                fy

                                                                                                                                                 201

                                                                             The accompanying notes are an integral part of these statements.
                                                                        Combining Statement of Budgetary Resources
                                                                                     Department of Defense • Department of the Army
                                                                                     For the years ended September 30, 2002 and 2001 ($ in thousands)

                                                                                                                                                                              Army National
                                                                                                                                                                                Guard Non-
                                                                                                                                                                            Budgetary Credit
                                                                                                                                                          Army National   Program Financing    2002 Combined
                                                                                     Budgetary Resources:                                               Guard Budgetary           Accounts          Budgetary
                                                                                          A.    Budget Authority:
                                                                                                Appropriations received                                    $8,209,418                    $0     $81,067,276
                                                                                                Borrowing authority                                                 0                     0               0
                                                                                                Contract authority                                                  0                     0               0
                                                                                                Net transfers (+/-)                                           271,587                     0       5,290,599
                                                                                                Other                                                               0                     0               0
                                                                                          B.    Unobligated balance:
                                                                                                Beginning of period                                           579,599                     0       5,701,789
                                                                                                Net transfers, actual (+/-)                                    14,377                     0         408,970
                                                                                                Anticipated Transfers Balances                                      0                     0               0
                                                                                          C.    Spending authority from offsetting collections:
                                                                                                Earned
                                                                                                      Collected                                                157,921                    0      12,012,602
                                                                                                      Receivable from Federal sources                           17,722                    0       (146,322)
                                                                                                Change in unfilled customer orders
   The accompanying notes are an integral part of these statements.




                                                                                                      Advance received                                             (3)                    0            87,119
                                                                                                      Without advance from Federal sources                     42,257                     0        1,164,785
                                                                                                Anticipated for the rest of year, without advances                   0                    0                 0
                                                                                                Transfers from trust funds                                           0                    0                 0
                                                                                                Subtotal                                                      217,897                     0       13,118,184
                                                                                          D.    Recoveries of prior year obligations                          740,256                     0        8,287,368
                                                                                          E.    Temporarily not available pursuant to Public Law                     0                    0                 0
                                                                                          F     Permanently not available                                   (138,388)                     0      (1,569,179)
                                                                                          G     Total Budgetary Resources                                  $9,894,746                    $0    $112,305,007

                                                                                     Status of Budgetary Resources:
                                                                                          H.    Obligations incurred:
                                                                                                Direct                                                     $9,022,801                    $0    $91,731,863
                                                                                                Reimbursable                                                  247,757                     0     14,715,031
                                                                                                Subtotal                                                    9,270,558                     0    106,446,894
                                                                                          I.    Unobligated balance:
                                                                                                Apportioned                                                   298,486                     0       4,788,478
                                                                                                Exempt from apportionment                                           0                     0               0
                                                                                                Other available                                                     1                     0               2
                                                                                          J.    Unobligated Balances Not Available                            325,701                     0       1,069,633
                                                                                          K.    Total, Status of Budgetary Resources                       $9,894,746                    $0    $112,305,007
FY02 United States Army Annual Financial Statement




                                                                                     Relationship of Obligations to Outlays:
                                                                                          L.    Obligated Balance, Net - beginning of period                1,722,861                     0      31,626,562
                                                                                          M.    Obligated Balance transferred, net (+/-)                            0                     0               0
                                                                                          N.    Obligated Balance, Net - end of period:
                                                                                                Accounts receivable                                           (89,154)                    0      (1,467,731)
                                                                                                Unfilled customer order from Federal sources                 (52,788)                     0      (7,161,002)
                                                                                                Undelivered orders                                          1,476,085                     0      30,611,343
                                                                      General Fund




                                                                                                Accounts payable                                              616,069                     0      11,679,657
                                                                                          O.    Outlays:
                                                                                                Disbursements                                               8,242,973                     0      95,105,359
                                                                                                Collections                                                  (157,918)                    0    (12,099,721)
                                                                                                Subtotal                                                   $8,085,055                    $0    $83,005,638
                                                                                          P.    Less: Offsetting receipts                                            0                    0       (184,839)
                                                                                          Q.    Net Outlays                                                $8,085,055                    $0    $82,820,799

                    202
                                                             Combining Statement of Budgetary Resources
                                                                                   Department of Defense • Department of the Army
                                                                 For the years ended September 30, 2002 and 2001 ($ in thousands)

                                                              FY 2002 Combined                                    FY 2001 Combined
                                                                 Non-Budgetary                                       Non-Budgetary
                                                                 Credit Program           2001 Combined              Credit Program
Budgetary Resources:                                         Financing Accounts                Budgetary         Financing Accounts
   A.   Budget Authority:
        Appropriations received                                             $0             $74,232,106                          $0
        Borrowing authority                                                  0                        0                          0
        Contract authority                                                   0                        0                          0
        Net transfers (+/-)                                                  0                2,112,116                          0
        Other                                                                0                        0                          0
   B.   Unobligated balance:
        Beginning of period                                               691                 5,970,023                          0
        Net transfers, actual (+/-)                                         0                   869,646                          0
        Anticipated Transfers Balances                                      0                         0                          0
   C.   Spending authority from offsetting collections:
        Earned
              Collected                                                     39               11,631,079                          0
              Receivable from Federal sources                                0                (125,384)                          0
        Change in unfilled customer orders
              Advance received                                              0                (106,160)                           0
              Without advance from Federal sources                          0                (183,369)                           0
        Anticipated for the rest of year, without advances                  0                        0                           0
        Transfers from trust funds                                          0                        0                           0
        Subtotal                                                          $39              $11,216,166                          $0
   D.   Recoveries of prior year obligations                                0               10,706,763                           0
   E.   Temporarily not available pursuant to Public Law                    0                        0                           0
   F    Permanently not available                                           0              (1,039,579)                           0
   G    Total Budgetary Resources                                        $730             $104,067,241                          $0

Status of Budgetary Resources:
   H.   Obligations incurred:
        Direct                                                              $0             $84,262,609                          $0
        Reimbursable                                                         0              14,102,151                           0
        Subtotal                                                            $0             $98,364,760                          $0
   I.   Unobligated balance:
        Apportioned                                                       730                4,494,010                           0
        Exempt from apportionment                                           0                        0                           0
        Other available                                                   730                        1                           0
   J.   Unobligated Balances Not Available                                  0                1,208,470                           0
   K.   Total, Status of Budgetary Resources                           $1,460             $104,067,241                          $0

Relationship of Obligations to Outlays:
   L.   Obligated Balance, Net - beginning of period                        $0             $28,485,816                          $0
   M.   Obligated Balance transferred, net (+/-)                             0                       0                           0
   N.   Obligated Balance, Net - end of period:
        Accounts receivable                                                  0              (1,614,053)                          0
        Unfilled customer order from Federal sources                         0              (5,996,218)                          0
        Undelivered orders                                                   0              28,696,740                           0
        Accounts payable                                                     0              10,540,092                           0
   O.   Outlays:
        Disbursements                                                        0              84,826,003                           0
        Collections                                                       (39)             (11,524,919)                          0
        Subtotal                                                         ($39)             $73,301,084                          $0
   P.   Less: Offsetting receipts                                            0                        0                          0
   Q.   Net Outlays                                                      ($39)             $73,301,084                          $0
                                                                                                                                       02
                                                                                                                                      fy

                                                                                                                                       203

                                                                   The accompanying notes are an integral part of these statements.
                                                                        Combining Statement of Financing
                                                                                     Department of Defense • Department of the Army
                                                                                     For the years ended September 30, 2002 and 2001 ($ in thousands)


                                                                                     Resources Used to Finance Activities:                                Active Army   Army Reserve   Army National Guard



                                                                                     Budgetary Resources Obligated
                                                                                          1.    Obligations incurred                                    $92,122,006     $5,054,330           $9,270,558
                                                                                          2.    Less: Spending authority from offsetting
                                                                                                collections and recoveries (-)                          (19,951,004)      (496,434)            (958,153)
                                                                                          3.    Obligations net of offsetting collections and
                                                                                                recoveries                                              $72,171,002     $4,557,896           $8,312,405
                                                                                          4.    Less: Offsetting receipts (-)                             (184,839)              0                    0
                                                                                          5.    Net obligations                                         $71,986,163     $4,557,896           $8,312,405

                                                                                     Other Resources
                                                                                          6.  Donations and forfeitures of property                                0              0                     0
                                                                                          7.  Transfers in/out without reimbursement (+/-)                         0              0                     0
                                                                                          8.  Imputed financing from costs absorbed by
                                                                                              others                                                        688,259               0                     0
   The accompanying notes are an integral part of these statements.




                                                                                          9. Other (+/-)                                                          0               0                     0
                                                                                          10. Net other resources used to finance activities               $688,259              $0                    $0

                                                                                     11. Total resources used to finance activities                     $72,674,422     $4,557,896           $8,312,405

                                                                                     Resources Used to Finance Items not Part of
                                                                                     the Net Cost of Operations
                                                                                          12. Change in budgetary resources obligated for
                                                                                              goods, services and benefits ordered but not
                                                                                              yet provided
                                                                                              Undelivered Orders (-)                                     (1,836,682)       (65,030)             (237,176)
                                                                                              Unfilled Customer Orders                                     1,205,033          4,617               42,254
                                                                                          13. Resources that fund expenses recognized in
                                                                                              prior periods                                              (5,656,730)            (15)                    0
                                                                                          14. Budgetary offsetting collections and receipts
                                                                                              that do not affect net cost of operations                            0              0                     0
                                                                                          15. Resources that finance the acquisition of
                                                                                              assets                                                        (41,072)      (111,167)                     0
FY02 United States Army Annual Financial Statement




                                                                                          16. Other resources or adjustments to net obligated
                                                                                              resources that do not affect net cost of
                                                                                              operations
                                                                                              Less: Trust or Special Fund Receipts Related
                                                                                              to Exchange in the Entity's Budget (-)                               0              0                     0
                                                                                              Other (+/-)                                                          0              0                     0
                                                                      General Fund




                                                                                     17. Total resources used to finance items not
                                                                                         part of the net cost of operations                             ($6,329,451)     ($171,595)           ($194,922)

                                                                                     18. Total resources used to finance the net
                                                                                         cost of operations                                             $66,344,971     $4,386,301            $8,117,483

                    204
                                                                           Combining Statement of Financing
                                                                             Department of Defense • Department of the Army
                                                           For the years ended September 30, 2002 and 2001 ($ in thousands)


Components of the Net Cost of Operations that               Active Army             Army Reserve        Army National Guard

will not Require or Generate Resources in the
Current Period:

Components Requiring or Generating
Resources in Future Periods:
   19. Increase in annual leave liability                    $250,513                    $10,221                   $15,985
   20. Increase in environmental and disposal liability             0                          0                         0
   21. Upward/Downward reestimates of credit
       subsidy expense (+/-)                                           0                         0                         0
   22. Increase in exchange revenue receivable from
       the public (-)                                                  0                         0                         0
   23. Other (+/-)                                         $1,439,747                      $7,321                  $39,790
   24. Total components of Net Cost of Operations
       that will require or generate resources in future
       periods                                              1,690,260                      17,542                   55,775

Components not Requiring or Generating
Resources:
   25.   Depreciation and amortization                        556,357                     21,666                     18,756
   26.   Revaluation of assets or liabilities (+/-)        (1,510,031)                 (190,403)                   (92,859)
   27.   Other (+/-)                                          603,891                          0                          0
   28.   Total components of Net Cost of Operations
         that will not require or generate resources        ($349,783)                ($168,737)                  ($74,103)

29. Total components of net cost of operations
    that will not require or generate resources
    in the current period                                  $1,340,477                 ($151,195)                 ($18,328)

30. Net Cost of Operations                                 $67,685,448               $4,235,106                $8,099,155




                                                                                                                                 02
                                                                                                                                fy

                                                                                                                                 205

                                                             The accompanying notes are an integral part of these statements.
                                                                        Combining Statement of Financing
                                                                                     Department of Defense • Department of the Army
                                                                                     For the years ended September 30, 2002 and 2001 ($ in thousands)


                                                                                     Resources Used to Finance Activities:                                           2002 Combined   2001 Combined


                                                                                     Budgetary Resources Obligated
                                                                                          1.    Obligations incurred                                                 $106,446,894    $98,364,761
                                                                                          2.    Less: Spending authority from offsetting
                                                                                                collections and recoveries (-)                                       (21,405,591)    (21,922,930)
                                                                                          3.    Obligations net of offsetting collections and recoveries             $85,041,303     $76,441,831
                                                                                          4.    Less: Offsetting receipts (-)                                           (184,839)               0
                                                                                          5.    Net obligations                                                      $84,856,464     $76,441,831

                                                                                     Other Resources
                                                                                          6.    Donations and forfeitures of property                                           0              0
                                                                                          7.    Transfers in/out without reimbursement (+/-)                                    0              0
                                                                                          8.    Imputed financing from costs absorbed by others                           688,259        741,589
                                                                                          9.    Other (+/-)                                                                     0              0
                                                                                          10.   Net other resources used to finance activities                          $ 688,259       $741,589
   The accompanying notes are an integral part of these statements.




                                                                                     11. Total resources used to finance activities                                  $85,544,723      $77,183,420

                                                                                     Resources Used to Finance Items not Part of the Net Cost of
                                                                                     Operations
                                                                                          12. Change in budgetary resources obligated for goods, services and
                                                                                              benefits ordered but not yet provided
                                                                                              Undelivered Orders (-)                                                   (2,138,888)    (1,693,599)
                                                                                              Unfilled Customer Orders                                                  1,251,904       (289,528)
                                                                                          13. Resources that fund expenses recognized in prior periods                 (5,656,745)      (103,514)
                                                                                          14. Budgetary offsetting collections and receipts that do not affect net               0              0
                                                                                              cost of operations
                                                                                          15. Resources that finance the acquisition of assets                          (152,239)     (3,730,946)
                                                                                          16. Other resources or adjustments to net obligated resources that do
                                                                                              not affect net cost of operations
                                                                                              Less: Trust or Special Fund Receipts Related to Exchange in the
                                                                                              Entity's Budget (-)                                                               0               0
                                                                                              Other (+/-)                                                                       0               0
FY02 United States Army Annual Financial Statement




                                                                                     17. Total resources used to finance items not part of the net cost
                                                                                         of operations                                                               ($6,695,968)    ($5,817,587)

                                                                                     18. Total resources used to finance the net cost of operations                  $78,848,755     $71,365,833
                                                                      General Fund




                    206
                                                                                Combining Statement of Financing
                                                                                    Department of Defense • Department of the Army
                                                                  For the years ended September 30, 2002 and 2001 ($ in thousands)


Components of the Net Cost of Operations that will not Require                           2002 Combined              2001 Combined

or Generate Resources in the Current Period:

Components Requiring or Generating Resources in Future
Periods:
   19.   Increase in annual leave liability                                                   $276,719                        $0
   20.   Increase in environmental and disposal liability                                            0                         0
   21.   Upward/Downward reestimates of credit subsidy expense (+/-)                                 0                         0
   22.   Increase in exchange revenue receivable from the public (-)                                 0                         0
   23.   Other (+/-)                                                                        $1,486,858                $2,961,119
   24.   Total components of Net Cost of Operations that will require or                     1,763,577                 2,961,119
         generate resources in future periods

Components not Requiring or Generating Resources:
   25.   Depreciation and amortization                                                         596,779                    782,618
   26.   Revaluation of assets or liabilities (+/-)                                        (1,793,293)                           0
   27.   Other (+/-)                                                                           603,891                     (1,901)
   28.   Total components of Net Cost of Operations that will not require or
         generate resources                                                                 ($592,623)                  $780,717

29. Total components of net cost of operations that will not
    require or generate resources in the current period                                     $1,170,954                $3,741,836

30. Net Cost of Operations                                                                 $80,019,709               $75,107,669




                                                                                                                                        02
                                                                                                                                       fy

                                                                                                                                        207

                                                                    The accompanying notes are an integral part of these statements.
                                                                    NATIONAL DEFENSE PLANT, PROPERTY, AND EQUIPMENT
                                                                         The Federal Accounting Standards Advisory Board (FASAB) amended the Statement of Federal Financial
                                                                         Accounting Standard No. 6 to require the capitalization and depreciation of military equipment (formerly
                                                                         known as National Defense Property, Plant and Equipment) for fiscal years (FY) 2003 and beyond, and
                                                                         encouraged early implementation. Accordingly, the Department began the process of developing and
                                                                         reporting values for these assets in notes to the Balance Sheet, beginning in FY 2002.



                                                                    HERITAGE ASSETS
                                                                    For Fiscal Year Ended September 30, 2002
                                                                         (a)                                                    (b)             (c)         (d)          (e)              (f)
                                                                                                               Measure-ment/Quantity   As Of10/01/01   Additions    Deletions    As Of9/30/02
                                                                         Museums (Note 4)                                     Each             217          15           11             221
                                                                         Monuments & Memorials (Note 5)                       Each             655         198           23             830
                                                                         Cemeteries (Note 6)                                  Sites            521          18            9             530
                                                                         Buildings (Note 2)                                   Each           5,687         119          128           5,678
                                                                         Structures (Note 3)                                  Each              87           1           10              78
                                                                         Major Collections (Note 8)                           Each               6           0            0               6


                                                                         Narrative Statement:
                                                                         In most cases, the additions/deletions are a result of installations defining cemeteries and historical facilities
                                                                         located on their installations as a result of CFO audits. Some deletions are a result of disposing of BRAC'd
                                                                         property.

                                                                         Notes:
                                                                         1. Includes government-owned (ownership code (OC) 1), in-leases (OC2 and 6), military permits (OC4),
                                                                            other permits (OC3), NATO (OC5), and agreements (OC7).

                                                                         2. Historical Buildings: buildings designated as historical (excludes museums).

                                                                         3. Historical Structures: structures designated as historical; excludes monuments and memorials.
FY02 United States Army Annual Financial Statement




                                                                         4. Museums: includes category code 76010.

                                                                         5. Memorial/Monuments: only Monuments and Memorials are included (76020).

                                                                         6. Cemeteries: includes category code 76030.
                                                     General Fund




                                                                         7. Exclusions/Inclusions: With the exception of Active Historical Buildings and Structures, Heritage Assets
                                                                            are excluded from the General PP&E Report.

                                                                         8. The U.S. Army Tank-automotive & Armaments Command is reporting two (2) major collections under
                                                                            the Donation Program; Ceremonial Rifles and Monuments/Static. The U.S. Army Center of Military
                                                                            History is the proponent for all Army Historical property. Currently, there are four (4) major or significant
                 208                                                        collections that are maintained outside the definition of an Army museum and museum activity. The
                                                          Required Supplementary Stewardship Information



           collections consist of the U.S. Army Center of Military History, Museum Division, Collections Branch,
           the Anniston Historical Clearinghouse, and the Maple Leaf and Benton Small Arms collections. The
           general condition of the historical collection is stable. Multi-year conservation contracts have been let with
           certified conservators, who are members in good standing with the American Institute of Conservators.
           The ongoing effort ensures that the historical collection is preserved in accordance with statutory
           requirements, Army regulations, and professional museum standards, and is interpreted in the interest of
           history, the U.S. Army, and the American people. Furthermore, the historical collection actively supports
           training and development, and serves as a bridge for common interest between the military and civilian
           communities.



STEWARDSHIP LAND
For Fiscal Year Ended September 30, 2002
(Thousand Acres)
     (a)                                                   (b)                 (c)                 (d                (e)
                                                         As Of                                  As Of           Land Use
                                                       10/01/01           Additions          Deletions           09/30/02
     1. Mission                                       7,089.6                 37.6              129.0           6,998.2
           (Note 1)
     2. Parks & Historic Sites                              .9                 .02               .002                .91
           (Note 2)


     Narrative Statement:
     Additions/deletions are the result of: (a) acquiring additional land through donation or withdrawal from
     public domain; (b) identification of missing land records; and, (c) disposal of BRAC'd property.

     Notes:
     1. Mission Land: includes the following category codes: 91120, 91131, 91141, 91210, 91310, 91320,
        91330, 91410, 92111, 92121, 92131, and 92190. These category codes represent land that was not
        purchased, but was donated or withdrawn from public domain.

     2. Parks/Historic Sites: Includes all cemeteries (category code 76030). Unable to determine if cemeteries
        are purchased, donated or transferred property. This value could be double reported within Mission
        Related, therefore, this report should not be totaled.




                                                                                                                             02
                                                                                                                            fy

                                                                                                                                 209
                                                                    NON-FEDERAL PHYSICAL PROPERTY
                                                                    Yearly Investment in State and Local Governments
                                                                    For Fiscal Years FY 1998 through FY 2002
                                                                    (In Millions of Dollars)
                                                                         (a)                                                   (b)          (c)          (d)           (e)          (f)
                                                                         Categories                                        FY 1998      FY 1999      FY 2000       FY 2001    FY2002
                                                                         Transferred Assets:
                                                                         1. National Defense Mission Related                $34.4        $20.2          $4.7        $94.8          $7.4
                                                                         Total

                                                                         Funded Assets:
                                                                         1. National Defense Mission Related                    0            0             0            0             0
                                                                         2. Environmental Improvement                           0            0             0            0             0
                                                                         3. Base Closure and Realignment                        0            0             0            0             0
                                                                         4. Other                                               0            0             0            0             0
                                                                         Grand Total                                        $34.4        $20.2          $4.7        $94.8          $7.4


                                                                         Narrative Statement:
                                                                         Investments in Non-federal Physical Property refers to those expenses incurred by the Army for the purchase,
                                                                         construction, or major renovation of physical property owned by State and Local Governments, including
                                                                         major additions, alterations and replacements; the purchase of major equipment; and the purchase of
                                                                         improvements of other physical assets. The following is a schedule of estimated investments value of state-
                                                                         owned properties that are used by the Federal Government.

                                                                         Notes:
                                                                         1. Investment values included in this report are based on outlays (expenditures). Outlays are used because
                                                                            current DoD systems are unable to capture and summarize costs in accordance with the accounting
                                                                            standards.

                                                                         2. Data provided here are significant because these are properties that are owned by the various USPFOs and
                                                                            are essential in accomplishing the mission of the Army National Guard.
FY02 United States Army Annual Financial Statement




                                                                         3. Costs of maintenance of these non-federal assets are included in the budgetary resources of the Army
                                                                            National Guard.

                                                                         4. These properties represent non-cash items that were transferred to State and local governments.
                                                     General Fund




                 210
                                                          Required Supplementary Stewardship Information



INVESTMENTS IN RESEARCH AND DEVELOPMENT
Yearly Investment in Research and Development
For Fiscal Years FY 1998 through FY 2002
(In Millions of Dollars)
     (a)                                                       (b)        (c)         (d)          (e)         (f)
     Categories                                            FY 1998    FY 1999     FY 2000      FY 2001     FY 2002
     1.      Basic Research                                 178.3      175.4        187.1       209.2       206.4
     2.      Applied Research                               540.2      574.3        677.6       806.6      864.13
     3.      Development:Advanced Technology
               Development                                   635.8      685.8      701.2         821.9      863.1
             Demonstration and Validation                    515.5      498.6      476.5         622.6      897.7
             Engineering and Manufacturing Development     1,094.5    1,221.1    1,326.4       1,653.0    1,954.9
             Research, Development, Test and Evaluation
               Management Support                          1,171.5    1,192.9      961.9        888.8       880.9
             Operational Systems Development                 657.2      656.2      605.4        849.3       970.4
     Total                                                $4,792.9   $5,004.2   $4,936.1     $5,851.3     $6,637.5




     NARRATIVE STATEMENT:
     The following are two representative program examples for each of the above major categories:

     Basic Research:
     Defense Research Sciences: This program sustains scientific and technological superiority in U.S. Army land
     war fighting capability, providing new concepts and technologies for the Army's Objective Force, the means
     to exploit scientific breakthroughs and avoid technological surprise. This program responds to the scientific
     and technological requirements of the Department of Defense Basic Research Plan, the Army Science and
     Technology Master Plan, and the Army Modernization Plan, enabling technologies that can improve
     significantly joint war fighting capabilities. The in-house portion of the program capitalizes on the Army's
     scientific talent and specialized facilities to transition expeditiously knowledge and technology into the
     appropriate developmental activities. The program leverages the research efforts of other government
     agencies, academia, and industry. This translates to a coherent, well-integrated program executed by the five
     primary contributors: 1) the Army Research Laboratory (ARL), 2) the Army Materiel Command Research,
     Development and Engineering Centers (RDECs); 3) the Army Corps of Engineers Research and
     Development Center (ERDC); 4) the Army Medical Research and Materiel Command laboratories; and 5)
     the Army Research Institute. The Army's research program promotes quality through in-depth reviews of the
     entire basic research program and the establishment of Strategic Research Objectives. The Army broadened
     its research base, expanding its basic research investments at Historically Black Colleges and Universities
     and Minority Institutions (HBCU/MIs). The basic research program coordinates with the other Services via
     the Joint Directors of Laboratories panels, Project Reliance, and other inter-service working groups. Projects
     involve basic research efforts providing fundamental knowledge for the solution of military problems related
     to long-term national security needs. The program contains no duplication with any effort within the other
     Military Departments.

     University and Industry Research Centers: This program leverages research in the private sector through           02
                                                                                                                      fy
     Federated Laboratories, Collaborative Technology Alliances (CTA), Centers of Excellence, and the                      211
     University Affiliated Research Centers. A significant portion of the work performed within this program
                                                                    directly supports Objective Force requirements, providing the enabling technologies which will make
                                                                    Objective Force equipment development possible. Collaborative Technology Alliances (CTA) are innovative
                                                                    alliances among government, industry and academic organizations, built to exploit scientific and
                                                                    technological breakthroughs and to transition them to exploratory development and applied research. CTAs
                                                                    will be established competitively in the areas of Advanced Sensors, Advanced Decision Architecture,
                                                                    Communications and Networks, Power and Energy, and Robotics. This program includes the Army's Centers
                                                                    of Excellence, which couple state-of-the-art research programs at academic institutions with broad-based
                                                                    graduate education programs, increasing the supply of scientists and engineers in materials science,
                                                                    electronics and rotary wing technology. The Army's Institute of Creative Technologies (ICT) is included also
                                                                    in this program. The ICT is a partnership with academia and the entertainment industry, leveraging
                                                                    innovative research and concepts for training and design. Specific research of mutual interest to the
                                                                    entertainment industry and the Army are technologies for realistic immersion in synthetic environments,
                                                                    networked simulation, standards for interoperability, and tools for creating simulated environments. Work is
                                                                    consistent with the Army Science and Technology Master Plan (ASTMP), the Army Modernization Plan, and
                                                                    Project Reliance. The program contains no duplication with any effort within the Military Departments.

                                                                    Applied Research:
                                                                    Combat Vehicle and Automotive Technology: This program develops component technology to improve
                                                                    automotive and survivability capabilities of Army ground vehicle systems for the Objective Force. It
                                                                    provides a portion of the Army's share of the Army/Defense Advanced Research Projects Agency (DARPA)
                                                                    collaborative Future Combat Systems (FCS) program. This funding supports both the FCS design and
                                                                    demonstration activities, and critical enabling technologies at DARPA. To achieve the Army vision, it must
                                                                    be more strategically deployable and agile, with a smaller logistical footprint. Additionally, these lighter
                                                                    ground vehicle systems must be more lethal, survivable, and tactically mobile. Other major projects within
                                                                    this area include the development of critical automotive enabling component technologies, such as active
                                                                    protection defeat mechanisms, advanced, lighter armor technology, and support for the National Automotive
                                                                    Center (NAC). The NAC leverages the large commercial investments in automotive technology research and
                                                                    development, and it pursues shared technology programs that focus on military ground vehicles. This
                                                                    program adheres to Tri-Service Reliance Agreements on advanced materials, fuels, lubricants, and ground
                                                                    vehicles, with oversight and coordination provided by the Joint Directors of Laboratories. The project is
FY02 United States Army Annual Financial Statement




                                                                    coordinated with the Marine Corps through the Naval Surface Warfare Center, and with other ground vehicle
                                                                    developers within the Departments of Energy, Commerce and Transportation and DARPA. The work is
                                                                    consistent with the Army Science and Technology Master Plan (ASTMP), the Army Modernization Plan and
                                                                    Project Reliance. The program contains no duplication with any effort within the Military Departments.

                                                                    Medical Technology: This program supports focused research for healthy, medically protected soldiers, and
                                                     General Fund




                                                                    research consistent with the "Medical," "Survivability," and "Future Warrior" technology areas of the
                                                                    Objective Force. The primary goal is to sustain medical technology superiority, and improve the protection
                                                                    and survivability of U.S. forces. This program funds applied research in the Department of Defense (DoD)
                                                                    medical protection against naturally occurring diseases, combat dentistry, and in the Department of Army
                                                                    care of combat casualties, health hazard assessments, and medical factors enhancing soldier effectiveness.
                                                                    This program is the core DoD technology base to develop methods and materials for infectious disease
                 212
                                                                    prevention and treatment, including vaccines, prophylactic and therapeutic drugs, insect repellents, methods
                                                  Required Supplementary Stewardship Information



of diagnosis and identification, prevention and treatment of combat maxillofacial (face and neck) injuries,
essential dental treatment on the battlefield, combat casualty care of trauma and burns, organ system survival,
blood loss and infection shock, blood preservation, potential blood substitutes for battlefield care, and the
sustainment or enhancement of soldier performance. The cited work is consistent with the Army Science and
Technology Master Plan (ASTMP), the Army Modernization Plan, and Project Reliance. The program
contains no duplication with any effort within the Military Departments. The U.S. Army Medical Research
and Materiel Command manage this program.

Advanced Technology Development:
Medical Advanced Technology: This program supports focused research for healthy, medically protected
soldiers, and research consistent with the "Medical" and "Survivability" technology areas of the Objective
Force. The primary goal of this program is to provide, with minimum adverse effects, maximum soldier
survivability and sustainability on the integrated battlefield, as well as in military operations other than war.
This program funds advanced technology development for the Department of Defense (DoD) core Vaccine
and Drug Program, field medical protective devices, and combat injury management. The DoD core Vaccine
and Drug Program provides, in accordance with Food and Drug Administration (FDA) regulations, drugs and
vaccines for development that effectively protect, treat, and act as antidotes against military disease threats.
It produces pilot and standard lots of candidate pharmaceutical-grade drugs, antidotes, and vaccines. The
cited work is consistent with the Army Science and Technology Master Plan (ASTMP), the Army
Modernization Plan, and Project Reliance. The program contains no duplication with any effort within the
Military Departments. The U.S. Army Medical Research and Materiel Command manage this program.

Combat Vehicle and Automotive Advanced Technology: The goal of this program is to mature and
demonstrate new and improved combat vehicle and automotive technologies, enabling the transformation of
the Army to the Objective Force. Future Combat Systems (FCS), the Army's top priority program, is the
primary emphasis of work funded here in support of Army Transformation. A large portion of the funds
support the collaborative Army/Defense Advanced Research Projects Agency (DARPA) FCS program and
provide support for the FCS analysis function of the Objective Force Task Force. The Army vision calls for
strategic dominance across the spectrum of operations. This demands a force that is deployable, agile,
versatile, lethal, survivable and sustainable. In addition, this program supports enabling component
technology areas, such as survivability (e.g., Full Spectrum Active Protection (FSAP)), mobility (including a
new engine demonstration initiative with a goal to double the power density of a comparable commercial
engine to meet FCS power, size, and weight constraints), and intra-vehicular digital electronics. It also
integrates diverse vehicle technologies developed by the Army, other DoD agencies and industry. These
technologies are demonstrated in coordination with Army war fighter organizations through vehicle
component and system level technology demonstrations. Aside from FCS, an Advanced Technology
Demonstration (ATD) will be conducted on the Future Scout and Cavalry System (FSCS), the Crew
Integration & Automation Testbed (CAT), and the Robotic Follower. The CAT ATD will demonstrate multi-
mission capable crew stations required for the versatility of the Objective Force. The Robotic Follower ATD
will demonstrate an unmanned system capability for initial FCS systems, increasing survivability and
reducing logistics for the FCS system. The U.S. Army Tank-Automotive Research, Development and
Engineering Center (TARDEC), a subordinate organization of the Tank-Automotive and Armaments
                                                                                                                     02
                                                                                                                    fy

Command (TACOM), located in Warren, MI, manages this program. It is coordinated with the Marine Corps                    213
                                                                    office through the Naval Surface Warfare Center; the Naval Research Lab; Air Force Armaments Command;
                                                                    and with other ground vehicle developers within the Departments of Energy, Commerce, Transportation, and
                                                                    DARPA. The cited work is consistent with the Army Science and Technology Master Plan (ASTMP), the
                                                                    Army Modernization Plan and Project Reliance. The program contains no duplication with any effort within
                                                                    the Military Departments.

                                                                    Demonstration and Validation:
                                                                    Artillery Systems: This program supports efforts for the Crusader Advanced Development Program. The
                                                                    Crusader system is the Army's next generation self-propelled howitzer (SPH) and Artillery Resupply Vehicle
                                                                    (RSV) and is the first installment of the Objective Force in the Army Transformation. Crusader has
                                                                    increased significantly capabilities in the areas of lethality, mobility, survivability, resupply, command and
                                                                    control, and sustainability, capitalizing on mature, state-of-the-art technologies. The combination of
                                                                    Crusader's unique capabilities, including vehicle speed, rate of fire, range, and exploitation of computers and
                                                                    communications yield unparalleled fire support capabilities for US forces. The Crusader vehicles have been
                                                                    designed specifically to facilitate air transportability, using a minimum combination of any two vehicles
                                                                    transportable in either a C5 or C17 aircraft. The mix of resupply vehicles (tracked and wheeled) also gives
                                                                    the Commander in theater additional flexibility to respond to threats, adapting his Tactics, Techniques and
                                                                    Procedures with the most appropriate utilization and interaction of tracked and wheeled resupply vehicles.

                                                                    Advanced Tank Armament System: This program looks at promising tank and medium caliber technologies,
                                                                    assessing advantages and disadvantages of each technology, as well as costs and implementation impacts. It
                                                                    also supports the International Quadripartite Agreement among the U.S., France, Germany and the United
                                                                    Kingdom for cooperative development/interoperability efforts to reduce risks on Tank and Medium Caliber
                                                                    Ammunition Systems. An immediate need exists for an Interim Armored Vehicle (IAV) equipped, C-130
                                                                    transportable Brigade Combat Team (BCT), capable of deployment anywhere on the globe in a combat ready
                                                                    configuration. The IAV family is the force and it consists of an Infantry Carrier (ICV), Reconnaissance
                                                                    Vehicle (RV), Mobile Gun System (MGS), Mortar Carrier (MC), Commander's Vehicle (CV), Fire Support
                                                                    Vehicle (FSV), Engineer Squad Vehicle (ESV), Medical Evacuation Vehicle (MEV), Anti-Tank Guided
                                                                    Missile Vehicle (ATGM), and NBC Reconnaissance Vehicle (NBC RV).
FY02 United States Army Annual Financial Statement




                                                                    Engineering and Manufacturing Development:
                                                                    Comanche: This program provides for the development, operational testing and evaluation of the RAH-66
                                                                    Comanche and the T800-801 growth engine. The Comanche is a multi-mission aircraft optimized for the
                                                                    critical battlefield mission of tactical armed reconnaissance. It provides a globally self-deployable attack
                                                                    platform for light/contingency forces. Comanche provides the solution to reconnaissance deficiencies (i.e. no
                                                                    night/adverse weather/high/hot/stand-off capability) and is a key component on the digitized battlefield in
                                                     General Fund




                                                                    winning the information war. The Comanche is the Army's technology leader and provides significant
                                                                    horizontal technology transfer within the Army and DoD. This program also provides for the continued
                                                                    development and qualification of the T800-801 growth engine and air vehicle support for integration into the
                                                                    Comanche aircraft. It includes funding for the operational testing of Comanche, as well as modeling and
                                                                    simulation accreditation for Early User Test, Limited User Test and Initial Operational Test and Evaluation.
                                                                    The program also provides for development of the airframe, mission equipment package, integration and
                 214
                                                                    qualification of the complete system, including logistic support, training, and training devices.
                                                   Required Supplementary Stewardship Information



Information Technology Development: Supports efforts to plan, design, develop, and test information
technology solutions, fulfilling the Army's Warfighter Support Mission and future needs while
accommodating changing requirements. Provides for development and acquisition of Combat Service
Support (CSS) and business information technology solutions to help arm, sustain, fix, move, train and man
the force. Completes development/acquisition efforts enhancing sustaining base functions, power projection
capabilities and facilitating global messaging and electronic data interchange (EDI). Ongoing development
efforts support multiple functional areas including logistics, personnel, transportation, training, medical/health
protection, and sustaining base.

Research, Development, Test and Evaluation Management Support:
Army Test Ranges and Facilities: This program provides the institutional funding required to assure a
developmental test capability is available for the Department of Defense (DoD) Program Executive Officers,
Program and Product Managers, and Research, Development, and Engineering Centers. Funds operation of
the Army's Major Range and Test Facility Bases, such as Yuma Proving Ground (YPG), Arizona (to include
management of Army natural environmental testing), Aberdeen Test Center, Aberdeen Proving Ground,
Maryland; White Sands Missile Range, New Mexico (including the Electronic Proving Ground (EPG) at Fort
Huachuca, Arizona); and Dugway Proving Ground, Utah (not test mission operations). This program also
provides the Army's developmental test capability at the Aviation Technical Test Center, Fort Rucker,
Alabama; Redstone Technical Test Center, Redstone Arsenal, Alabama; Cold Regions Test Center, Fort
Greely and Fort Wainwright, Alaska; and the Tropic Test Site at Schofield Barracks, Hawaii. In addition, it
provides for the capability for test planning plus safety verification/confirmation at HQ, the Developmental
Test Command (DTC) located at Aberdeen Proving Ground, Maryland. Developmental test capabilities at
each test range have been established uniquely to support test and evaluation (T&E) requirements of funded
weapons programs, assure technical performance, adherence to safety requirements, reliability, logistics
supportability, and quality materiel in the development and production stages. Program funding includes
efforts leveraging technologies to include the procurement of essential equipment, personnel training and test
facility modernization in support of the war fighter's weapons and equipment. These current testing
capabilities are not duplicated within DoD and they represent test capabilities needed to assure minimal risk
to the soldier as new technologies emerge into fielded weapons systems. This program also finances indirect
test operating costs, replacement of test equipment, and test facility modernization projects necessary to
maintain current testing capabilities, improve safety, environmental protection, efficiency of test operations,
and technological advances. The developmental test capability provided primarily supports Joint Service or
Other Service systems, hardware, and technologies, and not just Army unique systems. Some of the major
systems tested include: Joint Services Lightweight Howitzer, ABRAMS, BRADLEY, PATRIOT, PAC3,
JAVELIN, LONGBOW HELLFIRE, Interim Armored Vehicle, COMANCHE, ATACMS/BAT, as well as
other service systems such as Navy STANDARD missile and the Air Force AMRAAM missile.




                                                                                                                      02
                                                                                                                     fy

                                                                                                                          215
                                                                    Army Kwajalein Atoll: The U.S. Army Kwajalein Atoll/Ronald Reagan Ballistic Missile Defense Site
                                                                    (USAKA/RTS), located in the Republic of the Marshall Islands, is a remote, secure activity of the Major
                                                                    Range and Test Facility Base as constituted by DoD Directive 3200.11. Its function is to support test and
                                                                    evaluation of major Army and DoD missile systems, Army Space surveillance and object identification, and
                                                                    National Aeronautics and Space Administration (NASA) scientific and space programs. Programs supported
                                                                    include Army missile defense, Ballistic Missile Defense Organization (BMDO) demonstration/validation
                                                                    tests, Air Force Intercontinental Ballistic Missile (ICBM) development and operational tests, U.S. Space
                                                                    Surveillance Network, and NASA Space Transportation System (Shuttle) and orbital debris experiments.
                                                                    USAKA/RTS supports the Missile Defense Act of 1991 to put in place a Ground Based Defense System by
                                                                    2006 or the earliest date possible. The technical element of USAKA/RTS is the RTS, which consists of a
                                                                    number of sophisticated, one-of-a-kind, radar, optical, telemetry, command/control/ communications, and
                                                                    data reduction systems. These systems include the four unique radars of the Kiernan Reentry Measurement
                                                                    Site (KREMS); Super Recording Automatic Digital Optical Tracker (SRADOT) long range video-metric
                                                                    tracking systems; high density data recorders for high data-rate telemetry collected by nine antennas; and
                                                                    underwater acoustic impact location system data analysis/reduction hardware/software. Funds also support
                                                                    the Kwajalein Modernization and Remoting (KMAR) Program, a concurrent, range-wide modernization
                                                                    effort to maximize the use of common, standardized commercial off-the-shelf (COTS) technology to replace
                                                                    obsolete components; implement common hardware/software architectures and automation; and "remote" the
                                                                    operation of range sensors and instrumentation to the island of Kwajalein. This effort will upgrade range
                                                                    capabilities that are critical to the success of upcoming Theater Missile Defense (TMD) and National Missile
                                                                    Defense (NMD) test missions. The Army, Air Force, Navy and BMDO have significant test and data
                                                                    gathering requirements at USAKA/RTS. Air Force programs require firing from Vandenberg AFB, CA with
                                                                    complete data collection during late mid-course and terminal trajectory. BMDO programs require range
                                                                    sensors to collect technical data in support of the National Missile and Theater Missile Defense programs.
                                                                    This test data cannot be obtained except through the use of technical facilities available on and in the vicinity
                                                                    of USAKA/RTS. Program also supports CINCSPACE requirements for data collection on objects in space.
                                                                    The Advanced Research Project Agency (ARPA) Long-Range Tracking and Instrumentation Radar
                                                                    (ALTAIR), and the Target Resolution Discrimination Experiment (TRADEX) radar located at USAKA/RTS,
                                                                    are two of only three radars world-wide that have deep-space tracking capability. Some of the supported
                                                                    programs are Air Force's Peacekeeper, Minuteman III, and Delta; Army/BMDO's NMD (Ground Based
                                                                    Interceptor (GBI), Ground Based Radar (GBR), Battle Management/Command, Control and
FY02 United States Army Annual Financial Statement




                                                                    Communications (BMC3), In-Flight Interceptor Communication System (IFICS), TMD, ( PAC-3, System
                                                                    Integration of Tests, Family of Systems, Critical Measurements Program, Theater High Altitude Air Defense
                                                                    (THAAD), Patriot, and ground-based radar); NASA's Space Transportation System (STS), Orbital Debris
                                                                    Measurement Program, Small Expendable Deployer System and Orbital Debris Measurement Program, and
                                                                    associated programs at the Air Force Space and Missile Center.
                                                     General Fund




                                                                    Operational Systems Development:
                                                                    Aircraft Modifications/Product Improvement Program: This program develops modifications and
                                                                    improvements for the Guardrail Common Sensor/Aerial Common Sensor, the Improved Cargo Helicopter
                                                                    (ICH), the UH-60A/L Black Hawk Recapitalization/Modernization, and the Apache 2nd Generation Forward
                                                                    Looking Infrared (FLIR). Improved Cargo Helicopter (ICH) is a recapitalization program, extending the
                 216
                                                                    useful life of the CH-47D Cargo helicopter. This funding will assure heavy lift capability into the 21st
                                                   Required Supplementary Stewardship Information



century. This is the basis for establishing remanufacture, modernization, and upgrades to meet the future
readiness needs and required heavy lift capability. The UH-60 Black Hawk will serve as the Army's utility
helicopter in the Objective Force. It is used for air assault, general support, aeromedical evacuation
(MEDEVAC), and command and control in the active and reserve component theater, corps, division, and
table of distribution and allowance units. The UH-60A entered service in fiscal year 1978, and the newer
model UH-60L in 1989. The Army continues to procure UH-60L helicopters today. The Army has
established a recapitalization goal for its systems, maintaining the fleet's average age at the design half-life or
less. The UH-60 was designed for a 20-year service life. The oldest UH-60As are now over 23 years old,
and the average age of the UH-60A fleet is 18 years old. The increased operational tempo, coupled with the
technological age of the basic airframe, components, and systems, is having an adverse impact on the
operational readiness (OR) and operating and support (O&S) costs of the over 1500 UH-60 fleet. In
addition, the UH-60A/L helicopters lack the necessary digital avionics architecture to meet current and future
Army and Joint Service interoperability communication requirements. The plan is to use an evolutionary,
block approach to transform the utility helicopter force to one that is more deployable, responsive, and less
expensive to operate. It will recapitalize the oldest UH-60A Black Hawks to the UH-60M configuration.
The UH-60M selected upgrade includes airframe service life extension, structural improvements, upgrade of
the propulsion system (UH-60A T700-GE-700 engine and drive train to UH-60L T700-GE-701C engine and
drive train), and a digital cockpit. The UH-60M provides a common platform for the modernized air
ambulance MEDEVAC medical mission equipment package (MEP).

Combat Vehicle Improvement Programs: This program responds to vehicle deficiencies identified during
Desert Storm, continues technical system upgrades, and addresses needed evolutionary enhancements to
tracked combat (Abrams and Bradley) and tactical (Bradley Fire Support (FIST)) vehicles. It provides
combat effectiveness and enhancements for the Abrams Tank through a series of product improvements to
the current M1A1 and M1A2 vehicles. Additional improvements allow the M1A2 System Enhancement
Package (SEP) tank to operate effectively with the M2A3 Bradley. This program also addresses future
product improvements to the M2A3, and the Abrams tank fleet. Common Digitization (CD) efforts will
work towards the resolution of common digitization concerns impacting all current and future Ground
Combat Support Systems (GCSS). Included are Real Time Common Operating Environment (RTCOE)
Expansion, and the Abrams/Bradley Objective IC3 Program.




                                                                                                                       02
                                                                                                                      fy

                                                                                                                           217
                                                                                                           Department of the Army
                                                                                                       General Property, Plant, and Equipment
                                                                                                     Real Property Deferred Maintenance Amounts
                                                                                                               As of September 30, 2002




                                                                    Narrative Statement:
                                                                    FY 2002 sustainment requirements for the Army are from version 2.0 of the DoD Facilities Sustainment
                                                                    Model (FSM). The requirements and funding represent facilities funded from Operations & Maintenance
                                                                    (O&M), Army Family Housing (AFH), and Working Capital Fund (WCF) appropriations, and from Non-
                                                                    Appropriated Funds (NAF). Army sustainment data includes facilities that are multi-use heritage assets.
                                                                    Sustainment funding contributions from host nation funding (Japan) and military pay are included. The
                                                                    sustainment data excludes facilities funded from Research, Development, Test and Evaluation (RDTE), and
                                                                    Procurement appropriations, and Chemical Depots, because we lack separately identifiable sustainment
                                                                    funding for these locations.

                                                                    Annual Sustainment FY 2002
                                                                    Property Type                              1. Required            2. Actual      3. Difference
                                                                    Buildings, Structures, and Utilities        $3,122.2M           $2,208.8M            $913.4M

                                                                    Annual Deferred Sustainment Trend
                                                                    Property Type                                FY 2000              FY 2001            FY 2002
                                                                    Buildings, Structures, and Utilities         $629.4M              $1,167M            $913.4M



                                                                    Army Restoration & Modernization (R&M) requirements are modeled in the annual Installation Status
                                                                    Report (ISR). During ISR data collection, facility occupants evaluate the condition of each facility against
                                                                    published standards. Facilities are rated Green (complies with standards), Amber (does not fully meet
                                                                    standards), or Red (dysfunctional or substandard). ISR establishes a C-rating for groups of facilities, based
                                                                    on the proportion of facilities rated Green, Amber, and Red. Facility groups are rated C-1 (facilities fully
                                                                    support the mission), C-2 (facilities support the majority of assigned missions), C-3 (facilities impair mission
                                                                    performance), or C-4 (facilities significantly impair mission performance).
FY02 United States Army Annual Financial Statement




                                                                    ISR develops cost estimates to improve groups of facilities to higher C-ratings. Using industry based
                                                                    improvement cost factors for each facility type, ISR builds the cost to improve Red and Amber facilities to
                                                                    Green in order to achieve higher C-ratings. The requirement reported for General PP&E R&M is the cost to
                                                                    improve the quality of facilities to C-1. For FY 2002, these requirements address facility types funded from
                                                                    Army appropriated O&M, WCF, and AFH funds. The Army's R&M requirement does not include
                                                     General Fund




                                                                    requirements for facilities funded by Department of Defense (hospitals, clinics), NAF (recreation, sports),
                                                                    Army Air Force Exchange Service, Defense Commissary Agency, and private funding. The R&M
                                                                    requirement also excludes costs for utilities planned for privatization, BRAC closures, ammunition plants and
                                                                    chemical depots.

                                                                    Army facilities are predominantly C-3, due to years of underfunding sustainment. The Army's estimate to
                 218
                                                                    return these facilities to a C-1 status for FY 2002 is $20.2B, based on the FY 2002 ISR. The reduction of
                                                 Required Supplementary Stewardship Information



$8.4B in the R&M requirement is the result of a change in the Army's facility evaluation methodology to
prevent overstating restoration cost estimates for facilities. As a result of a recommendation from the U.S.
Army Audit Agency (AAA), ISR facility standards were adjusted to remove "critical components" from the
evaluation methodology. In past years, a low rating for a single facility component, if from a "critical
component", would cause the facility to receive a low rating. For FY 2002, each facility received a rating
representing the majority of the component ratings. The overall ratings collected for FY 2002 are higher than
those of FY 2001 due to this change in standards. The higher ratings and the corresponding reduction in
R&M requirements do not reflect an actual improvement in Army facilities from FY 2001 to FY 2002, but
rather a recalibration of facility ratings.

Restoration & Modernization Requirements
Property Type                            End FY 2001       End FY 2002             Change
Buildings, Structures, and Utilities          $28.6B            $20.2B              -$8.4B



                   National Defense Property, Plant and Equipment
                                       Deferred Maintenance Amounts
                                         As of September 30, 2002
                                              ($ in Thousands)

                                                                     Army            Active
Major Type                                Army Reserve      National Guard            Army              Total
1. Aircraft                                      $3.1              $35.5            $101.6           $140.2
2. Ships
3. Missiles                                                          0.9              18.2             19.1
4. Combat Vehicles                                3.3                8.1              80.3             91.7
5. Other Weapons Systems                          7.9                5.7             117.5            131.1
    Total                                       $14.3              $50.2            $317.6           $382.1




                                                                                                                 02
                                                                                                                fy

                                                                                                                     219
                                                                        Statement of Disaggregated Budgetary Resources
                                                                                     Department of Defense • Department of the Army
                                                                                     For the years ended September 30, 2002 and 2001 ($ in thousands)                                          Budgetary Financing Accounts


                                                                                     BUDGETARY RESOURCES                                                                    Research,
                                                                                                                                                                        Development,      Operation and
                                                                                          A. Budget Authority:                                               Other   Test & Evaluation     Maintenance          Procurement
                                                                                             1. Appropriations received                                 $1,137,125      $7,114,274       $28,976,751         $10,721,868
                                                                                             2. Borrowing authority                                              0               0                 0                    0
                                                                                             3. Contract authority                                               0               0                 0                    0
                                                                                             4. Net transfers (+/-)                                         16,665           3,613         3,466,418             (19,528)
                                                                                             5. Other                                                            0               0                 0                    0
                                                                                          B. Unobligated balance:
                                                                                             4. Beginning of period                                        147,543      1,064,942            878,473            2,196,519
                                                                                             5. Net transfers, actual (+/-)                               (12,776)          3,000            263,409                9,776
                                                                                             6. Anticipated Transfers Balances                                   0              0                  0                    0
                                                                                          C. Spending authority from offsetting
                                                                                             collections:
                                                                                             7. Earned                                                       7,648      2,142,650          6,954,019              490,709
                                                                                             8. Collected                                                    1,628         61,656          (106,947)                 3,218
                                                                                             9. Receivable from Federal sources                                  0              0                  0                     0
                                                                                             10. Change in unfilled customer orders                       (16,793)         53,327           (24,429)               (5,933)
                                                                                             11. Advance received                                          (9,102)        229,319            614,736              236,560
   The accompanying notes are an integral part of these statements.




                                                                                             12. Anticipated for the rest of year,
                                                                                                       without advances                                          0             0                    0                  0
                                                                                             13. Transfers from trust funds                                      0             0                    0                  0
                                                                                             14. Subtotal                                                ($16,619)    $2,486,952           $7,437,379           $724,554
                                                                                          D. Recoveries of prior year obligations                          64,721        659,107            5,173,159            466,115
                                                                                          E. Temporarily not available pursuant to
                                                                                             Public Law                                                       0                0                   0                    0
                                                                                          F. Permanently not available                                  (8,379)        (116,370)           (834,179)            (241,371)
                                                                                          G. Total Budgetary Resources                              $1,328,280       $11,215,518         $45,361,410          $13,857,933

                                                                                     STATUS OF BUDGETARY RESOURCES
                                                                                          A.    Obligations incurred:
                                                                                                15. Direct                                          $1,205,614        $7,358,954         $36,029,929         $11,235,484
                                                                                                16. Reimbursable                                        12,996         2,707,188           8,549,714             666,775
                                                                                                17. Subtotal                                        $1,218,610       $10,066,142         $44,579,643         $11,902,259
                                                                                          B.    Unobligated balance:
                                                                                                18. Apportioned                                        105,885         1,100,730              107,117           1,852,434
                                                                                                19. Exempt from apportionment                                0                 0                    0                   0
                                                                                                20. Other available                                          0                 0                    0                   0
                                                                                          C.    Unobligated Balances Not Available                       3,785            48,645             674,651              103,240
                                                                                          D.    Total, Status of Budgetary Resources                $1,328,280       $11,215,517         $45,361,411          $13,857,933
FY02 United States Army Annual Financial Statement




                                                                                     Relationship of Obligations to Outlays:
                                                                                          A.    Obligated Balance, Net - beginning of
                                                                                                period                                                   $549,719      $3,101,066         $12,117,902        $11,301,834
                                                                                          B.    Obligated Balance transferred, net (+/-)                        0               0                   0                  0
                                                                                          C.    Obligated Balance, Net - end of period:
                                                                                                21. Accounts receivable                                   (12,346)      (302,463)          (750,052)              (60,616)
                                                                                                22. Unfilled customer order from
                                                                      General Fund




                                                                                                         Federal sources                                  (37,031)    (1,210,061)        (2,541,047)          (1,001,775)
                                                                                                23. Undelivered orders                                    453,207      4,450,570           9,983,300          11,583,072
                                                                                                24. Accounts payable                                       72,909         513,858          6,514,756           1,086,394
                                                                                          D.    Outlays:
                                                                                                25. Disbursements                                   $1,234,343        $8,765,222         $37,809,638         $10,891,125
                                                                                                26. Collections                                          9,145        (2,195,977)         (6,929,590)          (484,776)
                                                                                                27. Subtotal                                        $1,243,488        $6,569,245         $30,880,048         $10,406,349
                                                                                          E.    Less: Offsetting receipts                            (184,839)                  0                   0                  0
                    220                                                                   F.    Net Outlays                                         $1,058,649        $6,569,245         $30,880,048         $10,406,349
                                                        Statement of Disaggregated Budgetary Resources
                                                                                        Department of Defense • Department of the Army
Budgetary Financing Accounts                                          For the years ended September 30, 2002 and 2001 ($ in thousands)


BUDGETARY RESOURCES                                                                 Military
                                                           Military          Construction /
     A. Budget Authority:                                Personnel          Family Housing         2002 Combined          2001 Combined
        1. Appropriations received                   $30,432,976            $2,684,282             $81,067,276           $74,232,106
        2. Borrowing authority                                 0                     0                       0                      0
        3. Contract authority                                  0                     0                       0                      0
        4. Net transfers (+/-)                         1,808,816                14,615               5,290,599              2,112,116
        5. Other                                               0                     0                       0                      0
     B. Unobligated balance:
        4. Beginning of period                           214,684              1,199,628              5,701,789              5,970,023
        5. Net transfers, actual (+/-)                   127,343                 18,218                408,970                869,646
        6. Anticipated Transfers Balances                      0                      0                      0                      0
     C. Spending authority from offsetting
        collections:
        7. Earned                                        140,777              2,276,798             12,012,602            11,631,079
        8. Collected                                     (87,180)               (18,697)             (146,322)             (125,384)
        9. Receivable from Federal sources                      0                      0                      0                     0
        10. Change in unfilled customer orders                  0                 80,948                 87,119             (106,160)
        11. Advance received                              46,218                  47,053             1,164,785             (183,369)
        12. Anticipated for the rest of year,
                  without advances                             0                     0                       0                     0
        13. Transfers from trust funds                         0                     0                       0                     0
        14. Subtotal                                     $99,815            $2,386,102             $13,118,184           $11,216,166
     D. Recoveries of prior year obligations           1,504,144               420,122               8,287,368            10,706,763
     E. Temporarily not available pursuant to
        Public Law                                             0                     0                       0                     0
     F. Permanently not available                      (292,128)              (76,753)             (1,569,179)           (1,039,579)
     G. Total Budgetary Resources                    $33,895,650            $6,646,214           $112,305,007           $104,067,241

STATUS OF BUDGETARY RESOURCES
     A.   Obligations incurred:
          15. Direct                                 $33,341,023            $2,560,859            $91,731,863            $84,262,609
          16. Reimbursable                               328,581             2,449,777             14,715,031             14,102,151
          17. Subtotal                               $33,669,604            $5,010,636           $106,446,894            $98,364,760
     B.   Unobligated balance:
          18. Apportioned                                  3,957             1,618,357              4,788,478              4,494,010
          19. Exempt from apportionment                        0                     0                      0                      0
          20. Other available                                  0                     0                      2                      1
     C.   Unobligated Balances Not Available             222,090                17,221              1,069,633              1,208,470
     D.   Total, Status of Budgetary Resources       $33,895,651            $6,646,214           $112,305,007           $104,067,241

Relationship of Obligations to Outlays:
     A.   Obligated Balance, Net - beginning of
          period                                      $2,679,468             $1,876,574           $31,626,562            $28,485,816
     B.   Obligated Balance transferred, net (+/-)             0                      0                     0                      0
     C.   Obligated Balance, Net - end of period:
          21. Accounts receivable                      (296,052)                (46,204)            (1,467,731)           (1,614,053)
          22. Unfilled customer order from
                   Federal sources                       (54,231)           (2,316,857)             (7,161,002)           (5,996,218)
          23. Undelivered orders                       (170,422)              4,311,616             30,611,343            28,696,740
          24. Accounts payable                         2,732,973                758,767             11,679,657            10,540,092
     D.   Outlays:
          25. Disbursements                          $32,673,621            $3,731,410            $95,105,359            $84,826,003
          26. Collections                              (140,777)            (2,357,746)           (12,099,721)           (11,524,919)

     E.
          27. Subtotal
          Less: Offsetting receipts
                                                     $32,532,844
                                                               0
                                                                            $1,373,664
                                                                                      0
                                                                                                  $83,005,638
                                                                                                     (184,839)
                                                                                                                         $73,301,084
                                                                                                                                    0
                                                                                                                                            02
                                                                                                                                           fy

     F.   Net Outlays                                $32,532,844            $1,373,664            $82,820,799            $73,301,084        221

                                                                        The accompanying notes are an integral part of these statements.
                                                                        Statement of Disaggregated Budgetary Resources
                                                                                     Department of Defense • Department of the Army
                                                                                     For the years ended September 30, 2002 and 2001 ($ in thousands)                               Non-Budgetary Financing Accounts


                                                                                     BUDGETARY RESOURCES                                                               Research,
                                                                                                                                                                   Development,     Operation and
                                                                                          A. Budget Authority:                                          Other   Test & Evaluation    Maintenance         Procurement
                                                                                             1. Appropriations received                                   $0                 $0               $0                 $0
                                                                                             2. Borrowing authority                                        0                  0                0                  0
                                                                                             3. Contract authority                                         0                  0                0                  0
                                                                                             4. Net transfers (+/-)                                        0                  0                0                  0
                                                                                             5. Other                                                      0                  0                0                  0
                                                                                          B. Unobligated balance:
                                                                                             4. Beginning of period                                     $691                 $0               $0                 $0
                                                                                             5. Net transfers, actual (+/-)                                0                  0                0                  0
                                                                                             6. Anticipated Transfers Balances                             0                  0                0                  0
                                                                                          C. Spending authority from offsetting
                                                                                             collections:
                                                                                             7. Earned                                                    39                   0               0                   0
                                                                                             8. Collected                                                  0                   0               0                   0
                                                                                             9. Receivable from Federal sources                            0                   0               0                   0
                                                                                             10. Change in unfilled customer orders                        0                   0               0                   0
                                                                                             11. Advance received                                          0                   0               0                   0
   The accompanying notes are an integral part of these statements.




                                                                                             12. Anticipated for the rest of year,
                                                                                                       without advances                                    0                  0                0                  0
                                                                                             13. Transfers from trust funds                                0                  0                0                  0
                                                                                             14. Subtotal                                                $39                 $0               $0                 $0
                                                                                          D. Recoveries of prior year obligations                          0                  0                0                  0
                                                                                          E. Temporarily not available pursuant to
                                                                                             Public Law                                                    0                  0                0                  0
                                                                                          F. Permanently not available                                     0                  0                0                  0
                                                                                          G. Total Budgetary Resources                                  $730                 $0               $0                 $0

                                                                                     STATUS OF BUDGETARY RESOURCES
                                                                                          A.    Obligations incurred:
                                                                                                15. Direct                                                $0                 $0               $0                 $0
                                                                                                16. Reimbursable                                           0                  0                0                  0
                                                                                                17. Subtotal                                              $0                 $0               $0                 $0
                                                                                          B.    Unobligated balance:
                                                                                                18. Apportioned                                         $730                 $0               $0                 $0
                                                                                                19. Exempt from apportionment                              0                  0                0                  0
                                                                                                20. Other available                                        0                  0                0                  0
                                                                                          C.    Unobligated Balances Not Available                         0                  0                0                  0
                                                                                          D.    Total, Status of Budgetary Resources                    $730                 $0               $0                 $0
FY02 United States Army Annual Financial Statement




                                                                                     Relationship of Obligations to Outlays:
                                                                                          A.    Obligated Balance, Net - beginning of
                                                                                                period                                                    $0                 $0               $0                 $0
                                                                                          B.    Obligated Balance transferred, net (+/-)                   0                  0                0                  0
                                                                                          C.    Obligated Balance, Net - end of period:
                                                                                                21. Accounts receivable                                    0                   0               0                   0
                                                                                                22. Unfilled customer order from
                                                                      General Fund




                                                                                                         Federal sources                                   0                   0               0                   0
                                                                                                23. Undelivered orders                                     0                   0               0                   0
                                                                                                24. Accounts payable                                       0                   0               0                   0
                                                                                          D.    Outlays:
                                                                                                25. Disbursements                                           0                 0                0                  0
                                                                                                26. Collections                                          (39)                 0                0                  0
                                                                                                27. Subtotal                                            ($39)                $0               $0                 $0
                                                                                          E.    Less: Offsetting receipts                                   0                 0                0                  0
                    222                                                                   F.    Net Outlays                                             ($39)                $0               $0                 $0
                                                     Statement of Disaggregated Budgetary Resources
                                                                                Department of Defense • Department of the Army
Non-Budgetary Financing Accounts                              For the years ended September 30, 2002 and 2001 ($ in thousands)


BUDGETARY RESOURCES                                                               Military
                                                        Military           Construction /               2002                 2001
     A. Budget Authority:                             Personnel           Family Housing            Combined             Combined
        1. Appropriations received                          $0                        $0                   $0                   $0
        2. Borrowing authority                               0                         0                    0                    0
        3. Contract authority                                0                         0                    0                    0
        4. Net transfers (+/-)                               0                         0                    0                    0
        5. Other                                             0                         0                    0                    0
     B. Unobligated balance:
        4. Beginning of period                              $0                        $0                $691                    $0
        5. Net transfers, actual (+/-)                       0                         0                   0                     0
        6. Anticipated Transfers Balances                    0                         0                   0                     0
     C. Spending authority from offsetting
        collections:
        7. Earned                                             0                         0                  39                    0
        8. Collected                                          0                         0                   0                    0
        9. Receivable from Federal sources                    0                         0                   0                    0
        10. Change in unfilled customer orders                0                         0                   0                    0
        11. Advance received                                  0                         0                   0                    0
        12. Anticipated for the rest of year,
                  without advances                           0                         0                   0                     0
        13. Transfers from trust funds                       0                         0                   0                     0
        14. Subtotal                                        $0                        $0                 $39                    $0
     D. Recoveries of prior year obligations                 0                         0                   0                     0
     E. Temporarily not available pursuant to
        Public Law                                           0                         0                   0                     0
     F. Permanently not available                            0                         0                   0                     0
     G. Total Budgetary Resources                           $0                        $0                $730                    $0

STATUS OF BUDGETARY RESOURCES
     A.   Obligations incurred:
          15. Direct                                        $0                        $0                   $0                   $0
          16. Reimbursable                                   0                         0                    0                    0
          17. Subtotal                                      $0                        $0                   $0                   $0
     B.   Unobligated balance:
          18. Apportioned                                   $0                        $0              $730                      $0
          19. Exempt from apportionment                      0                         0                  0                      0
          20. Other available                                0                         0                730                      0
     C.   Unobligated Balances Not Available                 0                         0                  0                      0
     D.   Total, Status of Budgetary Resources              $0                        $0             $1,460                     $0

Relationship of Obligations to Outlays:
     A.   Obligated Balance, Net - beginning of
          period                                            $0                        $0                   $0                   $0
     B.   Obligated Balance transferred, net (+/-)           0                         0                    0                    0
     C.   Obligated Balance, Net - end of period:
          21. Accounts receivable                             0                         0                   0                    0
          22. Unfilled customer order from
                   Federal sources                            0                         0                   0                    0
          23. Undelivered orders                              0                         0                   0                    0
          24. Accounts payable                                0                         0                   0                    0
     D.   Outlays:
          25. Disbursements                                  0                         0                   0                     0
          26. Collections                                    0                         0                (39)                     0

     E.
          27. Subtotal
          Less: Offsetting receipts
                                                            $0
                                                             0
                                                                                      $0
                                                                                       0
                                                                                                       ($39)
                                                                                                           0
                                                                                                                                $0
                                                                                                                                 0
                                                                                                                                       02
                                                                                                                                      fy

     F.   Net Outlays                                       $0                        $0               ($39)                    $0     223

                                                                   The accompanying notes are an integral part of these statements.
                                                                    Schedule, Part A DoD Intra-governmental    Treasury     Fund Balance     Accounts      Loans
                                                                    Asset Balances ($ Amounts in Thousands)      Index      with Treasury   Receivable Receivable   Investments      Other

                                                                    Executive Office of the President             11                            $833

                                                                    Department of Agriculture                     12                           $1,332

                                                                    Department of Commerce                        13                              $91

                                                                    Department of the Interior                    14                           $1,037

                                                                    Department of Justice                         15                         $20,554

                                                                    Department of Labor                           16                               $0

                                                                    Navy General Fund                             17                         $53,822

                                                                    Department of State                           19                         $22,371

                                                                    Department of the Treasury                    20        $39,510,523      $19,206                    $5,240

                                                                    Army General Fund                             21

                                                                    Department of Veterans Affairs                36                            $506

                                                                    General Service Administration                47                           $3,444

                                                                    Air Force General Fund                        57                         $44,640                                $5,673

                                                                    Federal Emergency Management
                                                                    Agency                                        58                           $3,223

                                                                    Environmental Protection Agency               68                            $585

                                                                    Department of Transportation                  69                         $33,141

                                                                    Department of Health and Human
                                                                    Services                                      75                            $776

                                                                    National Aeronautics and Space
                                                                    Administration                                80                           $3,357

                                                                    Department of Housing and Urban
                                                                    Development                                   86                              $92

                                                                    Department of Energy                          89                           $3,238
FY02 United States Army Annual Financial Statement




                                                                    Other Legislative Branch Agencies             9                             ($16)

                                                                    Selective Service System                      90                         $10,574

                                                                    US Army Corps of Engineers                    96                           $5,616                                $118

                                                                    Other Defense Organizations
                                                                    General Funds                                 97                        $161,841                                 $581
                                                     General Fund




                                                                    Other Defense Organizations Working
                                                                    Capital Funds                              97-4930                       $21,187

                                                                    Army Working Capital Fund                 97-4930.001                    $30,466                              $202,742

                                                                    Navy Working Capital Fund                 97-4930.002                      $9,680

                                                                    Air Force Working Capital Fund            97-4930.003                       $999                                   $0

                                                                    Total                                                   $39,510,523     $452,595                    $5,240    $209,114
                 224
                                                                           Required Supplementary Information
                                                          Governmental Transactions from the Consolidating Trial Balance



Schedule, Part B DoD Intra-governmental Entity    Treasury           Accounts    Debts/Borrowings
Liabilities ($ Amounts in Thousands)                Index             Payable From Other Agencies               Other

Executive Office of the President                    11                                                      $33,545

Department of Agriculture                            12                                                          ($4)

Department of the Interior                           14                                                           $2

Department of Justice                                15                                                         $114

Department of Labor                                  16                                                     $382,820

Navy General Fund                                    17               $13,283

Department of State                                  19                                                         $993

Department of the Treasury                           20                                                     $376,147

Office of Personnel Management                       24                                                      $53,792

Department of Veterans Affairs                       36                                                         $270

Air Force General Fund                               57               $28,109                                 $2,032

Department of Transportation                         69                                                         $343

Department of Health and Human Services              75                                                      $25,119

National Aeronautics and Space Administration        80                                                         $684

Department of Energy                                 89                                                         $127

US Army Corps of Engineers                           96                $1,077

Other Defense Organizations General Funds            97               $80,852               $157                $372

Other Defense Organizations Working
Capital Funds                                     97-4930            $430,651

Army Working Capital Fund                        97-4930.001         $197,098                                    $48

Navy Working Capital Fund                        97-4930.002          $14,247

Air Force Working Capital Fund                   97-4930.003           $9,226

Total                                                                $774,543               $157            $876,404




                                                                                                                            02
                                                                                                                           fy

                                                                                                                                225
                                                                    Schedule, Part C DoD Intra-governmental Revenue and Related
                                                                    Costs ($ Amounts in Thousands)                                Treasury Index   Earned Revenue

                                                                    The Judiciary                                                      10                     $3

                                                                    Executive Office of the President                                  11                $30,801

                                                                    Department of Agriculture                                          12                 $2,688

                                                                    Department of Commerce                                             13                 $2,523

                                                                    Department of the Interior                                         14                 $1,918

                                                                    Department of Justice                                              15                $55,057

                                                                    Department of Labor                                                16                    $96

                                                                    Navy General Fund                                                  17               $508,496

                                                                    Department of State                                                19                $40,522

                                                                    Department of the Treasury                                         20                $49,819

                                                                    Nuclear Regulatory Commission                                      31                     $0

                                                                    Department of Veterans Affairs                                     36                 $2,490

                                                                    General Service Administration                                     47                 $9,422

                                                                    Air Force General Fund                                             57               $779,697

                                                                    Federal Emergency Management Agency                                58                 $3,098

                                                                    Environmental Protection Agency                                    68                 $1,801

                                                                    Department of Transportation                                       69                $39,893

                                                                    Department of Health and Human Services                            75                 $7,883

                                                                    National Aeronautics and Space Administration                      80                $22,176

                                                                    Department of Housing and Urban Development                        86                   $452

                                                                    Department of Energy                                               89                 $8,642

                                                                    Other Legislative Branch Agencies                                   9                    $93

                                                                    Selective Service System                                           90                 $4,314
FY02 United States Army Annual Financial Statement




                                                                    US Army Corps of Engineers                                         96                $42,951

                                                                    Other Defense Organizations General Funds                          97             $3,271,819

                                                                    Other Defense Organizations Working Capital Funds               97-4930             $324,769

                                                                    Army Working Capital Fund                                     97-4930.001           $247,517
                                                     General Fund




                                                                    Navy Working Capital Fund                                     97-4930.002            $66,952

                                                                    Air Force Working Capital Fund                                97-4930.003             $5,300

                                                                    Total                                                                             $5,531,192




                 226
                                                                      Required Supplementary Information
                                                     Governmental Transactions from the Consolidating Trial Balance



Schedule, Part E DoD Intra-governmental            Treasury
Non-exchange Revenues ($ Amounts in Thousands)       Index                Transfers In              Transfers Out

Air Force General Fund                               57                       $9,055

US Army Corps of Engineers                           96                            $0

Other Defense Organizations General Funds            97                      $22,140

Army Working Capital Fund                        97-4930.001                                            $74,349

Total                                                                        $31,195                    $74,349




                                                                                                                       02
                                                                                                                      fy

                                                                                                                           227
      FY02 United States Army Annual Financial Statement




228
      General Fund
                                                            INSPECTOR GENERAL
                                                          DEPARTMENT OF DEFENSE
                                                             400 ARMY NAVY DRIVE
                                                        ARLINGTON, VIRGINIA 22202-4704

                                                                                                                                   January 8, 2003



MEMORANDUM FOR ASSISTANT SECRETARY OF THE ARMY (FINANCIAL
               MANAGEMENT AND COMPTROLLER)

SUBJECT: Independent Auditor's Report on the Army General Fund Fiscal Year 2002
         Principal Financial Statements (Report No. D-2003-0047)

The Chief Financial Officers (CFO) Act of 1990, as amended, requires the Inspector General of the
Department of Defense to audit the accompanying Consolidated Balance Sheet of the Army General Fund as
of September 30, 2002, and the related Consolidated Statements of Net Cost and Changes in Net Position
and the Combined Statements of Financing and Budgetary Resources for the fiscal years then ended. These
financial statements are the responsibility of Army management. The Army is also responsible for
implementing effective internal control and for complying with laws and regulations. In addition to our
disclaimer of opinion on the financial statements, we are including the required reports on internal control
and compliance with laws and regulations. The Army did not prepare FY 2001 General Fund Financial
Statements due to the loss of financial management personnel during the September 11, 2001, terrorist attack.
Because the Army did not prepare FY 2001 financial statements, an audit was not performed.

Disclaimer of Opinion on the Financial Statements
The Assistant Secretary of the Army (Financial Management and Comptroller) has acknowledged that (1)
Army General Fund financial management systems do not substantially comply with Federal financial
management systems requirements, generally accepted accounting principles, and the U.S. Government
Standard General Ledger at the transaction level and (2) Army General Fund financial management and
feeder systems cannot currently provide adequate evidence supporting various material amounts on the
financial statements. Therefore, we did not perform auditing procedures to support material amounts on the
financial statements. In addition, other auditing procedures were not performed because Section 1008(d) of
the FY 2002 National Defense Authorization Act requires the Inspector General of the Department of
Defense to perform only the audit procedures required by generally accepted government auditing standards
consistent with representations made by management. These material deficiencies also affected the reliability
of certain financial information contained in the accompanying Management's Discussion and Analysis and
certain other information-much of which was taken from the same data sources as the principal financial
statements.1 These deficiencies would have precluded an audit opinion. Therefore, we are unable to express,
and we do not express, an opinion on the financial statements and the accompanying information.



1
    Other information includes the Supporting Consolidating and Combining Financial Statements, the Required Supplementary Stewardship Information, and
    Required Supplementary Information.

                                                                                                                                                           02
                                                                                                                                                          fy
A Regular Statement and Account of the Receipts and Expenditures of all public Money shall be published                                                        229
from time to time. —Constitution of the United States Article I, Section 9
                                                                    Summary of Internal Control
                                                                    In planning and performing our audit, we considered Army internal control over financial reporting and
                                                                    compliance. We did this to determine our procedures for auditing the financial statements and to comply
                                                                    with Office of Management and Budget guidance but not to express an opinion on internal control.
                                                                    Accordingly, we do not express an opinion on internal control over financial reporting and compliance
                                                                    because previously identified reportable conditions,2 all of which are material, continue to exist in the
                                                                    following areas:

                                                                            z financial management systems

                                                                            z accounting adjustments;

                                                                            z intragovernmental transactions and eliminations;

                                                                            z Fund Balance with Treasury;

                                                                            z Accounts Receivable;

                                                                            z Inventory and Related Property;

                                                                            z General Property, Plant, and Equipment;

                                                                            z Accounts Payable;

                                                                            z Other Liabilities;

                                                                            z National Defense Property, Plant, and Equipment;

                                                                            z problem disbursements;

                                                                            z Statement of Net Cost;

                                                                            z Statement of Financing; and

                                                                            z Statement of Budgetary Resources.

                                                                    A material weakness is a condition that precludes the entity's internal control from providing reasonable
FY02 United States Army Annual Financial Statement




                                                                    assurance that misstatements, losses, or noncompliance that are material in relation to the financial statements
                                                                    would be prevented or detected on a timely basis. Our internal control work would not necessarily disclose
                                                                    all material weaknesses. See the Attachment for additional details on material internal control weaknesses.
                                                     General Fund




                                                                    2
                                                                        Reportable conditions are matters coming to the auditor's attention that, in his or her judgment, should be communicated to management because they
                                                                        represent significant deficiencies in the design or operation of internal control, which could adversely affect the organization's ability to initiate, record,
                                                                        process, and report financial data consistent with the assertions of management in financial statements.




                 230
                                                                    A Regular Statement and Account of the Receipts and Expenditures of all public Money shall be published
                                                                    from time to time. —Constitution of the United States Article I, Section 9
                                                                                           Opinion Report



Summary of Compliance With Laws and Regulations
Our work to determine compliance with selected provisions of the applicable laws and regulations was
limited because management acknowledged instances of noncompliance, and previously reported instances
of noncompliance continued to exist. The Army was unable to comply with the requirements of the CFO Act
of 1990, as amended. The Army has acknowledged that many of its financial management and feeder
systems did not comply with the requirements of the Federal Financial Management Improvement Act of
1996. The Army was also unable to comply with Government Performance and Results Act requirements
because it did not have cost accounting systems in place to collect, process, and report operating costs.
Therefore, we did not determine whether the Army was in compliance with all other applicable laws and
regulations related to financial reporting. See the Attachment for additional details on compliance with laws
and regulations.

In order for DoD to comply with statutory reporting requirements and applicable financial systems
requirements, the Under Secretary of Defense (Comptroller)/Chief Financial Officer is developing the DoD-
wide financial management enterprise architecture. DoD anticipates developing and implementing the
enterprise architecture by 2007. Until the enterprise architecture is developed and implemented, the Army
will be unable to fully comply with statutory reporting requirements.

We caution that other noncompliance may have occurred and not been detected. Further, the results of our
limited procedures may not be sufficient for other purposes. Our objective was not to express an opinion on
compliance with applicable laws and regulations.

Management Responsibility
Management is responsible for:

z preparing the financial statements in conformity with generally accepted accounting principles;

z establishing, maintaining, and assessing internal control to provide reasonable assurance that the broad
  control objectives of the Federal Managers' Financial Integrity Act of 1982 are met;

z ensuring that the Army financial management systems substantially comply with Federal Financial
  Management Improvement Act of 1996 requirements; and

z complying with applicable laws and regulations.




                                            David K. Steensma
                                     Deputy Assistant Inspector General
                                               for Auditing


                                                                                                                 02
                                                                                                                fy
A Regular Statement and Account of the Receipts and Expenditures of all public Money shall be published              231
from time to time. —Constitution of the United States Article I, Section 9
                                                                    Reports on Internal Control and Compliance with Laws and
                                                                    Regulations

                                                                    Internal Control
                                                                       Management is responsible for implementing effective internal control and for providing reasonable
                                                                       assurance that accounting data are accumulated, recorded, and reported properly; and that assets are
                                                                       safeguarded. We performed reviews of the Army strategic plan for correcting accounting and reporting
                                                                       deficiencies, and followed up on selected deficiencies in internal control over financial reporting identified in
                                                                       prior audit reports. We did not obtain sufficient evidence to support or express an opinion on internal control
                                                                       because previously identified reportable conditions, all of which are material, continue to exist. The
                                                                       following material internal control weaknesses precluded an audit opinion of the Army General Fund
                                                                       financial statements and significantly impaired the ability of DoD to detect and investigate fraud or theft of
                                                                       assets. A high risk of material misstatements will continue to exist until the internal control deficiencies are
                                                                       corrected.

                                                                       Financial Management Systems. Army accounting systems lacked a single standard transaction-driven
                                                                       general ledger. In addition, the accounting systems did not produce account-oriented subsidiary ledgers, data
                                                                       for physical assets were compiled using "work-around" procedures, and data from management systems were
                                                                       not intended and not suitable for financial reporting. Consequently, the audit trails necessary to verify and
                                                                       reconcile account balances were inadequate. The Army also needed to upgrade or replace many of its feeder
                                                                       systems so that the requirements of financial statement reporting could be met. The lack of integrated,
                                                                       transaction-driven, financial management systems will continue to prevent the Army from preparing
                                                                       auditable financial statements until such time as they are corrected.

                                                                       The Army has disclosed its financial management system deficiencies in the footnotes to the Army General
                                                                       Fund financial statements. The Army stated that elements of Federal generally accepted accounting
                                                                       principles were not met due to limitations of its financial and non-financial management processes and
                                                                       systems. The Army derives its reported values and information for major asset and liability accounts from
                                                                       non-financial feeder systems, such as inventory and logistics systems. Major assets include Property, Plant,
FY02 United States Army Annual Financial Statement




                                                                       and Equipment (PP&E), and Inventory and Related Property. The Army generally records transactions on a
                                                                       budgetary basis, similar to a cash basis, and not an accrual accounting basis. Budgetary transactions were
                                                                       recorded, for example, in Fund Balance with Treasury, accounts receivable, accounts payable, gross costs,
                                                                       and earned revenues. Until the Army systems are updated, Army financial data will be based on budgetary
                                                                       transactions (obligations, disbursements, and collections).
                                                     General Fund




                                                                       Accounting Adjustments. Because of inadequate financial management systems and processes, journal
                                                                       voucher adjustments and data calls were used to prepare the Army financial statements. The Defense
                                                                       Finance and Accounting Service (DFAS) did not adequately support $500.1 billion in journal voucher
                                                                       adjustments to the general ledger accounts that were used to prepare the Army General Fund financial
                                                                       statements. Journal vouchers were not properly prepared, reviewed, and approved. These unsupported
                                                                       adjustments presented a material uncertainty regarding the line item balances on the FY 2002 Army General
                 232                                                   Fund financial statements. DFAS Indianapolis made:
                                                                                             Opinion Report



z $319.1 billion in unsupported adjustments to force general ledger accounts to agree with budgetary data,
  without reconciling the differences or determining which data source was correct;

z $80.4 billion in unsupported adjustments to correct errors and reclassify amounts to other accounts;

z $48.2 billion in unsupported adjustments to force amounts to agree with other sources of information and
  records or financial statement lines;

z $27.1 billion in adjustments to intragovernmental accounts to force the accounts to agree with the records
  of Army's trading partners; and

z $25.3 billion in unsupported adjustments to record financial information from data calls.

Intragovernmental Transactions and Eliminations. DoD and Army accounting systems did not capture
trading partner data at the transaction level in a manner that facilitated trading partner reconciliations, and
DoD guidance did not require adequate support for eliminations. In addition, DoD procedures required that
buyer-side transaction data be forced to agree with seller-side transaction data without performing proper
reconciliations. DFAS Indianapolis made $27.1 billion in unsupported adjustments to intragovernmental
accounts to force the accounts to agree with the records of Army's trading partners. These adjustments
caused both accounts receivable and accounts payable on the Balance Sheet and the breakout between
intragovernmental and public costs on the Statement of Net Cost to be unsupported.

Fund Balance with Treasury. Cash balances between installation, headquarters, and U.S. Treasury records
could not be reconciled. DoD financial systems were not integrated; errors in preparation and perpetuation of
financial information occurred; and the DoD collection and payment process had weaknesses. DFAS
Indianapolis increased Fund Balance with Treasury by $4.6 billion in unsupported adjustments through the
ending balance adjustment for FY 2002.

Accounts Receivable. DFAS made $125.7 million in unsupported adjustments to increase accounts
receivable balance because of the ending balance adjustment for FY 2002. Also, the Army disclosed in its
financial statement footnotes that it could not reconcile its $452.6 million intragovernmental accounts
receivable, or make proper eliminations.

Inventory and Related Property. Statements of Federal Financial Accounting Standards (SFFAS) No. 3
requires the use of the consumption method of accounting for Operating Materials and Supplies; however,
DoD has acknowledged that its entities use the purchase method of accounting for a significant amount of
Operating Materials and Supplies. Operating Materials and Supplies in-transit records were not properly
closed out and Operating Materials and Supplies were reported using the purchase method of accounting,
instead of the consumption method. Inventories were reported at latest acquisition cost because Army
systems do not maintain historical data. An unsupported adjustment for $590 million was used to correct an
abnormal balance in the Conventional Ammunition Working Capital Fund allowance account. In addition,
the Army disclosed that audit results have identified uncertainties about the completeness and existence of
quantities reported.                                                                                               02
                                                                                                                  fy

                                                                                                                       233
                                                                    General Property, Plant, and Equipment. SFFAS No. 6 requires that all PP&E be recorded at cost. It also
                                                                    requires that depreciation expense be recognized on all general PP&E. Depreciation is to be calculated
                                                                    through the systematic and rational allocation of the cost of general PP&E, less the estimated salvage or
                                                                    residual value, over the estimated useful life. Army systems were unable to capture the correct acquisition
                                                                    date and cost and could not provide reliable information for reporting account balances and computing
                                                                    depreciation.

                                                                    Accounts Payable. DFAS made $713.5 million in unsupported adjustments that increased accounts payable
                                                                    balances through the FY 2002 ending balance adjustment. The Army disclosed that it could not reconcile its
                                                                    $775 million intragovernmental accounts payable, or make proper eliminations. As a result, DFAS
                                                                    Indianapolis made $1.3 billion in unsupported adjustments to increase accounts payable with the public and
                                                                    made $697.6 million in unsupported adjustments to decrease intragovernmental accounts payable in order to
                                                                    force the amounts to agree with Army's trading partners.

                                                                    Other Liabilities. The Army was working on determining what actions are needed to improve
                                                                    accountability over environmental liabilities. Also, accrued funded payroll included an unsupported
                                                                    adjustment of $3.4 billion made to the general ledger data. The Army had not established controls and
                                                                    procedures to express an opinion in its legal representation letter on the likely outcome of 220 pending legal
                                                                    cases or to estimate value of the Government's potential monetary loss as required by Office of Management
                                                                    and Budget Bulletin No. 01-02, "Audit Requirement for Federal Financial Statements," October 16, 2002.
                                                                    However, some case narratives showed that the Government is seeking settlement or settlement is pending.
                                                                    As a result, contingent liabilities on the Balance Sheet or the footnotes are probably understated.

                                                                    National Defense Property, Plant, and Equipment. SSFAS No. 8 requires reporting the value of National
                                                                    Defense PP&E using the total cost or the latest acquisition cost method. The Army did not include National
                                                                    Defense PP&E in its Required Supplementary Stewardship Information. Processes and procedures to capture
                                                                    and report that material did not provide reasonable assurance that the data were accurate and complete.

                                                                    Problem Disbursements. Problem disbursements occurred because accounting and finance systems were
                                                                    not integrated and disbursements were made by organizations that were not collocated with the accounting
                                                                    stations. Therefore, errors and delays occurred in posting disbursement data to accounting records. As of
FY02 United States Army Annual Financial Statement




                                                                    September 30, 2002, the Army General Fund reported $160.7 million (absolute value) of unmatched
                                                                    disbursements, $21 million (absolute value) of negative unliquidated obligations and $710.2 million (net
                                                                    value) of in-transit disbursements. These payments and collections have been reported to the Treasury, but
                                                                    have not been recorded in the Department's accounting records. This adversely affects expenditure rates and
                                                                    revenue recognition, and distorts financial statements.
                                                     General Fund




                                                                    Statement of Net Cost. SFFAS No. 4 requires that Federal agencies provide reliable and timely information
                                                                    on the full cost of Federal programs, activities, and outputs. DoD entities use the major appropriation
                                                                    categories, as set forth by the Congress, instead of program-level information. This approach does not meet
                                                                    the intent of SFFAS No. 4. Appropriation categories are not consistent with DoD performance goals and
                                                                    measures and are inappropriate for the preparation of the Statement of Net Cost, which is intended to show
                 234                                                the full net cost for entity programs. An appropriation is a funding mechanism that does not record accrued
                                                                                             Opinion Report



  expenses, and a program may use more than one appropriation and include non-productive costs allocated to
  entity programs, such as accrued expenses. The Army also used budgetary data to record expenses.
  Specifically, DFAS made $10.9 billion in unsupported adjustments to force costs to agree with obligation
  information. In addition, Army intragovernmental transactions were not properly accounted for, reported,
  and appropriately eliminated, because DoD did not require trading partner reconciliations and DFAS
  Indianapolis was unable to reconcile Army intragovernmental transactions with its trading partners. As a
  result, DFAS Indianapolis made $13.8 billion in unsupported adjustments to decrease intragovernmental
  costs and $14.3 billion in unsupported adjustments to increase cost with the public in order to force buyer-
  side transaction data to agree with seller-side transaction data.

  Statement of Financing. The Statement of Financing was prepared on a combined basis, whereas, the
  Statement of Net Cost was prepared on a consolidated basis. Also, DFAS Indianapolis made $3.7 billion in
  unsupported adjustments to force the Statement of Financing to match similar information on the Statement
  of Net Cost.

  Statement of Budgetary Resources. DFAS was unable to provide a single database supporting the
  summary transactions used to prepare the Army Reports on Budget Execution and the Army financial
  statements. In addition, DFAS Indianapolis made $8.4 billion in unsupported adjustments to general ledger
  data used to prepare the Statement of Budgetary Resources.

Compliance with Laws and Regulations
  Management is responsible for compliance with existing laws and regulations related to financial reporting.
  Our work to determine compliance with selected provisions of the applicable laws and regulations was
  limited because management acknowledged instances of noncompliance, and previously reported instances
  of noncompliance continued to exist. Therefore, we did not determine whether the Army was in compliance
  with selected provisions of all applicable laws and regulations related to financial reporting. Our objective
  was not to express an opinion on compliance with applicable laws and regulations.

  Statutory Financial Management Systems Reporting Requirements. The Army is required to comply
  with the following financial management systems reporting requirements.

  The Federal Financial Management Improvement Act of 1996 requires DoD to establish and maintain
  financial management systems that comply substantially with the Federal financial management systems
  requirements, applicable Federal accounting standards, and the U.S. Government Standard General Ledger at
  the transaction level. In addition, the Federal Managers' Financial Integrity Act of 1982 requires DoD to
  evaluate the systems and to annually report whether those systems are in compliance with applicable
  requirements. The CFO Act requires that each agency develop and maintain an integrated agency accounting
  and financial management system, including financial reporting and internal control. The system should
  comply with internal control standards, applicable accounting principles, standards, and requirements, and
  provide for complete, reliable, consistent, and timely information.

  The Army acknowledged that many of its critical financial management and feeder systems do not comply
                                                                                                                   02
                                                                                                                  fy

                                                                                                                       235
  substantially with the Federal financial management systems requirements, Federal accounting standards, and
                                                                      the U.S. Government Standard General Ledger at the transaction level. The Army was also unable to comply
                                                                      with the CFO Act because its financial management systems were not integrated and it has acknowledged
                                                                      that many of its financial management and feeder systems did not comply with applicable Federal accounting
                                                                      standards.

                                                                      In an attempt to comply with statutory reporting requirements and applicable financial systems requirements
                                                                      in the future, DoD plans to develop a DoD-wide financial management enterprise architecture. The
                                                                      enterprise architecture is intended to provide a "blueprint" of DoD financial management systems and
                                                                      processes to initiate a comprehensive financial management reform effort. Until the architecture is
                                                                      developed, the Army will be unable to fully comply with the statutory reporting requirements. Therefore, we
                                                                      did not perform tests of compliance for these requirements.

                                                                      Government Performance and Results Act (GPRA). The GPRA requires that each Federal agency
                                                                      prepare a strategic plan and annual performance plans and reports. Until the DoD-wide financial
                                                                      management enterprise architecture is developed, DoD will be unable to fully measure its performance goals
                                                                      related to financial and information management. The Army did not comply with GPRA because it did not
                                                                      have cost accounting systems in place to collect, process, and report operating costs. This resulted in the
                                                                      Army Statement of Net Cost being unable to provide cost-of-operations data that were consistent with GPRA
                                                                      performance goals and measures.

                                                                    Audit Disclosures
                                                                      We recognize that there were additional laws and regulations pertinent to Army General Fund financial
                                                                      operations during FY 2002. However, in accordance with Public Law 107-107, the "National Defense
                                                                      Authorization Act for Fiscal Year 2002," we limited our audit scope and performed only audit procedures
                                                                      required by generally accepted government auditing standards consistent with the representations made by
                                                                      the Assistant Secretary of the Army (Financial Management and Comptroller) in the engagement
                                                                      memorandum signed on August 21, 2002. Therefore, we did not perform tests of compliance for these
                                                                      requirements.

                                                                          z Anti-Deficiency Act.
FY02 United States Army Annual Financial Statement




                                                                          z Provisions Governing Claims of the United States Government.

                                                                          z Federal Credit Reform Act of 1990.

                                                                          z Pay and Allowance System for Civilian Employees.

                                                                          z Prompt Pay Act.
                                                     General Fund




                                                                      The Assistant Secretary of the Army (Financial Management and Comptroller) acknowledged in the
                                                                      Engagement Memorandum signed on August 21, 2002, that the Army financial management systems could
                                                                      not provide adequate evidence supporting various material amounts on the financial statements. As a result,
                                                                      we were unable to obtain adequate evidential matter to form or express an opinion on the financial
                                                                      statements, internal control, and compliance with laws and regulations.
                 236
                                                                                      Consolidated Balance Sheet
                                                                               Department of Defense • Department of the Army
                                                                           As of September 30, 2002 and 2001 ($ in thousands)


1. ASSETS (Note 2)                                                                    FY 2002                         FY 2001

     A. Intragovernmental:
        1. Fund Balance with Treasury (Note 3)                                    $251,030                        $325,682
        2. Investments (Note 4)                                                           0                               0
        3. Accounts Receivable (Note 5)                                             221,978                         276,355
        4. Other Assets (Note 6)                                                         48                          27,006
        5. Total Intragovernmental Assets                                         $473,056                        $629,043
     B. Cash and Other Monetary Assets (Note 7)                                          $0                              $0
     C. Accounts Receivable (Note 5)                                                 16,419                          22,622
     D. Loans Receivable (Note 8)                                                         0                               0
     E. Inventory and Related Property (Note 9)                                  11,319,284                      10,791,280
     F. General Property, Plant and Equipment (Note 10)                           1,250,240                       1,149,629
     G. Other Assets (Note 6)                                                       251,298                         274,330

2. TOTAL ASSETS                                                                 $13,310,297                    $12,866,904

3. LIABILITIES (Note 11)
     A.   Intragovernmental:
          1. Accounts Payable (Note 12)                                             $77,257                         $67,184
          2. Debt (Note 13)                                                               0                               0
          3. Environmental Liabilities (Note 14)                                          0                               0
          4. Other Liabilities (Notes 15 and 16)                                    262,039                         118,906
          5. Total Intragovernmental Liabilities                                   $339,566                        $186,090
     B.   Accounts Payable (Note 12)                                               $511,007                        $355,452
     C.   Military Retirement Benefits and Other Employment-
          Related Actuarial Liabilities (Note 17)                                    304,524                         308,657
     D.   Environmental Liabilities (Note 14)                                              0                               0
     E.   Loan Guarantee Liability (Note 8)                                                0                               0
     F.   Other Liabilities (Notes 15 and 16)                                        212,055                         209,928

4. TOTAL LIABILITIES                                                              $1,367,152                     $1,060,127

5. NET POSITION
     A.   Unexpended Appropriations (Note 18)                                       $30,043                         $38,860
     B.   Cumulative Results of Operations                                        11,913,102                      11,767,917

6. TOTAL NET POSITION                                                           $11,943,145                     $11,806,777

7.   TOTAL LIABILITIES AND NET POSITION                                         $13,310,297                    $12,866,904




     See Note 1 and Note 2.


                                                                                                                                   02
                                                                                                                                  fy

                                                                                                                                   237

                                                               The accompanying notes are an integral part of these statements.
                                                                          Consolidated Statement of Net Cost
                                                                                             Department of Defense • Department of the Army
                                                                                             For the years ended September 30, 2002 and 2001 ($ in thousands)


                                                                                             1. Program Costs                                                        FY 2002        FY 2001

                                                                                                  A.    Intragovernmental Gross Costs                             $1,424,466    $1,921,908
                                                                                                  B.    (Less: Intragovernmental Earned Revenue)                 (6,849,906)    (5,740,467)
                                                                                                  C.    Intragovernmental Net Costs                             ($5,425,440)   ($3,818,559)
                                                                                                  D.    Gross Costs With the Public                               $6,358,713    $4,304,235
                                                                                                  E.    (Less: Earned Revenue From the Public)                     (345,171)      (359,202)
                                                                                                  F.    Net Costs With the Public                                 $6,013,542    $3,945,033
                                                                                                  G.    Total Net Cost                                              $588,102       $126,474

                                                                                             2. Cost Not Assigned to Programs                                             0              0

                                                                                             3. (Less:Earned Revenue Not Attributable to Programs)                        0              0

                                                                                             4. Net Cost of Operations                                             $588,102       $126,474
   The accompanying notes are an integral part of these statements.




                                                                                                  See Note 1 and Note 19.
FY02 United States Army Annual Financial Statement
                                                                      Working Capital Fund




                    238
                                                     Consolidated Statement of Changes in Net Position
                                                                              Department of Defense • Department of the Army
                                                            For the years ended September 30, 2002 and 2001 ($ in thousands)


CUMULATIVE RESULTS OF OPERATIONS                                                       FY 2002                         FY 2001

   Beginning Balances                                                            $11,767,917                     $11,849,314
   Prior period adjustments (+/-)                                                          0                       1,463,816
   Beginning Balances, as adjusted                                               $11,767,917                     $13,313,130

Budgetary Financing Sources:
   Appropriations received                                                                  0                               0
   Appropriations transferred-in/out (+/-)                                                  0                               0
   Other adjustments (rescissions, etc) (+/-)                                               0                               0
   Appropriations used                                                                176,217                          29,082
   Nonexchange revenue                                                                170,039                               0
   Donations and forfeitures of cash and cash equivalents                                   0                               0
   Transfers-in/out without reimbursement (+/-)                                             0                               0
   Other budgetary financing sources (+/-)                                            202,799                     (1,558,924)

Other Financing Sources:
   Donations and forfeitures of property                                                    0                               0
   Transfers-in/out without reimbursement (+/-)                                        74,348                           6,073
   Imputed financing from costs absorbed by others                                    109,884                         105,030
   Other (+/-)                                                                              0                               0

Total Financing Sources                                                            $733,287                     ($1,418,739)
Net Cost of Operations (+/-)                                                         588,102                         126,474
Ending Balances                                                                  $11,913,102                     $11,767,917

UNEXPENDED APPROPRIATIONS
   Beginning Balances                                                                 $38,860                         $55,990
   Prior period adjustments (+/-)                                                           0                               0
   Beginning Balances, as adjusted                                                    $38,860                         $55,990

Budgetary Financing Sources:
       Appropriations received                                                        167,400                         (17,130)
       Appropriations transferred-in/out (+/-)                                              0                                0
       Other adjustments (rescissions, etc) (+/-)                                           0                                0
       Appropriations used                                                          (176,217)                                0
       Nonexchange revenue                                                                  0                                0
       Donations and forfeitures of cash and cash equivalents                               0                                0
       Transfers-in/out without reimbursement (+/-)                                         0                                0
       Other budgetary financing sources (+/-)                                              0                                0

Other Financing Sources:
       Donations and forfeitures of property                                                  0                               0
       Transfers-in/out without reimbursement (+/-)                                           0                               0
       Imputed financing from costs absorbed by others                                        0                               0
       Other (+/-) total Financing Sources                                                    0                               0

Total Financing Sources                                                               ($8,817)                       ($17,130)
Net Cost of Operations (+/-)
Ending Balances                                                                       $30,043
                                                                                             0
                                                                                                                      $38,860
                                                                                                                             0
                                                                                                                                    02
                                                                                                                                   fy

                                                                                                                                    239
   See Note 1 and Note 20.
                                                                The accompanying notes are an integral part of these statements.
                                                                          Combined Statement of Budgetary Resources
                                                                                             Department of Defense • Department of the Army
                                                                                             For the years ended September 30, 2002 and 2001 ($ in thousands)


                                                                                             Budgetary Resources:                                                   FY 2002       FY 2001

                                                                                                  A.    Budget Authority:
                                                                                                        Appropriations received                                   $167,400       $11,952
                                                                                                        Borrowing authority                                              0             0
                                                                                                        Contract authority                                          66,607       809,853
                                                                                                        Net transfers (+/-)                                              0             0
                                                                                                        Other                                                            0             0
                                                                                                  B.    Unobligated balance:
                                                                                                        Beginning of period                                      1,505,447     1,352,632
                                                                                                        Net transfers, actual (+/-)                                      0         6,100
                                                                                                        Anticipated Transfers Balances                                   0             0
                                                                                                  C.    Spending authority from offsetting collections:
                                                                                                        Earned                                                            0            0
                                                                                                             Collected                                           6,145,494     5,920,104
                                                                                                             Receivable from Federal sources                       (55,125)     (88,265)
                                                                                                        Change in unfilled customer orders                                0            0
                                                                                                             Advance received                                      128,906        24,505
   The accompanying notes are an integral part of these statements.




                                                                                                             Without advance from Federal sources                   177,233    (721,912)
                                                                                                        Anticipated for the rest of year, without advances                0            0
                                                                                                        Transfers from trust funds                                        0            0
                                                                                                        Subtotal                                                $6,396,508    $5,134,432
                                                                                                  D.    Recoveries of prior year obligations                       403,899       196,090
                                                                                                  E.    Temporarily not available pursuant to Public Law                  0            0
                                                                                                  F     Permanently not available                                         0            0
                                                                                                  G     Total Budgetary Resources                               $8,539,861    $7,511,059

                                                                                             Status of Budgetary Resources:
                                                                                                  H.    Obligations incurred:
                                                                                                        Direct                                                    $171,652     $(717,549)
                                                                                                        Reimbursable                                             6,659,961     6,723,163
                                                                                                        Subtotal                                                $6,831,613    $6,005,614
                                                                                                  I.    Unobligated balance:
                                                                                                        Apportioned                                              1,708,248    1,505,447
                                                                                                        Exempt from apportionment                                        0              0
                                                                                                        Other available                                                  0            (2)
                                                                                                  J.    Unobligated Balances Not Available                               0              0
                                                                                                  K.    Total, Status of Budgetary Resources                    $8,539,861    $7,511,059
FY02 United States Army Annual Financial Statement




                                                                                             Relationship of Obligations to Outlays:
                                                                      Working Capital Fund




                                                                                                  L. Obligated Balance, Net - beginning of period               $1,129,489     $821,673
                                                                                                  M. Obligated Balance transferred, net (+/-)                            0            0
                                                                                                  N. Obligated Balance, Net - end of period:
                                                                                                     Accounts receivable                                          (280,204)     (335,328)
                                                                                                     Unfilled customer order from Federal sources               (2,300,462)   (2,123,227)
                                                                                                     Undelivered orders                                           2,770,002    2,995,646
                                                                                                     Accounts payable                                               729,331       592,401
                                                                                                  O. Outlays:                                                             -
                                                                                                     Disbursements                                                6,516,428     6,311,883
                                                                                                     Collections                                                (6,274,399)   (5,944,608)
                                                                                                     Subtotal                                                     $242,029       $367,275
                                                                                                  P. Less: Offsetting receipts                                            0             0
                    240
                                                                                                  Q. Net Outlays                                                  $242,029       $367,275

                                                                                                  See Note 1 and Note 21.
                                                                                     Combined Statement of Financing
                                                                                       Department of Defense • Department of the Army
                                                                     For the years ended September 30, 2002 and 2001 ($ in thousands)


Resources Used to Finance Activities:                                             2002 Combined                        2001 Combined


Budgetary Resources Obligated
    1.    Obligations incurred                                                      $6,831,613                           $6,005,613
    2.    Less: Spending authority from offsetting collections and
          recoveries (-)                                                            (6,800,407)                          (5,330,521)
    3.    Obligations net of offsetting collections and recoveries                      $31,206                            $675,092
    4.    Less: Offsetting receipts (-)                                                       0                                    0
    5.    Net obligations                                                               $31,206                            $675,092

Other Resources
    6.    Donations and forfeitures of property                                              0                                    0
    7.    Transfers in/out without reimbursement (+/-)                                       0                                    0
    8.    Imputed financing from costs absorbed by others                              109,884                              105,030
    9.    Other (+/-)                                                                        0                                    0
    10.   Net other resources used to finance activities                              $109,844                             $105,030

11. Total resources used to finance activities                                        $141,090                             $780,122

Resources Used to Finance Items not Part of the Net
Cost of Operations
    12. Change in budgetary resources obligated for goods,
        services and benefits ordered but not yet provided
        Undelivered Orders (-)                                                          259,206                             365,539
        Unfilled Customer Orders                                                        306,139                            (697,406)
    13. Resources that fund expenses recognized in prior periods                         (4,133)                             (4,377)
    14. Budgetary offsetting collections and receipts that do not
        affect net cost of operations                                                         0                                    0
    15. Resources that finance the acquisition of assets                              (338,258)                          (2,660,662)
    16. Other resources or adjustments to net obligated
        resources that do not affect net cost of operations
        Less: Trust or Special Fund Receipts Related to
             Exchange in the Entity's Budget (-)                                                0                                   0
        Other (+/-)                                                                             0                            (71,152)

17. Total resources used to finance items not part of
    the net cost of operations                                                          222,954                          (3,068,058)

18. Total resources used to finance the net cost of
    operations                                                                        $364,044                          $(2,287,936)




    See Note 1 and Note 22.

                                                                                                                                           02
                                                                                                                                          fy

                                                                                                                                           241

                                                                       The accompanying notes are an integral part of these statements.
                                                                          Combined Statement of Financing
                                                                                             Department of Defense • Department of the Army
                                                                                             For the years ended September 30, 2002 and 2001 ($ in thousands)


                                                                                             Components of the Net Cost of Operations that will not             2002 Combined   2001 Combined

                                                                                             Require or Generate Resources in the Current Period:

                                                                                             Components Requiring or Generating Resources in
                                                                                             Future Periods:
                                                                                                  19. Increase in annual leave liability                              $2,211              $0
                                                                                                  20. Increase in environmental and disposal liability                     0               0
                                                                                                  21. Upward/Downward reestimates of credit subsidy expense
                                                                                                      (+/-)                                                                0               0
                                                                                                  22. Increase in exchange revenue receivable from the
                                                                                                      public (-)                                                           0               0
                                                                                                  23. Other (+/-)                                                      1,128          16,675
                                                                                                  24. Total components of Net Cost of Operations that will
                                                                                                      require or generate resources in future periods                 $3,339         $16,675

                                                                                             Components not Requiring or Generating Resources:
   The accompanying notes are an integral part of these statements.




                                                                                                  25.   Depreciation and amortization                               105,065          85,460
                                                                                                  26.   Revaluation of assets or liabilities (+/-)                  107,703       1,588,075
                                                                                                  27.   Other (+/-)                                                   7,951         484,690
                                                                                                  28.   Total components of Net Cost of Operations that            $220,719      $2,158,225
                                                                                                        will not require or generate resources

                                                                                             29. Total components of net cost of operations
                                                                                                 that will not require or generate resources in
                                                                                                 the current period                                                $224,058       $2,174,900

                                                                                             30. Net Cost of Operations                                            $588,102       ($113,036)
FY02 United States Army Annual Financial Statement
                                                                      Working Capital Fund




                    242
Notes to the Principal Financial Statements
Note 1.         Significant Accounting Policies
A. Basis of Presentation
   These financial statements have been prepared to report the financial position and results of operations of the
   AWCF, as required by the "Chief Financial Officers Act of 1990," expanded by the "Government
   Management Reform Act of 1994," and other appropriate legislation. The financial statements have been
   prepared from the books and records of the AWCF in accordance with the "DoD Financial Management
   Regulation," OMB Bulletin No. 01-09, "Form and Content of Agency Financial Statements," and to the
   extent possible Federal GAAP. The accompanying financial statements account for all resources for which
   the AWCF is responsible except that information relative to classified assets, programs, and operations has
   been excluded from the statement or otherwise aggregated and reported in such a manner that it is no longer
   classified. The AWCF's financial statements are in addition to the financial reports also prepared by the DoD
   pursuant to OMB directives that are used to monitor and control the AWCF' use of budgetary resources.

   The AWCF is unable to implement fully all elements of Federal GAAP and OMB Bulletin No. 01-09 due to
   limitations of its financial and nonfinancial management processes and systems. The AWCF derives its
   reported values and information for major assets and liability categories largely from nonfinancial feeder
   systems, such as inventory systems and logistic systems. These were designed to support reporting
   requirements focusing on maintaining accountability over assets and reporting the status of federal
   appropriations rather than preparing financial statements according to Federal GAAP. As a result, the AWCF
   currently cannot implement every aspect of Federal GAAP and OMB Bulletin No. 01-09. The AWCF
   continues to implement process and system improvements addressing the limitations of its financial and
   nonfinancial feeder systems. The AWCF provides a more detailed explanation of these financial statement
   elements in the applicable footnote.

B. Mission of the Army Working Capital Fund (AWCF)
   Four separate activity groups make-up the AWCF: Supply Management, Depot Maintenance, Ordnance, and
   Information Services. These separate activities ensure delivery, as needed, of critical items such as fuel,
   repair parts, consumable supplies, depot maintenance services and information services to the Department's
   war fighters in the most efficient and cost-effective means available.

C. Appropriations and Funds
   The Working Capital Fund (WCF) primarily operates through the use of revolving funds, however, they may
   be supplemented by appropriated funding. They receive their initial working capital through an
   appropriation or a transfer of resources from existing appropriations or funds and use those capital resources
   to finance the initial cost of products and services. The AWCF generates financial resources by accepting
   customer's orders, which replenish the initial working capital and permit continuing operations. The Army
   Working Capital Fund operates with financial principles that provide improved cost visibility and
   accountability to enhance business management and improve the decision making process. The activities
   provide goods and services on a reimbursable basis. Receipts derived from operations generally are available
   in their entirety for use without further congressional action.
                                                                                                                      02
                                                                                                                     fy

                                                                                                                          243
                                                                            D. Basis of Accounting
                                                                               The AWCF generally records transactions on an accrual accounting basis as required by Federal GAAP. For
                                                                               FY 2002, the AWCF's financial management systems are unable to meet all of the requirements for full
                                                                               accrual accounting. Many of the AWCF's financial and nonfinancial feeder systems and processes were
                                                                               designed and implemented prior to the issuance of Federal GAAP for federal agencies and, therefore, were
                                                                               not designed to collect and record financial information on the full accrual accounting basis as required by
                                                                               Federal GAAP.

                                                                               The AWCF has undertaken efforts to determine the actions required to bring all of its financial and
                                                                               nonfinancial feeder systems and processes into compliance with all elements of Federal GAAP. One such
                                                                               action is the current revision of its accounting systems to record transactions based on the United States
                                                                               Government Standard General Ledger (USSGL). Until such time as all of the processes are updated to
                                                                               collect and report financial information as required by Federal GAAP, some of the AWCF's financial data
                                                                               will be based on budgetary transactions (obligations, disbursements, collections), and nonfinancial feeder
                                                                               systems. For example, most information presented on the Statement of Net Cost is based on accrued costs,
                                                                               however, some of the information is based on obligations and disbursements.

                                                                               In addition, the AWCF is in the process of reviewing available data and attempting to develop a cost
                                                                               reporting methodology that balances the need for cost information required by the Statement of Federal
                                                                               Financial Accounting Standard (SFFAS) No. 4, "Managerial Cost Accounting Concepts and Standards for the
                                                                               Federal Government," with the need to keep the financial statements from being overly voluminous.

                                                                            E. Revenues and other Financing Sources
                                                                               Depot Maintenance and Ordnance Working Capital Funds (WCF) recognize revenue according to the
                                                                               percentage of completion method. Supply Management WCF activities recognize revenue from the sale of
                                                                               inventory items and Information Services recognizes revenue at the time the expense is incurred.

                                                                               Other financing sources reported by the Department do not include non-monetary support provided by U.S.
                                                                               Allies for common defense and mutual security. The U.S. has agreements with foreign countries that include
                                                                               both direct and indirect sharing of costs that each country incurs in support of the same general purpose.
                                                                               Examples include countries where there is a mutual or reciprocal defense agreement, where U.S. troops are
FY02 Consolidated Army Annual Financial Statements




                                                                               stationed, or where the U.S. fleet is serviced in a port. The DoD is reviewing these types of financing and
                                                                               cost reductions in order to establish accounting policies and procedures to identify what, if any, of these costs
                                                     Working Capital Fund




                                                                               are appropriate for disclosure in the Department's financial statements in accordance with generally accepted
                                                                               accounting principles. Recognition of support provided by host nations would affect both financing sources
                                                                               and recognition of expenses

                                                                            F. Recognition of Expenses
                                                                               For financial reporting purposes, the AWCF policy requires the recognition of operating expenses in the
                                                                               period incurred. The AWCF's expenditures for capital and other long-term assets are not recognized as
                                                                               operating expenses until depreciated in the case of Property, Plant and Equipment (PP&E) or consumed in
                                                                               the case of Operating Materials and Supplies (OM&S). Net increases or decreases in unexpended
                                                                               appropriations are recognized as a change in the net position. Certain expenses, such as annual and military
                 244                                                           leave earned but not taken, are financed in the period in which payment is made.
                                                                              Notes to Principal Statements



   The AWCF adjusts operating expenses as a result of the elimination of balances between DoD Components.
   See Note 19.I, Intragovernmental Expenses and Revenue for disclosure of adjustment amounts.

G. Accounting for Intragovernmental Activities
   The AWCF, as an agency of the federal government, interacts with and is dependent upon the financial
   activities of the federal government as a whole. Therefore, these financial statements do not reflect the
   results of all financial decisions applicable to the AWCF as though the agency was a stand-alone entity.

   Public Debt
   The AWCF's proportionate share of public debt and related expenses of the federal government are not
   included. The federal government does not apportion debts and its related costs to federal agencies. The
   AWCF's financial statements, therefore, do not report any portion of the public debt or interest thereon, nor
   do the statements report the source of public financing whether from issuance of debt or tax revenues.

   Civilian Retirement Systems
   The AWCF's civilian employees participate in the Civil Service Retirement System (CSRS) and the Federal
   Employees Retirement Systems (FERS). Additionally, employees and personnel covered by FERS also have
   varying coverage under Social Security. The AWCF funds a portion of the civilian and military pensions.
   Reporting civilian pensions under the CSRS and FERS retirement systems is the responsibility of the Office
   of Personnel Management (OPM). The AWCF recognizes an imputed expense for the portion of civilian
   employee pensions and other retirement benefits funded by the OPM in the Statement of Net Cost; and
   recognizes corresponding imputed revenue from the civilian employee pensions and other retirement benefits
   in the Statement of Changes in Net Position.

   Inter/Intragovernmental Elimination
   Preparation of reliable financial statements requires transactions occurring between components or activities
   of the AWCF be eliminated. The Defense Finance and Accounting Service (DFAS) is responsible for
   eliminating transactions between components or activities of the AWCF. However, the AWCF, as well as the
   rest of the federal government, cannot accurately identify all intragovernmental transactions by customer.
   For FY 1999 and beyond seller entities within the Department provided summary seller-side balances for
   revenue, accounts receivable, and unearned revenue to the buyer-side internal AWCF accounting offices. In
   most cases, the buyer-side records have been adjusted to recognize unrecorded costs and accounts payable.
   Intra-AWCF intragovernmental balances then are eliminated.

   The Department of the Treasury, Financial Management Service (FMS) is responsible for eliminating
   transactions between the Department and other federal agencies. In September 2000, the FMS issued the
   "Federal Intragovernmental Transactions Accounting Policies and Procedures Guide." The Department was
   not able to implement fully the policies and procedures in this guide related to reconciling intragovernmental
   assets, liabilities, revenues, and expenses for non-fiduciary transactions. The AWCF, however, was able to
   implement the policies and procedures contained in the "Intragovernmental Fiduciary Transactions
   Accounting Guide," as updated by the "Federal Intragovernmental Transactions Accounting Policies and
   Procedures Guide," for reconciling intragovernmental transactions pertaining to investments in federal
                                                                                                                     02
                                                                                                                    fy

                                                                                                                         245
   securities, borrowings from the United States (U.S.) Treasury and the Federal Financing Bank, Federal
                                                                               Employees' Compensation Act transactions with the Department of Labor (DoL), and benefit program
                                                                               transactions with the OPM.

                                                                            H. Transactions with Foreign Governments and International Organizations
                                                                               Each year, the AWCF Components sell defense articles and services to foreign governments and international
                                                                               organizations, primarily under the provisions of the "Arms Export Control Act of 1976." Under the
                                                                               provisions of the Act, the Department has authority to sell defense articles and services to foreign countries
                                                                               and international organizations, generally at no profit or loss to the U.S. Government. Customers may be
                                                                               required to make payments in advance.

                                                                            I. Funds with the U.S. Treasury
                                                                               The AWCF's financial resources are maintained in U.S. Treasury accounts. DFAS, Military Services, U.S.
                                                                               Army Corp of Engineers disbursing stations, and the Department of State financial service centers process
                                                                               the majority of cash collections, disbursements, and adjustments worldwide. Each disbursing station
                                                                               prepares monthly reports, which provide information to the U.S. Treasury on check issues, electronic fund
                                                                               transfers, interagency transfers and deposits.

                                                                               In addition, the DFAS sites and the USACE Finance Center submit reports to the Department of the
                                                                               Treasury, by appropriation, on interagency transfers, collections received, and disbursements issued. The
                                                                               Department of the Treasury then records this information to the applicable Fund Balance with Treasury
                                                                               (FBWT) account maintained in the Treasury's system. Differences between the AWCF's recorded balance in
                                                                               the FBWT accounts and Treasury's FBWT accounts sometimes result and are reconciled subsequently. See
                                                                               Note 3, Fund Balance with Treasury for material disclosure. Differences between accounting offices' detail-
                                                                               level records and Treasury's FBWT accounts are disclosed in Note 21.B, specifically, differences caused by
                                                                               in-transit disbursements and unmatched disbursements (which are not recorded in the accounting offices'
                                                                               detail-level records).

                                                                            J. Foreign Currency
                                                                               Not Applicable
FY02 Consolidated Army Annual Financial Statements




                                                                            K. Accounts Receivable
                                                                               As presented in the Balance Sheet statement, accounts receivable includes accounts, claims, and refunds
                                                     Working Capital Fund




                                                                               receivable from other federal entities or from the public. The AWCF bases the allowances for uncollectible
                                                                               accounts that are due from the public upon analysis of collection experience. The AWCF does not recognize
                                                                               an allowance for estimated uncollectible amounts from other federal agencies. Claims against other federal
                                                                               agencies are resolved between the agencies. See Note 5, Accounts Receivable for material disclosure.

                                                                            L. Loans Receivable
                                                                               Not Applicable

                                                                            M. Inventories and Related Property
                 246                                                           Inventories are reported at approximate historical cost using Latest Acquisition Cost (LAC) adjusted for
                                                                               holding gains and losses.
                                                                              Notes to Principal Statements



   The AWCF uses the LAC method because its inventory systems were designed for material management
   rather than accounting. The systems provide accountability and visibility over inventory items. They do not
   maintain the historical cost data necessary to comply with the SFFAS No. 3, "Accounting for Inventory and
   Related Property." Further, they cannot produce directly financial transactions using the United States
   Government Standard General Ledger (USSGL), as required by the Federal Financial Management
   Improvement Act of 1996 (P.L. 104-208).

   The law distinguishes between "Inventory Held for Sale" and "Inventory Held in Reserve for Future Sale."
   There is no management or valuation difference between the two USSGL accounts. Further, the DoD
   manages only military or government-specific material under normal conditions. Items commonly used in
   and available from the commercial sector are not managed in the DoD material management activities.
   Operational cycles are irregular, and the military risks associated with stock-out positions have no
   commercial parallel. The AWCF holds material based on military need and support for contingencies.
   Therefore, the AWCF does not attempt to account separately for items held for "current" or "future" sale.

   Related property includes Operating Materials and Supplies (OM&S) and stockpile materials. Prior to FY
   2002, the AWCF reported stocks on hand held for repair or consumed in production as OM&S. Beginning in
   FY 2002, all stock on hand not expensed is reported as inventory. Where current systems cannot support
   fully the consumption method, the AWCF uses the purchase method - that is, expensed when purchased.

   The AWCF implemented new policy in FY 2002 to account for condemned material (only) as "Excess,
   Obsolete, and Unserviceable." The net value of condemned material is zero because the costs of disposal are
   greater than the potential scrap value. Potentially redistributable material, presented in previous years as
   "Excess, Obsolete, and Unserviceable," is included in "Held for Use" or "Held for Repair" categories
   according to its condition.

   In addition, past audit results identified uncertainties about the completeness and existence of quantities used
   to produce the reported values. Material disclosures related to inventory and related property are provided in
   Note 9.

N. Investments in U.S. Treasury Securities
   Not Applicable

O. General Property, Plant and Equipment
   General property, plant, and equipment (PP&E) assets are capitalized at historical acquisition cost plus
   capitalized improvements when an asset has a useful life of 2 or more years, and when the acquisition cost
   equals or exceeds the DoD capitalization threshold of $100,000. Also, the AWCF requires capitalization of
   improvement costs over the DoD capitalization threshold of $100,000 for General PP&E. The AWCF
   depreciates all General PP&E, other than land, on a straight-line basis.

   Prior to FY 1996, General PP&E with an acquisition cost of $15,000, $25,000, and $50,000 for FYs 1993,
   1994, and 1995 respectively, and an estimated useful life of two or more years was capitalized. These assets
                                                                                                                       02
                                                                                                                      fy

                                                                                                                           247
   remain capitalized and reported on WCF financial statements.
                                                                               Government Equipment in the Hands of Contractors
                                                                               When it is in the best interest of the government, the AWCF provides to contractors government property
                                                                               necessary to complete contract work. The AWCF either owns or leases such property, or it is purchased
                                                                               directly by the contractor for the government based on contract terms. When the value of contractor
                                                                               procured General PP&E exceeds the DoD capitalization threshold, such PP&E is required to be included in
                                                                               the value of General PP&E reported on the AWCF's Balance Sheet. The AWCF completed a study that
                                                                               indicates that the value of General PP&E above the DoD capitalization threshold, not older than the DoD
                                                                               Standard Recovery Periods for depreciation and that are presently in the possession of contractors, is
                                                                               immaterial to the AWCF's financial statements. Regardless, the AWCF is developing new policies and a
                                                                               contractor reporting process that will provide appropriate General PP&E information for future financial
                                                                               statement reporting purposes. Accordingly, the AWCF currently reports only government property,
                                                                               maintained in the AWCF's property systems, in the possession of contractors.

                                                                               To bring the AWCF into fuller compliance with federal accounting standards, the DoD has issued new
                                                                               property accountability and reporting regulations that require the AWCF to maintain, in DoD property
                                                                               systems, information on all property furnished to contractors. This action and other DoD proposed actions
                                                                               are structured to capture and report the information necessary for compliance with federal accounting
                                                                               standards.

                                                                               AWCF activities categorize all PP&E used in the performance of their mission as General PP&E, whether or
                                                                               not it meets the definition of any other PP&E categories. The AWCF is currently reporting no Heritage
                                                                               Assets or Stewardship Land. See Note 10, General PP&E, Net for material disclosures.

                                                                            P. Advances and Prepayments
                                                                               The AWCF records payments in advance of the receipt of goods and services as advances or prepayments
                                                                               and reports them as assets on the Balance Sheet. In addition, when the AWCF receives the related goods and
                                                                               services it recognizes advances and prepayments as expenditures and expenses.

                                                                            Q. Leases
                                                                               Not Applicable
FY02 Consolidated Army Annual Financial Statements




                                                                            R. Other Assets
                                                                               The AWCF conducts business with commercial contractors under two primary types of contracts--fixed price
                                                     Working Capital Fund




                                                                               and cost reimbursable. To alleviate the potential financial burden on the contractor that long-term contracts
                                                                               can cause, the AWCF provides financing payments. In addition, provisions of the Federal Acquisition
                                                                               Regulations allow the AWCF to make financing payments under fixed price contracts that are not based on a
                                                                               percentage of completion. The AWCF reports these financing payments as advances or prepayments in the
                                                                               "Other Assets" line item. The AWCF treats these payments as advances or prepayments because the AWCF
                                                                               becomes liable only after the contractor delivers the goods in conformance with the contract terms. If the
                                                                               contractor does not deliver a satisfactory product, the AWCF is not obligated to reimburse the contractor for
                                                                               its costs and the contractor is liable to repay the AWCF for the full amount of the advance.


                 248                                                           The AWCF has completed a review of all applicable federal accounting standards; applicable public laws on
                                                                               contract financing; Federal Acquisition Regulation Parts 32, 49, and 52; and the OMB guidance in 5 Code of
                                                                                Notes to Principal Statements



   Federal Regulations Part 1315, "Prompt Payment." The AWCF has concluded that SFFAS No. 1 does not
   address fully or adequately the subject of progress payment accounting and is considering appropriate action.

S. Contingencies and Other Liabilities
   The SFFAS No. 5, "Accounting for Liabilities of the Federal Government," defines a contingency as an
   existing condition, situation, or set of circumstances that involves an uncertainty as to possible gain or loss to
   the AWCF. The uncertainty will be resolved when one or more future events occur or fail to occur. A
   contingency is recognized as a liability when a past event or exchange transaction has occurred, a future loss
   is probable and the amount of loss can be estimated reasonably. Financial statement reporting is limited to
   disclosure when conditions for liability recognition do not exist but there is at least a reasonable possibility
   that a loss or additional loss will be incurred. Examples of loss contingencies include the collectibility of
   receivables, pending or threatened litigation, possible claims and assessments.

T. Accrued Leave
   The AWCF reports civilian annual leave that has been accrued and not used as of the balance sheet date as
   liabilities. The liability reported at the end of the fiscal year reflects the current pay rates.

U. Net Position
   Net Position consists of unexpended appropriations and cumulative results of operations.

   Unexpended appropriations represent amounts of authority, which are unobligated and have not been
   rescinded or withdrawn, and amounts obligated but for which legal liabilities for payments have not been
   incurred.

   Cumulative results of operations for the AWCF represent the excess of revenues over expenses less refunds
   to customers and returns to the U.S. Treasury since fund inception.

V. Treaties for Use of Foreign Bases
   Not Applicable

W. Comparative Data
   Beginning in FY 2001, the AWCF presents for comparative purposes the current and previous year's financial
   data in the financial statements, as well as in the notes to the principal statements.

   In FY 2002, the Department modified the financial statement presentation for the Statements of Net Cost,
   Changes in Net Position, and Financing. As a result, the Department's statements during this reporting period
   may not lend themselves to comparative analysis. In some instances, amounts on the statements were
   reported on one financial line in FY 2001 and split into multiple financial lines for FY 2002, in accordance
   with OMB's guidance.

X. Unexpended Obligations                                                                                                02
                                                                                                                        fy

   The AWCF obligates funds to provide goods and services for outstanding orders not yet delivered. The                      249
   financial statements do not reflect this liability for payment for goods/services not yet delivered.
                                                                            Note 2.                  Nonentity and Entity Assets
                                                                            As of September 30,
                                                                            (Amounts in thousands)                                                    2002                                  2001

                                                                            1. Intragovernmental Assets:                        Nonentity               Entity             Total
                                                                                 A.    Fund Balance with Treasury                     $0           $251,030           $251,030           $325,682
                                                                                 B.    Investments                                     0                  0                  0                  0
                                                                                 C.    Accounts Receivable                             0            221,978            221,978            276,355
                                                                                 D.    Other Assets                                    0                 48                 48             27,007
                                                                                 E.    Total Intragovernmental Assets                 $0           $473,056           $473,056           $629,044

                                                                            2. Non-Federal Assets:
                                                                                 A.    Cash and Other Monetary Assets                 $0                  $0                 $0                $0
                                                                                 B.    Accounts Receivable                             0              16,419             16,419            22,622
                                                                                 C.    Loans Receivable                                0                   0                  0                 0
                                                                                 D.    Inventory & Related Property                    0          11,319,284         11,319,284        10,791,279
                                                                                 E.    General Property, Plant and Equipment           0           1,250,240          1,250,240         1,149,629
                                                                                 F     Other Assets                                    0             251,298            251,298           274,330
                                                                                 G.    Total Non-Federal Assets                        0         $12,837,241        $12,837,241       $12,237,860

                                                                            3. Total Assets:                                         $0        $13,310,297        $13,310,297       $12,866,904

                                                                            4. Other Information:


                                                                                 Relevant Information for Comprehension
                                                                                 Assets are categorized as:

                                                                                 z Entity assets consist of resources that the AWCF has the authority to use, or where management is legally
                                                                                   obligated to use funds to meet entity obligations.

                                                                                 z Nonentity asset are assets held by an entity, but are not available for use in the operations of the entity.

                                                                                 Note Reference
FY02 Consolidated Army Annual Financial Statements




                                                                                 For Additional Line Item discussion, see:
                                                                                 Note 3, Fund Balance with Treasury
                                                                                 Note 4, Investments
                                                     Working Capital Fund




                                                                                 Note 5, Accounts Receivable
                                                                                 Note 6, Other Assets




                 250
                                                                               Notes to Principal Statements



Note 3.                  Fund Balance with Treasury
As of September 30,
(Amounts in thousands)                                                              2002                    2001

1. Fund Balances:
     A.    Appropriated Funds                                                         $0                       $0
     B.    Revolving Funds                                                       251,030                  325,682
     C.    Trust Funds                                                                 0                        0
     D.    Other Fund Types                                                            0                        0
     E.    Total Fund Balances                                                  $251,030                 $325,682

2. Fund Balances Per Treasury Versus Agency:
     A.    Fund Balance per Treasury                                            $251,030                 $325,682
     B.    Fund Balance per DoD                                                  251,030                  325,682
     C.    Reconciling Amount                                                         $0                       $0

3. Explanation of Reconciliation Amount:

4. Other Information:


     Fluctuations and/or Abnormalities
     Compared to the FY 2001 balance, the fund balance available for the AWCF decreased by $74,652 thousand
     (22.9%) as of September 30, 2002. By June of 2002 fund balance available for the operations of the AWCF
     fell to a level that posed the possibility of an anti-deficiency act violation. To alleviate this problem, the
     Under Secretary of Defense authorized the AWCF to advance bill unfilled project orders. Included in the
     fund balance is $200,000 thousand in advance billings against unfilled project orders in the Depot
     Maintenance and Ordnance activity groups. Also during FY 2002 the AWCF received cash infusions of
     $170,000 thousand. The cash infusion represents funds provided by the appropriated funds for under
     assessment of surcharges by the AWCF for services/goods provided in prior fiscal years.

     Other Information Related to Fund Balance with Treasury

     Relevant Information for Comprehension

     Fund Balance Transfer
     During the course of the fiscal year the AWCF maintains the net of reimbursements and disbursements of
     funds at the business area level. On September 30, 2002, the net of these figures is transferred to the
     component level that maintains the fund balance for the entire AWCF.

     Intragovernmental Paying and Collecting (IPAC).
     The Intragovernmental Payment and Collection (IPAC) differences are reconcilable differences that represent
     amounts recorded by Treasury but not reported by the organization. IPAC difference figures reported for the
     Army include both Army General Fund Balance and AWCF balances. Efforts to separate the balances for the
     individual components have not been successful. Therefore, the Army General Fund statements include the
     amount applicable to the AWCF. A majority of the differences represent internal DoD transactions and,
                                                                                                                       02
                                                                                                                      fy

                                                                                                                           251
     therefore, do not affect the FBWT at the DoD consolidated level. For individual entity level statements,
                                                                                 however, these differences would affect the amount reported for the FBWT. The Department is working with
                                                                                 the DFAS sites, the Department of the Treasury, and a Treasury Department contractor to develop an
                                                                                 automated tool to aid in reconciling the Treasury's Statement of Differences. The accounting and paying
                                                                                 centers established metrics and implemented monthly reporting requirements for FY 2001. These actions
                                                                                 will aid the AWCF in clearing many of the old balances and establishing better internal controls over the
                                                                                 IPAC process. The Army reported IPAC difference greater than 180 days old as of September 30, 2002 was
                                                                                 $6 thousand.

                                                                                 Check Issue Discrepancy.
                                                                                 The Army is in the process of collecting information for all check issue discrepancy data that are
                                                                                 unsupportable because: (1) records have been lost during deactivation of disbursing offices, (2) the
                                                                                 Department of the Treasury may not assist in research efforts for transactions over 1-year old, or (3)
                                                                                 corrections were processed for transactions that the Department of the Treasury had removed from the check
                                                                                 comparison report. Transactions that have no supporting documentation due to one of the preceding
                                                                                 situations shall be provided to the Department of the Treasury with a request to remove them from the
                                                                                 Treasury Check Comparison Report. The vast majority of the remaining check issue discrepancies are a
                                                                                 result of timing differences between the AWCF and the Department of the Treasury for processing checks.
                                                                                 The amount applicable to the AWCF cannot be identified separately. The Army currently is not requesting
                                                                                 the Department of Treasury to remove any dollars from the check issue comparison report.

                                                                                 Deposit Differences.
                                                                                 The Deposit differences are reconcilable differences that represent deposit amounts reported by the
                                                                                 Department of the Treasury or the organization. The amount applicable to the AWCF cannot be identified
                                                                                 separately.

                                                                                 Note Reference
                                                                                 See Note Disclosure 1. I. - Significant Accounting Policies for additional discussion on financial reporting
                                                                                 requirements and DoD policies governing Funds with the U.S. Treasury.



                                                                            Note 4.                  Investments
FY02 Consolidated Army Annual Financial Statements




                                                                                 Not Applicable
                                                     Working Capital Fund




                                                                            Note 5.                  Accounts Receivable
                                                                            As of September 30,
                                                                            (Amounts in thousands)                                               2002                                        2001

                                                                                                                                Gross            Allowance For         Accounts          Accounts
                                                                                                                            Amount Due   Estimated Collectibles   Receivable, Net   Receivable, Net

                                                                            1. Intragovernmental Receivables:                $221,978                     N/A         $221,978          $276,355

                                                                            2. Non-Federal Receivables
                                                                               the Public):                                    $16,419                      $0         $16,419           $22,622

                                                                            3. Total Accounts Receivable:                    $238,397                       $0       $238,397           $298,977
                 252
                                                                            4. Allowance method:
                                                                                 Notes to Principal Statements



5. Other information:


   Fluctuations and/or Abnormalities
   More emphasis on liquidating accounts receivable and more timely billings has resulted in a decrease of
   $54,375 thousand (20%) in federal accounts receivable and $6,203 thousand (27%) in non-federal accounts
   receivable. A change in revenue recognition by the depots and arsenals also contributed to this decrease.
   Prior to FY 2002 the AWCF set their billings equal to budgeted costs. During FY 2002 procedures were
   changed to bill for costs incurred. This resulted in a decrease in both accounts receivable and revenue.

   Other Information Related to Accounts Receivables

   Relevant Information for Comprehension
   Allowance Method - The AWCF used the actual uncollectible written off over the last five years to establish
   an estimated allowance for uncollectibles. A review of accounting data accumulated over this period of time
   found that in FY 1999 $14.6 thousand had been charged to bad debts expense for an uncollectible accounts
   receivable, but nothing had been recorded in any of the other four years. Based on this data it was
   determined that any amounts that could be considered as uncollectible would be immaterial.

   Intragovernmental Account Receivable Adjustments

   Allocation of Undistributed Collections - As of September 30, 2002 accounting data for the AWCF reflect a
   balance of $36,744 thousand in undistributed collections. Reported intragovernmental accounts receivable
   includes this balance which is transparent to the reader of the statements as the balance was eliminated using
   the reporting entity as the "buyer side" trading partner.

   Elimination Adjustments - The AWCF accounting systems do not capture trading partner data at the
   transaction level in a manner that facilitates trading partner aggregations. Therefore, the AWCF was unable
   to reconcile intragovernmental accounts receivable balances with its trading partners. The Department
   intends to develop long-term systems improvements that will include sufficient up-front edits and controls to
   eliminate the need for after-the-fact reconciliations. The volume of intragovernmental transactions is so large
   that after-the-fact reconciliation cannot be accomplished with the existing or foreseeable resources.

   Intragovernmental Receivables Over 180 Days - Intragovernmental accounts receivable include $2,239
   thousand in receivables over 180 days old.

   Nonfederal Refunds Receivable
           FY 2002 Non-Federal       FY 2002 Non-Federal
           Refunds Receivable      Accounts Receivable (Net)   % of Net Amount
                $5,325                     $16,419                  32%


   Note Reference
   See Note Disclosure 1.K. - Significant Accounting Policies for additional discussion on financial reporting        02
                                                                                                                     fy

   requirements and DoD policies governing Accounts Receivable.                                                           253
                                                                            Note 6.              Other Assets
                                                                            As of September 30,2002
                                                                            (Amounts in thousands)                                                               2002                     2001

                                                                            1. Intragovernmental Other Assets:
                                                                                 A.   Advances and Prepayments                                                    $48                  $27,007
                                                                                 B.   Other Assets                                                                  0                        0
                                                                                 C.   Total Intragovernmental Other Assets                                        $48                  $27,007

                                                                            2. Non-Federal Other Assets:
                                                                                 A.   Outstanding Contract Financing Payments                                $232,513                 $252,714
                                                                                 B.   Other Assets (With the Public)                                           18,785                   21,616
                                                                                 C.   Total Non-Federal Other Assets                                         $251,298                 $274,330

                                                                            3. Total Other Assets:                                                           $251,346                 $301,337

                                                                            4. Other Information Related to Other Assets:


                                                                                 Fluctuations and/or Abnormalities
                                                                                 Intragovernmental advances and prepayments decreased by $26,959 thousand (99.8%) from the reported
                                                                                 2001 balance. During any fiscal year the AWCF trading partners determine the balance shown in advances
                                                                                 and prepayments based on their reported unearned revenue. In FY 2001, AWCF partners reported $27,007
                                                                                 thousand in unearned revenue and in FY 2002 they only reported $48 thousand. Of the balance reported in
                                                                                 FY 2001, DLA Supply Management Material reported unearned revenue received from the AWCF of
                                                                                 $26,986 thousand and in FY 2002 they reported no unearned revenue applicable to the AWCF.

                                                                                 Other Information Related to Other Assets

                                                                                 Relevant Information for Comprehension
                                                                                 Other Assets Non-Federal
                                                                                 Type of Assets                                      Amounts
                                                                                 Advances to Others
FY02 Consolidated Army Annual Financial Statements




                                                                                     Contractor Advance            $18,372
                                                                                     Travel Advances                    17             $18,389
                                                     Working Capital Fund




                                                                                 Prepayments                                               396
                                                                                 Totals                                                $18,785


                                                                                 Outstanding Contract Financing Payments
                                                                                 The AWCF has reported outstanding financing payments for fixed price contracts as an advance and
                                                                                 prepayment because, under the terms of the fixed price contracts, the AWCF becomes liable only after the
                                                                                 contractor delivers the goods in conformance with the contract terms. If the contractor does not deliver a
                                                                                 satisfactory product, the AWCF is not obligated to reimburse the contractor for its costs and the contractor is
                                                                                 liable to repay the AWCF for the full amount of the outstanding contract financing payments. The
                                                                                 Department has completed its review of all applicable federal accounting standards; applicable public laws
                 254                                                             on contract financing; Federal Acquisition Regulation Parts 32, 48, and 52; and the OMB guidance in 5 CFR
                                                                             Notes to Principal Statements



   Part 1315, "Prompt Payment." The Department has concluded that the SFFAS No. 1, Accounting for
   Selected Assets and Liabilities does not address fully or adequately the subject of progress payment
   accounting and is considering what further action is appropriate.

   Advances and Prepayments
   In accordance with elimination guidance, the AWCF advances to others balances were adjusted to agree with
   seller-side advances from others on the books of other DoD reporting entities. Additionally, the AWCF
   buyer-side prepayment balances were adjusted to agree with deferred credits reported on the books of other
   DoD reporting entities. This resulted in an increase of reported advances and prepayments of $9,355
   thousand.

   Note Reference
   See Note Disclosure 1. R. - Significant Accounting Policies for additional discussion on financial reporting
   requirements and DoD policies governing Other Assets.



Note 7.         Cash and Other Monetary Assets
   Not Applicable



Note 8. A. Direct Loan and/or Loan Guarantee Programs

1. Direct Loan and/or Loan Guarantee Programs: The entity operates the following direct loan
   and/or Loan guarantee program(s):
   Military Housing Privatization Initiative
   Direct Loan Or Loan Guarantee Program Title

2. Other Information: None



Note 8.B.       Direct Loans Obligated After FY 1991
   Not Applicable



Note 8.C.       Total Amount of Direct Loans Disbursed
   Not Applicable



Note 8.D.       Subsidy Expense for Post-1991 Direct Loans
   Not Applicable
                                                                                                                   02
                                                                                                                  fy

                                                                                                                       255
                                                                            Note 8.E.      Subsidy Rate for Direct Loans
                                                                               Not Applicable



                                                                            Note 8.F.      Schedule for Reconciling Subsidy Cost Allowance Balances for
                                                                                           Post-1991 Direct Loans
                                                                               Not Applicable



                                                                            Note 8.G.      Defaulted Guaranteed Loans from Post-1991 Guarantees
                                                                               Not Applicable



                                                                            Note 8.H.      Guaranteed Loans Outstanding
                                                                               Not Applicable



                                                                            Note 8.I.      Liability for Post-1991 Loan Guarantees, Present Value
                                                                               Not Applicable


                                                                            Note 8.J.      Subsidy Expense for Post-1991 Loan Guarantees
                                                                               Not Applicable


                                                                            Note 8.K.      Subsidy Rate for Loan Guarantees
                                                                               Not Applicable
FY02 Consolidated Army Annual Financial Statements




                                                                            Note 8.L.      Schedule for Reconciling Loan Guarantee Liability Balances for
                                                                                           Post-1991 Loan Guarantees
                                                     Working Capital Fund




                                                                               Not Applicable



                                                                            Note 8.M. Administrative Expense
                                                                               Not Applicable




                 256
                                                                                    Notes to Principal Statements



Note 9.                  Inventory and Related Property
As of September 30,                                                                        2002                        2001
(Amounts in thousands)
1.   Inventory, Net (Note 9.A.)                                                    $11,319,284                  $10,708,913
2.   Operating Materials & Supplies, Net (Note 9.B.)                                         0                       82,366
3.   Stockpile Materials, Net (Note 9.C.)                                                    0                            0
4.   Total                                                                         $11,319,284                   10,791,279



Note 9.A.                Inventory, Net
As of September 30
(Amounts in thousands)                                                 2002                           2001
                                                      Inventory,   Revaluation     Inventory,      Inventory,       Valuation
1. Inventory Categories:                            Gross Value     Allowance            Net             Net         Method
     A.    Available and Purchased for Resale    $10,458,038    ($297,734)       10,160,304      $9,288,643            LAC
     B.    Held for Repair                          2,135,597    (981,417)        1,154,180       1,375,105            LAC
     C.    Excess, Obsolete, and Unserviceable        359,309    (359,309)                0           5,841            LAC
     D.    Raw Materials                                    0            0                0               0
     E.    Work in Process                              4,800            0            4,800          39,324              SP
     F.    Total                                  $12,957,744 ($1,638,460)       11,319,284     $10,708,913

     Legend for Valuation Methods:
     Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses
     NRV = Net Realizable Value
     O = Other
     SP = Standard Price
     AC = Actual Cost

2. Restrictions of Inventory Use, Sale, or Disposition:

3. Other Information:


     General Composition of Inventory
     Inventory includes spare and repair parts, clothing and textiles, fuels, and ammunition. Inventory is tangible
     personal property that is:

     1) Held for sale, or held for repair for eventual sale;

     2) In the process of production for sale; or

     3) To be consumed in the production of goods for sale or in the provision of services for a fee.

     "Inventory held for repair" is damaged material that requires repair to make it usable. "Excess inventory" is
     condemned material that must be retained for management purposes. "Work in process" includes munitions
     in production and depot maintenance work with its associated labor, applied overhead, and supplies used in
     the delivery of maintenance services. The USSGL does not include a separate work in process account                         02
                                                                                                                                fy

     unrelated to sales.                                                                                                             257
                                                                            Balances
                                                                            In addition to the account balances shown in Table 9.A., the Federal Accounting Standard requires disclosure
                                                                            of the amount of inventory held for "future sale." The AWCF estimates that $73,400 thousand of the
                                                                            Inventory held for sale will be sold more than 24 months after the end of FY 2002.

                                                                            Restrictions of Inventory Use, Sale or Disposition
                                                                            There are no restrictions on the use, sale, or disposition of inventory except in the following situations:

                                                                            1) Distributions without reimbursement are made when authorized by DoD directives;

                                                                            2) War Reserve Material includes fuels and subsistence items that are considered restricted; and

                                                                            3) Inventory, with the exception of safety stocks, may be sold to foreign, state and local governments, private
                                                                               parties, and contractors in accordance with current policies and guidance or at the direction of the
                                                                               President.

                                                                            Decision Criteria for Identifying the Category to Which Operating Materials and
                                                                            Supplies are Assigned
                                                                            Managers determine which items are more costly to repair than to replace. Items retained for management
                                                                            purposes are coded "condemned." The net value of these items is zero, and is shown as "Excess, Obsolete,
                                                                            and Unserviceable."

                                                                            Changes in the Criteria for Identifying the Category to Which Inventory is Assigned
                                                                            The category "Held for Sale" includes all issuable material. The category "Held for Repair" includes all
                                                                            economically reparable material. Before FY 2002, the Department showed "Potentially redistributable"
                                                                            material, regardless of condition, as "Excess, Obsolete, and Unserviceable."



                                                                            Other information Related to Inventory, Net
                                                                            Other AWCF Disclosures
                                                                            The Office of the Undersecretary of Defense Comptroller issued guidance during FY 2002 directing the
FY02 Consolidated Army Annual Financial Statements




                                                                            reported balance of material held by Depot Maintenance and Ordnance to be reported as Inventory. In
                                                                            previous years this material was reported as Operating Materials and Supplies. This change resulted in an
                                                     Working Capital Fund




                                                                            increase in inventory of $139,718 thousand. The 2001 Inventory Value shown above of $10,708,913
                                                                            thousand was not restated to include the FY 2001 Operating Material & Supplies (see footnote 9.B.). A
                                                                            direct appropriation of $163,600 thousand issued for the purpose of procuring additional inventory and a
                                                                            transfer-in of inventory from the Army General Fund of $74,349 thousand also contributed to the increase.




                 258
                                                                                                 Notes to Principal Statements



Note 9.B.                Operating Materials and Supplies, Net
(Amounts in thousands)                                                        2002                                           2001

                                                                          Revaluation                                             Valuation
1. OM&S Categories:                               OM&S Gross Value         Allowance              OM&S, Net         OM&S, Net      Method
     A.    Held for Use                                          $0                  $0                    $0        $81,982
     B.    Held for Repair                                        0                   0                     0              0
     C.    Excess, Obsolete, and Unserviceable                    0                   0                     0            384
     D.    Total                                                 $0                  $0                    $0        $82,366

     Legend for Valuation Methods:
     Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses
     NRV = Net Realizable Value
     O = Other
     SP = Standard Price
     AC = Actual Cost

2. Restrictions on OM&S:

3. Other Information:


     Fluctuations and/or Abnormalities
     Reported OM&S decreased to zero in FY 2002. See footnote 9.A. Other AWCF Disclosures for further
     discussion.



Note 9.C.                Stockpile Materials, Net
     Not Applicable



Note 10.                 General PP&E, Net
As of September 30,
(Amounts in thousands)                                                              2002                                              2001
                                  Depreciation/                                           (Accumulated
                                  Amortization                        Acquisition          Depreciation/               Net      Prior FY Net
     1. Major Asset         Classes: Method       Service Life             Value           Amortization)        Book Value       Book Value
     A. Land                               N/A           N/A           $10,254                     N/A           $10,254          $10,270
     B. Buildings, Structures and
        Facilities                         S/L   20 Or 40         1,721,880           ($1,130,232)             591,648          424,803
     C. Leasehold Improvements             S/L lease term            95,320                (67,926)             27,394           30,460
     D. Software                           S/L 2-5 Or 10            198,092               (60,725)             137,367           44,530
     E. Equipment                          S/L    5 Or 10         1,477,632            (1,031,364)             446,268          583,336
     F. Assets Under Capital Lease1        S/L lease term                 0                       0                  0                 0
     G. Construction-in-Progress           N/A        N/A            37,299                     N/A             37,299            37,188
     H. Other                                                            10                       0                 10           19,042
     I. Total General PP&E                                       $3,540,487           ($2,290,247)          $1,250,240       $1,149,629         02
                                                                                                                                               fy

                                                                                                                                                    259
     1
      Note 15.B for additional information on Capital Leases
                                                                                 Legend for Valuation Methods:
                                                                                 S/L = Straight Line         N/A = Not Applicable

                                                                            2. Other Information:


                                                                                 Other Information Related to General PP&E, Net
                                                                                 Other AWCF Disclosures
                                                                                 Leasehold Improvements - The entire amount shown on this line is for improvements being made to facilities
                                                                                 at Corpus Christi Army Depot (CCAD). CCAD uses facilities on a Navy installation as a tenant with an
                                                                                 ownership code on the real property records of Permit, Military. Improvements made on these facilities are
                                                                                 recorded as leasehold improvements.

                                                                                 Buildings, Structures and Facilities increased due to an addition of $155,000 thousand for a chemical burn
                                                                                 incinerator at Anniston Army Depot.

                                                                                 Note Reference
                                                                                 See Note Disclosure 1. N. - Significant Accounting Policies for additional discussion on financial reporting
                                                                                 requirements and DoD policies governing General Property, Plant and Equipment (PP&E).



                                                                            Note 10.A. Assets Under Capital Lease
                                                                                 Not Applicable



                                                                            Note 11.                 Liabilities Not Covered and Covered by Budgetary Resources
                                                                            As of September 30,
                                                                            (Amounts in thousands)                                                       2002                            2001
                                                                                                                                      Covered by   Not Covered By
                                                                            1. Intragovernmental Liabilities:                Budgetary Resources     by Budgetary         Total
                                                                                 A.    Accounts Payable                                $77,527               $0       $77,527         $67,186
                                                                                 B.    Debt                                                  0                0             0               0
                                                                                 C.    Environmental Liabilities                             0                0             0               0
                                                                                 D.    Other                                           211,913           50,126       262,039         118,905
FY02 Consolidated Army Annual Financial Statements




                                                                                 E.    Total Intragovernmental Liabilities            $289,440          $50,126      $339,566        $186,091
                                                                            As of September 30,
                                                                            (Amounts in thousands)                                                       2002                            2001
                                                     Working Capital Fund




                                                                                                                                      Covered by   Not Covered By
                                                                            2. Non-Federal Liabilities:                      Budgetary Resources     by Budgetary         Total
                                                                                 A.    Accounts Payable                               $511,007                $0     $511,007        $355,450
                                                                                 B.    Military Retirement Benefits and
                                                                                       Other Employment-Related
                                                                                       Actuarial Liabilities                                 0          304,524       304,524         308,657
                                                                                 C.    Environmental Liabilities                             0                0              0              0
                                                                                 D.    Loan Guarantee Liability                              0                0              0              0
                                                                                 E.    Other Liabilities                               138,693           73,362        212,055        209,928
                                                                                 F.    Total Non-Federal Liabilities                  $649,700         $377,886     $1,027,586       $874,035

                                                                            3. Total Liabilities:                                     $939,140         $428,012     $1,367,152      $1,060,126
                 260
                                                                            4. Other Information:
                                                                          Notes to Principal Statements



Liabilities Not Covered and Covered by Budgetary Resources
Liabilities Not Covered by Budgetary Resources are those liabilities which are not considered covered by
realized budgetary resources as of the balance sheet date.

Liabilities Covered by Budgetary Resources are those that are incurred by the reporting entity that are
covered by realized budget resources as of the balance sheet date. Budgetary resources encompass not only
new budget authority, but also other resources available to cover liabilities for specified purposes in a given
year. Available budgetary resources include: (1) new budget authority, (2) spending authority from offsetting
collections (credited to an appropriation or fund account), (3) recoveries of unexpired budget authority
through downward adjustments of prior year obligations, (4) unobligated balances of budgetary resources at
the beginning of the year or net transfers of prior year balances during the year, and (5) permanent indefinite
appropriations or borrowing authority, which have been enacted and signed into law as of the balance sheet
date, provided that the resources may be apportioned by the OMB without further action by the Congress or
without a contingency first having to be met.

Other Information Related to Liabilities Not Covered by Budgetary Resources

Other Liabilities consists of the following, in thousands of dollars:
Types
Intragovernmental - Other Liabilities                                         Covered              Not Covered
    Advances From Others                                                  $204,747.7                    $0.0
    FECA Reimbursement to the Dept of Labor                                      0.0                50,125.9
    Employers share of VSIP                                                     30.5                     0.0
    Employers share of CSRS/FERS, FEGLI, and FEHB                            7,134.4                     0.0
Total                                                                     $211,912.6               $50,125.9

Non-Federal -Other Liabilities                                                Covered              Not Covered
    Accrued Funded Payroll and Benefits                                    $71,913.9                     $0
    Advances From Others                                                    31,278.7                       0
    Accrued Unfunded Annual Leave                                                0.0                73,362.3
    Contract Holdbacks                                                      20,911.7                       0
    Employers Contribution to Thrift Savings Plan                            2,814.1                       0
    Taxes payable (payroll withholding)                                     11,774.1                       0
Total                                                                     $138,692.5               $73,362.3

Total Other Liabilities                                                  $350,605.2               $123,488.2


Non-Federal Liabilities - Accounts Payable: The increase in Non-Federal Payables is due to an increase of
$108,036.8 thousand in accounts payable and a decrease of $47,519.2 thousand in undistributed
disbursements in-transit and unmatched disbursements. The balances are applied to reduce Nonfederal
Payables. This decrease in Unmatched Disbursements caused a related increase in Nonfederal payables.

Intragovernmental Liabilities - Other: During FY 2002 Other Intragovernmental Liabilities increased by             02
                                                                                                                  fy

$143,134 thousand (120 percent). This resulted from advance billing authority that was granted to the depots           261
                                                                                 and arsenals to avoid an Anti-deficiency Act violation. As of the end of FY 2002, the AWCF advance billing
                                                                                 ran in the $200 million range.

                                                                                 Note Reference
                                                                                 For Additional Line Item discussion, see:
                                                                                 Note 12, Accounts Payable
                                                                                 Note 15, Other Liabilities
                                                                                 Note 17, Military Retirement Benefits and Other Employment Related Actuarial Liabilities



                                                                            Note 12.                 Accounts Payable
                                                                            As of September 30,
                                                                            (Amounts in thousands)                                                       2002                                2001
                                                                                                                                            Interest, Penalties, and
                                                                                                                         Accounts Payable      Administrative Fees          Total              Total
                                                                            1. Intragovernmental Payables:                      $77,527                        N/A      $77,527            $67,186
                                                                            2. Non-Federal Payables
                                                                               (to the Public):                                 511,007                          0      511,007           355,450
                                                                            3. Total                                           $588,534                         $0     $588,534          $422,636

                                                                            4. Other Information:
                                                                                 Intragovernmental Accounts Payable consists of amounts owed to other federal agencies for goods or
                                                                                 services ordered and received but not yet paid. Interest, penalties and administrative fees are not applicable
                                                                                 to intragovernmental payables. Non-Federal Payables (to the Public) are payables for debts owed to
                                                                                 individuals and entities outside the federal government.

                                                                                 Other Information Related to Accounts Payable

                                                                                 Relevant Information for Comprehension
                                                                                 Undistributed Disbursements
                                                                                 Undistributed disbursements are the difference between disbursements/collections recorded at the detailed
                                                                                 level to a specific obligation, payable, or receivable in the activity field records versus those reported by the
FY02 Consolidated Army Annual Financial Statements




                                                                                 U.S. Treasury via the reconciled DD 1329 and DD 1400. This should agree with the undistributed
                                                                                 disbursements reported on accounting reports (SF 133/ (M) 1002/ (M) 1307). Intransit payments are
                                                     Working Capital Fund




                                                                                 payments that have been made for other agencies or entities that have not been recorded in their accounting
                                                                                 records. These payments are applied to the entities outstanding accounts payable balance at year-end.
                                                                                 Accounts payable were adjusted downward in the amount of $124,716.4 thousand for these payments.

                                                                                 Intragovernmental Eliminations
                                                                                 For the majority of intra-agency sales the Army WCF's accounting systems do not capture trading partner
                                                                                 data at the transaction level in a manner that facilitates trading partner aggregations. Therefore, the Army
                                                                                 WCF was unable to reconcile intragovernmental accounts payable to the related intragovernmental accounts
                                                                                 receivable that generated the payable.
                 262
                                                                             Notes to Principal Statements



  The DoD summary level seller accounts receivables were compared to the Army WCF's accounts payable.
  An adjustment was posted to the Army WCF's accounts payable based on the comparison with the accounts
  receivable of the DoD Components providing goods and services to the Army WCF. Positive differences
  were treated as unrecognized accounts payable and in the case of the Army WCF, accounts payable were
  adjusted upwards in the amount of $61,717.1 thousand.

  The Department [DoD] intends to develop long-term systems improvements that will include sufficient up-
  front edits and controls to eliminate the need for after-the-fact reconciliations. The volume of
  intragovernmental transactions is so large that after-the-fact reconciliation can not be accomplished with the
  existing or foreseeable resources.

  Other Disclosures
  The increase in Non-Federal Payables of $155,557 thousand is due to an increase of $108,036.8 thousand in
  accounts payable over FY 2001. This increase in accounts payable is a result of the increased acquisitions in
  the Supply Management Activity Group to support the War on Terrorism. Also impacting the increase in
  accounts payable is a decrease in Disbursements In Transit (Unmatched Disbursements) of $47,519.2
  thousand. Unmatched Disbursements are applied to reduce Nonfederal Payables. Therefore, this decrease in
  Unmatched Disbursements caused a related increase in Nonfederal payables.



  Note Reference
  See Note Disclosure 1. G. - Significant Accounting Policies for additional discussion on financial reporting
  requirements and DoD policies governing accounting for Intragovernmental Activities.


Note 13.       Debt
  Not Applicable



Note 14.        Environmental Liabilities and Disposal Liabilities
  Not Applicable




                                                                                                                    02
                                                                                                                   fy

                                                                                                                        263
                                                                            Note 15.A. Other Liabilities
                                                                            As of September 30,
                                                                            (Amounts in thousands)                                                     2002                           2001

                                                                            1. Intragovernmental:                          Current Liability   Noncurrent Liability       Total        Total
                                                                                 A. Advances from Others                      $204,748                         $0     $204,748     $46,442
                                                                                 B. Deferred Credits                                 0                          0            0            0
                                                                                 C. Deposit Funds and Suspense Account
                                                                                    Liabilities                                      0                           0           0            0
                                                                                 D. Resources Payable to Treasury                    0                           0           0            0
                                                                                 E. Disbursing Officer Cash                          0                           0           0            0
                                                                                 F. Non-environmental Disposal Liabilities:
                                                                                    (1) National Defense PP&E (Non-nuclear)          0                           0           0            0
                                                                                    (2) Excess/Obsolete Structures                   0                           0           0            0
                                                                                    (3) Conventional Munitions Disposal              0                           0           0            0
                                                                                    (4) Other                                        0                           0           0            0
                                                                                 G. Accounts Payable-- Cancelled Appropriations      0                           0           0            0
                                                                                 H. Judgment Fund Liabilities                        0                           0           0            0
                                                                                 I. FECA Reimbursement to the
                                                                                    Department of Labor                         21,789                    28,337        50,126      48,998
                                                                                 J. Capital Lease Liability                          0                         0             0           0
                                                                                 K. Other Liabilities                            7,165                         0         7,165      23,464
                                                                                 L. Total Intragovernmental Other Liabilities $233,702                   $28,337      $262,039    $118,904

                                                                            2. Non-Federal:
                                                                                 A.    Accrued Funded Payroll and Benefits      $71,914                        $0      $71,914     $68,578
                                                                                 B.    Advances from Others                       31,279                        0       31,279      41,547
                                                                                 C.    Deferred Credits                                0                        0            0       1,897
                                                                                 D.    Loan Guarantee Liability                        0                        0            0           0
                                                                                 E.    Liability for Subsidy Related to
                                                                                       Undisbursed Loans                               0                         0           0            0
                                                                                 F.    Deposit Funds and Suspense Accounts             0                         0           0            0
                                                                                 G.    Temporary Early Retirement Authority            0                         0           0            0
                                                                                 H.    Non-environmental Disposal Liabilities:
FY02 Consolidated Army Annual Financial Statements




                                                                                       (1) National Defense PP&E (Non-nuclear)         0                         0           0           0
                                                                                 (2)   Excess/Obsolete Structures                      0                         0           0           0
                                                     Working Capital Fund




                                                                                 (3)   Conventional Munitions Disposal                 0                         0           0           0
                                                                                 (4)   Other                                           0                         0           0           0
                                                                                 I.    Accounts Payable--Cancelled Appropriations      0                         0           0           0
                                                                                 J.    Accrued Unfunded Annual Leave              73,362                         0      73,362      71,152
                                                                                 K.    Accrued Entitlement Benefits for
                                                                                       Military Retirees and Survivors                 0                        0            0           0
                                                                                 L.    Capital Lease Liability                         0                        0            0           0
                                                                                 M.    Other Liabilities                          35,500                        0       35,500      26,754
                                                                                 N.    Total Non-Federal Other Liabilities     $212,055                        $0     $212,055    $209,928

                                                                            3. Total Other Liabilities:                         $445,757                 $28,337      $474,094    $328,832
                 264
                                                                            4. Other Information:
                                                                          Notes to Principal Statements



Relevant Information for Comprehension
Advances from Others
Advances from Others increased by $158,305.4 thousand or 340.86%. This increase is due to advance
billings that were authorized for the Army Depot Maintenance and Army Ordnance activities. See Note 21,
Disclosures Related to the Statement of Budgetary Resources, for further disclosures related to the advance
billing authorization.

Federal Employment Compensation Act (FECA)
The FECA is administered by the Department of Labor (DoL), Office of Workers' Compensation Programs
(OWCP). Workman's Compensation claims are submitted to and approved by the Department of Labor
(DoL). DoL pays the claim holders. DoL then prepares a chargeback billing to the responsible Agencies.
P.L. 93-416, Section 8147 (the FECA law) essentially gives Agencies two years to pay the chargeback bill;
thereby allowing time for the applicable amount to be included in budget submissions. Pursuant to the
FECA law, once funding is received, it should be paid within 30 days. The current liability shown is the
amount payable during FY 2003, while the noncurrent liability shown is the amount payable during FY 2004.

Other Liabilities consists, in thousands of dollars, of the following:
Types
    Intragovernmental - Other Liabilities                                   FY 2002                 FY 2001
    Employers share of VSIP                                                    $30.5                 $668.4
    Employers share of CSRS, FERS, FEGLI, and FEHB                          $7,134.4                 4,765.9
    Taxes Payable                                                               $0.0               $18,030.0
Total                                                                       $7,164.9               $23,464.3

Non-Federal -Other Liabilities
    Contract Holdbacks                                                     $20,911.7               $23,965.2
    Employers Contributions to Thrift Savings Plan and Taxes Payable        14,588.2                 2,788.6
Total                                                                      $35,499.9               $26,753.8

Total                                                                      $42,664.8               $50,218.1


Taxes Payable were reported as Intragovernmental Other Liabilities in FY 2001. In FY 2002, a decision was
made to report these instead as part of Non-Federal Other Liabilities. The basis of this decision was the fact
that, while the taxes payable will be remitted to the Department of the Treasury, they are not actually a debt
to the Treasury, but to the individual from whose pay the taxes were withheld. In thousands of dollars, the
FY 2002 accrued taxes payable total $11,774.1 thousand and the Employer Contributions to Thrift Savings
Plan total $2,814.1 thousand.

Note Reference
See Note Disclosure 1. S. - Significant Accounting Policies for additional discussion on financial reporting
requirements and DoD policies governing Contingencies and Other Liabilities.

                                                                                                                  02
                                                                                                                 fy

                                                                                                                      265
                                                                            Note 15.B. Capital Lease Liability
                                                                                 Not applicable.



                                                                            Note 16.             Commitments and Contingencies
                                                                                 Disclosures Related to Commitments and Contingencies:
                                                                                 As of September 30, 2002, the Army Working Capital Fund was awaiting an arbitration hearing date for
                                                                                 claims for Hazardous Duty Pay by GS Employees at Corpus Christi Army Depot with possible damages of
                                                                                 $20 million. We are unable to express an opinion about the likely outcome of this case.



                                                                            Note 17.             Military Retirement Benefits and Other Employment Related
                                                                                                 Actuarial Liabilities
                                                                            As of September 30,
                                                                            (Amounts in Thousands)                                                       2002                                      2001

                                                                                                                                 Actuarial Present Assumed     Less:Assets      Unfunded       Unfunded
                                                                                                                                Value of Projected  Interest    Available to     Actuarial      Actuarial
                                                                            1. Pension and Health Benefits:                         Plan Benefits Rate (%)     Pay Benefits       Liability      Liability
                                                                                 A.   Military Retirement Pensions                            $0                        $0             $0             $0
                                                                                 B.   Military Retirement Health Benefits                      0                         0              0              0
                                                                                 C.   Medicare-Eligible Retiree Benefits                       0                         0              0              0
                                                                                 D.   Total Pension and Health Benefits                       $0                        $0             $0             $0

                                                                            2. Other
                                                                                 A.   FECA                                            $304,524                          $0     $304,524       $308,657
                                                                                 B.   Voluntary Separation Incentive Programs                0                           0            0              0
                                                                                 C.   DoD Education Benefits Fund                            0                           0            0              0
                                                                                 D.   [Enter Program Name}                                   0                           0            0              0
                                                                                 E.   Total Other                                     $304,524                          $0     $304,524       $308,657

                                                                            3.   Total Military Retirement Benefits and
                                                                                 Other Employment Related
FY02 Consolidated Army Annual Financial Statements




                                                                                 Actuarial Liabilities:                               $304,524                          $0     $304,524       $308,657
                                                     Working Capital Fund




                                                                            4. Other Information:
                                                                                 Actuarial Cost Method Used:
                                                                                 Assumptions:
                                                                                 Market Value of Investments in Market-based and Marketable Securities:

                                                                                 Federal Employment Compensation Act (FECA)
                                                                                 The Army's actuarial liability for workers' compensation benefits is developed by the Department of Labor
                                                                                 and provided to the Army at the end of each fiscal year. The liability includes the expected liability for death,
                                                                                 disability, medical, and miscellaneous costs for approved compensation cases. The liability is determined
                                                                                 using a method that utilizes historical benefit payment patterns to predict the ultimate payments. The
                 266
                                                                                 projected annual benefit payments then are discounted to the present value using the OMB's economic
                                                                             Notes to Principal Statements



     assumptions for 10-year U.S. Treasury notes and bonds. Cost of living adjustments and medical inflation
     factors are also applied to the calculation of projected future benefits.

     The Army Working Capital Fund (AWCF) computes its portion of the total Army actuarial liability based on
     the percentage of total Army current and noncurrent FECA liability accrued by the AWCF. The decrease
     between Fiscal Years (FYs) 2001 and 2002 shown above is due to a decrease in AWCF current and
     noncurrent liability during FY 2002. See Note 15A, Other Liabilities, for information on the FECA current
     and noncurrent liability.



Note 18.             Unexpended Appropriations
As of September 30,
(Amounts in Thousands)                                                            2002                   2001

1. Unexpended Appropriations:
     A.   Unobligated, Available                                                   $25                    $25
     B.   Unobligated, Unavailable                                                   0                      0
     C.   Unexpended Obligations                                                30,018                 38,835
     D.   Total Unexpended Appropriations                                      $30,043                $38,860

2. Other Information:


     Relevant Information For Comprehension
     During FY 2002, the AWCF received, obligated, and expended, $167,400.0 thousand of Appropriated Funds.
     See Note 21A, Disclosures Related to the Statement of Budgetary Resources, for further details.

     AWCF Supply Management
     The AWCF Supply Management business area received during FY 2000 a $62,000 thousand appropriation
     for the procurement of war reserve material. The following events have occurred since FY 2000:

     During FY 2000 - $321 thousand of this appropriation was rescinded, $55,964.9 thousand was obligated, and
     $25.0 thousand remained available for use in FY 2001.

     During FY 2001 - $15,461.6 thousand of downward adjustments were made to the obligations recorded in
     FY 2000 and $1,668.0 thousand of the FY 2000 obligations were expended.

     During FY 2002 - $9.1 thousand of downward adjustments were made to the obligations recorded in FY
     2000 and $8,826.7 thousand of the FY 2000 obligations were expended. On September 30, 2002, $25.0
     thousand remained available for use in FY 2003 and $30,017.7 thousand remained obligated, but
     unexpended.

     Unexpended Obligations
     Unexpended obligations reported as a component of Unexpended Appropriations include both Undelivered         02
                                                                                                                 fy

     Orders-Unpaid and Undelivered Orders-Paid only for Direct Appropriated funds. This amount is distinct            267
     from Change in Budgetary Resources Obligated for Goods, Services, and Benefits Ordered but Not Yet
                                                                              Received (Line 12) of the Statement of Financing, which includes the change during the fiscal year in
                                                                              unexpended obligations against budget authority from all sources.



                                                                            Note 19.A. General Disclosures Related to the Statement of Net Cost
                                                                              Disclosures Related to the Statement of Net Cost
                                                                              The Consolidated Statement of Net Cost in the federal government is unique because its principles are driven
                                                                              on understanding the net cost of programs and/or organizations that the federal government supports through
                                                                              appropriations or other means. This statement provides gross and net cost information that can be related to
                                                                              the amount of output or outcome for a given program and/or organization administered by a responsible
                                                                              reporting entity.

                                                                              Working Capital Fund
                                                                              While the Army Working Capital Funds (WCFs) generally record transactions on an accrual basis as is
                                                                              required by generally accepted accounting principles, the systems do not capture always actual costs.
                                                                              Information presented on the Statement of Net Cost (SoNC) is based primarily on budgetary obligation,
                                                                              disbursements, or collection transactions, as well as information from nonfinancial feeder systems.

                                                                              Other Information Related to Gross Cost to Generate Intragovernmental Revenue and
                                                                              Earned Revenue (Note 19C)

                                                                              Relevant Information for Comprehension
                                                                              The Department's accounting systems do not capture cost data in a manner that enables the Department to
                                                                              determine if the cost was incurred to generate intragovernmental revenue. Therefore, the Department was
                                                                              unable to complete this note. The Department is in the process of upgrading its financial and feeder systems
                                                                              and will be addressing this issue. Additionally, the identification of intragovernmental revenue and expenses
                                                                              is a government-wide problem. The OMB and the Department of the Treasury have efforts underway to
                                                                              develop government-wide guidance to enable accurate reporting of intragovernmental transactions. The
                                                                              primary cause of the fluctuations in the Statement of Net Cost is the increase of Army activities during FY
                                                                              2002. However, two other items also affected the gross and net balances. Elimination balancing entries to
FY02 Consolidated Army Annual Financial Statements




                                                                              bring our buyer-side costs into agreement with the seller-side revenues caused a shift of $5,689,625.9
                                                                              thousand in Intragovernmental Gross and Net Costs to Public Gross and Net Costs. This explains the
                                                                              decrease of 25.9% in Intragovernmental Gross Costs and the increase of 47.7% in Gross Costs With the
                                                     Working Capital Fund




                                                                              Public. These entries are further explained in Note 19I. The other factor influencing the costs and revenues
                                                                              is a policy change in recording Prior Period Adjustments. As of FY 2002, Prior Period Adjustments are to be
                                                                              recorded only if material. If not material, the adjustments are to be applied as current year activity. AWCF
                                                                              Prior Period Adjustments were deemed to be immaterial, and therefore a $289,555.8 thousand decrease was
                                                                              applied to Gross Costs With the Public, with a $30,845.5 thousand increase applied to Earned Revenue From
                                                                              the Public.


                                                                            Note 19.B. Gross Cost and Earned Revenue by Budget Functional
                 268                                                                   Classification
                                                                              Not Applicable
                                                                            Notes to Principal Statements



Note 19.C. Gross Cost to Generate Intragovernmental Revenue and Earned
           Revenue (Transactions with Other Federal-Non-DoD-Entities) by
           Budget Functional Classification
     Not Applicable



Note 19.D. Imputed Expenses
As of September 30,
(Amount in thousands)                                                           2002                    2001
     1.    Civilian (e.g.,CSRS/FERS) Retirement                               $49,291                $46,012
     2.    Civilian Health                                                     60,422                 58,857
     3.    Civilian Life Insurance                                                171                    162
     4.    Military Retirement Pension                                              0                      0
     5.    Military Retirement Health                                               0                      0
     6.    Judgment Fund                                                            0                      0
     7.    Total Imputed Expenses                                            $109,884               $105,031



Note 19.E. Benefit Program Expenses
     Not Applicable



Note 19. F. Exchange Revenue
     Disclosures Related to the Exchange Revenue:
     Exchange Revenue - arises when a Government entity provides goods and services to the public or to another
     Government entity for a price, - "earned revenue." Exchange revenue includes most user charges other than
     taxes, i.e., regulatory user charges.

     Depot Maintenance and Ordnance Working Capital Funds (WCF) recognize revenue according to the
     percentage of completion method. Supply Management WCF activities recognize revenue from the sale of
     inventory items.



Note 19.G. Amounts for Foreign Military Sales (FMS) Program Procurements
           from Contractors
     Not Applicable



Note 19.H. Stewardship Assets
     Not Applicable

                                                                                                                   02
                                                                                                                  fy

                                                                                                                       269
                                                                            Note 19.I.               Intragovernmental Revenue and Expense
                                                                                 Disclosures Related to Intragovernmental Revenue and Expense:
                                                                                 Intragovernmental Revenue
                                                                                 For the majority of buyer-side transactions, the Army Working Capital Fund's (WCF) accounting systems do
                                                                                 not capture trading partner data at the transaction level in a manner that facilitates trading partner
                                                                                 aggregations. Therefore, the WCF was unable to reconcile intragovernmental accounts payable balances
                                                                                 with its trading partners. The Department intends to develop long-term system improvements that will
                                                                                 include sufficient up-front edits and controls to eliminate the need for after-the-fact reconciliations. The
                                                                                 volume of intragovernmental transactions is so large that after-the-fact reconciliations cannot be
                                                                                 accomplished with the existing or foreseeable resources.

                                                                                 Operating Expenses
                                                                                 The Army WCF's operating expenses were adjusted based on a comparison between the Army WCF's
                                                                                 accounts payable and the DoD summary level seller accounts receivables. In addition, the Army WCF's
                                                                                 operating expenses also were adjusted based on a comparison between the Army WCF's expenses and the
                                                                                 DoD summary level seller revenues. The adjustments posted were an upward adjustment of $61,717.1
                                                                                 thousand to accounts payable and a downward adjustment of $5,689,625.9 thousand to operating expenses.



                                                                            Note 19.J. Suborganization Program Costs
                                                                                 Not Applicable



                                                                            Note 20.                 Disclosures Related to the Statement of Changes in Net Position
                                                                            As of September 30,
                                                                            (Amounts in thousands)
                                                                                                                       Cumulative Results of         Unexpended      Cumulative Results       Unexpended
                                                                                                                           Operations 2002     Appropriations 2002   of Operations 2001 Appropriations 2001
                                                                            1. Prior Period Adjustments Increases
                                                                               Decreases) to Net Position Beginning Balance:
                                                                                 A.    Changes in Accounting Standards                   $0                    $0                  $0                   $0
FY02 Consolidated Army Annual Financial Statements




                                                                                 B.    Errors and Omissions in Prior Year
                                                                                       Accounting Reports                                 0                     0          1,463,817                     0
                                                     Working Capital Fund




                                                                                 C.    Other Prior Period Adjustments                     0                     0                  0                     0
                                                                                 D.    Total Prior Period Adjustments                     0                    $0         $1,463,817                    $0

                                                                            2. Imputed Financing:
                                                                                 A.    Civilian CSRS/FERS Retirement              $49,291                      $0            $46,012                    $0
                                                                                 B.    Civilian Health                             60,422                       0             58,857                     0
                                                                                 C.    Civilian Life Insurance                        171                       0                162                     0
                                                                                 D.    Military Retirement Pension                      0                       0                  0                     0
                                                                                 E.    Military Retirement Health                       0                       0                  0                     0
                                                                                 F.    Judgment Fund                                    0                       0                  0                     0
                                                                                 G.    Total Imputed Financing                   $109,884                      $0           $105,031                    $0
                 270
                                                                            Notes to Principal Statements



3. Other Information:


   Relevant Information for Comprehension
   Prior Period Adjustments
   Errors and Omissions in Prior Year Accounting Practices have decreased $1,463,816.6 thousand (100%). As
   of Fiscal Year (FY) 2002, The Department of the Treasury has emphasized the usage of USSGL accounts
   7400 and 7401 for material changes only. Use of these accounts should be infrequent. Prior Period
   Adjustments for Army Working Capital Fund (WCF) for FY 2002 were not considered to be material
   amounts. Transactions that would have been classified as Prior Period Adjustments were recorded instead to
   expense and revenue accounts as if they had occurred during the current fiscal year. The net amount of Prior
   Period Adjustments, in thousands of dollars, that were reclassified as current year activity is as follows:

       Depot Maintenance      $23,793.9                Ordnance               $158,182.8
       Information Services   $6,510.7                 Supply Management      $321,857.2


   The Nonexchange Revenue reported on the Statement of Changes in Net Position represents cash infusions
   relating to prior period earnings. Cash infusions are movements of prior year Army Operations and
   Maintenance funds into the proper Army Working Capital Fund General Ledger accounts. These were
   reported as Prior Period Adjustments during FYs 2001 and previous. Depot Maintenance reported $7,793.4
   thousand and Ordnance reported $162,242.8 thousand during FY 2002.

   Other Budgetary Financing Sources
   Other Budgetary Financing Sources represents:

   z A decrease in Material Returns Liability for 63,902.7 thousand and

   z Transfers In/Out Without Reimbursement for $70,619.5 thousand for which a trading partner could not be
     identified and $68,276.2 thousand due to Single Stock Fund M-3 Capitalized VIOC items received from
     the Army General Funds.

   z The increase between FY 2001 and FY 2002 is due to $1,953.3 thousand transferred out without a trading
     partner in FY 2001 compared to $139.0 thousand transferred in without trading partner information during
     FY 2002 and a decrease in Material Returns Liability from $394.4 thousand in FY 2001 to $63.9 thousand
     in FY 2002.

   Appropriations Used
   The increase is due to $163,300 thousand Direct Appropriations received for Spare Parts and War Reserves
   and $4,100 thousand in current year funding to offset utility expense. All Direct Appropriations received
   during FY 2002 were used during FY 2002, as well as additional Expended Appropriation of $7,000
   thousand from Unexpended Funds Obligated in Prior Fiscal Years.


                                                                                                                   02
                                                                                                                  fy

                                                                                                                       271
                                                                                 Other Financing Sources
                                                                                 The increase in Transfers In/Out Without Reimbursement is due to the transfer in of $74,000 thousand in
                                                                                 inventory from Milestone 3 of Single Stock Fund, transferred in from Army General Fund.

                                                                                 Note Reference
                                                                                 For Additional Line Item discussion, see:
                                                                                 Note 19, General Disclosures Relating to the Statement of Net Cost
                                                                                 Note 21, Disclosures Related to the Statement of Budgetary Resources



                                                                            Note 21.A. Disclosures Related to the Statement of Budgetary Resources
                                                                            As of September 30,
                                                                            (Amounts in thousands)                                                               2002                     2001

                                                                            1. Net Amount of Budgetary Resources Obligated for
                                                                               Undelivered Orders at the End of the Period                                  $2,801,419              $3,060,625
                                                                            2. Available Borrowing and Contract Authority at the
                                                                               End of the Period                                                            $2,375,862              $2,309,254

                                                                            3. Other Information:


                                                                                 Other Information Related to the Statement of Budgetary Resources

                                                                                 Relevant Information for Comprehension
                                                                                 Apportionment Categories
                                                                                 Net amount of Budgetary Resources Obligated for Undelivered Orders at the End of Period consists of
                                                                                 $30,017.7 thousand Direct Obligations and $2,771,401.5 thousand Reimbursable Obligations. Please see
                                                                                 Note 18, Unexpended Appropriations, for details on the Direct Obligations.

                                                                                 During Fiscal Year (FY) 2002, the Army Working Capital Fund (WCF) incurred Direct Obligations of
                                                                                 $171,651.9 thousand and Reimbursable Obligations of $6,659,960.8 thousand as shown on the Statement of
FY02 Consolidated Army Annual Financial Statements




                                                                                 Budgetary Resources “Obligations Incurred.”

                                                                                 Primary funding for the Army WCF is earned through customer orders, as described in Note 1C. In addition
                                                     Working Capital Fund




                                                                                 to revenues earned, Direct Appropriations, in thousands of dollars, were received by the following business
                                                                                 areas during FY 2002:

                                                                                       Ordnance              $1,400.0                 Depot Maintenance       $2,300.0
                                                                                       Supply Management     $163,600.0               Information Service     $100.0


                                                                                 These appropriations are permanent, indefinite appropriations, available for obligation until exhausted, for the
                                                                                 purpose of continuing business operations and maintenance of the corpus. The unobligated balance of these
                                                                                 appropriated funds as of September 30, 2002 is $25.0 thousand (Supply Management business area). The
                 272                                                             obligated balance is $30,017.7 thousand (Supply Management business area).
                                                                              Notes to Principal Statements



Unobligated balances from Spending Authority from offsetting collections (revenues earned) as of September
30, 2002, in thousands of dollars, by business areas are:

    Ordnance               $583,260.2                   Depot Maintenance       $983,9163.1
    Supply Management      $1,105.9                     Information Service     $39,966.1
    Component              $100,00.0


Available borrowing and contract authority as of September 30, 2002, in thousands of dollars, is as follows:

                                        New Contract Authority      Unobligated Balance       Contract Authority
Type                                              For FY 2002        Beginning of Period      Available 9/30/2002
Ordnance                                           $2,212.2                 $2,842.4                 $5,054.6
Depot Maintenance                                     704.4                  7,269.5                  7,973.9
Supply Management                                  63,691.4              2,299,141.7              2,362,833.1
Total AWCF                                        $66,608.0             $2,309,253.6             $2,375,861.6


Other Army WCF Disclosures:

z The Army WCF was unable to make eliminating entries in the Statement of Budgetary Resources and
  therefore presented a Disaggregated Statement of Budgetary Resources in the Required Supplementary
  Information section of the financial statements.

z Transfers In and Out of property for the Army WCF and transfers of collections and disbursements to the
  Component level for applicable Defense WCFs, which are reflected on the Statement of Changes in Net
  Position, are not included in Transfers In/Out Without Reimbursement on the Statement of Budgetary
  Resources. The Transfers In reflected in the FY 2001 column for $6,100 thousand was a Consumable
  Item Transfer (CIT) between the AWCF and the Defense Logistics Agency (DLA), in which the AWCF
  gave up title to inventory to the DLA, who transferred unobligated authority to the AWCF in return. This
  type of transfer did not occur during FY 2002, so Net Transfers decreased 100% to $0.

z Advance billings were authorized for the Army Depot Maintenance and Army Ordnance activities, up to
  $200,000.0 thousand. This step was taken to maintain the minimum corpus requirement of $297,000.0
  thousand. This action was primarily necessary due to excessive credit being provided to Supply
  Management customers. The Army has taken action to restrict their credit percentage to the approved
  budget ratio of 39.2 percent of sales. These advance billings are the primary cause of the decrease in
  Receivables From Federal Sources of $33,140.7 thousand, or 37.55%, and the increase in Unfilled
  Orders With Advance of $104,400.1 thousand, or 426%. These advance billings, along with an increase
  in Earned collections, also contributed to the decrease in Net Outlays of $125,246.4 thousand, or
  34.10%.

z Change in unfilled customer orders without advance from federal sources increased by $899,145
  thousand (125%) primarily because of the increase in backorders in the Supply Management activity
  group due to the non-availability of spares.

z Direct Obligations increased by $889,201.5 thousand (123.92%). This is due to the fact that $740,669.1
  thousand in Reimbursable Obligations were crosswalked incorrectly to Direct on the FY 2000 reports. A
                                                                                                                     02
                                                                                                                    fy

                                                                                                                         273
  crosswalk correction was made during FY 2001 to correct these balances, which caused the FY 2001
                                                                                       Direct Obligations Incurred to appear to be negative $717,549.6 thousand. The true Direct Obligations
                                                                                       Incurred during FY 2001 was $23,199.6 thousand. Therefore, the true change between Direct
                                                                                       Obligations Incurred in FY 2002 and Direct Obligations Incurred in FY 2001 is an increase of
                                                                                       $148,532.4 thousand.

                                                                                 z Unobligated Balance Apportioned increased by $202,802.0 thousand (13%) due to the receipt of and
                                                                                   obligation of direct appropriations. Appropriations received by business area are noted above.

                                                                                 z The increase in accounts payable is commensurate with the increase in acquisition within the Supply
                                                                                   Management activity group.

                                                                                 z The AWCF is unable to implement fully all elements of Federal GAAP and OMB Bulletin No. 01-09
                                                                                   due to limitations of its financial and nonfinancial management processes and systems. See Note 1,
                                                                                   Significant Accounting Policies, for a full disclosure of accounting policies not in compliance with these
                                                                                   standards.

                                                                                 Undelivered Orders
                                                                                 Undelivered Orders presented in the Statement of Budgetary Resources includes Undelivered Orders-Unpaid
                                                                                 for both direct and reimbursable funds. The AWCF has not implemented fully the U.S. Standard General
                                                                                 Ledger (USSGL) in all operational accounting systems.

                                                                                 Spending Authority from Offsetting Collections
                                                                                 Adjustments in funds that temporarily are not available pursuant to Public Law, and those that permanently
                                                                                 are not available (included in the "Adjustments" line on the Statement of Budgetary Resources), are not
                                                                                 included in the "Spending Authority From Offsetting Collections and Adjustments" line on the Statement of
                                                                                 Budgetary Resources or the "Spending Authority for Offsetting Collections and Adjustments" line on the
                                                                                 Statement of Financing.



                                                                            Note 21.B. Disclosures Related to Problem Disbursements, In-transit
                                                                                       Disbursements and Suspense/Budget Clearing Accounts
FY02 Consolidated Army Annual Financial Statements




                                                                            As of September 30,
                                                                            (Amounts in thousands)
                                                     Working Capital Fund




                                                                                                                                                                               (Decrease)/Increase
                                                                            1. Total Problem Disbursement                      Sep 2000           Sep 2001          Sep 2002     from 2001 to 2002
                                                                                 A.    Absolute Unmatched Disbursements       $36,757              $7,241            $17,301            $10,060
                                                                                 B.    Negative Unliquidated Obligations       34,859              11,708             4,477              (7,231)

                                                                            2. Total In-transit Disbursements, Net           $220,448             $83,580           $65,368            $(18,212)

                                                                            3. Other Information Related to Problem Disbursements and In-transit Disbursements:


                 274
                                                                                  Notes to Principal Statements



   Relevant Information for Comprehension
   Definitions
   Absolute value is the sum of the positive values of debit and credit transactions without regard to the sign.

   UMDs occur when payments do not match to a corresponding obligation in the accounting system.

   NULOs occur when payments have a valid obligation, but the payment is greater than the amount of the
   obligation recorded in the official accounting system. These payments use available funds for valid receiving
   reports on delivered goods and services under valid contracts.

   In-Transits represents the net value of disbursements and collections made by a DoD disbursing activity on
   behalf of an accountable activity but not posted yet in an accounting system.

   Aged UMDs and NULOs
   The Army WCF has $17,301.3 thousand in absolute value aged UMDs, $4,476.6 thousand in aged NULOs,
   and $65,367.6 thousand in aged in-transit disbursements that represent disbursements of Army WCF funds
   that have been reported by a disbursing station to the Department of the Treasury but have not been matched
   precisely yet against the specific source obligation giving rise to the disbursements. For the most part, these
   payments have been made using available funds and based on valid receiving reports for goods and services
   delivered under valid contracts. The problem disbursements and in-transit disbursements arise when the
   Army WCF's various contracting, disbursing, and accounting systems fail to match the data necessary to
   account properly for the disbursement transactions in all applicable accounting systems. The Army WCF has
   efforts underway to improve the systems and to resolve all previous problem disbursements and process all
   in-transit disbursements.



   The Problem Disbursement Reduction Goal is stated in Absolute Value UMDs, NULOs, and Net Intransits.
   Therefore, the UMDs presented above are shown in absolute value for comparison to the official Reduction
   Goal. However, in prior years, Net UMDs and NULOs were reported together on the "Problem
   Disbursements" line of Note 21. In order to facilitate comparability with prior years and comprehension of
   the net dollar amounts, the Net UMDs and NULOs, in thousands of dollars, are shown in the table below.

   Problem Disbursement Type             FY 2000                 FY 2001               FY 2002
       Net UMDs                         $22,089.4                $3,355.0              $6,346.5
       NULOs                             34,858.7                 11,707.7              4,476.6
   Total Net Problem Disbursements      $56,948.1               $15,062.7             $10,823.1

4. Suspense/Budget Clearing Accounts, Net
   Account                                       Sep 2000             Sep 2001            Sep 2002   (Decrease)/Increase
      F3875                                           $0                     $0                $0                    $0
      F3880                                            0                      0                 0                     0
      F3882
      F3885
                                                       0
                                                       0
                                                                              0
                                                                              0
                                                                                                0
                                                                                                0
                                                                                                                      0
                                                                                                                      0
                                                                                                                            02
                                                                                                                           fy

      F3886                                            0                      0                 0                     0         275
      Total                                           $0                     $0                $0                    $0
                                                                            5. Other Information Related to Suspense/Budget Clearing Accounts:
                                                                               The Suspense/Budget Clearing Accounts shown above are maintained and reported by the Army General
                                                                               Funds. Some transactions relating to the Army WCF may be in suspense accounts, but these transactions are
                                                                               not identifiable. When they are identified to the Army WCF, they will be transferred from the
                                                                               suspense/clearing account to the correct Treasury appropriation of 97X4930.1.


                                                                            Note 22.        Disclosures Related to the Statement of Financing
                                                                               Disclosures Related to the Statement of Financing
                                                                               The objective of the Statement of Financing is to make users understand the difference between budgetary
                                                                               and net cost of operations reported. The statement provides this understanding through a comprehensive
                                                                               reconciliation process.

                                                                               Other Information Related to the Statement of Financing
                                                                               Statement of Financing
                                                                               The statement of financing was expanded to further articulate and detail the relationship between net
                                                                               obligations from budgetary accounting and net cost of operation from proprietary accounting. Some items
                                                                               that were reported last year as a single line were subdivided to reflect their components. Several new line
                                                                               items were added to identify separately and further explain the use of resources to finance net obligations or
                                                                               net cost of operations. This change notes key differences between the net obligations and net cost of
                                                                               operations.

                                                                               "Net Cost of Operation" in the 2001 column of the Statement of Financing shows ($113,036) thousand
                                                                               compared to $126,474 thousand in the Statement of Net Cost, and the amount reflected on the FY 2001
                                                                               statements. This is due to a change in DoD policy for mapping USSGLs to this statement. In FY 2001 and
                                                                               prior years, the unfunded liabilities were posted based on the change in the liability accounts. In FY 2002,
                                                                               this was changed to map liabilities based on the expense accounts. Both mapping policies are approved by
                                                                               Treasury.

                                                                               The AWCF had been instructed in FY 2001 and prior years to post all expenses to USSGL 6500, Cost of
                                                                               Goods Sold, which does not crosswalk to the Statement of Financing under the new mapping policy. As of
                                                                               FY 2002, this policy was changed to promote posting of expenses to the relevant expense accounts for
FY02 Consolidated Army Annual Financial Statements




                                                                               Benefits, Unfunded Expenses, and Future Funded Expenses, which do crosswalk to the Statement of
                                                                               Financing.
                                                     Working Capital Fund




                                                                               Posting of the expense related to unfunded liabilities during preparation of the FY 2001 financial statements
                                                                               created a $239,508 thousand decrease in Financing Sources, creating the apparent decrease in Net Cost
                                                                               compared to the Statement of Changes in Net Position and the Statement of Net Cost. Specifically,
                                                                               differences related to the unfunded annual leave were in the amount of $65,072 thousand, Unfunded FECA
                                                                               liability were $35,353 thousand, and $139,083 thousand for the FECA Actuarial liability. These decreases
                                                                               affect the following three lines: Resources that fund expenses recognized in prior periods, Other resources or
                                                                               adjustments to net obligated resources that do not affect net cost of operations (Other), and Other components
                                                                               of the net cost of operations that will not require or generate resources in the current period. DoD policy on
                                                                               this change was to footnote the differences rather than to correct the comparative statements.
                 276
                                                                               Budgetary data is not in agreement with Proprietary Expenses and Asset Capitalized. This causes a
                                                                            Notes to Principal Statements



   difference in Net Cost between the Statement of Net Cost and the Statement of Financing. "Resources that
   Finance the Acquisition of Assets" was adjusted by negative $338,260.1 thousand in order to bring the
   statements into balance. Differences between budgetary and proprietary data for the AWCF are a previously
   identified deficiency.

   Other Material Changes
   Other Resources Used to Finance Items not Part of the Net Cost of Operations has decreased from $71,151.6
   thousand to $0, or 100%. This is due to the fact that, in FY 2001, Accrued Annual Leave was reclassified as
   Unfunded. In prior years, it had been classified as funded. In FY 2001, this reclassification was
   accomplished by use of a Prior Period Adjustment. In FY 2002, no such adjustment was required.

   Other Components of the Net Cost of Operations that will not Require or Generate Resources in the Current
   Period has decreased by $15,547.1 thousand, or 93.24%. This is due to the recording of FECA Actuarial
   Liability. The Actuarial Liability is computed based on the FECA current and noncurrent liability. In FY
   2001, the FECA current and noncurrent liability had increased from FY 2000. Therefore, the FECA
   Actuarial Liability booked for FY 2001 $12,297.9 thousand was an increase from the preceding balance. In
   FY 2002, the FECA current and noncurrent liability had decreased from FY 2001. Therefore, the Actuarial
   Liability to be booked in FY 2002 (negative $4,132.9 thousand) was a reduction from the preceding balance.

   Other Components of the Net Cost of Operations that will not Require or Generate Resources in the Current
   Period have decreased by $481,284.4 thousand, or 93.24%. This is due to the fact that the Supply
   Management business area had recorded $484,560.3 thousand of Gains on Dispositions of Assets during FY
   2001. During FY 2002, the Supply Management business area booked no Gains on Disposal of Assets.
   Instead, a Loss on Disposal of Assets of $432,613.6 thousand was incurred.

Liabilities Not Covered by Budgetary Resources
   The Army Working Capital Fund (WCF) has a NonCurrent Unfunded FECA Liability of $28,336.5 thousand.
   This is for FECA bills due in FY 2004. The Army WCF also has an Unfunded FECA Actuarial Liability of
   $304,523.9 thousand. Both liabilities will be obligated when due and funded with future revenues. Both
   liabilities relate to the Depot Maintenance and Ordnance business areas only.

   Intra-entity Transaction
   Intra-entity transactions have not been eliminated because the statements are presented as combined and
   combining.


Note 23.        Disclosures Related to the Statement of Custodial Activity
   Not applicable


Note 24.A. Other Disclosures
   Not Applicable
                                                                                                                  02
                                                                                                                 fy

Note 24.B. Other Disclosures                                                                                          277
   Not Applicable
                                                                          Consolidating Balance Sheet
                                                                                             Department of Defense • Department of the Army
                                                                                             As of September 30, 2002 and 2001 ($ in thousands)


                                                                                             1. ASSETS (Note 2)                                                            Supply   Information
                                                                                                                                                  Depot Maintenance    Management      Services
                                                                                                  A. Intragovernmental:
                                                                                                     1. Fund Balance with Treasury
                                                                                                          (Note 3)                                             $0              $0          $0
                                                                                                     2. Investments (Note 4)                                    0               0           0
                                                                                                     3. Accounts Receivable (Note 5)                       53,588        108,047        5,294
                                                                                                     4. Other Assets (Note 6)                              10,843           9,276           0
                                                                                                     5. Total Intragovernmental Assets                    $64,431        $117,323      $5,294
                                                                                                  B. Cash and Other Monetary Assets
                                                                                                     (Note 7)                                                  $0              $0           $0
                                                                                                  C. Accounts Receivable (Note 5)                          $2,381          12,441            0
                                                                                                  D. Loans Receivable (Note 8)                                  0               0            0
                                                                                                  E. Inventory and Related Property (Note 9)              102,730      11,175,765            0
                                                                                                  F. General Property, Plant and Equipment
                                                                                                     (Note 10)                                            623,970        135,531          150
                                                                                                  G. Other Assets (Note 6)                                    972        249,921            0
   The accompanying notes are an integral part of these statements.




                                                                                             2. TOTAL ASSETS                                             $794,484     $11,690,981      $5,444

                                                                                             3. LIABILITIES (Note 11)
                                                                                                  A.    Intragovernmental:
                                                                                                        1. Accounts Payable (Note 12)                     $15,832        $79,558       $472
                                                                                                        2. Debt (Note 13)                                       0              0           0
                                                                                                        3. Environmental Liabilities (Note 14)                  0              0           0
                                                                                                        4. Other Liabilities (Notes 15 and 16)             91,079         13,449         142
                                                                                                        5. Total Intragovernmental Liabilities           $106,911        $93,207        $614
                                                                                                  B.    Accounts Payable (Note 12)                        $62,760       $489,744     $10,308
                                                                                                  C.    Military Retirement Benefits and
                                                                                                        Other Employment-Related Actuarial
                                                                                                        Liabilities (Note 17)                             181,582              0            0
                                                                                                  D.    Environmental Liabilities (Note 14)                     0              0            0
                                                                                                  E.    Loan Guarantee Liability (Note 8)                       0              0            0
                                                                                                  F.    Other Liabilities (Notes 15 and 16)                93,311         65,440        3,492
FY02 United States Army Annual Financial Statement




                                                                                             4. TOTAL LIABILITIES                                        $444,564       $648,391     $14,414
                                                                      Working Capital Fund




                                                                                             5. NET POSITION
                                                                                                  A.    Unexpended Appropriations (Note 18)                    $0        $30,043           $0
                                                                                                  B.    Cumulative Results of Operations                  349,920      11,012,547     (8,970)

                                                                                             6. TOTAL NET POSITION                                       $349,920     $11,042,590    ($8,970)

                                                                                             7.   TOTAL LIABILITIES AND NET
                                                                                                  POSITION                                               $794,484     $11,690,981      $5,444




                    278
                                                                         Consolidating Balance Sheet
                                                                   Department of Defense • Department of the Army
                                                               As of September 30, 2002 and 2001 ($ in thousands)


1. ASSETS (Note 2)                                                            Component                 Combined
                                                        Ordnance                  Level                     Total
     A. Intragovernmental:
        1. Fund Balance with Treasury
             (Note 3)                                        $0                $251,030                $251,030
        2. Investments (Note 4)                               0                       0                       0
        3. Accounts Receivable (Note 5)                  37,398                  37,287                 241,614
        4. Other Assets (Note 6)                          1,888                       0                  22,007
        5. Total Intragovernmental Assets               $39,286                $288,317                $514,651
     B. Cash and Other Monetary Assets
        (Note 7)                                             $0                        $0                    $0
     C. Accounts Receivable (Note 5)                      1,597                         0                16,419
     D. Loans Receivable (Note 8)                             0                         0                     0
     E. Inventory and Related Property (Note 9)          40,798                         0            11,319,284
     F. General Property, Plant and Equipment
        (Note 10)                                       490,589                          0            1,250,240
     G. Other Assets (Note 6)                               405                          0              251,298


2. TOTAL ASSETS                                       $572,666                 $288,317            $13,351,892

3. LIABILITIES (Note 11)
     A.   Intragovernmental:
          1. Accounts Payable (Note 12)                  $1,300                      $1                 $97,163
          2. Debt (Note 13)                                   0                       0                       0
          3. Environmental Liabilities (Note 14)              0                       0                       0
          4. Other Liabilities (Notes 15 and 16)        179,128                       0                 283,998
          5. Total Intragovernmental Liabilities       $180,428                      $1                $381,161
     B.   Accounts Payable (Note 12)                    $17,789               ($69,954)                $511,007
     C.   Military Retirement Benefits and
          Other Employment-Related Actuarial
          Liabilities (Note 17)                         122,942                          0               304,524
     D.   Environmental Liabilities (Note 14)                 0                          0                     0
     E.   Loan Guarantee Liability (Note 8)                   0                          0                     0
     F.   Other Liabilities (Notes 15 and 16)            49,812                          0               212,055

4. TOTAL LIABILITIES                                  $370,971                ($69,953)              $1,408,747

5. NET POSITION
     A.   Unexpended Appropriations (Note 18)                $0                       $0               $30,043
     B.   Cumulative Results of Operations              201,695                  357,910             11,913,102

6. TOTAL NET POSITION                                  $201,695                $357,910             $11,943,145

7.   TOTAL LIABILITIES AND NET
     POSITION                                         $572,666                 $288,317            $13,351,892


                                                                                                                       02
                                                                                                                      fy

                                                                                                                       279

                                                   The accompanying notes are an integral part of these statements.
                                                                          Consolidating Balance Sheet
                                                                                             Department of Defense • Department of the Army
                                                                                             As of September 30, 2002 and 2001 ($ in thousands)


                                                                                             1. ASSETS (Note 2)                                                      FY 2002         FY 2001
                                                                                                                                                  Eliminations   Consolidated    Consolidated
                                                                                                  A. Intragovernmental:
                                                                                                     1. Fund Balance with Treasury
                                                                                                          (Note 3)                                       $0        $251,030       $325,682
                                                                                                     2. Investments (Note 4)                              0               0              0
                                                                                                     3. Accounts Receivable (Note 5)                 19,636         221,978        276,355
                                                                                                     4. Other Assets (Note 6)                        21,959              48         27,006
                                                                                                     5. Total Intragovernmental Assets              $41,595        $473,056       $629,043
                                                                                                  B. Cash and Other Monetary Assets
                                                                                                     (Note 7)                                              $0             $0             $0
                                                                                                  C. Accounts Receivable (Note 5)                           0         16,419         22,622
                                                                                                  D. Loans Receivable (Note 8)                              0              0              0
                                                                                                  E. Inventory and Related Property (Note 9)                0     11,319,284     10,791,280
                                                                                                  F. General Property, Plant and Equipment
                                                                                                     (Note 10)                                              0     1,250,240       1,149,629
                                                                                                  G. Other Assets (Note 6)                                  0       251,298         274,330
   The accompanying notes are an integral part of these statements.




                                                                                             2. TOTAL ASSETS                                        $41,595      $13,310,297    $12,866,904

                                                                                             3. LIABILITIES (Note 11)
                                                                                                  A.   Intragovernmental:
                                                                                                       1. Accounts Payable (Note 12)                $19,636         $77,527        $67,184
                                                                                                       2. Debt (Note 13)                                  0               0              0
                                                                                                       3. Environmental Liabilities (Note 14)             0               0              0
                                                                                                       4. Other Liabilities (Notes 15 and 16)        21,959         262,039        118,906
                                                                                                       5. Total Intragovernmental Liabilities       $41,595        $339,566       $186,090
                                                                                                  B.   Accounts Payable (Note 12)                        $0        $511,007       $355,452
                                                                                                  C.   Military Retirement Benefits and
                                                                                                       Other Employment-Related Actuarial
                                                                                                       Liabilities (Note 17)                                0       304,524         308,657
                                                                                                  D.   Environmental Liabilities (Note 14)                  0             0               0
                                                                                                  E.   Loan Guarantee Liability (Note 8)                    0             0               0
                                                                                                  F.   Other Liabilities (Notes 15 and 16)                  0       212,055         209,928
FY02 United States Army Annual Financial Statement




                                                                                             4. TOTAL LIABILITIES                                   $41,595       $1,367,152     $1,060,127
                                                                      Working Capital Fund




                                                                                             5. NET POSITION
                                                                                                  A.   Unexpended Appropriations (Note 18)                 $0       $30,043        $38,860
                                                                                                  B.   Cumulative Results of Operations                     0     11,913,102     11,767,917

                                                                                             6. TOTAL NET POSITION                                         $0    $11,943,145    $11,806,777


                                                                                             7.   TOTAL LIABILITIES AND NET
                                                                                                  POSITION                                          $41,595      $13,310,297    $12,866,904




                    280
                                                                        Consolidating Statement of Net Cost
                                                                             Department of Defense • Department of the Army
                                                           For the years ended September 30, 2002 and 2001 ($ in thousands)


1. Program Costs                                                          Depot
                                             Component Level        Maintenance     Information Service              Ordnance
   A.   Component Level
        1. Intragovernmental Gross Costs                 $0                   $0                     $0                     $0
        2. (Less: Intragovernmental Earned
                  Revenue)                               0                     0                     0                      0
        3. Intragovernmental Net Costs                  $0                    $0                    $0                     $0
        4. Gross Costs With the Public                $506                    $0                  $506                 ($362)
        5. (Less: Earned Revenue From the
                  Public)                                0                     0                     0                      0
        6. Net Costs With the Public                  $506                    $0                  $506                 ($362)
        7. Total Net Cost                             $506                    $0                  $506                 ($362)
   B.   Depot Maintenance
        1. Intragovernmental Gross Costs        $1,026,249            $460,142               $566,107               $614,832
        2. (Less: Intragovernmental Earned
                  Revenue)                      (1,610,727)          (629,911)              (980,816)              (853,853)
        3. Intragovernmental Net Costs           ($584,478)         ($169,769)             ($414,709)             ($239,021)
        4. Gross Costs With the Public             $856,033                 $0              $856,033                $232,887
        5. (Less: Earned Revenue From the
                  Public)                          (41,331)                  0               (41,331)                (33,745)
        6. Net Costs With the Public              $814,702                  $0              $814,702                $199,142
        7. Total Net Cost                         $230,224          ($169,769)              $399,993               ($39,879)
   C.   Information Service
        1. Intragovernmental Gross Costs           $11,243                 $717               $10,526                $16,857
        2. (Less: Intragovernmental Earned
                  Revenue)                          (97,003)           (52,803)              (44,200)                (57,075)
        3. Intragovernmental Net Costs            ($85,760)           ($52,086)             ($33,674)              ($40,218)
        4. Gross Costs With the Public              $80,279                  $0              $80,279                 $84,180
        5. (Less: Earned Revenue From the
                  Public)                           (1,675)                   0                (1,675)                 3,224
        6. Net Costs With the Public               $78,604                   $0               $78,604                $80,956
        7. Total Net Cost                          ($7,156)           ($52,086)               $44,930                $40,738
   D.   Ordnance
        1. Intragovernmental Gross Costs          $110,002             $23,663                $86,339               $188,675
        2. (Less: Intragovernmental Earned
                  Revenue)                       (581,305)             (66,480)              (514,825)             (502,785)
        3. Intragovernmental Net Costs          ($471,303)            ($42,817)            ($428,488)             ($314,110)
        4. Gross Costs With the Public             613,539                    0                613,539               462,950
        5. (Less: Earned Revenue From the
                  Public)                          (82,203)                   0              (82,203)              (105,090)
        6. Net Costs With the Public              $531,336                   $0             $531,336                $357,880
        7. Total Net Cost                          $60,033            ($42,817)             $102,850                 $43,750




                                                                                                                                   02
                                                                                                                                  fy

                                                                                                                                   281

                                                               The accompanying notes are an integral part of these statements.
                                                                          Consolidating Statement of Net Cost
                                                                                             Department of Defense • Department of the Army
                                                                                             For the years ended September 30, 2002 and 2001 ($ in thousands)

                                                                                                                                                           Combined Total     Eliminations         FY 2002        FY 2001
                                                                                             1. Program Costs
                                                                                                  E.    Supply Management
                                                                                                        1. Intragovernmental Gross Costs                        $1,464,865    $703,371          $761,494      $1,101,544
                                                                                                        2. (Less: Intragovernmental Earned
                                                                                                                  Revenue)                                    (5,748,765)     (438,700)        (5,310,065)    (4,326,754)
                                                                                                        3. Intragovernmental Net Costs                      ($4,283,900)      $264,671       ($4,548,571)    ($3,225,210)
                                                                                                        4. Gross Costs With the Public                        $4,808,356             $0        $4,808,356     $3,524,580
                                                                                                        5. (Less: Earned Revenue From the
                                                                                                                  Public)                                        (219,962)           0         (219,962)        (217,143)
                                                                                                        6. Net Costs With the Public                            $4,588,394          $0        $4,588,394      $3,307,437
                                                                                                        7. Total Net Cost                                        $304,494     $264,671           $39,823         $82,227
                                                                                                  F.    Total Program Costs
                                                                                                        1. Intragovernmental Gross Costs                        $2,612,359   $1,187,893       $1,424,466      $1,921,908
                                                                                                        2. (Less: Intragovernmental Earned
                                                                                                                  Revenue)                                    (8,037,800)    (1,187,894)      (6,849,906)     (5,740,467)
                                                                                                        3. Intragovernmental Net Costs                      ($5,425,441)            ($1)     ($5,425,440)    ($3,818,559)
   The accompanying notes are an integral part of these statements.




                                                                                                        4. Gross Costs With the Public                        $6,358,713              $0       $6,358,713     $4,304,235
                                                                                                        5. (Less: Earned Revenue From the
                                                                                                                  Public)                                        (345,171)             0      ($345,171)       (359,202)
                                                                                                        6. Net Costs With the Public                            $6,013,542            $0      $6,013,542      $3,945,033
                                                                                                        7. Total Net Cost                                        $588,101           ($1)        $588,102        $126,474

                                                                                             2. Cost Not Assigned to Programs                                           0               0               0              0

                                                                                             3. (Less:Earned Revenue Not                                                0               0               0              0
                                                                                                Attributable to Programs)

                                                                                             4. Net Cost of Operations                                           $588,101           ($1)        $588,102        $126,474
FY02 United States Army Annual Financial Statement
                                                                      Working Capital Fund




                    282
                                                     Consolidating Statement of Changes in Net Position
                                                                               Department of Defense • Department of the Army
                                                             For the years ended September 30, 2002 and 2001 ($ in thousands)


CUMULATIVE RESULTS OF OPERATIONS                            Depot Maintenance     Supply Management         Information Service

   Beginning Balances                                               $330,901             $10,615,159                ($19,545)
   Prior period adjustments (+/-)                                          0                       0                        0
   Beginning Balances, as adjusted                                  $330,901             $10,615,159                ($19,545)

Budgetary Financing Sources:
   Appropriations received                                                 0                        0                        0
   Appropriations transferred-in/out (+/-)                                 0                        0                        0
   Other adjustments (rescissions, etc) (+/-)                              0                        0                        0
   Appropriations used                                                 2,300                  172,417                      100
   Nonexchange revenue                                                 7,793                        0                        0
   Donations and forfeitures of cash and cash equivalents                  0                        0                        0
   Transfers-in/out without reimbursement (+/-)                            0                        0                        0
   Other budgetary financing sources (+/-)                           143,937                  113,295                        0

Other Financing Sources:
   Donations and forfeitures of property                                   0                       0                         0
   Transfers-in/out without reimbursement (+/-)                       25,942                 400,902                       625
   Imputed financing from costs absorbed by others                    69,270                  15,268                     2,694
   Other (+/-)                                                             0                       0                         0

Total Financing Sources                                            $249,242                $701,882                    $3,419
Net Cost of Operations (+/-)                                        230,224                 304,494                    (7,156)
Ending Balances                                                    $349,919              $11,012,547                 ($8,970)

UNEXPENDED APPROPRIATIONS
   Beginning Balances                                                       $0               $38,860                        $0
   Prior period adjustments (+/-)                                            0                     0                         0
   Beginning Balances, as adjusted                                          $0               $38,860                        $0

Budgetary Financing Sources:
       Appropriations received                                          2,300                 163,600                      100
       Appropriations transferred-in/out (+/-)                              0                       0                        0
       Other adjustments (rescissions, etc) (+/-)                           0                       0                        0
       Appropriations used                                            (2,300)               (172,417)                    (100)
       Nonexchange revenue                                                  0                       0                        0
       Donations and forfeitures of cash and cash equivalents               0                       0                        0
       Transfers-in/out without reimbursement (+/-)                         0                       0                        0
       Other budgetary financing sources (+/-)                              0                       0                        0

Other Financing Sources:
       Donations and forfeitures of property                                 0                        0                       0
       Transfers-in/out without reimbursement (+/-)                          0                        0                       0
       Imputed financing from costs absorbed by others                       0                        0                       0
       Other (+/-) total Financing Sources                                   0                        0                       0

Total Financing Sources                                                     $0               ($8,817)                       $0
Net Cost of Operations (+/-)
Ending Balances
                                                                             0
                                                                            $0               $30,043
                                                                                                    0                        0
                                                                                                                            $0      02
                                                                                                                                   fy

                                                                                                                                    283

                                                                The accompanying notes are an integral part of these statements.
                                                                          Consolidating Statement of Changes in Net Position
                                                                                             Department of Defense • Department of the Army
                                                                                             For the years ended September 30, 2002 and 2001 ($ in thousands)


                                                                                             CUMULATIVE RESULTS OF OPERATIONS                                      Ordnance   Component Level   Combined Total

                                                                                                  Beginning Balances                                              $405,745         $435,657      $11,767,917
                                                                                                  Prior period adjustments (+/-)                                         0                0                0
                                                                                                  Beginning Balances, as adjusted                                 $405,745         $435,657      $11,767,917

                                                                                             Budgetary Financing Sources:
                                                                                                  Appropriations received                                                0                 0               0
                                                                                                  Appropriations transferred-in/out (+/-)                                0                 0               0
                                                                                                  Other adjustments (rescissions, etc) (+/-)                             0                 0               0
                                                                                                  Appropriations used                                                1,400                 0         176,217
                                                                                                  Nonexchange revenue                                              162,246                 0         170,039
                                                                                                  Donations and forfeitures of cash and cash equivalents                 0                 0               0
                                                                                                  Transfers-in/out without reimbursement (+/-)                           0                 0               0
                                                                                                  Other budgetary financing sources (+/-)                         (54,433)                 0         202,799

                                                                                             Other Financing Sources:
   The accompanying notes are an integral part of these statements.




                                                                                                  Donations and forfeitures of property                                  0                 0               0
                                                                                                  Transfers-in/out without reimbursement (+/-)                   (275,880)          (77,241)          74,348
                                                                                                  Imputed financing from costs absorbed by others                   22,652                 0         109,884
                                                                                                  Other (+/-)                                                            0                 0               0

                                                                                             Total Financing Sources                                             ($144,015)        ($77,241)       $733,287
                                                                                             Net Cost of Operations (+/-)                                           60,033               506         588,101
                                                                                             Ending Balances                                                      $201,697         $357,910      $11,913,103

                                                                                             UNEXPENDED APPROPRIATIONS
                                                                                                  Beginning Balances                                                    $0                $0         $38,860
                                                                                                  Prior period adjustments (+/-)                                         0                 0               0
                                                                                                  Beginning Balances, as adjusted                                       $0                $0         $38,860

                                                                                             Budgetary Financing Sources:
                                                                                                        Appropriations received                                       1,400                0          167,400
                                                                                                        Appropriations transferred-in/out (+/-)                           0                0                0
                                                                                                        Other adjustments (rescissions, etc) (+/-)                        0                0                0
                                                                                                        Appropriations used                                         (1,400)                0        (176,217)
FY02 United States Army Annual Financial Statement




                                                                                                        Nonexchange revenue                                               0                0                0
                                                                                                        Donations and forfeitures of cash and cash equivalents            0                0                0
                                                                                                        Transfers-in/out without reimbursement (+/-)                      0                0                0
                                                                      Working Capital Fund




                                                                                                        Other budgetary financing sources (+/-)                           0                0                0

                                                                                             Other Financing Sources:
                                                                                                        Donations and forfeitures of property                            0                 0                0
                                                                                                        Transfers-in/out without reimbursement (+/-)                     0                 0                0
                                                                                                        Imputed financing from costs absorbed by others                  0                 0                0
                                                                                                        Other (+/-) total Financing Sources                              0                 0                0

                                                                                             Total Financing Sources                                                    $0                $0         ($8,817)
                                                                                             Net Cost of Operations (+/-)                                                0                 0                0
                                                                                             Ending Balances                                                            $0                $0         $30,043
                    284
                                                     Consolidating Statement of Changes in Net Position
                                                                              Department of Defense • Department of the Army
                                                            For the years ended September 30, 2002 and 2001 ($ in thousands)


CUMULATIVE RESULTS OF OPERATIONS                                  Eliminations      2002 Consolidated        2001 Consolidated

   Beginning Balances                                                       $0           $11,767,917             $11,849,314
   Prior period adjustments (+/-)                                            0                     0               1,463,816
   Beginning Balances, as adjusted                                          $0           $11,767,917             $13,313,130

Budgetary Financing Sources:
   Appropriations received                                                   0                     0                        0
   Appropriations transferred-in/out (+/-)                                   0                     0                        0
   Other adjustments (rescissions, etc) (+/-)                                0                     0                        0
   Appropriations used                                                       0               176,217                   29,082
   Nonexchange revenue                                                       0               170,039                        0
   Donations and forfeitures of cash and cash equivalents                    0                     0                        0
   Transfers-in/out without reimbursement (+/-)                              0                     0                        0
   Other budgetary financing sources (+/-)                                   0               202,799              (1,558,924)

Other Financing Sources:
   Donations and forfeitures of property                                     0                     0                        0
   Transfers-in/out without reimbursement (+/-)                              0                74,348                    6,073
   Imputed financing from costs absorbed by others                           0               109,884                  105,030
   Other (+/-)                                                               0                     0                        0

Total Financing Sources                                                    $0              $733,287             ($1,418,739)
Net Cost of Operations (+/-)                                               (1)               588,102                 126,474
Ending Balances                                                            $1            $11,913,102             $11,767,917

UNEXPENDED APPROPRIATIONS
   Beginning Balances                                                       $0               $38,860                  $55,990
   Prior period adjustments (+/-)                                            0                     0                        0
   Beginning Balances, as adjusted                                          $0               $38,860                  $55,990

Budgetary Financing Sources:
       Appropriations received                                               0                167,400                 (17,130)
       Appropriations transferred-in/out (+/-)                               0                      0                        0
       Other adjustments (rescissions, etc) (+/-)                            0                      0                        0
       Appropriations used                                                   0              (176,217)                        0
       Nonexchange revenue                                                   0                      0                        0
       Donations and forfeitures of cash and cash equivalents                0                      0                        0
       Transfers-in/out without reimbursement (+/-)                          0                      0                        0
       Other budgetary financing sources (+/-)                               0                      0                        0

Other Financing Sources:
       Donations and forfeitures of property                                 0                        0                       0
       Transfers-in/out without reimbursement (+/-)                          0                        0                       0
       Imputed financing from costs absorbed by others                       0                        0                       0
       Other (+/-) total Financing Sources                                   0                        0                       0

Total Financing Sources                                                     $0               ($8,817)                ($17,130)
Net Cost of Operations (+/-)
Ending Balances
                                                                             0
                                                                            $0               $30,043
                                                                                                    0
                                                                                                                      $38,860
                                                                                                                             0
                                                                                                                                    02
                                                                                                                                   fy

                                                                                                                                    285

                                                                The accompanying notes are an integral part of these statements.
                                                                          Combining Statement of Budgetary Resources
                                                                                             Department of Defense • Department of the Army
                                                                                             For the years ended September 30, 2002 and 2001 ($ in thousands)

                                                                                                                                                                                       Depot                         Supply
                                                                                                                                                                                Maintenance                    Management
                                                                                                                                                                              Non-Budgetary                  Non-Budgetary
                                                                                                                                                                      Depot   Credit Program       Supply    Credit Program
                                                                                                                                                                Maintenance        Financing   Management         Financing
                                                                                             Budgetary Resources:                                                Budgetary          Accounts     Budgetary         Accounts
                                                                                                  A.    Budget Authority:
                                                                                                        Appropriations received                                     $2,300               $0      $163,600               $0
                                                                                                        Borrowing authority                                              0                0             0                0
                                                                                                        Contract authority                                             704                0        63,691                0
                                                                                                        Net transfers (+/-)                                              0                0             0                0
                                                                                                        Other                                                            0                0             0                0
                                                                                                  B.    Unobligated balance:
                                                                                                        Beginning of period                                      1,029,150                0         6,765                0
                                                                                                        Net transfers, actual (+/-)                                      0                0             0                0
                                                                                                        Anticipated Transfers Balances                                   0                0             0                0
                                                                                                  C.    Spending authority from offsetting collections:
                                                                                                        Earned
                                                                                                              Collected                                          1,743,501                0     3,465,603                0
                                                                                                              Receivable from Federal sources                     (69,580)                0        14,913                0
   The accompanying notes are an integral part of these statements.




                                                                                                        Change in unfilled customer orders
                                                                                                              Advance received                                      (8,915)               0          (980)               0
                                                                                                              Without advance from Federal sources                  22,674                0       214,571                0
                                                                                                        Anticipated for the rest of year, without advances                0               0              0               0
                                                                                                        Transfers from trust funds                                        0               0              0               0
                                                                                                        Subtotal                                                $1,687,680               $0    $3,694,107               $0
                                                                                                  D.    Recoveries of prior year obligations                         5,539                0       389,249                0
                                                                                                  E.    Temporarily not available pursuant to Public Law                  0               0              0               0
                                                                                                  F     Permanently not available                                         0               0              0               0
                                                                                                  G     Total Budgetary Resources                               $2,725,373               $0     $4,317,412              $0

                                                                                             Status of Budgetary Resources:
                                                                                                  H.    Obligations incurred:
                                                                                                        Direct                                                      $2,300               $0      $167,852               $0
                                                                                                        Reimbursable                                             1,739,157                0     4,148,454                0
                                                                                                        Subtotal                                                 1,741,457                0     4,316,306                0
                                                                                                  I.    Unobligated balance:
                                                                                                        Apportioned                                                983,916                0         1,106                0
                                                                                                        Exempt from apportionment                                        0                0             0                0
                                                                                                        Other available                                                  0                0             0                0
                                                                                                  J.    Unobligated Balances Not Available                               0                0             0                0
                                                                                                  K.    Total, Status of Budgetary Resources                    $2,725,373               $0    $4,317,412               $0
FY02 United States Army Annual Financial Statement




                                                                                             Relationship of Obligations to Outlays:
                                                                                                                                                                 ($317,292)              $0
                                                                      Working Capital Fund




                                                                                                  L.    Obligated Balance, Net - beginning of period                                           $1,805,600               $0
                                                                                                  M.    Obligated Balance transferred, net (+/-)                          0               0             0                0
                                                                                                  N.    Obligated Balance, Net - end of period:
                                                                                                        Accounts receivable                                       (61,487)                0      (133,787)               0
                                                                                                        Unfilled customer order from Federal sources             (640,470)                0    (1,297,222)               0
                                                                                                        Undelivered orders                                         268,603                0     2,375,733                0
                                                                                                        Accounts payable                                           136,057                0        603,675               0
                                                                                                  O.    Outlays:
                                                                                                        Disbursements                                             1,762,828               0      3,954,775               0
                                                                                                        Collections                                             (1,734,586)               0    (3,464,623)               0
                                                                                                        Subtotal                                                    $28,242              $0       $490,152              $0
                                                                                                  P.    Less: Offsetting receipts                                         0               0              0               0
                                                                                                  Q.    Net Outlays                                                 $28,242              $0       $490,152              $0
                    286
                                                                    Combining Statement of Budgetary Resources
                                                                                           Department of Defense • Department of the Army
                                                                         For the years ended September 30, 2002 and 2001 ($ in thousands)

                                                                                       Information
                                                                                     Service Guard                                  Ordnance
                                                                                    Non-Budgetary                              Non-Budgetary
                                                               Information          Credit Program                             Credit Program
                                                             Service Guard               Financing           Ordnance               Financing
Budgetary Resources:                                            Budgetary                 Accounts           Budgetary               Accounts
   A.   Budget Authority:
        Appropriations received                                     $100                       $0              $1,400                     $0
        Borrowing authority                                            0                        0                   0                      0
        Contract authority                                             0                        0               2,212                      0
        Net transfers (+/-)                                            0                        0                   0                      0
        Other                                                          0                        0                   0                      0
   B.   Unobligated balance:
        Beginning of period                                        5,454                        0            364,078                       0
        Net transfers, actual (+/-)                                    0                        0                  0                       0
        Anticipated Transfers Balances                                 0                        0                  0                       0
   C.   Spending authority from offsetting collections:
        Earned
              Collected                                          100,908                        0            835,668                       0
              Receivable from Federal sources                      4,339                        0             (4,983)                      0
        Change in unfilled customer orders
              Advance received                                        24                        0             138,777                      0
              Without advance from Federal sources               (5,326)                        0            (54,686)                      0
        Anticipated for the rest of year, without advances             0                        0                   0                      0
        Transfers from trust funds                                     0                        0                   0                      0
        Subtotal                                                 99,945                         0             914,776                      0
   D.   Recoveries of prior year obligations                           0                        0               9,111                      0
   E.   Temporarily not available pursuant to Public Law               0                        0                   0                      0
   F    Permanently not available                                      0                        0                   0                      0
   G    Total Budgetary Resources                              $105,499                        $0         $1,291,577                      $0


Status of Budgetary Resources:
   H.   Obligations incurred:
        Direct                                                      $100                       $0             $1,400                      $0
        Reimbursable                                              65,433                        0            706,917                       0
        Subtotal                                                 $65,533                       $0           $708,317                      $0
   I.   Unobligated balance:
        Apportioned                                              39,966                         0            583,260                       0
        Exempt from apportionment                                     0                         0                  0                       0
        Other available                                               0                         0                  0                       0
   J.   Unobligated Balances Not Available                            0                         0                  0                       0
   K.   Total, Status of Budgetary Resources                   $105,499                        $0         $1,291,577                      $0


Relationship of Obligations to Outlays:
   L.   Obligated Balance, Net - beginning of period              $6,291                       $0          ($255,641)                     $0
   M.   Obligated Balance transferred, net (+/-)                       0                        0                   0                      0
   N.   Obligated Balance, Net - end of period:
        Accounts receivable                                       (9,234)                       0             (38,410)                     0
        Unfilled customer order from Federal sources             (37,885)                       0           (324,885)                      0
        Undelivered orders                                          2,260                       0             123,406                      0
        Accounts payable                                           16,035                       0               43,158                     0
   O.   Outlays:
        Disbursements                                            101,633                        0            699,966                       0
        Collections                                            (100,931)                        0           (974,445)                      0
        Subtotal                                                   $702                        $0          ($274,479)                     $0
   P.
   Q.
        Less: Offsetting receipts
        Net Outlays                                                $702
                                                                       0                        0
                                                                                               $0
                                                                                                                    0
                                                                                                           ($274,479)
                                                                                                                                           0
                                                                                                                                          $0     02
                                                                                                                                                fy

                                                                                                                                                 287

                                                                             The accompanying notes are an integral part of these statements.
                                                                          Combining Statement of Budgetary Resources
                                                                                             Department of Defense • Department of the Army
                                                                                             For the years ended September 30, 2002 and 2001 ($ in thousands)

                                                                                                                                                                                    Component Level
                                                                                                                                                                                      Non-Budgetary
                                                                                                                                                                Component Level       Credit Program   FY 2002 Combined
                                                                                             Budgetary Resources:                                                    Budgetary    Financing Accounts           Budgetary
                                                                                                  A.   Budget Authority:
                                                                                                       Appropriations received                                              $0                   $0           $167,400
                                                                                                       Borrowing authority                                                   0                    0                  0
                                                                                                       Contract authority                                                    0                    0             66,607
                                                                                                       Net transfers (+/-)                                                   0                    0                  0
                                                                                                       Other                                                                 0                    0                  0
                                                                                                  B.   Unobligated balance:
                                                                                                       Beginning of period                                            100,000                     0          1,505,447
                                                                                                       Net transfers, actual (+/-)                                          0                     0                  0
                                                                                                       Anticipated Transfers Balances                                       0                     0                  0
                                                                                                  C.   Spending authority from offsetting collections:
                                                                                                       Earned
                                                                                                             Collected                                                   (186)                    0          6,145,494
                                                                                                             Receivable from Federal sources                               186                    0            (55,125)
                                                                                                       Change in unfilled customer orders
                                                                                                             Advance received                                               0                     0            128,906
   The accompanying notes are an integral part of these statements.




                                                                                                             Without advance from Federal sources                           0                     0            177,233
                                                                                                       Anticipated for the rest of year, without advances                   0                     0                  0
                                                                                                       Transfers from trust funds                                           0                     0                  0
                                                                                                       Subtotal                                                            $0                    $0         $6,396,508
                                                                                                  D.   Recoveries of prior year obligations                                 0                     0            403,899
                                                                                                  E.   Temporarily not available pursuant to Public Law                     0                     0                  0
                                                                                                  F    Permanently not available                                            0                     0                  0
                                                                                                  G    Total Budgetary Resources                                     $100,000                    $0         $8,539,861

                                                                                             Status of Budgetary Resources:
                                                                                                  H.   Obligations incurred:
                                                                                                       Direct                                                               $0                   $0           $171,652
                                                                                                       Reimbursable                                                          0                    0          6,659,961
                                                                                                       Subtotal                                                             $0                   $0         $6,831,613
                                                                                                  I.   Unobligated balance:
                                                                                                       Apportioned                                                    100,000                     0          1,708,248
                                                                                                       Exempt from apportionment                                            0                     0                  0
                                                                                                       Other available                                                      0                     0                  0
                                                                                                  J.   Unobligated Balances Not Available                                   0                     0                  0
                                                                                                  K.   Total, Status of Budgetary Resources                          $100,000                    $0         $8,539,861
FY02 United States Army Annual Financial Statement




                                                                                             Relationship of Obligations to Outlays:
                                                                                                  L.   Obligated Balance, Net - beginning of period                 ($109,469)                   $0         $1,129,489
                                                                                                  M.   Obligated Balance transferred, net (+/-)                              0                    0                  0
                                                                      Working Capital Fund




                                                                                                  N.   Obligated Balance, Net - end of period:
                                                                                                       Accounts receivable                                             (37,286)                   0          (280,204)
                                                                                                       Unfilled customer order from Federal sources                           0                   0        (2,300,462)
                                                                                                       Undelivered orders                                                     0                   0          2,770,002
                                                                                                       Accounts payable                                               (69,594)                    0            729,331
                                                                                                  O.   Outlays:
                                                                                                       Disbursements                                                    (2,774)                   0           6,516,428
                                                                                                       Collections                                                          186                   0         (6,274,399)
                                                                                                       Subtotal                                                       ($2,588)                   $0           $242,029
                                                                                                  P.   Less: Offsetting receipts                                              0                   0                   0
                                                                                                  Q.   Net Outlays                                                    ($2,588)                   $0           $242,029


                    288
                                                             Combining Statement of Budgetary Resources
                                                                                   Department of Defense • Department of the Army
                                                                 For the years ended September 30, 2002 and 2001 ($ in thousands)

                                                              FY 2002 Combined                                    FY 2001 Combined
                                                                 Non-Budgetary                                       Non-Budgetary
                                                                 Credit Program        FY 2001 Combined              Credit Program
Budgetary Resources:                                         Financing Accounts                Budgetary         Financing Accounts
   A.   Budget Authority:
        Appropriations received                                             $0                  $11,952                         $0
        Borrowing authority                                                  0                        0                          0
        Contract authority                                                   0                  809,853                          0
        Net transfers (+/-)                                                  0                        0                          0
        Other                                                                0                        0                          0
   B.   Unobligated balance:
        Beginning of period                                                  0                1,352,632                          0
        Net transfers, actual (+/-)                                          0                    6,100                          0
        Anticipated Transfers Balances                                       0                        0                          0
   C.   Spending authority from offsetting collections:
        Earned
              Collected                                                      0                5,920,104                          0
              Receivable from Federal sources                                0                 (88,265)                          0
        Change in unfilled customer orders
              Advance received                                               0                   24,505                          0
              Without advance from Federal sources                           0                (721,912)                          0
        Anticipated for the rest of year, without advances                   0                        0                          0
        Transfers from trust funds                                           0                        0                          0
        Subtotal                                                             0                5,134,432                          0
   D.   Recoveries of prior year obligations                                 0                  196,060                          0
   E.   Temporarily not available pursuant to Public Law                     0                        0                          0
   F    Permanently not available                                            0                        0                          0
   G    Total Budgetary Resources                                           $0               $7,511,059                         $0

Status of Budgetary Resources:
   H.   Obligations incurred:
        Direct                                                              $0                ($717,549)                        $0
        Reimbursable                                                         0                 6,723,163                         0
        Subtotal                                                            $0               $6,005,614                         $0
   I.   Unobligated balance:
        Apportioned                                                          0               1,505,447                           0
        Exempt from apportionment                                            0                         0                         0
        Other available                                                      0                       (2)                         0
   J.   Unobligated Balances Not Available                                   0                         0                         0
   K.   Total, Status of Budgetary Resources                                $0               $7,511,059                         $0


Relationship of Obligations to Outlays:
   L.   Obligated Balance, Net - beginning of period                         0                  821,673                          0
   M.   Obligated Balance transferred, net (+/-)                             0                        0                          0
   N.   Obligated Balance, Net - end of period:
        Accounts receivable                                                  0                (335,328)                          0
        Unfilled customer order from Federal sources                         0              (2,123,227)                          0
        Undelivered orders                                                   0               2,995,646                           0
        Accounts payable                                                     0                  592,401                          0
   O.   Outlays:
        Disbursements                                                        0                6,311,883                          0
        Collections                                                          0              (5,944,608)                          0
        Subtotal                                                            $0                 $367,275                         $0
   P.   Less: Offsetting receipts                                            0                        0                          0
   Q.   Net Outlays                                                         $0                 $367,275                         $0
                                                                                                                                       02
                                                                                                                                      fy

                                                                                                                                       289

                                                                   The accompanying notes are an integral part of these statements.
                                                                          Combining Statement of Financing
                                                                                             Department of Defense • Department of the Army
                                                                                             For the years ended September 30, 2002 and 2001 ($ in thousands)

                                                                                                                                                                      Depot       Supply    Information
                                                                                             Resources Used to Finance Activities:                              Maintenance   Management        Service     Ordnance


                                                                                             Budgetary Resources Obligated
                                                                                                  1.    Obligations incurred                                    $1,741,457    $4,316,306     $65,533       $708,317
                                                                                                  2.    Less: Spending authority from offsetting
                                                                                                        collections and recoveries (-)                          (1,693,220)   (4,083,355)    (99,945)      (923,887)
                                                                                                  3.    Obligations net of offsetting collections and
                                                                                                        recoveries                                                 $48,237     $232,951     ($34,412)     ($215,570)
                                                                                                  4.    Less: Offsetting receipts (-)                                    0            0             0              0
                                                                                                  5.    Net obligations                                            $48,237     $232,951     ($34,412)     ($215,570)

                                                                                             Other Resources
                                                                                                  6.  Donations and forfeitures of property                              0             0            0             0
                                                                                                  7.  Transfers in/out without reimbursement (+/-)                       0             0            0             0
                                                                                                  8.  Imputed financing from costs absorbed                         69,270        15,268        2,694        22,652
                                                                                                      by others                                                         $0            $0           $0            $0
   The accompanying notes are an integral part of these statements.




                                                                                                  9. Other (+/-)                                                   $69,270       $15,268       $2,694       $22,652
                                                                                                  10. Net other resources used to finance activities

                                                                                             11. Total resources used to finance activities                       $117,507      $248,219    ($31,718)     ($192,918)

                                                                                             Resources Used to Finance Items not Part of
                                                                                             the Net Cost of Operations
                                                                                                  12. Change in budgetary resources obligated for
                                                                                                      goods, services and benefits ordered but not
                                                                                                      yet provided
                                                                                                      Undelivered Orders (-)                                        33,920       201,079      26,895         (2,688)
                                                                                                      Unfilled Customer Orders                                      13,760       213,590      (5,302)        84,091
                                                                                                  13. Resources that fund expenses recognized in                                       0            0        (1,649)
                                                                                                      prior periods                                                 (2,484)
                                                                                                  14. Budgetary offsetting collections and receipts
                                                                                                      that do not affect net cost of operations                          0             0             0            0
                                                                                                  15. Resources that finance the acquisition of
                                                                                                      assets                                                       157,287     (686,348)             0      190,803
FY02 United States Army Annual Financial Statement




                                                                                                  16. Other resources or adjustments to net
                                                                                                      obligated resources that do not affect net
                                                                      Working Capital Fund




                                                                                                      cost of operations
                                                                                                      Less: Trust or Special Fund Receipts
                                                                                                      Related to Exchange in the Entity's Budget (-)                     0             0             0            0
                                                                                                      Other (+/-)                                                        0             0             0            0

                                                                                             17. Total resources used to finance items
                                                                                                 not part of the net cost of operations                          $202,483     ($271,629)     $21,593       $270,557

                                                                                             18. Total resources used to finance the net
                                                                                                 cost of operations                                               $319,990     ($23,460)    ($10,125)       $77,639

                    290
                                                                            Combining Statement of Financing
                                                                                Department of Defense • Department of the Army
                                                              For the years ended September 30, 2002 and 2001 ($ in thousands)


Components of the Net Cost of Operations                     Depot            Supply            Information
                                                       Maintenance        Management                Service           Ordnance
that will not Require or Generate Resources
in the Current Period:

Components Requiring or Generating
Resources in Future Periods:
   19. Increase in annual leave liability                   1,420                    0                (57)                 848
   20. Increase in environmental and disposal
       liability                                                0                    0                    0                   0
   21. Upward/Downward reestimates of credit
       subsidy expense (+/-)                                    0                    0                    0                   0
   22. Increase in exchange revenue receivable
       from the public (-)                                      0                    0                    0                  0
   23. Other (+/-)                                            910                    0                    0                218
   24. Total components of Net Cost of Operations
       that will require or generate resources in
       future periods                                     $2,330                    $0               ($57)             $1,066

Components not Requiring or Generating
Resources:
   25.   Depreciation and amortization                     54,332             25,808                  127               24,798
   26.   Revaluation of assets or liabilities (+/-)     (150,973)            302,148                    0             (43,472)
   27.   Other (+/-)                                        4,546                  0                2,899                    0
   28.   Total components of Net Cost of Operations
         that will not require or generate resources    ($92,095)           $327,956               $3,026            ($18,674)

29. Total components of net cost of
    operations that will not require or
    generate resources in the current period            ($89,765)           $327,956               $2,969            ($17,608)

30. Net Cost of Operations                              $230,225           $304,496               ($7,156)            $60,031




                                                                                                                                    02
                                                                                                                                   fy

                                                                                                                                    291

                                                                The accompanying notes are an integral part of these statements.
                                                                          Combining Statement of Financing
                                                                                             Department of Defense • Department of the Army
                                                                                             For the years ended September 30, 2002 and 2001 ($ in thousands)

                                                                                                                                                                Component       FY 2002        FY 2001
                                                                                             Resources Used to Finance Activities:                                  Level     Combined       Combined


                                                                                             Budgetary Resources Obligated
                                                                                                  1.   Obligations incurred                                           $0    $6,831,613     $6,005,613
                                                                                                  2.   Less: Spending authority from offsetting
                                                                                                       collections and recoveries (-)                                  0    (6,800,407)    (5,330,521)
                                                                                                  3.   Obligations net of offsetting collections and
                                                                                                       recoveries                                                     $0       $31,206       $675,092
                                                                                                  4.   Less: Offsetting receipts (-)                                   0             0              0
                                                                                                  5.   Net obligations                                                $0       $31,206       $675,092

                                                                                             Other Resources
                                                                                                  6.  Donations and forfeitures of property                            0             0              0
                                                                                                  7.  Transfers in/out without reimbursement (+/-)                     0             0              0
                                                                                                  8.  Imputed financing from costs absorbed by
                                                                                                      others                                                           0       109,884        105,030
   The accompanying notes are an integral part of these statements.




                                                                                                  9. Other (+/-)                                                       0             0              0
                                                                                                  10. Net other resources used to finance activities                  $0      $109,884       $105,030

                                                                                             11. Total resources used to finance activities                           $0      $141,090       $780,122

                                                                                             Resources Used to Finance Items not Part of
                                                                                             the Net Cost of Operations
                                                                                                  12. Change in budgetary resources obligated for
                                                                                                      goods, services and benefits ordered but not
                                                                                                      yet provided
                                                                                                      Undelivered Orders (-)                                           0       259,206        365,539
                                                                                                      Unfilled Customer Orders                                         0       306,139       (697,406)
                                                                                                  13. Resources that fund expenses recognized in
                                                                                                      prior periods                                                    0        (4,133)        (4,377)
                                                                                                  14. Budgetary offsetting collections and receipts
                                                                                                      that do not affect net cost of operations                        0             0              0
                                                                                                  15. Resources that finance the acquisition of
                                                                                                      assets                                                           0     (338,258)     (2,660,662)
FY02 United States Army Annual Financial Statement




                                                                                                  16. Other resources or adjustments to net obligated
                                                                                                      resources that do not affect net cost of
                                                                      Working Capital Fund




                                                                                                      operations
                                                                                                      Less: Trust or Special Fund Receipts Related
                                                                                                      to Exchange in the Entity's Budget (-)                           0             0               0
                                                                                                      Other (+/-)                                                      0             0        (71,152)

                                                                                             17. Total resources used to finance items not
                                                                                                 part of the net cost of operations                                   $0     $222,954     ($3,068,058)

                                                                                             18. Total resources used to finance the net
                                                                                                 cost of operations                                                   $0     $364,044     ($2,287,936)

                    292
                                                                           Combining Statement of Financing
                                                                             Department of Defense • Department of the Army
                                                           For the years ended September 30, 2002 and 2001 ($ in thousands)


Components of the Net Cost of Operations that               Component                     FY 2002                   FY 2001
                                                                Level                   Combined                  Combined
will not Require or Generate Resources in the
Current Period:

Components Requiring or Generating
Resources in Future Periods:
   19. Increase in annual leave liability                              0                    2,211                          0
   20. Increase in environmental and disposal liability                0                        0                          0
   21. Upward/Downward reestimates of credit
       subsidy expense (+/-)                                           0                         0                         0
   22. Increase in exchange revenue receivable from
       the public (-)                                                  0                        0                         0
   23. Other (+/-)                                                     0                    1,128                    16,675
   24. Total components of Net Cost of Operations
       that will require or generate resources in future
       periods                                                       $0                   $3,339                   $16,675

Components not Requiring or Generating
Resources:                                                          $0                 $105,065                    $85,460
   25.   Depreciation and amortization                               0                  107,703                  1,588,075
   26.   Revaluation of assets or liabilities (+/-)                506                    7,951                    484,690
   27.   Other (+/-)
   28.   Total components of Net Cost of Operations               $506                 $220,719                $2,158,225
         that will not require or generate resources

29. Total components of net cost of operations
    that will not require or generate resources                   $506                 $224,058                 $2,174,900
    in the current period
                                                                  $506                 $588,102                 ($113,036)
30. Net Cost of Operations




                                                                                                                                 02
                                                                                                                                fy

                                                                                                                                 293

                                                             The accompanying notes are an integral part of these statements.
                                                                          Statement of Disaggregated Budgetary Resources
                                                                                             Department of Defense • Department of the Army
                                                                                             For the years ended September 30, 2002 and 2001 ($ in thousands)                                Budgetary Financing Accounts

                                                                                                                                                                Working Capital
                                                                                             BUDGETARY RESOURCES                                                         Funds    FY 2002 Combined       FY 2001 Combined
                                                                                             A. Budget Authority:
                                                                                                  1.    Appropriations received                                    $167,400             $167,400                $11,952
                                                                                                  2.    Borrowing authority                                               0                    0                      0
                                                                                                  3.    Contract authority                                           66,608               66,608                809,853
                                                                                                  4.    Net transfers (+/-)                                               0                    0                      0
                                                                                                  5.    Other                                                             0                    0                      0

                                                                                             B. Unobligated balance:                                              1,505,446           1,505,446               1,352,634
                                                                                                  4.    Beginning of period                                               0                   0                   6,100
                                                                                                  5.    Net transfers, actual (+/-)                                       0                   0                       0
                                                                                                  6.    Anticipated Transfers Balances                                    0                   0                       0

                                                                                             C. Spending authority from offsetting
                                                                                                collections:                                                              0                    0                     0
                                                                                                  7.    Earned                                                   6,145,494            6,145,494              5,920,103
   The accompanying notes are an integral part of these statements.




                                                                                                  8.    Collected                                                  (55,125)             (55,125)              (88,266)
                                                                                                  9.    Receivable from Federal sources                                   0                    0                     0
                                                                                                  10.   Change in unfilled customer orders                         128,906              128,906                 24,506
                                                                                                  11.   Advance received                                            177,233              177,233             (721,912)
                                                                                                  12.   Anticipated for the rest of year, without advances                0                    0                     0
                                                                                                  13.   Transfers from trust funds                                        0                    0                     0
                                                                                                  14.   Subtotal                                                $6,396,508           $6,396,508             $5,134,431

                                                                                             D. Recoveries of prior year obligations                                403,899             403,899                 196,089

                                                                                             E. Temporarily not available pursuant to Public
                                                                                                Law                                                                          0                  0                       0

                                                                                             F.   Permanently not available                                                  0                  0                       0

                                                                                             G. Total Budgetary Resources                                       $8,539,861           $8,539,861              $7,511,059

                                                                                             STATUS OF BUDGETARY RESOURCES
FY02 United States Army Annual Financial Statement




                                                                                             A. Obligations incurred:
                                                                                                  15. Direct                                                      $171,652             $171,652              ($717,550)
                                                                      Working Capital Fund




                                                                                                  16. Reimbursable                                               6,659,961            6,659,961               6,723,162
                                                                                                  17 Subtotal                                                   $6,831,613           $6,831,613             $6,005,613

                                                                                             B. Unobligated balance:
                                                                                                  18. Apportioned                                                 1,708,248           1,708,248               1,505,446
                                                                                                  19. Exempt from apportionment                                           0                   0                       0
                                                                                                  20. Other available                                                     0                   0                       0

                                                                                             C. Unobligated Balances Not Available                                           0                  0                       0

                                                                                             D. Total, Status of Budgetary Resources                            $8,539,861           $8,539,861              $7,511,059
                    294
                                                          Statement of Disaggregated Budgetary Resources
                                                                                 Department of Defense • Department of the Army
Budgetary Financing Accounts                                   For the years ended September 30, 2002 and 2001 ($ in thousands)

                                                                Working Capital
Relationship of Obligations to Outlays:                                  Funds        FY 2002 Combined          FY 2001 Combined
A. Obligated Balance, Net beginning of period                   $1,129,490                $1,129,490                 $821,672

B. Obligated Balance transferred, net (+/-)                                  0                        0                        0

C. Obligated Balance, Net end of period:
     21.   Accounts receivable                                    (280,204)                (280,204)                 (335,329)
     22.   Unfilled customer order from Federal sources         (2,300,462)              (2,300,462)               (2,123,229)
     23.   Undelivered orders                                     2,770,002                2,770,002                2,995,646
     24.   Accounts payable                                         729,330                  729,330                  592,4001

D. Outlays:
     25. Disbursements                                            6,516,428                6,516,428                 6,311,883
     26. Collections                                            (6,274,400)              (6,274,400)               (5,944,609)
     27. Subtotal                                                 $242,028                 $242,028                   $367,275

E. Less: Offsetting receipts                                                 0                        0                        0

F.   Net Outlays                                                   $242,028                 $242,028                  $367,275




                                                                                                                                     02
                                                                                                                                    fy

                                                                                                                                     295

                                                                 The accompanying notes are an integral part of these statements.
                                                                          Statement of Disaggregated Budgetary Resources
                                                                                             Department of Defense • Department of the Army
                                                                                             For the years ended September 30, 2002 and 2001 ($ in thousands)                    Non-Budgetary Financing Accounts

                                                                                                                                                                     Working      FY 2002                 FY 2001
                                                                                             BUDGETARY RESOURCES                                                Capital Funds   Combined                Combined
                                                                                             A. Budget Authority:
                                                                                                  1.    Appropriations received                                          $0           $0                      $0
                                                                                                  2.    Borrowing authority                                               0            0                       0
                                                                                                  3.    Contract authority                                                0            0                       0
                                                                                                  4.    Net transfers (+/-)                                               0            0                       0
                                                                                                  5.    Other                                                             0            0                       0

                                                                                             B. Unobligated balance:                                                       0           0                        0
                                                                                                  4.    Beginning of period                                                0           0                        0
                                                                                                  5.    Net transfers, actual (+/-)                                        0           0                        0
                                                                                                  6.    Anticipated Transfers Balances                                     0           0                        0

                                                                                             C. Spending authority from offsetting
                                                                                                collections:                                                              0            0                       0
                                                                                                  7.    Earned                                                            0            0                       0
   The accompanying notes are an integral part of these statements.




                                                                                                  8.    Collected                                                         0            0                       0
                                                                                                  9.    Receivable from Federal sources                                   0            0                       0
                                                                                                  10.   Change in unfilled customer orders                                0            0                       0
                                                                                                  11.   Advance received                                                  0            0                       0
                                                                                                  12.   Anticipated for the rest of year, without advances                0            0                       0
                                                                                                  13.   Transfers from trust funds                                        0            0                       0
                                                                                                  14.   Subtotal                                                         $0           $0                      $0

                                                                                             D. Recoveries of prior year obligations                                       0           0                        0

                                                                                             E. Temporarily not available pursuant to Public
                                                                                                Law                                                                        0           0                        0

                                                                                             F.   Permanently not available                                                0           0                        0

                                                                                             G. Total Budgetary Resources                                                $0           $0                      $0

                                                                                             STATUS OF BUDGETARY RESOURCES
FY02 United States Army Annual Financial Statement




                                                                                             A. Obligations incurred:
                                                                                                  15. Direct                                                             $0           $0                      $0
                                                                      Working Capital Fund




                                                                                                  16. Reimbursable                                                        0            0                       0
                                                                                                  17 Subtotal                                                            $0           $0                      $0

                                                                                             B. Unobligated balance:
                                                                                                  18. Apportioned                                                          0           0                        0
                                                                                                  19. Exempt from apportionment                                            0           0                        0
                                                                                                  20. Other available                                                      0           0                        0

                                                                                             C. Unobligated Balances Not Available                                         0           0                        0

                                                                                             D. Total, Status of Budgetary Resources                                     $0           $0                      $0
                    296
                                                          Statement of Disaggregated Budgetary Resources
                                                                                 Department of Defense • Department of the Army
Non-Budgetary Financing Accounts                               For the years ended September 30, 2002 and 2001 ($ in thousands)

                                                                    Working                   FY 2002                    FY 2001
Relationship of Obligations to Outlays:                        Capital Funds                Combined                   Combined
A. Obligated Balance, Net beginning of period                           $0                         $0                         $0

B. Obligated Balance transferred, net (+/-)                               0                         0                          0

C. Obligated Balance, Net end of period:
     21.   Accounts receivable                                            0                         0                          0
     22.   Unfilled customer order from Federal sources                   0                         0                          0
     23.   Undelivered orders                                             0                         0                          0
     24.   Accounts payable                                               0                         0                          0

D. Outlays:
     25. Disbursements                                                   0                          0                          0
     26. Collections                                                     0                          0                          0
     27. Subtotal                                                       $0                         $0                         $0

E. Less: Offsetting receipts                                              0                         0                          0

F.   Net Outlays                                                        $0                         $0                         $0




                                                                                                                                     02
                                                                                                                                    fy

                                                                                                                                     297

                                                                 The accompanying notes are an integral part of these statements.
                                                                            Schedule, Part A DoD Intra-governmental      Treasury     Fund Balance     Accounts      Loans
                                                                            Asset Balances ($ Amounts in Thousands)        Index      with Treasury   Receivable Receivable   Investments   Other

                                                                            Department of Agriculture                       12                            $200

                                                                            Department of the Interior                      14                              $12

                                                                            Department of Justice                           15                              $69

                                                                            Navy General Fund                               17                           $4,802

                                                                            US Postal Service                               18                               $1

                                                                            Department of State                             19                            $102

                                                                            Department of the Treasury                      20           $251,030           $14

                                                                            Army General Fund                              21                         $197,098                               $48

                                                                            General Service Administration                  47                           $1,423

                                                                            Air Force General Fund                          57                           $1,004

                                                                            Federal Emergency Management Agency             58                           $1,156

                                                                            Department of Transportation                    69                              $97

                                                                            Department of Health and Human Services         75                              $98

                                                                            National Aeronautics and Space
                                                                            Administration                                 80                             $167

                                                                            Department of Energy                           89                               $29

                                                                            US Army Corps of Engineers                     96                               $80

                                                                            Other Defense Organizations General Funds      97                            $8,425

                                                                            Other Defense Organizations Working
                                                                            Capital Funds                                97-4930                         $1,111

                                                                            Army Working Capital Fund                   97-4930.001

                                                                            Navy Working Capital Fund                   97-4930.002                      $1,823

                                                                            Air Force Working Capital Fund              97-4930.003                      $4,269
FY02 Consolidated Army Annual Financial Statements




                                                                            Total                                                        $251,030     $221,980                               $48
                                                     Working Capital Fund




                 298
                                                                           Required Supplementary Information
                                                          Governmental Transactions from the Consolidating Trial Balance



Schedule, Part B DoD Intra-governmental Entity    Treasury           Accounts    Debts/Borrowings
Liabilities ($ Amounts in Thousands)                Index             Payable From Other Agencies               Other

Department of Labor                                  16                                                      $50,126

Navy General Fund                                    17                $5,158                                   $576

Department of the Treasury                           20                                                           $1

Army General Fund                                    21               $30,466                               $202,742

Office of Personnel Management                       24                                                       $7,165

General Service Administration                       47                                                           $5

Air Force General Fund                               57                 $833                                     $45

US Army Corps of Engineers                           96                   $38

Other Defense Organizations General Funds            97                $6,352                                 $1,229

Other Defense Organizations Working Capital
Funds                                             97-4930             $33,784                                     $8

Navy Working Capital Fund                        97-4930.002            $843                                    $142

Air Force Working Capital Fund                   97-4930.003              $53

Total                                                                 $77,527                               $262,029




                                                                                                                            02
                                                                                                                           fy

                                                                                                                                299
                                                                            Schedule, Part C DoD Intra-governmental Revenue and Related
                                                                            Costs ($ Amounts in Thousands)                                Treasury Index   Earned Revenue

                                                                            Department of Agriculture                                          12                    $43

                                                                            Department of the Interior                                         14                    $40

                                                                            Department of Justice                                              15                 $3,607

                                                                            Navy General Fund                                                  17               $231,020

                                                                            US Postal Service                                                  18                    $13

                                                                            Department of State                                                19                   $125

                                                                            Department of the Treasury                                         20                   $973

                                                                            Army General Fund                                                  21             $5,333,409

                                                                            Department of Veterans Affairs                                     36                    $13

                                                                            General Service Administration                                     47                 $2,319

                                                                            Air Force General Fund                                             57               $449,064

                                                                            Department of Transportation                                       69                 $1,037

                                                                            Department of Health and Human Services                            75                   $259

                                                                            National Aeronautics and Space Administration                      80                   $192

                                                                            Department of Energy                                               89                    $28

                                                                            US Army Corps of Engineers                                         96                   $835

                                                                            Other Defense Organizations General Funds                          97               $216,376

                                                                            Other Defense Organizations Working Capital Funds               97-4930              $36,391

                                                                            Navy Working Capital Fund                                     97-4930.002           $157,642

                                                                            Air Force Working Capital Fund                                97-4930.003           $416,518

                                                                            Total                                                                             $6,849,904
FY02 Consolidated Army Annual Financial Statements
                                                     Working Capital Fund




                 300
                                                                    Required Supplementary Information
                                                   Governmental Transactions from the Consolidating Trial Balance



Schedule, Part E DoD Intra-governmental          Treasury
Non-exchange Revenues ($ Amounts in Thousands)     Index                Transfers In              Transfers Out

Army General Fund                                  21                      $74,349

Total                                                                      $74,349




                                                                                                                     02
                                                                                                                    fy

                                                                                                                         301
      FY02 Consolidated Army Annual Financial Statements




302
      Working Capital Fund
                                                           INSPECTOR GENERAL
                                                          DEPARTMENT OF DEFENSE
                                                             400 ARMY NAVY DRIVE
                                                        ARLINGTON, VIRGINIA 22202-4704

                                                                                                                                  January 8, 2003



MEMORANDUM FOR ASSISTANT SECRETARY OF THE ARMY (FINANCIAL
               MANAGEMENT AND COMPTROLLER)

SUBJECT: Independent Auditor's Report on the Army Working Capital Fund Fiscal Year 2002
         Principal Financial Statements (Report No. D-2003-0046)

The Chief Financial Officers (CFO) Act of 1990, as amended, requires the Inspector General of the
Department of Defense to audit the accompanying Consolidated Balance Sheet of the Army Working Capital
Fund as of September 30, 2002, and the related Consolidated Statements of Net Cost and Changes in Net
Position and the Combined Statements of Financing and Budgetary Resources for the fiscal years then ended.
These financial statements are the responsibility of Army Working Capital Fund management. The Army
Working Capital Fund is also responsible for implementing effective internal control and for complying with
laws and regulations. In addition to our disclaimer of opinion on the financial statements, we are including
the required reports on internal control and compliance with laws and regulations. The Army did not prepare
FY 2001 Army Working Capital Fund Financial Statements due to the loss of financial management
personnel during the September 11, 2001, terrorist attack. Because the Army did not prepare FY 2001
financial statements, an audit was not performed.

Disclaimer of Opinion on the Financial Statements
The Assistant Secretary of the Army (Financial Management and Comptroller) acknowledged to us that the
financial management and feeder systems that DoD relies on to provide evidence supporting the Army
Working Capital Fund financial statements do not comply with Federal financial management system
requirements, generally accepted accounting principles, and the U.S. Government Standard General Ledger at
the transaction level. The Army also acknowledged that the previously reported material weaknesses related to
financial management systems and inventories were applicable to the FY 2002 Army Working Capital Fund
Financial Statements. Therefore, we did not perform auditing procedures to support material amounts on the
financial statements. In addition, other auditing procedures were not performed because Section 1008(d) of
the FY 2002 National Defense Authorization Act requires the Inspector General of the Department of Defense
to perform only audit procedures required by generally accepted government auditing standards that are
consistent with the representations made by management. These material deficiencies also affect the reliability
of certain information contained in the accompanying Management's Discussion and Analysis and certain
other information-much of which is taken from the same data sources as the principal financial statements.1




1
    Other information includes the Supporting Consolidating and Combining Financial Statements and Required Supplementary Information.

                                                                                                                                                     02
                                                                                                                                                    fy
A Regular Statement and Account of the Receipts and Expenditures of all public Money shall be published                                                  303
from time to time. —Constitution of the United States Article I, Section 9
                                                                            These deficiencies would have precluded an audit opinion. As described above, we are unable to express, and
                                                                            we do not express, an opinion on the financial statements and the accompanying information.

                                                                            Summary of Internal Control
                                                                            In planning and performing our audit, we considered the Army Working Capital Fund's internal control over
                                                                            financial reporting and compliance. We did this to determine our procedures for auditing the financial
                                                                            statements and to comply with Office of Management and Budget guidance but not to express an opinion on
                                                                            internal control. Accordingly, we do not express an opinion on internal control over financial reporting and
                                                                            compliance because previously identified reportable conditions,2 all of which are material, continue to exist in
                                                                            the following areas:

                                                                                    z financial management systems and processes;

                                                                                    z Inventory and Related Property;

                                                                                    z General Property, Plant, and Equipment;

                                                                                    z Accounts Payable;

                                                                                    z intragovernmental eliminations;

                                                                                    z Statement of Net Cost; and

                                                                                    z Statement of Financing.

                                                                            A material weakness is a condition that precludes the entity's internal control from providing reasonable
                                                                            assurance that misstatements, losses, or noncompliance that are material in relation to the financial statements
                                                                            would be prevented or detected on a timely basis. Our internal control work would not necessarily disclose
                                                                            all material weaknesses. See the Attachment for additional details on material internal control weaknesses.

                                                                            Summary of Compliance with Laws and Regulations
                                                                            Our work to determine compliance with selected provisions of the applicable laws and regulations was
                                                                            limited because management acknowledged instances of noncompliance, and previously reported instances
FY02 Consolidated Army Annual Financial Statements




                                                                            of noncompliance continue to exist. The Army was unable to comply with the requirements of the CFO Act
                                                                            of 1990 as amended. The Assistant Secretary of the Army (Financial Management and Comptroller)
                                                     Working Capital Fund




                                                                            2
                                                                                Reportable conditions are matters coming to the auditor's attention that, in his or her judgment, should be communicated to management because they
                                                                                represent significant deficiencies in the design or operation of internal control, which could adversely affect the organization's ability to initiate, record,
                                                                                process, and report financial data consistent with the assertions of management in financial statements.




                 304
                                                                            A Regular Statement and Account of the Receipts and Expenditures of all public Money shall be published
                                                                            from time to time. —Constitution of the United States Article I, Section 9
                                                                                           Opinion Report



acknowledged that many of its critical financial management and feeder systems did not comply with the
requirements of the Federal Financial Management Information Act of 1996 (the FFMIA). Therefore, we did
not determine whether the Army Working Capital Fund was in compliance with all applicable laws and
regulations related to financial reporting. See the Attachment for additional details on compliance with laws
and regulations.

In order for DoD to comply with statutory reporting requirements and applicable financial systems
requirements, the Under Secretary of Defense (Comptroller)\Chief Financial Officer is developing the DoD-
wide financial management enterprise architecture. The DoD anticipates developing and implementing the
financial management enterprise architecture by 2007. The Army is also working to reengineer and
modernize wholesale logistics processes and has contracted for modernizing Army logistics functions
through the Logistics Modernization Program. However, until the architecture is developed and
implemented, the Army Working Capital Fund will be unable to fully comply with the statutory reporting
requirements.

We caution that other noncompliance may have occurred and not been detected. Further, the results of our
limited procedures may not be sufficient for other purposes. Our objective was not to express an opinion on
compliance with applicable laws and regulations.

Management Responsibility
Management is responsible for:

    z preparing the financial statements in conformity with generally accepted accounting principles;

    z establishing, maintaining, and assessing internal control to provide reasonable assurance that the broad
      control objectives of the Federal Managers' Financial Integrity Act of 1982 are met;

    z ensuring that the Army Working Capital Fund's financial management systems substantially comply
      with FFMIA requirements; and

    z complying with applicable laws and regulations.




                                            David K. Steensma
                                     Deputy Assistant Inspector General
                                               for Auditing



                                                                                                                  02
                                                                                                                 fy
A Regular Statement and Account of the Receipts and Expenditures of all public Money shall be published               305
from time to time. —Constitution of the United States Article I, Section 9
                                                                            Reports on Internal Control and Compliance with Laws and
                                                                            Regulations

                                                                            Internal Control
                                                                               Management is responsible for implementing effective internal control and for providing reasonable
                                                                               assurance that accounting data is accumulated, recorded, and reported properly; and that assets are
                                                                               safeguarded. We did not perform tests of Army Working Capital Fund internal control over financial
                                                                               reporting and we did not obtain sufficient evidence to support or express an opinion on internal control
                                                                               because the following previously identified reportable conditions, all of which are material, continue to exist.
                                                                               The following material internal control weaknesses precluded an audit opinion of the FY 2002 Army
                                                                               Working Capital Fund Financial Statements and significantly impair the ability of DoD to detect and
                                                                               investigate fraud or theft of assets. A high risk of material misstatements will continue to exist until the
                                                                               internal control deficiencies are corrected.

                                                                               Financial Management Systems and Processes. The Army Working Capital Fund's systems are unable to
                                                                               meet all of the requirements for full accrual accounting because the systems used were not designed to
                                                                               collect and record financial information as required by generally accepted accounting principles. Financial
                                                                               and non-financial feeder systems are not integrated and do not contain an audit trail for the proprietary and
                                                                               budgetary accounts. The Army Working Capital Fund derives its financial information for major asset and
                                                                               liability accounts from noncompliant financial systems, such as the Commodity Command Standard System.
                                                                               The Army Working Capital Fund disclosed financial management system deficiencies in the footnotes to the
                                                                               FY 2002 financial statements. Until such time as all of the processes are updated to collect and report
                                                                               financial information as required by generally accepted accounting principles, some of the Army Working
                                                                               Capital Fund's financial data will be based on budgetary transactions (obligations, disbursements, and
                                                                               collections) and non-financial feeder systems. The DoD-wide systemic deficiencies in financial management
                                                                               systems and business processes result in the inability to collect and report financial and performance
                                                                               information that is accurate, reliable, and timely.
FY02 Consolidated Army Annual Financial Statements




                                                                               Inventory and Related Property. The existing inventory valuation method does not produce an auditable
                                                                               approximation of historical cost because the associated gains and losses cannot be accurately tracked to
                                                     Working Capital Fund




                                                                               specific items or purchases. The Army Working Capital Fund uses the latest acquisition cost method of
                                                                               valuing inventory because its inventory systems were designed for materiel management rather than
                                                                               accounting. The systems provide accountability and visibility over inventory items. However, they did not
                                                                               maintain the historical cost data necessary to comply with Statement of Federal Financial Accounting
                                                                               Standards (SFFAS) No. 3, "Accounting for Inventory and Related Property," and could not directly produce
                                                                               financial transactions using the U.S. Government Standard General Ledger. In addition, neither the Defense
                                                                               Finance and Accounting Service (DFAS) nor the Army reconciled differences between the accounting
                                                                               records and the logistical records. Instead, they accepted the data from the logistical records and adjusted the
                                                                               accounting records. Further, physical inventories have not been completed and adequate controls had not
                                                                               been established over items in transit.
                 306
                                                                                             Opinion Report



General Property, Plant, and Equipment. The value of Army Working Capital Fund General Property,
Plant, and Equipment is not reliably reported due to the lack of supporting documentation, the failure to
correctly compute depreciation, and the value of property in the possession of contractors was not fully
reported. Information on the acquisition date and cost was not always available and was sometimes recorded
incorrectly. In addition, the system that provides real property information to the Defense Property
Accountability System was a noncompliant system.

Accounts Payable. DFAS Indianapolis made significant adjustments to the accounts payable balances to
derive the reported balances. DFAS Indianapolis adjusted accounts payable with the public downward by
$124.7 million for undistributed disbursements. Also, the Army Working Capital Fund was unable to
reconcile intragovernmental accounts payable to the related intragovernmental accounts receivable that
generated the payable. As a result, DFAS made $61.7 million in unsupported adjustments to increase
intragovernmental accounts payable for the Supply Management activity group and made $57.1 million in
unsupported adjustments to decrease intragovernmental accounts payable in the other three activity groups in
order to force the amounts to agree with Army trading partners. In addition, accounts payable in the Supply
Management activity group were not established in accordance with SFFAS No. 1, "Accounting for Selected
Assets and Liabilities."

Intragovernmental Eliminations. The inability to reconcile most intragovernmental transactions results in
adjustments that cannot be verified. DoD and Army accounting systems were not capable of capturing
trading partner data at the transaction level in a manner that facilitated trading partner reconciliations and
DoD guidance did not require adequate support for intragovernmental eliminations. As a result, DoD did not
require trading partner reconciliations, but required that buyer-side transaction data be forced to agree with
seller-side transaction data without performing proper reconciliations. DFAS Indianapolis made $7.7 billion
in adjustments to intragovernmental accounts to force the accounts to agree with the records of Army
Working Capital Fund trading partners.

Statement of Net Cost. The Statement of Net Cost was not presented by responsibility segments that were
consistent with DoD performance goals and measures. Accounting systems were unable to accurately
capture costs for Army Working Capital Fund programs and properly account for intragovernmental
transactions and related eliminations. In addition, some of the Army Working Capital Fund's financial data
presented on the Statement of Net Cost were based on budgetary transactions. DFAS Indianapolis made $1.1
billion in unsupported adjustments to decrease intragovernmental costs and $1.2 billion in unsupported
adjustments to increase costs with the public in order to force buyer-side transaction data to agree with seller-
side transaction data.

Statement of Financing. The Army cannot reconcile budgetary obligations to net cost without making
adjustments. The Statement of Financing was prepared on a combined basis, while the Statement of Net
Cost was prepared on a consolidated basis. As a result, the Army Working Capital Fund made $338.3
million in unsupported adjustments to force the Statement of Financing to reconcile with information on the
Statement of Net Cost.
                                                                                                                     02
                                                                                                                    fy

                                                                                                                         307
                                                                            Compliance with Laws and Regulations
                                                                              Management is responsible for compliance with existing laws and regulations related to financial reporting.
                                                                              Our work to determine compliance with selected provisions of the applicable laws and regulations was
                                                                              limited because management acknowledged instances of noncompliance, and previously reported instances
                                                                              of noncompliance continue to exist. Therefore, we did not determine whether the Army Working Capital
                                                                              Fund was in compliance with significant provisions of all applicable laws and regulations related to financial
                                                                              reporting. Our objective was not to express an opinion on compliance with applicable laws and regulations.

                                                                              Statutory Financial Management Systems Reporting Requirements. The Army Working Capital Fund is
                                                                              required to comply with the following financial management systems reporting requirements.

                                                                              The FFMIA requires DoD to establish and maintain financial management systems that comply substantially
                                                                              with the Federal financial management system requirements, applicable Federal accounting standards, and
                                                                              the U.S. Government Standard General Ledger at the transaction level. In addition, the Federal Managers'
                                                                              Financial Integrity Act of 1982 requires DoD to evaluate its systems and to annually report whether those
                                                                              systems are in compliance with applicable requirements. The CFO Act of 1990 requires that each agency
                                                                              develop and maintain an integrated agency accounting and financial management system, including financial
                                                                              reporting and internal control. The system should comply with internal control standards, applicable
                                                                              accounting principles, standards, and requirements, and provide complete, reliable, consistent, and timely
                                                                              information.

                                                                              The Assistant Secretary of the Army (Financial Management and Comptroller) acknowledged that many of
                                                                              its critical financial management and feeder systems did not substantially comply with Federal financial
                                                                              management systems requirements, Federal accounting standards, and the U.S. Government Standard
                                                                              General Ledger at the transaction level. The Army was also unable to comply with the CFO Act, which
                                                                              requires agencies to develop and maintain integrated agency accounting and financial systems.

                                                                              In an attempt to comply with statutory reporting requirements and applicable financial systems requirements,
                                                                              DoD plans to develop a DoD-wide financial management enterprise architecture. The architecture is
                                                                              intended to provide a "blueprint" of the Department's financial management systems and processes to initiate
FY02 Consolidated Army Annual Financial Statements




                                                                              a comprehensive financial management reform effort. Until the architecture is developed, the Army Working
                                                                              Capital Fund will be unable to fully comply with the statutory reporting requirements. Therefore, we did not
                                                     Working Capital Fund




                                                                              perform tests of compliance for these requirements.

                                                                            Audit Disclosures
                                                                              The Assistant Secretary of the Army (Financial Management and Comptroller) acknowledged to us that the
                                                                              Army and DFAS financial management systems could not provide adequate evidence supporting various
                                                                              material amounts on the financial statements. As a result, we were unable to obtain adequate evidential
                                                                              matter to form or express an opinion on the financial statements, internal control, and compliance with laws
                                                                              and regulations.

                 308                                                          Our review of internal control was limited to followup work on deficiencies identified in previous audit
                                                                              reports. We primarily focused on the deficiencies related to the material weaknesses reported in the audits of
                                                                                         Opinion Report



the FY 2000 Army Working Capital Fund Financial Statements and the FY 2001 DoD Agency-Wide
Financial Statements associated with the Army Working Capital Fund.

We performed limited tests of Army Working Capital Fund compliance with other laws and regulations that
have a direct and material effect on the financial statement information. We recognize that there were
additional laws and regulations pertinent to the Army Working Capital Fund financial operations during FY
2002. However, in accordance with Section 1008(d) of the FY 2002 National Defense Authorization Act, we
limited our audit scope and only performed audit procedures required by generally accepted government
auditing standards that were consistent with the representations made by the Assistant Secretary of the Army
(Financial Management and Comptroller) in the engagement memorandum signed on August 21, 2002.
Therefore, we did not perform tests of compliance for these requirements.

    z Anti-Deficiency Act.

    z Provisions Governing Claims of the United States Government.

    z Federal Credit Reform Act of 1990.

    z Pay and Allowance System for Civilian Employees.

    z Prompt Payment Act.




                                                                                                                02
                                                                                                               fy

                                                                                                                    309
      FY02 Consolidated Army Annual Financial Statements




310
      Working Capital Fund
                                                                                      Consolidated Balance Sheet
                                                                               Department of Defense • Department of the Army
                                                                           As of September 30, 2002 and 2001 ($ in thousands)


1. ASSETS (Note 2)                                                                    FY 2002                         FY 2001

     A. Intragovernmental:
        1. Fund Balance with Treasury (Note 3)                                   $2,543,957                      $2,537,990
        2. Investments (Note 4)                                                   2,269,086                       2,255,539
        3. Accounts Receivable (Note 5)                                             528,149                         476,541
        4. Other Assets (Note 6)                                                          0                               0
        5. Total Intragovernmental Assets                                        $5,341,192                      $5,270,070
     B. Cash and Other Monetary Assets (Note 7)                                        $817                          $3,990
     C. Accounts Receivable (Note 5)                                                922,931                       1,028,288
     D. Loans Receivable (Note 8)                                                         0                               0
     E. Inventory and Related Property (Note 9)                                      63,139                          54,719
     F. General Property, Plant and Equipment (Note 10)                          36,873,953                      34,818,281
     G. Other Assets (Note 6)                                                            77                          16,190

2. TOTAL ASSETS                                                                $43,202,109                     $41,191,538

3. LIABILITIES (Note 11)
     A.   Intragovernmental:
          1. Accounts Payable (Note 12)                                             $83,814                         $92,727
          2. Debt (Note 13)                                                          24,667                           30,512
          3. Environmental Liabilities (Note 14)                                          0                                0
          4. Other Liabilities (Notes 15 and 16)                                  1,146,944                        1,167,318
          5. Total Intragovernmental Liabilities                                 $1,255,425                      $1,290,557
     B.   Accounts Payable (Note 12)                                              $595,952                        $505,328
     C.   Military Retirement Benefits and Other Employment-
          Related Actuarial Liabilities (Note 17)                                          0                               0
     D.   Environmental Liabilities (Note 14)                                              0                               0
     E.   Loan Guarantee Liability (Note 8)                                                0                               0
     F.   Other Liabilities (Notes 15 and 16)                                        590,776                         576,523

4. TOTAL LIABILITIES                                                             $2,442,153                      $2,372,408

5. NET POSITION
     A.   Unexpended Appropriations (Note 18)                                    $1,064,864                      $1,214,901
     B.   Cumulative Results of Operations                                       39,695,092                      37,604,229

6. TOTAL NET POSITION                                                          $40,759,956                      $38,819,130

7.   TOTAL LIABILITIES AND NET POSITION                                        $43,202,109                     $41,191,538




     See Note 1 and Note 2.


                                                                                                                                   02
                                                                                                                                  fy

                                                                                                                                   311

                                                               The accompanying notes are an integral part of these statements.
                                                                         Consolidated Statement of Net Cost
                                                                                         Department of Defense • Department of the Army
                                                                                         For the years ended September 30, 2002 and 2001 ($ in thousands)


                                                                                         1. Program Costs                                                         FY 2002         FY 2001

                                                                                              A.    Intragovernmental Gross Costs                              $786,630       $1,105,529
                                                                                              B.    (Less: Intragovernmental Earned Revenue)                   (616,437)       (483,102)
                                                                                              C.    Intragovernmental Net Costs                                 $170,193       $622,427
                                                                                              D.    Gross Costs With the Public                               $3,645,278      $3,768,681
                                                                                              E.    (Less: Earned Revenue From the Public)                      (121,740)       (102,129)
                                                                                              F.    Net Costs With the Public                                 $3,523,538      $3,666,552
                                                                                              G.    Total Net Cost                                            $3,693,731      $4,288,979

                                                                                         2. Cost Not Assigned to Programs                                             $0              $0

                                                                                         3. (Less:Earned Revenue Not Attributable to Programs)                         0               0

                                                                                         4. Net Cost of Operations                                          $3,693,731.00   $4,288,979.00
   The accompanying notes are an integral part of these statements.




                                                                                              See Note 1 and Note 19.
FY02 United States Army Annual Financial Statement
                                                                      Civil Works Fund




                    312
                                                    Consolidated Statement of Changes in Net Position
                                                                                   Department of Defense • Department of the Army
                                                                 For the years ended September 30, 2002 and 2001 ($ in thousands)


CUMULATIVE RESULTS OF OPERATIONS
                                                                    2002 Unexpended                             2001 Unexpended
                                                       FY 2002         Appropriations               FY 2001       Appropriations
Beginning Balances                                $37,604,229            $1,214,901          $36,999,464            $1,004,640

Prior period adjustments (+/-)                              0                       0            (846,130)                       0

Beginning Balances, as adjusted                   $37,604,229            $1,214,901          $36,153,334            $1,004,640

Budgetary Financing Sources:
   Appropriations received                                  0             4,324,965                     0               210,262
   Appropriations transferred-in/out (+/-)                  0               198,408                     0                     0
   Other adjustments (rescissions, etc) (+/-)               0              (153,374)                    0                     0
   Appropriations used                              4,704,846           (4,520,036)             4,310,085                     0
   Nonexchange revenue                                835,997                      0              919,800                     0
   Donations and forfeitures of cash and cash               0                      0                    0                     0
       equivalents                                  (706,651)                      0            (445,585)                     0
   Transfers-in/out without reimbursement (+/-)
   Other budgetary financing sources (+/-)            (3,166)                       0              (8,859)                       0

Other Financing Sources:
   Donations and forfeitures of property                 303                        0                 275                        0
   Transfers-in/out without reimbursement (+/-)      744,279                        0             752,563                        0
   Imputed financing from costs absorbed by          208,986                        0             211,595                        0
       others
   Other (+/-)                                              0                       0                     0                      0

Total Financing Sources                            $5,784,594            ($150,037)            $5,739,874              $210,262

Net Cost of Operations (+/-)                        3,693,731                       0           4,288,979                        0

Ending Balances                                   $39,695,092           $1,064,864           $37,604,229             $1,214,902




   See Note 1 and Note 20.




                                                                                                                                       02
                                                                                                                                      fy

                                                                                                                                       313

                                                                   The accompanying notes are an integral part of these statements.
                                                                         Combined Statement of Budgetary Resources
                                                                                         Department of Defense • Department of the Army
                                                                                         For the years ended September 30, 2002 and 2001 ($ in thousands)


                                                                                         Budgetary Resources:                                                       FY 2002           FY 2001

                                                                                              A.    Budget Authority:
                                                                                                    Appropriations received                                     $4,324,965        $3,974,001
                                                                                                    Borrowing authority                                                  0                 0
                                                                                                    Contract authority                                                   0                 0
                                                                                                    Net transfers (+/-)                                          1,006,223         1,544,283
                                                                                                    Other                                                                0                 0
                                                                                              B.    Unobligated balance:
                                                                                                    Beginning of period                                          1,713,303         1,638,978
                                                                                                    Net transfers, actual (+/-)                                    (23,140)             (491)
                                                                                                    Anticipated Transfers Balances                                        0                 0
                                                                                              C.    Spending authority from offsetting collections:                       0                 0
                                                                                                    Earned                                                                0                 0
                                                                                                         Collected                                               4,837,613         4,216,800
                                                                                                         Receivable from Federal sources                          (53,523)            56,628
                                                                                                    Change in unfilled customer orders                                    0                 0
                                                                                                         Advance received                                            37,345                34
   The accompanying notes are an integral part of these statements.




                                                                                                         Without advance from Federal sources                       115,628          231,286
                                                                                                    Anticipated for the rest of year, without advances                    0                 0
                                                                                                    Transfers from trust funds                                            0                 0
                                                                                                    Subtotal                                                    $4,937,063        $4,504,748
                                                                                              D.    Recoveries of prior year obligations                                  0                 0
                                                                                              E.    Temporarily not available pursuant to Public Law                      0                 0
                                                                                              F     Permanently not available                                      (16,515)          (17,545)
                                                                                              G     Total Budgetary Resources                               $11,941,899.00    $11,643,974.00

                                                                                         Status of Budgetary Resources:
                                                                                              H.    Obligations incurred:
                                                                                                    Direct                                                     $5,415,360        $8,478,611
                                                                                                    Reimbursable                                                4,785,522         1,120,752
                                                                                                    Subtotal                                                  $10,200,882        $9,599,363
                                                                                              I.    Unobligated balance:
                                                                                                    Apportioned                                                  1,246,051         1,435,403
                                                                                                    Exempt from apportionment                                      494,957           608,718
                                                                                                    Other available                                                      0                 1
                                                                                              J.    Unobligated Balances Not Available                                   9               489
FY02 United States Army Annual Financial Statement




                                                                                              K.    Total, Status of Budgetary Resources                       $11,941,899       $11,643,974

                                                                                         Relationship of Obligations to Outlays:
                                                                                              L. Obligated Balance, Net - beginning of period                   $1,097,971          $797,587
                                                                                              M. Obligated Balance transferred, net (+/-)                                0                 0
                                                                      Civil Works Fund




                                                                                              N. Obligated Balance, Net - end of period:
                                                                                                 Accounts receivable                                             (235,443)          (262,026)
                                                                                                 Unfilled customer order from Federal sources                  (1,373,128)        (1,257,500)
                                                                                                 Undelivered orders                                              1,475,183         1,492,092
                                                                                                 Accounts payable                                                1,180,711            771,210
                                                                                              O. Outlays:
                                                                                                 Disbursements                                                  10,189,428        9,365,262
                                                                                                 Collections                                                    (4,874,959)      (4,216,835)
                                                                                                 Subtotal                                                       $5,314,469       $5,148,427
                                                                                              P. Less: Offsetting receipts                                        (819,255)                0
                    314
                                                                                              Q. Net Outlays                                                    $4,495,214       $5,148,427

                                                                                              See Note 1 and Note 21.
                                                                                     Combined Statement of Financing
                                                                                       Department of Defense • Department of the Army
                                                                     For the years ended September 30, 2002 and 2001 ($ in thousands)


Resources Used to Finance Activities:                                             2002 Combined                        2001 Combined


Budgetary Resources Obligated
    1.    Obligations incurred                                                     $10,200,882                           $9,599,363
    2.    Less: Spending authority from offsetting collections and
          recoveries (-)                                                            (4,937,063)                          (4,504,749)
    3.    Obligations net of offsetting collections and recoveries                  $5,263,819                           $5,094,614
    4.    Less: Offsetting receipts (-)                                               (819,255)                             (43,761)
    5.    Net obligations                                                           $4,444,564                           $5,050,853

Other Resources
    6.    Donations and forfeitures of property                                             305                                  275
    7.    Transfers in/out without reimbursement (+/-)                                    1,171                                1,735
    8.    Imputed financing from costs absorbed by others                               208,986                              211,595
    9.    Other (+/-)                                                                    16,743                             (26,044)
    10.   Net other resources used to finance activities                               $227,205                             $187,561

11. Total resources used to finance activities                                      $4,671,769                           $5,238,414

Resources Used to Finance Items not Part of the Net
Cost of Operations
    12. Change in budgetary resources obligated for goods,
        services and benefits ordered but not yet provided
        Undelivered Orders (-)                                                            (2,705)                          (281,946)
        Unfilled Customer Orders                                                         152,974                             231,321
    13. Resources that fund expenses recognized in prior periods                                0                          (169,635)
    14. Budgetary offsetting collections and receipts that do not
        affect net cost of operations                                                    819255                                      0
    15. Resources that finance the acquisition of assets
    16. Other resources or adjustments to net obligated                             (2,461,629)                          (1,540,367)
        resources that do not affect net cost of operations
        Less: Trust or Special Fund Receipts Related to
             Exchange in the Entity's Budget (-)                                                0                                  0
        Other (+/-)                                                                             0                          (390,870)

17. Total resources used to finance items not part of
    the net cost of operations                                                     ($1,492,105)                         ($2,151,497)

18. Total resources used to finance the net cost of
    operations                                                                       $3,179,664                          $3,086,917




    See Note 1 and Note 22.

                                                                                                                                           02
                                                                                                                                          fy

                                                                                                                                           315

                                                                       The accompanying notes are an integral part of these statements.
                                                                         Combined Statement of Financing
                                                                                         Department of Defense • Department of the Army
                                                                                         For the years ended September 30, 2002 and 2001 ($ in thousands)


                                                                                         Components of the Net Cost of Operations that will not             2002 Combined   2001 Combined

                                                                                         Require or Generate Resources in the Current Period:

                                                                                         Components Requiring or Generating Resources in
                                                                                         Future Periods:                                                              $0              $0
                                                                                              19. Increase in annual leave liability                                   0               0
                                                                                              20. Increase in environmental and disposal liability
                                                                                              21. Upward/Downward reestimates of credit subsidy expense                0               0
                                                                                                  (+/-)
                                                                                              22. Increase in exchange revenue receivable from the               (3,429)               0
                                                                                                  public (-)                                                     41,497          103,175
                                                                                              23. Other (+/-)
                                                                                              24. Total components of Net Cost of Operations that will          $38,068        $103,175
                                                                                                  require or generate resources in future periods

                                                                                         Components not Requiring or Generating Resources:                      475,534         589,863
   The accompanying notes are an integral part of these statements.




                                                                                              25.   Depreciation and amortization                                     0         169,970
                                                                                              26.   Revaluation of assets or liabilities (+/-)                      465          28,145
                                                                                              27.   Other (+/-)
                                                                                              28.   Total components of Net Cost of Operations that            $475,999         $787,978
                                                                                                    will not require or generate resources

                                                                                         29. Total components of net cost of operations
                                                                                             that will not require or generate resources in                      514,067         891,153
                                                                                             the current period
                                                                                                                                                             $3,693,731      $3,978,070
                                                                                         30. Net Cost of Operations




                                                                                              See Note 1 and Note 22.
FY02 United States Army Annual Financial Statement
                                                                      Civil Works Fund




                    316
Notes to the Principal Financial Statements
Note 1.         Significant Accounting Policies
A. Basis of Presentation
   These financial statements have been prepared to report the financial position and results of operations of the
   U.S. Army Corps of Engineers Civil Works, as required by the Chief Financial Officers (CFO) Act of 1990,
   expanded by the Government Management Reform Act (GMRA) of 1994, and other appropriate legislation.
   The financial statements have been prepared from the books and records of the U.S. Army Corps of
   Engineers (USACE) in accordance with the "Department of Defense Financial Management Regulation"
   ("DoD FMR"), the Office of Management and Budget (OMB) Bulletin No. 01-09, "Form and Content of
   Agency Financial Statements" and to the extent possible, generally accepted accounting principles (GAAP).
   The USACE's financial statements are in addition to the financial reports also prepared by the USACE
   pursuant to OMB directives that are used to monitor and control the USACE's use of budgetary resources.

   The Corps of Engineers financial statements are prepared from the consolidation of general ledger financial
   data reported from the Corps of Engineers Financial System (CEFMS) to the Corps of Engineers Enterprise
   Management Information System (CEEMIS).

   General Ledger account balances have been validated to the year-end departmental budget execution and
   expenditure reports. The Corps of Engineers Funds with Treasury balances have been adjusted to agree with
   Treasury's balances in accordance with Treasury policy.

   A more detailed explanation of these financial statements elements is provided in the applicable footnote.

B. Mission of the Reporting Entity
   Some of the missions of the Corps of Engineers include maintaining navigation channels, reducing flooding,
   assisting during natural disasters and other emergencies and making waterways passable. The financial
   statements are presented on the accrual basis of accounting as required by federal financial accounting
   standards.

   The asset accounts used to prepare the principal financial statements are categorized as entity/non-entity.
   Entity accounts consist of resources that the agency has the authority to use, or where management is
   obligated legally to use funds to meet entity obligations. Non-entity accounts are assets that are held by an
   entity but are not available for use in the operations of the entity.

   The Corps of Engineers Civil Works Program receives Federal funding through annual Energy and Water
   Development Appropriations Acts. Program funding also is received from non-Federal project sponsors who
   share in project costs according to formulas established by project authorization acts. A third source of
   funding comes through the Support for Others Program, which is conducted under reimbursable agreements
   with Federal agencies.
                                                                                                                      02
                                                                                                                     fy

                                                                                                                          317
                                                                        Entity Accounts:

                                                                        General Funds
                                                                        96X3112     Flood Control, Mississippi River and Tributaries
                                                                        96X3121     General Investigations
                                                                        96X3122     Construction, General
                                                                        96X3123     Operation and Maintenance, General
                                                                        963/73123 Operation and Maintenance, General (fiscal year)
                                                                        96X3124     General Expenses
                                                                        96953124 General Expenses (fiscal year)
                                                                        96X3125     Flood Control and Coastal Emergencies
                                                                        963/73125 Flood Control and Coastal Emergencies (fiscal year)
                                                                        96X3126     Regulatory Program
                                                                        96X3128     Washington Aqueduct Capital Improvements
                                                                        96003129 Payment to the South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund 96X3130
                                                                                    FUSRAP

                                                                        Revolving Funds
                                                                        96X4902     Revolving Fund

                                                                        Special Funds
                                                                        96X5007     Special Recreation Use Fees
                                                                        96X5066     Hydraulic Mining in California, Debris
                                                                        96X5090     Payments to States, Flood Control Act of 1954
                                                                        96X5125     Maintenance and Operation of Dams and Other Improvements of Navigable Waters
                                                                        96X5483     San Gabriel Basin Restoration Fund

                                                                        Trust Funds
                                                                        96X8217       South Dakota Terrestrial Wildlife habitat Restoration Trust Fund
                                                                        96X8333       Coastal Wetlands Restoration Trust Fund
FY02 United States Army Annual Financial Statement




                                                                        96X8861       Inland Waterways Trust Fund
                                                                        96X8862       Rivers and Harbors Contributed and Advance Funds
                                                                        96X8868       Oil Spill Research

                                                                        Transfer Funds
                                                     Civil Works Fund




                                                                        96 12X1105            State and Private Forestry, Forest Service
                                                                        96 13X2050            Economic Development Administration
                                                                        96 14X1039            Construction National Park Service
                                                                        96 14X5035            Land Acquisition and State Assistance, National Park Service
                                                                        96 21X2020            OMA, American Samoa Projects
                                                                        96 89X4045            Bonneville Power Administration
                                                                        96 72 99/00 1021      Development Assistance, Agency for International Development
                 318                                                    96 69X8083            Federal Aid Highways
                                                                             Notes to Principal Statements



   Non-Entity Accounts:

   Deposit Funds
   96X6075     Withheld Allotment of Compensation for Payment of Employee Organization Dues
   96X6094     Advances from the District of Columbia
   96X6134     Amounts Withheld for Civilian Pay Allotments
   96X6145     Technical Assistance, United States Dollars Advanced from Foreign Government
   96X6302     Moneys Withheld from Contractors
   96X6500     Advances without Orders from Non-Federal Sources
   96X6501     Small Escrow Amounts
   96X6999     Accounts Payable, Check Issue Overdrafts

   Clearing Accounts
   96F3875     Budget Clearing Account
   96F3880     Unavailable Check Cancellations and Overpayments
   96F3886     TSP

   Receipt Accounts
   960891      Miscellaneous fees for regulatory and judicial services, not otherwise classified
   961099      Fines, Penalties, and forfeitures not otherwise classified
   961435      General Fund Proprietary Interest, Not Otherwise Classified
   963220      General Fund Proprietary Receipts. Not Otherwise Classified, All Other
   965007      Special Recreation Use Fees
   965066      Hydraulic Mining in California
   965090      Receipts from leases of lands acquired for flood control, navigation, and allied purposes
   965125      Licenses under Federal Power Act, Improvements of navigable water, maintenance and
               operation of dams, etc., (50%)

C. Appropriations and Funds
   The Corps' appropriations and funds are divided into the general, working capital (revolving funds), trust,
   special and deposit funds. These appropriations and funds are used to fund and report how the resources
   have been used in the course of executing the Corps' missions.

   The Civil Works Program receives Federal funding through annual Energy and Water Development
   Appropriations Acts. Program funding also comes from non-Federal project sponsors who share in project
   costs according to formulas established by project authorization acts. A third source of funding comes
   through the Support for Others Program, which is conducted under reimbursable agreements with Federal
   agencies.

   In 1997, the Corps received borrowing authority from the Treasury for the next three years (1997 through
   1999) to finance capital improvements to the Washington Aqueduct. Appropriation 96X3128 was established
   to record financial transactions for these capital improvements.
                                                                                                                  02
                                                                                                                 fy

                                                                                                                      319
                                                                           General funds are used for financial transactions arising under congressional appropriations, including
                                                                           personnel, operation and maintenance, research and development, procurement, and construction accounts.

                                                                           Trust funds represent the receipt and expenditure of funds held in trust by the government for use in carrying
                                                                           out specific purposes or programs in accordance with the terms of the donor, trust agreement, or statute.

                                                                           Special funds account for receipts of the government that are earmarked for a specific purpose.
                                                                           Deposit funds generally are used to (1) hold assets for which the Corps is acting as an agent or a custodian or
                                                                           whose distribution awaits legal determination, or (2) account for unidentified remittances.

                                                                        D. Basis of Accounting
                                                                           The Corps' transactions generally are recorded on an accrual accounting basis and a budgetary basis as is
                                                                           required by GAAP. Under the accrual method, revenues are recognized when earned and expenses are
                                                                           recognized when a liability is incurred without regard to receipt or payment of cash. Budgetary accounting is
                                                                           accomplished through unique general ledger accounts to facilitate compliance with legal and internal control
                                                                           requirements associated with the use of federal funds.

                                                                           During fiscal year 1998, the Corps completed the deployment of the Corps of Engineers Financial
                                                                           Management System (CEFMS) to all its divisions, districts, centers, laboratories and field offices. CEFMS is
                                                                           a fully automated, comprehensive financial management system that simplifies the management of all
                                                                           aspects of the Corps business, including civil, military revolving funds and reimbursable activity. The
                                                                           general ledger chart of accounts in CEFMS was modified during fiscal year 2001 to be in compliance with
                                                                           the United States Government Standard General Ledger.

                                                                           In addition, the Corps identified programs based upon the major appropriation groups provided by Congress.

                                                                        E. Revenues and Other Financing Sources
                                                                           Financing sources for general funds are provided primarily through congressional appropriations that are
                                                                           received on both an annual and a multiyear basis. When authorized, these appropriations are supplemented
                                                                           by revenues generated by sales of goods or services through a reimbursable order process. The Corps
FY02 United States Army Annual Financial Statement




                                                                           recognizes revenue as a result of costs incurred or services performed on behalf of other federal agencies and
                                                                           the public. Revenue is recognized when earned under the reimbursable order process.

                                                                        F. Recognition of Expenses
                                                     Civil Works Fund




                                                                           For financial reporting purposes, the DoD policy requires the recognition of operating expenses in the period
                                                                           incurred. Expenditures for capital and other long-term assets are not recognized as expenses in the Corps
                                                                           operations until depreciated in the case of PP&E or consumed in the case of OM&S. Net increases or
                                                                           decreases in unexpended appropriations are recognized as a change in the net position.

                                                                           Certain expenses, such as annual and military leave earned but not taken, are financed in the period when
                                                                           earned.
                 320
                                                                               Notes to Principal Statements



G Accounting for Intragovernmental Activities
   The Corps, as an agency of the federal government, interacts with and is dependent upon the financial
   activities of the federal government as a whole. Therefore, these financial statements do not reflect the
   results of all financial decisions applicable to the Corps as though the agency was a stand-alone entity.

   The Corps' proportionate share of public debt and related expenses of the federal government are not
   included. Debt issued by the federal government and the related costs are not apportioned to federal
   agencies. The Corps' financial statements, therefore, do not report any portion of the public debt or interest
   thereon, nor do the statements report the source of public financing whether from issuance of debt or tax
   revenues.

   Financing for the construction of DoD facilities is obtained through budget appropriations. To the extent this
   financing ultimately may have been obtained through the issuance of public debt, interest costs have not been
   capitalized since the Department of the Treasury does not allocate such interest costs to the benefiting
   agencies.

   The Corps' civilian employees participate in the Civil Service Retirement System (CSRS) and the Federal
   Employees Retirement System (FERS), while military personnel are covered by the Military Retirement
   System (MRS). Additionally, employees and personnel covered by FERS and MRS also have varying
   coverage under Social Security. The Corps funds a portion of the civilian and military pensions. Reporting
   civilian pension under the CSRS and FERS retirement systems is the responsibility of the Office of Personnel
   Management (OPM). The Corps recognizes an imputed expense for the portion of civilian employee
   pensions and other retirement benefits funded by the OPM in the Statement of Net Cost, and recognizes
   corresponding imputed revenue from the civilian employee pensions and other retirement benefits in the
   Statement of Changes in Net Position.

   The Department reports the assets, funded actuarial liability, and unfunded actuarial liability for the military
   personnel in the Military Retirement Fund (MRF) financial statements. The Department recognizes the
   actuarial liability for the military retirement health benefits in the Other Defense Organization column of the
   DoD Agency-wide consolidating/combining statements.

   To prepare reliable financial statements, transactions occurring between entities within the Department or
   between two or more federal agencies must be eliminated.

   The Department of the Treasury, Financial Management Service (FMS) is responsible for eliminating
   transactions between the Department and other federal agencies. In September 2000, the Department of the
   Treasury, FMS issued the "Federal Intragovernmental Transactions Accounting Policies and Procedures
   Guide." The Corps implemented the policies and procedures in this guide related to reconciling
   intragovernmental assets, liabilities, revenues, and expenses for non-fiduciary transactions. In addition, the
   Corps implemented the policies and procedures contained in the "Intragovernmental Fiduciary Transactions
   Accounting Guide," as updated by the "Federal Intragovernmental Transactions Accounting Policies and
   Procedures Guide," for reconciling intragovernmental transactions pertaining to investments in federal
                                                                                                                       02
                                                                                                                      fy

   securities, borrowings from United States (U.S.) Treasury and the Federal Financing Bank, Federal                       321
                                                                           Employees' Compensation Act transactions with the Department of Labor (DoL), and benefit program
                                                                           transactions with the OPM.

                                                                        H. Transactions with Foreign Governments and International Organizations
                                                                           Each year, the DoD Components sell defense articles and services to foreign governments and international
                                                                           organizations, primarily under the provision of the "Arms Export Control Act of 1976." Under the provision
                                                                           of the Act, the Department has authority to sell defense articles and services to foreign countries and
                                                                           international organizations, generally at no profit or loss to the U.S. Government. Customers may be
                                                                           required to make payments in advance.

                                                                        I. Funds with the U.S. Treasury
                                                                           The Corps' financial resources are maintained in U.S. Treasury accounts. The majority of cash collections,
                                                                           disbursements, and adjustments are processed worldwide at the Defense Finance and Accounting Service
                                                                           (DFAS), Military Services and the U.S. Army Corps of Engineers (USACE) disbursing stations, as well as
                                                                           the Department of State financial service centers. Each disbursing station prepares monthly reports, which
                                                                           provide information to the U.S. Treasury on check issues, electronic transfers, interagency transfers and
                                                                           deposits.

                                                                           In addition, the DFAS centers and the USACE Finance Center submit reports to the Department of the
                                                                           Treasury, by appropriation, on interagency transfers, collections received and disbursements issued. The
                                                                           Department of the Treasury then records this information to the applicable Fund Balance with Treasury
                                                                           (FBWT) account maintained in the Treasury's system. Differences between the Corps’ recorded balance in
                                                                           the FBWT accounts and Treasury's FBWT accounts sometimes result and are reconciled subsequently.
                                                                           Material disclosures are provided at note 3. Differences between accounting offices' detail-level records and
                                                                           Treasury's FBWT accounts are disclosed in Note 21.B, specifically, differences caused by in-transit
                                                                           disbursements and unmatched disbursements (which are not recorded in the accounting offices' detail-level
                                                                           records).

                                                                        J. Foreign Currency
                                                                           The Corps conducts operations overseas. Foreign Currency fluctuations require adjustment to the original
FY02 United States Army Annual Financial Statement




                                                                           obligation amount at the time of payment. These currency fluctuations are not identified separately.

                                                                        K. Accounts Receivable
                                                                           As presented in the Balance Sheet statement, accounts receivable includes accounts, claims, and refunds
                                                     Civil Works Fund




                                                                           receivable from other federal entities or from the public. Allowances for uncollectible accounts due from the
                                                                           public are based upon analysis of collection experience by fund type. The Department does not recognize an
                                                                           allowance for estimated uncollectible amounts from other federal agencies. Claims against other federal
                                                                           agencies are to be resolved between the agencies. Material disclosures are provided at note 5.

                                                                        L. Loans Receivable As Applicable
                                                                           Not applicable
                 322
                                                                              Notes to Principal Statements



M. Inventories and Related Property
   Inventories are reported at approximate historical cost based on a moving weighted average based on actual
   cost divided by quantity. A perpetual record of inventory is maintained to allow for recomputation of the
   average unit cost as new receipts are recorded.

   The related property portion of the amount reported on the Inventory and Related Property line includes
   operating materials and supplies (OM&S) and stockpile materials. The OM&S are valued at standard
   purchase price. For the most part, the Department is using the consumption method of accounting for
   OM&S, as defined in the SFFAS No. 3, "Accounting for Inventory and Related Property" as material that has
   not been issued to the end user. Once OM&S is issued, the material is expensed. Material disclosures
   related to inventory and related property are provided at Note 9.

N. Investments in U.S. Treasury Securities
   Investments in U.S. Government securities are reported at cost, net of unamortized premiums or discounts.
   Premiums or discounts are amortized into interest income over the term of the investment using the effective
   interest rate method or other method if similar results are obtained. The Corps' intent is to hold investments
   to maturity, unless they are needed to finance claims or otherwise sustain operations. Consequently, a
   provision is not made for unrealized gains or losses on these securities, because in the majority of cases, they
   are held to maturity. Amounts reported reflect the value of investments in the South Dakota Terrestrial
   Wildlife Habitat Restoration, Inland Waterways and Harbor Maintenance Trust Fund accounts, which are
   managed by the Treasury Department. Material disclosures are provided at Note 4.

O. General Property, Plant and Equipment
   General property, plant, and equipment (PP&E) assets are capitalized at historical acquisition cost plus
   capitalized improvements when an asset has a useful life of 2 or more years, and when the acquisition cost
   equals 1$ for real property and $25,000 for personal property. There has been much discussion in the past
   that the Corps of Engineers Civil Works should follow the DoD threshold of $100,000. Civil Works has
   justified its threshold amounts by explaining its policy is in line with Federal Energy Regulatory Commission
   guidance and the negative impacts the increased threshold would cause its program. These impacts include
   the effect of accelerating amortization expenses on customer rates and the fact that the lower threshold
   amounts are in line with Government agencies with similar missions (Department of Interior, Department of
   Agriculture, Environmental Protection Agency). Presently, DoD is considering the Corps of Engineers
   request for the Civil Works amounts to remain status quo.

   All General PP&E, other than land, is depreciated on a straight-line basis. Land is not depreciated.

   When it is in the best interest of the government, the Corps provides to contractors government property
   necessary to complete contract work. Such property is either owned or leased by the Corps, or purchased
   directly by the contractor for the government based on contract terms. When the value of contractor
   procured General PP&E exceeds the DoD capitalization threshold, such PP&E should be included in the
   value of General PP&E reported on the Corps' Balance Sheet. The Department completed a study that
   indicates that the value of General PP&E above the DoD capitalization threshold and not older than the DoD
                                                                                                                       02
                                                                                                                      fy

                                                                                                                           323
   Standard Recovery Periods for depreciation, and that is presently in the possession of contractors, is not
                                                                           material to the Department's financial statements. Regardless, the Department is developing new policies
                                                                           and a contractor reporting process that will provide appropriate General PP&E information for future
                                                                           financial statement reporting purposes. Accordingly, the Corps currently reports only government property in
                                                                           the possession of contractors that is maintained in the Corps property systems.

                                                                           To bring the Corps into compliance with federal accounting standards, the Department has issued new
                                                                           property accountability and reporting regulations that require the DoD Components to maintain, in DoD
                                                                           Component property systems, information on all property furnished to contractors. This action and other
                                                                           DoD proposed actions are structured to capture and report the information necessary for compliance with
                                                                           federal accounting standards.

                                                                           Material disclosures are provided at Note 10.

                                                                        P. Advances and Prepayments
                                                                           Payments in advance of the receipt of goods and services are recorded as advances or prepayments and
                                                                           reported as an asset on the Balance Sheet. Advances and prepayments are recognized as expenditures and
                                                                           expenses when the related goods and services are received.

                                                                        Q. Leases
                                                                           Generally, lease payments are for the rental of equipment, space, and operating facilities and are classified as
                                                                           either capital or operating leases. When a lease is essentially equivalent to an installment purchase of
                                                                           property (a capital lease) and the value equals or exceeds the current DoD capitalization threshold, the
                                                                           applicable asset and liability are recorded. The amount recorded is the lesser of the present value of the
                                                                           rental and other lease payments during the lease term, excluding that portion of the payments representing
                                                                           executory costs paid to the lessor, or the asset's fair value. Leases that do not transfer substantially all of the
                                                                           benefits or risks of ownership are classified as operating leases and recorded as expenses as payments are
                                                                           made over the lease terms.

                                                                        R. Other Assets
                                                                           The Corps conducts business with commercial contractors under two primary types of contracts-fixed price
FY02 United States Army Annual Financial Statement




                                                                           and cost reimbursable. To alleviate the potential financial burden on the contractor that long-term contracts
                                                                           can cause, the Corps provides financing payments. One type of financing payment that the Corps makes for
                                                                           real property is based upon a percentage of completion. In accordance with the SFFAS No. 1, "Accounting
                                                                           for Selected Assets and Liabilities," such payments are treated as construction in process and are reported on
                                                     Civil Works Fund




                                                                           the General PP&E line and in note 10, General PP&E, Net. In addition, based on the provision of the
                                                                           Federal Acquisition Regulation, the Corps makes financing payments under fixed price contracts that are not
                                                                           based on a percentage of completion. The Corps reports these financing payments as advances or
                                                                           prepayments in the "Other Assets" line item. The Corps treats these payments as advances or prepayments
                                                                           because the Corps becomes liable only after the contractor delivers the goods in conformance with the
                                                                           contract terms. If the contractor does not deliver a satisfactory product, the Corps is not obligated to
                                                                           reimburse the contractor for its costs and the contractor is liable to repay the Corps for the full amount of the
                                                                           advance.
                 324
                                                                               Notes to Principal Statements



S. Contingencies and Other Liabilities
   The SFFAS No. 5, "Accounting for Liabilities of the Federal Government," defines a contingency as an
   existing condition, situation, or set of circumstances that involves an uncertainty as to possible gain or loss to
   the Corps. The uncertainty will be resolved when one or more future events occur or fail to occur. A
   contingency is recognized as a liability when a past event or exchange transaction has occurred, a future loss
   is probable and the amount of loss can be reasonably estimated. Financial statement reporting is limited to
   disclosure when conditions for liability recognition do not exist, but there is at least a reasonable possibility
   that a loss or additional loss will be incurred. Examples of loss contingencies include the collectibility of
   receivables, pending or threatened litigation, possible claims and assessments. The Corps' loss contingencies
   arising as a result of pending or threatened litigation or claims and assessments occur due to events such as
   ship and vehicle accidents, property or environmental damages, and contract disputes.

T. Accrued Leave
   Civilian annual leave and military leave are accrued as earned and the accrued amounts are reduced as leave
   is taken. The balances for annual and military leave at the end of the fiscal year reflect current pay rates for
   the leave that is earned, but not taken.

U. Net Position
   Net Position consists of unexpended appropriations and cumulative results of operations. Unexpended
   appropriations represent amounts of authority which are unobligated and have not been rescinded or
   withdrawn, and amounts obligated, but for which legal liabilities for payments have not been incurred.

   Cumulative results of operations represent the difference, since inception of an activity, between expenses
   and losses and financing sources including appropriations, revenue, and gains. Beginning with FY 1998, this
   included the cumulative amount of donations and transfers of assets in and out without reimbursement.

V. Treaties for Use of Foreign Bases
   The Corps has no existing treaties for use of foreign bases.

W. Comparative Data
   Beginning in FY 2001, the U.S. Army Corps of Engineers will present the current and previous year's
   financial data for comparative purposes. This data will be presented in the financial statements, as well as in
   the notes to the principal statements.

   In FY 2002, the Corps modified the financial statement presentation for the Statements of Net Cost, Changes
   in Net Position, and Financing. As a result, the Corps statements during this reporting period may not lend
   themselves to comparative analysis. In some instances, amounts on the statements were reported on one
   financial line in FY 2001 and split into multiple financial lines for FY 2002, in accordance with OMB's
   guidance.

X. Unexpended Obligations
   The Corps records obligations for goods and services that have been ordered but not yet received. No liability
                                                                                                                         02
                                                                                                                        fy

                                                                                                                             325
   for payment has been established in the financial statements because goods/services have yet to be delivered.
                                                                        Note 2.                  Nonentity and Entity Assets
                                                                        As of September 30,
                                                                        (Amounts in thousands)                                                    2002                                   2001

                                                                        1. Intragovernmental Assets:                        Nonentity               Entity              Total
                                                                             A.    Fund Balance with Treasury               $41,280           $2,502,677         $2,543,957         $2,537,990
                                                                             B.    Investments                                    0            2,269,086          2,269,086          2,255,539
                                                                             C.    Accounts Receivable                            0              528,150            528,150            476,540
                                                                             D.    Other Assets                                   0                    0                  0                  0
                                                                             E.    Total Intragovernmental Assets           $41,280           $5,299,913         $5,341,193         $5,270,069

                                                                        2. Non-Federal Assets:
                                                                             A.    Cash and Other Monetary Assets              $817                   $0               $ 817            $3,990
                                                                             B.    Accounts Receivable                      915,452                7,479             922,931         1,028,288
                                                                             C.    Loans Receivable                               0                    0                   0                 0
                                                                             D.    Inventory & Related Property                   0               63,139              63,139            54,719
                                                                             E.    General Property, Plant and Equipment          0           36,873,952          36,873,952        34,818,280
                                                                             F.    Other Assets                                   0                   77                  77            16,190
                                                                             G.    Total Non-Federal Assets                $916,269          $36,944,647         $37,860,916       $35,921,467

                                                                        3. Total Assets:                                   $957,549          $42,244,560        $43,202,109        $41,191,536

                                                                        4. Other Information:


                                                                             Assets are categorized as:
                                                                             Entity assets consist of resources that the Corps has the authority to use, or where management is obligated
                                                                             legally to use funds to meet entity obligations.

                                                                             Nonentity assets are assets held by an entity, but are not available for use in the operations of the entity.

                                                                             Composition of Other Nonentity Assets
                                                                             Non-federal nonentity accounts receivable represents all current and noncurrent receivables due from non-
                                                                             federal sources, net of an allowance for estimated uncollectible accounts. Other nonentity receivables
FY02 United States Army Annual Financial Statement




                                                                             include $860 million in long-term receivables due from state and local municipalities for water storage
                                                                             contracts, $13.2 million in current receivables due from state and local municipalities for water storage, $12.5
                                                                             million in accrued interest receivable with the water storage contracts, $8.2 million in claims receivable and
                                                                             $1.7 million in long-term receivable for hydraulic mining. The additional $ .7 million represents amounts
                                                     Civil Works Fund




                                                                             due from the leasing of land acquired for flood control purposes. The allowance for doubtful accounts totals
                                                                             $ .7 million.

                                                                             Federal Non-Entity Fund Balance with Treasury consists of amounts collected into deposit, suspense and
                                                                             budget clearing accounts.

                                                                             Note Reference
                 326                                                         For Additional Line Item discussion, see
                                                                               Notes to Principal Statements



     Note 3, Fund Balance with Treasury
     Note 4, Investments
     Note 5, Accounts Receivable
     Note 6, Other Assets



Note 3.                  Fund Balance with Treasury
As of September 30,
(Amounts in thousands)                                                              2002                    2001

1. Fund Balances:
     A.    Appropriated Funds                                                 $1,177,287               $1,351,271
     B.    Revolving Funds                                                       902,533                  849,577
     C.    Trust Funds                                                            59,954                   11,129
     D.    Other Fund Types                                                      404,183                  326,013
     E.    Total Fund Balances                                                $2,543,957               $2,537,990

2. Fund Balances Per Treasury Versus Agency:
     A.    Fund Balance per Treasury                                          $2,484,784               $2,532,474
     B.    Fund Balance per                                                    2,543,957                2,537,990
     C.    Reconciling Amount                                                  ($59,173)                  ($5,516)

3. Explanation of Reconciliation Amount:


     Reconciling Amount
     Fund Balance per USACE includes $6.3 million and $53.1 million cash reported by Treasury for Inland
     Waterways and Harbor Maintenance Trust Funds, for which the Corps is identified as the lead agency for
     reporting.

     Fund Balance per Treasury includes funds available in appropriation 96X6094 in the amount of $20.7
     million. This account was established to record operating costs at the Washington Aqueduct which are
     reimbursed by local municipalities. Since funding is used in operations, the balance is included with entity
     assets. The amount reported is $.4 million greater than the Treasury's balance due to an unreconciled
     difference between Washington Aqueduct and Treasury.

4. Other Information:
     Fund Balance per USACE includes $40 million in transfer appropriations that were not reported by the Corps
     on the FMS 2108. Those transfer appropriations are reported by the parent agencies on the FMS 2108. The
     parent agencies are Department of Energy, Department of Transportation, and Department of Commerce.
     According to the Treasury Financial Manual, Part 2, Chapter 4000, Federal Agencies' Centralized Trial-
     Balance System, paragraph 4630.60, if an allocation transfer is material to the child's financial statements,
     the child should report the activity relating to the allocation in all of its financial statements, except the
     Statement of Budgetary Resources. The Corps has determined that these balances are material and have
     included them in all of our financial statements except the Statement of Budgetary Resources.                     02
                                                                                                                      fy

                                                                                                                           327
                                                                             Other Fund Types consists of $20.6 million in deposit, suspense and clearing accounts that are not available
                                                                             to finance the Corps' activities, $.8 million in borrowing authority, $363 million in contributed funds and
                                                                             $(.7) million in Disbursing Officer's Cash transactions. The $20.7 million in the suspense account
                                                                             established to finance Washington Aqueduct operations is included also in this balance.

                                                                             Note Reference
                                                                             See Note Disclosure 1.I. - Significant Accounting Policies for additional discussion on financial reporting
                                                                             requirements and DoD policies governing Funds with the U.S. Treasury.



                                                                        Note 4.                  Investments
                                                                        As of September 30,
                                                                        (Amounts in thousands)                                                         2002                                      2001

                                                                                                                                       Amor-    Amortized                         Market
                                                                                                                                       zation   (Premium/    Investments,          Value   Investments,
                                                                        1. Intragovernmental Securities:                       Cost   Method     Discount)           Net      Disclosure           Net
                                                                             A.    Marketable                                    $0                    $0         $0                $0         $0
                                                                             B.    Non-Marketable, Par Value                      0                     0          0                 0          0
                                                                             C.    Non-Marketable, Market-Based           2,289,045              (24,594) 2,264,451          2,264,452 2,250,847
                                                                             D.    Subtotal                              $2,289,045             ($24,594) $2,264,451        $2,264,452 $2,250,847
                                                                             E.    Accrued Interest                          $4,635                     -      4,635            $4,635      4,693
                                                                             F.    Total Intragovernmental Securities   $2,293,6807             ($24,594) $2,269,086        $2,269,087 $2,255,540

                                                                        2. Other Investments:                                   $0                    $0             $0             $0             $0

                                                                        3. Other Information:
                                                                             Investments for the Inland Waterways, Harbor Maintenance, and South Dakota Terrestrial Wildlife Habitat
                                                                             Restoration Trust Funds are reported by the Treasury and included in U.S. Army Corps of Engineers'
                                                                             Financial Statements. Investment amounts include $406 million in Inland Waterways, $1,821 million in
                                                                             Harbor Maintenance and $42 million in the South Dakota Terrestrial Wildlife account.

                                                                             It is the intent to hold investments until maturity unless they are needed to sustain operations. Provisions are
FY02 United States Army Annual Financial Statement




                                                                             not made for unrealized gains or losses on these securities. The Trust Funds use the same method that
                                                                             conforms to the prevailing practice in the financial community to determine the amortized book value of
                                                                             investments currently held and the related effective interest yield on investments. These calculated yields
                                                                             agree with yields published in the security tables of U.S. Treasury securities.
                                                     Civil Works Fund




                                                                             These types of investments are recorded at cost, net of unamortized premiums or discounts. Premiums or
                                                                             discounts are amortized into interest income over the term of the investment. Investment decisions for these
                                                                             funds are made by the managing entity, in this case the Department of the Treasury. ·

                                                                             Note Reference
                                                                             See Note Disclosure 1.N. - Investments in U.S. Treasury for additional DoD policies governing Investments
                 328
                                                                             in U.S. Treasury Securities.
                                                                                      Notes to Principal Statements



Note 5.                  Accounts Receivable
As of September 30,
(Amounts in thousands)                                               2002                                            2001

                                                    Gross            Allowance For             Accounts          Accounts
                                                Amount Due   Estimated Collectibles       Receivable, Net   Receivable, Net

1. Intragovernmental Receivables:                $528,149                     N/A             $528,149          $476,540

2. Non-Federal Receivables
   (From the Public):                             925,395                ($2,464)              922,931         1,028,288

3. Total Accounts Receivable:                  $1,453,544                ($2,464)          $1,451,080        $1,504,828

4. Allowance method:
     Allowance Method
     The method of calculating the allowance for estimated uncollectibles is based on the cumulative balance of
     delinquent public receivables aged in accordance with current USACE policy. The calculation was
     performed automatically in the Corps of Engineers Financial Management System as part of the year-end
     closing process. The Code of Federal Regulations (4CFR 101) prohibits the write-off of receivables from
     another federal agency. As such, no allowance for estimated uncollectible amounts is recognized for these
     receivables.

5. Other information:


     Intragovernmental Account Receivable Adjustments
     Elimination Adjustments
     The Corps was able to compare its accounts receivable balances with the accounts payable balances of its
     intragovernmental trading partners. No material differences were identified.

     Intragovernmental Receivables Over 180 Days
     The amount of intragovernmental receivables over 180 days old is $24 million. No intragovernmental
     receivables have been submitted to the General Accounting Office for opinion.

     Public Receivables Over 180 Days
     The amount of public receivables over 180 days old is $38 million. Receivables with the public include $1.6
     million in accrued interest on delinquent receivables.

     Non-federal Refunds Receivable
     The amount of public receivables includes $1.5 million in refunds receivable.

     Other Disclosures
     Public receivables include $20 million in current and $860 million in long-term accounts receivable
     associated with water storage contracts.

     The amount of Public Receivables on the Treasury Report on Receivables Due From the Public is $2.5                        02
                                                                                                                              fy

     million greater than the balance of public receivables reflected on the balance sheet. The difference is                      329
                                                                             attributed to the allowance for estimated uncollectibles not included on the Treasury report.

                                                                             Intragovernmental receivables increased due primarily to an increase of $37.2 million in the receivable for
                                                                             transfers of currently invested balances for the trust funds. The trust fund receivable includes $304 million
                                                                             for the Coastal Wetlands Restoration Trust Fund and $18.5 million for the Inland Waterways Trust Fund. To
                                                                             accommodate cash management practices, funds will remain invested until needed for disbursement. The
                                                                             budget authority is realized and obligations may be incurred before the actual transfer of funds.

                                                                             Note Reference
                                                                             See Note Disclosure 1.K. - Significant Accounting Policies for additional discussion on financial reporting
                                                                             requirements and DoD policies governing Accounts Receivable.



                                                                        Note 6.                  Other Assets
                                                                        s of September 30,2002
                                                                        (Amounts in thousands)                                                               2002                    2001

                                                                        1. Intragovernmental Other Assets:
                                                                             A.    Advances and Prepayments                                                    $0                      $0
                                                                             B.    Other Assets                                                                 0                       0
                                                                             C.    Total Intragovernmental Other Assets                                        $0                      $0

                                                                        2. Non-Federal Other Assets:
                                                                             A.    Outstanding Contract Financing Payments                                     $0                      $0
                                                                             B.    Other Assets (With the Public)                                              77                  16,190
                                                                             C.    Total Non-Federal Other Assets                                             $77                 $16,190

                                                                        3. Total Other Assets:                                                                $77                 $16,190

                                                                        4. Other Information:
                                                                             Other assets have been reclassified and reported as other property, plant and equipment.
                                                                             .
FY02 United States Army Annual Financial Statement




                                                                             Note Reference
                                                                             See Note Disclosure 1. R. - Significant Accounting Policies for additional discussion on financial reporting
                                                                             requirements and DoD policies governing Other Assets.
                                                     Civil Works Fund




                                                                        Note 7.                  Cash and Other Monetary Assets
                                                                        As of September 30,
                                                                        (Amounts in thousands)                                                               2002                    2001

                                                                        1.   Cash                                                                            $654                   $622
                                                                        2.   Foreign Currency (non-purchased)                                                 163                   3,368
                                                                        3.   Other Monetary Assets                                                              0                       0
                                                                        4.   Total Cash, Foreign Currency, & Other
                 330                                                         Monetary Assets                                                                 $817                  $3,990
                                                                             Notes to Principal Statements



5. Other Information:
   The decrease of $3.2 million reflects a correction to erroneous reporting in FY 2001, which included the
   military portion of foreign currency.

   Definitions
   Cash - consists of the total of cash resources under the control of the Corps, which includes coin, paper
   currency, purchased foreign currency, negotiable instruments, and amounts on deposit in banks and other
   financial institutions. Cash available for agency use should include petty cash funds and cash held in
   revolving funds which will not be transferred into the U.S. Government General Fund.

   Foreign Currency - consists of the total U.S. dollar equivalent of non-purchased foreign currencies held in
   foreign currency fund accounts. Non-purchased foreign currency is limited to the Treasury Index 97X7000
   fund account (formerly called FT accounts).

   Other Monetary Assets - includes gold, special drawing rights, and U.S. Reserves in the International
   Monetary Fund. This category is principally for use by the Department of the Treasury.

   Other Corps Disclosures
   Cash consists solely of Disbursing Officers' Cash and reconciles to Note 15A Disbursing Officer's Cash. It
   differs from the Statement of Accountability by $992.80 due to erroneous reporting of the Statement of
   Accountability.

   The Corps translates foreign currency to U.S. dollars utilizing the Department of the Treasury Prevailing Rate
   of Exchange. This rate is the most favorable rate that would be available legally to the U.S. Government's
   acquisition of foreign currency for its official disbursements and accommodation of exchange transactions.

   Note Reference
   See Note Disclosure 1. J. - Significant Accounting Policies for additional discussion on financial reporting
   requirements and DoD policies governing Foreign Currency.



Note 8. A. Direct Loan and/or Loan Guarantee Programs
1. Direct Loan and/or Loan Guarantee Programs: The entity operates the following direct loan
   and/or Loan guarantee program(s):

   The Corps participates in Military Housing Privatization Initiatives only from our military funded accounts.
   Therefore, these Civil Works Financial Statements reflect no activity in this area.




                                                                                                                     02
                                                                                                                    fy

                                                                                                                         331
                                                                        Note 8.B.      Direct Loans Obligated After FY 1991
                                                                           Not Applicable



                                                                        Note 8.C.      Total Amount of Direct Loans Disbursed
                                                                           Not Applicable



                                                                        Note 8.D.      Subsidy Expense for Post-1991 Direct Loans
                                                                           Not Applicable



                                                                        Note 8.E.      Subsidy Rate for Direct Loans
                                                                           Not Applicable



                                                                        Note 8.F.      Schedule for Reconciling Subsidy Cost Allowance Balances for
                                                                                       Post-1991 Direct Loans
                                                                           Not Applicable



                                                                        Note 8.G.      Defaulted Guaranteed Loans from Post-1991 Guarantees
                                                                           Not Applicable



                                                                        Note 8.H.      Guaranteed Loans Outstanding
                                                                           Not Applicable
FY02 United States Army Annual Financial Statement




                                                                        Note 8.I.      Liability for Post-1991 Loan Guarantees, Present Value
                                                                           Not Applicable
                                                     Civil Works Fund




                                                                        Note 8.J.      Subsidy Expense for Post-1991 Loan Guarantees
                                                                           Not Applicable



                                                                        Note 8.K.      Subsidy Rate for Loan Guarantees
                                                                           Not Applicable

                 332
                                                                                  Notes to Principal Statements



Note 8.L.                Schedule for Reconciling Loan Guarantee Liability Balances for
                         Post-1991 Loan Guarantees
     Not Applicable



Note 8.M. Administrative Expense
     Not Applicable



Note 9.                  Inventory and Related Property
As of September 30,                                                                      2002                           2001
(Amounts in thousands)
1.   Inventory, Net (Note 9.A.)                                                      $63,037                         $54,421
2.   Operating Materials & Supplies, Net (Note 9.B.)                                     102                             299
3.   Stockpile Materials, Net (Note 9.C.)                                                  0                               0
4.   Total                                                                           $63,139                         $54,720



Note 9.A.                Inventory, Net
As of September 30
(Amounts in thousands)                                                 2002                                   2001
                                                      Inventory,   Revaluation   Inventory,      Inventory,          Valuation
1. Inventory Categories:                            Gross Value     Allowance          Net             Net            Method
     A.    Available and Purchased for Resale         $87,245      ($46,697)     $40,548         $47,343                   O
     B.    Held for Repair                                  0              0           0               0
     C.    Excess, Obsolete, and Unserviceable             44           (44)           0               1                NRV
     D.    Raw Materials                                    0              0           0               0
     E.    Work in Process                             22,489              0      22,489           7,077                   O
     F.    Total                                     $109,778      ($46,741)     $63,037         $54,421

     Legend for Valuation Methods:
     Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses
     NRV = Net Realizable Value
     O = Other
     SP = Standard Price
     AC = Actual Cost

2. Restrictions of Inventory Use, Sale, or Disposition:
     Inventory may be sold to foreign, state and local governments, private parties and contractors in accordance
     with current policies and guidance or at the direction of the U.S. President. Otherwise, there are no
     restrictions on the use, sale or disposition of inventory.

3. Other Information:


     General Composition of Inventory
                                                                                                                                  02
                                                                                                                                 fy

                                                                                                                                      333
     Inventory is tangible personal property that is: (1) held for sale, (2) in the process of production for sale or
                                                                             (3) to be consumed in the production of goods for sale or in the provision of services for a fee. "Inventory
                                                                             held for Current Sale" is that which is expected to be sold in the normal course of operations. "Excess
                                                                             Inventory" is that which exceeds the demand expected in the normal course of operations and which does not
                                                                             meet management's criteria to be held in reserve for future sale. "Obsolete Inventory" is that which no longer
                                                                             is needed due to changes in technology, laws, customs or operations. "Unserviceable Inventory" is damaged
                                                                             inventory that is more economical to dispose of than to repair.

                                                                             The inventory data reported on the financial statements is derived from the Corps of Engineers Financial
                                                                             Management System (CEFMS). CEFMS is a comprehensive system that is designed to capture and maintain
                                                                             historical cost data necessary to comply fully with the Statement of Federal Financial Accounting Standards
                                                                             Number 3, "Accounting for Inventory and Related Property."

                                                                             The inventory valuation method is based on a moving weighted average based on actual cost divided by
                                                                             quantity. A perpetual record of inventory is maintained to allow for recomputation of the average unit cost as
                                                                             new receipts are recorded. The method of valuation was misstated in previous years' statements as Latest
                                                                             Acquisition Cost.

                                                                             Inventory coded as excess, obsolete and unserviceable has been revalued to reflect a zero value.

                                                                             The inventory increase in the Work in Process category is due to the mat casting process in support of the
                                                                             Revetment Program in the Lower Mississippi Valley Districts.

                                                                             Note Reference
                                                                             See Note Disclosure 1. M. - Significant Accounting Policies for additional discussion on financial reporting
                                                                             requirements and DoD policies governing Inventory and related Property.



                                                                        Note 9.B.                Operating Materials and Supplies, Net
                                                                        As of September 30,
                                                                        (Amounts in thousands)                                             2002                           2001
FY02 United States Army Annual Financial Statement




                                                                                                                                        Revaluation                               Valuation
                                                                        1. OM&S Categories:                          OM&S Gross Value    Allowance      OM&S, Net     OM&S, Net    Method
                                                                             A.    Held for Use                                 $102            $0          $102          $299            O
                                                                             B.    Held for Repair                                 0             0             0             0
                                                                             C.    Excess, Obsolete, and Unserviceable             0             0             0             0
                                                     Civil Works Fund




                                                                             D.    Total                                        $102             0          $102          $299

                                                                             Legend for Valuation Methods:
                                                                             Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses
                                                                             NRV = Net Realizable Value
                                                                             O = Other
                                                                             SP = Standard Price
                                                                             AC = Actual Cost
                 334
                                                                                           Notes to Principal Statements



2. Restrictions on OM&S:
     There are no restrictions on operating materials and supplies. The valuation method is based on a moving
     weighted averaged based on actual cost divided by quantity.

3. Other Information:
     Note Reference
     See Note Disclosure 1. M. - Significant Accounting Policies for additional discussion on financial reporting
     requirements and DoD policies governing Inventory and Related Property.



Note 9.C.                Stockpile Materials, Net
     Not Applicable



Note 10.                 General PP&E, Net
As of September 30,
(Amounts in thousands)                                                           2002                                      2001
                                  Depreciation/                                     (Accumulated
                                  Amortization                     Acquisition       Depreciation/            Net    Prior FY Net
1. Major Asset Classes:                Method     Service Life          Value        Amortization)     Book Value     Book Value
     A. Land                              N/A            N/A      $8,045,799                 N/A      $8,045,799     $7,876,386
     B. Buildings, Structures and
        Facilities                        S/L   20 Or 40          30,543,611      ($12,506,873)       18,036,738     17,228,056
     C. Leasehold Improvements            S/L lease term              23,151            (4,552)           18,599            466
     D. Software                          S/L 2-5 Or 10               52,624              (574)           30,917         35,802
     E. Equipment                         S/L    5 Or 10           1,199,584           (21,707)          650,784        609,912
     F. Assets Under Capital Lease1       S/L lease term                   0                  0                0              0
     G. Construction-in-Progress          N/A        N/A          10,042,530                N/A       10,042,530      9,043,763
     H. Other                                                         48,586                  0           48,586         23,894
     I. Total General PP&E                                       $49,955,885      ($13,081,932)      $36,873,953    $34,818,279

     1
      Note 15.B for additional information on Capital Leases

     Legend for Valuation Methods:
     S/L = Straight Line         N/A = Not Applicable

2. Other Information:


     General PP&E - Significant Amount of Assets
     The $2.1 billion previously identified as intangible assets has been reclassified as land. These assets are
     comprised of historical costs associated with the acquisition of land in conjunction with power projects.
     Costs originally were classified as intangible assets in order to comply with Federal Energy Regulatory
     Commission guidelines on cost recovery. However, the decision was made that these costs were classified
     improperly in accordance with SFFAS No. 6, "Accounting for Property, Plant and Equipment," as they were
     part of the initial acquisition cost of the land and should have been classified as such. We have also made a
                                                                                                                                     02
                                                                                                                                    fy

                                                                                                                                         335
     reversing entry for current year amortization in our fiscal year 2002 statements to reflect properly the effect
                                                                             of the transfer into land (category 00) where accumulated depreciation is inappropriate.

                                                                             The service lives for our multiple purpose project assets are derived from guidance provided by the Federal
                                                                             Energy Regulatory Commission based on industry standards.

                                                                             The $18.1 million increase in leasehold improvements from FY 2001 is attributed to new FY 2002 Corps
                                                                             policy requiring all capital improvements with a useful life of two or more years and cost of $25,000 or
                                                                             greater will be capitalized as leasehold improvements.

                                                                             Other assets include $11.7 million for archaeological and cultural resources reclassified from other assets to
                                                                             property, $7.3 million in deferred and undistributed items, $23.8 million in property awaiting disposal and
                                                                             $5.8 million in unidentified assets.

                                                                             Note Reference
                                                                             See Note Disclosure 1. N. - Significant Accounting Policies for additional discussion on financial reporting
                                                                             requirements and DoD policies governing General Property, Plant and Equipment (PP&E).



                                                                        Note 10.A. Assets Under Capital Lease
                                                                             Not Applicable



                                                                        Note 11.                 Liabilities Not Covered and Covered by Budgetary Resources
                                                                        As of September 30,
                                                                        (Amounts in thousands)                                                       2002                             2001
                                                                                                                                  Covered by   Not Covered By
                                                                        1. Intragovernmental Liabilities:                Budgetary Resources     by Budgetary           Total
                                                                             A.    Accounts Payable                                $83,815              $0         $83,815          $92,731
                                                                             B.    Debt                                                554          24,113          24,667            30,512
                                                                             C.    Environmental Liabilities                             0               0               0                 0
                                                                             D.    Other                                          961,649          185,293       1,146,942         1,167,318
                                                                             E.    Total Intragovernmental Liabilities          $1,046,018        $209,406      $1,255,424       $1,290,561
FY02 United States Army Annual Financial Statement




                                                                        2. Non-Federal Liabilities:
                                                                             A.    Accounts Payable                               $595,952                $0     $595,952          $505,326
                                                                             B.    Military Retirement Benefits and
                                                     Civil Works Fund




                                                                                   Other Employment-Related
                                                                                   Actuarial Liabilities                                 0               0               0                0
                                                                             C.    Environmental Liabilities                             0               0               0                0
                                                                             D.    Loan Guarantee Liability                              0               0               0                0
                                                                             E.    Other Liabilities                               590,777               0         590,777          576,522
                                                                             F.    Total Non-Federal Liabilities                $1,186,729              $0      $1,186,729       $1,081,848
                                                                             3. Total Liabilities:                              $2,232,747        $209,406      $2,442,153       $2,372,409

                                                                        4. Other Information:
                 336
                                                                           Notes to Principal Statements



Liabilities Not Covered and Covered by Budgetary Resources
Liabilities Not Covered by Budgetary Resources are those liabilities which are not considered covered by
realized budgetary resources as of the balance sheet date.

Liabilities Covered by Budgetary Resources are those that are incurred by the reporting entity which are
covered by realized budget resources as of the balance sheet date. Budgetary resources encompass not only
new budget authority, but also other resources available to cover liabilities for specified purposes in a given
year. Available budgetary resources include: (1) new budget authority, (2) spending authority from offsetting
collections (credited to an appropriation or fund account), 3) recoveries of unexpired budget authority
through downward adjustments of prior year obligations, 4) unobligated balances of budgetary resources at
the beginning of the year or net transfers of prior year balances during the year, and 5) permanent indefinite
appropriations or borrowing authority, which have been enacted and signed into law as of the balance sheet
date, provided that the resources may be apportioned by the OMB without further action by the Congress or
without a contingency first having to be met.

Other Corps Information
Intragovernmental other liabilities (not covered by budgetary resources) includes judgment fund liabilities in
the amount of $144.6 million and the FY 2002 Workmen's Compensation liabilities in the amount of $40.7
million.

Intragovernmental other liabilities (covered) includes $880 million representing future revenue from long
term water storage contracts and $1.6 million representing future revenue from long term hydraulic mining
contracts. Once collected, these monies are returned to the Department of Treasury's general fund receipt
account and have no budgetary impact. This category also includes $13.7 million in employer contributions
and payroll taxes, $.7 million in Disbursing Officer Cash, $33.6 million to offset interest and account
receivables which, when collected, will be returned to Treasury, $14.4 million in the suspense account and
$17.3 million in unearned advances.

The Actuarial Liability for Federal Employee's Compensation Act (FECA) is not included. The Department
of Labor is unable to furnish a figure for FECA liability specific to the Corps of Engineers.

Non-federal other liabilities (covered) includes $388.4 million in accrued funded payroll and leave, $41.7
million in contract holdbacks, $32.4 million in unearned advances, $80 million in contributed funds, mainly
from state and local municipalities for work to be done on a cost-share basis, $41.8 million maintained to
fund contingent liabilities arising from casualty losses and $6.5 million in deposit fund and clearing account
liabilities.

Note Reference
For Additional Line Item discussion, see:
Note 8, Direct Loans and/or Loan Guarantee Programs
Note 12, Accounts Payable
Note 13, Liabilities Not Covered and Covered by Budgetary Resources
                                                                                                                   02
                                                                                                                  fy

                                                                                                                       337
Note 14, Environmental Restoration Liabilities, and Environmental Disposal Liabilities
                                                                             Note 15, Other Liabilities
                                                                             Note 16, Commitments and Contingencies
                                                                             Note 17, Military Retirement Benefits and Other Employment Related Actuarial Liabilities



                                                                        Note 12.                 Accounts Payable
                                                                        As of September 30,
                                                                        (Amounts in thousands)                                                      2002                                   2001
                                                                                                                                       Interest, Penalties, and
                                                                                                                    Accounts Payable      Administrative Fees              Total             Total
                                                                        1. Intragovernmental Payables:                     $83,814                        N/A          $83,814           $92,731
                                                                        2. Non-Federal Payables
                                                                           (to the Public):                                595,952                         $0          595,952          505,326
                                                                        3. Total                                           679,766                         $0         $679,766         $598,057

                                                                        4. Other Information:
                                                                             Intragovernmental Accounts Payable consists of amounts owed to other federal agencies for goods or
                                                                             services ordered and received, but not yet paid. Interest, penalties and administrative fees are not applicable
                                                                             to intragovernmental payables. Non-Federal Payables (to the Public) are payments to non-federal
                                                                             government entities.

                                                                             The reason for the variance in Accounts Payable from Fiscal Year (FY) 2001 is due largely to the fact that
                                                                             Accounts Payable was reduced by $161 million in FY 2001 due to an Auditor recommended adjustment
                                                                             based on unsupported accruals. During FY 2002 USACE put out new policy to correct this matter and thus
                                                                             no adjustment was made.

                                                                             The Corps has no known delinquent accounts payable, therefore no amount is reported for interest, penalties,
                                                                             and administrative fees. During FY 2002, the Corps paid $143 thousand in interest, from Civil Works
                                                                             appropriations, on payments of $4.5 billion subject to the Prompt Payment Act (.003%).

                                                                             Note Reference
                                                                             See Note Disclosure 1. G. - Significant Accounting Policies for additional discussion on financial reporting
FY02 United States Army Annual Financial Statement




                                                                             requirements and DoD policies governing accounting for Intragovernmental Activities.



                                                                        Note 13.                 Debt
                                                     Civil Works Fund




                                                                        As of September 30,
                                                                        (Amounts in thousands)                                                        2002                                 2001

                                                                        1. Public Debt:                            Beginning Balance          Net Borrowings      Ending Balance   Ending Balance
                                                                             A.    Held by Government Accounts                 N/A                        N/A              N/A               N/A
                                                                             B.    Held by the Public                          N/A                        N/A              N/A               N/A
                                                                             C.    Total Public Debt                           N/A                        N/A              N/A               N/A



                 338
                                                                                     Notes to Principal Statements



As of September 30,
(Amounts in thousands)                                                    2002                                   2001

2. Agency Debt:                                 Beginning Balance   Net Borrowings      Ending Balance   Ending Balance
     A.    Debt to the Treasury                         $30,512          ($5,845)            $24,667          $30,512
     B.    Debt to the Federal Financing Bank                 0                 0                  0                0
     C.    Debt to Other Federal Agencies                     0                 0                  0                0
     D.    Total Agency Debt                            $30,512          ($5,845)            $24,667          $30,512

3. Total Debt:                                          $30,512          ($5,845)            $24,667          $30,512

4. Classification of Debt:
     A.    Intragovernmental Debt                                                            $24,667          $30,512
     B.    Non-Federal Debt                                                                      N/A              N/A
     C.    Total Debt                                                                        $24,667          $30,512

5. Other Information:
     During fiscal years 1997, 1998, and 1999, the Corps of Engineers executed three promissory notes totaling
     $75 million with the Department of the Treasury. Funds provided were used for capital improvements to the
     Washington Aqueduct. Funding to repay the debt is provided by Arlington County and Falls Church,
     Virginia, and the District of Columbia. Actual draw down of funds has been made from the Treasury in the
     amount of $73.4 million. Principal repayments as of September 30, 2002 total $49.3 million. $553,901.68
     represents accrued interest payable at September 30, 2002.

     During fiscal year 2002, actual draw down of funds from the Treasury totals $10.3 million. Principal
     repayments during fiscal year 2002 total $16 million.

     Note Reference
     See Note Disclosure 1. G. - Significant Accounting Policies for additional discussion on financial reporting
     requirements and DoD policies governing Accounting for Intragovernmental Activities, Public Debt.



Note 14.                 Environmental Liabilities and Disposal Liabilities
     Not Applicable




                                                                                                                           02
                                                                                                                          fy

                                                                                                                               339
                                                                        Note 15.A. Other Liabilities
                                                                        As of September 30,
                                                                        (Amounts in thousands)                                                   2002                             2001

                                                                        1. Intragovernmental:                        Current Liability   Noncurrent Liability         Total        Total
                                                                             A.   Advances from Others                      $17,312                      $0        $17,312      $21,491
                                                                             B.   Deferred Credits                                0                       0              0      991,343
                                                                             C.   Deposit Funds and Suspense Account
                                                                                  Liabilities                                14,413                        0       14,413             0
                                                                             D. Resources Payable to Treasury               33,642                         0       33,642             0
                                                                             E. Disbursing Officer Cash                         653                        0          653           649
                                                                             F. Non-environmental Disposal Liabilities:
                                                                                  (1) National Defense PP&E (Non-nuclear)         0                        0            0             0
                                                                                  (2) Excess/Obsolete Structures                  0                        0            0             0
                                                                                  (3) Conventional Munitions Disposal             0                        0            0             0
                                                                                  (4) Other                                       0                        0            0             0
                                                                             G. Accounts Payable-- Cancelled Appropriations       0                        0            0             0
                                                                             H Judgment Fund Liabilities                   144,641                         0      144,641       103,618
                                                                             I. FECA Reimbursement to the Department
                                                                                  of Labor                                   15,835                24,817           40,652        40,178
                                                                             J. Capital Lease Liability                           0                     0                0             0
                                                                             K. Other Liabilities                            13,702               881,925          895,627        10,039
                                                                             L. Total Intragovernmental Other Liabilities $240,198               $906,742       $1,146,940    $1,167,318

                                                                        2. Non-Federal:
                                                                             A. Accrued Funded Payroll and Benefits       $388,374                       $0      $388,374      $353,706
                                                                             B. Advances from Others                       112,410                        0       112,410        77,527
                                                                             C. Deferred Credits                                 0                        0             0             6
                                                                             D. Loan Guarantee Liability                         0                        0             0             0
                                                                             E. Liability for Subsidy Related to
                                                                                Undisbursed Loans                                0                         0            0              0
                                                                             F. Deposit Funds and Suspense Accounts          6,524                         0        6,524         27,010
                                                                             G. Temporary Early Retirement Authority             0                         0            0              0
                                                                             H. Non-environmental Disposal Liabilities:
FY02 United States Army Annual Financial Statement




                                                                                (1) National Defense PP&E (Non-nuclear)          0                         0             0            0
                                                                                (2) Excess/Obsolete Structures                   0                         0             0            0
                                                                                3) Conventional Munitions Disposal               0                         0             0            0
                                                                                (4) Other                                        0                         0             0            0
                                                                             I. Accounts Payable--Cancelled Appropriations       0                         0             0            0
                                                     Civil Works Fund




                                                                             J. Accrued Unfunded Annual Leave                    0                         0             0            0
                                                                             K. Accrued Entitlement Benefits for Military
                                                                                Retirees and Survivors                           0                        0             0             0
                                                                             L. Capital Lease Liability                          0                        0             0             0
                                                                             M. Other Liabilities                           83,468                        0        83,468       118,272
                                                                             N. Total Non-Federal Other Liabilities       $590,776                       $0      $590,776      $576,521

                                                                        3. Total Other Liabilities:                       $830,974               $906,742       $1,737,716    $1,743,839
                 340
                                                                               Notes to Principal Statements



4. Other Information:


   Other Liabilities
   The Corps of Engineers Civil Works Directorate has recognized 28 unfunded liabilities arising from the
   Judgment Fund Contract Disputes Act settlement in accordance with the interpretation of Federal Financial
   Accounting Standards Number 2, “Accounting for Treasury Judgment Fund Transactions.” The Corps
   included $80.1 million in the FY 2003 Energy and Water Development Act Budget Submission. Congress
   has not funded these liabilities in the past. The Corps did not request the entire $144.6 million in the FY
   2003 budget due to the fact that we have several Judgment Fund liabilities valued at $64.5 million which
   were associated with reimbursable work for local sponsors and these customers need to find appropriate
   funding. Until this is accomplished, the Corps will report these liabilities.

   Federal Employees' Workman's Compensation costs reflect cost incurred for income lost and medical costs
   for federal civilian employees injured on the job, employees who have incurred a work-related occupational
   disease, and beneficiaries of employees whose death is attributable to a job-related injury or occupational
   disease. The costs are paid from the Federal Employees' Compensation Act (FECA). Fiscal year 2003 costs
   are reflected as a current liability.

   Intragovernmental other liabilities (current) represent the liability for Employer Contributions and Payroll
   Taxes. Intragovernmental other liabilities (noncurrent) represent future revenue from long-term water storage
   and hydraulic mining contracts.

   $80 million of the non-federal advances from others is for contributed funds, mainly from state and local
   municipalities for work to be done on a cost-share basis.

   $33.6 million in Resources Payable to Treasury was reclassified from Custodial Liabilities due to restrictions
   imposed on balances reported for Custodial Liabilities.

   $882 million was reclassified from deferred credits to other liabilities for long-term water storage contracts,
   in accordance with DoD regulation.

   $41.8 million of the non-federal other liabilities is maintained to fund contingent liabilities arising from
   casualty losses. An additional $41.7 million in contract holdbacks on construction-in-progress payments also
   is included.

   Note Reference
   See Note Disclosure 1. S. - Significant Accounting Policies for additional discussion on financial reporting
   requirements and DoD policies governing Contingencies and Other Liabilities.



Note 15.B. Capital Lease Liability                                                                                    02
                                                                                                                     fy
   Not Applicable
                                                                                                                          341
                                                                        Note 16.             Commitments and Contingencies
                                                                             Disclosures Related to Commitments and Contingencies:
                                                                             Proprietary contingencies commonly are referred to as contingent liabilities. Although the Corps of
                                                                             Engineers has cases pending litigation, they fail to satisfy the criteria to record a contingent liability in
                                                                             accordance with the Federal Financial Accounting Standard Number 5, “Accounting for Liabilities of the
                                                                             Federal Government.” Therefore, no amount is included in our financial statements.

                                                                             Note Reference
                                                                             See Note Disclosure 1. S. - Significant Accounting Policies for additional discussion on financial reporting
                                                                             requirements and DoD policies governing Contingencies and Other Liabilities.



                                                                        Note 17.             Military Retirement Benefits and Other Employment Related
                                                                                             Actuarial Liabilities
                                                                             Not Applicable



                                                                        Note 18.             Unexpended Appropriations
                                                                        As of September 30,
                                                                        (Amounts in Thousands)                                                                2002                      2001

                                                                        1. Unexpended Appropriations:
                                                                             A.   Unobligated, Available                                                 $694,450                   $747,093
                                                                             B.   Unobligated, Unavailable                                                       8                       489
                                                                             C.   Unexpended Obligations                                                   369,982                   467,320
                                                                             D.   Total Unexpended Appropriations                                       $1,064,440                $1,214,902

                                                                        2. Other Information Pertaining to Unexpended Appropriations:
                                                                             Unexpended appropriations are the amount of budget authority remaining for disbursement against current or
                                                                             future obligations. Unobligated balances are classified as available or unavailable. Unobligated balances
                                                                             associated with appropriations expiring at fiscal year end remain available only for obligation adjustments
FY02 United States Army Annual Financial Statement




                                                                             until the account is closed. Unexpended obligations represent those goods and services that have not been
                                                                             received/performed yet.

                                                                             Unexpended appropriations is $.4 million less than the balance of unexpended appropriations reflected on the
                                                     Civil Works Fund




                                                                             Balance Sheet due to an unreconciled difference in the Funds Balance between Washington Aqueduct and
                                                                             Treasury for appropriation 96X6094. Budgetary accounts were adjusted in order to reconcile with Treasury
                                                                             FACTS II submission edits.



                                                                        Note 19.A. General Disclosures Related to the Statement of Net Cost
                                                                             Not Applicable
                 342
                                                                            Notes to Principal Statements



Note 19.B. Gross Cost and Earned Revenue by Budget Functional
Classification
     Not Applicable



Note 19.C. Gross Cost to Generate Intragovernmental Revenue and Earned
           Revenue (Transactions with Other Federal-Non-DoD-Entities) by
           Budget Functional Classification
     Not Applicable



Note 19.D. Imputed Expenses
As of September 30,
(Amount in thousands)                                                            2002                   2001

     1.    Civilian (e.g.,CSRS/FERS) Retirement                               $81,319                 $80,620
     2.    Civilian Health                                                    102,986                  99,996
     3.    Civilian Life Insurance                                                366                     344
     4.    Military Retirement Pension                                              0                       0
     5.    Military Retirement Health                                               0                       0
     6.    Judgment Fund                                                       24,316                  30,635
     7.    Total Imputed Expenses                                            $208,987                $211,595



Note 19.E. Benefit Program Expenses
     Not Applicable



Note 19. F. Exchange Revenue
     Disclosures Related to the Exchange Revenue:
     Exchange Revenue - arises when a Government entity provides goods and services to the public or to another
     Government entity for a price, - "earned revenue." Exchange revenue includes most user charges other than
     taxes, i.e., regulatory user charges.

     SFFAS No. 7 - Disclosures and Other Accompanying Information Requirements
     Goods and services provided through reimbursable programs to the public or another U.S. Government entity
     (Intra-Corps, Intra-DoD, or other federal government entity) are provided at cost. Such reimbursable sales
     are reported as earned revenues. Costs are equal to the amount reported as earned.

     Note Reference
     For Regulatory Discussion on "Exchange Revenue" see, Department of Defense Financial Management
     Regulation, Volume 6B, Chapter 10, paragraph 102116.
                                                                                                                   02
                                                                                                                  fy

                                                                                                                       343
                                                                        Note 19.G. Amounts for Foreign Military Sales (FMS) Program Procurements
                                                                                   from Contractors
                                                                             Not Applicable



                                                                        Note 19.H. Stewardship Assets
                                                                             Not Applicable



                                                                        Note 19.I.               Intragovernmental Revenue and Expense
                                                                             Disclosures Related to Intragovernmental Revenue and Expense:

                                                                             Intragovernmental Revenue
                                                                             The Corps of Engineers Financial Management System (CEFMS) captures trading partner data at the
                                                                             transaction level in a manner that facilitates trading partner reconciliation and elimination entries.

                                                                             Note Reference
                                                                             For Regulatory Discussion on "Intragovernmental Revenue and Expense" see, Department of Defense
                                                                             Financial Management Regulation, Volume 6B, Chapter 10, paragraph 102125.



                                                                        Note 19.J. Suborganization Program Costs
                                                                             Not Applicable



                                                                        Note 20.                 Disclosures Related to the Statement of Changes in Net Position
                                                                        As of September 30,
                                                                        (Amounts in thousands)
                                                                                                                   Cumulative Results of         Unexpended      Cumulative Results       Unexpended
                                                                                                                       Operations 2002     Appropriations 2002   of Operations 2001 Appropriations 2001
FY02 United States Army Annual Financial Statement




                                                                        1. Prior Period Adjustments Increases
                                                                           Decreases) to Net Position Beginning Balance:
                                                                             A.    Changes in Accounting Standards                   $0                    $0                  $0                   $0
                                                                             B.    Errors and Omissions in Prior Year
                                                                                   Accounting Reports                                 0                     0           (846,196)                    0
                                                     Civil Works Fund




                                                                             C.    Other Prior Period Adjustments                     0                     0                  67                    0
                                                                             D.    Total Prior Period Adjustments                    $0                    $0          ($846,129)                   $0




                 344
                                                                                         Notes to Principal Statements



As of September 30,
(Amounts in thousands)
                                           Cumulative Results of         Unexpended       Cumulative Results       Unexpended
                                               Operations 2002     Appropriations 2002    of Operations 2001 Appropriations 2001
2. Imputed Financing:
     A.    Civilian CSRS/FERS Retirement              $81,319                      $0             $80,620                    $0
     B.    Civilian Health                            102,986                       0              99,996                     0
     C.    Civilian Life Insurance                        366                       0                 344                     0
     D.    Military Retirement Pension                      0                       0                   0                     0
     E.    Military Retirement Health                       0                       0                   0                     0
     F.    Judgment Fund                               24,316                       0              30,635                     0
     G.    Total Imputed Financing                   $208,987                      $0            $211,595                    $0

3. Other Information:


     Other Corps Disclosures
     Taxes and Other Non-exchange Revenue include $748 million in tax collections and $71.1 million in interest
     income deposited into the trust fund accounts. $95.1 million was derived from excise taxes and was
     deposited into the Inland Waterways Trust Fund. $652.9 million was collected and deposited into The
     Harbor Maintenance Trust Fund as tax collections. These taxes were derived from:

           Tax on Domestics       $27.8 million
           Tax on Exports         1.6 million
           Tax on Foreign Trade   69.1 million
           Tax on Imports         544.8 million
           Tax on Passengers      9.6 million


     Transfers in include $10 million transferred into the South Dakota Terrestrial Wildlife Restoration Trust Fund
     and $63.9 million in budget authority which was transferred into the Coastal Wetlands Restoration Trust
     Fund from the Aquatic Resources Trust Fund.

     Transfers out to other government agencies include $3 million to the Customs Department, $13.3 million to
     the Saint Lawrence Seaway Development Corporation, $1.4 million to the Department of Transportation,
     $103 thousand to the Department of the Interior, and $13 thousand to the Department of Agriculture.

     Imputed financing reported on Line 2F includes $5.1 million for power plant fees paid to states as
     compensation for "lost" property taxes on federally leased land leased to others. Line 2F also includes $25.5
     million for Judgment Fund liabilities for which the Corps is not responsible for reimbursement to the
     Department of the Treasury.

     Note Reference
     For Regulatory Disclosure Related to The Statement of Changes in Net Position see, Department of Defense
     Financial Management Regulation, Volume 6B, Chapter 10, paragraph 1022.


                                                                                                                                    02
                                                                                                                                   fy

                                                                                                                                        345
                                                                        Note 21.A. Disclosures Related to the Statement of Budgetary Resources
                                                                        As of September 30,
                                                                        (Amounts in thousands)                                                                2002                     2001

                                                                        1. Net Amount of Budgetary Resources Obligated for
                                                                           Undelivered Orders at the End of the Period                                  $1,368,628               $1,412,416
                                                                        2. Available Borrowing and Contract Authority at the
                                                                           End of the Period                                                               $42,134                  $42,167

                                                                        3. Other Information:


                                                                             Apportionment Categories
                                                                             Disclosure of apportionment categories for obligations incurred. OMB 01-09 section 9.27 specifically
                                                                             requires disclosure of the amount of direct and reimbursable obligations incurred against amounts
                                                                             apportioned under category A, B and exempt from apportionment. This disclosure should agree with the
                                                                             aggregate of the related information as reported on the agency's year-end SF 133s and lines 8A and 8B in the
                                                                             Statement of Budgetary Resources.

                                                                             Intra-Corps transactions have not been eliminated because the Statement of Budgetary Resources is presented
                                                                             as combined and combining.

                                                                             Borrowing authority is for capital improvements to the Washington Aqueduct. Funding to repay the debt is
                                                                             provided by Arlington County, Virginia, Falls Church, Virginia, and the District of Columbia.

                                                                             The Statement of Budgetary Resources reflects a $354 million difference between the beginning and ending
                                                                             unobligated and obligated, net balances due to a correction of FY 2001 reporting in the revolving fund
                                                                             account. These amounts have been revised in accordance with OMB Circular No. A-11, Part 4, Instructions
                                                                             on Budget Execution, section 130.2, which requires any material errors in previously reported information to
                                                                             be revised.

                                                                             According to the Treasury Financial Manual, Part 2, Chapter 4000, Federal Agencies' Centralized Trial-
FY02 United States Army Annual Financial Statement




                                                                             Balance System, paragraph 4630.60, if an allocation transfer is material to the child's financial statements, the
                                                                             child should report the activity relating to the allocation on all of its financial statements, except the
                                                                             Statement of Budgetary Resources. The Departments of Commerce, Energy and Transportation chose to
                                                                             report their transfers to the Corps. Therefore, the Statement of Budgetary Resources will not reconcile to the
                                                                             Statement of Budget Execution, SF 133, which was reported by the Corps.
                                                     Civil Works Fund




                                                                             The format of the Statement of Budgetary Resources was modified for FY 2002 to include a new line (Line
                                                                             16) for reporting Offsetting Receipts. No Offsetting Receipts were reported in FY 2001.

                                                                             Undelivered Orders
                                                                             Undelivered Orders presented in the Statement of Budgetary Resources includes Undelivered Orders-Unpaid
                                                                             for both direct and reimbursable funds.
                 346
                                                                                   Notes to Principal Statements



     Spending Authority from Offsetting Collections
     Adjustments in funds that temporarily are not available pursuant to Public Law, and those that permanently
     are not available (included in the "Adjustments" line on the Statement of Budgetary Resources), are not
     included in the "Spending Authority From Offsetting Collections and Adjustments" line on the Statement of
     Budgetary Resources or the "Spending Authority for Offsetting Collections and Adjustments" line on the
     Statement of Financing.

     Note Reference
     For Regulatory Disclosure Related to The Statement of Budgetary Resources" see, Department of Defense
     Financial Management Regulation, Volume 6B, Chapter 10, paragraph 1023.



Note 21.B. Disclosures Related to Problem Disbursements, In-transit
           Disbursements and Suspense/Budget Clearing Accounts
As of September 30,
(Amounts in thousands)


                                                                                                      (Decrease)/Increase
1. Total Problem Disbursement                      Sep 2000             Sep 2001           Sep 2002     from 2001 to 2002
     A.    Absolute Unmatched Disbursements             $0                   $0                 $0                    $0
     B.    Negative Unliquidated Obligations             0                    0                  0                     0

2. Total In-transit Disbursements, Net                  $0                   $0                 $0                    $0

3. Other Information Related to Problem Disbursements and In-transit Disbursements:

4. Suspense/Budget Clearing Accounts, Net
     Account                                       Sep 2000             Sep 2001           Sep 2002   (Decrease)/Increase
        F3875                                      $17,909              $17,422           $14,228              ($3,194)
        F3880                                           (5)                  (5)                0                     5
        F3882                                             0                    0                0                     0
        F3885                                             0                    0                0                     0
        F3886                                             0                    0                0                     0
        Total                                      $17,904              $17,417           $14,228              ($3,189)

5. Other Information Related to Suspense/Budget Clearing Accounts:


     Other Corps Disclosures
     F3875 includes a portion of receipts from leases of land to the public for flood control, navigation and allied
     purposes. The portion of lease receipts when the term of the lease extends into fiscal year 2003 is collected
     into F3875. The collections are transferred out in the year following collection. Also included are
     receivables of $185 thousand that pertain to the leases of land.


                                                                                                                             02
                                                                                                                            fy

                                                                                                                                 347
                                                                          F3875 includes a $13 million disputed collection on a water storage contract at the Tulsa District.

                                                                          Note Reference
                                                                          For Regulatory Disclosure Related to "Disclosures Related to Problem Disbursements, In-transit
                                                                          Disbursements and Suspense/Budget Clearing Accounts" see, Department of Defense Financial Management
                                                                          Regulation, Volume 6B, Chapter 10, paragraph 102305.



                                                                        Note 22.       Disclosures Related to the Statement of Financing
                                                                          Disclosures Related to the Statement of Financing:
                                                                          Transfers to other government agencies include $1.4 million to the Department of Transportation, $103
                                                                          thousand to the Department of The Interior, and $13 thousand to the Department of Agriculture.

                                                                          In FY 2002, the Department of Defense modified the financial statement presentation for the Statement of
                                                                          Financing, in accordance with Office of Management and Budget direction. As a result, the Statement of
                                                                          Financing will not lend itself always to comparative analysis. The Departmental Reporting System was
                                                                          modified to calculate the Net Cost using different accounts than had been used in past report submissions.
                                                                          Therefore, the FY 2001 Statement of Financing Net Cost Line 30 does not agree with FY 2001 Statement of
                                                                          Net Cost Line 4.

                                                                          Note Reference
                                                                          For Regulatory Disclosure Related to The Statement of Financing see, Department of Defense Financial
                                                                          Management Regulation, Volume 6B, Chapter 10, paragraph 1024.



                                                                        Note 23.       Disclosures Related to the Statement of Custodial Activity
                                                                          Not Applicable



                                                                        Note 24.A. Other Disclosures
FY02 United States Army Annual Financial Statement




                                                                          Not Applicable



                                                                        Note 24.B. Other Disclosures
                                                     Civil Works Fund




                                                                          Not Applicable




                 348
                                                                                          Consolidating Balance Sheet
                                                                                 Department of Defense • Department of the Army
                                                                             As of September 30, 2002 and 2001 ($ in thousands)

                                                                                                                       Borrowing
1. ASSETS (Note 2)                                   Special Funds          Trust Funds      Transfer Funds             Authority
     A. Intragovernmental:
        1. Fund Balance with Treasury
                  (Note 3)                                   $85            $59,954              $45,492                   $773
        2. Investments (Note 4)                                0          2,269,086                    0                       0
        3. Accounts Receivable (Note 5)                        0            322,728                    0                     (1)
        4. Other Assets (Note 6)                               0                  0                    0                       0
        5. Total Intragovernmental Assets                    $85         $2,651,768              $45,492                   $772
     B. Cash and Other Monetary Assets
        (Note 7)                                              $0                   $0                   $0                    $0
     C. Accounts Receivable (Note 5)                       2,257                    0                    0                     0
     D. Loans Receivable (Note 8)                              0                    0                    0                     0
     E. Inventory and Related Property (Note 9)                0                    0                    0                     0
     F. General Property, Plant and Equipment
        (Note 10)                                          1,950            759,935              218,068                 69,198
     G. Other Assets (Note 6)                                  0                  0                    0                      0

2. TOTAL ASSETS                                          $4,292          $3,411,703            $263,560                $69,970

3. LIABILITIES (Note 11)
     A.   Intragovernmental:
          1. Accounts Payable (Note 12)                      $0                 $159               $855                     $0
          2. Debt (Note 13)                                   0                    0                   0                24,667
          3. Environmental Liabilities (Note 14)              0                    0                   0                     0
          4. Other Liabilities (Notes 15 and 16)          2,257                6,000                   0                     0
          5. Total Intragovernmental Liabilities         $2,257               $6,159               $855                $24,667
     B.   Accounts Payable (Note 12)                         $5              $15,978              $6,220                    $0
     C.   Military Retirement Benefits and Other
          Employment-Related Actuarial Liabilities
          (Note 17)                                             0                   0                   0                     0
     D.   Environmental Liabilities (Note 14)                   0                   0                   0                     0
     E.   Loan Guarantee Liability (Note 8)                     0                   0                   0                     0
     F.   Other Liabilities (Notes 15 and 16)                   2                 873               1,336                   246

4. TOTAL LIABILITIES                                     $2,264              $23,010               $8,411              $24,913

5. NET POSITION
     A.   Unexpended Appropriations (Note 18)
                                                             $78                 $0              $37,081                    $0
     B.   Cumulative Results of Operations
                                                           1,950          3,388,693              218,068                45,057

6. TOTAL NET POSITION
                                                         $2,028          $3,388,693            $255,149                $45,057

7.   TOTAL LIABILITIES AND NET
     POSITION
                                                         $4,292          $3,411,703            $263,560                $69,970

                                                                                                                                     02
                                                                                                                                    fy

                                                                                                                                     349

                                                                 The accompanying notes are an integral part of these statements.
                                                                         Consolidating Balance Sheet
                                                                                         Department of Defense • Department of the Army
                                                                                         As of September 30, 2002 and 2001 ($ in thousands)

                                                                                                                                                  Revolving     Contributed
                                                                                         1. ASSETS (Note 2)                                          Funds           Funds     General Funds    FUSRAP
                                                                                              A. Intragovernmental:
                                                                                                 1. Fund Balance with Treasury
                                                                                                           (Note 3)                             $902,533       $362,902        $1,132,301      $39,917
                                                                                                 2. Investments (Note 4)                               0              0                 0             0
                                                                                                 3. Accounts Receivable (Note 5)                   3,159              0           202,382           (1)
                                                                                                 4. Other Assets (Note 6)                              0              0                 0             0
                                                                                                 5. Total Intragovernmental Assets              $905,692       $362,902        $1,334,683      $39,916
                                                                                              B. Cash and Other Monetary Assets
                                                                                                 (Note 7)                                              $0              $0            $817           $0
                                                                                              C. Accounts Receivable (Note 5)                         849               0         919,825            0
                                                                                              D. Loans Receivable (Note 8)                              0               0               0            0
                                                                                              E. Inventory and Related Property (Note 9)           46,171               0          16,968            0
                                                                                              F. General Property, Plant and Equipment
                                                                                                 (Note 10)                                       875,412         919,602       34,029,757           31
                                                                                              G. Other Assets (Note 6)
   The accompanying notes are an integral part of these statements.




                                                                                                                                                      42              35                0            0

                                                                                         2. TOTAL ASSETS                                       $1,828,166     $1,282,539      $36,302,050      $39,947

                                                                                         3. LIABILITIES (Note 11)
                                                                                              A.    Intragovernmental:
                                                                                                    1. Accounts Payable (Note 12)                $41,239           $480           $41,107          $92
                                                                                                    2. Debt (Note 13)                                  0               0                0            0
                                                                                                    3. Environmental Liabilities (Note 14)             0               0                0            0
                                                                                                    4. Other Liabilities (Notes 15 and 16)        14,192          1,308         1,123,187            0
                                                                                                    5. Total Intragovernmental Liabilities       $55,431         $1,788        $1,164,294          $92
                                                                                              B.    Accounts Payable (Note 12)                   $67,830         $17,163         $455,113      $33,643
                                                                                              C.    Military Retirement Benefits and Other
                                                                                                    Employment-Related Actuarial Liabilities
                                                                                                    (Note 17)                                          0                0               0            0
                                                                                              D.    Environmental Liabilities (Note 14)                0                0               0            0
                                                                                              E.    Loan Guarantee Liability (Note 8)                  0                0               0            0
                                                                                              F.    Other Liabilities (Notes 15 and 16)          455,481            2,668         130,043          127
FY02 United States Army Annual Financial Statement




                                                                                         4. TOTAL LIABILITIES                                   $578,742         $21,619       $1,749,450      $33,862

                                                                                         5. NET POSITION
                                                                                              A.    Unexpended Appropriations (Note 18)
                                                                                                                                                       $0      $342,591         $679,060        $6,054
                                                                      Civil Works Fund




                                                                                              B.    Cumulative Results of Operations
                                                                                                                                                1,249,424       918,329        33,873,540           31

                                                                                         6. TOTAL NET POSITION
                                                                                                                                               $1,249,424     $1,260,920      $34,552,600       $6,085

                                                                                         7.   TOTAL LIABILITIES AND NET
                                                                                              POSITION
                                                                                                                                               $1,828,166     $1,282,539      $36,302,050      $39,947



                    350
                                                                                         Consolidating Balance Sheet
                                                                                  Department of Defense • Department of the Army
                                                                              As of September 30, 2002 and 2001 ($ in thousands)

                                                                                                       2002                   2001
1. ASSETS (Note 2)                                   Combined Total       Eliminations         Consolidated           Consolidated
     A. Intragovernmental:
        1. Fund Balance with Treasury
                  (Note 3)                            $2,543,957                  $0          $2,543,957            $2,537,990
        2. Investments (Note 4)                        2,269,086                   0           2,269,086             2,255,539
        3. Accounts Receivable (Note 5)                  528,267                 118             528,149               476,541
        4. Other Assets (Note 6)                               0                   0                   0                     0
        5. Total Intragovernmental Assets             $5,341,310                $118          $5,341,192            $5,270,070
     B. Cash and Other Monetary Assets
        (Note 7)                                            $817                  $0                 $817                $3,990
     C. Accounts Receivable (Note 5)                     922,931                   0              922,931             1,028,288
     D. Loans Receivable (Note 8)                              0                   0                    0                     0
     E. Inventory and Related Property (Note 9)           63,139                   0               63,139                54,719
     F. General Property, Plant and Equipment
        (Note 10)                                     36,873,953                    0         36,873,953            34,818,281
     G. Other Assets (Note 6)                                 77                    0                 77                16,190

2. TOTAL ASSETS                                      $43,202,227                $118        $43,202,109            $41,191,538

3. LIABILITIES (Note 11)
     A.   Intragovernmental:
          1. Accounts Payable (Note 12)                  $83,932                $118             $83,814               $92,727
          2. Debt (Note 13)                               24,667                   0              24,667                 30,512
          3. Environmental Liabilities (Note 14)               0                   0                   0                      0
          4. Other Liabilities (Notes 15 and 16)       1,146,944                   0           1,146,944              1,167,318
          5. Total Intragovernmental Liabilities      $1,255,543                $118          $1,255,425            $1,290,557
     B.   Accounts Payable (Note 12)                   $595,952                   $0           $595,952              $505,328
     C.   Military Retirement Benefits and Other
          Employment-Related Actuarial Liabilities
          (Note 17)                                            0                    0                   0                     0
     D.   Environmental Liabilities (Note 14)                  0                    0                   0                     0
     E.   Loan Guarantee Liability (Note 8)                    0                    0                   0                     0
     F.   Other Liabilities (Notes 15 and 16)            590,776                    0             590,776               576,523

4. TOTAL LIABILITIES                                  $2,442,271                $118          $2,442,153            $2,372,408

5. NET POSITION
     A.   Unexpended Appropriations (Note 18)
                                                      $1,064,864                  $0          $1,064,864             $1,214,901
     B.   Cumulative Results of Operations
                                                      39,695,092                   0          39,695,092             37,604,229

6. TOTAL NET POSITION
                                                     $40,759,956                  $0        $40,759,956            $38,819,130

7.   TOTAL LIABILITIES AND NET
     POSITION
                                                     $43,202,227                $118        $43,202,109            $41,191,538

                                                                                                                                      02
                                                                                                                                     fy

                                                                                                                                      351

                                                                  The accompanying notes are an integral part of these statements.
                                                                         Consolidating Statement of Net Cost
                                                                                         Department of Defense • Department of the Army
                                                                                         For the years ended September 30, 2002 and 2001 ($ in thousands)


                                                                                         1. Program Costs                                                   Combined Total   Eliminations

                                                                                              A.   Borrowing Authority
                                                                                                   1. Intragovernmental Gross Costs                                  $802             $0
                                                                                                   2. (Less: Intragovernmental Earned Revenue)                          0              0
                                                                                                   3. Intragovernmental Net Costs                                    $802             $0
                                                                                                   4. Gross Costs With the Public                                $16,000               0
                                                                                                   5. (Less: Earned Revenue From the Public)                     (16,940)              0
                                                                                                   6. Net Costs With the Public                                    ($940)             $0
                                                                                                   7. Total Net Cost                                               ($138)             $0
                                                                                              B.   Contributed Funds
                                                                                                   1. Intragovernmental Gross Costs                               $5,051              $0
                                                                                                   2. (Less: Intragovernmental Earned Revenue)                          0              0
                                                                                                   3. Intragovernmental Net Costs                                 $5,051              $0
                                                                                                   4. Gross Costs With the Public                               $176,683               0
                                                                                                   5. (Less: Earned Revenue From the Public)                          (2)              0
                                                                                                   6. Net Costs With the Public                                 $176,681              $0
   The accompanying notes are an integral part of these statements.




                                                                                                   7. Total Net Cost                                            $181,732              $0
                                                                                              C.   FUSRAP
                                                                                                   1. Intragovernmental Gross Costs                               $2,209              $0
                                                                                                   2. (Less: Intragovernmental Earned Revenue)                         0               0
                                                                                                   3. Intragovernmental Net Costs                                 $2,209              $0
                                                                                                   4. Gross Costs With the Public                               $147,444               0
                                                                                                   5. (Less: Earned Revenue From the Public)                       (600)               0
                                                                                                   6. Net Costs With the Public                                 $146,844               0
                                                                                                   7. Total Net Cost                                            $149,053              $0
                                                                                              D.   General Funds
                                                                                                   1. Intragovernmental Gross Costs                            $290,137               $0
                                                                                                   2. (Less: Intragovernmental Earned Revenue)                (604,225)                0
                                                                                                   3. Intragovernmental Net Costs                            ($314,088)               $0
                                                                                                   4. Gross Costs With the Public                            $2,870,037                0
                                                                                                   5. (Less: Earned Revenue From the Public)                    (88,170)               0
                                                                                                   6. Net Costs With the Public                              $2,781,867               $0
                                                                                                   7. Total Net Cost                                         $2,467,779               $0
                                                                                              E.   Revolving Funds
FY02 United States Army Annual Financial Statement




                                                                                                   1. Intragovernmental Gross Costs                             $480,519              $0
                                                                                                   2. (Less: Intragovernmental Earned Revenue)                   (12,212)              0
                                                                                                   3. Intragovernmental Net Costs                               $468,307              $0
                                                                                                   4. Gross Costs With the Public                              ($227,050)              0
                                                                      Civil Works Fund




                                                                                                   5. (Less: Earned Revenue From the Public)                     (16,028)              0
                                                                                                   6. Net Costs With the Public                               ($243,078)              $0
                                                                                                   7. Total Net Cost                                            $225,229              $0




                    352
                                                                 Consolidating Statement of Net Cost
                                                                        Department of Defense • Department of the Army
                                                      For the years ended September 30, 2002 and 2001 ($ in thousands)

1. Program Costs                                                        Combined Total                     Eliminations

   F.   Special Funds
        1. Intragovernmental Gross Costs                                           $0                               $0
        2. (Less: Intragovernmental Earned Revenue)                                 0                                0
        3. Intragovernmental Net Costs                                             $0                               $0
        4. Gross Costs With the Public                                        $12,290                                0
        5. (Less: Earned Revenue From the Public)                                   0                                0
        6. Net Costs With the Public                                          $12,290                               $0
        7. Total Net Cost                                                     $12,290                               $0
   G    Transfer Funds
        1. Intragovernmental Gross Costs                                        $224                                $0
        2. (Less: Intragovernmental Earned Revenue)                                 0                                0
        3. Intragovernmental Net Costs                                          $224                                $0
        4. Gross Costs With the Public                                         $2,569                                0
        5. (Less: Earned Revenue From the Public)                                   0                                0
        6. Net Costs With the Public                                           $2,569                               $0
        7. Total Net Cost                                                      $2,793                               $0
   H.   Trust Funds
        1. Intragovernmental Gross Costs                                      $7,688                                $0
        2. (Less: Intragovernmental Earned Revenue)                                0                                 0
        3. Intragovernmental Net Costs                                        $7,688                                $0
        4. Gross Costs With the Public                                      $647,305                                 0
        5. (Less: Earned Revenue From the Public)                                  0                                 0
        6. Net Costs With the Public                                        $647,305                                $0
        7. Total Net Cost                                                   $654,993                                $0
   I.   Total Program Costs
        1. Intragovernmental Gross Costs                                   $786,630                                 $0
        2. (Less: Intragovernmental Earned Revenue)                        (616,437)                                 0
        3. Intragovernmental Net Costs                                      $170,193                                $0
        4. Gross Costs With the Public                                    $3,645,278                                 0
        5. (Less: Earned Revenue From the Public)                           (121,740)                                0
        6. Net Costs With the Public                                      $3,523,538                                $0
        7. Total Net Cost                                                 $3,693,731                                $0

2. Cost Not Assigned to Programs                                                    $0                                0

3. (Less:Earned Revenue Not Attributable to
   Programs)                                                                          0                               0

4. Net Cost of Operations                                                 $3,693,731                                $0




                                                                                                                            02
                                                                                                                           fy

                                                                                                                            353

                                                        The accompanying notes are an integral part of these statements.
                                                                         Consolidating Statement of Net Cost
                                                                                         Department of Defense • Department of the Army
                                                                                         For the years ended September 30, 2002 and 2001 ($ in thousands)


                                                                                         1. Program Costs                                                       FY 2002       FY 2001

                                                                                              A.    Borrowing Authority
                                                                                                    1. Intragovernmental Gross Costs                              $802        $1,310
                                                                                                    2. (Less: Intragovernmental Earned Revenue)                      0              0
                                                                                                    3. Intragovernmental Net Costs                                $802        $1,310
                                                                                                    4. Gross Costs With the Public                            $16,000         $8,239
                                                                                                    5. (Less: Earned Revenue From the Public)                 (16,940)        (8,971)
                                                                                                    6. Net Costs With the Public                                ($940)         ($732)
                                                                                                    7. Total Net Cost                                           ($138)           $578
                                                                                              B.    Contributed Funds
                                                                                                    1. Intragovernmental Gross Costs                           $5,051        $2,266
                                                                                                    2. (Less: Intragovernmental Earned Revenue)                      0             0
                                                                                                    3. Intragovernmental Net Costs                             $5,051        $2,266
                                                                                                    4. Gross Costs With the Public                           $176,683      $139,174
                                                                                                    5. (Less: Earned Revenue From the Public)                      (2)           (5)
                                                                                                    6. Net Costs With the Public                             $176,681      $139,169
   The accompanying notes are an integral part of these statements.




                                                                                                    7. Total Net Cost                                        $181,732      $141,435
                                                                                              C.    FUSRAP
                                                                                                    1. Intragovernmental Gross Costs                           $2,209         $475
                                                                                                    2. (Less: Intragovernmental Earned Revenue)                     0             0
                                                                                                    3. Intragovernmental Net Costs                             $2,209         $475
                                                                                                    4. Gross Costs With the Public                           $147,444      $151,840
                                                                                                    5. (Less: Earned Revenue From the Public)                   (600)             0
                                                                                                    6. Net Costs With the Public                             $146,844      $151,840
                                                                                                    7. Total Net Cost                                        $149,053      $152,315
                                                                                              D.    General Funds
                                                                                                    1. Intragovernmental Gross Costs                          $290,137      $211,797
                                                                                                    2. (Less: Intragovernmental Earned Revenue)              (604,225)     (452,951)
                                                                                                    3. Intragovernmental Net Costs                          ($314,088)    ($241,154)
                                                                                                    4. Gross Costs With the Public                          $2,870,037    $3,448,065
                                                                                                    5. (Less: Earned Revenue From the Public)                  (88,170)      (75,484)
                                                                                                    6. Net Costs With the Public                            $2,781,867    $3,372,581
                                                                                                    7. Total Net Cost                                       $2,467,779    $3,131,427
                                                                                              E.    Revolving Funds
FY02 United States Army Annual Financial Statement




                                                                                                    1. Intragovernmental Gross Costs                          $480,519      $887,509
                                                                                                    2. (Less: Intragovernmental Earned Revenue)                (12,212)      (30,151)
                                                                                                    3. Intragovernmental Net Costs                            $468,307      $857,358
                                                                                                    4. Gross Costs With the Public                           ($227,050)   ($660,624)
                                                                      Civil Works Fund




                                                                                                    5. (Less: Earned Revenue From the Public)                  (16,028)       (17,668)
                                                                                                    6. Net Costs With the Public                            ($243,078)    ($678,292)
                                                                                                    7. Total Net Cost                                         $225,229      $179,066




                    354
                                                                 Consolidating Statement of Net Cost
                                                                        Department of Defense • Department of the Army
                                                      For the years ended September 30, 2002 and 2001 ($ in thousands)

1. Program Costs                                                               FY 2002                          FY 2001

   F.   Special Funds
        1. Intragovernmental Gross Costs                                           $0                              $4
        2. (Less: Intragovernmental Earned Revenue)                                 0                                0
        3. Intragovernmental Net Costs                                             $0                              $4
        4. Gross Costs With the Public                                        $12,290                         $16,037
        5. (Less: Earned Revenue From the Public)                                   0                              (1)
        6. Net Costs With the Public                                          $12,290                         $16,036
        7. Total Net Cost                                                     $12,290                         $16,040
   G    Transfer Funds
        1. Intragovernmental Gross Costs                                        $224                              $68
        2. (Less: Intragovernmental Earned Revenue)                                 0                               0
        3. Intragovernmental Net Costs                                          $224                              $68
        4. Gross Costs With the Public                                         $2,569                         $14,580
        5. (Less: Earned Revenue From the Public)                                   0                               0
        6. Net Costs With the Public                                           $2,569                         $14,580
        7. Total Net Cost                                                      $2,793                         $14,648
   H.   Trust Funds
        1. Intragovernmental Gross Costs                                      $7,688                          $2,100
        2. (Less: Intragovernmental Earned Revenue)                                0                               0
        3. Intragovernmental Net Costs                                        $7,688                          $2,100
        4. Gross Costs With the Public                                      $647,305                        $651,370
        5. (Less: Earned Revenue From the Public)                                  0                               0
        6. Net Costs With the Public                                        $647,305                        $651,370
        7. Total Net Cost                                                   $654,993                        $653,470
   I.   Total Program Costs
        1. Intragovernmental Gross Costs                                   $786,630                       $1,105,529
        2. (Less: Intragovernmental Earned Revenue)                        (616,437)                       (483,102)
        3. Intragovernmental Net Costs                                      $170,193                       $622,427
        4. Gross Costs With the Public                                    $3,645,278                      $3,768,681
        5. (Less: Earned Revenue From the Public)                           (121,740)                       (102,129)
        6. Net Costs With the Public                                      $3,523,538                      $3,666,552
        7. Total Net Cost                                                 $3,693,731                      $4,288,979

2. Cost Not Assigned to Programs                                                      0                               0

3. (Less:Earned Revenue Not Attributable to
   Programs)                                                                          0                               0

4. Net Cost of Operations                                                 $3,693,731                      $4,288,979




                                                                                                                            02
                                                                                                                           fy

                                                                                                                            355

                                                        The accompanying notes are an integral part of these statements.
                                                                         Consolidating Statement of Changes in Net Position
                                                                                         Department of Defense • Department of the Army
                                                                                         For the years ended September 30, 2002 and 2001 ($ in thousands)

                                                                                                                                                               Special
                                                                                                                                                                Funds                       Trust Funds
                                                                                                                                                            Cumulative     Special Funds     Cumulative       Trust Funds
                                                                                                                                                             Results of     Unexpended        Results of     Unexpended
                                                                                                                                                            Operations    Appropriations     Operations    Appropriations
                                                                                         Beginning Balances                                                  $24,879          ($1,536)     $3,157,181                 $0

                                                                                         Prior period adjustments (+/-)                                              0                0               0                0

                                                                                         Beginning Balances, as adjusted                                     $24,879          ($1,536)     $3,157,181                 $0

                                                                                         Budgetary Financing Sources:
                                                                                              Appropriations received                                               0           50,781              0                  0
                                                                                              Appropriations transferred-in/out (+/-)                               0         (36,880)              0                  0
                                                                                              Other adjustments (rescissions, etc) (+/-)                            0            1,839              0                  0
                                                                                              Appropriations used                                              12,287         (14,126)              0                  0
                                                                                              Nonexchange revenue                                                   0                0        819,255                  0
                                                                                              Donations and forfeitures of cash and cash
   The accompanying notes are an integral part of these statements.




                                                                                                  equivalents                                                       0                 0              0                 0
                                                                                              Transfers-in/out without reimbursement (+/-)                   (22,890)                 0     (683,761)                  0
                                                                                              Other budgetary financing sources (+/-)                               0                 0        (3,111)                 0

                                                                                         Other Financing Sources:
                                                                                              Donations and forfeitures of property                                  0                0             0                  0
                                                                                              Transfers-in/out without reimbursement (+/-)                        (36)                0       754,122                  0
                                                                                              Imputed financing from costs absorbed by
                                                                                                  others                                                             0                0               0                0
                                                                                              Other (+/-)                                                            0                0               0                0

                                                                                         Total Financing Sources                                            ($10,639)           $1,614      $886,505                  $0

                                                                                         Net Cost of Operations (+/-)                                          12,290                 0       654,993                  0

                                                                                         Ending Balances                                                      $1,950               $78     $3,388,693                 $0
FY02 United States Army Annual Financial Statement
                                                                      Civil Works Fund




                    356
                                                  Consolidating Statement of Changes in Net Position
                                                                               Department of Defense • Department of the Army
                                                             For the years ended September 30, 2002 and 2001 ($ in thousands)

                                                      Transfer                                   Borrowing
                                                        Funds                                     Authority            Borrowing
                                                    Cumulative          Transfer Funds          Cumulative              Authority
                                                     Results of           Unexpended             Results of          Unexpended
                                                    Operations          Appropriations          Operations         Appropriations
Beginning Balances                                  $128,150                 $54,303              $13,483               $15,436

Prior period adjustments (+/-)                               0                       0                    0                      0

Beginning Balances, as adjusted                     $128,150                 $54,303              $13,483               $15,436

Budgetary Financing Sources:
   Appropriations received                                  0                       0                   0                      0
   Appropriations transferred-in/out (+/-)                  0                  75,698                   0                      0
   Other adjustments (rescissions, etc) (+/-)               0                 (6,057)                   0               (15,436)
   Appropriations used                                 93,011                (86,863)              15,436                      0
   Nonexchange revenue                                      0                       0              16,000                      0
   Donations and forfeitures of cash and cash
       equivalents                                           0                       0                    0                      0
   Transfers-in/out without reimbursement (+/-)              0                       0                    0                      0
   Other budgetary financing sources (+/-)                   0                       0                    0                      0

Other Financing Sources:
   Donations and forfeitures of property                    0                        0                    0                      0
   Transfers-in/out without reimbursement (+/-)         (300)                        0                    0                      0
   Imputed financing from costs absorbed by
       others                                                0                       0                    0                      0
   Other (+/-)                                               0                       0                    0                      0

Total Financing Sources                              $92,711                ($17,222)             $31,436              ($15,436)

Net Cost of Operations (+/-)                            2,793                        0               (138)                       0

Ending Balances                                     $218,068                 $37,081              $45,057                      $0




                                                                                                                                      02
                                                                                                                                     fy

                                                                                                                                      357

                                                                  The accompanying notes are an integral part of these statements.
                                                                         Consolidating Statement of Changes in Net Position
                                                                                         Department of Defense • Department of the Army
                                                                                         For the years ended September 30, 2002 and 2001 ($ in thousands)

                                                                                                                                                              Revolving                     Contributed
                                                                                                                                                                 Funds         Revolving         Funds       Contributed
                                                                                                                                                             Cumulative            Funds    Cumulative             Funds
                                                                                                                                                              Results of     Unexpended       Results of     Unexpended
                                                                                                                                                             Operations    Appropriations    Operations    Appropriations
                                                                                         Beginning Balances                                                 $1,253,929                $0    $766,391          $283,052

                                                                                         Prior period adjustments (+/-)                                               0                0              0                0

                                                                                         Beginning Balances, as adjusted                                    $1,253,929                $0    $766,391          $283,052

                                                                                         Budgetary Financing Sources:
                                                                                              Appropriations received                                                0                 0            0           394,039
                                                                                              Appropriations transferred-in/out (+/-)                                0                 0            0                  0
                                                                                              Other adjustments (rescissions, etc) (+/-)                             0                 0            0            (3,597)
                                                                                              Appropriations used                                               36,176                 0      334,500         (330,903)
                                                                                              Nonexchange revenue                                                    0                 0            0                  0
                                                                                              Donations and forfeitures of cash and cash
   The accompanying notes are an integral part of these statements.




                                                                                                  equivalents                                                         0                0              0                0
                                                                                              Transfers-in/out without reimbursement (+/-)                            0                0              0                0
                                                                                              Other budgetary financing sources (+/-)                              (55)                0              0                0

                                                                                         Other Financing Sources:
                                                                                              Donations and forfeitures of property                                  13                0             0                 0
                                                                                              Transfers-in/out without reimbursement (+/-)                         (80)                0         (830)                 0
                                                                                              Imputed financing from costs absorbed by
                                                                                                  others                                                      184,670                  0              0                0
                                                                                              Other (+/-)                                                           0                  0              0                0

                                                                                         Total Financing Sources                                             $220,724                 $0    $333,670           $59,539

                                                                                         Net Cost of Operations (+/-)                                         225,229                  0      181,732                  0

                                                                                         Ending Balances                                                    $1,249,424                $0    $918,329          $342,591
FY02 United States Army Annual Financial Statement
                                                                      Civil Works Fund




                    358
                                                  Consolidating Statement of Changes in Net Position
                                                                                Department of Defense • Department of the Army
                                                              For the years ended September 30, 2002 and 2001 ($ in thousands)


                                                  General Funds                                    FUSRAP
                                                    Cumulative           General Funds           Cumulative              FUSRAP
                                                      Results of           Unexpended             Results of          Unexpended
                                                     Operations          Appropriations          Operations         Appropriations
Beginning Balances                                $32,260,196               $848,529                    $20               $15,117

Prior period adjustments (+/-)                                0                       0                    0                      0

Beginning Balances, as adjusted                   $32,260,196               $848,529                    $20               $15,117

Budgetary Financing Sources:
   Appropriations received                                  0               3,740,145                    0               140,000
   Appropriations transferred-in/out (+/-)                  0                 159,590                    0                       0
   Other adjustments (rescissions, etc) (+/-)               0               (122,236)                    0                 (7,887)
   Appropriations used                              4,064,372             (3,946,968)              149,064              (141,176)
   Nonexchange revenue                                    742                       0                    0                       0
   Donations and forfeitures of cash and cash
       equivalents                                            0                       0                    0                      0
   Transfers-in/out without reimbursement (+/-)               0                       0                    0                      0
   Other budgetary financing sources (+/-)                    0                       0                    0                      0

Other Financing Sources:
   Donations and forfeitures of property                   290                        0                    0                      0
   Transfers-in/out without reimbursement (+/-)        (8,597)                        0                    0                      0
   Imputed financing from costs absorbed by
       others                                           24,316                        0                    0                      0
   Other (+/-)                                               0                        0                    0                      0

Total Financing Sources                            $4,081,123              ($169,469)            $149,064                ($9,063)

Net Cost of Operations (+/-)                         2,467,779                        0            149,053                        0

Ending Balances                                   $33,873,540               $679,060                    $31                $6,054




                                                                                                                                       02
                                                                                                                                      fy

                                                                                                                                       359

                                                                   The accompanying notes are an integral part of these statements.
                                                                         Consolidating Statement of Changes in Net Position
                                                                                         Department of Defense • Department of the Army
                                                                                         For the years ended September 30, 2002 and 2001 ($ in thousands)

                                                                                                                                                               Combined
                                                                                                                                                                    Total       Combined     Eliminations
                                                                                                                                                              Cumulative             Total    Cumulative       Eliminations
                                                                                                                                                               Results of     Unexpended        Results of     Unexpended
                                                                                                                                                              Operations    Appropriations    Operations     Appropriations
                                                                                         Beginning Balances                                                 $37,604,229      $1,214,901               $0                $0

                                                                                         Prior period adjustments (+/-)                                                0                0               0                0

                                                                                         Beginning Balances, as adjusted                                    $37,604,229      $1,214,901               $0                $0

                                                                                         Budgetary Financing Sources:
                                                                                              Appropriations received                                                0         4,324,965                0                0
                                                                                              Appropriations transferred-in/out (+/-)                                0           198,408                0                0
                                                                                              Other adjustments (rescissions, etc) (+/-)                             0          (153,374)               0                0
                                                                                              Appropriations used                                            4,704,846       (4,520,036)                0                0
                                                                                              Nonexchange revenue                                              835,997                  0               0                0
                                                                                              Donations and forfeitures of cash and cash
   The accompanying notes are an integral part of these statements.




                                                                                                  equivalents                                                          0                0               0                0
                                                                                              Transfers-in/out without reimbursement (+/-)                    (706,651)                 0               0                0
                                                                                              Other budgetary financing sources (+/-)                            (3,166)                0               0                0

                                                                                         Other Financing Sources:
                                                                                              Donations and forfeitures of property                                303                  0               0                0
                                                                                              Transfers-in/out without reimbursement (+/-)                     744,279                  0               0                0
                                                                                              Imputed financing from costs absorbed by
                                                                                                  others                                                       208,986                  0               0                0
                                                                                              Other (+/-)                                                            0                  0               0                0

                                                                                         Total Financing Sources                                            $5,784,594        ($150,037)              $0                $0

                                                                                         Net Cost of Operations (+/-)                                        3,693,731                  0               0                0

                                                                                         Ending Balances                                                $39,695,092          $1,064,864               $0                $0
FY02 United States Army Annual Financial Statement
                                                                      Civil Works Fund




                    360
                                                  Consolidating Statement of Changes in Net Position
                                                                                 Department of Defense • Department of the Army
                                                               For the years ended September 30, 2002 and 2001 ($ in thousands)

                                                       FY 2002                                       FY 2001
                                                   Consolidated              FY 2002             Trust Funds               FY 2001
                                                    Cumulative          Consolidated              Cumulative           Trust Funds
                                                      Results of         Unexpended                Results of         Unexpended
                                                     Operations        Appropriations             Operations        Appropriations
Beginning Balances                                $37,604,229            $1,214,901           $36,999,464            $1,004,640

Prior period adjustments (+/-)                                0                      0           (846,130)                        0

Beginning Balances, as adjusted                   $37,604,229            $1,214,901           $36,153,334            $1,004,640

Budgetary Financing Sources:
   Appropriations received                                  0              4,324,965                     0               210,262
   Appropriations transferred-in/out (+/-)                  0                198,408                     0                     0
   Other adjustments (rescissions, etc) (+/-)               0               (153,374)                    0                     0
   Appropriations used                              4,704,846            (4,520,036)             4,310,085                     0
   Nonexchange revenue                                835,997                       0              919,800                     0
   Donations and forfeitures of cash and cash
       equivalents                                           0                       0                   0                        0
   Transfers-in/out without reimbursement (+/-)     (706,651)                        0           (445,585)                        0
   Other budgetary financing sources (+/-)             (3,166)                       0             (8,859)                        0

Other Financing Sources:
   Donations and forfeitures of property                  303                        0                 275                        0
   Transfers-in/out without reimbursement (+/-)       744,279                        0             752,563                        0
   Imputed financing from costs absorbed by
       others                                         208,986                        0             211,595                        0
   Other (+/-)                                              0                        0                   0                        0

Total Financing Sources                            $5,784,594             ($150,037)           $5,739,874               $210,262

Net Cost of Operations (+/-)                        3,693,731                        0           4,288,979                        0

Ending Balances                                   $39,695,092            $1,064,864           $37,604,229             $1,214,902




                                                                                                                                       02
                                                                                                                                      fy

                                                                                                                                       361

                                                                   The accompanying notes are an integral part of these statements.
                                                                         Combining Statement of Budgetary Resources
                                                                                         Department of Defense • Department of the Army
                                                                                         For the years ended September 30, 2002 and 2001 ($ in thousands)


                                                                                                                                                                             Special Funds                    Trust Funds
                                                                                                                                                                            Non-Budgetary                  Non-Budgetary
                                                                                                                                                                            Credit Program                 Credit Program
                                                                                         Budgetary Resources:                                               Special Funds        Financing   Trust Funds        Financing
                                                                                              A.    Budget Authority:                                          Budgetary          Accounts    Budgetary          Accounts
                                                                                                    Appropriations received                                    $50,781                 $0          $0                 $0
                                                                                                    Borrowing authority                                               0                 0           0                  0
                                                                                                    Contract authority                                                0                 0           0                  0
                                                                                                    Net transfers (+/-)                                        (36,780)                 0     808,338                  0
                                                                                                    Other                                                             0                 0           0                  0
                                                                                              B.    Unobligated balance:
                                                                                                    Beginning of period                                          23,189                 0      180,805                 0
                                                                                                    Net transfers, actual (+/-)                                (22,990)                 0            0                 0
                                                                                                    Anticipated Transfers Balances                                    0                 0            0                 0
                                                                                              C.    Spending authority from offsetting collections:
                                                                                                    Earned
                                                                                                          Collected                                                    0                0             0                0
                                                                                                          Receivable from Federal sources                              0                0             0                0
                                                                                                    Change in unfilled customer orders
   The accompanying notes are an integral part of these statements.




                                                                                                          Advance received                                            0                 0           0                  0
                                                                                                          Without advance from Federal sources                        0                 0           0                  0
                                                                                                    Anticipated for the rest of year, without advances                0                 0           0                  0
                                                                                                    Transfers from trust funds                                        0                 0           0                  0
                                                                                                    Subtotal                                                         $0                $0          $0                 $0
                                                                                              D.    Recoveries of prior year obligations                              0                 0           0                  0
                                                                                              E.    Temporarily not available pursuant to Public Law                  0                 0           0                  0
                                                                                              F     Permanently not available                                         0                 0           0                  0
                                                                                              G     Total Budgetary Resources                                   $14,200                $0    $989,143                 $0


                                                                                         Status of Budgetary Resources:
                                                                                              H.    Obligations incurred:
                                                                                                    Direct                                                      $14,139                $0     $789,011                $0
                                                                                                    Reimbursable                                                      0                 0            0                 0
                                                                                                    Subtotal                                                     14,139                 0      789,011                 0
                                                                                              I.    Unobligated balance:
                                                                                                    Apportioned                                                      61                 0           0                  0
                                                                                                    Exempt from apportionment                                         0                 0     200,132                  0
                                                                                                    Other available                                                   0                 0           0                  0
                                                                                              J.    Unobligated Balances Not Available                                0                 0           0                  0
                                                                                              K.    Total, Status of Budgetary Resources                        $14,200                $0    $989,143                 $0
FY02 United States Army Annual Financial Statement




                                                                                         Relationship of Obligations to Outlays:
                                                                                              L.    Obligated Balance, Net - beginning of period                 $1,348                $0    $109,754                 $0
                                                                                              M.    Obligated Balance transferred, net (+/-)                          0                 0           0                  0
                                                                                              N.    Obligated Balance, Net - end of period:
                                                                                                    Accounts receivable                                                0                0             0                0
                                                                      Civil Works Fund




                                                                                                    Unfilled customer order from Federal sources                       0                0             0                0
                                                                                                    Undelivered orders                                                17                0      106,140                 0
                                                                                                    Accounts payable                                                   7                0        17,010                0
                                                                                              O.    Outlays:
                                                                                                    Disbursements                                                15,463                 0      775,615                 0
                                                                                                    Collections                                                       0                 0            0                 0
                                                                                                    Subtotal                                                    $15,463                $0     $775,615                $0
                                                                                              P.    Less: Offsetting receipts                                         0                 0    (819,255)                 0
                                                                                              Q.    Net Outlays                                                 $15,463                $0    ($43,640)                $0

                    362
                                                                    Combining Statement of Budgetary Resources
                                                                                            Department of Defense • Department of the Army
                                                                          For the years ended September 30, 2002 and 2001 ($ in thousands)

                                                                                                                                    Borrowing
                                                                                     Transfer Funds                                   Authority
                                                                                     Non-Budgetary                              Non-Budgetary
                                                                                     Credit Program           Borrowing         Credit Program
Budgetary Resources:                                         Transfer Funds               Financing            Authority             Financing
   A.   Budget Authority:                                        Budgetary                 Accounts           Budgetary               Accounts
        Appropriations received                                        $0                       $0                   $0                     $0
        Borrowing authority                                             0                        0                    0                      0
        Contract authority                                              0                        0                    0                      0
        Net transfers (+/-)                                        70,885                        0                    0                      0
        Other                                                           0                        0                    0                      0
   B.   Unobligated balance:
        Beginning of period                                        37,203                        0               3,893                       0
        Net transfers, actual (+/-)                                 (150)                        0                   0                       0
        Anticipated Transfers Balances                                  0                        0                   0                       0
   C.   Spending authority from offsetting collections:
        Earned
              Collected                                                 12                       0              16,940                       0
              Receivable from Federal sources                          (2)                       0                   0                       0
        Change in unfilled customer orders
              Advance received                                           0                       0                   0                       0
              Without advance from Federal sources                     (7)                       0                   0                       0
        Anticipated for the rest of year, without advances               0                       0                   0                       0
        Transfers from trust funds                                       0                       0                   0                       0
        Subtotal                                                         3                       0              16,940                       0
   D.   Recoveries of prior year obligations                             0                       0                   0                       0
   E.   Temporarily not available pursuant to Public Law                 0                       0                   0                       0
   F    Permanently not available                                        0                       0            (16,033)                       0
   G    Total Budgetary Resources                                $107,941                       $0              $4,800                      $0


Status of Budgetary Resources:
   H.   Obligations incurred:
        Direct                                                   $86,650                        $0              $3,223                      $0
        Reimbursable                                                   7                         0                 940                       0
        Subtotal                                                  86,657                         0               4,163                       0
   I.   Unobligated balance:
        Apportioned                                                21,276                        0                   0                       0
        Exempt from apportionment                                       0                        0                 636                       0
        Other available                                                 0                        0                   1                       0
   J.   Unobligated Balances Not Available                              8                        0                   0                       0
   K.   Total, Status of Budgetary Resources                     $107,941                       $0              $4,800                      $0


Relationship of Obligations to Outlays:
   L.   Obligated Balance, Net - beginning of period              $24,194                       $0             $12,285                      $0
   M.   Obligated Balance transferred, net (+/-)                        0                        0                   0                       0
   N.   Obligated Balance, Net - end of period:
        Accounts receivable                                              0                       0                   0                       0
        Unfilled customer order from Federal sources                   (4)                       0                   0                       0
        Undelivered orders                                         15,802                        0                 732                       0
        Accounts payable                                            8,411                        0                 800                       0
   O.   Outlays:
        Disbursements                                             86,653                         0              14,917                       0
        Collections                                                  (12)                        0            (16,940)                       0
        Subtotal                                                 $86,641                        $0            ($2,023)                      $0
   P.   Less: Offsetting receipts                                       0                        0                   0                       0
   Q.   Net Outlays                                              $86,641                        $0            ($2,023)                      $0
                                                                                                                                                   02
                                                                                                                                                  fy

                                                                                                                                                   363

                                                                              The accompanying notes are an integral part of these statements.
                                                                         Combining Statement of Budgetary Resources
                                                                                         Department of Defense • Department of the Army
                                                                                         For the years ended September 30, 2002 and 2001 ($ in thousands)

                                                                                                                                                                                                             Contributed
                                                                                                                                                                          Revolving Funds                    Funds Non-
                                                                                                                                                                           Non-Budgetary                      Budgetary
                                                                                                                                                              Revolving    Credit Program   Contributed   Credit Program
                                                                                         Budgetary Resources:                                                    Funds          Financing        Funds         Financing
                                                                                              A.    Budget Authority:                                         Budgetary          Accounts    Budgetary          Accounts
                                                                                                    Appropriations received                                         $0                $0    $394,039                 $0
                                                                                                    Borrowing authority                                              0                 0           0                  0
                                                                                                    Contract authority                                               0                 0           0                  0
                                                                                                    Net transfers (+/-)                                              0                 0           0                  0
                                                                                                    Other                                                            0                 0           0                  0
                                                                                              B.    Unobligated balance:
                                                                                                    Beginning of period                                         73,615                 0      195,588                 0
                                                                                                    Net transfers, actual (+/-)                                      0                 0            0                 0
                                                                                                    Anticipated Transfers Balances                                   0                 0            0                 0
                                                                                              C.    Spending authority from offsetting collections:
                                                                                                    Earned
                                                                                                          Collected                                          3,675,810                 0           111                0
                                                                                                          Receivable from Federal sources                     (21,258)                 0             0                0
                                                                                                    Change in unfilled customer orders
   The accompanying notes are an integral part of these statements.




                                                                                                          Advance received                                        8,127                0           8                  0
                                                                                                          Without advance from Federal sources                  (1,966)                0          15                  0
                                                                                                    Anticipated for the rest of year, without advances                0                0           0                  0
                                                                                                    Transfers from trust funds                                        0                0           0                  0
                                                                                                    Subtotal                                                $3,660,713                $0        $134                 $0
                                                                                              D.    Recoveries of prior year obligations                              0                0           0                  0
                                                                                              E.    Temporarily not available pursuant to Public Law                  0                0           0                  0
                                                                                              F     Permanently not available                                         0                0           0                  0
                                                                                              G     Total Budgetary Resources                               $3,734,328                $0    $589,761                 $0


                                                                                         Status of Budgetary Resources:
                                                                                              H.    Obligations incurred:
                                                                                                    Direct                                                          $0                $0    $338,691                 $0
                                                                                                    Reimbursable                                             3,676,977                 0         125                  0
                                                                                                    Subtotal                                                 3,676,977                 0     338,816                  0
                                                                                              I.    Unobligated balance:
                                                                                                    Apportioned                                                       0                0      23,784                  0
                                                                                                    Exempt from apportionment                                   57,352                 0     227,161                  0
                                                                                                    Other available                                                 (1)                0           0                  0
                                                                                              J.    Unobligated Balances Not Available                                0                0           0                  0
                                                                                              K.    Total, Status of Budgetary Resources                    $3,734,328                $0    $589,761                 $0
FY02 United States Army Annual Financial Statement




                                                                                         Relationship of Obligations to Outlays:
                                                                                              L.    Obligated Balance, Net - beginning of period             $775,963                 $0     $103,137                $0
                                                                                              M.    Obligated Balance transferred, net (+/-)                        0                  0            0                 0
                                                                                              N.    Obligated Balance, Net - end of period:
                                                                                                    Accounts receivable                                       (25,520)                 0             0                0
                                                                      Civil Works Fund




                                                                                                    Unfilled customer order from Federal sources              (29,959)                 0          (19)                0
                                                                                                    Undelivered orders                                         337,544                 0       91,679                 0
                                                                                                    Accounts payable                                           563,116                 0       20,298                 0
                                                                                              O.    Outlays:
                                                                                                    Disbursements                                             3,630,982                0     329,981                  0
                                                                                                    Collections                                             (3,683,937)                0       (120)                  0
                                                                                                    Subtotal                                                  ($52,955)               $0    $329,861                 $0
                                                                                              P.    Less: Offsetting receipts                                         0                0           0                  0
                                                                                              Q.    Net Outlays                                               ($52,955)               $0    $329,861                 $0

                    364
                                                                    Combining Statement of Budgetary Resources
                                                                                           Department of Defense • Department of the Army
                                                                         For the years ended September 30, 2002 and 2001 ($ in thousands)


                                                                                    General Funds                                     FUSRAP
                                                                                    Non-Budgetary                              Non-Budgetary
                                                                                    Credit Program                             Credit Program
Budgetary Resources:                                         General Funds               Financing            FUSRAP                Financing
   A.   Budget Authority:                                       Budgetary                 Accounts           Budgetary               Accounts
        Appropriations received                               $3,740,145                       $0           $140,000                      $0
        Borrowing authority                                            0                        0                  0                       0
        Contract authority                                             0                        0                  0                       0
        Net transfers (+/-)                                      163,780                        0                  0                       0
        Other                                                          0                        0                  0                       0
   B.   Unobligated balance:
        Beginning of period                                    1,195,565                        0               3,445                      0
        Net transfers, actual (+/-)                                    0                        0                   0                      0
        Anticipated Transfers Balances                                 0                        0                   0                      0
   C.   Spending authority from offsetting collections:
        Earned
              Collected                                        1,132,137                        0              12,603                      0
              Receivable from Federal sources                   (32,021)                        0               (242)                      0
        Change in unfilled customer orders
              Advance received                                    29,210                        0                   0                      0
              Without advance from Federal sources               119,827                        0             (2,241)                      0
        Anticipated for the rest of year, without advances             0                        0                   0                      0
        Transfers from trust funds                                     0                        0                   0                      0
        Subtotal                                              $1,249,153                       $0            $10,120                      $0
   D.   Recoveries of prior year obligations                           0                        0                   0                      0
   E.   Temporarily not available pursuant to Public Law               0                        0                   0                      0
   F    Permanently not available                                  (482)                        0                   0                      0
   G    Total Budgetary Resources                             $6,348,161                       $0           $153,565                      $0


Status of Budgetary Resources:
   H.   Obligations incurred:
        Direct                                                $4,042,663                       $0           $140,983                      $0
        Reimbursable                                           1,097,316                        0             10,157                       0
        Subtotal                                               5,139,979                        0            151,140                       0
   I.   Unobligated balance:
        Apportioned                                            1,198,505                        0              2,425                       0
        Exempt from apportionment                                  9,676                        0                  0                       0
        Other available                                                0                        0                  0                       0
   J.   Unobligated Balances Not Available                             1                        0                  0                       0
   K.   Total, Status of Budgetary Resources                  $6,348,161                       $0           $153,565                      $0


Relationship of Obligations to Outlays:
   L.   Obligated Balance, Net - beginning of period             $33,425                       $0             $37,865                     $0
   M.   Obligated Balance transferred, net (+/-)                       0                        0                   0                      0
   N.   Obligated Balance, Net - end of period:
        Accounts receivable                                    (209,922)                        0                   (1)                    0
        Unfilled customer order from Federal sources         (1,340,520)                        0              (2,626)                     0
        Undelivered orders                                       917,013                        0                6,256                     0
        Accounts payable                                         537,206                        0              33,863                      0
   O.   Outlays:
        Disbursements                                           5,181,820                       0            153,997                       0
        Collections                                           (1,161,347)                       0            (12,603)                      0
        Subtotal                                              $4,020,473                       $0           $141,394                      $0
   P.   Less: Offsetting receipts                                       0                       0                   0                      0
   Q.   Net Outlays                                           $4,020,473                       $0           $141,394                      $0
                                                                                                                                                 02
                                                                                                                                                fy

                                                                                                                                                 365

                                                                             The accompanying notes are an integral part of these statements.
                                                                         Combining Statement of Budgetary Resources
                                                                                         Department of Defense • Department of the Army
                                                                                         For the years ended September 30, 2002 and 2001 ($ in thousands)


                                                                                                                                                                                    FY 2002                         FY 2001
                                                                                                                                                                             Non-Budgetary                   Non-Budgetary
                                                                                                                                                                  FY 2002    Credit Program                  Credit Program
                                                                                         Budgetary Resources:                                               Combined Total        Financing        FY 2001        Financing
                                                                                              A.    Budget Authority:                                          Budgetary           Accounts      Budgetary         Accounts
                                                                                                    Appropriations received                                   $4,324,965                $0     $3,974,001               $0
                                                                                                    Borrowing authority                                                0                 0              0                0
                                                                                                    Contract authority                                                 0                 0              0                0
                                                                                                    Net transfers (+/-)                                        1,006,223                 0      1,544,283                0
                                                                                                    Other                                                              0                 0              0                0
                                                                                              B.    Unobligated balance:
                                                                                                    Beginning of period                                        1,713,303                 0      1,638,978                0
                                                                                                    Net transfers, actual (+/-)                                  (23,140)                0          (491)                0
                                                                                                    Anticipated Transfers Balances                                      0                0              0                0
                                                                                              C.    Spending authority from offsetting collections:
                                                                                                    Earned
                                                                                                          Collected                                             4,837,613                0      4,216,800                0
                                                                                                          Receivable from Federal sources                        (53,523)                0         56,628                0
                                                                                                    Change in unfilled customer orders
   The accompanying notes are an integral part of these statements.




                                                                                                          Advance received                                        37,345                 0              34               0
                                                                                                          Without advance from Federal sources                  115,628                  0        231,286                0
                                                                                                    Anticipated for the rest of year, without advances                 0                 0               0               0
                                                                                                    Transfers from trust funds                                         0                 0               0               0
                                                                                                    Subtotal                                                 $4,937,063                 $0     $4,504,748               $0
                                                                                              D.    Recoveries of prior year obligations                               0                 0               0               0
                                                                                              E.    Temporarily not available pursuant to Public Law                   0                 0               0               0
                                                                                              F     Permanently not available                                   (16,515)                 0        (17,545)               0
                                                                                              G     Total Budgetary Resources                               $11,941,899                 $0    $11,643,974               $0


                                                                                         Status of Budgetary Resources:
                                                                                              H.    Obligations incurred:
                                                                                                    Direct                                                    $5,415,360                $0     $8,478,611               $0
                                                                                                    Reimbursable                                               4,785,522                 0      1,120,752                0
                                                                                                    Subtotal                                                  10,200,882                 0      9,599,363                0
                                                                                              I.    Unobligated balance:
                                                                                                    Apportioned                                               1,246,051                  0      1,435,403                0
                                                                                                    Exempt from apportionment                                   494,957                  0        608,718                0
                                                                                                    Other available                                                   0                  0              1                0
                                                                                              J.    Unobligated Balances Not Available                                9                  0            489                0
                                                                                              K.    Total, Status of Budgetary Resources                    $11,941,899                 $0    $11,643,974               $0
FY02 United States Army Annual Financial Statement




                                                                                         Relationship of Obligations to Outlays:
                                                                                              L.    Obligated Balance, Net - beginning of period              $1,097,971                $0       $797,587               $0
                                                                                              M.    Obligated Balance transferred, net (+/-)                           0                 0              0                0
                                                                                              N.    Obligated Balance, Net - end of period:
                                                                                                    Accounts receivable                                        (235,443)                 0      (262,026)                0
                                                                      Civil Works Fund




                                                                                                    Unfilled customer order from Federal sources             (1,373,128)                 0    (1,257,500)                0
                                                                                                    Undelivered orders                                         1,475,183                 0     1,492,092                 0
                                                                                                    Accounts payable                                           1,180,711                 0        771,210                0
                                                                                              O.    Outlays:
                                                                                                    Disbursements                                             10,189,428                 0     9,365,262                 0
                                                                                                    Collections                                               (4,874,959)                0    (4,216,835)                0
                                                                                                    Subtotal                                                  $5,314,469                $0    $5,148,427                $0
                                                                                              P.    Less: Offsetting receipts                                   (819,255)                0              0                0
                                                                                              Q.    Net Outlays                                               $4,495,214                $0    $5,148,427                $0

                    366
                                                                               Combining Statement of Financing
                                                                                   Department of Defense • Department of the Army
                                                                 For the years ended September 30, 2002 and 2001 ($ in thousands)


Resources Used to Finance Activities:                                                                 Transfer          Borrowing
                                                         Special Funds        Trust Funds               Funds            Authority


Budgetary Resources Obligated
    1.   Obligations incurred                                $14,139           $789,011             $86,657                $4,164
    2.   Less: Spending authority from offsetting
         collections and recoveries (-)                             0                   0                  (3)           (16,940)
    3.   Obligations net of offsetting collections and
         recoveries                                          $14,139           $789,011             $86,654            ($12,776)
    4.   Less: Offsetting receipts (-)                             0          (819,255)                   0                    0
    5.   Net obligations                                     $14,139          ($30,244)             $86,654            ($12,776)

Other Resources
    6.  Donations and forfeitures of property                       0                  0                    0                    0
    7.  Transfers in/out without reimbursement (+/-)             (36)             11,014                (300)                    0
    8.  Imputed financing from costs absorbed
        by others                                                   0                   0                    0                  0
    9. Other (+/-)                                                  0                   0                    0             16,000
    10. Net other resources used to finance
        activities                                              ($36)           $11,014               ($300)             $16,000

11. Total resources used to finance activities               $14,103          ($19,230)             $86,354               $3,224

Resources Used to Finance Items not Part of
the Net Cost of Operations
    12. Change in budgetary resources obligated for
        goods, services and benefits ordered but not
        yet provided
        Undelivered Orders (-)                                (1,852)           (17,465)               1,300               10,811
        Unfilled Customer Orders                                    0                  0                  (7)                   0
    13. Resources that fund expenses recognized in                  0                  0                    0                   0
        prior periods
    14. Budgetary offsetting collections and receipts               0           819,255                      0                   0
        that do not affect net cost of operations
    15. Resources that finance the acquisition of
        assets                                                     31         (130,029)             (86,156)             (14,173)
    16. Other resources or adjustments to net
        obligated resources that do not affect net
        cost of operations
        Less: Trust or Special Fund Receipts
        Related to Exchange in the Entity's Budget (-)              0                   0                    0                   0
        Other (+/-)                                                 0                   0                    0                   0

17. Total resources used to finance items
    not part of the net cost of operations                  ($1,821)          $671,761             ($84,863)             ($3,362)

18. Total resources used to finance the net
    cost of operations                                       $12,282          $652,531                $1,491               ($138)
                                                                                                                                       02
                                                                                                                                      fy

                                                                                                                                       367

                                                                   The accompanying notes are an integral part of these statements.
                                                                         Combining Statement of Financing
                                                                                         Department of Defense • Department of the Army
                                                                                         For the years ended September 30, 2002 and 2001 ($ in thousands)


                                                                                         Components of the Net Cost of Operations                                                         Transfer   Borrowing
                                                                                                                                                            Special Funds   Trust Funds     Funds     Authority
                                                                                         that will not Require or Generate Resources
                                                                                         in the Current Period:

                                                                                         Components Requiring or Generating
                                                                                         Resources in Future Periods:
                                                                                              19. Increase in annual leave liability                                  $0            $0        $0            $0
                                                                                              20. Increase in environmental and disposal
                                                                                                  liability                                                            0             0                       0
                                                                                              21. Upward/Downward reestimates of credit
                                                                                                  subsidy expense (+/-)                                                0             0          0            0
                                                                                              22. Increase in exchange revenue receivable
                                                                                                  from the public (-)                                                (7)             0          0            0
                                                                                              23. Other (+/-)                                                          0             0          0            0
                                                                                              24. Total components of Net Cost of Operations
                                                                                                  that will require or generate resources in
   The accompanying notes are an integral part of these statements.




                                                                                                  future periods                                                    ($7)            $0        $0            $0

                                                                                         Components not Requiring or Generating
                                                                                         Resources:
                                                                                              25.   Depreciation and amortization                                     15        2,462      1,302             0
                                                                                              26.   Revaluation of assets or liabilities (+/-)                         0            0          0             0
                                                                                              27.   Other (+/-)                                                        0            0          0             0
                                                                                              28.   Total components of Net Cost of Operations
                                                                                                    that will not require or generate resources                      $15       $2,462     $1,302            $0

                                                                                         29. Total components of net cost of
                                                                                             operations that will not require or
                                                                                             generate resources in the current period                                 $8       $2,462     $1,302            $0

                                                                                         30. Net Cost of Operations                                             $12,290     $654,993      $2,793       ($138)
FY02 United States Army Annual Financial Statement
                                                                      Civil Works Fund




                    368
                                                                             Combining Statement of Financing
                                                                                Department of Defense • Department of the Army
                                                              For the years ended September 30, 2002 and 2001 ($ in thousands)

                                                                 Revolving               Contributed                    General
Resources Used to Finance Activities:                               Funds                     Funds                      Funds


Budgetary Resources Obligated
    1.   Obligations incurred                                 $3,676,977                  $338,816                $5,139,977
    2.   Less: Spending authority from offsetting
         collections and recoveries (-)                       (3,660,713)                      (135)              (1,249,153)
    3.   Obligations net of offsetting collections and
         recoveries                                              $16,264                  $338,681                $3,890,824
    4.   Less: Offsetting receipts (-)                                 0                         0                         0
    5.   Net obligations                                         $16,264                  $338,681                $3,890,824

Other Resources
    6.  Donations and forfeitures of property                          13                          0                       292
    7.  Transfers in/out without reimbursement (+/-)                 (80)                      (830)                   (8,597)
    8.  Imputed financing from costs absorbed by                 184,670                           0                    24,316
        others
    9. Other (+/-)                                                    $0                         $0                      $743
    10. Net other resources used to finance activities          $184,603                     ($830)                   $16,754

11. Total resources used to finance activities                 $200,867                   $337,851                 $3,907,578

Resources Used to Finance Items not Part of the
Net Cost of Operations
    12. Change in budgetary resources obligated for
        goods, services and benefits ordered but not yet
        provided
        Undelivered Orders (-)                                  (43,420)                    (4,204)                    41,842
        Unfilled Customer Orders                                   6,162                         23                   149,037
    13. Resources that fund expenses recognized in prior
        periods                                                          0                         0                          0
    14. Budgetary offsetting collections and receipts that
        do not affect net cost of operations                           0                          0                         0
    15. Resources that finance the acquisition of assets          13,085                  (152,205)               (2,092,171)
    16. Other resources or adjustments to net obligated
        resources that do not affect net cost of operations
        Less: Trust or Special Fund Receipts Related to
        Exchange in the Entity's Budget (-)                              0                         0                          0
        Other (+/-)                                                      0                         0                          0

17. Total resources used to finance items not part
    of the net cost of operations                              ($24,173)                ($156,386)               ($1,901,292)

18. Total resources used to finance the net cost
    of operations                                               $176,694                  $181,465                $2,006,286


                                                                                                                                    02
                                                                                                                                   fy

                                                                                                                                    369

                                                                The accompanying notes are an integral part of these statements.
                                                                         Combining Statement of Financing
                                                                                         Department of Defense • Department of the Army
                                                                                         For the years ended September 30, 2002 and 2001 ($ in thousands)


                                                                                         Components of the Net Cost of Operations that                       Revolving   Contributed      General
                                                                                                                                                                Funds         Funds        Funds
                                                                                         will not Require or Generate Resources in the
                                                                                         Current Period:

                                                                                         Components Requiring or Generating Resources
                                                                                         in Future Periods:
                                                                                              19. Increase in annual leave liability                               $0            $0           $0
                                                                                              20. Increase in environmental and disposal liability                  0             0            0
                                                                                              21. Upward/Downward reestimates of credit subsidy
                                                                                                  expense (+/-)                                                     0             0            0
                                                                                              22. Increase in exchange revenue receivable from the
                                                                                                  public (-)                                                        0            0        (3,422)
                                                                                              23. Other (+/-)                                                       0          137        41,360
                                                                                              24. Total components of Net Cost of Operations that
                                                                                                  will require or generate resources in future periods             $0         $137       $37,938
   The accompanying notes are an integral part of these statements.




                                                                                         Components not Requiring or Generating
                                                                                         Resources:
                                                                                              25.   Depreciation and amortization                             48,535           130       423,090
                                                                                              26.   Revaluation of assets or liabilities (+/-)                     0             0             0
                                                                                              27.   Other (+/-)                                                    0             0           465
                                                                                              28.   Total components of Net Cost of Operations that
                                                                                                    will not require or generate resources                   $48,535          $130      $423,555

                                                                                         29. Total components of net cost of operations
                                                                                             that will not require or generate resources in
                                                                                             the current period                                              $48,535          $267      $461,493

                                                                                         30. Net Cost of Operations                                         $225,229     $181,732      $2,467,779
FY02 United States Army Annual Financial Statement
                                                                      Civil Works Fund




                    370
                                                                             Combining Statement of Financing
                                                                                Department of Defense • Department of the Army
                                                              For the years ended September 30, 2002 and 2001 ($ in thousands)

                                                                                             FY 2002                    FY 2001
Resources Used to Finance Activities:                             FUSRAP                   Combined                   Combined


Budgetary Resources Obligated
    1.   Obligations incurred                                   $151,141               $10,200,882                $9,599,363
    2.   Less: Spending authority from offsetting
         collections and recoveries (-)                          (10,119)               (4,937,063)               (4,504,749)
    3.   Obligations net of offsetting collections and
         recoveries                                             $141,022                $5,263,819                $5,094,614
    4.   Less: Offsetting receipts (-)                                 0                 (819,255)                   (43,761)
    5.   Net obligations                                        $141,022                $4,444,564                $5,050,853

Other Resources
    6.  Donations and forfeitures of property                            0                      305                        275
    7.  Transfers in/out without reimbursement (+/-)                     0                    1,171                      1,735
    8.  Imputed financing from costs absorbed by                         0                  208,986                    211,595
        others
    9. Other (+/-)                                                       0                   16,743                  (26,044)
    10. Net other resources used to finance activities                  $0                 $227,205                  $187,561

11. Total resources used to finance activities                  $141,022                $4,671,769                 $5,238,414

Resources Used to Finance Items not Part of the
Net Cost of Operations
    12. Change in budgetary resources obligated for
        goods, services and benefits ordered but not yet
        provided
        Undelivered Orders (-)                                    10,283                     (2,705)                (281,946)
        Unfilled Customer Orders                                  (2,241)                   152,974                   231,321
    13. Resources that fund expenses recognized in prior
        periods                                                          0                          0                (169,635)
    14. Budgetary offsetting collections and receipts that
        do not affect net cost of operations                             0                  819,255                         0
    15. Resources that finance the acquisition of assets              (11)              (2,461,629)               (1,540,367)
    16. Other resources or adjustments to net obligated
        resources that do not affect net cost of operations
        Less: Trust or Special Fund Receipts Related to
        Exchange in the Entity's Budget (-)                              0                          0                       0
        Other (+/-)                                                      0                          0               (390,870)

17. Total resources used to finance items not part
    of the net cost of operations                                 $8,031               ($1,492,105)              ($2,151,497)

18. Total resources used to finance the net cost
    of operations                                               $149,053                $3,179,664                 $3,086,917


                                                                                                                                    02
                                                                                                                                   fy

                                                                                                                                    371

                                                                The accompanying notes are an integral part of these statements.
                                                                         Combining Statement of Financing
                                                                                         Department of Defense • Department of the Army
                                                                                         For the years ended September 30, 2002 and 2001 ($ in thousands)


                                                                                         Components of the Net Cost of Operations that                      Component       FY 2002       FY 2001
                                                                                                                                                                Level     Combined      Combined
                                                                                         will not Require or Generate Resources in the
                                                                                         Current Period:

                                                                                         Components Requiring or Generating Resources
                                                                                         in Future Periods:
                                                                                              19. Increase in annual leave liability                              $0            $0            $0
                                                                                              20. Increase in environmental and disposal liability                 0             0             0
                                                                                              21. Upward/Downward reestimates of credit subsidy
                                                                                                  expense (+/-)                                                    0             0             0
                                                                                              22. Increase in exchange revenue receivable from the
                                                                                                  public (-)                                                       0       (3,429)             0
                                                                                              23. Other (+/-)                                                      0       41,497        103,175
                                                                                              24. Total components of Net Cost of Operations that
                                                                                                  will require or generate resources in future periods            $0      $38,068      $103,175
   The accompanying notes are an integral part of these statements.




                                                                                         Components not Requiring or Generating
                                                                                         Resources:
                                                                                              25.   Depreciation and amortization                                  0      475,534       589,863
                                                                                              26.   Revaluation of assets or liabilities (+/-)                     0            0       169,970
                                                                                              27.   Other (+/-)                                                    0          465        28,145
                                                                                              28.   Total components of Net Cost of Operations that
                                                                                                    will not require or generate resources                        $0     $475,999       $787,978

                                                                                         29. Total components of net cost of operations
                                                                                             that will not require or generate resources in
                                                                                             the current period                                                   $0     $514,067      $891,153

                                                                                         30. Net Cost of Operations                                         $149,053    $3,693,731    $3,978,070
FY02 United States Army Annual Financial Statement
                                                                      Civil Works Fund




                    372
                                                       Required Supplementary Stewardship Information



Heritage Assets                                   FY 2002FY                                                         2002
                                           Beginning Balance           Additions          Deletions       Ending Balance
   Museums                                               0                    0                  0                   0
   Monuments & Memorials                                 1                    0                  0                   1
   Cemeteries & Archaeological Sites                   120                    0                  0                 120
   Buildings & Structures                              324                    0                  0                 324
   Major Collections                                     1                    0                  0                   1
   Total                                               446                    0                  0                 446

Stewardship Land                                    FY 2002                                                      FY 2002
                                           Beginning Balance           Additions          Deletions       Ending Balance
   Mission                                                  0                 0                  0                    0
   Parks & Historic Sites                                   0                 0                  0                    0
   Total                                                    0                 0                  0                    0

Non-Federal Physical Property
                                                     1998           1999           2000           2001              2002
   Trans. Assets: ND Mission Related                    0             0              0                0                0
   Funded Assets: ND Mission Related                    0             0              0                0                0
   Total                                                0             0              0                0                0

Research and Development Investments
                                                     1998           1999           2000           2001              2002
   Basic Research                                       0             0              0                0                0
   Applied Research                                     0             0              0                0                0
   Advanced Technology Development                      0             0              0                0                0
   Demonstration and Validation                         0             0              0                0                0
   Engineer. and Manufacturing. Development             0             0              0                0                0
   RDT&E Management Support                             0             0              0                0                0
   Operational System Development                       0             0              0                0                0
   Total                                                0             0              0                0                0


   Narrative Statement:
   At the end of September 2001, we reported having 8,099 Major Collections. After receiving clarifying
   guidance from the Department of Defense on what makes up Major Collections, we are reporting that we
   have one (1) Major Collection, this being the collection of historical memorabilia, historic artifacts and
   records managed by the Headquarters, U.S. Army Corps of Engineers Office of History.

   Other than multipurpose heritage assets, heritage assets are not material to the mission of the U.S. Army
   Corps of Engineers. Disclosures pertinent to multipurpose heritage assets are contained in the financial
   statements.

   Heritage assets classified as Land are special land plots containing archaeological sites listed on the National
   Register of Historic Places or eligible to be listed.

                                                                                                                            02
                                                                                                                           fy

                                                                                                                                373
                                                                        Heritage assets on display are assumed to be in adequate condition for display purposes, consistent with their
                                                                        origins, unless otherwise noted. Reported heritage assets are free of material conditions that are counter to
                                                                        safeguarding, adequately protecting, and properly managing those assets; they have not degraded materially
                                                                        while under the care of the U.S. Army Corps of Engineers. The existence of most of the un-categorized
                                                                        heritage assets is known informally to be adequate for display purposes; however, the condition of many un-
                                                                        categorized assets are unknown.

                                                                        Cemeteries and Archeological Sites are archeological properties listed on, or eligible for, the National
                                                                        Register of Historic Places. These archeological assets cover almost the entire range of human occupation of
                                                                        the Continental United States beginning with the Kennewick Man Discovery Site in Washington State, dating
                                                                        to approximately 10,000 years before present, to archeological remains of early European-American
                                                                        settlements such as Fort Independence in Georgia.

                                                                        Buildings and Structures include a range of historic resources from a covered bridge in the Sacramento
                                                                        District to early farming structures in the Savannah District. It also includes some non-traditional structures
                                                                        such as a snag boat that operated on the Mississippi River.
FY02 United States Army Annual Financial Statement
                                                     Civil Works Fund




                 374
                                                                        Required Supplementary Information



Deferred Maintenance
$ in thousands


Real Property Annual Deferred Sustainment
                                               Required        Actual      Difference
     Buildings, Structures, and Utilities    $702,000      $702,000               $0

Annual Deferred Sustainment Trend
                                               FY 2000        FY 2001        FY 2002      FY 2003         FY 2004
     Buildings and Structures                $329,000      $415,000       $702,000      $884,000    Not Available

Real Property Restoration and Modernization Requirements
                                            End FY 2001   End FY 2002        Change
     Buildings, Structures, and Utilities    $415,000      $702,000       $287,000

Military Equipment Deferred Maintenance Amounts
     FY 2002
     Aircraft                                        0
     Ships                                           0
     Missiles                                        0
     Combat Vehicles                                 0
     Other Weapons Systems                           0
     Total                                           0


     Narrative Statement: Deferred maintenance at Civil Works water resources projects operated and
     maintained by the U.S. Army Corps of Engineers was determined through the budget development process
     whereby operations managers identify the operation and maintenance (O&M) needs at each project in the
     Civil Works inventory. O&M needs are based on inspections of project features, engineering analyses and
     historical experience.




                                                                                                                     02
                                                                                                                    fy

                                                                                                                         375
                                                                        Schedule, Part A DoD Intra-governmental      Treasury     Fund Balance     Accounts      Loans
                                                                        Asset Balances ($ Amounts in Thousands)        Index      with Treasury   Receivable Receivable   Investments   Other

                                                                        Unidentifiable Federal Agency Entity
                                                                        (Other than DoD entities)                       0                                $0
                                                                        The Judiciary                                   10                              $16
                                                                        Department of Agriculture                       12                           $2,842
                                                                        Department of Commerce                          13                           $3,350
                                                                        Department of the Interior                      14                        $304,811
                                                                        Department of Justice                           15                         $18,159
                                                                        Department of Labor                             16                               $4
                                                                        Navy General Fund                               17                           $2,073
                                                                        United State Postal Service                     18                            $703
                                                                        Department of State                             19                            $847
                                                                        Department of the Treasury                      20         $2,543,957      $18,810                $2,269,086
                                                                        Army General Fund                               21                           $1,077
                                                                        Office of Personnel Management                  24                               $0
                                                                        Social Security Administration                  28                               $3
                                                                        Library of Congress                             3                              ($2)
                                                                        Nuclear Regulatory Commission                   31                              $14
                                                                        Smithsonian Institution                         33                            $181
                                                                        Department of Veterans Affairs                  36                              $20
                                                                        Government Printing Office                      4                                $0
                                                                        U.S. Equal Employment Opportunity
                                                                        Commission                                      45                               $0
                                                                        General Service Administration                  47                            $333
                                                                        National Science Foundation                     49                           ($126)
                                                                        General Printing Office                         5                                $9
                                                                        Air Force General Fund                          57                              $42
                                                                        Federal Emergency Management Agency             58                         $29,552
                                                                        Railroad Retirement Board                       60                              $10
                                                                        Tennessee Valley Authority                      64                            $256
                                                                        Environmental Protection Agency                 68                         $28,442
                                                                        Department of Transportation                    69                         $13,970
                                                                        Agency for International Development            72                           $1,802
FY02 United States Army Annual Financial Statement




                                                                        American Battle Monuments                       74                              $31
                                                                        Department of Health and Human Services         75                            $611
                                                                        National Aeronautics and Space
                                                                        Administration                                  80                           $1,757
                                                                        Department of Housing and Urban
                                                     Civil Works Fund




                                                                        Development                                     86                               $5
                                                                        Department of Energy                            89                            $260
                                                                        Independent Agencies                            95                         $98,009
                                                                        US Army Corps of Engineers                      96
                                                                        Other Defense Organizations General Funds       97                              $98
                                                                        Other Defense Organizations Working
                                                                        Capital Funds                                97-4930                            $60
                                                                        Army Working Capital Fund                   97-4930.001                         $38
                                                                        Navy Working Capital Fund                   97-4930.002                         $84
                 376
                                                                        Totals:                                                    $2,543,957     $528,151                $2,269,086
                                                                           Required Supplementary Information
                                                          Governmental Transactions from the Consolidating Trial Balance



Schedule, Part B DoD Intra-governmental Entity    Treasury           Accounts    Debts/Borrowings
Liabilities ($ Amounts in Thousands)                Index             Payable From Other Agencies               Other

Department of Agriculture                            12                $1,394                                   $321

Department of Commerc                                13                $4,969                                   $142

Department of the Interior                           14               $14,819                                 $4,812

Department of Justice                                15                 $397                                      $7

Department of Labor                                  16                   $54                                $40,652

Navy General Fund                                    17                $1,777

United States Postal Service                         18                    $1                                    $31

Department of State                                  19                 $482                                    $256

Department of the Treasury                           20                $1,235            $24,667          $1,075,277

Army General Fund                                    21                $5,616                                   $118

Office of Personnel Management                       24                 $145                                 $13,702

Social Security Administration                       28                   $30

Library of Congress                                  3                    $65

Department of Veterans Affairs                       36                                                          $37

Government Printing Office                           4                  $109

U.S. Equal Employment Opportunity
Commission                                           45                    $3

General Service Administration                       47               $35,950                                   $110

Air Force General Fund                               57                   $89

Federal Emergency Management Agency                  58                   $11                                    $19

Tenessee Valley Authority                            64                $2,902                                     $0

Environmental Protection Agency                      68                 $263                                      $4

Department of Transportation                         69                 $210                                     $29

Small Business Administration                        73                                                           $1

Department of Health and Human Services              75                 $353                                     $58

Department of Housing and Urban Development          86                                                       $6,163

Narional Archives and Records Administration       88 $2

Department of Energy                                 89                $2,782                                 $1,917

Department of Education                              91                                                       $2,563

Independent Agencies                                 95                                                         $724

Other Defense Organizations General Funds            97                $1,738

Other Defense Organizations Working Capital
Funds                                             97-4930              $8,328

Army Working Capital Fund                        97-4930.001              $80

Navy Working Capital Fund                        97-4930.002            $608

Air Force Working Capital Fund

Totals:
                                                 97-4930.003               $3

                                                                      $84,413            $24,667          $1,146,943
                                                                                                                            02
                                                                                                                           fy

                                                                                                                                377
                                                                        Schedule, Part C DoD Intra-governmental Revenue and Related
                                                                        Costs ($ Amounts in Thousands)                                Treasury Index   Earned Revenue

                                                                        The Judiciary                                                      10                    $35
                                                                        Executive Office of the President                                  11                     $4
                                                                        Department of Agriculture                                          12                 $9,743
                                                                        Department of Commerce                                             13                 $5,531
                                                                        Department of the Interior                                         14                $36,899
                                                                        Department of Justice                                              15                $80,980
                                                                        Department of Labor                                                16                     $7
                                                                        Navy General Fund                                                  17                 $2,224
                                                                        United States Postal Service                                       18                 $3,043
                                                                        Department of State                                                19                 $8,240
                                                                        Department of the Treasury                                         20                 $4,571
                                                                        Army General Fund                                                  21                 $4,017
                                                                        Office of Personnel Management                                     24                     $0
                                                                        Social Security Administration                                     28                     $8
                                                                        Nuclear Regulatory Commission                                      31                   $159
                                                                        Smithsonian Institution                                            33                   $762
                                                                        Department of Veterans Affairs                                     36                 $2,266
                                                                        Government Printing Office                                          4                     $0
                                                                        U.S. Equal Employment Opportunity Commission                       45                     $4
                                                                        General Service Administration                                     47                   $773
                                                                        National Science Foundation                                        49                 $1,839
                                                                        General Printing Office                                             5                 $1,384
                                                                        Air Force General Fund                                             57                   $689
                                                                        Federal Emergency Management Agency                                58                $92,168
                                                                        Railroad Retirement Board                                          60                    $25
                                                                        Tennessee Valley Authority                                         64                   $369
                                                                        Environmental Protection Agency                                    68               $134,102
                                                                        Department of Transportation                                       69                $28,236
                                                                        Agency for International Development                               72                 $4,661
FY02 United States Army Annual Financial Statement




                                                                        Small Business Administration                                      73                     $3
                                                                        American Battle Monuments                                          74                   $144
                                                                        Department of Health and Human Services                            75                 $6,470
                                                                        National Aeronautics and Space Administration                      80                 $8,930
                                                     Civil Works Fund




                                                                        Department of Housing and Urban Development                        86                   $121
                                                                        Department of Energy                                               89                $13,355
                                                                        Department of Education                                            91                    $37
                                                                        Independent Agencies                                               95               $163,321
                                                                        Other Defense Organizations General Funds                          97                 $1,671
                                                                        Other Defense Organizations Working Capital Funds               97-4930                ($396)
                                                                        Army Working Capital Fund                                     97-4930.001                $64
                                                                        Navy Working Capital Fund                                     97-4930.002               ($24)
                 378                                                    Totals:                                                                             $616,435
                                                                    Required Supplementary Information
                                                   Governmental Transactions from the Consolidating Trial Balance



Schedule, Part E DoD Intra-governmental          Treasury
Non-exchange Revenues ($ Amounts in Thousands)     Index                Transfers In              Transfers Out

Department of Agriculture                          12                          $13

Department of the Interior                         14                      $63,941                       $103

Department of Justice                              15                                                       $1

Department of the Treasury                         20                    $756,107                    $770,287

Army General Fund                                  21                                                       $0

General Service Administration                     47                                                      $55

Tennessee Valley Authority                         64                                                      $61

Department of Transportation                       69                       $1,406                    $13,305

Totals:                                                                  $821,467                    $783,812




                                                                                                                     02
                                                                                                                    fy

                                                                                                                         379
      FY02 United States Army Annual Financial Statement




380
      Civil Works Fund
                                          INSPECTOR GENERAL
                                         DEPARTMENT OF DEFENSE
                                            400 ARMY NAVY DRIVE
                                       ARLINGTON, VIRGINIA 22202-4704

                                                                                               January 6, 2003



MEMORANDUM FOR COMMANDER, U.S. ARMY CORPS OF ENGINEERS
SUBJECT: Independent Auditor's Report on the U.S. Army Corps of Engineers, Civil Works, Fiscal
         Year 2002 Principal Financial Statements (Report No. D-2003-043)

The Office of Management and Budget (OMB) in implementing the Chief Financial Officers (CFO) Act of
1990, as amended, has required the Office of the Inspector General of the Department of Defense to audit the
accompanying Consolidated Balance Sheet of the U.S. Army Corps of Engineers, Civil Works, (Corps of
Engineers) as of September 30, 2002 and 2001, the related Consolidated Statements of Net Cost and Changes
in Net Position, and the Combined Statements of Financing and Budgetary Resources for the fiscal years
then ended. The financial statements are the responsibility of the Corps of Engineers management. The
Corps of Engineers management is also responsible for implementing effective internal control and for
complying with laws and regulations. We are also including the required reports on internal control and
compliance with laws and regulations.

Disclaimer of Opinion on the Financial Statements
Our audit of the Corps of Engineers FY 2002 Financial Statements was limited to the Consolidated Balance
Sheet. Time constraints precluded the Corps of Engineers from providing sufficient audit-ready evidential
material for the auditors to complete the audit. Therefore, we are unable to express, and we do not express,
an opinion on the Corps of Engineers FY 2002 Consolidated Balance Sheet. We did not audit the Corps of
Engineers FY 2002 Consolidated Statements of Net Cost and Changes in Net Position and the Combined
Statements of Financing and Budgetary Resources; therefore, we do not express an opinion on those
statements.

Although we were not able to complete the audit of the Corps of Engineers FY 2001 Consolidated Balance
Sheet, our limited review identified material internal control weaknesses related to General Property, Plant,
and Equipment; Accounts Payable - Public; and general and application controls. Therefore, we are unable
to express an opinion on the Corps of Engineers FY 2001 financial statements.

Summary of Internal Control
In planning and performing our audit, we considered the Corps of Engineers internal control over financial
reporting and compliance. We did this to determine our procedures for auditing the financial statements and
to comply with OMB guidance, but not to express an opinion on internal control. Accordingly, we do not
express an opinion on internal control over financial reporting and compliance because time constraints
precluded the Corps of Engineers from providing sufficient audit-ready evidential material for the auditors to
assess internal control over financial reporting and compliance or to follow up on previously identified

                                                                                                                  02
                                                                                                                 fy
A Regular Statement and Account of the Receipts and Expenditures of all public Money shall be published               381
from time to time. —Constitution of the United States Article I, Section 9
                                                                        reportable conditions1 related to: General Property, Plant, and Equipment and general and application
                                                                        controls of the Corps of Engineers Financial Management System (CEFMS). However, possible material
                                                                        internal control weaknesses were identified in the Compilation of the Financial Statements, Capitalized
                                                                        Equipment, and Accounts Payable-Public.

                                                                        A material weakness is a condition that precludes the entity's internal control from providing reasonable
                                                                        assurance that misstatements, losses, or noncompliance that are material in relation to the financial statements
                                                                        would be prevented or detected on a timely basis. Our internal control work would not necessarily disclose
                                                                        all material weaknesses. See the Attachment for additional details on possible material internal control
                                                                        weaknesses identified during the FY 2002 CFO audit and other previously identified material internal control
                                                                        weaknesses.

                                                                        Summary of Compliance With Laws and Regulations
                                                                        Our work to determine compliance with selected provisions of the applicable laws and regulations was
                                                                        limited because time constraints precluded the Corps of Engineers from providing sufficient audit-ready
                                                                        evidential material for the auditors to complete the review. However, our limited review of the FY 2002
                                                                        Balance Sheet revealed that the Corps of Engineers was not compliant with the Federal Accounting
                                                                        Standards Advisory Board's Statement of Federal Financial Accounting Standard No. 6, "Accounting for
                                                                        Property, Plant, and Equipment," and the Department of Defense Federal Management Regulation, volume 4,
                                                                        chapter 12, "Unearned Revenue and Other Liabilities." In previously issued audit reports, the General
                                                                        Accounting Office (GAO) and the Army Audit Agency (AAA) noted instances of noncompliance with the
                                                                        Federal Managers' Financial Integrity Act of 1982; OMB Circular A-123, "Management Accountability and
                                                                        Control;" OMB Circular A-130, "Management of Federal Information Resources;" OMB Circular A-127,
                                                                        "Federal Management Systems;" and the Federal Financial Management Improvement Act of 1996. Due to
                                                                        time constraints, we were unable to follow up on instances of noncompliance. Therefore, we did not
                                                                        determine whether the Corps of Engineers was in compliance with all applicable laws and regulations related
                                                                        to financial reporting. See the Attachment for additional details on compliance with laws and regulations.
                                                                        We caution that other noncompliance may have occurred and not been detected. Further, the results of our
                                                                        limited procedures may not be sufficient for other purposes. Our objective was not to express an opinion on
                                                                        compliance with applicable laws and regulations.
FY02 United States Army Annual Financial Statement
                                                     Civil Works Fund




                                                                        1
                                                                            Reportable conditions are matters coming to the auditor's attention that, in his or her judgment, should be communicated to management because they
                                                                            represent significant deficiencies in the design or operation of internal control, which could adversely affect the organization's ability to initiate, record,
                                                                            process, and report financial data consistent with the assertions of management in financial statements.




                 382
                                                                        A Regular Statement and Account of the Receipts and Expenditures of all public Money shall be published
                                                                        from time to time. —Constitution of the United States Article I, Section 9
                                                                                           Opinion Report



Management Responsibility
Management is responsible for:

z preparing the financial statements in conformity with generally accepted accounting principles;

z establishing, maintaining, and assessing internal control to provide reasonable assurance that the broad
  control objectives of the Federal Managers' Financial Integrity Act of 1982 are met;

z ensuring that the Corps of Engineers financial management systems substantially comply with the Federal
  Financial Management Improvement Act of 1996 requirements; and

z complying with applicable laws and regulations.




                                            David K. Steensma
                                     Deputy Assistant Inspector General
                                               for Auditing




                                                                                                              02
                                                                                                             fy
A Regular Statement and Account of the Receipts and Expenditures of all public Money shall be published           383
from time to time. —Constitution of the United States Article I, Section 9
                                                                        Reports on Internal Control and Compliance with Laws and
                                                                        Regulations

                                                                        Internal Control
                                                                           Management is responsible for implementing effective internal control and for providing reasonable
                                                                           assurance that accounting data are accumulated, recorded, and reported properly; and that assets are
                                                                           safeguarded. We did not perform tests of the Corps of Engineers internal control over financial reporting and
                                                                           we did not obtain sufficient evidence to support or express an opinion on internal control because time
                                                                           constraints precluded the Corps of Engineers from providing sufficient audit-ready evidential matter for the
                                                                           auditors to assess internal control on financial reporting and compliance or to follow up on previously
                                                                           identified reportable conditions. However, our limited review of the Corps of Engineers FY 2002 Balance
                                                                           Sheet revealed material internal control deficiencies in the Compilation of the Financial Statements,
                                                                           Capitalized Equipment, Accounts Payable-Public, and general and application controls.

                                                                           Compilation of the Financial Statements. The Corps of Engineer’s processes and financial management
                                                                           systems used to compile the FY 2002 Financial Statements were substantially in compliance with the U.S.
                                                                           Government Standard General Ledger. However, the controls over the process used to compile the financial
                                                                           statements were not adequate, resulting in undocumented modifications to the financial data used to prepare
                                                                           the FY 2002 financial statements. In addition, journal vouchers used to make accounting adjustments were
                                                                           unsupported and inadequately controlled.

                                                                           Equipment. The Corps of Engineers was unable to adequately explain approximately $49 million of
                                                                           differences between the equipment universe and the amount reported in the FY 2002 financial statements.
                                                                           Internal control over equipment was not adequate to ensure that Corps of Engineers districts maintain
                                                                           supporting documentation throughout a capitalized asset's entire useful or depreciable life.

                                                                           Accounts Payable - Public. During the FY 2001 and FY 2002 CFO audits, the Corps of Engineers could
                                                                           not demonstrate that CEFMS captured and reported accounts payable transactions in the proper period. In
FY02 United States Army Annual Financial Statement




                                                                           addition, CEFMS does not recognize liabilities in accordance with Statement of Federal Financial
                                                                           Accounting Standards No. 1, "Accounting for Selected Assets and Liabilities," which requires that an account
                                                                           payable be established when goods or services are received. Instead, CEFMS does not allow an account
                                                                           payable to be recognized until an obligating document is entered into the system, regardless of when the
                                                     Civil Works Fund




                                                                           goods or services were received. As a result, the Corps of Engineers could not ensure that its accounts
                                                                           payable were not materially misstated.

                                                                           General and Application Controls. The General Accounting Office (GAO) Report, GAO-01-89, "Financial
                                                                           Management: Significant Weaknesses in Corps of Engineers Computer Controls," dated October 11, 2000,
                                                                           identified significant vulnerabilities and risks associated with CEFMS and its applications. GAO performed
                                                                           followup tests of the general and application controls and issued a report, GAO-02-589, "Corps of Engineers
                                                                           Making Improvements, But Weaknesses Continue," dated June 10, 2002. GAO stated that continuing and
                 384
                                                                           newly identified vulnerabilities involving general and application computer controls continue to impair the
                                                                                                  Opinion Report



  Corps of Engineers' ability to ensure the reliability, confidentiality, and availability of financial and sensitive
  data. GAO also stated that such vulnerabilities increased risks to other Department of Defense networks and
  systems to which the Corps of Engineers' network was linked.

  The Army Audit Agency (AAA) Report, AA 01-319, "Corps of Engineers Financial Management System
  General and Applications Controls," dated June 26, 2001, stated that the Corps of Engineers did not
  implement an effective security management program or service continuity controls to ensure that critical and
  sensitive data are protected, and critical operations continue without interruption when unexpected events
  happen. The AAA also stated that CEFMS internal control was not adequate for financial statements
  auditing purposes. In AAA Report, A-2002-0610-FFC, "Corps of Engineers Financial Management System
  General and Applications Controls," dated September 30, 2002, AAA again cited weaknesses in the computer
  general control areas of entity-wide security and service continuity and stated that these areas continue to
  impair the ability of the Corps of Engineers to ensure the reliability, confidentiality, and availability of
  financial and sensitive data contained in the system.

  Indicators of Fraud and Illegal Acts. The American Institute of Certified Public Accountants Statement of
  Auditing Standard No. 82, "Consideration of Fraud in a Financial Statement Audit," December 1997, requires
  auditors to assess the risk of material misstatement due to fraud or illegal acts in order to provide reasonable
  assurance that fraud or illegal acts material to the financial statements are detected.

  Our audit procedures were limited due to the Corps of Engineer’s deficiencies in financial management and
  accounting systems, audit trails, and control over assets. Therefore, we were not able to obtain sufficient
  evidence to provide reasonable assurance that fraud or illegal acts were detected. We are unable to report the
  effect that fraud risk factors had on the FY 2002 Corps of Engineers Financial Statements. Nonetheless, the
  Corps of Engineers financial management deficiencies are indications of internal control weaknesses that
  could impact the ability of the Corps of Engineers to monitor, detect, and investigate fraud or theft of assets.
  A risk of material misstatements due to fraud or illegal acts will continue to be present until internal control
  deficiencies within the Corps of Engineers are remedied.

Report on Compliance with Laws and Regulations
  Management is responsible for compliance with existing laws and regulations related to financial reporting.
  Our work to determine compliance with selected provisions of the applicable laws and regulations was
  limited because time constraints precluded the Corps of Engineers from providing sufficient audit-ready
  evidential material for the auditors to complete the review of compliance with laws and regulations.
  However, our limited review of the FY 2002 Balance Sheet revealed instances of noncompliance, and GAO
  and AAA noted instances of noncompliance in previously issued audit reports. Due to time constraints, we
  were unable to complete our review of previously identified noncompliances. Therefore, we did not
  determine whether the Corps of Engineers was in compliance with all applicable laws and regulations related
  to financial reporting. Our objective was not to express, and we do not express, an opinion on compliance
  with applicable laws and regulations.

  The Corps of Engineers did not classify and report Construction in Progress costs in accordance with the
                                                                                                                         02
                                                                                                                        fy

  Federal Accounting Standards Advisory Board's Statement of Federal Financial Accounting Standard No. 6.                    385
                                                                        The auditors identified 76 sample items, valued at $669 million, that should not have been reported in
                                                                        Construction in Progress. The charges represented items that should have been expensed or that had been
                                                                        completed prior to September 30, 2002, and should have been transferred to other accounts.

                                                                        CEFMS does not recognize liabilities in accordance with Statement of Federal Financial Accounting
                                                                        Standards No. 1, "Accounting for Selected Assets and Liabilities," which requires that an account payable be
                                                                        established when goods or services are received.

                                                                        Auditors also noted that the Corps of Engineers was not reporting Other Liabilities in accordance with the
                                                                        Department of Defense Financial Management Regulation, volume 4, chapter 12, which requires that the
                                                                        Deferred Credit account be used only with the permission of the Office of the Under Secretary of Defense
                                                                        (Comptroller)/Chief Financial Officer and to represent revenue received from others, but not yet earned. The
                                                                        Corps of Engineers did not have permission to use the Deferred Credit account and had not received the
                                                                        revenue when the account was used. Therefore, in FY 2002, the Corps of Engineers reclassified about $800
                                                                        million to the Other Liabilities account and disclosed the adjustment in the FY 2002 Notes to the Financial
                                                                        Statements. But the Corps of Engineers did not adjust the FY 2001 Deferred Credit account or revise the FY
                                                                        2001 Notes to the Financial Statements for comparative purposes.

                                                                        The Corps of Engineers is required to comply with the following financial management systems reporting
                                                                        requirements.

                                                                        z The Federal Financial Management Improvement Act of 1996 is intended to advance Federal financial
                                                                          management by ensuring that the Federal financial management systems can and do provide reliable,
                                                                          consistent disclosure of financial data that is uniform across the Federal Government from year to year,
                                                                          consistently using professionally-accepted accounting standards. It is also intended to provide the basis
                                                                          for ongoing use of reliable financial information in program management and in oversight by the
                                                                          President, the Congress, and the public. The Federal Financial Management Improvement Act requires
                                                                          each agency to implement and maintain systems that comply substantially with Federal financial
                                                                          management systems requirements, applicable Federal accounting standards, and the U.S. Government
                                                                          Standard General Ledger at the transaction level; requires auditors to report on the agency compliance
                                                                          with the Federal Financial Management Improvement Act; and requires agency heads to determine
FY02 United States Army Annual Financial Statement




                                                                          whether their financial management systems comply with the Federal Financial Management
                                                                          Improvement Act based on audit reports and other information and to develop remediation plans and file
                                                                          them with OMB if the financial management systems do not comply with Federal Financial Management
                                                                          Improvement Act.
                                                     Civil Works Fund




                                                                        z The Federal Managers' Financial Integrity Act of 1982 requires agencies to evaluate the systems and to
                                                                          annually report whether those systems are in compliance with applicable requirements. When systems are
                                                                          not in compliance, the statement must include a report of internal accounting and administrative control
                                                                          material weaknesses and plans and a schedule for correcting the material weaknesses.

                                                                        z OMB Circular A-123, revised June 21, 1995, requires agencies and individual Federal managers to take
                                                                          systematic and proactive measures to: assess the adequacy of management controls in Federal programs
                                                                          and operations, identify needed improvements, take corresponding corrective actions, and report annually
                 386
                                                                          on management control.
                                                                                                  Opinion Report



  z OMB Circular A-130, Appendix III, establishes a minimum set of controls to be included in Federal
    automated information security programs, assigns Federal agency responsibilities for the security of
    automated information, and links agency information security programs and agency management control
    systems established in accordance with OMB Circular A-123. Agencies should implement and maintain
    their automated security programs to ensure that adequate security is provided for all agency information
    collected, processed, transmitted, stored, or disseminated in general support systems and major
    applications.

  z OMB Circular A-127, revised July 23, 1993, requires agencies to develop, operate, evaluate, and report
    on financial management systems. It also requires that financial management systems provide complete,
    reliable, consistent, timely, and useful information.


  According to prior GAO and AAA audit reports, the Corps of Engineers did not fully comply with the
  Federal Managers' Financial Integrity Act and OMB Circulars A-123 and A-130 requirements to protect the
  integrity of its financial management systems, identify needed improvements, and take corresponding
  corrective actions. According to AAA, the Corps of Engineers does not comply with the Federal Financial
  Management Improvement Act because the lack of computer controls impairs the Corps of Engineers' ability
  to ensure the reliability, confidentiality, and availability of financial and sensitive data. The Corps of
  Engineers' remediation plan has been requested but not received as of December 2002. According to GAO
  and AAA, the continued CEFMS general and application computer controls vulnerabilities impair the ability
  of the Corps of Engineers to ensure reliability, confidentiality, and availability of financial and sensitive data,
  as required by OMB Circular A-127.

  Federal agencies reporting under the Government Management Reform Act of 1994 are to follow accounting
  standards and concepts adopted by OMB, Department of the Treasury, and GAO. OMB Bulletin 01-09,
  "Form and Content of Agency Financial Statements," requires the Statement of Net Cost to present costs by
  major programs. However, the Corps did not fully implement the requirements established by OMB for its
  FY 2002 Statement of Net Cost. Instead, the Corps presented the statement by appropriation as required by
  the DoD Financial Management Regulation. The DoD Financial Management Regulation, which
  implements the OMB bulletins for DoD, requires the Statement of Net Cost to be presented by program units
  or appropriation groupings.

Audit Disclosures
  We did not conduct followup work related to the deficiencies identified in the FY 2002 Corps of Engineers
  financial statement audit related to General Property, Plant, and Equipment. Time constraints precluded the
  Corps of Engineers from providing sufficient audit-ready evidential material for the auditors to complete the
  audit. Unfinished audit work will be completed as other agreed-upon procedures.




                                                                                                                         02
                                                                                                                        fy

                                                                                                                             387
      FY02 United States Army Annual Financial Statement




388
      Civil Works Fund
United TrStates
         a n s f o r m i n g Army
                                     fy
                                            02
                             t h e A r m y : Annual
                                             I m a g i n a t i o n •Financial
                                                                     I n n o v a t i o n • I n i Statement
                                                                                                 tiative
